<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
            Prepared Statement of the 1854 Treaty Authority
    The 1854 Treaty Authority is an inter-Tribal natural resource 
organization which implements the off-reservation hunting, fishing and 
gathering rights of the Grand Portage and Bois Forte Bands of the Lake 
Superior Chippewa in the area ceded to the United States in the Treaty 
of 1854. Our program is funded by a Public Law 93-638 contract with the 
Bureau of Indian Affairs (BIA), which is appropriated directly through 
the BIA's ``Trust/Natural Resource Management--Rights Protection 
Implementation.'' The 1854 Treaty Authority respectfully requests that 
the Senate fund this appropriation in fiscal year 2011 at the same 
level it was funded in fiscal year 2010 ($30,451,000) in order to meet 
the increased cost of fulfilling our court-ordered responsibilities.
    For background purposes, the Grand Portage, Bois Forte and Fond du 
Lac Bands are signatories to the Treaty of September 30, 1854, 10 Stat. 
1109. In that Treaty the Bands ceded approximately 5,000,000 acres in 
northeastern Minnesota, reserving the right to hunt, fish and gather in 
that territory. For most of the 20th century, those off-reservation 
rights lay dormant and unrecognized and Tribal subsistence activities 
were relegated to lands within reservation boundaries. In 1985 the 
Bands went to Federal court seeking a declaratory judgment that the 
1854 Treaty did indeed reserve these off-reservation rights and that 
the State of Minnesota had no authority to regulate tribal hunting, 
fishing and gathering in the ceded territory. In the course of that 
litigation, the Bands and the State entered into negotiations 
concerning the exercise of treaty rights in the ceded territory. The 
negotiations resulted in an agreement which was approved by both the 
Minnesota Legislature and the Tribal governments. The agreement was 
then entered as a consent decree in the Federal litigation such that 
the obligations of the parties are enforceable in court.
    One of the Bands' obligations under the agreement and court order 
was to create a means by which the Bands could effectively regulate 
Band member activities. After the Fond du Lac Band exercised its right 
to opt out with notice, the two remaining Bands formed the 1854 Treaty 
Authority. To this day, the 1854 Treaty Authority is the entity 
responsible for management of the Bands off-reservation hunting, 
fishing and gathering rights.
    The 1854 Treaty Authority employs 10 full-time employees, 
consisting of an Administrative Division (three), a Resource Management 
Division (four) and an Enforcement Division (three). Two of the 
Resource Management positions are grant (temporary) funded. The 
organization is overseen by a Board of Directors comprised of the 
elected Tribal Councils of the Grand Portage and Bois Forte Bands. The 
1854 Treaty Authority also has a Judicial Services Division which 
retains a judge to hear matters arising under the Tribal code.
    The 1854 Treaty Authority is a shining example of cooperation as we 
gather and share biological information with State, Federal, local, and 
other tribal governmental units. The 1854 Treaty Authority is 
authorized through a Joint Powers Agreement with the State of Minnesota 
to enforce State natural resource laws over non-Tribal users and State 
Officers are authorized to enforce tribal law applicable to tribal 
users. The 1854 Treaty Authority has also conducted many natural 
resource improvement and research projects with the above-mentioned 
government entities, as well as organizations from the private sector.
    However, the 1854 Treaty Authority has struggled to maintain its 
full-time staff. Up until fiscal year 2010, we had not had an increase 
in base funding for our programs of any significance in many years, and 
in fact the base funding had decreased the previous seven funding 
cycles. Simultaneously, cost of living expenses have increased at a 
regular rate, and some expenses have increased at an alarming rate 
(e.g., health and vehicle insurance, fuel, etc). Staff pay costs (wages 
plus benefits) combined with a decrease in base funding compelled the 
Treaty Authority to absorb all the cost increases internally at the 
expense of other programs and services. In 2007 we were unable to 
continue doing so and two vacated positions (one biologist and one 
enforcement) remain unfilled due to lack of funding. Of particular 
concern is the fact that our current enforcement staffing level (3 
officers) is woefully inadequate to cover the 5 million acres of ceded 
territory.
    I understand that this is not a unique situation, but at the same 
time the Federal Government has a trust responsibility to protect and 
preserve treaty rights. Those rights will be jeopardized if the 1854 
Treaty Authority cannot fulfill its obligations as an effective manager 
of treaty resources. We strongly believe that we can continue to be an 
integral and positive component of natural resource management in 
northeastern Minnesota. As history shows in the short 22 years of our 
existence we have been able to establish the Bands rightful place among 
all stakeholders and provide services that stretch beyond tribal 
benefit. In short, the work we do benefits all users and citizens of 
this region.
    We are very thankful for the increase in fiscal year 2010 funding 
which enabled us to make up some of the shortfall which has plagued us 
in recent years. If we can continue to maintain funding at its current 
level, we can begin to look at ways to refill the two vacant positions 
that are sorely needed to provide adequate services to the tribes.
    Finally, I would like to close with a sincere thank you for the 
years of funding which have enabled the tribes success in this area, 
and especially the increase in 2010, and respectfully reiterate the 
request for the Senate to fund this appropriation in fiscal year 2011 
at the same level it was funded in fiscal year 2010 ($30,451,000.00) in 
order to meet the increased cost of fulfilling our court-ordered 
responsibilities.
                                 ______
                                 
  Prepared Statement of the American Association on Intellectual and 
                       Developmental Disabilities
    Dear Chairman Feinstein and Ranking Member Senator Alexander: On 
behalf of our members and supporters across the country, and tens of 
millions of children whose health, learning and behavior are daily 
impacted by dank, dark, dirty, and polluted conditions of our PreK-12 
public schools, we urge you to fund the EPA's ``Clean Green Healthy 
Schools Initiative'' at $8.2 million, $2 million above the President's 
$6.2 million request in the fiscal year 2011 EPA request.
    The national SICK SCHOOLS 2009 collaborative report assembled by 
more than 30 contributing public interest nonprofits, analyzed Federal 
data from EPA, Education, and CDC, as well as peer reviewed published 
sciences in healthy school environments. Result: at least 60 percent of 
all 55 million school children endure lower test scores and poor 
attendance due solely to the environmental conditions of their schools. 
See www.healthyschools.org/sickschools.
    The President's fiscal year 2011 EPA budget supports EPA's critical 
Office of Children's Health Protection and the agency's voluntary 
schools-focused programs that help local schools and districts to 
create healthier school environments for all children. EPA will co-lead 
a Federal interagency effort to integrate existing voluntary schools 
programs across the agencies, including asthma, indoor air quality, 
chemical clean outs, green practices (highly cost-effective as New York 
State has learned) and enhanced use of integrated pest management; 
promote safe handling and management of PCB-containing caulk in schools 
and build regional technical support and outreach; assesses the impacts 
of noncompliance with existing environmental laws on health risks in 
schools; and increase technical assistance on voluntary EPA guidelines 
under the Energy Independence Security Act (EISA of 2007) regarding 
school siting and other school environmental concerns.
    We also urge you to support increases for EPA's Healthier Indoor 
Air and for school and community air toxics monitoring, and for 
expanding EPA's asthma programs and pesticide-use reductions with 
schools. Children are 100 percent of our future and promoting healthy 
learning environments is a task that EPA is uniquely poised to tackle, 
in collaboration with Education and CDC.
    Thank you for your consideration of this request.
                                 ______
                                 
 Prepared Statement of the American Association of Petroleum Geologists
    To the chair and members of the subcommittee: Thank you for this 
opportunity to provide testimony on behalf of the American Association 
of Petroleum Geologists (AAPG) about the importance of the geological 
programs conducted by the U.S. Geological Survey (USGS).
    AAPG is the world's largest scientific and professional geological 
association. The purpose of the association is to advance the science 
of geology, foster scientific research, and promote technology. AAPG 
has nearly 34,000 members around the world, with roughly two-thirds 
living and working in the United States. These are the professional 
geoscientists in industry, Government, and academia who practice, 
regulate, and teach the science and process of finding and producing 
energy resources from the Earth.
    AAPG strives to increase public awareness of the crucial role that 
the geosciences, and particularly petroleum geology, play in our 
society. The USGS is crucial to meeting these societal needs, and 
several of its programs deserve special attention by the subcommittee.
                     geologic resource assessments
Energy Resources Program
    The USGS Energy Resources Program (ERP) conducts both basic and 
applied geoscience research focused on geologic energy resources (both 
domestic and international), including oil, natural gas, coal, coalbed 
methane, gas hydrates, geothermal, oil shale, and bitumen and heavy 
oil. In the President's fiscal year 2011 budget request, he also 
included funding for ERP to participate in the New Energy Frontier 
(wind) initiative. ERP also conducts research on the environmental, 
economic, and human health impacts of the production and use of these 
resources. This research provides both the public and private sectors 
with vital information.
    An urgent problem addressed through the ERP is the preservation of 
geological and geophysical data. The Energy Policy Act of 2005 (EPACT 
2005, Public Law 109-58) includes section 351 Preservation of 
Geological and Geophysical Data. This program is designed to preserve 
geological, geophysical data, and engineering data, maps, well logs, 
and samples. It includes development of a national catalog of this 
archival material, and providing technical and financial assistance 
related to the samples and materials. As the Act stipulated, the USGS 
created the National Geological and Geophysical Data Preservation 
Program (NGGDPP). Since the beginning of this program, however, it has 
received insufficient funding to accomplish all of the objectives set 
out in the authorizing language.
    Why is preservation important? Responsible management and efficient 
development of natural resources requires access to the best available 
scientific information. Over many years industry, such as petroleum and 
mining companies, has invested billions of dollars to acquire 
geological and geophysical data. Because of changing company focus and 
economic conditions this data may no longer have value to the company 
that acquired it, and is in jeopardy of being discarded.
    But this data still has value to society. The data is valuable for 
further natural resources exploration and development, and can be 
applied to basic and applied earth systems research, environmental 
remediation, and natural-hazard mitigation. It is the type of data that 
will enable future generations of scientists and policy makers to 
address the Nation's energy, environmental, and natural hazard 
challenges of the 21st century.
    The NGGDPP was authorized at $30 million annually in EPACT 2005. 
Historical allocations for this program have ranged from $750,000 to 
$1,000,000 per year. These funding levels are inadequate to achieve the 
program's objectives.
    AAPG supports President Obama's fiscal year 2011 request to fund 
the Energy Resources Program activities at $30.8 million, and asks the 
Subcommittee to additionally appropriate $30 million in fiscal year 
2011 for the preservation of geological and geophysical data, bringing 
the total Energy Resource Program budget to $60.8 million.
Mineral Resources Program
    The United States is the world's largest consumer of mineral 
commodities. They form the building blocks of our economy.
    It is therefore essential to this Nation's economic and national 
security that the Federal Government understands both the domestic and 
international supply and demand for minerals and mineral materials. 
This data is used throughout government (Departments of Commerce, the 
Interior, Defense, and State; the Central Intelligence Agency; the 
Federal Reserve) and the private sector.
    The USGS Mineral Resources Program (MRP) is the only Federal and 
publicly available source for comprehensive information and analysis of 
mineral commodities and mineral materials.
    AAPG supports President Obama's fiscal year 2011 request for the 
Mineral Resources Program at $52.5 million, and urges the Subcommittee 
to appropriate at that level.
               geologic landscape and coastal assessments
National Cooperative Geologic Mapping Program
    AAPG supports the National Cooperative Geologic Mapping Program 
(NCGMP). This unique partnership between the Federal and State 
governments and the university community further demonstrates the 
importance of geoscience to society. The geologic maps produced by this 
program are used for natural resource management, natural hazard 
mitigation, water resource management, environmental conservation and 
remediation, and land-use planning.
    NCGMP deserves special commendation for its EDMAP initiative. This 
university partnership enables students, working in a close mentoring 
relationship with faculty, to produce maps while learning essential 
mapping skills. As such, the program delivers an immediate return on 
the Federal investment in terms of beneficial maps, as well as a future 
return in the form of a trained and competent next generation 
workforce.
    AAPG applauds President Obama's support for the National 
Cooperative Geologic Mapping Program. However, the funding request of 
$28.3 million is essentially the amount authorized for fiscal year 
1999. Authorizing legislation envisaged annual increases up to $64 
million in appropriated funds. AAPG urges the Subcommittee to fund 
NCGMP at this level in fiscal year 2011.
    Thank you for the opportunity to present this testimony to the 
subcommittee. And thank you for your leadership and support for the 
geosciences. As you deliberate appropriate funding levels for these 
USGS programs, please consider the important public policy implications 
these choices entail.
                                 ______
                                 
     Prepared Statement of the Association of American Universities
    Dear Chairman Feinstein and Ranking Member Alexander: On behalf of 
the Association of American Universities (AAU), an organization of 60 
leading U.S. public and private research universities, I appreciate the 
opportunity to testify before you today on the fiscal year 2011 budget 
of the National Endowment for the Humanities (NEH). We believe that our 
country's ability to meet the complex changes of today and tomorrow 
requires a renewed commitment to the humanities. AAU supports $204 
million in program funds for the NEH in fiscal year 2011, including 
$144 million for national programs (an increase of $44.4 million above 
fiscal year 2010) and $60 million for the Federal/State partnership (an 
increase of $19.6 million above fiscal year 2010). We strongly oppose 
the $7.2 million in cuts the administration has proposed for NEH 
programs in fiscal year 2011.
    The Endowment is the single most important source of Federal 
support for humanities research and humanities public education. We 
believe that the Nation would benefit from a significant funding 
increase for the NEH, in part as a complement to the Federal investment 
in science and engineering research. It is through the humanities that 
we can better understand and address the social, economic, and 
political changes associated with technological development and 
globalization. We also believe that as teachers and supporters of the 
humanities, we have an obligation and an opportunity to support through 
history, literature, and language a culture of tolerance and civility, 
which is greatly needed today. NEH strengthens and benefits the nation 
by promoting excellence in the humanities and conveying the lessons of 
history to all Americans.
The History of AAU and the Humanities
    AAU universities are devoted to maintaining a system of high-
quality academic research and education in a wide range of fields at 
the undergraduate, graduate, and professional levels. Our member 
universities perform about 60 percent of Federal funded university-
based scientific and engineering research. But our schools also are 
leaders in humanities through their support of academic departments, 
public performance and lecture facilities, museums, and centers. For 
our institutions, the humanities are both subjects of research and a 
critical element of undergraduate and graduate education. AAU 
institutions use NEH grants for research and scholarship that help 
preserve the Nation's diverse heritage, educate the next generation of 
Americans, and bring the humanities to the wider public.
    Indeed, AAU institutions are engaged in a wide range of activities 
that focus attention on the benefits of a humanities education. AAU's 
2004 report, Reinvigorating the Humanities: Enhancing Research and 
Education on Campus and Beyond, not only called for university 
presidents and chancellors to give increased attention to the 
humanities but also provided an inventory of exciting campus projects 
and programs around the country.
Restoration of NEH Funds to Support Competitive Programs
    The President's proposed fiscal year 2011 budget would cut the 
Endowment's resources at a time when the agency is operating at only 
about one-third of the capacity it had in 1979, which in inflation-
adjusted dollars would amount to $429.2 million today. In the 1980s, 
the agency sustained some of the most severe funding reductions of any 
Federal agency. In 1994, the NEH budget was cut by 41.5 percent from 
the previous year. Over time, the combined impact of budget cuts and 
inflation has reduced the number, diversity, and buying power of grants 
provided by the NEH. It is worth noting that the NEH received no 
funding in the American Recovery and Reinvestment Act.
    The President's fiscal year 2011 request would cut funds for 
national programs by $5.3 million (5.7 percent) below fiscal year 2010. 
The relatively small amount of money saved by the proposed cuts would 
contribute little to overall budget savings but would have a serious 
impact on the Endowment's ability to support humanities research and 
education. NEH application rates already demonstrate significant unmet 
need. In fiscal year 2009, the NEH received 4,366 competitive grant 
applications representing more than $402 million in requested funds. 
But the Endowment was able to fund less than 17 percent of these peer-
reviewed project proposals.
    While universities have tried to close some of this funding gap 
with their own funds, it is increasingly difficult for them to do so. 
Public and private colleges and universities across the country 
continue to feel the effects of the recent economic recession, 
including budget cuts, hiring freezes, staff layoffs, course reductions 
and more. Institutions are struggling to maintain continued access to 
high-quality programs, which is particularly evident in the humanities 
disciplines. As recently reported by the National Governors' 
Association, States face an $18.8 billion budget gap in fiscal year 
2010 which many States will address, in part, by making further 
reductions in higher education. Beyond significant declines in State 
funding, colleges and universities are in the midst of a perfect storm 
of decreased endowment values, tightened credit, declining private 
contributions from individuals and corporations, increased student 
financial need, and reduced tuition revenue. Despite the loss of 
revenue, colleges and universities have worked to increase their aid to 
students in order to preserve student access. AAU members alone 
provided almost $5 billion in student aid last year. We cannot assume 
that higher education can continue to compensate for a lack of growth 
in Federal funds for the humanities.
    In addition, foundation support for the humanities has slipped 
during the past decade. Foundation assets are down about 22 percent, 
with giving down about 10 percent. This is a larger dip than in 
previous recessions. The humanities community is concerned that not 
only is overall foundation support going down, but that the share of 
foundation support for the humanities also is dropping. Moreover, there 
has been a long-term shift among foundations away from funding for 
scholarship and core disciplines toward funding for public programming. 
These funding trends are of particular concern to AAU institutions 
because unmet need is forcing humanities students (particularly 
graduate students) to assume growing debt.
AAU Funding Priorities for the NEH
    The humanities community's fiscal year 2011 request of $204 million 
in program funds for NEH represents an important step in restoring the 
Endowment to its historic funding levels. This request would support an 
increase of $144 million for national programs, including $36.9 million 
to increase the award rate for seriously underfunded grant competitions 
and $7.5 million for a new, competitively awarded graduate student-
faculty program. National programs are our first priority, representing 
the pool of funds that support peer-reviewed, competitive grant 
opportunities for a wide range of educational institutions, nonprofit 
organizations, and individual scholars around the country. They 
encompass NEH core programs, divisions, and special initiatives. These 
areas include research, education, preservation & access, challenge 
grants, public programs, the Office of Digital Humanities, We the 
People, and Bridging Cultures.
    Within the education division, AAU is particularly supportive of 
the Summer Seminars and Institutes, which fund national faculty 
development programs that provide a critical forum for leading scholars 
and faculty to deepen their knowledge of current scholarship. 
Similarly, Faculty Humanities Workshops support local and regional 
professional development programs that allow faculty and scholars to 
engage in collaborative study. Within the research division, several 
programs, including Summer Stipends and Fellowships, support 
individuals or teams of two or more scholars (not including graduate 
students) pursuing advanced research that will contribute to scholarly 
knowledge or to the public's understanding of the humanities.
    One of the problems that humanities researchers and scholars face 
is that the reinterpretation of history and other scholarly work that 
often define the work of humanists do not fit the traditional concept 
of ``research,'' as we think of it in the science and engineering 
disciplines. AAU is working with others in the humanities community to 
find ways to better communicate how research in the humanities differs 
from research in the sciences, but is still essential to addressing 
many of today's challenges.
    The second priority for AAU is a new competitively awarded graduate 
student-faculty program. We have engaged in extensive discussions 
during the past 2 years with the White House, the Office of Management 
and Budget, the NEH, and Congress (particularly the House Humanities 
Caucus Co-Chairs) and believe that we have support, particularly with 
the leadership of the Endowment, for such a program. It would 
simultaneously expand scholarship in key areas of inquiry, support the 
education of graduate students in the conduct of research, and bring 
faculty and graduate students together in collaborative arrangements 
that have long characterized the sciences. In the sciences, such 
collaborations foster creativity by combining the knowledge and 
experience of faculty with the energy and creativity of graduate 
students. The benefits of faculty mentorship, early and in-depth 
engagement of graduate students in research, and the enrichment of 
scholarly endeavors by the close interaction of faculty and graduate 
students have been all too lacking in the humanities.
    While we are flexible as to how the program should be structured, 
our initial proposal is a national competitive program in which 
proposals from universities would be judged on the scholarly inquiry to 
be conducted; the manner in which the proposed research topic would be 
enhanced by faculty-supervised graduate student research; the 
intellectual, social, or cultural significance of the research; the 
contribution of the research to interdisciplinary research; and the 
plans to communicate the research within and beyond the academic 
community. We believe that the first step should be internal 
competitions within institutions, with each university selecting which 
proposals should be submitted to the NEH national competition. The 
institutional proposals might involve a team of one faculty member and 
one graduate student, or two or more faculty members working with 
several graduate students on an interdisciplinary topic.
    This new program would build on the Endowment's decision to allow 
graduate students to participate in the NEH summer seminars, as the 
humanities community requested. Still, the NEH does not currently 
support graduate research in the humanities. While the National 
Institutes of Health, the National Science Foundation, the Departments 
of Defense and Energy, and the National Aeronautics and Science 
Administration, have graduate education components to complement their 
university-based research, the NEH stands as one of the few Federal 
agencies that does not support or train the next generation of 
researchers or support collaboration between students and faculty. The 
Endowment once funded a small dissertation fellowship program, but the 
program was de-funded when the agency sustained significant budget cuts 
in the mid-1990s.
    Many details of the proposed program remain to be worked out, but 
we believe that NEH is uniquely positioned to promote collaboration 
between faculty and graduate students in a manner that both enriches 
humanities scholarship and helps to supply our Nation with the talented 
and knowledgeable individuals who will contribute to a culturally 
competent workforce. This is a two for one in a single program. We 
believe it is a vital element in sustaining the pipeline of young 
humanities researchers and scholars.
    The third priority for AAU is improved humanities data collection. 
AAU supports the administration's fiscal year 2011 budget language 
citing the NEH's intentions to ``enter into a partnership with the 
American Academy of Arts and Sciences . . . to sustain and extend 
AAAS's developmental work on the Humanities Indicators Project.'' The 
project, which is responsive to NEH's legislative mandate to develop a 
system of national information and data collection, is making a wide 
range of humanities data available to researchers, educators, and the 
general public. These data will equip policymakers and institutional 
administrators with statistical tools to help inform decisionmaking 
about K-12, higher education, the humanities workforce, and other areas 
of concern to the humanities community.
    AAU encourages you to consider the importance of the humanities in 
our society today. NEH helps colleges and universities around the 
country ensure that the humanities remain central to their missions and 
to the cultural life of the Nation. In its role as the largest Federal 
supporter of the humanities, the NEH broadens public awareness of and 
participation in the humanities through teaching, scholarship, and 
research.
    AAU, as part of the larger humanities advocacy community, supports 
a significant increase in the Endowment's budget to enable the agency 
to more broadly support the research and education programs our Nation 
needs to better understand an increasingly complex world. In addition, 
we believe that Congress has a unique opportunity to support a new 
program to facilitate more interaction between students and faculty in 
the humanities. We look forward to discussing the details of such a 
program as you develop the fiscal year 2011 Interior, Environment, and 
Related Agencies appropriations bill.
    Again, thank you for the opportunity to testify today and I welcome 
any questions.
                                 ______
                                 
          Prepared Statement of the American Bird Conservancy
    American Bird Conservancy's testimony focuses on the U.S. Fish and 
Wildlife Service's (FWS) Neotropical Migratory Bird Conservation Act 
(NMBCA) grants program and the Joint Ventures (JV) program. American 
Bird Conservancy requests NMBCA be funded at $6.5 million ($1.5 million 
above fiscal year 2010's level) and JVs be funded at $18 million ($4 
million above fiscal year 2010's level). An increase in funding for 
these programs would benefit the songbirds that are soon to arrive back 
from their wintering grounds and to the backyards and birdfeeders of 
millions of anxiously awaiting Americans. We further request $5 million 
for reforestation in Appalachia, and a spending limitation on the 
logging of mature forests and trees on Federal lands.
    American Bird Conservancy leads a coalition of conservation 
organization that includes National Audubon Society, Defenders of 
Wildlife, Point-Reyes Bird Observatory, and The Wildlife Society--who, 
together, advocate for Federal programs crucial for bird conservation. 
These programs are the Neotropical Migratory Bird Conservation grants 
program, JVs, the FWS's Office of Migratory Bird Management, the North 
American Wetlands Conservation Act, State Wildlife Grants, the USGS 
Breeding Bird Survey, Wildlife Without Borders, and the International 
Programs within the USDA Forest Service.
    As members of this subcommittee know well, America is blessed with 
a spectacular abundance and rich diversity of birds, with more than 800 
species inhabiting the mainland, Hawaii, and surrounding oceans. So 
it's easy to understand why 75 million Americans engage in bird 
watching--and how this activity generates more than $45 billion to our 
economy every year.
    Unfortunately, we found out in last year's FWS's groundbreaking 
State of the Birds Report that many of our bird species are in decline 
and some are threatened with extinction. For example, Eastern 
Meadowlarks, historically found in great abundance in our prairies, 
have dropped 70 percent over the past 30 years. The Northern Bobwhite 
quail has similarly lost 70 percent of its population in just 45 years. 
Rusty Blackbirds have declined by a staggering 99 percent. On Hawaii, 
the Akikiki and Akekee have undergone severe population declines 
leading to their recent listing under the Endangered Species Act.
    The 2010 State of the Birds Report on Climate Change finds that 
most U.S. bird species will be imperiled by climate change, including 
common birds that are currently not of conservation concern. All 67 
species of U.S. seabirds are rated as vulnerable, and islands also top 
the list of habitats where birds will be at greatest risk, indicating 
the efforts to conserve Hawaiian bird species need to be intensified.
    Furthermore, American Bird Conservancy's report, Saving Migratory 
Birds for Future Generations: The Success of the Neotropical Migratory 
Bird Conservation Act, found that of our 341 species that are 
neotropical migrants--meaning birds that breed in the United States and 
Canada and winter in Latin America and the Caribbean--127 are in 
decline. Sixty of those species, including 29 songbirds, are in severe 
decline having lost 45 percent or more of their population in the past 
40 years. If these trends continue, future generations of Americans may 
never be able to see a bright blue Cerulean Warbler, Bell's Vireo, or 
Black-chinned Sparrow.
    This trend can be seen all throughout the country. Here in 
Washington, DC for example an annual census of birds in Rock Creek Park 
that started in the 1940s, found that the number of migratory songbirds 
breeding there has dropped by 70 percent over the past half-century. 
Three species of warbler (Black-and-white, Hooded, and Kentucky) no 
longer breed there at all.
    The main reasons for these precipitous declines are well 
established and reported in the 2009 State of the Birds Report: The 
largest source of bird mortality is due to habitat loss through 
conversion for human uses. Resource extraction and a growing human 
population have resulted in more development and land conversion for 
suburban sprawl so there are simply fewer and fewer large blocks of 
unbroken habitat for our native birds.
    The second major impact is from habitat degradation from 
ecologically harmful land uses, such as unsustainable forestry or 
destruction of grasslands to create farm land. Deforestation, 
especially in Latin America, is accelerating at an alarming rate, 
driven by the needs of the rapidly expanding human population, which 
has tripled from 1950-2000. Estimates of the percentage of remaining 
forests that are lost each year in the Neotropics are between 1-2 
percent.
NMBCA
    To address these two problems--habitat loss and degradation, both 
of which are rapidly increasing south of our border--ABC respectfully 
suggests that Congress act to help mitigate their impact by improving 
the appropriations level for the NMBCA grants program. As the 
subcommittee knows, the NMBCA supports partnership programs in the 
United States, Canada, Latin America, and the Caribbean to conserve 
migratory birds, especially on their wintering grounds where birds of 
nearly 350 species, including some of the most endangered birds in 
North America, spend their winters. Projects include activities that 
benefit bird populations such as habitat restoration, research and 
monitoring, law enforcement, and outreach and education.
    Saving Migratory Birds for Future Generations also found the grant 
program has a proven track record of reversing habitat loss and 
advancing conservation strategies for the broad range of Neotropical 
birds that populate America and the Western Hemisphere. The public-
private partnerships along with the international collaboration they 
provide are proving themselves to be integral to preserving vulnerable 
bird populations.
    From 2002-2008, grant money has gone out to 44 U.S. States and 34 
countries, funding 260 projects, impacting almost 3 million acres of 
critical bird habitat. More than $25 million in federally appropriated 
dollars have leveraged more than $116 million in partner contributions. 
However, demand for funding of high-quality conservation projects far 
outstrips current appropriations, and in 2008, 63 projects requesting 
nearly $10,000,000 were not funded. From these numbers, it is clear 
that conservation that would benefit our migrant songbirds is not able 
to take place due to a lack of funding for this program.
    We respectfully request that NMBCA be funded at $6.5 million ($1.5 
million above fiscal year 2010's level).
JVs
    JVs also exemplify a highly successful, cost-effective approach to 
conservation and are now being looked to as model for the Landscape 
Conservation Cooperatives. By applying science and bringing diverse 
constituents together, JVs across the United States have created a 
model for solving wildlife management problems and restoring habitats 
critical to conserving declining species. Nationally, JVs have 
protected, restored, or enhanced more than 13 million acres of 
important habitat for migratory bird species. There are currently 21 
JVs in the United States that provide coordination for conservation 
planning and implementation of projects that benefit all migratory bird 
populations and other species.
    JVs have a long history of success in implementing bird 
conservation initiatives mandated by Congress and by international 
treaties. Projects are developed at the local level and implemented 
through diverse public/private partnerships. These projects reflect 
local values and needs, while addressing regional and national 
conservation priorities. The projects benefit not only birds, but many 
wildlife species, and have a positive impact on the health of 
watersheds and local economies.
    Every dollar invested in JVs leverages more than $44 in non-Federal 
partner funds (1999-2004) for on-the-ground habitat conservation and 
restoration projects, biological planning, and outreach. ABC believes 
JVs should be funded at $18,000,000 in fiscal year 2011 to allow them 
to meet their increased responsibilities. This increase in funding 
would help strengthen the public/private partnerships that leverage 
increasingly scarce public funds for on-the-ground habitat restoration 
and acquisition projects; continue to incorporate recent scientific 
advances in the development of landscape-conservation plans; and build 
capacity within the newer Joint Ventures, while maintaining expertise 
within established ones.
    ABC strongly believes increased funding for NMBCA and JVs is 
essential to achieving conservation goals critical to our environment 
and economy. Just as importantly, these Federal programs are good 
values for taxpayers, leveraging more than $4 and $44, respectively, in 
partner contributions for each one that the taxpayers spend.
    We respectfully request that JVs be funded at $18 million ($4 
million above fiscal year 2010's level).
Conserving Forest Carbon and Restoring Wildlife Habitat
    Lastly, we believe land management activities that are ecologically 
unsustainable, or that are contrary to the recommendations of the 2010 
State of the Birds report should be discontinued. Of particular concern 
is the continued logging of mature forests on Federal lands. While the 
cutting of large fire-resistant trees and older forests has been 
greatly reduced, it still continues on Federal lands, engendering 
strong public opposition, needless controversy, environmental harm, and 
a significant waste of scarce agency resources.
    We respectfully request the subcommittee include in the bill a 
funding limitation for projects that would log mature and old-growth 
forests or individual trees 100 years or older on all Federal forest 
lands. These forests and trees should be held in trust to both help 
mitigate the impacts of climate change by keeping these immense volumes 
of carbon from being released into the atmosphere, and to help wildlife 
adapt to changing conditions.
    There are also opportunities to reforest abandoned minelands in 
Appalachia that would greatly enhance carbon storage above current 
levels, as well as provide much needed wildlife habitat in forest areas 
that have been heavily fragmented. Of particular concern is the 
Cerulean Warbler whose population has declined 70 percent since surveys 
began 40 years ago. The species needs large-blocks of unfragmented 
habitat, which is currently in short supply in the eastern forests.
    The Appalachian Regional Reforestation Initiative developed by 
Federal and State government scientists, State wildlife agencies, and 
conservation organizations proposes to create 2,000 jobs over the next 
5 years restoring these lands and returning them back into productive 
forests. We respectfully request the subcommittee approve $5 million to 
begin this Appalachian reforestation initiative.
    In conclusion, Madam Chairman, let me just say that America faces a 
serious challenge to reverse the decline of many of our bird species, 
but we can do it. Since birds are sensitive indicators of how we are 
protecting our environment as a whole, this decline signals a crisis 
that Congress must act now to reverse it. If the State of the Birds 
reports tell us anything, it is that when we apply ourselves by 
investing in conservation, we can save imperiled wildlife, protect 
habitats, and solve the multiple threats at the root of this problem.
                                 ______
                                 
  Prepared Statement of the Advisory Council on Historic Preservation
    My name is John L. Nau, III, and I am pleased to submit my 
testimony to the subcommittee. I serve as Chairman of Advisory Council 
on Historic Preservation (ACHP). Let me note at the outset ACHP's 
appreciation for the subcommittee's continued support and interest in 
the Nation's historical and cultural resources. ACHP is dedicated to 
the preservation of our Nation's historic and cultural resources. I 
support maintaining fiscal year 2010 funding levels for the historic 
preservation programs within the Department of the Interior, including 
Preserve America and Save America's Treasures Grants in the fiscal year 
2011 Interior, Environment, and Related Agencies appropriations bill. 
Both programs are important to economic vitality in communities 
throughout America, providing jobs in the construction and tourism 
industries while concurrently enabling the preservation of historic 
properties and artifacts for the benefit of current and future 
generations.
    In 2007, Senators Hillary Clinton and Pete Domenici and 
Representatives Brad Miller and Mike Turner introduced legislation to 
authorize the Preserve America and Save America's Treasures programs. I 
was delighted when this important legislation was overwhelmingly passed 
and then signed into law as part of the Omnibus Public Land Management 
Act of 2009.
    Preserve America serves as a driver of economic activity and a 
powerful tool for preserving significant historic and cultural 
resources throughout the country. The program enables local communities 
to create viable strategies to use their historic assets to meet 
contemporary needs. In doing so, it helps to inform our citizens about 
the past while also fulfilling our shared commitment to ensuring that 
future generations can benefit from historic preservation as we have.
    Since the program was launched in 2006, Preserve America has 
awarded nearly $20 million for 259 projects in 49 States with an 
additional group of grant awards pending. More than 700 projects 
proposals have been received by the National Park Service requesting 
over $60 million. A recent assessment of the program concluded that 
Preserve America Grants:
  --Address a broad range of heritage tourism and historic preservation 
        needs that are unmet by other Federal assistance programs;
  --Stimulate the creation and development of innovative programs and 
        projects of all types;
  --Are helping to support economic development by stimulating local 
        economic activity;
  --Provide scarce seed money to leverage investment and in-kind 
        support for heritage tourism; and
  --Encourage education initiatives that foster appreciation for 
        history among young people.
    In addition, Preserve America serves as a valuable complement to 
other important historic preservation programs, in particular the Save 
America's Treasures program. Save America's Treasures is the Nation's 
only bricks-and-mortar preservation grant program. Established by 
Executive Order in 1998, it is a public-private partnership that 
includes the National Trust for Historic Preservation, the National 
Park Service, the President's Committee on the Arts and Humanities, and 
the Federal cultural agencies.
    Over the past 10 years, SAT has been a driver of economic 
development and the Federal Government's most successful tool to 
preserve the important places that tell our Nation's story. Since its 
creation, Save America's Treasures has designated more than 1,100 
projects in all 50 States, created an estimated 16,000 jobs, and 
awarded approximately $300 million in grants to preservation efforts 
across the country. The projects range from such iconic objects as the 
Star-Spangled Banner to historically and architecturally significant 
structures like the Acoma Pueblo and the Conservatory of Flowers.
    In order to build upon these successes, it will be necessary to 
ensure that more cities and communities can benefit from Preserve 
America in the future. Level funding in fiscal year 2011 will provide 
the momentum needed for this program to remain viable going forward. 
Absent this continuity in funding resources, I fear the demise of this 
widely supported bipartisan program.
    Since 2004, a total of 814 municipalities, counties, Indian tribes, 
and urban neighborhoods have applied for and received designation as 
Preserve America Communities. All of these designated communities are 
eligible to apply for competitive 50/50 matching Preserve America 
Grants from the National Park Service, along with State Historic 
Preservation Offices, Tribal Historic Preservation Offices, and 
Certified Local Governments that are in the process of applying for 
Preserve America Community designation. The grants are given for 
projects that help preserve, promote, and use historic resources for 
cultural heritage tourism and related economic development and 
educational purposes. Grants are given in five categories: Research and 
Documentation; Planning; Interpretation and Education; Promotion; and 
Training.
    Preserve America Grants totaling $783,754 for eight projects in 
California have been awarded since 2006 to five different cities, one 
group of urban neighborhoods, and one Indian tribe. While much of the 
multi-year grant work has not yet been completed, below are summaries 
of two of these grant projects.
    One such award went to Monterey, California for $100,000.
    The grant focused on a coordinated interactive way-finding and 
signage program to promote the many significant historic and cultural 
resources in Monterey. A high proportion of the local economy is geared 
to tourism, and downtown Monterey is a National Historic Landmark 
historic district. There are many remnants of the Spanish and Mexican 
colonial periods prior to 1846, structures from the later territorial 
and statehood period, and the Cannery Row area made famous by John 
Steinbeck. Work under the grant has included three principal 
components:
    Develop signage for public and privately-owned historic assets in 
the downtown Monterey business area, including ``virtual'' 
interpretation via Internet-based and cell phone technology in order to 
guide and orient visitors as well as residents to heritage attractions.
    Produce an inclusive print and web-based brochure to highlight 
Monterey's story, a timeline of Monterey's history, and a citywide 
walking map with different historic trails delineated.
    Create an interactive, downloadable Internet-based resource map of 
historic assets and working tour information encompassing the entire 
City of Monterey, to complement the onsite and distance way-finding 
program.
    According to the City's 2009 project assessment, ``The funding 
received by the City of Monterey has had a stimulating effect on the 
promotion of Monterey's multiple levels of heritage, [and] the Preserve 
America designation and receipt of the grant has proven a catalyst for 
new programs and projects throughout all of Monterey County . . . We 
could not have developed these programs without the Preserve America 
grant. We continue to refine our signage program, which included a 
local designer who was paid from the grant funds. The prototype signs 
designed as part of the grant have proven to be popular and will, at 
some time, replace 49 more signs throughout the city. That is economic 
redevelopment based on heritage tourism. We are now increasing our use 
of electronic way-finding and cell phone tours that we could not 
accomplish without the grant funding. That expansion of way-finding 
will lead to a contract with a cell phone tour company, and possibly a 
position for a Web page administrator within the next year. For the 
City of Monterey, the grant received in 2006 was an early stimulus 
package . . . The success of the grant has made it clear that this type 
of funding, so difficult to justify in a city budget, is vital to the 
promotion of heritage tourism.''
    Another award in California went to an ``Indian Island 
Interpretation and Education Project'' for the Wiyot Tribe, in Loleta, 
California.
    The project will help promote and manage public access to a 
National Historic Landmark Native American village site with the 
development of educational materials, the design and installation of 
interpretive kiosks and signage, and establishment of special events, 
tours and field trips to an important site in Humboldt Bay. In 
conjunction with environmental clean-up and restoration work, the 
Indian Island Cultural and Environmental Restoration Project is a 
collaborative partnership between the Wiyot Tribe and the City of 
Eureka, with assistance and support from the Humboldt Bay Maritime 
Museum, the Humboldt County Visitors and Convention Bureau, and other 
local partners. The location that will be interpreted is the important 
archaeological site of Tuluwat Village on Indian Island, portions of 
which date to A.D. 900. Tuluwat Village is the ``center of the 
universe'' for the Wiyot people, and the site is the historic as well 
as the more recent location of a week-long World Renewal ceremony each 
February where a massacre of more than 200 native inhabitants took 
place in 1860. In addition to the economic potential related to area 
tourism, a significant feature of the project is the development of 
curriculum materials for school and other youth groups.
    By way of further example, in Tennessee, eight communities are 
designated as Preserve America communities, and six more have 
applications pending. In addition, three grants totaling $267,000 have 
been awarded for Preserve America projects in Franklin, Jonesborough 
and Oak Ridge.
    I support funding Preserve America at the fiscal year 2010 amount, 
and I welcome an opportunity to meet with you or your staff to provide 
any additional information and to discuss this with you further.
    Thank you for your consideration of this written testimony.
                                 ______
                                 
              Prepared Statement of Amigos de la Sevilleta
    Madam Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of 
acquiring land at Sevilleta National Wildlife Refuge in New Mexico. An 
appropriation of $1.5 million is needed in fiscal year 2011 from the 
Land and Water Conservation Fund in order for the U.S. Fish and 
Wildlife Service to acquire the 250-acre first phase of the 1,250-acre 
Indian Hill Farms property.
    Covering an area of approximately 360 square miles and located just 
40 miles south of Albuquerque, the largest city in the State, the 
Sevilleta National Wildlife Refuge serves as a vast protected landscape 
in the heart of New Mexico. The refuge supports four major ecological 
habitats, encompassing two mountain ranges and containing approximately 
4 miles of the Rio Grande River. Much of the refuge is managed to 
enhance riparian habitat and compensate for marsh loss along the Rio 
Grande basin. The refuge provides important habitat for a large variety 
of birds, insects, reptiles, and mammals such as beaver, coyote, 
bobcat, fox, jackrabbit, and elk. Parts of the refuge are flooded from 
November to February in order to provide habitat for migrating 
shorebirds and waterfowl including herons, ducks, geese, and sandhill 
cranes. The refuge is also managed to combat nonnative species such as 
the extremely invasive salt cedar. This nuisance species is being 
cleared and replaced with native willow and cottonwood to restore the 
natural bosque/riparian habitat native to the area.
    Available for acquisition in fiscal year 2011 is the first 250-acre 
phase of the 1,250-acre Indian Hill Farms property, which lies adjacent 
to 3 miles of the Rio Grande as well as current refuge lands. Indian 
Hill Farms comprises more than 600 acres of prime irrigated farmland 
and a very significant quantity of senior water rights which will 
provide the refuge with excellent opportunities for the creation of 
wildlife habitat, including moist soils, wetlands, and restored river 
bosque. The Sevilleta NWR is home to the second largest population of 
the endangered Southwestern willow flycatcher along the Rio Grande 
River. If Indian Hill Farms is added to refuge ownership, there are 
plans to restore a portion of the property to provide additional prime 
flycatcher habitat. Because the farm is the first to take water rights 
off the important San Acacia Dam, located just off the edge of the 
farm, control of the water rights by the U.S. Fish and Wildlife Service 
should also provide additional protection and benefit to the endangered 
silvery minnow, found within portions of the Rio Grande that run 
through the refuge. Given the water rights associated with the property 
and its location along the Rio Grande, acquisition of the Indian Hill 
Farms property could provide the refuge system a tremendous opportunity 
for habitat manipulation for a number of different wildlife uses, 
including endangered species habitat, wintering waterbird habitat, 
migratory landbird use, as well as raptor and resident big game 
habitat. Its location between two major wintering waterfowl areas, Ladd 
S. Gordon Complex to the north and Bosque del Apache NWR to the south, 
makes this a key acquisition to enhance waterfowl populations in the 
Middle Rio Grande area.
    Currently, Sevilleta NWR offers limited public access as much of 
its acreage has been designated to ongoing research projects. Sevilleta 
NWR is the host to the University of New Mexico's (UNM) Long-Term 
Ecological Research program initiated in 1988 and funded through the 
National Science Foundation. This program examines the responses of 
different ecological communities to climate change and UNM has 
expressed great interest in research projects that would be associated 
with the planned conversion of farmland to wildlife habitat should 
Indian Hill Farms be acquired by the refuge.
    An appropriation of $1.5 million in fiscal year 2011 will be 
combined with an appropriation of $500,000 provided in fiscal year 2010 
to ensure that the first phase of the Indian Hill Farms property is 
protected in perpetuity. The USFWS is pursuing the administrative steps 
necessary to include the entire Indian Hill Farms property within 
refuge boundaries, and an appraisal is also underway to determine the 
property's value.
    The addition of this priority parcel to the Sevilleta NWR will 
allow for the creation and restoration of important wildlife habitat 
types along the Rio Grande River, increase public access to refuge 
lands, and increase unique research opportunities for local scientists.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds, improving wildfire management, and assisting the 
adaptation of wildlife and fisheries to climate change. For all these 
reasons, the President has included meaningful increases to the program 
in his fiscal year 2011 budget, and I support the administration's 
commitment to fully funding the program in the near future. Recognizing 
the many demands this committee faces, I also want to thank the 
subcommittee for its recent effort to restore much-needed funding to 
this depleted program. This wise investment in the Land and Water 
Conservation Fund is one that will permanently pay dividends to the 
American people and to our great natural and historical heritage.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in New Mexico, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
              Prepared Statement of Americans for the Arts
    Americans for the Arts is pleased to submit written testimony to 
the Senate Appropriations Subcommittee on the Interior, Environment, 
and Related Agencies supporting fiscal year 2011 funding for the 
National Endowment for the Arts (NEA) at a level of $180 million.
    April 13, 2010 was Arts Advocacy Day on Capitol Hill, an annual 
grassroots gathering hosted by Americans for the Arts and cosponsored 
by 86 national organizations representing dance, theater, music, 
literature, and the visual and media arts-the full landscape of 
American culture. Collectively these national groups represent tens of 
thousands of nonprofit and governmental cultural organizations at the 
State and local levels across the country.
    At the annual hearing on arts funding held by the House Interior 
Appropriations Subcommittee Americans for the Arts witnesses 
represented a broad cross-section of stakeholders who partner with the 
Federal Government to promote, support, and deliver the highest quality 
arts to the farthest-reaching parts of America, ranging from rural 
communities like Chelsea, Michigan and Minot, North Dakota to large 
urban centers such as Philadelphia, Pennsylvania. The subcommittee 
heard unique perspectives of how the arts in America play out as an 
important diplomatic and strategic instrument within the global 
community, how corporate investment in the arts is working hand in hand 
with government support to enrich the cultural life and opportunities 
within communities. The subcommittee also heard about how investments 
in nonprofit arts groups in small and large towns across the country 
have created the foundation for today's artists to ignite their talent, 
perfect their craft, pursue their dreams.
    The nonprofit arts industry is a $166.2 billion economic sector 
that supports 5.7 million full time equivalent jobs and pumps $29.6 
billion in tax revenue back into local, State, and Federal treasuries. 
Quite simply put, the arts equal jobs. More importantly, these are jobs 
that are part of the new and growing information and innovation 
economy. These are not the kind of jobs that can be outsourced abroad. 
They are home-grown, made in America jobs.
    The National Endowment for the Arts did a superb job of quickly and 
effectively distributing $50 million of economic recovery funds, 
included in the American Recovery and Reinvestment Act, across the 
country to save jobs in the arts. Within a few short months, the NEA 
had developed an application process, reviewed thousands of requests, 
and administered hundreds of grants both directly to individual arts 
institutions and through a re-granting process by regional, State, and 
local arts agencies in order to broaden the reach of these funds. I'd 
like to share a few examples of how these NEA recovery funds were used:
  --In Los Angeles, California, the NEA awarded $420,084 to the Los 
        Angeles County Arts Commission and the city of Los Angeles' 
        Department of Cultural Affairs. The two organizations 
        distributed the money to 16 local arts organizations to help 
        pay the salaries of 21 administrative staffers whose jobs were 
        to be eliminated. These organizations included the H.E. Art 
        Project, Hollywood Entertainment Museum, Jazz Bakery 
        Performance Space, Ryman/Carroll Foundation, Contra-Tiempo, 
        East Los Angeles Classic Theater, Friends of Chinese American 
        Museum, Greenways Arts Alliance, L.A. Stage Alliance, Latino 
        Theater Company, Pan African Film and Arts Festival and the 
        Unusual Suspects Theater Company.
  --In Tennessee, the Allied Arts of Greater Chattanooga received 
        $100,000 in stimulus funds to preserve jobs within local arts 
        agencies. The local groups receiving these funds were Ballet 
        Tennessee, Chattanooga Boys Choir, Chattanooga Girls Choir, 
        Chattanooga Symphony & Opera, Chattanooga Theatre Centre, 
        Choral Arts of Chattanooga, Creative Discovery Museum and 
        Shaking Ray Levi Society.
  --In Idaho, the Idaho Shakespeare used recovery funds to guarantee a 
        fourth show will be produced for its 2010 season. This in 
        effect secured jobs for nine Equity actors, five directors/
        designers, a stage manager, and a production assistant for a 
        Shakespearean production. Opera Idaho hired a marketing 
        director, a position it lost in 2007. The Cabin, a literary 
        program, sustained its 12 staff writers for its Writers in the 
        Schools program and for its summer camps, which reaches kids 
        from Cambridge to Fort Hall, and Boise to Pocatello.
  --In Virginia, direct NEA grants to nonprofit arts organizations 
        supported the preservation of jobs at such places as Signature 
        Theater in Arlington and the venerable Wolf Trap Foundation for 
        the Performing Arts. The Virginia Arts Commission received 
        $331,000 in critical funding that was used for the retention or 
        reinstatement of critical staff positions that have been 
        jeopardized by the current economy. The Piedmont Arts 
        Association in Martinsville received $10,300 to be used for the 
        preservation of the part time Education Coordinator position.
  --Seattle's Office of Arts & Cultural Affairs received a $250,000 
        local arts agency recovery grant from the NEA to specifically 
        re-grant to local Seattle arts organizations. Funds helped to 
        preserve 16 arts administrator positions, eight educational 
        staff, 40 artists, and 15 production personnel positions at 22 
        arts organizations.
  --The Oklahoma Arts Council disbursed $306,800 in Federal recovery 
        funds to 16 nonprofit organizations across the State. Funds 
        specifically helped to restore a costume designer's position 
        from part-time back to full-time at the Lawton Community 
        Theatre, save a music director's position at Cimarron Circuit 
        Opera in Norman, and kept the arts education coordinator 
        position at the Arts and Humanities Council of Tulsa. At 
        Oklahoma Children's Theatre in Oklahoma City, a $15,000 
        recovery grant was used to prevent the executive director's 
        position to go from full-time to part-time.
  --Through another $250,000 local arts agency economic recovery re-
        grant from the NEA, the Broward County, Florida Cultural 
        Division provided salary support at several local arts 
        organizations. The salaries they supported were for positions 
        that would have otherwise been laid off during the recession, 
        including nine local jazz musicians at the Gold Coast Jazz 
        Society, the director of education at the Coral Spring Museum 
        of Arts, and a part-time education coordinator at the Art and 
        Culture Center of Hollywood.
  --In Ohio, recovery grants supported many positions, including two 
        community cultural project managers as well as the school 
        residency supervisor at the Great Lakes Theatre Festival.
    Real People. Real Jobs.--The $50 million investment that this 
subcommittee made in the nonprofit arts sector reached all 50 States. 
$16.8 million was regranted through the State arts agencies, $4.8 
million was re-granted through the local arts agencies, and 
approximately $28 million was awarded directly to cultural institutions 
through the NEA. According to the Federal Government's Recovery.org Web 
site, 1,408 jobs have been funded through the NEA's economic recovery 
direct grants as of March 2010. This has been a lifeline to the arts 
community and we are truly grateful that artists and arts 
administrators were recognized as an important economic sector to the 
Nation's recovery.
    But, unfortunately, it's still not enough to offset the major 
declines in public and private support of the arts that have occurred. 
Last year, State government arts appropriations dropped 10 percent, 
local government support fell 8 percent, and private giving to the arts 
fell 6.5 percent. If you total up these losses, it's approximately less 
than $1 billion going into the arts in just 1 year.
    According to the Americans for the Arts National Arts Index, while 
there are signs of economic recovery for the country as a whole, we 
know from our trend data that the creative sector lags a full year 
behind business trends. While all indications point to another 
difficult year for arts organizations for 2010-2011, we have seen 
wonderful and creative signs of perseverance. Many arts groups have re-
doubled marketing efforts as a means of increasing earned income 
potential, resulting in great ticket sale seasons and bringing in new 
audiences.
    The NEA plays an important role in helping these arts organizations 
leverage both contributed income as well as earned income. During this 
economic downturn, I encourage this subcommittee to increase funding 
for the NEA in order for it to carry out its important mission of 
leveraging more funds for the arts.
Leveraging Other Federal Agency Support
    The NEA plays a very important role in developing partnerships with 
other Federal agencies--such as the Departments of Housing and Urban 
Development, Education, and Transportation--in order to open new 
channels for arts organizations to work with all aspects of government. 
For example, CDBG funds can be used for restoring cultural facilities, 
transportation funds can be used for public art, and education funds to 
deliver quality arts education programs to kids in- and after-school.
Leveraging State and Local Government Support
    The NEA helps to leverage State and local governments to fund the 
arts as well. Forty plus years ago, something as simple as requiring 
States to match funds that it receives from the NEA helped create State 
arts councils in every State that now appropriate $297 million of state 
funds to support the arts.
    At the local level, the NEA's original local arts agency program 
created an even higher 2 to 1 match that was welcomed by local 
governments. Since 1984, the NEA's Local Arts Agency program has 
supported more than 800 grants totaling $47 million. This program 
spurred unprecedented growth in local government support for the arts 
in large part due to higher matching requirements, sensitivity to local 
standards and tastes, and their proven track record of being 
trustworthy stewards of public funds. Today, local governments invest 
$765 million of their own funds to support artists and community-based 
nonprofit arts organizations, ranging from traditional symphonies and 
operas to ethnically specific cultural programs and arts education 
initiatives.
    With this record of accomplishment in mind, I want to encourage 
this subcommittee to enhance the formal re-granting partnership program 
for local arts agencies to help the NEA better serve arts organization 
of all sizes in communities across the country.
Leveraging Private Contributed and Earned Income Support
    An NEA grant embodies a reputation of a national seal because of 
its rigorous review standards and the high level of competition. As a 
result, when the NEA awards direct grants to arts organizations across 
the country, the strong leveraging effect of attracting additional 
contributed dollars is unparalleled. The NEA has also served an 
important role of leveraging an arts organization's earned income 
potential by supporting marketing initiatives ranging from investments 
in centralized ticketing offices, online community-wide cultural 
calendars to market research studies of audience trends and habits.
    In conclusion, I want to again express the nonprofit art 
community's gratitude for your efforts thus far. I respectfully ask the 
subcommittee to continue its commitment to the creative sector by 
supporting an increase in the NEA fiscal year 2011 budget to $180 
million to save jobs, educate our children, and maintain America's 
cultural dynamism.
                                 ______
                                 
 Letter From by the American Forest Foundation; California Forest Pest 
 Council; City of Chicago Department of Streets and Sanitation, Bureau 
  of Forestry; Davey Institute; International Maple Syrup Institute; 
Mulch & Soil Council; National Association of State Foresters; National 
   Plant Board; The Nature Conservancy; New York State Department of 
 Environmental Conservation; North American Maple Syrup Council, Inc.; 
 Pennsylvania Department of Agriculture; Purdue University, Department 
  of Entomology; Society of American Florists; and Union of Concerned 
                              Scientists;
                                                    March 19, 2010.
Hon. Dianne Feinstein,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lamar Alexander,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.

RE: Fiscal year 2011 Appropriation for the USDA Forest Service
    Dear Chairperson Feinstein and Ranking Member Alexander: We urge 
the Subcommittee on the Interior, Environment, and Related Agencies to 
appropriate adequate funding for the USDA Forest Service (USFS) to 
manage non-native insects and plant diseases that threaten America's 
forests. We recommend an fiscal year 2011 appropriation of $145 million 
for the USFS Forest Health Management Program. This level is about $7 
million above the current level of funding.
    In addition, we ask that you provide an increase of $3 million 
above the fiscal year 2010 appropriations level for the ``Invasives 
R&D'' line item within the USFS Research program. This increase 
reflects the significant gaps in knowledge about monitoring techniques 
and tools, as well as in how populations of non-native pests will 
develop, expand and impact our U.S. forested systems. We ask the 
Congress to support further research to be better able to develop and 
implement appropriate management programs for these non-native pests.
    We thank the subcommittee for substantially increasing funding for 
the Forest Health Management Program in fiscal year 2010. The increase 
resulted in substantial new resources being devoted to improving 
detection and control methods for the emerald ash borer, hemlock woolly 
adelgid, and sudden oak death (SOD; also called the phytophthora leaf 
and stem blight pathogen); and maintenance of programs targeting the 
gypsy moth and other non-native forest pests and diseases. The added 
funding also allows the USFS to address new pests threatening forests 
across the country, including thousand canker disease (which threatens 
black walnuts nationwide); gold-spotted oak borer (which is killing oak 
trees in southern California); and laurel wilt disease (which is 
killing redbay, sassafras, and other trees and shrubs in coastal 
regions of the Southeast). Funding at our recommended level supports 
continued expansion of these important programs, which benefit both 
rural and urban communities.
    The Forest Health program provides vital expertise in forest pests' 
biology and detection and management methodology that is crucial to the 
success of pest eradication and containment programs implemented by the 
USDA Animal and Plant Health Inspection Service (APHIS). As these 
forest pests are detected in new areas, the importance of the USFS's 
contribution rises. The USFS has the lead responsibility for detecting 
and responding to any outbreaks of SOD in the forest. The USFS has 
provided most of the funds utilized by Oregon in its SOD containment 
program; this program has succeeded in containing spread of the disease 
through vulnerable forests in the southwest corner of the State. 
Detection programs managed under the Forest Health Monitoring Program 
have surveyed 320 watersheds across the country. Watersheds have been 
found with evidence of the SOD pathogen--outside the infested areas in 
California and Oregon. These include streams in four Southeastern 
States with substantial vulnerable oak forests--Alabama, Florida, 
Georgia, and Mississippi. Both programs must continue in order to 
protect vulnerable forests.
    The emerald ash borer has now been detected in 13 States. The 
USFS's Forest Health Protection program provides expertise in detecting 
this elusive insect, in developing more effective tools to curtail its 
spread, and in advising landowners on how to respond to the threat. For 
example, the USFS helps to fund a website maintained by the Continental 
Forest Dialogue (www.dontmovefirewood.org) in order to educate the 
public not to transport potentially infested wood that can spread 
pests. The USFS, involved cooperatively with APHIS, is evaluating 
mitigation tools and strategies to be utilized by newly infested 
regions to slow or curtail the spread of this devastating pest. It is 
vitally important that the USFS effort targeting this insect not be 
reduced. The USFS is working with State forestry departments through 
the Great Plains Initiative to help those States prepare for the 
widespread tree mortality that the emerald ash borer will cause.
    Finally, the Forest Health Management Program needs adequate 
funding to expand its Early Detection project. This program has been 
responsible for detecting more than a dozen introduced insects, 
including two which threaten the economically important pine forests of 
the Southeast: the sirex woodwasp and the Mediterranean pine beetle. 
The detection program now covers all States on a 3-year rotation. It 
now must develop and deploy methodologies to detect the highly damaging 
wood-boring beetles.
    As the majority of southern forests are in private ownership, a 
landowner assistance program for early detection and rapid response for 
these pine pests should be considered.
    The agency bearing the principal responsibility for eradicating 
newly introduced forest pests is not the USFS, but rather APHIS, an 
agency under the jurisdiction of the Agriculture Appropriations 
subcommittee. The USFS plays a critical support role by providing both 
management expertise and critical research--in close coordination with 
APHIS Plant Protection and Quarantine and through cooperative funding 
agreements with State forestry, State departments of agriculture, and 
State land grant universities.
    Nevertheless, the subcommittee cannot achieve its goal of 
protecting the health of the nation's forests as long as funding 
shortfalls undermine USDA APHIS eradication programs. We encourage the 
subcommittee to work with the Agriculture Appropriations Subcommittee 
to find ways to increase funding for forest pest line items in the USDA 
APHIS Emerging Plant Pest account.
            Sincerely,
                                        Tom Martin,
                                         President and CEO,
                                        American Forest Foundation.
                                     Bob Rynearson,
                                                  Chairman,
                                    California Forest Pest Council.
                                Joseph J. McCarthy,
                                      Senior City Forester,
   City of Chicago Department of Streets and Sanitation, Bureau of 
                                                          Forestry.
                    Anand B. Persad, Ph.D., B.C.E.,
                                Regional Technical Advisor,
                                                   Davey Institute.
                                     Gary Gaudette,
                                                 President,
                               International Maple Syrup Institute.
                                 Robert C. LaGasse,
                                        Executive Director,
                                              Mulch & Soil Council.
                                       Jay Farrell,
                                        Executive Director,
                           National Association of State Foresters.
                              Carl P. Schulze, Jr.,
                                                 President,
                                              National Plant Board.
                                 Robert L. Bendick,
                            Director--Government Relations,
                                            The Nature Conservancy.
                                  Robert K. Davies,
                             Director of Lands and Forests,
           New York State Department of Environmental Conservation.
                                        Rick Marsh,
                                                 President,
                           North American Maple Syrup Council, Inc.
                                Russell C. Redding,
                                                 Secretary,
                            Pennsylvania Department of Agriculture.
                                 Clifford S. Sadof,
                       Professor--Department of Entomology,
                                                 Purdue University.
                                       Lin Schmale,
                     Senior Director--Government Relations,
                                      Society of American Florists.
                          Phyllis N. Windle, Ph.D.,
           Senior Scientist and Director--Invasive Species,
                                     Union of Concerned Scientists.
                                 ______
                                 
     Prepared Statement of the American Forest & Paper Association
Introduction
    The American Forest & Paper Association (AF&PA) is the national 
trade association of the forest products industry, representing forest 
landowners and pulp, paper, packaging, and wood products manufacturers. 
AF&PA companies make products essential for everyday life from 
renewable and recyclable resources.
    The U.S. forest products industry accounts for approximately 6 
percent of total domestic manufacturing GDP (putting it on par with the 
automotive and plastics industries). Forest industry companies produce 
$200 billion in products annually, employ 1 million people, and provide 
$54 billion in annual payroll. The industry is among the top 10 
manufacturing sector employers in 48 States. Lumber, panel, pulp, and 
paper mills are frequently the economic hub of local communities, 
making the industry's health critical to the economic vitality of 
hundreds of rural areas across the country.
    Declining Federal timber harvests have adversely affected many 
rural communities, resulting in thousands of jobs lost. Many actions 
are needed to help preserve the industry's remaining jobs and 
contribute to the broader revitalization of the economy. Congress and 
the administration must continue to improve credit markets, stimulate 
demand for housing, and craft policies that recognize the significant 
contributions made by the wood and paper industries towards renewable 
energy and climate goals. Within the jurisdiction of this subcommittee, 
we urge you to direct the U.S. Forest Service (USFS) to do everything 
it can to help preserve the competitiveness of the forest products 
industry and the vital jobs it supports. Specific suggestions follow.
National Forest System, Forest Products--Increase Funding to Create New 
        Jobs
    The President's budget request for the National Forest System (NFS) 
proposes to create a new ``Integrated Resource Restoration'' account 
incorporating NFS programs previously funded under the Wildlife and 
Fish Habitat Management, Forest Products, and Vegetative and Watershed 
Management accounts and including a new activity, ``Landscape and 
Watershed Restoration.''
    AF&PA understands the administration's desire to ``accelerate the 
refocusing of national forest management to forest ecosystem 
restoration project work, including global climate change adaptation 
and mitigation.'' However, we have numerous unanswered questions that 
preclude us from endorsing this initiative at this time. These are our 
primary concerns:
  --Uncertain funding allocation among activities.--The three programs 
        referenced above received a total of $668 million in fiscal 
        year 2010 funding. The President's budget request proposes $694 
        million for the consolidated ``Integrated Resource 
        Restoration'' account, but States that $90 million is to be 
        used for ``Landscape and Watershed Restoration.'' Thus, it 
        appears that one or more of the existing programmatic 
        activities (Wildlife and Fish Habitat Management, Forest 
        Products, and/or Vegetative and Watershed Management) will 
        receive reductions of at least $64 million. How are those 
        reductions to be allocated?
  --Restoration, as a concept, is undefined.--As evidenced by our 
        signature on the joint February 16 letter to former Chairman 
        Norm Dicks (copy attached), AF&PA has begun a dialogue with the 
        Administration about how best to restore the health and 
        vitality of the national forests, increase active management of 
        more NFS acres, and revitalize the U.S. forest products 
        industry. Given that this discussion is in its nascent stage, 
        we have more questions than answers, including these:
    --How will a national emphasis on ``restoration'' affect timber 
            sale programs on national forests that are not in need of 
            restoration?
    --How will a national emphasis on restoration dovetail with the 
            forest plans, which focus on the statutory direction for 
            multiple use and sustained yield without necessarily 
            singling out ``restoration'' as a goal or objective?
    --If the subcommittee were to adopt the administration's 
            recommendation, how would the Integrated Resource 
            Restoration funds and outputs be allocated to the various 
            Regions and Forests?
  --Absence of resource-specific targets.--AF&PA and numerous other 
        conservation and natural resource organizations believe that 
        USFS managers must be accountable to the citizens of the United 
        States who are--collectively--the owners of the national 
        forests. And, while it is true that some forest metrics are 
        difficult to quantify (e.g., forest ecosystem resiliency), we 
        rely upon quantifiable measures (e.g., wood removals) to judge 
        how well the stewards of our collective patrimony are doing on 
        a year-to-year basis. The President's budget request predicts 
        timber outputs of 2.4 billion board feet, but does not contain 
        an explicit timber sales target. We urge the Committee to 
        maintain its past practice of including a statutory timber sale 
        target. Without a specific target, how will the USFS be held 
        accountable for meeting or exceeding its ``predicted'' volume?
  --To create forest industry jobs, more Federal timber should be made 
        available for sale.--At a time when most Americans are 
        concerned about jobs and our economy, studies indicate that the 
        USFS timber sale program could produce more than 6,000 jobs 
        with an additional annual investment of $57 million, and even 
        more jobs could be produced with higher investments. Without a 
        specific NFS timber volume target and by eliminating the forest 
        products account, how will new jobs be created?
    AF&PA supports the concept of ``restoration'' as applied to the 
national forests. Well managed forests are critical to the United 
States, providing recreation, clean air and water, and fish and 
wildlife habitat. They also support jobs, rural communities, local 
education, and the paper and building materials vital to economic 
recovery. We intend to work with the Administration to help rebuild 
support for proactive national forest management and, where necessary, 
``restoration.'' However, while this discussion is ongoing, we urge 
this subcommittee to continue to provide funding for a separate forest 
products account, increase fiscal year 2011 funding to $393.722 
million, and set a national timber sales target of 3 billion board 
feet. We also urge you to provide funds for road construction/
reconstruction necessary to implement projects and to reduce the $10 
billion road maintenance backlog that exists primarily on level 3, 4, 
and 5 roads.
National Forest System, Hazardous Fuels Reduction--Increase Funding and 
        Integration
    As we have testified in previous years, hazardous fuels reduction 
is essential to the Federal forest health restoration effort and AF&PA 
supports a modest ($10 million) increase over the fiscal year 2010 
enacted level for this vital program. We also urge the subcommittee to 
instruct the USFS to implement these projects in forested stands, using 
mechanical treatments that produce merchantable wood fiber for 
utilization by local mills. Prescribed burns and debris removal will 
not solve the hazardous fuel overload by themselves. The forest 
products industry can and does play a key role in reducing hazardous 
fuels from Federal lands as evidenced by the fact that mechanical 
hazardous fuel reduction costs are frequently significantly lower in 
regions with a substantial forest industry presence. The agency must 
take advantage of these synergies.
    We also continue to believe the agency must move away from using 
``acres treated'' as the sole metric of accomplishment in the hazardous 
fuels reduction program. Exclusive focus on this measure incentivizes 
the agency to treat low-priority acres repeatedly and discourages the 
treatment of higher-priority forested acres in condition class 3. More 
aggressive pursuit of mechanical treatments, including more frequent 
use of Healthy Forest Restoration Act authorities, will result in 
treatments that produce usable wood fiber and--more importantly--
longer-lasting and more meaningful positive impacts on the long-term 
fire problem.
National Forest System, Forest Health Management--Increase Bark Beetle 
        Control Funding
    This subcommittee has recognized the urgent need to increase 
funding to fight bark beetle epidemics and following the final fiscal 
year 2010 allocation, region 2 received an additional $40 million, 
Montana received $20 million, and Idaho received $14 million to address 
this urgent problem. Those funds, while tremendously important and 
appreciated, are far short of what is necessary. Unfortunately, the 
President's fiscal year 2011 budget request is silent on how, or 
whether, to pay for remaining work associated with the bark beetle 
epidemics. AF&PA urges this subcommittee to provide full funding to 
fight this insidious forest pest. Failure to act now will not only 
increase NFS firefighting costs in future years, but will cost the 
Treasury millions in revenue from lost timber sale receipts.
Firefighting--Fund the FLAME Program
    AF&PA applauds the leadership by this subcommittee in including the 
Federal Land Assistance Management and Enhancement (FLAME) Act of 2009 
within the fiscal year 2010 Interior, Environment, and Related Agencies 
appropriations bill. We urge you to continue this leadership by 
ensuring sufficient FLAME funding to cover the cost of emergency fires 
and eliminate the need to transfer funds from nonfire programs. In the 
past, ``fire borrowing'' has been disruptive to the management of 
affected Federal agencies and led to inefficient resource management. 
We also urge you to provide direction to USFS and Bureau of Land 
Management officials to use the most current and best-informed means of 
estimating annual suppression instead of the traditional 10-year 
average.
Forest and Rangeland Research--Increase USFS R&D Funding Moderately
    Targeted research and data collection is needed to support forest 
productivity, forest health, and economic utilization of fiber. 
Increased funding for the Research and Development budget area is 
needed in order to allow the agency to focus on several critical 
priorities. The Forest Inventory and Analysis (FIA) program is the 
backbone of our knowledge about the Nation's forests, and is a critical 
tool that allows us to assess their sustainability and health. We 
request $76 million for the FIA program, which represents full funding. 
This level is needed to allow the USFS to cover 100 percent of U.S. 
forest lands and expedite data availability and analysis, and to 
support our growing data needs in the areas of bioenergy and climate 
mitigation.
    We also recommend increased funding within the USFS R&D program in 
support of the Agenda 2020 Technology Alliance. Working in partnership 
with universities and the private sector, Forest Service funding for 
the Agenda 2020 program supports research to develop and deploy wood 
production systems that are ecologically sustainable, socially 
acceptable, and economically viable, in order to enhance forest 
conservation and the global competitiveness of forest product 
manufacturing and biorefinery operations in the United States. In 
particular, we encourage greater support for research on forest 
productivity and utilization at the Forest Products Lab and Research 
Stations. Innovative wood and fiber utilization research, including 
nanotechnology research, contributes to conservation and productivity 
of the forest resource. The development of new forest products and 
important research on the efficient use of wood fiber directly address 
the forest health problem through exploration of small diameter wood 
use and bioenergy production.
    Finally, AF&PA recommends $15 million to implement section 9012 of 
the 2008 farm bill, which authorized a competitive R&D program to 
encourage the use of forest biomass for energy. This funding is needed 
to unlock the bioenergy potential from our Nation's forests while 
simultaneously benefitting communities that rely on current forest 
resources. More renewable energy, more sustainable wood-based products, 
more carbon sequestration, and healthier forest-based communities are 
all possible with additional support for forest tree research.
State and Private Forestry--Maintain Fiscal Year 2010 Funding Levels 
        for Key Programs
    AF&PA applauds the subcommittee's sustained support for USFS State 
and Private Forestry programs and we are especially appreciative of 
last year's $42.2 million increase. With ongoing droughts, invasive 
species infestations, and significant forest health problems, private 
forest resources remain vulnerable to damage from threats that do not 
respect public/private boundary lines.
    As you know, private forests provide the bulk of the Nation's wood 
fiber supply, while also sequestering huge amounts of carbon from the 
atmosphere, providing millions of acres of wildlife habitat, and 
supplying clean drinking water for millions of Americans. USFS State 
and private forestry programs protect these resources from threats that 
are beyond the capability of small landowners to effectively combat. 
Therefore, we urge you to provide funding at no less than their fiscal 
year 2010 enacted levels for the cooperative forest health, cooperative 
fire assistance, forest legacy roads, forest stewardship, and forest 
legacy programs.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to submit testimony in support of increased 
appropriations for the United States Geological Survey (USGS) and 
Environmental Protection Agency (EPA) for fiscal year 2011. AIBS 
requests that Congress provide the USGS with $1.3 billion in fiscal 
year 2011, with at least $240 million for the biological resources 
discipline (BRD). We further request that Congress provide the EPA's 
Office of Research and Development with at least $646.5 million, with 
at least $273 million for human health and ecosystem research.
USGS
    As a broker of unbiased, independent research, data, and 
assessments, the USGS provides needed information to public and private 
sector decisionmakers. Data generated by the USGS save taxpayers money 
by reducing economic losses from natural disasters, allowing more 
effective management of water and natural resources, assisting the 
necessary preparation for climate impacts, and providing essential 
geospatial data that are needed for commercial activity and resource 
management. Much of these data are collected only by the USGS. Our 
Nation cannot afford to sacrifice this information; rather, we should 
increase our investments in this work. Increased funding for the USGS 
is a wise investment that will bear real returns and benefits for the 
country.
    The fiscal year 2011 budget request for the USGS is inadequate to 
sustain the agency's critical work. The budget request appears to 
provide a 1.9 percent increase. However, when $13.5 million in fixed 
costs and $11.7 million in Interior-wide cuts are accounted for, the 
proposed budget would only increase funding for the USGS by 0.7 percent 
from fiscal year 2010 enacted. Given the agency's critical activities 
for the environmental and economic health of the Nation, more support 
is justified.
    The proposed budget would cut funding for the BRD within the USGS. 
Interior-wide cuts and absorption of fixed costs will result in a net 
decline of $6.2 million from fiscal year 2010 enacted. This erosion of 
funding will undercut BRD's ability to fulfill its valuable 
programmatic missions. BRD's science programs inform natural resource 
managers and reduce economic losses from invasive species and 
pathogens. The BRD provides scientific data that help us understand how 
ecosystems are influenced by climate change, and that help us address 
these changes. Research conducted by the BRD addresses the risks of 
environmental contaminants to our citizens and living resources. The 
BRD also provides the science necessary to understand and manage 
endangered fish, wildlife, and plants. All told, these services 
contribute significantly to the health of our Nation's environment and 
economy.
    Federal investment in the BRD is further leveraged through 
partnerships with other Federal, State, local, tribal, and private 
organizations. Through efforts such as the Cooperative Research Units 
(CRUs), the USGS and their partners address pressing issues facing 
natural resource managers, such as invasive species, wildlife diseases, 
and endangered species recovery. In addition to providing research 
expertise, these partnerships at 40 universities in 38 States serve as 
important training centers for America's next generation of scientists 
and resource managers. Yet although these joint ventures between USGS 
scientists and university researchers are effective investments of 
proven worth, funding for the CRUs would decline by $170,000 under the 
administration's budget request.
    Also of note within the BRD is the biological research and 
monitoring budget line, which develops new research methods, 
inventories populations of plants and animals, and monitors changes in 
these species and their habitats over time. This information is used by 
Federal and State natural resource managers to maintain healthy and 
diverse ecosystems while balancing the needs of public use. The science 
conducted by the biological research and monitoring program is also 
vital for informing management actions by other Interior bureaus. The 
President's budget would provide an additional $4 million for USGS 
science support to the National Park Service, Fish and Wildlife 
Service, and Bureau of Land Management. We strongly support this 
increase and encourage Congress to further increase funding for these 
initiatives.
    The National Streamflow Information Program within the water 
resources discipline of the USGS also provides needed information for 
resource managers. Its national network of stream-gages records changes 
in streamflow due to alterations in land use, water use, rainfall, 
drought, and climate change. This information is vital to resource 
managers who make decisions about water use, for scientists charged 
with protecting and restoring aquatic species and habitats, and 
ultimately for farmers making decisions about crop management.
    Additionally, we ask Congress to fully fund fixed costs at the 
USGS. The President's budget request does not fully fund these 
expenses, creating a $13.5 million budget cut for USGS programs. Within 
the BRD, the absorption of fixed costs will remove $2.6 million from 
funds needed for research, monitoring, and public education activities.
    The USGS is uniquely positioned to address many of the Nation's 
biological and environmental challenges, including energy independence, 
climate change, water quality, and conservation of biological 
diversity. Biological science programs within the USGS gather long-term 
data not available from other sources. These data have contributed 
fundamentally to our understanding of the status and dynamics of 
biological populations and have improved our understanding of how 
ecosystems function, all of which is necessary for predicting the 
impacts of land management practices and climate change on the natural 
environment. This array of research expertise not only serves the core 
missions of the Department of the Interior, but also contributes to 
management decisions made by other agencies and private sector 
organizations. In short, increased investments in these important 
research activities will yield dividends.
EPA
    As EPA's scientific division, the Office of Research and 
Development (ORD) supports valuable extramural and intramural research 
that is used to understand, prevent, and mitigate environmental 
problems facing our nation. ORD research informs decisions made by 
public health and safety managers, natural resource managers, 
businesses, and other stakeholders concerned about climate change, air 
and water pollution, and land management and restoration. In short, ORD 
provides the scientific basis upon which EPA monitoring and enforcement 
programs are built. Funding, however, for ORD has declined since fiscal 
year 2004, when it peaked at $646.5 million. At $605 million, the 
budget request for fiscal year 2011 falls far short of addressing past 
budget deficits. We ask that Congress restore funding for ORD to at 
least the fiscal year 2004 level.
    The Ecosystem Services Research (ESR) program is one important area 
within ORD that would benefit from increased funding. The ESR is 
responsible for enhancing, protecting, and restoring ecosystem 
services, such as clean air and water, rich soil for food and crop 
production, pollination, and flood control. ``EPA's Ecosystem Services 
Research Program is bold, innovative, and necessary,'' wrote Dr. Judith 
Meyer, chair of the Ecological Processes and Effects Committee of the 
EPA's Science Advisory Board in a 2009 Committee consultation. She also 
wrote that ``[t]he considerable potential of the program is unlikely to 
be achieved with its current level of funding and staff.'' The 
President's budget request would do little to solve the problem, with a 
proposed $1.5 million cut in funding for the program. More troubling is 
potential elimination of FTEs that could accompany this budget cut. We 
ask that Congress fully fund the program.
    The Science to Achieve Results (STAR) Graduate Fellowship is 
another program that has been chronically underfunded. The fellowship 
contributes to the training of the next generation of scientists by 
supporting graduate students pursuing an advanced degree in 
environmental science. The President's request of $17.3 million 
represents the first real increase for the program since fiscal year 
2006 and would provide 240 new fellowships. Since its inception in 
1995, this successful program has supported the education and training 
of approximately 1,500 STAR Fellows who have gone on to pursue careers 
as scientists and educators.
    In conclusion, we urge Congress to restore funding for the ORD to 
historic levels and to proportionally increase funding for human health 
and ecosystem research within the program. These appropriation levels 
would allow ORD to address a backlog of research needs.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                            request summary
    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which compose the American Indian Higher Education Consortium (AIHEC), 
thank you for this opportunity to present our fiscal year 2011 
appropriations recommendations for the 29 colleges funded under the 
Tribally Controlled Colleges and Universities Assistance Act (Tribal 
College Act), the two Bureau of Indian Education (BIE) postsecondary 
institutions, and the Institute of American Indian Arts. The U.S. 
Department of the Interior, BIE, administers these programs, save for 
the Institute of American Indian Arts, which is congressionally 
chartered and funded through the Interior Department.
    In fiscal year 2011, TCUs seek $92.5 million to fund all of the 
programs under the Tribal College Act. Specifically, we seek $89.9 
million for institutional operations grants; of which, $63.2 million is 
for title I grants (26 TCUs); $17.7 for title II (Dine College); and $9 
million for title V ($5.5 million for United Tribes Technical College 
and $3.5 million for Navajo Technical College). This request represents 
an increase over fiscal year 2010 levels of $12.6 million for title I 
grants; $4.7 million for Dine College; and $2.33 million for title V. 
Additionally, we seek $601,000 for the technical assistance contract 
authorized under the act, which is the same level as annually 
appropriated since fiscal year 2006, and $2 million to help the TCUs 
establish and fund endowments under title III of the act, which has 
been severely cut over the past few budget/appropriations cycles. 
Lastly, we are very grateful for the funding appropriated last year to 
transition TCUs' institutional operations grants to a forward-funded 
program. Unfortunately, the BIE erred in its implementation of the 
transition to a forward funded program. We strongly urge Congress and 
the BIE to work together to rectify the funding issues of at least 
three title I TCUs that have occurred as a result of the flawed 
transition schedule used by the BIE in implementing a forward funded 
program for the TCUs' institutional operations grants.
    AIHEC's membership also includes three other institutions funded 
under separate authorities within the Interior, Environment, and 
Related Agencies Appropriations, namely: Haskell Indian Nations 
University; Southwestern Indian Polytechnic Institute; and the 
Institute of American Indian Arts. AIHEC supports the independently 
submitted requests for funding of the institutional operations budgets 
of these colleges.
                            brief background
    Today there are 36 TCUs located in 14 States, which were begun 
specifically to serve the higher education needs of American Indians. 
Annually, these institutions serve students from more than 250 
federally recognized tribes, more than 80 percent of whom are eligible 
to receive Federal financial aid.
    TCUs receiving Federal funding are accredited by independent, 
regional accreditation agencies and like all institutions of higher 
education, must undergo stringent performance reviews on a periodic 
basis to retain their accreditation status. TCUs are young, 
geographically isolated, and poor. Our oldest institution, Dine 
College, was established in 1968. Most TCUs are located in areas of 
Indian country that the Federal Government defines as extremely remote. 
They serve their communities in ways that reach far beyond college 
level programming and are often called beacons of hope for American 
Indian people. Our institutions provide much needed high school 
completion (GED), basic remediation, job training, college preparatory 
courses, and adult education programs. They serve as community 
libraries and centers, tribal archives, career and business centers, 
economic development centers, public meeting places, and elder and 
child care centers. It is an underlying goal of all TCUs to improve the 
lives of students through higher education and to move American Indians 
toward self-sufficiency. This goal is fundamental because of the 
extreme poverty in which most American Indians live. In fact, 3 of the 
5 poorest counties in America are home to TCUs, where unemployment 
rates are consistently well above 60 percent. By contrast, the current 
national unemployment rate, which is considered to be alarmingly high, 
is 9.9 percent.
    TCUs, the U.S. military academies, and Howard and Gallaudet 
Universities are the only institutions of higher education that depend 
on the Federal Government for their basic institutional operating 
funds. TCUs remain the most poorly funded institutions of higher 
education in the Nation.
                             justifications
    TCUs provide critical access to vital postsecondary education 
opportunities. TCUs provide access to higher education for American 
Indians and others living in some of the Nation's most rural and 
economically depressed areas. The 2000 Census reported the annual per 
capita income of the U.S. population as $21,587. However, the annual 
per capita income of Native Americans was $12,923 or about 40 percent 
less. In addition to serving their students, TCUs serve their 
communities through a wide variety of community outreach programs.
    TCUs are producing a new generation of highly trained American 
Indian teachers, tribal government leaders, engineers, nurses, computer 
programmers, and other much-needed professionals. By teaching the job 
skills most in demand on their reservations, TCUs are laying a solid 
foundation for tribal economic growth, with benefits for surrounding 
communities. In contrast to the high rates of unemployment on 
reservations, graduates of TCUs are employed in ``high need'' 
occupational areas such as Head Start teachers, elementary and 
secondary school teachers, and nurses/healthcare providers. Just as 
important, the vast majority of tribal college graduates remain in 
their tribal communities, applying their newly acquired skills and 
knowledge where they are most needed.
    TCUs meet the strict standards of mainstream accreditation boards 
offering top quality academic programs and serve as effective bridges 
to 4-year institutions of higher learning. A growing number of TCUs 
have attained a 10-year accreditation term, the longest term granted to 
any higher education institution. While most TCUs are 2-year 
institutions offering certificates and associate degrees, their 
transfer function is significant. An independent survey of TCU 
graduates conducted for the American Indian College Fund indicated that 
more than 80 percent of respondents who attended a mainstream college 
prior to enrolling at a TCU did not finish the degree they were 
pursuing at the mainstream college. The rate of completion markedly 
improved for those who attended a TCU prior to beginning a degree 
program at a mainstream institution. After completing tribal college 
coursework, less than half of respondents dropped out of mainstream 
colleges and nearly 40 percent went on to earn a bachelor's degree. 
This clearly illustrates TCUs' positive impact on the persistence of 
American Indian students in pursuit of baccalaureate degrees. The 
overwhelming majority of respondents felt that their TCU experience had 
prepared them well for further education and noted that it had a very 
positive influence on their personal and professional achievements.
    Despite a proven track record of success, TCUs still face serious 
disparities in institutional operations funding. Title I of the Tribal 
College Act authorizes funding for the basic institutional operating 
budget of one qualifying institution per Federal recognized tribe based 
on a full-time American Indian student enrollment formula. Distribution 
of funds under title I of the Tribal College Act is enrollment driven. 
Currently 25 of TCUs are funded under title I of the Tribal Colleges 
Act, with Keweenaw Bay Ojibwa Community College expected to be added as 
the 26th, in fiscal year 2011. Title I institutions are currently 
receiving $5,784 per Indian student toward their institutional 
operating budgets. If you factor in inflation, the buying power of the 
current appropriation is $965 LESS per Indian student than it was when 
it was initially funded almost 30 years ago, when the appropriation was 
$2,831 per Indian student. Additionally, TCUs do not receive any 
Federal funding toward their operations for non-Indian students, which 
account for approximately 21 percent of their enrollments. Because they 
are located on Federal trust lands, States have no obligation to fund 
these institutions. While TCUs do seek funding from their respective 
State legislatures for the non-Indian State-resident students or 
nonbeneficiary students, who account for 21 percent of our enrollments, 
their successes have been, at best, unreliable. TCUs are accredited by 
the same regional agencies that accredit mainstream institutions, yet 
they have to continually advocate for basic operating support for their 
non-Indian State students, within their respective State legislatures. 
If these nonbeneficiary students attended any other public institution 
in the State, the State would provide that institution with ongoing 
operations funding.
    While the other TCUs' operating funds allocations are not 
enrollment driven and therefore the disparity is not as easily 
illustrated, they too suffer from a lack of stable operating revenue. 
This is not simply a matter of appropriations falling short of an 
authorization; it effectively impedes our institutions from having the 
necessary resources to grow their programs in response to the changing 
needs of their students and the communities they serve.
                         some additional facts
    Enrollment Gains and New TCUs.--Compounding existing funding 
disparities is the fact that although the numbers of TCUs and students 
enrolled in them have dramatically increased since 1981, appropriations 
have increased at a disproportionately low rate. Since they were first 
funded, the number of tribal colleges has quadrupled and continues to 
grow; Indian student enrollments have risen more than 310 percent. 
Between fiscal year 2005 and fiscal year 2011, five more TCUs have or 
will become eligible for title I funding under the Tribal College Act. 
TCUs are in many ways victims of their own successes. The growing 
number of tribally chartered colleges and universities being 
established and increasing enrollments have forced TCUs to slice an 
already inadequate annual funding pie into even smaller pieces.
    Local Tax and Revenue Bases.--TCUs cannot rely on a local tax base 
for revenue. Although tribes have the sovereign authority to tax, high 
reservation poverty rates, the trust status of reservation lands, and 
the lack of strong reservation economies hinder the creation of a 
reservation tax base. On Indian reservations where TCUs are located, 
there is sweeping unemployment that is more than 80 percent higher than 
that of the Nation at large.
    Trust Responsibility.--The emergence of TCUs is a direct result of 
the special relationship between American Indian tribes and the Federal 
Government. TCUs are founded and chartered by their respective American 
Indian tribes, which hold a special legal relationship with the Federal 
Government, actualized by more than 400 treaties, several Supreme Court 
decisions, prior congressional action, and the ceding of more than 1 
billion acres of land to the Federal Government. Beyond the trust 
responsibility, the fact remains that TCUs are providing a public 
service that no other institutions of higher education are willing, or 
able, to provide by helping the Federal Government fulfill its 
responsibility to the American people, particularly in rural America. 
Despite the fact that only enrolled members of a federally recognized 
tribe or the biological child of a tribal member may be counted as 
Indian students when determining an institution's share of the 
operating funds, TCUs have open enrollment policies. Approximately 21 
percent of TCU enrollments are non-Indians. These institutions are 
simply and effectively providing access to quality higher education 
opportunities to reservation community residents.
                the president's fiscal year 2011 budget
    The President's fiscal year 2011 budget recommends level funding 
for all of the programs authorized under the Tribal College Act. While 
the fiscal year 2010 budget included a one-time payment to transition 
the institutional operations grants for TCUs to a forward funded 
program so that the colleges have their operating funds prior to the 
start of each academic year, this transition funding did not increase 
the day-to-day operating budget of the colleges.
              appropriations request for fiscal year 2011
    As noted earlier, it has been almost 30 years since the Tribal 
College Act was first funded and the TCUs have yet to receive the 
congressionally authorized per Indian student funding level. To achieve 
full funding would require an additional $19.4 million. However, we do 
recognize the current budget constraints Congress is facing and 
therefore request that this funding shortfall be corrected over the 
next 2 fiscal years. To that end, the TCUs respectfully request a total 
appropriation of $92.5 million for all of the programs authorized under 
the Tribal College Act (25 U.S.C. 1801 et seq.) Specifically, we seek 
$89.9 million for institutional operations grants; of which, $63.2 
million for title I grants (26 TCUs); $17.7 for title II (Dine 
College); and $9 million for Title V ($5.5 million for United Tribes 
Technical College and $3.5 million for Navajo Technical College). 
Additionally, we seek $601,000 for the technical assistance contract 
authorized under the act, which is the same level as annually 
appropriated since fiscal year 2006, and lastly, $2 million to help the 
TCUs establish and fund endowments under title III of the act, which 
has been severely cut over the past few budget/appropriations cycles. 
Lastly, we respectfully request that Congress, working with the BIE, 
rectify the collective $1.5 million shortfall of the three known title 
I TCUs that is a result of the flawed transition schedule used by the 
BIE to transition the TCUs' institutional operations grants program to 
forward funding.
                               conclusion
    TCUs provide quality higher education to many thousands of American 
Indians who might otherwise not have access to such opportunities. The 
modest Federal investment that has been made in TCUs has paid great 
dividends in terms of employment, education, and economic development. 
Continuation of this investment makes sound moral and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's TCUs and your serious consideration of our fiscal year 2011 
appropriations requests.
                                 ______
                                 
          Prepared Statement of the American Lung Association

                         FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
            Environmental Protection Agency                   Amount
------------------------------------------------------------------------
Healthier Outdoor Air..................................            811.3
    Federal Stationary Source Regulation...............             34.9
    Federal Support of Air Quality Management..........            142.3
    Clean Air Allowance Trading Program................             31.1
    Federal Vehicle and Fuels Standards................            100.7
    State and Local Air Quality Management (STAG)......            309.1
        Air Monitoring.................................             15
    Diesel Emission Reductions (STAG)..................            100
Human Health Risk Assessment...........................             48.9
Healthier Indoor Air...................................             47.1
    Clean, Green and Healthy Schools Initiative........              6.2
Research: Clean Air....................................             85.3
------------------------------------------------------------------------

    Mr. Chairman, members of the subcommittee, the American Lung 
Association is pleased to submit testimony in support of the 
Environmental Protection Agency's (EPA) program to improve the Nation's 
air. The American Lung Association was founded in 1904 to fight 
tuberculosis and today, our mission is to save lives by improving lung 
health and preventing lung disease. We accomplish this through 
research, advocacy and education. Today, we would like to share our 
support for EPA's fiscal year 2011 budget for its Clean Air Program. 
This program will improve public health and more effectively protect 
those with lung disease from the adverse effects of air pollution. As 
Congress addresses global warming and energy issues through exciting 
new technology, cleaner energy sources and new policies, there is an 
opportunity to ensure that the air is cleaner. We urge this 
subcommittee to ensure that the Clean Air Act's promise of clean, 
healthy air for all Americans is kept.
Lung Disease and Air Quality
    Lung disease is a significant health problem in the United States. 
Lung disease is the third leading cause of death in the United States--
responsible for 1 in every 6 deaths. More than 35 million Americans 
suffer from a chronic lung disease. According to the National 
Institutes of Health, lung diseases cost the U.S. economy an estimated 
$173.4 billion annually. Nearly all lung diseases are impacted by air 
pollution. How well or poorly our lungs perform depends on the quality 
of the air we breathe, making the impact of air pollution inescapable. 
Air pollution remains a primary contributor to the burden of 
respiratory diseases in our healthcare system as well.
    The Clean Air Act has proven to be a powerful tool to improve the 
quality of our Nation's air. Since 1990, when Congress strengthened the 
Clean Air Act, the annual average emissions of sulfur dioxide 
nationwide have dropped by 59 percent, nitrogen oxide emissions have 
been reduced by 35 percent and carbon monoxide has plunged by 68 
percent. Ambient or outdoor ozone levels are 14 percent lower on 
average. Fine particle levels are down by 19 percent. However, much 
remains to be done. Millions of Americans live in counties that do not 
meet current Clean Air Act health standards, including those in the 
Washington, DC metropolitan area. The EPA estimates that 126.8 million 
Americans in 2008 lived in areas where they were exposed to unsafe 
levels of air pollution.
    We are pleased to see that the President's budget increases the EPA 
budget for Healthier Outdoor Air to $811.3 million and for Healthier 
Indoor Air to $47.1 million. These increases will help the EPA address 
the significant health and environmental impact of air pollution.
Setting National Ambient Air Quality Standards
    The Clean Air Act requires EPA to review the National Ambient Air 
Quality Standards for ozone, particulate matter, sulfur dioxide, 
nitrogen oxide, carbon monoxide and lead every 5 years. We are pleased 
to see EPA address this obligation in a timelier manner. Historically, 
EPA has not met the deadlines for these reviews and has been obligated 
to complete such reviews under court order. Last year, the U.S. Court 
of Appeals ruled that the EPA needed to reconsider the scientific 
evidence for much stronger particulate matter standards, sending their 
2006 standards back to EPA for corrective action. The American Lung 
Association is pleased that EPA is on track to propose a new fine 
particle standard in November 2010 and issue a final standard in July 
2011. In 2008, EPA set national air standards for ozone that ignored 
the unanimous agreement among the independent scientific advisory 
committee on the need for much more protective new standards, despite 
the Clean Air Act's clear requirements to establish science-based 
standards that protect public health. We are especially pleased that 
EPA has proposed a much stronger ozone standard, reflecting that 
earlier scientific assessment. EPA is expected to finalize the ozone 
standard in August. It is critical that the committee support setting 
National Ambient Air Quality Standards at levels that are appropriate 
for the protection of public health. To accomplish the important air 
standards work, we support EPA's budget request of $48.9 million to 
support the Human Health Risk Assessment and we strongly support 
funding for Federal Stationary Source Regulations at $34.9 million that 
includes work to set the standards.
Meeting National Air Pollution Health Standards
    Efforts to clean up power plants and other measures to implement 
pollution cleanup are finally moving forward, but much work remains. 
EPA is working on new rules to implement the ozone standards and PM 
standards. EPA also must move forward with regulations to clean up 
power plants including the Clean Air Interstate Rule replacement and a 
MACT (Maximum Achievable Control Technology) rule for electric 
generators, as well as additional rules to regulate other large 
emission sources--tools that our communities must have in order to meet 
the national air standards. EPA must also support state and tribal 
efforts to meet the National Ambient Air Quality Standards. We support 
funding Federal Stationary Source Regulations at $34.9 million, Federal 
Support for Air Quality Management budget of $142.3 million, and the 
Clean Air Allowance Trading program budget of $31.1 million.
Cleaning-up Cars and Trucks
    EPA has continued to make progress reducing pollution from motor 
vehicles. However, light duty cars and trucks remain a significant 
source of air pollution. We strongly support EPA's planned work in 
fiscal year 2011 on Tier 3 standards that could include tighter 
NO<INF>X</INF> standards, off-cycle standards and PM standards for 
gasoline vehicles as well as lower sulfur gasoline that will enable 
advanced pollution control technology. This work is vital to mitigate 
any adverse air quality impacts that may result from increased use of 
renewable fuels. We strongly support increasing the Federal Vehicle and 
Fuel Standards and Certification budget to $100.7 million.
Funding for State and Local Air Agencies and Air Pollution Monitoring
    State and local air pollution control agencies are on the front 
lines in the effort to improve air quality across the Nation. These 
agencies will be called on to adopt and enforce a range of new 
emissions reduction programs designed to meet the needs of each area 
that violate the standards. State and local air pollution agencies need 
additional resources to meet the obligation to implement the Clean Air 
Act. One area in need of significant resources and attention from this 
committee is the air pollution monitoring network. Monitors provide the 
most reliable and consistent information on air pollution in our 
communities. Monitoring tracks both the levels of pollution in the 
outside air as well as emissions from specific sources. This also 
enables policymakers and the public to see what measures are effective 
and where air quality management efforts have fallen short. Further, 
emerging science warns that the air quality in areas with no 
monitoring, like the areas adjacent to major highways or in poorer 
neighborhoods, carries serious health risks. We are pleased to see EPA 
deploy new monitors in response to the new nitrogen dioxide standards. 
Without adequate monitors in place, pollution in those areas will not 
be tracked and effectively reduced. To protect populations at risk and 
to assess the efficacy of pollution control programs, EPA must work 
with scientists and State officials to lower the costs of monitoring 
and expand its reach. We are pleased that the President's budget 
includes $15 million for enhancing air pollution monitoring. Further, 
we strongly support the $82.5 million increase to $309.1 million for 
State and Local Air Quality Management.
Funding for Diesel Retrofits
    Diesel pollution kills. Researchers have found that adults and 
children show increased health risks associated with living or working 
in close proximity to busy roadways. Children are especially vulnerable 
to the effects of traffic-related air pollution. Studies show children 
exposed to higher levels of traffic-generated air pollution have 
smaller lung function and worsened asthma. In addition, many components 
of diesel emissions have been found to be carcinogenic. Over the past 
decade, EPA has issued new regulations that will significantly reduce 
emissions from new diesel engines used in trucks, buses, heavy 
equipment and other vehicles. Last year, EPA issued new rules to clean 
up pollution from ocean going vessels. Ocean going vessels are a 
significant source of particle pollution. We urge the committee to 
support EPA's efforts to combat this pollution through the 
International Maritime Organization. However, it will take many years 
to replace the oldest and dirtiest vehicles with new ones that meet 
new, more stringent Federal emissions standards for diesel engines. We 
support increasing funding to at least $100 million per year for fiscal 
year 2011 for the Diesel Emission Reduction Act program.
Indoor Air
    We thank the subcommittee for its support of the healthier indoor 
air program at EPA. EPA has provided great leadership in addressing 
radon, the second leading cause of lung cancer. EPA should continue its 
work to mitigate this risk. We are pleased to see EPA increase funding 
for the Healthy Schools Initiative. More than 23 million Americans 
suffer from asthma. Air pollution can trigger asthma attacks both 
indoors and outdoors. The programs funded by the Indoor Air program 
raise awareness about asthma and environmental factors that trigger 
asthma attacks; help people with asthma and their families manage 
environmental triggers in their homes; work to reduce children's 
exposure to indoor asthma triggers at schools and day care centers and 
promote environmental management as a component of medical and 
healthcare asthma management practices. The American Lung Association 
is proud to partner with EPA in this important work. We strongly urge 
the committee to fund the healthier indoor air program for fiscal year 
2011 at $47 million. We are also pleased to support the Clean, Green 
and Healthy Schools Initiative funded at $6.2 million for fiscal year 
2011.
Research: Clean Air
    We thank the subcommittee for its continuing support for air 
pollution research at EPA. EPA's work to establish National Ambient Air 
Quality Standards must be grounded in the best scientific research. 
EPA's Clean Air Research program will continue the work to improve the 
understanding of the impact of pollution on health and assist with 
crafting innovative solutions. We urge the subcommittee to fund the 
clean air research program for fiscal year 2011 at $85.3 million.
    Mr. Chairman, thank you for the opportunity to present the 
recommendations of the American Lung Association. Every day we are 
fighting for air--clean, healthy air for all Americans to breathe. A 
robust EPA air pollution program is vital to our success.
                                 ______
                                 
          Prepared Statement of the Appalachian Mountain Club
    Dear Madam Chairwoman and Honorable Members of the Subcommittee: On 
behalf of our more than 100,000 members, advocates, and supporters in 
the Northeast and Mid-Atlantic, the Appalachian Mountain Club (AMC) is 
honored to present this testimony in support of much needed funding for 
conservation and recreation programs in the fiscal year 2011 Interior, 
Environment, and Related Agencies appropriations bill, including:
  --$150 million for the USDA--Forest Service Forest Legacy Program;
  --$600 million for the Department of the Interior--Land and Water 
        Conservation Fund (including $425 million for Federal-side and 
        $175 million for State-side programs);
  --$11 million for the Department of the Interior--Highlands 
        Conservation Act;
  --$12 million for the Department of the Interior--National Parks 
        Service Rivers, Trails, and Conservation Assistance program.;
  --$10 million for the USDA--Community Forest and Open Space 
        Conservation Program;
  ----$2.35 million for the Department of the Interior--Challenge Cost 
        Share Program; and
  --Federal Land Assistance, Management and Enhancement Act.
    These programs provide economic, ecological, and recreational 
benefits to Americans across the country. Land conservation and 
recreation program funding are vital to maintaining the health and well 
being of the Nation's lands and our citizens. We greatly appreciate the 
increases many of these programs received last year. However, the 
demands on these programs continue to grow so we are hopeful that these 
increases will continue into fiscal year 2011. There is a great need to 
fund these programs at the above requested amounts and to work toward 
their full funding.
    Established in 1876, the Appalachian Mountain Club (AMC) is the 
oldest conservation and recreation organization in the country. Our 
mission is to promote the protection, enjoyment, and understanding of 
the mountains, forests, waters, and trails of the Appalachian region. 
More than 100,000 AMC members, advocates, and supporters in the 
Northeast and Mid-Atlantic promote this mission with great enthusiasm.
    Open space conservation in the East is a vital investment that 
ensures clean air and water, a sustainable supply of timber products 
produced from private and public forests, local food and farm products 
for millions of people, and diverse recreational opportunities 
including hiking, cross-country skiing, wildlife viewing, photography, 
and paddling. Conservation of these resources is needed now more than 
ever. According to a report by the USDA Forest Service (USFS), Forests 
on the Edge, more than 44 million acres of private forestland in the 
East will be developed in the next 30 years.
Priority Fiscal Year 2011 Forest Legacy Program Needs in the Northeast
    For fiscal year 2011, we have assembled a list of exemplary Forest 
Legacy projects in the Northeast and Mid-Atlantic. Some of these 
projects, like the Katahdin Forest, Androscoggin Headwaters North, and 
Cardigan Highlands, need this funding to be completed. Others projects, 
such as the Scantic River Headwaters and Little Bushkill Headwaters 
Forest Reserve, are new priorities that will protect unique and 
critical forests in the Eastern United States.
    AMC respectfully requests an increase in overall funding for the 
Forest Legacy Program to $150 million in fiscal year 2011. For fiscal 
year 2011, the USFS received 60 project proposals from 41 States and 
territories to protect 361,604 acres with a total project value of more 
than $200 million. The Forest Legacy Program conserves working forests 
threatened by conversion to development or other uses, and promotes 
economic sustainability as well as recreation, open space protection, 
and wildlife habitat. Public lands provide innumerable social and 
economic benefits including promoting public health through outdoor 
recreation, protection of watersheds and drinking water supplies, 
wildfire reduction and prevention, and supporting wildlife and 
fisheries as they adapt to climate change.
    For fiscal year 2011, we support funding for the following Forest 
Legacy projects in the AMC region:

------------------------------------------------------------------------
                   State                               Project
------------------------------------------------------------------------
ME........................................  West Grand Lake Community
                                             Forest
ME........................................  Katahdin Forest Expansion 3--
                                             Gulf Hagas
NH........................................  Cardigan Highlands
NH........................................  Androscoggin Headwaters
                                             North
MA........................................  Brushy Mountain
CT........................................  Scantic River Headwaters
NY........................................  Hurley Mountain
NY........................................  Follensby Pond
PA........................................  Little Bushkill Headwaters
                                             Forest Reserve
MD........................................  Wicomico
------------------------------------------------------------------------

Priority Fiscal Year 2011 Land and Water Conservation Fund Program 
        Needs in the Northeast
    AMC respectfully requests an increase in overall funding for the 
Land and Water Conservation Fund (LWCF), specifically $425 million for 
the Federal LWCF and $175 million for the LWCF stateside program. We 
applaud the substantial LWCF funding increases provided by this 
subcommittee in fiscal year 2010. And we are most thankful that the 
Obama administration's budget recognizes the importance of this program 
by proposing significant increases for fiscal year 2011 as well as 
setting a goal of full funding for the LWCF in the next four years.
    The LWCF is our Nation's premier program to acquire and protect 
lands in national parks, national wildlife refuges, national forests, 
Bureau of Land Management units, and other Federal land systems. This 
program faces an extensive and growing backlog of land acquisition 
needs across the Nation. The LWCF will provide important funds to 
obtain inholdings and lands adjacent to Federal lands such as the 
Rachel Carson National Wildlife Refuge (NWR), Silvio O. Conte National 
NWR, Wallkill NWR and the Delaware Water Gap National Recreation Area.
    The LWCF stateside program provides close-to-home recreation by 
helping to create thousands of State and local parks across the 
country. These parks provide millions of urban and suburban residents 
the benefits of access to natural areas while promoting much needed 
tourism in local communities.
    In fiscal year 2011, the AMC supports funding for the following 
LWCF projects in our region:

------------------------------------------------------------------------
                   State                          Federal Land Unit
------------------------------------------------------------------------
ME........................................  Rachel Carson NWR
ME/NH.....................................  White Mountain National
                                             Forest
NH, VT, CT, MA............................  Silvio O. Conte NWR
NH........................................  Lake Umbagog--Androscoggin
                                             Headwaters NWR
CT........................................  Stewart McKinney NWR
NJ........................................  Wallkill NWR
NJ........................................  Great Swamp NWR
PA........................................  Delaware Water Gap NRA
------------------------------------------------------------------------

Fiscal Year 2011 Highlands Conservation Act Needs
    AMC respectfully requests an increase in overall funding for the 
Highlands Conservation Act (HCA), including $10 million for land 
conservation and $1 million for USFS technical assistance funding. We 
greatly appreciate the increase provided by Congress to this program in 
fiscal year 2010. We are also thankful for the increase included in the 
fiscal year 2011 Obama administration's budget. The HCA, passed in 
2004, authorizes land conservation partnership projects and open space 
purchases from willing sellers in the four State Highlands region of 
Pennsylvania, New Jersey, New York, and Connecticut. The Act includes 
authorization of $10 million in annual grants to the Highlands states 
from the Department of the Interior for land acquisition and easements. 
It also includes $1 million annually in technical assistance from the 
USFS to work with Highlands' States and local municipalities to 
implement the conservation strategies outlined in the three 
comprehensive Forest Service studies of the region completed in 1992, 
2002, and 2008.
    The four State Highlands Region is the backyard for the more than 
25 million people living in or around the major metropolitan areas of 
the Mid-Atlantic States, and provides critical drinking water, wildlife 
habitat, and abundant and accessible recreation opportunities. Current 
projects in Pennsylvania, New Jersey, New York, and Connecticut share 
strong local support, commitments from State and private sources to 
provide matching funding, and will protect important water supplies, 
forests, farmland, recreational opportunities and wildlife habitat.
    In fiscal year 2011, the AMC supports funding for the following HCA 
projects:

------------------------------------------------------------------------
                   State                               Project
------------------------------------------------------------------------
CT........................................  Naugatuck/Mad River
                                             Headwaters
NY........................................  Greater Sterling Forest/
                                             Torne Valley
NJ........................................  Northern Highlands
PA........................................  Hopewell Big Woods
------------------------------------------------------------------------

Fiscal Year 2011 Community Forest and Open Space Conservation Program 
        Needs
    AMC respectfully requests funding of $10 million for this important 
program. The Community Forest and Open Space Conservation Program will 
provide communities matching funds to purchase critical forestland 
tracts and provide technical assistance through State forestry agencies 
for outstanding forest management. The program provides 50-50 matching 
funds to help local governments, tribes, and nonprofit organizations 
acquire forest areas that are economically, culturally, and 
environmentally important to that locality and threatened by 
development. The program provides grants directly to local governments 
and nonprofits for full fee acquisition, not conservation easements. 
The program's criteria are built around evaluation of a project's 
community impact and it requires public access and active community 
engagement in forest planning for parcels.
Priority Fiscal Year 2011 Recreational Programs Needs
            Fiscal Year 2011 Rivers, Trails and Conservation Assistance 
                    Needs
    AMC respectfully requests an increase in overall funding for the 
Rivers, Trails Conservation Assistance (RTCA) program and requests $12 
million nationwide. Through this National Park Service program: 
partners protect 700 miles of rivers; create 1,300 miles of trails; 
conserve over 60,500 acres of open space annually; promote alternative 
transportation; brownfield redevelopment; youth conservation, and 
floodplain planning. This $12 million in funding would reverse the 
steady erosion of funding and reduced staffing RTCA has experienced in 
recent years. This program receives less than 1 percent of National 
Park Service funding, but Federal funds are leveraged many times over 
with State, local, and partnership cooperation, and in-kind matches.
            Fiscal Year 2011 Challenge Cost Share Program (CCSP)
    We also request $2.35 million for the CCSP program. The purpose of 
this program is to increase participation by qualified partners in the 
preservation and improvement of National Park Service natural, 
cultural, and recreational resources. It is a matching fund program and 
an equal amount of eligible and matching share (minimum 50 percent) of 
cash, goods, or services from non-Federal sources is required. One-
third of CCSP funding is set aside for National Trails System projects, 
supporting work under the National Trails System Act, including the New 
England National Scenic Trail in Connecticut and Massachusetts.
Other Priority Programs
            Fiscal Year 2011 Federal Land Assistance, Management and 
                    Enhancement Act (FLAME)
    We respectfully request that the subcommittee reaffirm the 
commitment to the USFS and Department of the Interior for FLAME Act 
funds and ensure the program is funded at appropriate levels that would 
cover the cost of emergency fires and eliminate the need to transfer 
funds from nonfire programs. Additionally, we urge the Subcommittee to 
provide direction to the agencies to use the most current and best 
informed means of estimating annual suppression rather than using the 
traditional 10-year average.
    Thank you for this opportunity and your consideration.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
                              Universities
    On behalf of the APLU Board on Natural Resources (BNR), we thank 
you for your support of science and research programs within the United 
States Geological Survey (USGS) and the Environmental Protection Agency 
(EPA). We appreciate the opportunity to provide detailed 
recommendations for the following programs within USGS: $8.8 million 
for the Water Resources Research Institutes, $22 million for the 
Cooperative Fish and Wildlife Research Units; $64 million for the 
National Cooperative Geologic Mapping Program; $75 million for the 
Mineral Resources Program. Within EPA, we ask support of the 
administration's request of $87.2 million for the EPA Science to 
Achieve Results (STAR) competitive grants program and $17.3 million for 
the STAR Graduate Fellowships.
    APLU BNR requests $8.8 million for the Water Resources Research 
Institutes (WRRI). The APLU BNR request is based on the following: 
$7,000,000 in base grants for the WRRI as authorized by section 104(b) 
of the Water Resources Research Act, including State-based competitive 
grants; and $1,800,000 to support activities authorized by section 
104(g) of the act, and a national competitive grants program. Federal 
funding for the WRRI program is the catalyst that moves States and 
cities to invest in university-based research to address their own 
water management issues. State WRRI take the relatively modest amount 
of Federal funding appropriated, match it 2:1 with State, local, and 
other funds and use it to put university scientists to work finding 
solutions to the most pressing local and State water problems that are 
of national importance. The Institutes have raised more than $15 in 
other funds for every $1 funded through this program. The added benefit 
is that often research to address State and local problems helps solve 
problems that are of regional and national importance. Many of the 
projects funded through this program provide the knowledge for State or 
local managers to implement new Federal laws and regulations. Perhaps 
most important, the Federal funding provides the driving force of 
collaboration in water research and education among local, State, 
Federal, and university water professionals. This program is essential 
to solving State, regional, and inter-jurisdictional water resources 
problems. Institutes in Louisiana, California and North Carolina, for 
example, made major contributions in emergency planning and hurricane 
recovery, protecting groundwater aquifers from sea water intrusion and 
reducing water treatment costs. The institutes also train the next 
generation of water resource managers and scientists.
    APLU BNR supports a funding request of $22 million for the 
Cooperative Fish and Wildlife Research Units (CRU). This program serves 
to (1) train the next generation of Fish and Wildlife managers; (2) 
conduct research designed to meet the needs of unit cooperators; and 
(3) provide technical assistance to State and Federal personnel and 
other natural resource managers.
    Originally established to provide training for students in fish and 
wildlife biology, the units were formally recognized by the Cooperative 
Units Act of 1960 (Public Law 86-686). While the CRU still provide 
experience and training for approximately 600 graduate students per 
year, they also provide valuable research for their biggest clients, 
the U.S. Fish and Wildlife Service (FWS) and cooperating State 
agencies. Today, there are 40 BRD Cooperative Research Units in 38 
States, from pre-existing research programs of the FWS.
    Each unit is a true Federal/State/university collaboration in that 
it is a partnership between USGS, a State natural resource agency, a 
host university, and the Wildlife Management Institute. For every $1 
the Federal Government puts into the program, three more are leveraged 
through the other partners. The United States economy has long relied 
on the bountiful natural resources bestowed upon this land. Federal 
investment in the CRU will be returned many times over though the 
training of future natural resource managers who will guide the nation 
in sustainable use of our natural resources despite ever-increasing 
pressures on those resources.
    The APLU BNR also supports funding at a level of $64 million for 
the National Cooperative Geologic Mapping Program (NCGMP) within the 
USGS budget. The mission of the NCGMP is to provide accurate geologic 
maps that help sustain and improve the quality of life and economic 
vitality of the United States and mitigate geologic hazardous events 
and conditions. Universities are involved in this program in two ways. 
First, universities participate through the production of new geologic 
maps to meet needs in stewardship of water, energy, and mineral 
resources; risk reduction from natural hazards such as earthquakes and 
landslides; and environmental protection. Second, through EDMAP, 
universities train the next generation of geologic mappers through a 
competitive matching-fund grant program. Since EDMAP's inception in 
1996, more than $5 million from the NCGMP have supported geologic 
mapping efforts of more than 600 students working with more than 214 
professors at 131 universities in 44 States plus Puerto Rico and the 
District of Columbia. A 2007 survey by NCGMP demonstrated that students 
who participated in EDMAP (1) fall well above the national average for 
pursuing advanced academic degrees in the geoscience field; (2) easily 
obtain geoscience positions due to the knowledge gained through EDMAP; 
and (3) frequently use the skills gained through EDMAP.
    The APLU BNR supports $75 million for the Mineral Resources Program 
(MRP). The 2008 National Research Council's (NRC) report ``Minerals, 
Critical Minerals, and the U.S. Economy'' clearly lays out the danger 
of continuing cuts to the services this program provides to our 
Nation's economy. Items such as LCDs, catalytic converters, 
rechargeable batteries, and other electronics all use minerals 
designated as ``critical'' based on the risk that they may become 
unavailable for any number of reasons. The role of minerals information 
is becoming ever more vital as the Nation works to remain competitive 
and searches for emerging technologies to solve some of our most 
pressing environmental issues.
    BNR also supports Senate bill 1462 American Clean Energy Leadership 
Act title IV, subtitle E Strengthening Education and Training in the 
Subsurface Geosciences and Engineering for Energy Development. There 
have been substantial cuts to the number of professionals in the MRP 
since 1996. At the same time, the NRC report cited above calls for the 
``need to maintain adequate, accurate and timely information and 
analysis on minerals at a national level in the Federal government with 
additional, not fewer, professionals having appropriate backgrounds to 
perform the work.'' For example, as society pushes toward 
sustainability, the importance of experts designing products with an 
eye toward recycling minerals will only increase. Currently, only a few 
formal training programs have emerged to train a new generation in the 
field. For this reason, we request support for Mineral Resources 
External Grants programs of at least $5 million. The USGS committed 
$1,000,000 toward Mineral Resources External Research for fiscal year 
2006, but cut the program to $0 in fiscal year 2007 and committed only 
$250,000 in fiscal year 2008. Sustained and additional funds are needed 
to expand upon the first step in fiscal year 2006. Apart from this 
small program, there is virtually no funding to sustain applied science 
research and education related to mineral resources. The establishment 
of a consistently well-funded Minerals Resources External Grants 
program would follow the recommendations of three recent NRC reports 
and would help arrest the dramatic decline of minerals expertise in the 
United States.
    APLU BNR recommends that the subcommittee provide funding $87.2 
million for competitive grants of the Science to Achieve Results (STAR) 
program and $17.3 million for STAR graduate fellowships. One of the 
most effective programs for improving the agency's science capabilities 
is the STAR program. In 2003, the National Research Council strongly 
endorsed STAR in its report, ``The Measure of STAR.'' The investment 
EPA ORD makes in STAR is especially significant and effective, because 
STAR is not a stand-alone grants program. It is coordinated with EPA 
program and regional offices, and targeted at high-priority needs that 
support the agency's mission. The program is leveraged by the 
participation of other Federal agencies and the private sector, and 
involves thousands of research scholars in universities. APLU 
universities have used STAR extramural research funding to accomplish 
the following: improve air quality modeling nation wide; develop 
evaluations of U.S. estuarine and coastal water quality degradation; 
analyze ecosystem health and impairment; establish effective multi-
university research collaborations; and develop techniques to assess 
the risks to fish in the Great Lakes associated with exposure to 
endocrine disrupting chemicals.
    STAR graduate fellowships are also an excellent investment in the 
next generation of scientists and engineers, and provide opportunities 
for some of the brightest minds to develop the skills to enhance and 
replenish this Nation's environmental science expertise. Moreover, 
these grants are often a way to get minority graduate students engaged 
in high-level scientific research. STAR funding is a very important 
tool in the effort to address the future workforce needs of EPA. These 
investigator-initiated research grants are significantly expanding the 
number of scientists conducting EPA-related research and enhancing the 
overall quality of EPA S&T.
    Thank you for the opportunity to share our views with the 
subcommittee.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) is the national 
service organization representing the interests of more than 2,000 
municipal and other State and locally owned electric utilities in 49 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to 1 of every 7 electric consumers (approximately 45 
million people), serving some of the Nation's largest cities. However, 
the vast majority of APPA's members serve communities with populations 
of 10,000 people or less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2011 funding priorities within the jurisdiction of the 
Interior, Environment, and Related Agencies Subcommittee.
Environmental Protection Agency: ENERGY STAR Programs
    APPA is disappointed in the modest 5 percent increase in the EPA 
ENERGY STAR program. We request an additional $20 million in funding 
for the program to bring the total amount to $75 million.
    ENERGY STAR is a voluntary partnership program pairing EPA with 
businesses and consumers nationwide to enhance investment in 
underutilized technologies and practices that increase energy 
efficiency while at the same time reducing emissions of criteria 
pollutants and greenhouse gases. APPA member systems across the country 
have been active participants in ENERGY STAR programs to reduce 
electricity consumption.
    According to the EPA, ENERGY STAR is saving businesses, 
organizations, and consumers more than $17 billion a year, and has been 
instrumental in the more widespread use of technological innovations 
like LED traffic lights, efficient fluorescent lighting, power 
management systems for office equipment, and low standby energy use.
Environmental Protection Agency: Landfill Methane Outreach Program
    APPA supports robust funding for the Landfill Methane Outreach 
Program (LMOP) at EPA under the Environmental Program Management, 
Climate Protection Program budget. While we recognize that LMOP is not 
a budget line-item, APPA encourages the subcommittee to highlight the 
importance of LMOP by including report language directing the EPA to 
provide adequate funding for the program. The Landfill Methane Outreach 
Program helps to partner utilities, energy organizations, States, 
tribes, the landfill gas industry and trade associations to promote the 
recovery and use of landfill gas as an energy source. According to EPA, 
LMOP has more than 700 partners that have signed voluntary agreements 
to work with EPA to develop cost-effective landfill-gas-to-energy (LFG) 
projects. There are approximately 509 operational LFG projects in the 
United States. LMOP has also developed detailed profiles for more than 
530 candidate landfills.
    Landfill gas is created when organic waste in a landfill 
decomposes. This gas consists of about 50 percent methane and about 50 
percent carbon dioxide. Landfill gas can be captured, converted, and 
used as an energy source rather than being released into the atmosphere 
as a potent greenhouse gas. Converting landfill gas to energy offsets 
the need for non-resources such as coal and oil, and thereby helps to 
diversify utilities' fuel portfolios and to reduce emissions of air 
pollutants from conventional fuel sources.
    In 2005, all operational LFG energy projects in the United States 
prevented the release of 19 MMTCE (million metric tons of carbon 
equivalent). This reduction is the carbon equivalent of removing the 
emissions from 13.3 million vehicles on the road or planting 19 million 
acres of forest for 1 year. This reduction also has the same 
environmental benefit as preventing the use of 162 million barrels of 
oil or offsetting the use of 341,000 railcars of coal.
    As units of local and State governments, APPA's member utilities 
are uniquely positioned to embark on LFG projects. EPA's LMOP 
facilitates this process by providing technical support and access to 
invaluable partnerships to our members and the communities they serve.
Council on Environmental Quality
    APPA supports the President's budget request of $3.4 million for 
fiscal year 2011 for the White House's Council on Environmental Quality 
(CEQ), and urges the subcommittee to maintain this funding level. 
Public power utilities have experienced a general lack of consistency 
in Federal Government regulations, particularly involving environmental 
issues. While additional layers of Government should be avoided, a 
central overseer can perform a valuable function in preventing 
duplicative, unnecessary and inconsistent regulations. CEQ is 
responsible for ensuring that Federal agencies perform their tasks in 
an efficient and coordinated manner.
                                 ______
                                 
       Prepared Statement of the Alabama Rivers Alliance, et al.
    The undersigned organizations support fully funding the President's 
budget request of $4.3 million for the U.S. Environmental Protection 
Agency (EPA) to continue its study of the relationship between 
hydraulic fracturing and drinking water resources. This study is being 
conducted under the Research and Development Science to Achieve Results 
(STAR) program.
    The EPA has commenced with a congressional fiscal year 2010 
directed study on hydraulic fracturing and its effects upon drinking 
water. EPA budgeted $1.8 million in this fiscal year to begin the 
study, and proposes an additional $4.3 million in the coming fiscal 
year to continue on with it. This funding will ensure that EPA can 
conduct a robust and transparent study with full public participation. 
EPA needs congressional support to engage communities across the 
country, and we respectfully request that you maximize the resources of 
the EPA Research and Development so that this study can be fully 
funded.
    Several steps of the hydraulic fracturing process affect drinking 
water. First, hydraulic fracturing uses hundreds of undisclosed 
chemicals, which are mixed with water and pumped underground, directly 
through aquifers, to fracture rock. This process has been linked to 
surface and groundwater contamination across the country. The following 
is a sampling of contamination reported during hydraulic fracturing. 
The resources provided by this study will help determine the causes of 
reported incidents like these:
  --Silt, Colorado.--In 2001, two families reported a water well blow-
        out and contamination of their drinking water during hydraulic 
        fracturing of four nearby natural gas wells owned by Ballard 
        Petroleum, now Encana Corporation. Their drinking water turned 
        gray, had strong smells, bubbled, and lost pressure. One family 
        reported health symptoms they believe are linked to the 
        groundwater contamination.
  --Seneca County, New York.--In 2007, a family reported contamination 
        of drinking water the morning after hydraulic fracturing of a 
        nearby natural gas well owned by Chesapeake Energy Corporation. 
        The water turned gray and was full of sediment.
  --Bainbridge Township, Ohio.--In 2007, there was an explosion of a 
        water well and contamination of at least 22 other drinking 
        water wells in Bainbridge Township after hydraulic fracturing 
        of a nearby natural gas well owned by Ohio Valley Energy 
        Systems. More than 2 years later, more than 40 families are 
        still without clean drinking water and are waiting to be 
        connected to a town water system.
  --Gibbs Hill, Pennsylvania.--In 2008, two families reported 
        contamination of drinking water after hydraulic fracturing of a 
        nearby natural gas well owned by Seneca Resources Corporation. 
        Their water had strong fumes, caused burning in lungs and 
        sinuses after showering, and caused burning in the mouth 
        immediately upon drinking.
  --Grandview, Texas.--In 2007, three families who share an aquifer 
        reported contamination of drinking water after hydraulic 
        fracturing of a nearby well owned by Williams. They experienced 
        strong odors in their water, changes in water pressure, skin 
        irritation, and dead livestock. Water testing found toluene and 
        other contaminants.
  --Pavillion, Wyoming.--Families have been reporting contamination of 
        their drinking water for at least 10 years. Hydraulic 
        fracturing has been used in the many wells in the area owned by 
        Encana Corporation. Drinking water has turned black, smelled 
        bad, and tasted bad. Individuals report medical symptoms they 
        believe are related to water contamination. The U.S. 
        Environmental Protection Agency is investigating and has found 
        contamination in 11 water wells, including toxic chemicals that 
        may be from hydraulic fracturing fluids. Further tests are 
        needed to determine the source of contamination.
    In addition to the contamination that has been linked to hydraulic 
fracturing, millions of gallons of water are used to fracture each 
well. Using fresh water to fracture a well can be unsustainable use of 
water resources, and its impact upon our Nation's freshwater supply--
including small and seasonal streams--must be evaluated. And finally, 
appropriate treatment and disposal of the waste generated from 
hydraulic fracturing is critical to protecting the Nation's waters. 
Aging and failing wastewater treatment plants cannot adequately treat 
and take on new waste. Many of the plants in areas new to gas 
development were not designed to treat the heavy metals and dissolved 
solids present in wastewater from hydraulic fracturing and cannot 
adequately handle it. EPA must have adequate resources to complete a 
comprehensive scientific study in order to accurately assess the 
impacts of hydraulic fracturing on our Nation's waters. Only with on-
the-ground data collection and monitoring at several fracturing sites 
in different regions of the country will a true assessment of the 
impacts of fracturing be complete.
    This Congress has invested billions of dollars in the restoration 
and protection of our Nation's waters, and has invested billions more 
in upgrading our Nation's clean water and drinking water 
infrastructure; Congress should take every opportunity to fully fund a 
thoughtful and robust study that will proactively protect our Nation's 
waters and not undermine the money it has already wisely invested in 
protecting and restoring water quality for the people of the United 
States.
    Thank you for the opportunity to comment on this important issue.

Alaska's Big Village Network
Alliance for the Great Lakes
American Rivers
Appalachian Center for the Economy and the Environment
Audubon Naturalist Society
Cahaba River Society
Carpenter Environmental Associates, Inc.
Catholic Health East
Center for Environment, Commerce & Energy--African American 
Environmentalist Association
Chenango Delaware Otsego Gas Drilling Opposition Group
Chesapeake Bay Foundation
Chester-Ridley-Crum Watersheds Association
Choctawhatchee Riverkeeper
Citizens Campaign for the Environment
Clean Water Action
Clean Water for North Carolina
Clean Water Network
Colorado Watershed Assembly
Committee to Preserve the Fingerlakes
Community Environmental Defense Council, Inc.
Croton Watershed Clean Water Coalition
Dakota Resource Council
Damascus Citizens for Sustainability
Delaware County Neighbors
Delaware Riverkeeper Network
District IV, Florida Federation of Garden Clubs
Earth Action
Earthjustice
Environmental Advocates of New York
Enviroscapes Landscape Design
Farmington River Watershed Association
Friends of Grays Harbor
Friends of the North Fork and White Rivers
Gas Drilling Awareness for Cortland County
Gila Resources Information Project
Great Egg Harbor Watershed Administration
Great Salt Lakekeeper
Green Valleys Association
Gulf Restoration Network
Hackensack Riverkeeper
Haw River Assembly
Herring Run Watershed Association
High Country Citizens' Alliance
Hilltown Anti- Herbicide Coalition
Honor Our Pueblo Existence
Idaho Concerned Area Residents for the Environment
Izaak Walton League of America--Central New York Chapter
Kentucky Resources Council, Inc.
Kittatinny Group of the PA Chapter of the Sierra Club
Lake Superior Greens
Land Loss Prevention Project
Little Beaver Creek Land Foundation
Maine Rivers
Montana Environmental Information Center
National Committee for the New River
Natural Resources Defense Council
Neighbors of the Onondaga Nation
New Yorkers for Sustainable Energy Solutions Statewide
New Yorkers Residents Against Drilling
North Carolina Conservation Network
Northeast Organic Farming Association of New York
Northern California River Watch
NYH2O
Otsego 2000
Partnership for Onondaga Creek
Peach Bottom Concerned Citizens Group
Pennsylvania Organization for Watersheds and Rivers
Province of St. Joseph of the Capuchin Order
Putnam County Coalition to Preserve Open Space
Rivers Unlimited
Schoharie Valley Watch
Sierra Club
St. Mary's River Watershed Association
Sullivan Area Citizens for Responsible Energy Development
Sustainable Tompkins
The Watershed Project
Town of Ulysses Citizens Advisory Board on Gas Drilling
US Environmental Watch
Western Watersheds Project--Wyoming Office
Wild South
Wilderness East
Wyoming Outdoor Council
                                 ______
                                 
           Letter From the Association of Research Libraries
                                                    April 26, 2010.
Hon. Dianne Feinstein,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lamar Alexander
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Feinstein and Ranking Member Alexander: On behalf of 
the Association of Research Libraries (ARL), I write to express strong 
support for funding of the National Endowment for the Humanities (NEH) 
Division of Preservation and Access. With NEH's support, libraries 
engage in numerous activities to preserve and provide access to our 
local, State, national, and international cultural heritage. ARL also 
urges you to support the overall funding for NEH at the level of $232.5 
million, an increase of $65 million over fiscal year 2010. Additional 
appropriations would permit ARL to address the high level of unmet 
needs by supporting a greater number of humanities projects including 
those focused on preserving our heritage.
    NEH funding is central to libraries across the country as this 
funding supports core activities including the preservation of unique 
collections, the training of librarians to preserve these culturally 
valuable resources, and importantly, making research tools broadly 
available for use by scholars and the public. For example, NEH funding 
supports regional field offices and academic programs in conservation 
as well as providing individual awards that support basic preservation 
activities in libraries, archives, museums, and historical 
organizations throughout the United States. This support includes 
preservation training programs that reach thousands of individuals 
across the United States. NEH support of workforce development and 
training efforts is critically important as librarians, archivists, and 
museum professionals employ digital and networked-based technologies 
while, at the same time, preserve books, manuscripts, photographs, and 
other artifacts in many other formats. Recent examples of NEH grants in 
each of these areas include:
  --A regional preservation field service program will provide 
        preservation surveys, workshops, technical consultations, and 
        educational materials to museums and historical organizations 
        in California, Arizona, Oregon, and Washington; Balboa Art 
        Conservation Center, San Diego, California.
  --Curriculum modules and a virtual laboratory for graduate-level 
        coursework in preserving and enhancing access to digital 
        humanities resources will be developed. In addition, these will 
        be used in the Digital Preservation Management Workshop, a 
        continuing education program by the Interuniversity Consortium 
        for Political and Social Research (ICPSR). Access to these 
        educational resources via the Internet vastly expands the 
        number of individuals who can benefit from this training; 
        University of Michigan, Ann Arbor, Michigan.
  --The digitization of 10,000 rare or unique late 19th and early 20th 
        century musical scores and books for online access through the 
        university's digital repository, the re-housing of original 
        materials, and the production of preservation photocopies will 
        be undertaken; University of Rochester, Rochester, New York.
    In addition to funding training and preservation activities, the 
NEH Division of Preservation and Access also provides awards to support 
the creation of a wide range of research tools and reference works such 
as online encyclopedias, ancient language dictionaries, and catalogs of 
rare materials. Support of these diverse projects results in broad 
access to important educational reference works and creates new 
analytical capabilities that allows for widespread participation in 
research by students and teachers. Such projects and authoritative 
reference tools build the foundation for research, and in digital form, 
enable broad and effective access to these resources. Examples of 
recent awards include:
  --A project to add 30,000 additional entries to the comprehensive 
        Encyclopedic Discography of Victor Recordings (1900-1950), 
        which is a freely available, searchable electronic database of 
        master recordings and published discs made by the Victor 
        Talking Machine Company; University of California, Santa 
        Barbara, Santa Barbara, California.
  --Digital archiving of endangered Mexican and South American 
        linguistic materials to be made accessible by the Archive of 
        the Indigenous Languages of Latin America; University of Texas, 
        Austin, Texas.
  --The collaboration among the Autry National Center/Southwest Museum 
        of the American Indian, the National Museum of the American 
        Indian, the National Anthropological Archives, and the National 
        Museum of Natural History to federate databases focused on 
        Native American collections and share the data in new ways with 
        tribal colleges and community members; American Indian Higher 
        Education Consortium, Alexandria, Virginia.
  --The digitization of 29 unique audio collections created on lacquer 
        and aluminum discs and fragile reel-to-reel tape that document 
        Native American, African-American, and Anglo-American oral 
        traditions, as well as those of other immigrant populations in 
        the United States; Indiana University-Bloomington, Bloomington, 
        Indiana.
    Finally, the Division of Preservation and Access has provided 
support to stabilize humanities collections for institutions whose 
collections and facilities were adversely affected by disasters. 
Learning from the experiences of cultural institutions during and after 
hurricanes Katrina and Rita, NEH now funds emergency response projects 
so that these institutions are prepared in the case of an emergency. 
For example:
  --The hiring of a preservation consultant to conduct a training 
        workshop in emergency response procedures and provide advice 
        for the purchase of basic emergency supplies for the Coachella 
        Valley Emergency Preparedness Network. This consortium includes 
        three historical societies, an historic home, two Native 
        American museums, a separate tribal collection, an aviation 
        museum, a military museum, and a modern art museum. 
        Collectively, these institutions hold 400 cubic feet of 
        archeological materials, 600 baskets, 150 paintings, 16,000 
        color slides, 1,500 photos, 100 maps, 25 linear feet of 
        archival materials, 825 audio and video recordings, 3,000 
        volumes and 84 periodical titles; Agua Caliente Cultural 
        Museum, Palm Springs, California.
    In fiscal year 2009, the NEH Division of Preservation and Access 
received 512 funding applications for a total of $68.007 million. NEH 
was able to support 170 of those requests for a total of $20.462 
million (some of these funds also supported We the People grants). 
Clearly, the need for Federal funding in support of preservation and 
access activities far exceeds available resources. ARL urges members of 
the Subcommittee on the Interior, Environment, and Related Agencies to 
consider additional funds for the NEH Preservation and Access Division 
activities and for NEH overall.
    ARL very much appreciates the subcommittee on the Interior, 
Environment, and Related Agencies' support for NEH's preservation and 
access activities in the past and requests your ongoing support as you 
and other members of the subcommittee consider the NEH fiscal year 2011 
budget request. Thank you in advance for your consideration of this 
request. Please let me know if there is additional information that I 
can provide.
            Sincerely,
                                         Prudence S. Adler,
                                      Associate Executive Director.
                                 ______
                                 
      Prepared Statement of the American Sportfishing Association
    Dear Chairman and Ranking Member: The American Sportfishing 
Association (ASA) recommends the following as the subcommittee 
considers appropriations for the Department of the Interior for fiscal 
year 2011. ASA is the sportfishing industry's trade association, 
committed to looking out for the interests of the entire sportfishing 
community. We give the industry a unified voice, speaking out when 
emerging laws and policies could significantly affect sportfishing 
business or sportfishing itself. We invest in long-term ventures to 
ensure the industry will remain strong and prosperous as well as 
safeguard and promote the enduring economic and conservation values of 
sportfishing in America.
    ASA makes these recommendations on the basis of briefings with 
agency staff and from years of experience with fisheries management in 
this Nation.
U.S. Fish and Wildlife Service (FWS)
    National Fish Habitat Action Plan.--ASA and its member companies 
pride themselves on being conservationists first and foremost. The 
sportfishing industry is dependent upon healthy and abundant fish 
populations and habitat being available to the public. The landscape-
scale projects now being conducted by partnerships under the umbrella 
of the National Fish Habitat Action Plan will help to ensure our 
Nation's aquatic resources are conserved and available for future 
generations to enjoy through recreational fishing and boating. Because 
it will provide a significant boost to America's fisheries resources 
and the recreational fishing community, ASA fully supports the National 
Fish Habitat Action Plan.
    Implementation of the National Fish Habitat Action Plan is well 
underway and making important strides in aquatic habitat conservation 
all across the United States. FWS has been a strong leader and State 
partner in the implementation of the plan, and we appreciate the 
administration's continuing strong commitment to it. FWS appropriations 
in recent years have been instrumental in delivering habitat 
improvement projects on the ground, in cooperation with the States and 
in consultation with the National Fish Habitat Board, and in supporting 
the Board's work. The fiscal year 2011 budget recommendation is level 
funded at $7.2 million. Given that 17 Fish Habitat Partnerships have 
now been recognized by the Board and that there are a number of 
planning milestones to achieve in 2011 (e.g., completion of a national 
fish habitat assessment), ASA recommends an appropriation of $10 
million to assure adequate financial resources for these base 
operational needs.
    National Fish Hatcheries.--ASA recognizes the importance of 
developing ecosystem-based solutions for restoring, conserving, and 
managing native fish populations. National Fish Hatcheries are an 
important tool in support of that goal, providing stocks to supplement 
or jump-start restoration efforts for at-risk species such as Pacific 
and Atlantic salmon, several species of trout, pallid sturgeon, and 
freshwater mussels--many of which are identified as species of concern 
in the State wildlife action plans. ASA is concerned that the 
administration's fiscal year 2011 budget request of $50.307 million 
cannot sustain all national fish hatchery operations and reverses a 
multi-year priority of the FWS, the sportfishing industry and States to 
adequately address the aquatic resource mission of the agency. ASA 
believes that continued, long-term funding is critical to prevent 
hatchery closures. Therefore, ASA recommends funding for National Fish 
Hatchery operations at the fiscal year 2010 enacted level of $54.370 
million.
    ASA also supports funding at the level of $485,000 for ongoing 
operation of the Ouray Fish Hatchery which is critical in the Upper 
Colorado River restoration effort.
    ASA is very concerned about the nearly $2 million reduction in the 
Aquatic Invasive Species program area. Prevention, control, and 
management of aquatic invasive species is vital to continuing priority 
actions intended to protect aquatic wildlife and water resources. These 
actions include such activities as implementing enforceable inspection 
and decontamination at infested waters to prevent the spread of aquatic 
invasive species like quagga and zebra mussels, and interdiction at 
waters that remain at high risk of infection. We therefore, recommend 
this program be funded at the fiscal year 2010 enacted level of $8.244 
million.
    National Wildlife Refuge System (NWRS).--ASA deeply appreciates the 
subcommittee's vision and leadership regarding the funding increases 
realized in fiscal year 2008 through fiscal year 2010, and the 2009 
American Recovery and Reinvestment Act (ARRA). While it does not reduce 
the annual needs of the NWRS, the ARRA is providing a jolt to local 
economies by providing refuges across the country with the means to 
hire local contractors and purchase local materials for important 
infrastructure and habitat restoration projects. Following a period of 
essentially flat annual budgets, the recent increases in annual 
appropriations allowed for the suspension of workforce downsizing plans 
that called for an eventual 20 percent reduction in overall staffing 
levels. However, with more than 10 percent of staff already eliminated 
since 2004, additional funding increases that build upon the last 3 
years are essential if this valued system of conservation lands is to 
rebound to its full potential. With the goal of fulfilling the 
progressive conservation vision that President Theodore Roosevelt first 
espoused more than a century ago, ASA respectfully requests a fiscal 
year 2011 funding level of $578 million for the operations and 
maintenance accounts of the NWRS.
    Great Lakes Fish and Wildlife Restoration Act.--ASA recommends that 
Congress fund the Great Lakes Fish and Wildlife Restoration Act 
(GLFWRA) in fiscal year 2011 at its full authorization of $16 million, 
and to include funding for the proposed ``Great Lakes Mass Marking 
Initiative.'' The GLFWRA supports the Service's mission in the Great 
Lakes region. Since major reauthorizations in 1996 and 2006, this act 
has supported essential projects to conserve native fish and wildlife 
species, understand the impact of invasive species, restore habitat, 
and undertake other projects related to the health of the Great Lakes 
ecosystem. Projects under the Act require a non-Federal cost-sharing 
partner, so the program fosters collaboration among Federal, State, 
tribal, and local interests. The GLFWRA also authorizes regional 
projects that benefit the Great Lakes basin as a whole.
    One proposed regional project, the ``Great Lakes Mass Marking 
Initiative,'' is a cooperative undertaking among Federal, State, and 
tribal authorities to employ new technologies to mark all hatchery 
reared fish that are stocked into the Great Lakes. Currently, not all 
stocked fish are marked or coded-wire-tagged, which limits the 
information fishery managers have about the status of the fishery and 
their restoration efforts. The mass marking technology--known as the 
AutoFish system--has been used with great success in the Pacific 
Northwest, where all stocked fish must, by law, be marked and coded-
wire-tagged. The fishery management agencies of the Great Lakes region 
have explored the use of this mass marking technology, have field-
tested its applicability, and have concluded that the marking of all 
hatchery reared fish would significantly enhance Great Lakes fishery 
management and research. Fishery managers, working together, have 
proposed this mass marking technology for funding under the GLFWRA. 
Full funding for the GLFWRA, and funding for the Great Lakes Mass 
Marking Initiative, are needed for the service to continue its 
important role in Great Lakes restoration. ASA requests the full 
authorization of $16 million for the GLFWRA, including full funding for 
the Great Lakes Mass Marking Initiative.
    Atlantic Salmon.--Atlantic salmon management in the Connecticut 
River is an important multi-State and agency restoration effort. 
Although primarily supplemented by hatchery production, a long-term 
goal is the establishment of a self-sustaining population. Management 
of genetic diversity is critical to achieve this long-term management 
goal. Due to very few adult Atlantic salmon returning to the 
Connecticut River, genetic concerns such as inbreeding and estimates of 
genetic diversity are potential threats to the long-term sustainability 
of the population. Monitoring the genetic diversity and variability of 
broodstock and sea-run returners is important to management and greatly 
assists other program evaluation efforts. ASA supports the addition of 
$250,000 to the FWS budget to complete this work.
    ASA is also concerned with proposed cuts to the Fish and Wildlife 
Assistance Program component. ASA is concerned with elimination of 
several earmarks that provide funds for ongoing projects that support 
critical State management functions. Specifically, ASA is concerned 
with the elimination of the funding that supports the West Coast 
Regional Mark Processing Center, the Washington State Mass Marking 
Program, and the National Partnership for the Management of Wild and 
Native Coldwater Fisheries. ASA urges Congress to restore funding for 
these programs.
Bureau of Land Management (BLM)
    Fisheries Management.--The BLM Fisheries Program continues to 
sustain the deep budget cut taken in fiscal year 2008, funded at a 
slightly increased amount of $13,765 in fiscal year 2010, to support 
the National Landscape Conservation System program. ASA opposes the 
reduction requested by the administration to $13.516 million in fiscal 
year 2011 for the fisheries management subactivity. ASA remains deeply 
concerned about this permanent reduction in funding brought about by 
program transfers during establishment of the National Landscape 
Conservation System.
    Energy development, especially coalbed methane gas, is greatly 
impacting fisheries. BLM fisheries staff funding is woefully inadequate 
to address these issues or provide necessary input into the BLM's 
Resource Planning. Currently, nonaquatic specialists are providing much 
of the BLM Fisheries Program work, with many not possessing aquatic 
expertise or interest. To adequately implement current program levels 
the BLM needs an additional 10.5 full-time employees in the aquatic 
specialist series. ASA strongly encourages Congress to provide a 
significant increase over the fiscal year 2010 enacted level for the 
fisheries management subactivity--to a total of $20 million--in order 
to address pressing fisheries needs throughout the agency. Within this 
requested $6.5 million increase, ASA requests an annual increase of 
$750,000 specifically for hiring new staff within the fisheries 
program.
    Riparian Management Activity.--ASA supports the BLM attention and 
project application directed at riparian areas, but remains concerned 
that the requested $22.632 million for this program, which is an 
$86,000 decrease from the fiscal year 2010 enacted level, falls far 
short of meeting many of the identified needs. ASA opposes the 
administration's proposal to reduce base funding for these fundamental 
responsibilities by $200,000; instead, ASA requests that Congress add 
$1.386 million to the administration's request to address its long-
standing responsibilities. ASA also urges BLM to continue its 
coordination with State fish and wildlife agencies and other Federal 
bureaus in order to achieve goals outlined in the National Fish Habitat 
Plan and to improve water quality on BLM-managed lands.
U.S. Forest Service (USFS)
    National Forest System Line Item.--ASA has expressed concerns about 
the USFS budget structure for fish and wildlife, because it makes it 
very difficult to understand the budget request and to make meaningful 
comparisons with the previous year's appropriations. In fiscal year 
2011, the USFS is proposing to merge several programs and their 
budgets--vegetation and watershed management, wildlife and fisheries 
habitat management, and forest products--into a single integrated 
resource restoration activity. While ASA commends the USFS for working 
to better coordinate programs within the agency, we are concerned about 
the melding of activities and money and believe that without specific 
budget line items and expenditures for specific purposes this proposed 
approach will make accountability to the State partners, the public, 
and Congress even more difficult. It is also counter to a 2004 
recommendation made to the USFS after a nationwide evaluation of the 
agency's fisheries program. In that report, the merging of budget line 
items and the subsequent lack of accountability was highlighted and 
recommendations were made to separate budget line items. We 
respectfully request that Congress require individual line items 
specific to fish, wildlife, and endangered species and habitat 
management be established in the fiscal year 2011 budget and similarly, 
that expenditures be tracked and reported in the same manner.
    This breakdown would vastly improve performance accountability and 
improve opportunities for integrated activities with the State fish and 
wildlife agencies. We encourage the USFS to communicate to leadership 
at all levels that the expectation is that fish and wildlife needs 
should be considered and incorporated as projects are designed and 
implemented. Further, we suggest that the USFS establish planning and 
accountability protocols to ensure adequate attention to fish and 
wildlife needs. Having stated those reservations, ASA supports the 
request of $693.772 million for integrated resource restoration and 
urges the USFS to be more forthcoming demonstrating spending 
accountability on the ground.
    The sportfishing industry has long depended on the strong 
management of our Nation's fisheries by the Federal agencies within the 
Department of the Interior. We look forward with working with the 
subcommittee to ensure that the conservation of our Nation's fisheries 
is upheld for the recreational enjoyment of our Nation's citizens, 
which in turn leads to a healthy and robust sportfishing industry. 
Thank you for your consideration.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
        Society of America, and Soil Science Society of America
    Dear Chairman Feinstein, Ranking Member Alexander, and members of 
the subcommittee: On behalf of the American Society of Agronomy (ASA), 
Crop Science Society of America (CSSA), Soil Science Society of America 
(SSSA), I am pleased to submit comments in strong support of enhanced 
public investment in the U.S. Forest Service (USFS), U.S. Geological 
Survey (USGS), and U.S. Environmental Protection Agency (EPA) as 
critical components of Federal appropriations for fiscal year 2011 and 
beyond. With more than 25,000 members and practicing professionals, 
ASA, CSSA, and SSSA are the largest life science professional societies 
in the United States dedicated to the agronomic, crop, and soil 
sciences. ASA, CSSA, and SSSA play a major role in promoting progress 
in these sciences through the publication of quality journals and 
books, convening meetings and workshops, developing educational, 
training, and public information programs, providing scientific advice 
to inform public policy, and promoting ethical conduct among 
practitioners of agronomy and crop and soil sciences.
Summary
    ASA, CSSA, and SSSA understand the budgetary challenges the Senate 
Interior, Environment, and Related Agencies Appropriations Subcommittee 
faces in fiscal year 2011. We also recognize that the Interior, 
Environment, and Related Agencies Appropriations bill has many valuable 
and necessary components, and we applaud the efforts of the 
subcommittee to fund the USFS, USGS, and EPA.
    USFS sustains the health, diversity, and productivity of the 
Nation's forests and grasslands to meet the needs of present and future 
generations. Soils are a vital component of forest management, and 
their understanding is essential to achieve EPA's strategic goals, yet 
vital programs that are essential for improved soil quality have been 
consistently underfunded.
    The Societies are concerned with past transfers of funding for the 
USFS away from base programs to support wildland fire suppression. For 
the USFS, ASA, CSSA, and SSSA recommend that the subcommittee 
appropriate $5.6 billion, a 5 percent increase over fiscal year 2010, 
putting the EPA back on track towards properly managing the 749 million 
acres of forests in the United States. for the services they provide: 
clean water and air; recreational opportunities; hunting; fishing; 
forest products; and, scenic values.
    The USGS provides reliable scientific information to describe and 
understand the Earth; minimize loss of life and property from natural 
disasters; and protect the Nation's natural resources. For fiscal year 
2011, we recommend $1.3 billion for the USGS. Only a concerted, long-
term effort to boost USGS funding will produce the knowledge and tools 
needed to appropriately manage and meet the many challenges facing the 
Nation's water, biological, energy, and mineral resources, while 
enhancing and protecting our quality of life.
    In order to fulfill its mission, the EPA needs increased 
investments in socioeconomic, sustainability, ecological, and 
exploratory research as well as partnerships with academia and State 
and local government. These areas are essential to move environmental 
protection from a command-and-control regulatory system to a more 
rational, compliance-based approach. For EPA science and technology, 
for fiscal year 2011, ASA, CSSA, and SSSA recommend a funding level of 
$888 million a 5 percent increase over fiscal year 2010.
USFS
            Forest and Rangeland Research
    ASA, CSSA, and SSSA applaud the increase provided by the 
subcommittee for forest and rangeland research in fiscal year 2010. For 
fiscal year 2011, we recommend increasing forest and rangeland research 
funding by 7 percent bringing total funding to $334 million.
    Soil is the natural filter, often overlooked, vital for healthy 
watersheds. Past investments in NFS have yielded enormous benefits to 
society. Soil scientists annually provide critical soil resource 
information to Burned Area Emergency Response teams evaluating the 
environmental effects and developing rapid management responses for 
hundreds of wildfires. The NFS developed the CarbonPlus Calculator 
(http://nrs.fs.fed.us/carbon/local-resources/downloads/CCT_NRS13.pdf) 
to help land owners estimate their forest carbon dioxide 
(CO<INF>2</INF>) emissions. The calculator provides tips on how to 
reduce carbon footprints and teaches users about the benefits of 
planting trees to absorb carbon.
            National Forest System
    ASA, CSSA, and SSSA support a funding level of $182 million, a 7 
percent increase, for inventory and monitoring program in fiscal year 
2011. Strong funding for inventory and management will allow USFS to 
continue efforts to inventory remaining national forest land. This 
would support a comprehensive carbon inventory for forest ecosystems as 
well as provide other information critical to understand U.S. forest 
systems.
    The fiscal year 2011 budget proposes establishment of the 
integrated resource restoration budget line by combining the wildlife 
and fisheries habitat management, forest products, and the vegetation 
and watershed management budget lines, as well as the Collaborative 
Forest Landscape Restoration Fund and the watershed improvement and job 
stabilization lines.
    The integrated resource restoration program will facilitate 
implementation of the USDA priority for focused, large-scale ecosystem 
restoration and provide ecosystem services that are important to the 
public including clean and abundant water, renewable energy from 
biomass, restored wildlife and fish habitat, and resilient forests and 
rangelands. ASA, CSSA, and SSSA support appropriation for the 
integrated resource restoration line at $715 million, a 7 percent 
increase over fiscal year 2010 and $21 million greater than requested 
in the President's budget.
            Office of Ecosystem Services and Markets (USDA Office of 
                    Environmental Markets)
    ASA, CSSA, and SSSA support appropriation of $2 million to support 
the mission and goals of the USDA Office of Environmental Markets 
(OEM). The OEM was established to support development of new 
opportunities for American agriculture and forestry through 
environmental services markets.
USGS
            Geographic Research, Investigations, and Remote Sensing
    Land use and change are major issues of concern for the Nation. 
Satellite imagery is used by a variety of stakeholders: government 
agencies such as USGS, EPA, NSF, and USDA; Universities-land grants and 
private; and private sector environmental managers and planners.
    Precision agriculture utilizes remote sensing, in combination with 
GIS and GPS, to develop farm-specific management maps reducing over-
application of nutrients and loss in sensitive areas.
    ASA, CSSA, and SSSA are supportive of the President's request for 
geographic research, investigations, and remote sensing for fiscal year 
2011 and recommend a funding level of $153 million. We urge the 
subcommittee to fund the Geographic Analysis and Monitoring Program at 
$11.7 million, a 5 percent increase over fiscal year 2010. This funding 
level will help ensure access to a common set of current, accurate, and 
consistent data and scientific information that describe the Earth's 
land surface to help inform decisions by policymakers, resource 
managers, researchers, citizens, and the private sector.
            Water Resources Investigations
    Water is a limiting resource for many regions of the United States; 
certain regions have been in a sustained drought for years. Aquifers 
are the leading source of fresh water across the country. Therefore it 
is essential that we monitor and maintain this ecosystem service. 
Nutrient loading of the Mississippi River has been linked to the 
hypoxia zone in the Gulf of Mexico. As more farm acreage is converted 
to crops to be converted into biofuels, there is a growing potential 
for these systems to load major river systems with unwanted nutrients 
and sediments. ASA, CSSA, and SSSA recommend $168 million in funding, a 
5 percent, for hydrologic, monitoring, assessments, and research (HMAR) 
for fiscal year 2011. Within HMAR, critical programs--Ground water 
resources, toxic substances hydrology, and hydrologic research and 
development--deserve special funding consideration.
            Biological Research
    For fiscal year 2011, ASA, CSSA, and SSSA recommend funding for 
biological research be increased to $215 million, an increase of 5 
percent which will provide strong support for biological research and 
monitoring, biological information management and delivery, and 
cooperative research units.
            Science Support
    Climate change is a major focus for many agencies in fiscal year 
2011 and ASA, CSSA, and SSSA which are interested in the role 
agriculture can play to mitigate climate change. ASA, CSSA, and SSSA 
support the President's requested $72.1 million for fiscal year 2011. 
We find that the need to identify new tools that help land managers 
adapt to climate change is an essential endeavor. We applaud the 
subcommittee for its foresight and encourage it to fund USGS climate 
research at this level so the Department of the Interior can continue 
to expand much needed work in the areas of biological carbon 
sequestration and science applications and decision support.
EPA
    In order to fulfill its mission, EPA needs increased investments in 
both its intramural and extramural science programs as well as 
associated services such as environmental education and libraries. ASA, 
CSSA, and SSSA recommend that EPA increase investments in 
socioeconomic, sustainability, ecological, and exploratory research as 
well as partnerships with academia and State and local government. 
These areas are essential to move environmental protection from a 
command-and-control regulatory system to a more rational, compliance-
based approach.
    For EPA science and technology, for fiscal year 2011, ASA, CSSA, 
and SSSA recommend a funding level of $888 million a 5 percent increase 
over fiscal year 2010. The Office of Research and Development (ORD) is 
the scientific research arm of EPA. The ORD funds and conducts 
essential research in pollution prevention; air, water, and soil 
dynamics; and management and behaviors to improve the way we use and 
conserve our resources.
    To help enhance workforce development by recruiting outstanding 
scientists to participate in the Science to Achieve Results (STAR) 
program, ASA, CSSA, and SSSA ask the Subcommittee to place special 
emphasis on funding for this program. The STAR program has not only 
provided an outstanding source of research results during its tenure, 
it has also trained bright young minds to explore and expand the basic 
concepts behind environmental science and related innovations.
    For the National Estuary Program/Coastal Waterways program, we 
recommend an appropriation of $35 million. Finally, for the Wetlands 
program, we recommend an appropriation at the President's requested 
level of $28 million, for fiscal year 2011. The study of wetlands 
occurs under EPA's Office of Research and Development, Ecosystem 
Services Research Program (ESRP). The program emphasizes the study of 
wetland ecosystem services to provide the decision support tools needed 
to target, prioritize, and evaluate policy and management actions that 
protect, enhance, and restore the ecosystem goods and services provided 
by wetlands.
    Thank you for your thoughtful consideration of our requests.
                                 ______
                                 
     Prepared Statement of the American Society of Civil Engineers
    The American Society of Civil Engineers (ASCE) \1\ is pleased to 
submit to the subcommittee a statement on the proposed budgets for the 
Environmental Protection Agency (EPA) and the United States Geological 
Survey (USGS) for fiscal year 2011.
---------------------------------------------------------------------------
    \1\ ASCE was founded in 1852 and is the country's oldest national 
civil engineering organization. It represents 144,000 civil engineers 
in private practice, government, industry, and academia who are 
dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a non-profit educational and professional society 
organized under Part 1.501(c)(3) of the Internal Revenue Code.
---------------------------------------------------------------------------
asce recommends an appropriation of $3 billion for the clean water act 
             state revolving loan fund (srf) in fiscal 2011
    The administration's fiscal year 2011 budget request for the EPA 
totals $10 billion. This is slightly less than the agency's fiscal year 
2010 enacted budget of $10.3 billion.
    The President has requested $2 billion for the Clean Water SRF. 
Although this request reflects the President's desire to deal 
forcefully with the funding needs of the Nation's aging wastewater 
infrastructure, ASCE believes that the wastewater investment ``gap'' of 
approximately $400 billion requires an even greater annual commitment.
    Aging wastewater treatment systems discharge billions of gallons of 
untreated wastewater into U.S. surface waters each year. The 
Environmental Protection Agency estimates that the Nation must invest 
$390 billion over the next 20 years to update or replace existing 
systems and build new ones to meet increasing demand.
    Since 1972, Congress has directly invested more than $80 billion in 
the construction of publicly owned sewage treatment works (POTWs) and 
their related facilities. State and local governments have spent 
billions more over the years. Total non-Federal spending on sewer and 
water has been billions more. Nevertheless, the physical condition of 
many of the Nation's 16,000 wastewater treatment systems is poor, due 
to a lack of investment in plant, equipment and other capital 
improvements over the years.
    In 2008, EPA reported that the total investment needs of America's 
publicly owned treatment works as of January 1, 2004, were $202.5 
billion. This reflects an increase of $16.1 billion (8.6 percent) since 
the previous analysis was published in January 2004.
    Many systems have reached the end of their useful design lives. 
Older systems are plagued by chronic overflows during major rain storms 
and heavy snowmelt and, intentionally or not, are bringing about the 
discharge of raw sewage into U.S. surface waters.
    EPA estimated in August 2004 that the volume of combined sewer 
overflows (CSOs) discharged nationwide is 850 billion gallons per year. 
Sanitary sewer overflows (SSOs), caused by blocked or broken pipes, 
result in the release of as much as 10 billion gallons of raw sewage 
yearly, according to the EPA.
    Wastewater infrastructure is expensive as are the monetary and 
social costs incurred when infrastructure fails. The Nation's 
wastewater systems are not resilient in terms of current ability to 
properly fund and maintain, prevent failure, or reconstitute services.
    Additionally, the interdependence on the energy sector contributes 
to the lack of system resilience that is increasingly being addressed 
through the construction of dedicated emergency power generation at key 
wastewater utility facilities. Aging, under-designed, or inadequately 
maintained systems discharge billions of gallons of untreated 
wastewater into U.S. surface waters each year.
    Future investments must focus on updating or replacing existing 
systems as well as building new ones to meet increasing demand; 
improved operations processes including ongoing oversight, evaluation, 
and asset management on a systemwide basis; and watershed approaches to 
look more broadly at water resources in a coordinated systematic way.
 asce recommends an appropriation of $2 billion for the safe drinking 
                   water act srf in fiscal year 2011
    America's drinking water systems face an annual shortfall of at 
least $11 billion to replace aging facilities that are near the end of 
their useful life and to comply with existing and future Federal water 
regulations. This does not account for growth in the demand for 
drinking water over the next 20 years. Leaking pipes lose an estimated 
7 billion gallons of clean drinking water a day.
    Of the nearly 53,000 community water systems, approximately 83 
percent serve 3,300 or fewer people. These systems provide water to 
just 9 percent of the total U.S. population served by all community 
systems. In contrast, 8 percent of community water systems serve more 
than 10,000 people, and they provide water to 81 percent of the 
population served.
    Eighty-five percent (16,348) of nontransient, noncommunity water 
systems and 97 percent (83,351) of transient noncommunity water systems 
serve 500 or fewer people. These smaller systems face huge financial, 
technological, and managerial challenges in meeting a growing number of 
Federal drinking-water regulations.
    Federal assistance has not kept pace with demand, however. Between 
fiscal year 1997 and fiscal year 2010, Congress provided more than $11 
billion for the DWSRF through annual appropriations. This total is 
approximately equal to the annual capital investment gap for each of 
those years as calculated by EPA in 2002.
    Although drinking-water treatment plant operators are often able to 
provide workarounds during system disruptions, the Nation's drinking-
water systems are not highly resilient based on present capabilities to 
prevent failure and properly maintain or reconstitute services.
    Additionally, the lack of investment and the interdependence on the 
energy sector contribute to the lack of overall system resilience. 
These shortcomings are currently being addressed through the 
construction of dedicated emergency power generation at key drinking 
water utility facilities, increased connections with adjacent utilities 
for emergency supply, and the development of security and criticality 
criteria within the sector. Investment must be prioritized to take into 
consideration system vulnerabilities, interdependencies, improved 
efficiencies in water usage via market incentives, system robustness, 
redundancy, failure consequences, and ease and cost of recovery.
asce recommends an appropriation of $1.3 billion for the usgs in fiscal 
                               year 2011
    In a time of fiscal restraint, the USGS budget proposal for fiscal 
year 2011 is up nearly 4 percent over the current fiscal year 
appropriation, but we believe the request falls short of the amount 
needed to support the science needs of the Nation.
    The fiscal year 2011 budget request for USGS totals $1.1 billion, 
$21.6 million above the fiscal year 2010 enacted level. The President 
is asking for increases in programs for renewable energy, climate 
change, water availability and use, natural hazards, and Landsat.
    The Water Resources Investigations activity is funded at $228.8 
million in the 2011 budget, which is $3.5 million below the 2010 
enacted level. The budget proposes $158.7 million for Hydrologic 
Monitoring, Assessments, and Research for collection, management, and 
dissemination of hydrologic data, analysis of hydrologic systems 
through modeling or statistical methods, and research and development 
leading to new methods and new understanding, with a focus on water 
conservation. The tight budget lead the Department to request budget 
reductions for the Cooperative Water Program ($63.6 million, which is 
$1.9 less than the fiscal year 2010 enacted level) and for the National 
Streamflow information Program ($27.1 million, a reduction of 
$563,000).
    Program increases were requested for the National Water 
Availability and Use Assessment, including $1.1 million for the 
Groundwater Resources program and $6.4 million for Hydrologic Networks 
and Analysis.
    The WaterSMART Quality Assessment program describes status and 
trends in water quality, provides an improved understanding of the 
natural factors and human activity affecting these conditions, and 
provides information to Federal, State, and local regulatory and policy 
decisionmakers. A net reduction of $1.5 million is proposed in 
Hydrologic Monitoring, Assessments, and Research to focus on the 
WaterSMART program.
    The Cooperative Water program is funded at $63.6 million, $2 
million below the 2010 level. The program builds on efforts to leverage 
State, local, and tribal funds to support the majority of the national 
hydrologic data network of streamgages, wells, and monitoring sites. 
The Water Resources Research Act program is funded at $6.5 million to 
promote State, regional, and national coordination of water resources 
research and training and a network of Water Resources Research 
Institutes to facilitate research coordination and information and 
technology transfer.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators
                           summary of request
    Association of State Drinking Water Administrators (ASDWA) 
respectfully requests that, for fiscal year 11, the subcommittee 
appropriate funding for three State drinking water programs at levels 
commensurate with Federal expectations for performance and at levels 
that ensure appropriate public health protection. ASDWA requests $200 
million for the Public Water System Supervision (PWSS) program; $1.287 
billion for the Drinking Water State Revolving Loan Fund (DWSRF) 
program; and $10 million for State drinking water program security 
initiatives. A more complete explanation of the needs represented by 
these requested amounts and a further explanation of these requested 
levels follows.
                      how states use federal funds
    States Need Increased Federal Support To Maintain Overall Public 
Health Protection.--State drinking water programs strive to meet public 
health protection goals through two principal funding programs: the 
PWSS and the DWSRF Program. These two programs, with their attendant 
State match requirements, provide the means for States to work with 
drinking water systems to ensure that American citizens can turn on 
their taps with confidence the water is both safe to drink and the 
supply is adequate. In recent years, State drinking water programs have 
accepted additional responsibilities to work with all public water 
systems to ensure that critical drinking water infrastructure is 
protected and that plans are in place to respond to both natural and 
manmade disasters.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses are dependent upon a safe and adequate supply of drinking 
water. Economies only grow and sustain themselves when they have 
reliable water supplies. More than 90 percent of the population 
receives water used for bathing, cooking, and drinking from a public 
water system. Even people who have their own private wells to meet 
their daily water needs will visit other homes or businesses served by 
a public water system. Children and seniors are the most susceptible to 
illness and death from several of the contaminants regulated by Federal 
drinking water laws including lead, mercury, nitrates, bacteria, and 
viruses. As important as public water systems are to the quality of 
water we drink, and therefore our health, the majority of water 
produced by public water systems is used by businesses and for fire 
protection. Businesses need adequate supplies of good quality water for 
processing, cooling, and product manufacturing. The availability of 
adequate supplies of water is often a critical factor in attracting new 
industry. Public water systems, including, cities, villages, schools, 
and businesses rely on State drinking water programs to ensure they are 
in compliance with Federal requirements.
    The PWSS Program.--To meet the requirements of the State Drinking 
Water Administrators, States have accepted primary enforcement 
responsibility for oversight of regulatory compliance and technical 
assistance efforts for more than 155,000 public water systems to ensure 
potential health-based violations do not occur or are remedied in a 
timely manner. Since 1996, State drinking water programs have 
participated in the development and implementation of more than 25 new 
Federal regulations and strategic initiatives designed to enhance the 
protection of public health. States are also implementing an array of 
proactive initiatives to protect public health from ``source to tap.'' 
These include source water assessments and controls; technical 
assistance with water treatment and distribution; and enhancement of 
overall water system performance capabilities. In recent years, States 
have taken on an increasingly prominent role in working with Federal 
and local partners to help ensure sufficient water quantity. In short, 
State activities go well beyond simply ensuring compliance at the tap.
    The DWSRF Program.--Drinking water in the United States is among 
the safest and most reliable in the world, thanks to significant 
investments made over the decades. The payback on this investment has 
been exceptional: in the core DWSRF program, $10.7 billion in 
capitalization grants from Congress since 1997 has been leveraged by 
States into nearly $19 billion in infrastructure loans to small and 
large communities across the country. Everyone agrees this is an 
investment that pays great dividends both economically and in 
protection of our citizens' health. State drinking water programs have 
also used DWSRFs to support the technical assistance and training needs 
of small drinking water systems and to help these water systems obtain 
the technical, managerial, and financial proficiency needed to meet the 
requirements of the SDWA. States also leapt into action to utilize the 
infrastructure funds provided to the DWSRF through the American 
Reinvestment and Recovery Act (ARRA) and maximized the depth and 
breadth of these funding opportunities across all drinking water system 
sizes and types. Through a herculean effort, all States met the 
February 17, 2010 deadline (1 year from enactment) for having $2 
billion in ARRA funds under contract or construction.
    State Drinking Water Security Responsibilities.--Since the events 
of September 2001, as well as the more recent experiences of 
devastating hurricanes, wildfires and floods, States have taken 
extraordinary measures to meet the security and emergency response-
related needs of the drinking water community. State drinking water 
programs have responded to requests for assistance, training, 
information, and financial support from the water systems under their 
purview as well as supported utility-based ``mutual aid'' networks. 
States continually work toward integrating security considerations 
throughout all aspects of their drinking water programs.
                why increased funding is urgently needed
    State Drinking Water Programs are Hard Pressed.--States must 
accomplish all of the above-described activities, and take on new 
responsibilities, in the context of the current national economic 
crisis. This has meant further cutting their budgets, streamlining 
their workforces, and operating with less State-provided financial 
support. State drinking water programs have often been expected to do 
more with less and States have always responded with commitment and 
ingenuity. However, State drinking water programs are now in crisis. 
Insufficient Federal support for this critical program increases the 
likelihood of a contamination event that puts public health at risk.
    State Funding Gap Continues To Grow; States Cannot Keep Up.--
Although the 1996 SDWA Amendments authorized the PWSS Program at $100 
million per year, appropriated amounts have only recently reached or 
come close to that originally-authorized level. $105.7 million was 
appropriated for the PWSS program in fiscal year 2010. However, as 
explained below, with Congress' zeroing out of the State drinking water 
program security grant of $5 million, the net gain to States--from 
fiscal year 2009 to fiscal year 2010--was only $1 million. Even the 
fully authorized level of $100 million annually is now, nearly 14 years 
after enactment, woefully inadequate for the enormity of the task faced 
by State drinking water programs. A few years ago, State drinking water 
program administrators identified an annual shortfall nationally of 
approximately $360 million between available funds and those needed to 
administer their programs. That gap only continues to grow and has 
negative consequences. Many States are simply unable to implement major 
provisions of the newer regulations, leaving the work undone or ceding 
the responsibility back to EPA where it is likely to languish because 
of their own resource constraints and lack of ``on the ground'' 
expertise. This situation could create a significant implementation 
crisis in several regions of the country and ultimately delay 
implementation of critically needed public health protections.
      fiscal year 2011 request levels and sdwa program obligations
    The PWSS Program.--The number of regulations requiring State 
implementation and oversight as well as performance expectations 
continue to grow while, at the same time, the Federal funding support 
necessary to maintain compliance levels and meet expectations has been 
in decline. Last year's fiscal year 10 appropriated level of $105.7 
million--after subtracting the above-mentioned $5 million for drinking 
water security--reflects a downward trend from the enacted budget high 
point of $101.9 million appropriated in fiscal year 2004--an already 
insufficient amount. Inflation has further eroded these inadequate 
funding levels. State drinking water programs are hard pressed to 
understand a justification for these funding levels since they are 
engaged in the critical phases of implementing the LT 2/Stage 2 Rule 
cluster (two sophisticated and complex initiatives to control 
disinfection by-products and microbial contaminants), the recently 
promulgated Ground Water Rule, and changes to the Lead and Copper Rule. 
States want to offer the flexibilities allowed under these and other 
rules to local water systems; however, fewer State resources mean less 
opportunity to work one-on-one with water systems to meet their 
individual needs. Looking ahead, States expect that new rules for 
contaminants on EPA's Contaminant Candidate List will be forthcoming as 
well as revisions to the Total Coliform Rule.
    ASDWA therefore respectfully requests that the fiscal year 2011 
funding for the PWSS program be appropriated at $200 million. This 
figure was calculated by starting with a baseline of $124.3 million 
(the fiscal year 2004 appropriated figure, adjusted for inflation); 
adding $50.7 million to implement recently promulgated rules (per EPA's 
Economic Analyses for these rules); and adding $25 million for other 
new program requirements (e.g., emerging contaminants, modernizing data 
systems, and supporting small water systems).
    The DWSRF Program.--States were very encouraged by the $1.387 
billion appropriated for the DWSRF in fiscal year 2010 and the $1.287 
billion requested in the President's fiscal year 2011 budget. States 
strongly support that request level. The primary purpose of the DWSRF 
is to improve public health protection by facilitating water system 
compliance with national primary drinking water regulations through the 
provision of loans to improve drinking water infrastructure. Water 
infrastructure is needed for public health protection as well as a 
sustainable economy. For instance, industries have opted not to move to 
locations with inadequate water and other utility capacity to meet 
their needs. States have very effectively and efficiently leveraged 
Federal dollars with State contributions by turning over $10.67 billion 
in cumulative Federal capitalization grants (not counting ARRA funds) 
into almost $19 billion in water infrastructure loans since 1997. In so 
doing, States have provided assistance to more than 6,905 projects 
improving health protection for millions of Americans. Approximately 72 
percent of projects and 38 percent of assistance has been provided to 
small communities (serving less than 10,000 people). However, EPA's 
most recent National Drinking Water Infrastructure Needs Survey (2007) 
indicated that water system needs total $334.8 billion over the next 20 
years to comply with SDWA mandates. States believe the $2 billion in 
ARRA funds and the fiscal year 2010 appropriated level were very 
substantial down payments on addressing those needs and filling the 
infrastructure gap. In light of these indicators of success and 
documented needs, we believe the $1.287 billion level requested in the 
President's fiscal year 2011 budget will better enable (as compared to 
levels provided in recent years) the DWSRF to meet the SDWA compliance 
and public health protection goals for which it was designed.
    ASDWA, therefore, respectfully requests $1.287 billion in fiscal 
year 2011 funding for the DWSRF Program; consistent with the 
President's budget request.
    Security Responsibilities.--After 7 years of supporting State 
security programs through a small grant of approximately $5 million in 
EPA's appropriation, no funds were provided for this purpose in fiscal 
year 2010 and none are requested for fiscal year 11. State drinking 
water programs need funds to continue to expand their security 
activities, particularly for small and medium water systems and to 
support utility-based mutual aid networks for all drinking water 
systems. It is very difficult to understand why this grant has been 
zeroed out of EPA's proposed budget. Given the realities exemplified by 
ongoing Homeland Security initiatives, the goals of the National 
Infrastructure Protection Plan, and the lessons learned from Hurricanes 
Katrina, Rita, and Gustav, State drinking water programs are working 
more closely than ever with their water utilities to evaluate, assist, 
and support drinking water systems' preparedness, response, and 
resiliency capabilities. Beyond the mandates of the Bioterrorism Act of 
2002, States are being directed to expand their efforts to reflect an 
``all hazards'' approach to water security and to focus their efforts 
toward smaller water systems not covered by the act. These systems rely 
heavily on the States to help them meet their needs and identify 
potential funding sources (DWSRF).
    ASDWA therefore respectfully requests $10 million in fiscal year 
2011 funding for the State security initiatives. These funds would be 
commensurate with the security tasks State drinking water programs must 
take on.
                               conclusion
    In conclusion, ASDWA respectfully recommends that both State and 
Federal fiscal year 2011 budget needs for the provision of safe 
drinking water be adequately funded by Congress. A strong drinking 
water program supported by the Federal-State partnership will ensure 
that the quality of drinking water in this country will not deteriorate 
and, in fact, will continue to improve--so that the public can be 
assured that a glass of water is safe to drink no matter where they 
travel or live. States are willing and committed partners. However, 
additional Federal financial assistance is needed to meet ongoing and 
ever growing regulatory and security needs. In 1996, Congress provided 
the authority to ensure that the burden would not go unsupported. For 
fiscal year 2011, ASDWA asks that the promise of that support be 
realized.
                                 ______
                                 
   Prepared Statement of the American Society of Mechanical Engineers
    Mr. Chairman, Ranking Member, and members of the subcommittee: The 
American Society of Mechanical Engineers (ASME) Environmental 
Protection Agency (EPA) Task Force is pleased to provide this testimony 
on the fiscal year 2010 (fiscal year 2011) budget request for research 
and development programs in the Department of Energy (DOE).
                              introduction
    The 127,000-member ASME is a nonprofit, worldwide educational and 
technical society. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets some 600 
industrial and manufacturing standards.
                               background
    Scientists and engineers have a long-standing professional interest 
in applying science and technology (S&T) to improve the environment and 
human health in the United States. Mechanical engineers increasingly 
collaborate with other professionals to develop innovative and cost-
effective environmental technologies and systems.
    The EPA plays an essential role in the Nation's efforts to protect 
human health and safeguard the environment, and EPA's S&T research and 
development (R&D) activities are instrumental in improving 
environmental protection in a sound, sustainable, and cost-effective 
manner. R&D efforts are needed to improve environmental health and 
ecology, environmental monitoring, environmental technology 
development, and implementation. Additionally, pollution prevention is 
also necessary in order to address the emerging concerns of climate 
change, as well as the environmental issues of homeland security and 
infrastructure protection.
    The fiscal year 2011 budget request for EPA is $10.02 billion, a 
$277 million decrease from the fiscal year 2010 appropriated amount of 
$10.3 billion. The EPA's S&T Directorate would be essentially flat at 
$846.7 million in fiscal year 2011, up slightly from the $846 million 
appropriated amount for fiscal year 2010. After several years of 
funding decreases, followed by a significant boost to funding for 
fiscal year 2010, the EPA Task Force feels that a higher appropriation 
is warranted for fiscal year 2011. The R&D funds are needed in order to 
enhance study responses to climate change, terrestrial carbon 
sequestration and management, biofuels and oil shale waste issues, and 
nanotechnology development.
                 overview of the asme task force review
    We will focus our analysis on the R&D activities of the S&T 
portfolio within the EPA's Office of Research and Development (ORD) and 
the Superfund program that support eight strategic programmatic 
research areas:
  --Clean air and global climate change;
  --Clean and safe water;
  --Land preservation and restoration;
  --Human health and ecosystems;
  --Compliance and environmental stewardship;
  --Toxic research and prevention;
  --Sustainability; and
  --Homeland security.
    The change in funding levels supporting these core objectives 
between fiscal year 2010 and fiscal year 2011 is as follows:

                                             [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                       2010            2011           Change
----------------------------------------------------------------------------------------------------------------
Clean air research..............................................           102.7           107.3            +4.6
Clean water.....................................................             111           121.1           +10.1
Land protection and restoration.................................            14.1            13.8            -0.3
Human health and ecosystems.....................................           246.8           256.2            +9.4
Toxic research and prevention...................................            27.3            27.6            +0.3
Sustainability..................................................            27.2            25.2            -2.0
Homeland security...............................................            65.2            51.3           -13.9
                                                                 -----------------------------------------------
      Total.....................................................           594.3           602.5            +8.2
----------------------------------------------------------------------------------------------------------------

                                epa ord
    Through research and technical assistance, ORD provides the 
scientific foundation for EPA by performing research and development to 
identify and solve present and future environmental issues and 
providing responsive technical support to its scientific partners. The 
ORD administers programs addressing both foundational research to 
improve the scientific tools used to understand and evaluate 
environmental health as well as problem-driven research designed to 
provide scientific solutions to high-priority environmental problems. 
It is an invaluable national resource. We note that the ORD workforce 
has declined by more than 10 percent over the past several years and 
now is not sufficient to permit action on various topics of national 
importance. Effort should be made to ``rightsize'' the ORD staff so 
that it can continue to support R&D on current and future environmental 
problems.
    We support the increases requested for the EPA's S&T directorate, 
which reverses several years of funding decreases. An evaluation of 
EPA's resources is needed to ensure that it can balance between 
existing priorities and new challenges. Program specifics issues are 
outlined below:

                                               CLEAN AIR RESEARCH
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                       2010            2011           Change
----------------------------------------------------------------------------------------------------------------
Global change...................................................            20.8            21.9            +1.1
Clean air.......................................................           102.7           107.3            +4.6
                                                                 -----------------------------------------------
      Total.....................................................           123.5           129.2            +5.7
----------------------------------------------------------------------------------------------------------------

    The EPA Task Force views Global Change as a critical issue and is 
supportive of this increase in funding. We urge Congress to appropriate 
these additional funds for Global Change to at least the fiscal year 
2011 requested level. The Task Force supports the current request for 
Clean Air and Global Change Research.

                                              CLEAN WATER RESEARCH
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                       2010            2011           Change
----------------------------------------------------------------------------------------------------------------
Clean water.....................................................             111           121.1           +10.1
----------------------------------------------------------------------------------------------------------------

    Overall, the fiscal year 2011 budget request calls for an increase 
of about $10 million more than the fiscal year 2010 appropriated 
amount. This increase will help support the long-term development of 
infrastructure related to water quality issues. The Task Force is 
pleased with the increases for Clean Water Research and urges Congress 
to sustain funding for the Drinking Water and Water Quality programs 
consistent with the fiscal year 2011 request.

                                         LAND PROTECTION AND RESTORATION
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                       2010            2011           Change
----------------------------------------------------------------------------------------------------------------
Land protection research........................................            14.1            13.8            -0.3
----------------------------------------------------------------------------------------------------------------

    The $311,000 decrease in land protection and restoration research 
comes as ecosystem research and sustainability and environmental 
management are being raised. Still, further support would greatly 
assist this program with studies related to the impact of carbon 
sequestration, something that may be implemented in the U.S. This 
research is expensive but necessary. Therefore, the Task Force 
recommends that additional funding for land protection and restoration 
be appropriated for fiscal year 2011.

                                             SUSTAINABILITY RESEARCH
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                       2010            2011           Change
----------------------------------------------------------------------------------------------------------------
Sustainability..................................................            27.3            25.3              -2
----------------------------------------------------------------------------------------------------------------

    Funding for Sustainability research is slated for a decrease of 
almost $2 million for this year. The Task Force recommends that funding 
for sustainability research be funded at the previously appropriated 
levels for fiscal year 2010.

                                          TOXIC RESEARCH AND PREVENTION
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                       2010            2011           Change
----------------------------------------------------------------------------------------------------------------
Toxic research and prevention...................................            27.3            27.6            +0.3
----------------------------------------------------------------------------------------------------------------

    Funding for Toxic Research and Prevention is slated for an increase 
of $298,000 for fiscal year 2011. The Task Force recommends that 
funding for Toxic Research and Prevention be appropriated at requested 
levels for fiscal year 2011.

                                           HUMAN HEALTH AND ECOSYSTEMS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                       2010            2011           Change
----------------------------------------------------------------------------------------------------------------
Endocrine disruptors............................................            11.4            17.4            +6.0
Fellowships.....................................................            11.1            17.3            +6.2
Computational toxicology........................................            20.0            21.8            +1.8
                                                                 -----------------------------------------------
      Total.....................................................            42.5            56.5           +14.0
----------------------------------------------------------------------------------------------------------------

    The Task Force supports the fiscal year 2011 proposed budget for 
ecosystems research, which will foster new technologies that minimize 
future environmental damage. The Task Force is also very pleased to see 
such a bold increase for Fellowships. Although other agencies are 
receiving increased funding for research to support long-term energy 
reliability and sustainability, such as oil shale, biofuels, and carbon 
capture and sequestration, EPA has not received funding to assess the 
ecosystem impacts of these major initiatives.

                                                HOMELAND SECURITY
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                       2010            2011           Change
----------------------------------------------------------------------------------------------------------------
Water sentinel..................................................            18.5            11.6            -6.9
Decontamination.................................................            24.8            21.7            -3.1
                                                                 -----------------------------------------------
      Total.....................................................            43.3            33.3           -10.0
----------------------------------------------------------------------------------------------------------------

    Homeland security activities are a significant element of EPA's S&T 
activities, focusing on critical infrastructure protection and disaster 
preparedness and response. The Task Force plans to review the proposed 
cuts to insure that the reductions do not delay the completion of the 
program's objectives.
                        environmental education
    The fiscal year 2011 EPA budget requests $17.3 million to support 
research fellowships, a large increase from the previous fiscal year. 
The STAR (Science to Achieve Results) fellowship program is the only 
Federal fellowship program designed exclusively for students pursuing 
advanced degrees in environmental sciences and engineering. This is an 
important investment and the Task Force fully supports this program. 
The Task Force is pleased with the proposed increase. It is essential 
to encourage students to pursue careers in environmental science and 
engineering. Such investments are critical to addressing environmental 
concerns, bolstering our Nation's workforce, and maintaining its 
competitiveness.
                               conclusion
    The administration's fiscal year 2011 request is generally flat 
overall, while this is appropriate within current budget constraints, 
the Task Force requests that additional funding for the Homeland 
Security programs be considered and added if necessary to insure 
security enhancements to our water supply are not delayed nor 
disrupted.
    The proposed fiscal year 2011 EPA Science and Technology budget 
includes increases for a number of program areas, specifically Clean 
Air, and Research Fellowships, and the overall research budget has 
decreased slightly from last fiscal year's historic highs. This is 
necessary to preserve EPA's important contribution in meeting the 
challenges of our natural resource and policy issues in compliance with 
its regulatory mission.
    This statement represents the views of the EPA Task Force of the 
Environmental Engineering Division of ASME's Technical Communities and 
is not necessarily a position of ASME as a whole.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                              Reservation
    On behalf of the Fort Peck Tribes, I am pleased to present 
testimony on the fiscal year 2011 BIA and IHS Budget. We are a large, 
land-based tribe. The Fort Peck Reservation encompasses 2.09 million 
acres of which only 378,000 are tribally owned, with another 548,000 
held as individual allotments. The Reservation population is growing 
and our tribal enrollment is nearly 12,000 members. Our greatest need 
is healthcare, public safety and education. The United States must live 
up to its trust responsibilities to the Indian people. With the 
historic action by Congress to extend health insurance to an additional 
32 million Americans, we hope that Congress will more closely examine 
the state of healthcare in Indian country today. The health conditions 
of the Nation's first Americans are substandard. My recommendations are 
as follows:
  --Healthcare.--Substantially increase funding for Tribal health 
        programs and facilities construction and maintenance so that we 
        may live with dignity;
  --Public Safety and Education.--Expand Tribal access to Federal 
        public safety programs (police, prosecutors, corrections 
        officers, and tribal courts) and the facilities to house them 
        so that we may tackle crime and public safety issues in a 
        comprehensive manner. At the same time, expand opportunities 
        for tribal education to give our children a brighter future and 
        hope;
  --Economic Development and Infrastructure.--Economic development and 
        infrastructure are interconnected. Address infrastructure needs 
        on Indian reservations by increasing funding for safe drinking 
        and water projects, road construction and road maintenance so 
        that we may keep our communities safe and healthy and promote 
        economic development;
  --Transparency.--Direct the Bureau and IHS to develop their budgets 
        with meaningful consultation with Tribes to reflect local, 
        Tribal priorities, rather than Federal.
    The tribes' unemployment rate on the reservation is 57 percent 
(latest BIA Labor Force Report, 2005). Of our tribal members who are 
working, approximately 43 percent live below the poverty level (BIA 
Labor Force Report, 2005). Given the enormous unemployment and poverty 
rates on the reservation, our needs for both Bureau of Indian Affairs 
(BIA) and Indian Health Service (IHS) programs and services are 
substantial.
    The United States must assist tribes address basic governmental 
services such as safe drinking water, safe streets and communities, and 
healthcare. More than 20 years ago, an earlier Congress noted that when 
there is community stability--with core governmental services being 
met--``Indian tribes are in the best position to implement economic 
development plans, taking into account the available natural resources, 
labor force, financial resources and markets.'' If the Federal 
Government could provide greater assistance to us with these core 
governmental services, our members would be so much better off. Here 
are a few of our key funding requests which we ask the Congress and the 
administration to support. I will address the IHS budget first, then 
the BIA budget.
                         indian health service
    Indian country continues to suffer higher rates of infant 
mortality, teenage suicide, accident, alcoholism, diabetes, and heart 
disease when compared with other minorities and the general American 
population. Yet money directed to healthcare, especially preventative 
care--such as routine checkups and health education that clearly 
improves the quality of life and helps avoid more expensive healthcare 
costs in the future--has not been provided to Tribal communities. The 
Federal Government has a trust responsibility to provide healthcare to 
Native Americans, an obligation that was paid for by the Native people 
of this county with millions of acres of land, resources, and our 
traditional way of life.
    Facilities Construction and Dialysis Center.--There is a desperate 
need for fully staffed and equipped health facilities capable of 
providing a full range of medical services. The IHS needs to evaluate 
and plan the process for new in-patient facilities in Montana, 
including the urgent expansion of the Fort Peck Tribal Dialysis Unit to 
18 stations (from 10) or construction of a new dialysis unit. We are 
now at capacity, serving 33 patients 6 days a week, including non-
Indian patients. If we cannot expand our services, these patients will 
have to travel long distances for this life-sustaining care.
    Contract Health.--We recognize the significance of the requested 
$84 million increase in Contract Health Care but this increase is 
inadequate to address the growing healthcare crisis in Indian country. 
The Fort Peck Tribes alone need a near doubling of our inadequate 
Contract Health Care budget--to $11 million--to meet the growing health 
demands of our more than 11,000 tribal members. Far too many members 
are not referred out for Contract Health Care Services that their 
primary healthcare professionals determine are medically necessary 
because we are at level 12. Members are told that no funds are 
available for Contract Health Services medical services. Patients 
requiring surgeries are mostly given prescriptions for pain instead of 
receiving Contract Health Services, which can lead to dire 
consequences.
    I would like to provide an example of the danger of underfunding 
Contract Health Care. It involves our Vice-Chair, Roxann Bighorn. She 
suffered an injury to her knee from a fall. After several weeks her 
knee did not heal. She sought a referral from the IHS to obtain an MRI. 
Instead the IHS Clinic provided her a prescription for the pain and one 
for the inflammation. After several weeks on these medications, her 
kidneys began to falter and she was on the verge of kidney failure. One 
would think that after all of this she would have risen to the level of 
care to repair her knee. Unfortunately, that is not the case. This is 
unacceptable, yet it is typical in Indian country. Please ensure that 
Contract Health resources are increased in the fiscal year 2011 budget.
                        bureau of indian affairs
    The Fort Peck Reservation Rural Water System.--The health status of 
a community is directly related to the quality of water available, 
which is why the Fort Peck Tribes took the lead in building the Fort 
Peck Reservation Rural Water System, a system that will provide quality 
drinking water to the reservation and surrounding communities. However, 
we need increased funding for the operation, maintenance and 
replacement (OM&R) costs associated with the System. For nearly 2 
years, we informed the BIA that our OM&R costs would rise as our water 
treatment plant came on line. We request $636,000 for fiscal year 2011, 
a $436,000 increase above the President's request.
    Congress enacted the Fort Peck Reservation Rural Water System Act 
of 2000, Public Law 106-382, to ensure safe and adequate municipal, 
rural and industrial water supply to all of the residents of the Fort 
Peck Indian Reservation. The law directs that funding for the operation 
and maintenance of the water system is to be fully paid for by the BIA. 
The Tribes and the Bureau of Reclamation have completed construction of 
many components of this project, including the raw water intake 
facility and will soon complete the water treatment facility. This 
means that in fiscal year 2011 this Project will be delivering water to 
the largest towns on the Reservation. This will require additional 
training and oversight. Unfortunately, OM&R funding has not kept pace 
with our progress. We need an additional $436,000 above the President's 
budgeted amount of $200,000 to ensure that we can carry-out the 
additional certification training and oversight, security for the 
intake and sludge lagoon and water treatment plant operation. We have 
provided detailed budgets and budget narratives to the BIA explaining 
our OM&R program needs. The BIA has not adjusted our OM&R funding level 
to reflect our growing needs.
    Funding for Law Enforcement and Tribal Court Programs.--The need 
for increased law enforcement and Tribal Courts remains a priority for 
the Fort Peck Tribes. We greatly appreciate the increases Congress 
provided last year for public safety programs. These increases, 
however, are insufficient to fulfill the United States' basic trust 
responsibility in the areas of health and safety. Our reservation needs 
more officers and the resources they require to patrol a large land 
base. This must be matched with additional resources for tribal courts. 
Congress should ensure that the $20 million proposed increase in law 
enforcement funding for fiscal year 2011 translates into more officers 
on the Fort Peck Reservation. More officers mean more detentions so our 
tribes must have increased funding for tribal court personnel.
    The Fort Peck Tribes' Public Safety Department currently has 22 
sworn public safety officers, less than half the number needed to 
provide adequate coverage for our large reservation. These officers 
cannot adequately patrol a 2 million-acre reservation with a population 
of more than 11,000 and a high incidence of substance abuse and violent 
crimes. A survey of current officers has shown that they will not 
continue to work for the tribes under conditions where they must patrol 
alone, respond to calls without backup, and work longer hours for the 
same or less pay. I hope that Congress will provide adequate resources 
so that Indian communities, especially rural communities like Fort 
Peck, can recruit and retain public safety officers.
    An independent ``Gap Analysis'' study prepared in 2006 for the 
BIA's Office of Law Enforcement Services confirms the glaring shortage 
of law enforcement officers in Indian country. The BIA's Office of Law 
Enforcement Services divides Indian country into six Districts. Montana 
is located in District 5. In 2006, District 5 had 87 law enforcement 
officers, including criminal investigators and telecommunication 
operators. To reach the recommended level of 3.3 law enforcement 
officers per 1,000 population, District 5 would need to increase its 
law enforcement personnel by 135 to reach 222 law enforcement officers. 
Of this amount, 111 or 50 percent would be police officers. Unlike far 
less violent non-Indian communities, which have on average 2.9 officers 
to every 1,000 inhabitants, Indian country averages about 1.3 officers 
for every 1,000 inhabitants. The Gap Analysis revealed that BIA 
District 5 is at 39 percent capacity for law enforcement. That is one 
of the primary reasons our crime statistics are so high.
    On the seven reservations in Montana for the 2-year period of 2004-
05 (the period for which we have the most complete data), there were 10 
murders, 62 forcible rapes, 1,147 aggravated assaults and 529 
burglaries. In 2007, the Tribes' Public Safety Department was 
responsible for addressing 3,956 offenses committed on the Fort Peck 
Reservation, including 595 violent or serious offenses and 1,004 
juvenile offenses. During fiscal year 2009, the Court processed 3,247 
criminal cases; 1,512 delinquency/status offenses, 535 civil actions, 
and 757 family court cases. Indian Country needs more resources in 
every area of law enforcement from police staffing, tribal courts, 
detention, and equipment. The Tribes already subsidize the tribal 
courts budget at the level of 73 percent.
    I would be remiss if I did not also call for increased funding for 
detention facilities, for both operations and construction. The Fort 
Peck Tribes received a $1 million stimulus grant from the Department of 
Justice to rebuild our detention facilities. We are excited about this 
and are now in the process of implementing this grant. However, this 
new facility will require additional staffing and maintenance funding 
to ensure that the new facility is properly maintained. By industry 
standards we will need to double our detention personnel.
    Education.--As President Obama has stated, education is the key to 
lift people out of poverty and put them on the road to success. But we 
must have healthy communities to raise our children in and they must be 
given the resources to overcome the ills of poverty. We need the 
resources to address our high drop out rates and poor school 
attendance. There are too few educational, recreational, and 
constructive social outlets available to our tribal youth. Without 
addressing these funding shortfalls we will continue to experience 
unacceptable levels of juvenile delinquency, substance abuse, suicide 
and violence.
    Thank you for providing me the opportunity to present the views of 
the Fort Peck Tribes.
                                 ______
                                 
        Prepared Statement of the Appalachian Trail Conservancy
    Dear Madam Chair and members of the subcommittee: In behalf of the 
Appalachian Trail Conservancy (ATC), for reasons described below, I am 
requesting a fiscal year 2011 appropriation from the Land and Water 
Conservation Fund (LWCF) in the amount of $1,505,000 for the National 
Park Service (NPS) and $13,899,000 for the USDA Forest Service (USFS) 
for the acquisition of lands and interests in lands surrounding or 
bordering the Appalachian National Scenic Trail (ANST) in the States of 
Vermont, Pennsylvania, Virginia, Tennessee, North Carolina, and 
Georgia.
    Background.--The Appalachian Trail (AT) is America's premier long-
distance footpath. Initially established between 1923 and 1937 as a 
continuous footpath extending from western Maine to northern Georgia, 
the trail gained Federal recognition in 1968 with the passage of the 
National Trails System Act. Amendments to that act in 1978 expanded the 
authorization for Federal and State land acquisition to establish a 
permanent, publicly owned right-of-way as well as a protective corridor 
or ``greenway'' along the trail. Since 1978, with the strong support of 
the subcommittee and the Congress as a whole, the ANST land-acquisition 
program of the NPS and USFS has become one of the most successful land-
conservation efforts in the Nation's history with the acquisition of 
more than 189,000 acres, more than 3,370 parcels, in 14 States. Today, 
only approximately 7 miles of the 2,179-mile AT remain to be protected 
through public ownership.
    Resource Characteristics.--The AT is a 2,179-mile footpath 
extending along the crests and valleys of the Appalachian Mountains 
through 14 States from Maine to Georgia. Often characterized as a 
``string of pearls,'' the trail, which is considered a unit of the 
National Park System, connects eight National Forests, six other units 
of the National Park System, and approximately 60 State parks, forests, 
and game-management units. With an estimated 2 to 3 million visitors 
per year, it ranks among the most heavily visited units of the National 
Park System and also ranks among the top 10 units from the standpoint 
of natural diversity with more than 2,200 documented occurrences of 
federally and State-listed rare, threatened, or endangered species at 
more than 500 discrete sites.
    The AT is equally well known as a remarkable public/private 
partnership. Since the initial construction of the trail in the 1920s 
and 1930s, volunteers affiliated with the ATC have constructed, 
reconstructed, and maintained the footpath as well as a system of more 
than 250 shelters and associated facilities such as privies, improved 
campsites, bridges, signs, and parking lots. In 2009, for example, more 
than 6,800 volunteers contributed more than 220,500 hours of labor 
along the trail. As an outgrowth of an agreement between the NPS and 
ATC, ATC has accepted management responsibility for most lands acquired 
by that agency along the trail. ATC, through its network of 30 club 
affiliates, is now responsible for virtually all phases of ``park'' 
operations, ranging from trail and facility maintenance and 
construction to land and resources management to visitor education and 
services. ATC also provides ongoing, volunteer-based stewardship for 
other trail lands, totaling more than 250,000 acres.
    Need for Appropriations.--As noted previously, while the ANST 
protection program represents one of the most successful land-
acquisition programs in the history of the conservation movement in the 
United States, that program is not yet complete. Although our hope had 
been to complete the program by the year 2000, escalating land values 
coupled with diminished administrative capacity in the affected 
agencies have conspired to delay full program completion. Nevertheless, 
a number of critical parcels are now ``ripe'' for land acquisition from 
willing sellers and we are seeking fiscal year 2011 LWCF appropriations 
to secure those properties. A brief description of each of those 
critical parcels follows.
    Chateauguay: No Town Project, Vermont.--This project involves four 
parcels, totaling 1,000 acres, in the towns of Barnard and Bridgewater, 
Vermont, to be acquired in fee-simple and an additional 81.39-acre 
parcel in Pomfret, Vermont, to be placed under a conservation easement. 
Negotiations have been spearheaded for several years by The 
Conservation Fund, which also has secured a pledge for a significant 
private contribution toward the project. The four properties straddle 
more than 1\1/2\ miles of the AT in an area where earlier acquisitions 
by the NPS provided only a narrow buffer for the footpath. They include 
a high-value wetland complex and feeding habitat for migratory birds, 
black bears, and moose as well as the headwaters of the Locust Creek 
watershed, a Vermont Class A stream. The fifth, easement parcel is 
situated on a hillside adjacent to and above the trail in the Town of 
Pomfret that is under threat of residential subdivision. A partial 
appropriation for this project was included in the fiscal year 2010 
Interior, Environment, and Related Agencies appropriations bill. ATC 
and The Conservation Fund are requesting second-installment funding for 
this project: an fiscal year 2011 LWCF appropriation of $1.25 million 
for the NPS.
    Hauser Tract, Pennsylvania.--This project affects a 172-acre farm 
property in Carbon County, Pennsylvania, situated on the north slope of 
Kittatinny Ridge adjacent to the AT. The property also borders 
Pennsylvania Game Commission lands, the Lehigh Gap Nature Center, and a 
Pennsylvania Turnpike tunnel. It also includes the State's largest 
native grassland habitat and is highly sought after by the Pennsylvania 
Department of Conservation and Natural Resources (PA-DCNR) as part of 
its Pocono Forest and Waters Conservation Landscape Initiative. We are 
requesting an fiscal year 2011 LWCF appropriation of $255,000 for the 
NPS to acquire this parcel.
    Dismal Creek, Virginia/Jefferson National Forest.--ATC and the USFS 
are seeking to acquire in fee-simple this 89-acre farm property 
consisting of two parcels adjacent to Forest Service Road 201. The two 
parcels are proximate to the AT and are located within a special 
biological area encompassing a number of rare plants, such as the 
Yellow Sedge. Dismal Creek also flows through the properties and 
conservation of the two properties is considered important for assuring 
stream-water quality as well as the quality of the associated trout 
fishery. ATC is requesting an fiscal year 2011 LWCF appropriation of 
$190,000 for acquisition of the two properties by the USFS.
    Rocky Fork, Tennessee/Cherokee National Forest.--In mid-December, 
2008, the USFS acquired approximately 2,200 acres of this 10,000-acre 
property in eastern Tennessee situated midway between Johnson City and 
Asheville, North Carolina, and adjacent to Interstate 26. The 
Conservation Fund provided bridge funding to acquire the balance of the 
property in anticipation of future sale to the USFS and the State of 
Tennessee. The property includes many game and non-game wildlife 
values, including 16 miles of ``blue-ribbon'' trout streams and 
outstanding black bear, white-tailed deer, and wild turkey habitat. The 
property also includes 1.2 miles of the ANST and its acquisition will 
permit future construction of a 3-mile relocation to provide a much-
improved alignment for the footpath. Total costs for the acquisition 
were approximately $43 million and ATC is working closely with TCF, the 
Southern Appalachian Highlands Conservancy (SAHC), and a number of 
other conservation and sportsmen organizations to complete the overall 
funding package for the project. ATC and The Conservation Fund are 
requesting an fiscal year 2011 LWCF appropriation of $11 million for 
the USFS which will permit the USFS to acquire the remaining 
approximately 2,750 acres of the property.
    Rich Mountain, Tennessee/Cherokee National Forest.--This 100-acre 
privately owned in-holding is situated in the northwest corner of the 
Rocky Fork property (see above) and unfortunately was carved out by New 
Forestry, LLC--the previous owners of the Rocky Fork property--at the 
time the remainder of the property was sold to the USFS and The 
Conservation Fund. It includes the highest point of land for the 
overall property as well as prominent cliffs locally known as Buzzard 
Rock. The cliffs are only a short distance from the AT through a high 
elevation health bald. The property provides sweeping views of the 
Sampson Mountain Wilderness and northeast Tennessee/southwest Virginia. 
ATC is requesting an fiscal year 2011 LWCF appropriation of $1,000,000 
for the USFS to acquire this critical in-holding.
    Shook Branch, Tennessee/Cherokee National Forest.--This 20-acre 
property is situated in eastern Tennessee in the Cherokee National 
Forest. The AT currently follows a dangerous road-walk and crosses US 
321 at a location with limited site distances to on-coming traffic. A 
proposed new route has been identified and a number of parcels have 
been acquired by the USFS to establish the route. The Shook Branch 
property is necessary in order to complete the proposed relocation. The 
current property owner has expressed a willingness to sell the 
property. ATC is requesting a fiscal year 2011 LWCF appropriation of 
$829,000 for the USFS to acquire the property at appraised value.
    Wesser Bald, North Carolina/Nantahala National Forest.--This 
property is situated in western North Carolina in the Nantahala 
National Forest. The AT passes within 200 feet of the property and 
affords a number of outstanding scenic views at several locations along 
the northern portion of the property and from a viewing platform atop 
the Wesser Bald fire tower with 360-degree views encompassing the Great 
Smoky Mountains skyline, the Nantahala Mountains, and northern Georgia. 
The property was acquired in fee in several phases by the SAHC with the 
aid of a bridge loan from The Conservation Fund. The requested fiscal 
year 2011 appropriation will be used to repurchase a 20-acre portion of 
the property at a bargain-sale price with ownership transferred to the 
USFS. SAHC also has secured a conservation easement affecting an 
additional 41 acres of the property. The total value of the fee and 
easement interests is approximately $450,000. ATC is requesting an 
fiscal year 2011 LWCF appropriation in the amount of $180,000 for the 
USFS.
    Blood Mountain, Georgia/Chattahoochee National Forest.--ATC and the 
USFS have sought for decades to extinguish an outstanding road right-
of-way through this 22.9-acre in-holding within the Blood Mountain 
Wilderness Area that also crosses the Appalachian Trail. The property 
is within the viewshed from the summit rock outcroppings of Blood 
Mountain--one of the most heavily visited trail segments in the 
southern national forests (Region 8). The ATC local affiliate, the 
Georgia Appalachian Trail Club, is proposing to contribute $100,000 
toward the overall costs of this acquisition. ATC is requesting an 
fiscal year 2011 LWCF appropriation of $700,000 for the USFS to acquire 
the property.
    With the acquisition of the above-described properties, ATC hopes 
to complete a substantial portion of the remaining land-acquisition 
needs in the ANST program. Again, we respectfully request an fiscal 
year 2011 LWCF appropriation of $1.505 million for the NPS and $13.899 
million for the USFS.
                                 ______
                                 
   Prepared Statement of APS Four Corners Power Plant; Aurora Water; 
    Central Utah Water Conservancy District; Colorado River Energy 
 Distributers Association; Colorado River Water Conservation District; 
  Colorado Springs Utilitites; Colorado Water Congress; Denver Water; 
     Dolores Water Conservancy District; Grand Valley Water Users 
     Association; Jicarilla Apache Nation; Northern Colorado Water 
Conservancy District; Orchard Mesa Irrigation District; PNM Resources, 
Inc.; San Juan Water Commission; Southern Ute Indian Tribe; The Nature 
     Conservancy and Western Resources Advocates; Tri County Water 
Conservancy District; Uncomahgre Valley Waters Users Association; Utah 
         Water Uses Association; and Wyoming Water Association
    Dear Chairman Feinstein and Senator Alexander: I am requesting your 
support for appropriations in fiscal year 2011 to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program, 
consistent with the President's recommended budget.
    Appropriation of $709,000 in ``recovery'' funds to FWS to allow FWS 
to continue its essential participation in the Upper Colorado River 
Endangered Fish Recovery Program.
    Appropriation of $485,000 in operation and maintenance funds within 
the $50, 271,000 item entitled ``National Fish Hatchery Operations'' to 
support the ongoing operation of the FWS Ouray National Fish Hatchery 
in Utah.
    Allocation of $200,000 in ``recovery'' funds for the San Juan River 
Basin Recovery Implementation Program to meet FWS Region 2 expenses in 
managing the San Juan Program's diverse recovery actions.
    We greatly appreciate the subcommittee's past support and request 
your assistance for fiscal year 2011 funding to ensure FWS' continuing 
financial participation in these vitally important programs.
            Sincerely,
                                          John M. Frachini,
                                                      Site Manager.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    The Animal Welfare Institute (AWI) respectfully requests that the 
Senate Appropriations Subcommittee on the Interior, Environment and 
Related Agencies appropriate a total of $88.3 million to the U.S. Fish 
and Wildlife Service (FWS) including an additional $45 million to 
increase and expand activities of the Office of Law Enforcement (OLE), 
$26.2 million for special agents, $3.1 million for ports of entry, and 
$5 million for the Clark R. Bavin National Fish and Wildlife Forensics 
Laboratory, and $9 million to explore the potentially devastating 
effects of White Nose Syndrome (WNS) on bats. The administration's 
fiscal year 2011 proposed budget falls far short of providing the funds 
needed by agencies within the Department of the Interior to protect, 
preserve, recover and manage America's wildlife, including threatened 
and endangered species, as required by law and by their public trust 
obligations to the American people. AWI also asks Congress to include 
language to preserve and protect wild horses.
    OLE.--The administration's fiscal year 2011 budget proposes a 
decrease in funding to one of the most important lines of defense for 
America's wildlife, the FWS OLE. Even those who may not concern 
themselves with wildlife are reaping benefits as OLE protects against 
smuggling illegal substances from invasive species to contraband and 
even helps to thwart potentially devastating human health threats. 
Still, each year, OLE is increasingly underfunded and understaffed, 
placing the public at greater danger unnecessarily. AWI requests an 
additional $45 million be allocated to the FWS to increase and expand 
the activities of OLE in its critical role combating wildlife crime. 
Currently, OLE is tasked with enforcing and implementing more than a 
dozen Federal wildlife and conservation laws that frequently impact 
both domestic and global security.
    It is disheartening that the new budget proposals have chosen to 
decrease funding to such an imperative office and its programs in the 
wake of success. Year after year, OLE protects the public against the 
illegal trade in wildlife and wildlife products, which is third only to 
the illicit trade in narcotics and weapons in terms of revenue 
generated globally, and despite the fact that the United States remains 
a source of or destination for much of this contraband. Congress must 
act rapidly to make available those funds that are crucial to OLE, its 
programs, and the safety of the American public.
    FWS Special Agents.--Staff tasked with enforcement of U.S. wildlife 
laws risk their lives in an effort to protect our Nation's wildlife. In 
fiscal year 2009, FWS agents pursued more than 13,097 investigations 
resulting in more than $6.1 million in fines, 39.9 years of jail time 
for the perpetrators, and 512.3 years of probation.\1\ FWS cases 
documented illegal trafficking in U.S. leopard sharks, coral reef 
organisms, live reptiles, and paddlefish. On the global front, FWS 
agents, together with the Royal Thai Police, broke up an illegal ivory 
trading ring, spanning three continents. The case, to date, has secured 
the U.S. indictment of two individuals and four criminal arrests in 
Thailand, as well as seizures of elephant tusks and carved ivory in 
both countries. If convicted on the 23-plus indictments, prison terms 
for both defendants in the United States could collectively total 78 
years. This impressive record merits advancement and proper funding. 
FWS Special Agents have proven time and time again their work deserves 
funding levels beyond the administration's fiscal year 2011 budget 
proposal, to aid in the reduction of illegal trade in wildlife and 
wildlife products, which continues to imperil wildlife species in the 
United States and around the world.
---------------------------------------------------------------------------
    \1\ Law Enforcement at a Glance. Office of Law Enforcement. U.S. 
Fish and Wildlife Service. January 2010.
---------------------------------------------------------------------------
    Currently, there are only 190 FWS agents responsible for the 
enforcement of Federal wildlife laws throughout the entire United 
States. This number is 11 fewer than in fiscal year 2009, which was 9 
fewer than existed in fiscal year 2008. There are 71 agent vacancies. 
AWI respectfully requests an additional $14.2 million to fill these 71 
agent vacancies and an additional $12 million to ensure sufficient 
operational funds for existing agents and for those hired in the 
future.
    Port Inspectors.--Keeping our ports and boarders secure remains 
America's single best opportunity to prevent potential attacks. Whether 
intercepting bioterrorism agents or uncovering security threats, FWS 
Port Security, along with U.S. Coast Guard, Department of Homeland 
Security, and other agencies involved, holds the daunting task of 
keeping our Nation safe. The noble individuals employed by these 
agencies are charged with precluding a wide variety of potentially 
disastrous threats, including: minimizing illegal contraband shipments, 
often transported in body cavities of vicious species; uncovering 
smuggled goods and illegal trade rings at the border, which include 
products of severely endangered species; and thwarting national and 
global health risks by shielding the American public from the disease 
and safety risks associated with importing non-native species (e.g. 
avian flu, Newcastle's disease, and foot and mouth disease).
    The current lack of sufficient operational funds for the FWS port 
inspection program weakens FWS efforts to promote the conservation of 
species of international concern, to protect all natural resources, and 
to sustain biological processes. Most recently, FWS port agents, 
together with the National Oceanic and Atmospheric Administration, 
Immigration and Customs Enforcement, and U.S. Customs and Border 
Protection, uncovered shipments originating from the Virgin Islands 
containing protected black coral (CITES Appendix II). Black coral when 
removed, threatens the marine ecosystem and damages the habitats of 
several species. This case resulted in the arrest and conviction of two 
Taiwanese nationals on nine counts of conspiracy, including conspiracy, 
false statements, and violations of both the Endangered Species Act and 
the Lacey Act. It is critical that these programs remain fully funded 
to protect domestic and international wildlife, and to ensure our 
Nation's safety through hiring and training staff at each designated 
U.S. ports of entry. AWI requests an additional $3.1 million for the 
ports of entry.
    The Clark R. Bavin National Fish and Wildlife Forensics 
Laboratory.--The successful outcomes stated previously would not have 
been possible without the essential work of the FWS forensic 
laboratory, used by FWS agents and inspectors to gather hard evidence 
in wildlife crime cases. The lab uses state-of-the-art science, along 
with years of institutional knowledge, to identify wildlife products by 
species, determine the cause of death, and make other findings critical 
to a successful legal case. All such findings must adhere to exacting 
evidentiary standards to be used in court, thus increasing the cost of 
testing each sample. The lab and its personnel have worked diligently 
over the past year to nearly clear a 7-month computer case backlog but 
remain challenged in tackling the 4- to 8-month hard case backlog. The 
Bavin Laboratory desperately needs to hire and train essential staff to 
help alleviate some of the backlog, which has delayed investigations 
and potential prosecutions by FWS investigators, inspectors, and 
Federal prosecutors.
    All 50 States and the 175 Convention for International Trade in 
Endangered Species (CITES) member countries depend on this facility to 
prosecute their wildlife crimes; however, this partnership is 
jeopardized by the lab's inability to churn out timely results. To 
reduce both staffing shortages and existing analytical workload and 
backlog, $5 million is requested for the lab, including $1 million to 
fill the eight essential vacancies. A timely hire is crucial to train 
second generation forensic morphologists prior to the departure of 
current staff. Such funds would also allow for the construction of a 
new building to house the lab's comparison standards collection ($3.5 
million).
    Wild Free-roaming Horses and Burros Act.--The wild horse is as much 
a symbol of American heritage as the image of Uncle Sam and baseball. 
Currently, these wild horses are at risk of mistreatment by the Bureau 
of Land Management (BLM), which misuses most of its budget to round up 
and warehouse wild horses and burros to make room for privately owned 
cattle. Wild horses have been removed from more than 19 million of the 
52 million acres allocated to them by Congress. Since 2004, wild horses 
have been at risk of being sold to killer-buyers who make a profit by 
sending horses to slaughter for human consumption. More than 35 years 
ago, Congress acted on behalf of these wild animals to protect their 
natural habitat and lifestyle. It is now time for Congress to act again 
to ensure these animals are neither sent into long-term holding 
facilities nor sentenced to slaughter. AWI requests that this ``no-
kill'' language be maintained to ensure the BLM does not kill healthy 
wild horses and burros:

    ``Provided, that appropriations herein made shall not be available 
for the sale or destruction of healthy, unadopted, wild horses and 
burros in the care of the Bureau or its contractors.''

    WNS in Bats.--Last year, there were dire reports that as many as a 
1 million hibernating bats throughout the Eastern United States had 
died over the previous 3 years--with some hibernacula (caves and mines 
where bats hibernate) experiencing 95-100 percent mortality--and that 
the problem was moving to other States. The news this year is even 
worse: WNS has indeed continued its march south and west. In February, 
West Virginia's Division of Natural Resources announced a WNS outbreak 
in one of the State's caves, housing 200,000 hibernating bats 
(including 5,000 Virginia big-eared bats and 13,000 Indiana bats, both 
endangered species). That same week, wildlife officials in Tennessee 
reported that two bats from Worley Cave in Sullivan County had tested 
positive for WNS. Hundreds and thousands of bats hibernate in 9,600 
caves in Tennessee, and biologists fear devastation of the endangered 
Indiana and grey bats. And then in early March, the Maryland Department 
of Natural Resources reported a likely WNS outbreak in a cave in 
Allegany County.
    This die-off is an unprecedented animal welfare, environmental, and 
economic disaster. Bats play a crucial role in the ecosystem, including 
pollinating crops and consuming insects that pose a threat to human 
health and agriculture. The million bats that have been lost could have 
consumed as many as 649,000 tons of insects each year. A consensus 
statement issued in May 2009 by a group of scientists and wildlife 
managers working on this problem calls WNS ``the most precipitous 
decline of North American wildlife in recorded history,'' and they fear 
it could wipe out some endangered bat species and cause others to be 
listed. A fungus, called WNS for the white patches that appear on the 
bats' noses and elsewhere, seems to be the culprit, and scientists are 
working furiously to prevent its spread and find a cause and a 
treatment. Additional funds are needed to enable them to get this 
disease under control and avert an even bigger ecological and financial 
catastrophe later.
    We respectfully ask Congress to do the following: (1) support the 
$4 million increase the Fish and Wildlife Service (FWS) requested for 
Declining Species; (2) approve the 2 additional FTEs FWS requested, 
which we understand are to be the WNS coordinators for regions 3 and 4; 
(3) Support the $3 million increase the U.S. Geological Survey (USGS) 
requested for science support for FWS and National Park Service 
priority research, monitoring, and technical assistance needs; (4) 
Support the $600,000 increase USGS requested for wildlife: terrestrial 
and endangered resources; and (5) Include an additional $5 million in 
FWS' Endangered Species: Recovery of Listed Species programming funds.
    We are grateful that Congress provided the FWS with an additional 
$1.9 million in fiscal year 2010 for WNS research and monitoring 
activities, but as recent developments show, the spread of WNS is 
outpacing efforts to control it. With an additional $5 million in its 
endangered species recovery program, the FWS will be able to offer 
another year of WNS research grants targeting disease transmission and 
spread, control and treatment, bat genetics, and population modeling--
critical to our understanding of this disease. Funding will be 
available to support development and implementation of Federal and 
State WNS response plans, baseline data collection, WNS surveillance 
and monitoring, and related tasks, as well as public outreach. Without 
sufficient resources to accelerate these efforts, WNS will continue its 
relentless assault, potentially devastating the majority of our 
Nation's bat species.
                                 ______
                                 
               Letter From the Bird Conservation Alliance
                                                      May 14, 2010.
Hon. Dianne Feinstein,
Chairman, Interior, Environment, and Related Agencies Appropriations 
        Subcommittee, Washington, DC.
Hon. Lamar Alexander,
Ranking Member, Interior, Environment, and Related Agencies 
        Appropriations Subcommittee, Washington, DC.
    Dear Chairman Feinstein and Ranking Member Alexander: On behalf of 
the undersigned Bird Conservation Alliance members, we want to thank 
you Chairman Moran and Ranking Member Simpson for this opportunity to 
speak to you and the members of this subcommittee about the need to 
increase funding to Federal bird conservation programs that have proven 
effective. The Bird Conservation Alliance (BCA) is a network of bird 
conservation organizations, scientific societies, environmental groups, 
and birding clubs working together to conserve wild birds. Funding for 
these programs is crucial for restoring and maintaining healthy and 
abundant bird populations throughout the United States. For many of 
these programs, the need is far greater than the levels that we are 
advocating for.
    For the purposes of this letter, we will focus on the U.S. Fish and 
Wildlife Service's (FWS) Neotropical Migratory Bird Conservation Act 
(NMBCA) grants program and the Joint Ventures (JV) program. The BCA 
requests NMBCA be funded at $6.5 million ($1.5 million above fiscal 
year 2010's level) and JVs be funded at $18 million ($4 million above 
fiscal year 2010's level) to allow them to meet their increased 
responsibilities. An increase in funding for these programs would 
benefit the songbirds that are soon to arrive in the backyards and 
birdfeeders of millions of anxiously awaiting Americans.
    America is blessed with a spectacular abundance and rich diversity 
of birds, with more than 800 species inhabiting the mainland, Hawaii, 
and surrounding oceans. Currently 75 million Americans engage in bird 
watching generating over $45 billion to our economy every year. 
Unfortunately, we found out in last year's FWS groundbreaking State of 
the Birds Report that many of our bird species are in decline and some 
are threatened with extinction. The 2010 State of the Birds finds that 
most U.S. bird species will be imperiled by climate change, including 
common birds that are currently not of conservation concern.
NMBCA
    To address two of the primary causes for the decline of bird 
species; habitat loss and degradation, both of which are rapidly 
increasing south of our border--the BCA respectfully suggests that 
Congress act to help mitigate their impact by improving the 
appropriations level for the NMBCA grants program. As the subcommittee 
knows, the NMBCA supports partnership programs in the United States, 
Canada, Latin America, and the Caribbean to conserve migratory birds, 
especially on their wintering grounds where birds of nearly 350 
species, including some of the most endangered birds in North America, 
spend their winters. Projects include activities that benefit bird 
populations such as habitat restoration, research and monitoring, law 
enforcement, and outreach and education.
    From 2002-2008, grant money has gone out to 44 U.S. States and 34 
countries, funding 260 projects, impacting almost 3 million acres of 
critical bird habitat. More than $250 million in Federal appropriated 
dollars have leveraged more than $116 million in partner contributions. 
However, demand for funding of high-quality conservation projects far 
outstrips current appropriations, and in 2008, 63 projects requesting 
nearly $10,000,000 were not funded. From these numbers, it is clear 
that conservation that would benefit our migrant songbirds is not able 
to take place due to a lack of funding for this program.
JVs
    JVs also exemplify a highly successful, cost-effective approach to 
conservation and are now being looked to as model for the Landscape 
Conservation Cooperatives. By applying science and bringing diverse 
constituents together, JVs across the United States have created a 
model for solving wildlife management problems and restoring habitats 
critical to conserving declining species. Nationally, JVs have 
protected, restored, or enhanced more than 13 million acres of 
important habitat for migratory bird species. There are currently 21 
JVs in the United States that provide coordination for conservation 
planning and implementation of projects that benefit all migratory bird 
populations and other species.
    JVs have a long history of success in implementing bird 
conservation initiatives mandated by Congress and by international 
treaties. Projects are developed at the local level and implemented 
through diverse public/private partnerships. These projects reflect 
local values and needs, while addressing regional and national 
conservation priorities. The projects benefit not only birds, but many 
wildlife species, and have a positive impact on the health of 
watersheds and local economies.
    Every $1 invested in JVs leverages more than $44 in non-Federal 
partner funds (1999-2004) for on-the-ground habitat conservation and 
restoration projects, biological planning, and outreach. Additional 
dollars would help JVs strengthen the public/private partnerships that 
leverage increasingly scarce public funds for on-the-ground habitat 
restoration and acquisition projects; continue to incorporate recent 
scientific advances in the development of landscape-conservation plans; 
and build capacity within the newer JVs, while maintaining expertise 
within established ones.
    BCA strongly believes increased funding for NMBCA and JVs is 
essential to achieving conservation goals critical to our environment 
and economy. Just as importantly, these Federal programs are good 
values for taxpayers, leveraging more than $4 and $44, respectively, in 
partner contributions for every $1 that we spend.

                                           Darin Schroeder,
Vice President of Conservation Advocacy, American Bird Conservancy.
                                              John Faaborg,
                                     American Ornithologists Union.
                                               Ellie Cohen,
                      President and CEO, PRBO Conservation Science.
                                                Dan Silver,
                    Executive Director, Endangered Habitats League.
                                           Thomas Parchman,
                      President, Audubon Society of Greater Denver.
                                             Milan G. Bull,
  Senior Director of Science and Conservation, Connecticut Audubon 
                                                           Society.
                                              Bill Stewart,
               Conservation Chair, Delmarva Ornithological Society.
                                      Lisa Sorenson, Ph.D.,
    President, Society for the Conservation and Study of Caribbean 
                                                             Birds.
                                   Charles H. Trost, Ph.D.,
Field Trip Chair and Board Member, Portneuf Valley Audubon Society.
                                               Donnie Dann,
      Advocacy Chair and Past President, Bird Conservation Network.
                                           Marcia T. Fowle,
                 Bird-Safe Glass Foundation, New York City Audubon.
                                           Diana Van Buren,
             President & Program Chair, North Fork Audubon Society.
                                         W. Hardy Eshbaugh,
                                   President, Audubon Miami Valley.
                                                Tom Romito,
                       President, Western Cuyahoga Audubon Society.
                                             Steve Sherrod,
                                      Sutton Avian Research Center.
                                             Ani Kame'enui,
                                                       Oregon Wild.
                                        David Harrison, MD,
                         Conservation Chair, Salem Audubon Society.
                                           Laurie Goodrich,
             Senior Biologist, Hawk Mountain Sanctuary Association.
                                          Bill Hilton, Jr.,
       Executive Director, Hilton Pond Center for Piedmont Natural 
                                                           History.
                                   Dr. John W. Fitzpatrick,
                       Director, Cornell Laboratory of Ornithology.
                                             Rodney Siegel,
            Executive Director, The Institute for Bird Populations.
                                            Catherine Rich,
                      Executive Officer, The Urban Wildlands Group.
                                           Kurt R. Schwarz,
               Conservation Chair, Maryland Ornithological Society.
                                            Tim Richardson,
                      Wildlife Forever & American Land Conservancy.
                                               Kay Charter,
                     Executive Director, Saving Birds Thru Habitat.
                                               Gil Randell,
             Chairman, Hawk Migration Association of North America.
                                            David Govatski,
                              Chairman, Friends of Pondicherry NWR.
                                     Elizabeth Hurst-Waitz,
             Chapter President, Central New Mexico Audubon Society.
                                            Jane Alexander,
                Board member, American Birding Association,
                  Advisory Board member, American Bird Conservancy.
                                               Alan Weeden,
                                        Trustee, Weeden Foundation.
                                                Ron Martin,
                                      North Dakota Birding Society.
                                              Dick Preston,
                       President, Tennessee Ornithological Society.
                                              Leah Pummill,
             President, Audubon Outdoor Club of Corpus Christi, TX.
                                             Wallace Elton,
                                 Ascutney Mountain Audubon Society.
                                             Bruce Johnson,
          President, Audubon Society of Northern Virginia Virginia.
                                            Stephen Eccles,
    Chair, Conservation Committee, Virginia Society of Ornithology.
                                               Paul Hunter,
       Secretary, Milwaukee Olmsted Bird Conservation, Alliance of 
                                                         Wisconsin.
                                                Ann Shahid,
          Important Bird Areas Coordinator, Audubon South Carolina.
                                 ______
                                 
          Letter From the Bird Conservation Funding Coalition
                                                    April 19, 2010.
Hon. Dianne Feinstein,
Chairman, Subcommittee on the Interior, Environment and Related 
        Agencies, Washington, DC.
Hon. Lamar Alexander,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Chairman Feinstein and Ranking Member Alexander: The Bird 
Conservation Funding Coalition (BCFC) consists of national 
organizations that jointly advocate for Federal funding to advance bird 
conservation. Birds are not only beautiful and interesting creatures 
eagerly welcomed by millions of Americans into their backyard every 
year; bird watching is also a big business. According to a report 
released by the U.S. Fish and Wildlife Service (FWS), birdwatchers 
contributed $36 billion to the U.S. economy in 2006, the most recent 
year for which economic data are available. The report, ``Birding in 
the United States: A Demographic and Economic Analysis,'' shows that 
total participation in bird watching is strong at 48 million and has 
remained steady since 1996. Birds also naturally provide billions of 
dollars worth of pest control each year, benefiting farmers and 
consumers alike.
    We ask that you once again provide funding to programs we believe 
are crucial for maintaining healthy and abundant bird populations 
throughout the United States. For many of these programs, the need is 
far greater than the recommended levels. However, we recognize our 
Nation's severe fiscal constraints and are thereby requesting a modest 
increase for this coming fiscal year. These programs are:
   neotropical migratory bird conservation act (nmbca) grants program
    The NMBCA Grants Program supports partnership programs to conserve 
birds in the United States, Latin America and the Caribbean, where 
approximately 5 billion birds representing 341 species spend their 
winters, including some of the most endangered birds in North America. 
Between 2002 and 2008, the program supported 260 projects, coordinated 
by partners in 44 U.S. States/territories and 34 countries. More than 
$25 million in federal appropriated dollars have leveraged more than 
$116 million in partner contributions. The BCFC respectfully requests 
the subcommittee prioritize fiscal year 2011 funding for the NMBCA at 
$6.5 million, an increase of $1.5 million from the amount appropriated 
in fiscal year 2010.
                          joint ventures (jvs)
    JVs exemplify a highly successful and cost-effective approach to 
the conservation of all migratory bird populations. JVs are regionally 
based partnerships of public and private organizations dedicated to the 
delivery of bird conservation within their boundaries. They also have a 
long history of demonstrated success in implementing bird conservation 
initiatives mandated by Congress and by international treaties. For 
every Federal dollar that was invested in JVs from 1999-2004, more than 
$44 in non-Federal partner funds was brought to the table for on-the-
ground habitat conservation and restoration projects, biological 
planning, and outreach. The BCFC respectfully requests the subcommittee 
allocate $18 million for fiscal year 2011, an increase of $4 million 
from the appropriated amount in fiscal year 2010.
                         science and monitoring
    Science and Monitoring done within the FWS Office of Migratory Bird 
Management provides invaluable information on the status and trends of 
bird species necessary for sound management decisions. This scientific 
information helps to ensure that funds are allocated wisely within all 
other BCFC priorities. The BCFC respectfully requests the subcommittee 
provide $35 million for this important program, an increase of 
approximately $4 million from the appropriated amount in fiscal year 
2010.
            north american wetlands conservation act (nawca)
    NAWCA provides funding for conservation projects for the benefit of 
wetland-associated migratory birds in the United States, Canada, and 
Mexico. Unfortunately, more than half of the original wetlands in the 
United States have been lost, contributing to the steady decline of 
migratory birds. Approximately 4,000 partners through 1,943 projects 
have received more than $1 billion in grants from 1990-2009 which have 
contributed another $2.06 billion in matching funds to affect 25.2 
million acres of habitat. The BCFC respectfully requests the 
subcommittee prioritize fiscal year 2011 funding for NAWCA at $52.6 
million, an increase of approximately $5 million from the level 
appropriated in fiscal year 2010.
                state and tribal wildlife grants program
    The State and Tribal Wildlife Grants Program is the Nation's core 
program for preventing wildlife from becoming endangered and supports 
strategic conservation investments in every State and territory. The 
conservation actions funded by this program puts thousands of Americans 
to work to remove invasive species, restore and protect habitat, 
reintroduce native wildlife and to work with private landowners to 
improve habitat for at risk birds and wildlife. In order to ensure the 
states and territories can implement needed conservation actions that 
will retain and create thousands of jobs that will save both wildlife 
and taxpayer dollars, we ask you to support the reduction in the non-
Federal match requirement from 50 percent to 35 percent to help 
financially strapped States. The BCFC respectfully requests the 
subcommittee allocates $100 million for fiscal year 2011, an increase 
of $10 million from the level appropriated in fiscal year 2010.
                  international affairs within the fws
    Wildlife Without Borders (WWB), located within the FWS Division of 
International Conservation, is a mainstay of bird conservation in 
Mexico, Central America, and the Caribbean. WWB programs are a 
foundation for long-term conservation efforts because they focus on 
developing in-country capacity and leverage $4 for every Federal dollar 
appropriated. The BCFC respectfully requests the subcommittee 
prioritize fiscal year 2011 funding at $22 million which is an increase 
of $8 million from the level appropriated in fiscal year 2010.
      international programs within the usda forest service (usfs)
    International Programs within the USFS support an array of 
extremely effective bird conservation projects with a relatively small 
budget. Among these are restoration of Kirkland's Warbler with programs 
in Michigan and the Bahamas, and conservation of breeding habitat in 
Canada's Boreal Forest. This modest increase in funding would be used 
to expand and accelerate work on these projects, as well as projects 
benefiting the rapidly declining Cerulean Warbler, declining prairie 
grasslands birds, declining forest birds such as the Wood Thrush, 
conservation of mangroves and wetlands of Mexico's Pacific Coast and 
conservation of habitat for migratory hummingbirds in forests of 
Western United States, Canada, and Mexico. The BCFC respectfully 
requests the subcommittee provide $16 million for fiscal year 2011, an 
increase of $6.2 million over fiscal year 2010.
                usgs american breeding bird survey (bbs)
    BBS has been providing data crucial for migratory bird conservation 
planning since 1966. Today, the BBS provides the foundation for 
nongame, land bird conservation in North America with more than 3,200 
skilled volunteer participants sampling 3,000 routes annually across 
the continental United States and Southern Canada. The BCFC 
respectfully requests the subcommittee provide this important program 
with the highest possible level of funding.
    Birds, other wildlife, and their habitats are perhaps the greatest 
legacy we have to leave to our children and subsequent generations. 
Money that is spent now on wildlife programs will be repaid many times 
over in a cleaner healthier environment from which we will all benefit.
    Again, we thank you for your steadfast support of these critically 
important programs.
            Sincerely,
                                Darin C. Schroeder,
                   Vice President of Conservation Advocacy,
                                         American Bird Conservancy.
                                         Ron Regan,
                                        Executive Director,
                         Association of Fish and Wildlife Agencies.
                                   Michael Daulton,
                  Senior Director for Government Relations,
                                          National Audubon Society.
                                  Michael Hutchins,
                                        Executive Director,
                                              The Wildlife Society.
                                 ______
                                 
          Prepared Statement of Bat Conservation International
    On behalf of the undersigned organizations and researchers, with 
more than 4 million combined supporters, we submit the following 
testimony requesting an additional $5 million in designated Federal 
funding to support research and management on white-nose syndrome (WNS) 
in fiscal year 2011. We also encourage approval of the pending 
appropriations requests from the U.S. Fish and Wildlife Service (FWS) 
and the U.S. Geological Survey (USGS). This funding is urgently needed 
to understand the cause, transmission, and control of WNS and to reduce 
the impacts of this devastating wildlife disease.
    WNS is an infectious disease that has already killed more than 1 
million bats throughout the Eastern United States. The disease is named 
for a newly described fungus that grows on the noses (and sometimes 
wings, ears, and tails) of affected bats. Hibernating bats affected by 
WNS experience some or all of the following symptoms: (1) frequent 
arousals during hibernation, leading to depleted fat reserves and 
starvation; (2) suppressed immune system; (3) damage or scarring of the 
wings; and (4) abnormal behavior (for example, bats emerge too soon 
from hibernation and are often seen flying around in midwinter, which 
usually means they will freeze or starve to death).
    The unprecedented mortality associated with WNS has caused the most 
precipitous wildlife decline in the past century in North America, with 
significant ecological and economic consequences throughout the United 
States. In the Northeastern United States, where WNS was first 
discovered in 2006, mortality rates of nearly 100 percent are reported 
for some bat colonies. Over the past 2 years, this disease has spread 
rapidly beyond the Northeast. This past winter, the WNS-associated 
fungus has been documented in Maryland, Delaware, Tennessee, and 
Missouri. WNS has already killed thousands of endangered Indiana bats 
and now threatens some of the largest hibernating populations of 
endangered gray bats, Virginia big-eared bats, and Ozark big-eared 
bats. Ultimately, more than half (25 of 46) of bat species in the 
continental United States are at risk.
    Bats play a critical role in maintaining the balance of nature. 
They are primary predators of vast numbers of insects, including pests 
that annually cost American farmers and foresters billions of dollars. 
Additionally, the droppings of bats that live in caves support unique 
ecosystems, including microorganisms that potentially could provide 
invaluable resources for detoxifying industrial wastes and producing 
safer pesticides and antibiotics. Loss of bats would have serious, 
potentially irreversible consequences, both ecologically and 
economically.
    In June 2009, bat expert Dr. Thomas Kunz of Boston University 
presented testimony to Congress that outlined a need for WNS funding in 
excess of $45 million over a 5-year period, with $17 million in the 
first year. This was developed through extensive collaboration among 
scientists and wildlife managers deeply concerned about the 
consequences of WNS. Congress appropriated $1.9 million for WNS in the 
fiscal year 2010 FWS Recovery of Listed Species program. Of these 
appropriated funds, FWS distributed $1 million to WNS research, 
$450,000 to State WNS response activities and $450,000 to FWS WNS 
coordination efforts.
    Since October 2009, when Congress appropriated this funding, the 
WNS-associated fungus has been found in four additional States 
(Delaware, Maryland, Tennessee, and Missouri) as well the Canadian 
provinces of Ontario and Quebec. WNS is now within 100 miles of the 
crown jewel of the National Park System's cave parks: Mammoth Cave 
National Park. And it has crossed the Mississippi River into the 
American Midwest (see Figure 1). This past winter, at least 36 
additional United States counties and 8 Canadian counties were 
infected, and WNS now occurs within the range of two additional 
endangered species (the Virginia big-eared bat and gray bat). A cave 
used by the largest hibernating colony of Virginia big-eared bats (in 
Pendleton County, West Virginia) has been diagnosed with WNS, and we 
expect the largest caves used by gray bats to be impacted within the 
next year. At the current rate of spread, WNS will very likely be 
within range of the endangered Ozark big-eared bat within 1 year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Figure 1. Map showing the current distribution and predicted spread 
of WNS across the Eastern United States Red areas depict counties where 
WNS has been detected as of May 2010. Blue areas show regions in the 
United States where major hibernating colonies are present. Yellow 
arrows indicate probable transmission routes as the fungal infection 
spreads across the United States.

    In addition to the significant risk WNS poses to federally listed 
endangered species, the little brown bat, a relatively common and 
widespread species in the United States, could decline to the point 
that it warrants listing as threatened or endangered. Already this 
year, the Center for Biological Diversity has petitioned for endangered 
species listing of two bat species (Northern long-eared bat and Eastern 
small-footed bat) due to threats posed by WNS and other factors.
    Listing species under the Endangered Species Act is very expensive. 
According to the Government Accountability Office (GAO-06-463R), the 
average cost for recovery of an endangered species is $15.9 million; 
the highest estimate on record is $125 million to recover the whooping 
crane. Bat species affected by WNS have broad geographic distributions 
and complex life histories, which likely would require even higher 
recovery costs. The economic consequence of additional bat listings 
would undoubtedly affect operational costs of a number of industries, 
including defense, energy, mining, timber, agriculture, construction, 
transportation, tourism/recreation, and others. We believe it makes 
better economic sense to fund WNS research and prevention now, rather 
than bear the cost of endangered species recovery for years to come.
    The need for support of research, monitoring and management of WNS 
is substantial, but we recognize that the current economic climate may 
not allow for funding at previously proposed levels. Nonetheless, the 
geographic scope and expected ecological and economic consequences of 
WNS will require a substantial financial response.
    With an additional $5 million in appropriated funds for WNS, 
resources could be available for research grants targeting control and 
treatment, disease transmission and spread, population genetics, and 
other topics critical to our understanding of this devastating disease 
and how to combat it. Funding could also support much-needed 
development and implementation of Federal and State WNS-response plans, 
critical data collection, surveillance and monitoring and program 
administration. Finally, resources could be available to fund public 
outreach and communication efforts to disseminate information to 
constituents of States within the impact zone of WNS and those expected 
to become infected within the next few years.
    Congressional support is critical because other funding sources are 
extremely limited. State budgets have been drastically reduced and 
Federal agencies cannot absorb this cost within their existing 
resources. We strongly urge Congress to approve the pending 
appropriations requests from the FWS and the USGS. A portion of these 
requested funds will provide some support for WNS research, management 
and outreach activities, but the fiscal year 2011 Federal budget 
requests will not be sufficient to address this devastating disease. 
For this reason, we are requesting an additional $5 million in 
designated funds for WNS.
    Unless additional funding is provided in the fiscal year 2011 
budget, WNS will continue to spread across the landscape unchecked, 
killing enormous numbers of North American bats. We desperately need 
designated support for WNS research, monitoring, management, and 
outreach. Without targeted funds, agencies may be forced to expend 
their budgets on internal operating costs, leaving little or nothing to 
truly address the cause and possible cure of WNS. As a result, we may 
see significant ecological and economic changes that will have a 
negative impact on America's taxpayers and the U.S. economy, while 
adding new species to the ranks of endangered and extinct animals.
    We appreciate the opportunity to share our position concerning this 
serious matter, and respectfully ask you to consider our urgent 
request.
            Sincerly yours,
                    10,000 Birds, NY; Adirondack Council, NY; Allegheny 
                            Defense Project, PA; Appalachian Center for 
                            the Economy and the Environment, WV; 
                            Appalachian Voices, NC.
                    Bat Conservation International, TX; Bat World 
                            Sanctuary, TX; Biodiversity Conservation 
                            Alliance, WY; Biodiversity Research 
                            Institute, ME; Cary Institute of Ecosystem 
                            Studies, NY.
                    Center for Biological Diversity, AZ; Center for 
                            North American Bat Research and 
                            Conservation, IN; Connecticut Audubon 
                            Society, CT; Conservation Northwest, WA; 
                            Defenders of Wildlife, DC.
                    Foundation for Deep Ecology, CA; Friends of 
                            Blackwater, WV; Global Wildlife 
                            Conservation, CA; Green Berkshires, MA; 
                            Hilton Pond Center for Piedmont.
                    Natural History, SC; Maine Organic Farmer's and 
                            Gardener's Association, ME; Massachusetts 
                            Forest Watch, MA; Midwest Bat Working 
                            Group, IN; National Speleological Society, 
                            AL.
                    National Cave and Karst Research Institute, NM; 
                            Natural Resources Defense Council, NY; New 
                            Jersey Audubon Society, NJ; Northeast 
                            Organic Farmers Association: Connecticut; 
                            Northeast Organic Farmers Association: 
                            Massachusetts.
                    Northeast Organic Farmers Association: New 
                            Hampshire; Northeast Organic Farmers 
                            Association: New Jersey; Northeast Organic 
                            Farmers Association: New York; Northeast 
                            Organic Farmers Association: Rhode Island; 
                            Northeast Organic Farmers Association: 
                            Vermont.
                    North American Symposium for Bat Research; 
                            Northeastern Cave Conservancy, NY; 
                            Northwest Coalition for Alternatives to 
                            Pesticides, OR; Organization for Bat 
                            Conservation, MI; Predator Defense, OR.
                    RESTORE: The North Woods, MA; Save the Cumberland, 
                            TN; South Carolina Audubon Society, SC; 
                            Southeastern Bat Diversity Network, MS; 
                            Sweet Water Trust, VT.
                    The Enviro Show, MA; The Lands Council, WA; The 
                            Nature Conservancy, Tennessee Chapter, TN; 
                            The Northeast Ecological Recovery Society, 
                            NY; Sierra Club, DC.
                    The Wildlife Society, MD; Vermont Law School: 
                            Environmental and Natural Resources Law 
                            Clinic, VT; Walden's Puddle Wildlife 
                            Rehabilitation and Education Center, TN; 
                            Western Bat Working Group, SD; Western 
                            Watersheds Project, UT.
                    Wild Farm Alliance, CA; Wild South, NC; Wildlife 
                            Alliance of Maine, ME; Wildlife 
                            Conservation Society, DC; Women, Food and 
                            Agriculture Network, IA.
                    Hazel Barton, Ph.D., cave biologist, KY; Brad 
                            Bergstrom, Ph.D., mammalogist, GA; Angie 
                            Doerr, Ph.D., ecologist, CA; Winifred 
                            Frick, Ph.D., bat biologist, CA; John 
                            Hayes, Ph.D., mammal ecologist, FL.
                    Thomas Kunz, Ph.D., bat ecologist, MA; Gary 
                            Kwiecinski, Ph.D., bat biologist, PA; 
                            Kathleen LoGiudice, Ph.D., wildlife 
                            biologist, NY; Gary McCracken, Ph.D., 
                            ecologist, TN; Marianne Moore, Ph.D., bat 
                            biologist, MA.
                    Phil Myers, Ph.D., ecologist, MI; DeeAnn Reeder, 
                            Ph.D., bat biologist, PA; Fraser Shilling, 
                            Ph.D., ecologist, CA; Merlin Tuttle, Ph.D., 
                            bat biologist, TX.
                                 ______
                                 
         Prepared Statement of the Black Mesa Community School
               bureau of indian education (bie) programs
    Tribal Grant Support Costs (TGSC); Student transportation; Indian 
School Equalization Formula (ISEF); and facilities operations.
    Black Mesa Community School is a K-8 school located on a 6,700-foot 
high mesa in an extremely remote portion of the Navajo Reservation in 
Arizona. Our testimony focuses on the challenges of operating a very 
small school in an extremely isolated area and asks for your help.
    Costs of Isolation.--Neither of the two roads leading onto Black 
Mesa is paved. To get on or off the mesa, we must travel 16 miles of 
dirt road north to Rough Rock, or 26 miles south to Pinon. From either 
location, it is yet another hour's drive to our closest town--Chinle. 
During periods of snow or heavy rain, both dirt roads to our community 
are impassible or, if we are lucky, we can make the journey in 6 or 7 
hours.
    This extreme isolation requires us to be as self-sufficient as 
possible, as we can't depend on vendors, service-providers, repair 
people, and other outsiders being able to get to our school. Even when 
they can get to us, the time they must spend in travel makes their 
goods and services very expensive. When we have to send staff out to 
pick up supplies or go to the bank, a roundtrip can take a full day or 
more. Last year, when our large freezer broke down, impassable roads 
made it impossible for the repairman to get to us. As a result, we lost 
a whole month's worth of food for the school cafeteria.
    Let us give you an idea of some measures we have had to institute 
due to our remote location. Our student transportation program is a 
vital part of our operations because so many of our children live far 
away from the school campus. Bus break-downs were so frequent that we 
had to purchase our own service truck and a back-hoe to dig out buses 
that get stuck in the mud. We have also had to buy our own school buses 
(at a cost of approximately $80,000 each) in an effort to reduce bus 
malfunctions. The General Services Administration (GSA) refuses to 
lease new buses to us because our roads are so bad, but the used buses 
they supplied broke down too often. It cost us enormous sums to tow a 
bus to the GSA for repairs, deprived students of educational days, and 
put our children at risk. Thus, the school board determined that the 
only course was to use our scarce transportation dollars to buy our own 
buses. This means we also have high insurance bills for the buses we 
own.
    Because our children live so far from the school and our roads are 
so bad, a one-way bus ride takes at least 2 hours--in good weather with 
no bus break-down--and up to 4 hours in bad weather. Can you imagine 
elementary-age children spending 4 to 8 hours per day on a school bus? 
They arrive at school too tired to learn. We wish we could operate more 
bus routes to make the journeys shorter but we don't get enough student 
transportation funding to allow for this. As it is, our student 
transportation budget was exceeded last year, and we had to make up 
this shortage by taking funds from our education program.
    Costs of Operating a Small School.--As you know, most of the 
funding we receive from the BIE is based on the number of students we 
enroll. Our community is very sparselyn populated so our student 
enrollment is small--it varies from 40 to 60 students. The consequence 
of being such a small school is that we do not attract much funding 
from the ISEF for our education program, nor do we generate much 
funding under the formula for calculating TGSC.
    The TGSC law requires that each tribally operated school receive at 
least $200,000 each year for its administrative and indirect costs, and 
Black Mesa should qualify for this small school minimum. But we 
routinely receive less than that amount because Congress never supplies 
the full amount required by the law for these costs. This year, we 
received only $172,800 in TGSC funding. Overall, BIE paid TGSC at only 
61 percent of the amount the law requires.\1\
---------------------------------------------------------------------------
    \1\ The formula for calculating Tribal Grant Support Costs 
(previously called ``Administrative Cost Grants'') is set out at 25 USC 
Sec. 2008.
---------------------------------------------------------------------------
    Even though ours is a small school, we nonetheless must perform all 
of the fundamental administrative tasks required of a school board--
including executive direction; curriculum development; financial, 
personnel, property and procurement management; recordkeeping; 
auditing; and maintaining prudent internal controls. But our TGSC 
funding is so low that we can't afford to employ a business manager to 
keep track of our grant funds and capital assets, reconcile bank 
statements, arrange for audits and perform other vital financial 
management services. Nor can we afford to employ a human resources 
manager. All of these functions, therefore, must be performed by one 
business office technician and the school principal--who is also 
responsible for directing the education program and supervision of the 
teaching staff. In other words, we have one person essentially 
performing three jobs. A large portion of our TGSC funds must be 
reserved to pay for our audit which costs $40,000 each year.
    Our facilities operations budget also falls far short of the amount 
we need to pay our utilities, clean our school buildings, and maintain 
our Internet, telephone, and telecommunications systems. Even though 
the BIE has a formula for calculating facilities operations funding 
needs, we receive less than one-half of the amount the formula 
produces. When our equipment malfunctions, we often have to wait days 
or even weeks for a technician to travel to the school to make 
repairs--and these service calls to our remote location are very 
expensive.
    ISEF Budget.--For the current school year, we received $338,300 
under the ISEF formula for our education program. These funds must 
support teaching personnel to staff seven classrooms and special 
education. The low salaries we offer makes recruitment and retention of 
certified personnel very difficult.
    Conclusions.--The Federal Government made a commitment to the 
Indian children who attend BIE-funded schools, but that commitment is 
not being met. How can our children be expected to reach achievement 
targets when they must spend many hours getting to/from school, have 
school cancelled because of bad roads, and then find when they do get 
to school the funds for their education program has to subsidize 
inadequate funding for administrative costs and facilities operation 
expenses?
    All of us connected with the Black Mesa School work hard every day 
to keep our school in operation because we know that if we fail in this 
mission, most of the children in our community would not have access to 
an education. The United States made a commitment to the Indian 
children enrolled in the 183 BIE schools, including the Indian children 
at Black Mesa. We need you to fulfill that commitment by providing us 
with the resources we need to make their path toward a quality 
education easier to navigate. We promise you that if you provide the 
resources, all of us in the Black Mesa Community will re-double our 
efforts to provide our children with a challenging and satisfying 
educational experience.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement
    Chairwoman Feinstein, Ranking Member Alexander, and members of the 
subcommittee: Thank you for the opportunity to offer comments on the 
fiscal year 2011 Interior, Environment, and Related Agencies 
appropriations bill. The National Wildlife Refuge System (NWRS) stands 
alone as the only land and water conservation system with a mission 
that prioritizes wildlife and habitat conservation and wildlife-
dependant recreation. Since 1995, the Cooperative Alliance for Refuge 
Enhancement (CARE) has worked to showcase the value of the NWRS and to 
secure a strong congressional commitment for conserving these special 
places. Located in every U.S. State and territory, refuges conserve a 
diversity of America's environmentally sensitive and economically vital 
ecosystems, including oceans, coasts, wetlands, deserts, tundra, 
prairie, and forests. We respectfully request a funding level of $578 
million for the operations and maintenance accounts of the NWRS for 
fiscal year 2011.
    The NWRS needs strong and incremental increases to fulfill its 
mission and purposes, and with the tragedy unfolding before our eyes in 
the Gulf of Mexico with the Deepwater Horizon oil spill, potentially 
impacting up to 60 national wildlife refuges should the oil reach the 
Gulf Loop, funding the NWRS adequately is more important than ever. 
While NWRS staff is feverishly working to protect refuges and wildlife 
from the oil itself, the pervasive lack of funding is noticeably 
apparent by the lack of baseline data at each of the 25 refuges 
expected to be first impacted. Not one of the refuges in the immediate 
path of the oil spill has baseline inventories for all the resources 
that could be impacted by the oil. Refuges in Louisiana, Mississippi, 
Alabama, and Florida are scrambling to do baseline inventories of 
wildlife and water quality. While we thank the subcommittee for funding 
the NWRS's Inventory and Monitoring program in the fiscal year 2010 
budget, the strain on this program due to years of funding shortages 
has put America's wildlife at a distinct disadvantage. Unless refuges 
get this information now, it will be too late to prove how the oil 
impacted refuge resources. This baseline inventory information is not a 
luxury item; it's an essential tool.
    This testimony is submitted on behalf of CARE's 22 member 
organizations, which represent more than 15 million Americans 
passionate about wildlife conservation and related recreational 
opportunities.
American Birding Association
American Fisheries Society
American Sportfishing Association
Association of Fish and Wildlife Agencies
Congressional Sportsmen's Foundation
Defenders of Wildlife
Ducks Unlimited, Inc.
Izaak Walton League of America
Marine Conservation Biology Institute
National Audubon Society
National Rifle Association
National Wildlife Federation
National Wildlife Refuge Association
Safari Club International
The Corps Network
The Nature Conservancy
The Wilderness Society
The Wildlife Society
Trout Unlimited
U.S. Sportsmen's Alliance
Wildlife Forever
Wildlife Management Institute
    CARE deeply appreciates the subcommittee's vision and leadership 
regarding the funding increases realized in fiscal year 2008 through 
fiscal year 2010, and the 2009 American Recovery and Reinvestment Act 
(ARRA). While it does not reduce the annual needs of the NWRS, the ARRA 
is providing a jolt to local economies by providing refuges across the 
country with the means to hire local contractors and purchase local 
materials for important infrastructure and habitat restoration 
projects. Following a period of essentially flat annual budgets, the 
recent increases in annual appropriations allowed for the suspension of 
workforce downsizing plans that called for an eventual 20 percent 
reduction in overall staffing levels. But with more than 10 percent of 
staff already eliminated since 2004, additional funding increases that 
build upon the last 3 years are essential if this valued system of 
conservation lands is to rebound to its full potential. With the goal 
of fulfilling the progressive conservation vision that President 
Theodore Roosevelt first espoused more than a century ago, CARE 
respectfully requests a fiscal year 2011 funding level of $578 million 
for the operations and maintenance accounts of the NWRS.
    As our 2010 CARE report shows, the NWRS needs to reach an annual 
funding level of $900 million over the long term. The $578 million for 
fiscal year 2011 is considered an essential next step on a long path 
toward adequate funding. This annual funding is needed to properly 
patrol and enforce laws on 150 million acres, provide nature programs 
to the public, maintain high-water-quality, complete habitat 
restoration projects, address scores of mothballed mission-critical 
projects, respond to the adverse impacts of climate change, and more.
    An appropriation of $578 million in fiscal year 2011 would 
stabilize the workforce by keeping the workforce downsizing plans 
securely on the shelf and thereby reducing pressure on the U.S. Fish 
and Wildlife Service (FWS) to cut refuge staff below already 
insufficient levels. This funding level would enable FWS staff to 
return to what they do best: protecting, restoring, and enhancing 
America's wildlife and habitat, providing a haven for a growing list of 
threatened and endangered species, and guaranteeing a positive 
experience for more than 41 million annual visitors, whether hunting, 
fishing, watching wildlife, or learning from educational programs.
    Prior to fiscal year 2008, several years of appropriations failed 
to even cover increases in fixed costs. Simply to keep fuel in the 
trucks, pay for rising utilities and building rent, allow for salary 
adjustments, and cover other fixed costs, the NWRS needs at least a $15 
million annual increase.
    Many years of inadequate budgets have ballooned the operations and 
maintenance backlog to more than $3.7 billion. While the appropriation 
for fiscal year 2008 through fiscal year 2010 helped immensely, too 
many visitors still show up to find roads and visitor centers closed, 
viewing platforms and hiking trails in disrepair, and habitat 
restoration and nature education programs eliminated.
    Today, more than 35 percent of America's wildlife refuges have no 
on-site staff, leaving no one there to unlock the gates, teach the 
schoolchildren, or administer the hunting programs, let alone recover 
endangered species or perform major habitat restoration projects. Non-
native, invasive plants have infested more than 2.3 million acres (only 
14.6 percent of this acreage was treated in 2008). Further, a crippling 
deficiency of law enforcement officers has led to a rise in illegal 
activities such as drug production and trafficking, wildlife poaching, 
illegal border activity, assaults, and many types of natural resource 
violations. Currently, only 213 full-time law enforcement officers are 
tasked with responsibilities and risks that the International 
Association of Chiefs of Police suggests be tackled by a force of 845 
professional officers.
    When refuges are short-staffed, not only are activities inside 
refuge boundaries affected, but refuge employees are unable to devote 
sufficient attention to threats beyond refuge boundaries, such as water 
rights disputes, upstream contamination, or encroaching developments. 
Overworked staff cannot take advantage of land acquisition or easement 
opportunities, and conservation opportunities often slip away. When 
staff levels are reduced to only one or a few people per refuge, 
opportunities to partner with other interested stakeholders are lost, 
dramatically and adversely affecting volunteer involvement and the 
leveraging of additional dollars.
    In addition to their integral role in American wildlife 
conservation, refuges are critically important on local and regional 
scales. Visitors in 2006 generated more than $1.7 billion in sales to 
local economies, creating nearly 27,000 U.S. jobs and $543 million in 
employment income. While these figures are undeniably significant, the 
NWRS's potential remains largely untapped and unquantified. In addition 
to being local economic engines, the sustainable use of natural 
resources on America's refuges provides innumerable environmental 
benefits to communities. For example, many refuges in urban or suburban 
settings filter storm water before it runs downstream to municipal 
water supplies and, in many areas, reduce flooding by capturing excess 
rainwater and attenuating coastal storm surges. The vegetation on 
America's refuges captures atmospheric carbon, while natural filtration 
and sound water management promotes healthy fisheries within and beyond 
refuge boundaries.
    Of increasing importance, national wildlife refuges provide a way 
for children to connect with the natural world. There is a refuge 
within an hour's drive of most metropolitan areas in the United States. 
As today's children spend more time inside on computers, watching 
television, or playing video games, the need for a place to bring our 
younger generations to experience and explore the outdoors has never 
been more important. Many refuges work with local volunteer 
organizations such as ``Friends groups'' to provide environmental 
education programs to local schools, but they are often the first 
programs to be curtailed when budgets are tight.
    In a Nation with ever-shrinking natural areas, we must act quickly 
to safeguard our unique natural heritage for the benefit of wildlife 
and millions of present and future Americans. It was Theodore Roosevelt 
who reminded America that ``our duty to the whole, including the unborn 
generations, bids us restrain an unprincipled present-day minority from 
wasting the heritage of these unborn generations.'' CARE agrees that 41 
million annual visitors and all future generations deserve the 
opportunity to see and appreciate 150 million acres of the most 
visually stunning and biologically rich lands and waters in North 
America. Simply put, the way to ensure a future with clean water, 
thriving wildlife populations, and hunting and fishing opportunities is 
to increase the NWRS's fiscal year 2011 appropriation to $578 million 
and continue the restoration of America's commitment to healthy public 
lands.
    On behalf of our more than 15 million members and supporters, CARE 
thanks the subcommittee for the opportunity to offer comments on the 
fiscal year 2011 Interior, Environment, and Related Agencies 
appropriations bill and extends our sincere appreciation for the 
subcommittee's strong commitment to the NWRS.
                                 ______
                                 
    Prepared Statement of the Citizens Campaign for the Environment
    Citizens Campaign for the Environment (CCE) is an 80,000 member 
non-profit, non-partisan advocacy organization that works to empower 
communities and advocate solutions that protect public health and the 
environment. CCE appreciates the opportunity to comment on the EPA's 
budget request.
    The Environmental Protection Agency represents a mere 1 percent of 
the entire Federal budget, therefore CCE believes that, at a minimum, 
the EPA's proposed budget should be funded in its entirety, and also 
believes Congress should increase funding for the EPA. The EPA is 
responsible for protecting the precious natural resources of our 
country and ensuring the protection of human health from pollutants. 
CCE strongly believes that a healthy environment translates to 
healthier communities.
    CCE top four budget priorities for fiscal year 2011 include: Great 
Lakes Restoration Initiative, Long Island Sound Funding, Clean Water 
and Drinking Water SRF programs, and the Science to Achieve Results 
(STAR) program.
    The Great Lakes Restoration Initiative and the Long Island Sound 
Study should be fully funded at $475 million and $20 million 
respectively. These programs support on the ground restoration projects 
that are creating jobs and revitalizing our communities. The health of 
the Great Lakes and the Long Island Sound is imperative to the 
sustainability of communities throughout New York.
    The Clean Water and Drinking Water State Revolving Funds received a 
much-needed boost last year. For too long the importance of repairing 
and maintaining our water infrastructure has been ignored. The EPA has 
proposed to cut the SRF programs by $400 million. CCE urges SRF funding 
levels do not drop below fiscal year 2010 levels. The state of much of 
our Nation's water infrastructure and requires sustained Federal 
investment. CCE encourages you to increase funding for SRF programs. 
Waiting lists are long, and Congress must ensure that people have 
access to clean and safe drinking water and properly working sewage 
infrastructure systems.
    The Science to Achieve Results (STAR) Program is currently funding 
a critically important study on the effects to drinking water from 
hydraulic fracturing. CCE believes the previous study, conducted in 
2004, was flawed and it only addressed coalbed methane. It is 
imperative that the STAR program is fully funded and the EPA directs 
the promised resources--$4.3 million--to the study. EPA must engage 
communities, stakeholders, and citizens to ensure an open and 
transparent process. CCE encourages Congress to fully fund the STAR 
program at $87.2 million with instructions to the EPA that it use $4.3 
million to conduct a robust study with ample opportunities for public 
participation and engagement.
    EPA has proposed to reduce Superfund cleanup due to a lack of funds 
in the Trust Fund. EPA recommends reinstating the Superfund tax in 
order to replenish the Trust Fund. CCE supports reinstating the 
Superfund tax, which ensures that those responsible for contaminating 
our air, land, and water fund the clean up of those areas.
    In addition to our specific budget requests, CCE supports the 
following budget requests:
  --The EPA has requested budget increases in the following areas which 
        CCE supports:
    --$20.8 million for Greenhouse Gas Reporting Rule;
    --$55.5 million for Energy Efficiency/ENERGY STAR;
    --$30 million for Greenhouse Gas Permitting;
    --$6 million for Greenhouse Gas standards for Transportation 
            Sources;
    --$7.5 million for Greenhouse Gas New Source Performance Standards;
    --$215 million for Brownfield Remediation;
    --$6.3 million for Clean, Green and Healthy Schools;
    --$10.9 million for Sustainable Communities;
    --$6 million for Air Toxics;
    --$9.5 million for Community Water Priorities Program;
    --$241.1 million for State and Local Air Quality Grants;
    --$274.3 million for Water Pollution Control Grants; and
    --$21.9 million for Computational Toxicology Research.
    Thank you for reviewing our comments.
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network
    Thank you for the opportunity to submit testimony on the fiscal 
year 2011 appropriations to the Environmental Protection Agency (EPA). 
The Children's Environmental Health Network (CEHN) urges the 
subcommittee to support the EPA's Office of Children's Health 
Protection (OCHP), the Children's Environmental Health Research Centers 
of Excellence, the Office of Research & Development (ORD), EPA's school 
environmental health programs, the Pediatric Environmental Health 
Specialty Units (PESHU), and the National Children's Study (NCS). We 
urge full funding of all activities that advance healthy school and 
child care environments for all children, such as the relevant 
components of the Healthy Communities Initiative, including but not 
limited to the Clean, Green and Healthy Schools Initiative. We urge the 
subcommittee to support chemical policy reform by providing adequate 
resources for EPA oversight and regulation of these chemicals
    In brief, CEHN appreciates the wide range of priorities that you 
must consider for funding at the EPA. We urge you to give priority to 
those EPA programs that directly protect and promote children's health. 
In so doing, you will protect all populations as well as our 
environment.
    I am a pediatric deontologists and I currently serve as the Mary 
Gray Cobey Professor and Division Chief of Neonatology at the 
University of Maryland. I am submitting this statement as Chair of the 
Board of the CEHN. CEHN is a national organization whose mission is to 
promote a healthy environment and to protect the fetus and the child 
from environmental health hazards. CEHN was created to promote the 
incorporation of basic facts of pediatric environmental health into 
policy and practice. In general, children have unique vulnerabilities 
and susceptibilities to toxic chemicals. In some cases, an exposure 
which may cause little or no harm to an adult may lead to irreparable 
damage to a child.
    The world in which today's children live has changed tremendously 
from that of previous generations, including a phenomenal increase in 
the substances to which children are exposed. Every day, children are 
exposed to a mix of chemicals, most of them untested for their effects 
on developing systems. Many of these chemicals are readily passed 
across the placenta to the fetus, to the infant via breast milk or 
through skin, or via food, toys and other children's products. Many of 
these chemicals are also ingested in food and water or through the 
lungs.
    In addition to providing the necessary resources for the Federal 
programs and activities that help to protect children from 
environmental hazards, CEHN urges the subcommittee to also direct the 
EPA to assure that all of its activities and programs--including 
regulations, guidelines, assessments, and research--specifically 
consider children. Our traditional approaches have been to use a one-
size-fits-all template, and that template is usually the healthy adult 
male. The EPA's work must always assure that children and other 
vulnerable subpopulations are protected, especially poor children, 
minority children, farmworker children, and others at risk.
    We ask the subcommittee to direct the EPA to report on their 
activities to protect children from environmental hazards in child care 
settings as well as to assess the EPA's needs for assuring that 
children in these settings are protected from such hazards.
                                  ochp
    Since 1997, EPA's efforts to protect children from environmental 
hazards have been led by the OCHP, which was highly effective and well-
regarded. However, funding for OCHP has been level, at approximately $6 
million since its creation, and its resources were further diluted by 
the addition of new and unrelated missions, without any concurrent 
increase in resources.
    CEHN strongly supports additional resources dedicated to children's 
health for the office, and to restore the office's strong focus on 
children. We are especially supportive of the Clean, Green, and Healthy 
Schools Initiative, especially the interagency effort to integrate 
existing school programs including asthma, IAQ, chemical cleanout, 
green practices, and enhanced use of integrated pest management. We 
urge the subcommittee to provide funds above the proposed $6.3 million 
to OCHP for this Initiative. The program addressing the issue of PCB-
laden caulk in schools is also a priority.
     children's environmental health research centers of excellence
    The Children's Environmental Health Research Centers, jointly 
funded by the EPA and the National Institute of Environmental Health 
Sciences, play a key role in providing the scientific basis for 
protecting children from environmental hazards. With their modest 
budgets (unchanged over more than 10 years), these centers generate 
valuable research. A unique aspect of these centers is the requirement 
that each center actively involves its local community in a 
collaborative partnership, leading both to community-based 
participatory research projects and to the translation of research 
findings into child-protective programs and policies. Researchers have 
chosen to participate in this funding mechanism because of the ability 
to do interdisciplinary research, to break ground in a relatively new 
field and to be involved in the community--all things that are not easy 
to do using other grant mechanisms. The scientific output of these 
centers has been outstanding.
    The Congress recognized this last year, when it supported increased 
funding, resulting in the upcoming addition of a child care component 
and additional research. These goals call for a continued effort, yet 
the administration's fiscal year 2011 budget proposal did not continue 
this funding. We strongly urge that the subcommittee reinstate these 
funds and direct EPA to sustain this effort.
   school and child care environmental health: connected to healthy 
                              communities
    Millions of preschoolers enter care as early as 6 weeks of age and 
can be in care for more than 40 hours per week. Yet little is known 
about the environmental health status of our child care centers nor how 
to assure that they are protecting this important group of children. 
Environmental health is rarely if ever considered in licensing centers 
or training child care professionals.
    Each school day, about 54 million children and nearly 7 million 
adults--20 percent of the total U.S. population--spend a full week 
inside schools. Unfortunately, many of the Nation's 121,000 public and 
private K-12 school facilities are shoddy or even ``sick'' buildings 
whose environmental conditions harm children's health and undermine 
attendance, achievement, and productivity.
    No agency is authorized to intervene to protect children from 
environmental hazards in schools. The Occupational Safety and Health 
Administration does not protect schoolchildren. Thus, every day we 
require our children to spend hours in an environment where they and 
their parents have no options, alternatives or recourse if the 
environment is not healthy.
    Thus, CEHN urges full funding for the proposed Clean, Green and 
Healthy Schools Initiative in the EPA's fiscal year 2011 budget. Under 
this Initiative, EPA will co-lead an interagency effort in integrating 
existing school programs including asthma, indoor air quality, and 
enhanced use of integrated pest management. We urge the subcommittee to 
provide additional resources and direction to assure that the child 
care environment is also included in this Initiative.
    CEHN also supports other aspects of the Healthy Communities 
Initiative, particularly:
  --an additional $1.1 million for the Indoor Air Program for efforts 
        to improve children's health;
  --increased funding for the Pesticides Program to expand its work 
        with schools;
  --increased funding to address air toxics pollution focused on 
        children's environments, including $2.3 million for community 
        pilot programs
    CEHN urges the subcommittee to continue its support for EPA's 
existing healthy schools activities, such as the Indoor Air Quality 
Tools for Schools Program.
    We also urge the subcommittee to appropriate the $10 million 
authorized for EPA under the healthy schools provisions of the High 
Performance Green Buildings Act. This statute authorizes EPA to create 
Federal guidelines on school siting and (advised by the Centers for 
Disease Control and Prevention) school environmental health programs. 
This statute also authorizes an important study of the impacts of green 
schools on the health of children and communities.
                                epa ord
    The Clean, Green, and Healthy Schools Initiative is envisioned as 
an interagency as well as intra-agency effort, yet resources were not 
proposed for ORD involvement. We urge the subcommittee to strengthen 
Clean, Green, and Healthy schools by providing additional resources of 
$1.5 to $2 million to ORD so that the office can fund additional 
research to fulfill its role in this Initiative.
    CEHN urges funding for research to better understand how the school 
and child care environment (both physical factors and potential 
exposures) impacts the performance of children.
                                  ncs
    The NCS is examining the effects of environmental influences on the 
health and development of more than 100,000 children across the United 
States, following them from before birth until age 21. This landmark 
longitudinal cohort study--involving a consortium of agencies including 
the EPA--will be one of the richest research efforts ever geared toward 
studying children's health and development and will form the basis of 
child health guidance, interventions, and policy for generations to 
come.
    This study may be the only means that we will have to find answers 
to some key questions regarding links between exposures and health 
effects on children.
    A study of this scope is calls for the participation of multiple 
agencies. EPA's involvement has been limited by the lack of dedicated 
resources. We urge the subcommittee to provide dedicated funds of $1 
million or more in fiscal year 2011 to ensure that EPA has sustained 
funding for the necessary infrastructure for data access and the 
ability to collaborate with its partners on the NCS. EPA has specific 
expertise to offer and the NCS will benefit if the EPA has the ability 
to contribute.
                                 pehsus
    Funded by the EPA and the Agency for Toxic Substances and Disease 
Registry, the PEHSUs form a valuable resource network, with a center in 
each of the U.S. Federal regions. PEHSU professionals provide medical 
consultation to healthcare professionals on a wide range of 
environmental health issues, from individual cases of exposure to 
advice regarding large-scale community issues. PEHSUs also provide 
information and resources to school, child care, health and medical, 
and community groups to help increase the public's understanding of 
children's environmental health. PEHSUs assist policymakers by 
providing data and background on local or regional environmental health 
issues and implications for specific populations or areas. These 
centers, all based in universities, have done tremendous work, covering 
large geographic areas, on very limited budgets. We urge the Committee 
to fully fund EPA's portion of this program's fiscal year 2011 budget 
of $1.8 million.
    In conclusion, investments in programs that protect and promote 
children's health will be repaid by healthier children with brighter 
futures, an outcome we can all support. That is why CEHN asks you to 
give priority to these programs.
    Thank you for the opportunity to comment on these critical issues.
                                 ______
                                 
  Prepared Statement of the American Hiking Society, American Rivers, 
 Center for Biological Diversity, Chesapeake Bay Foundation, Defenders 
 of Wildlife, Earthjustice, Environment America, Environmental Defense 
 Fund, International Center for Technology Assessment, Lands Council, 
 League of Conservation Voters, Marine Conservation Biology Institute, 
 Marine Fish Conservation Network, National Audubon Society, National 
 Estuarine Research Reserve Association, National Wildlife Federation, 
   Natural Resources Defense Council, Oceana, Ocean Conservancy, Pew 
 Environment Group, Rails-to-Trails Conservancy, Riverkeeper, Southern 
    Environmental Law Center, Sierra Club, Southern Utah Wilderness 
                  Alliance, and The Wilderness Society
    Mr. Chairman and members of the subcommittee, we appreciate the 
opportunity to submit to you written testimony regarding fiscal year 
2011 appropriations for the Council on Environmental Quality (CEQ). The 
administration has requested $3,448,000 for fiscal year 2011. To 
increase CEQ's effectiveness and help to fulfill Congress' original 
intent in establishing the Council, we believe that an increase in that 
amount to $4,694,093 is warranted.
    CEQ was created by Congress in 1969 as part of the National 
Environmental Policy Act (NEPA), this country's ``environmental magna 
carta.'' Congress placed CEQ in the Executive Office of the President 
because it recognized that environmental issues warranted the same 
degree of attention at the highest levels of the executive branch as 
trade, economics, national security and other cross-cutting issues of 
top tier importance to the Nation. In the words of Senator Henry 
``Scoop'' Jackson, ``the Council will provide an institution and an 
organizational focus at the highest level for the concerns of 
environmental management. It will provide the President with objective 
advice and a continuing and comprehensive overview of the fragmented 
and bewildering Federal jurisdiction involved in some way with the 
environment.'' Congressional Record, Senate 40416, December 20, 1969.
    In NEPA, Congress gave CEQ the responsibility for, among other 
things:
  --advising the President on environmental issues;
  --developing and recommending to the President national policies to 
        improve environmental quality so that the nation can meet its 
        conservation, social, economic, health and other goals;
  --assisting in interagency coordination of the many departments and 
        agencies within the executive branch that implement or affect 
        environmental policies;
  --overseeing the implementation of the environmental impact 
        assessment process within the executive branch; and
  --identifying and interpreting environmental trends.
    In December 1970, the Environmental Protection Agency (EPA) was 
established as the result of President Nixon's use of Presidential 
reorganization authority. CEQ recommended that EPA be established to 
begin addressing responsibilities under the newly passed pollution 
control laws. The two agencies have distinctively different roles. 
CEQ's role involves directly advising the President on environmental 
issues, developing environmental and natural resources policy and 
ensuring interagency coordination, and interpreting Federal agencies' 
responsibilities under NEPA. As an office in the Executive Office of 
the President, it is positioned to resolve interagency disputes in a 
way that no line agency can do. It does not regulate the private 
sector, provide grants, run laboratories or undertake many of the 
important--but different responsibilities--carried out by EPA. CEQ's 
functions are distinct from EPA's just as the role of the National 
Security Council's is distinct from that of the Departments of Defense 
and State.
    Over the past 40 years, as shown in the chart below, CEQ's budget 
and staffing has fluctuated wildly. Between 1970 and 1981, staff levels 
were between 49 and 70 people. Since 1981, staff levels have ranged 
from 3 full-time employees to 32 employees. Clearly, the trend has been 
going the wrong way.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The understanding of the complexity of environmental and natural 
resource problems and their relationship to the social, economic and 
security needs of Americans has improved since the 1970's, but the 
challenges in developing effective and feasible policies to address the 
issue are much more daunting. We now know with greater certainty what 
we were beginning to understand when NEPA was passed--i.e., that our 
relationship with the environment is a synergistic one, and that how we 
affect the air, water, soil and wildlife around us in turn 
significantly affects us. The interrelationships between our economic 
and social activity and our well being and that of the other 
inhabitants of the planet challenge our ability to balance competing 
short and long term interests.
    In our view, an increased staff level is necessary to fulfill CEQ's 
responsibilities. Currently, the agency's budget allows for 24 staff, 
and the administration's request would allow for 26 staff. The increase 
over the administration's request that we are proposing would be the 
first step in ramping up CEQ's capacity and would allow for 
approximately 30 staff. This may seem like a large leap, but not when 
put in the context of either the nature or the number of environmental 
challenges. Nor is it out of line in an administrative context. Indeed, 
from fiscal year 2000 to fiscal year 2008, the U.S. Trade 
Representative Office's budget increased by 72.1 percent, the Office of 
Management and Budget by 22.8 percent and the Office of National Drug 
Control Policy grew by 15 percent. In contrast, CEQ's budget shrank by 
4.4 percent.
    Our understanding is that CEQ has indicated that the increased 
funding proposed in the 2011 President's budget would be used for 
positions relating to oversight of NEPA and to ocean policy issues. 
These are good and much needed choices, which we fully support. In 
addition, while the ultimate choice of how any additional positions 
would be used should be made by the Chair of CEQ with any applicable 
guidance from Congress, here are our thoughts on how additional 
positions might be used:
    Oversight of NEPA.--CEQ has unique responsibilities for oversight 
of the implementation of NEPA in the executive branch. It is the 
ultimate interpreter of the statute, a role the Supreme Court has 
acknowledged in several decisions, holding that the lower courts should 
give ``substantial deference'' to CEQ's interpretations. CEQ's most 
comprehensive interpretation of NEPA comes through its promulgation of 
regulations that implement the procedural requirements of NEPA. 40 
C.F.R. sections 1500-1508. Those regulations proscribe the process by 
which all departments and agencies implement the environmental impact 
assessment to their particular mission activities. From time to time, 
CEQ issues guidance interpreting various requirements of NEPA; indeed, 
there are three draft guidance documents out for public review and 
comment at present. Each department and agency publishes its own NEPA 
procedures adapted to its mission and those procedures are reviewed and 
approved by CEQ. CEQ grants alternative arrangements for compliance 
with its regulations in certain extraordinary circumstances and also 
has the authority to resolve certain procedural disputes between 
agencies in the context of NEPA compliance. There is also a formal 
dispute resolution process that can be invoked by the head of a 
department or agency. 40 C.F.R. section 1504 et seq.
    Further, from time to time, Congress passes particular requirements 
in respect to NEPA. A current example is section 1609(c) of the 
American Recovery and Reinvestment Act of 2009 that requires CEQ to 
report to Congress on the status and progress of NEPA reviews for 
Recovery Act funded projects. CEQ so far has submitted five reports to 
Congress, demonstrating that to date; NEPA has not been an impediment 
to implementation of these projects. The February 1, 2010 and May 3, 
2010 reports include information on how NEPA helped improve 
decisionmaking for particular actions.
    Finally, beyond the immediate drumbeat of the in-box, there is much 
that CEQ can and should do to improve the understanding of and 
implementation of NEPA among the public and agencies. The purpose of 
the NEPA process is not to produce paperwork, but to improve 
decisionmaking. There are real gains that could be made in 
effectiveness, both from an environmental and efficiency perspective, 
were CEQ to have the ability to provide additional oversight and 
guidance to the Federal agencies, and work with the state, tribal and 
local agencies that are often partners with Federal agencies in this 
context.
    For the past 10 years, there has been only one full time person 
devoted to NEPA oversight. Despite the incredibly hard work, long hours 
and admirable dedication and diligence demonstrated by that individual, 
no one person can meet all of these goals. There are over 85 Federal 
agencies that comply with NEPA and that turn to CEQ for assistance. The 
assistance requested may range from meeting analytical challenges in 
the face of new scientific or technological developments such as 
climate change or nanotechnology, addressing complex interrelationships 
of environmental, economic and public health issues, responding to 
emergency situations, consulting with agencies on legal issues that 
arise from time to time, and many other types of requests. CEQ very 
much needs additional staff in this area.
    Public Lands and Wildlife.--This country enjoys a wide variety of 
public lands and waters administered for a variety of purposes: 
national parks, national wildlife refuges, national forests, marine 
sanctuaries, national recreation areas, wild and scenic rivers, and 
national preserves, to name a few. Responsibility for administration of 
these public lands and waters is spread out through multiple agencies, 
including the National Park Service, the Forest Service, the Bureau of 
Land Management, the U.S. Fish and Wildlife Service and the Bureau of 
Reclamation. Further, two agencies, the U.S. Fish and Wildlife Service 
and the National Oceanic and Atmospheric Administration, share 
responsibilities for protecting endangered species. It is no surprise 
then that from time to time there are different interpretations of 
responsibilities and conflicts arise between agencies. Agencies 
frequently call on CEQ to consider and resolve these issues. Agencies 
often welcome this role of CEQ so that progress can be made on long-
standing issues. CEQ's current level of staffing in this area is, in 
our view, inadequate to meet these challenges.
    Global Environmental Issues.--When Congress passed NEPA in 1969, it 
recognized ``the worldwide and long-range character of environmental 
problems'' and directed agencies to lend support to initiatives and 
programs ``to maximize international cooperation in anticipating and 
preventing a decline'' in the world's environment. Today, we recognize 
a wide range of problems that are best addressed through treaties, 
international agreements and bilateral and multilateral initiatives. 
The issues include climate change, of course, but also include 
deforestation, desertification, acidification of the oceans, decline of 
species and many other challenges. Environmental expertise is needed 
within CEQ to assist in the development and coordination of policy in 
this complex area.
    Thank you for the opportunity to offer this testimony. We hope that 
the Subcommittee will recognize the needs as outlined above and act 
accordingly. We would be pleased to address any issue in further 
detail.
                                 ______
                                 
    Prepared Statement of the Chippewa Flowage Area Property Owners 
                              Association
    Madam Chairman and honorable members of the subcommittee: The 
Chippewa Flowage Area Property Owners Association (CFAPOA) was 
incorporated in early 1983 by a small group of citizens who had grown 
increasingly concerned about proposed alterations in the way that the 
lands and waters of Wisconsin's largest semi-wilderness area would be 
managed. The Articles of Incorporation propose ``to promote . . . and 
protect.'' The Bylaws Preamble identifies major goals as being ``to 
keep the Chippewa Flowage area clean and safe for all peoples; to 
protect the environment; . . . to pursue . . . objectives that . . . 
benefit this . . . reservoir.'' While the name is still ``Property 
Owners'', membership is open to anyone who resides within 2 miles of 
the Flowage for 30 days anytime during the year. The CFAPOA has engaged 
in a number of efforts pursuant to its stated mission. Habitat 
improvement, community cleanups, water-quality monitoring, invasive 
species research and control, and the $1.1 million Chippewa Islands 
Project are just some of the accomplishments achieved in the past few 
years. The multi-jurisdictional co-operation of the U.S. Forest 
Service, the Lac Courte Oreilles Ojibwe, the Wisconsin Department of 
Natural Resources, and the local citizens have provided a model in 
partnership that has been acclaimed by prestigious institutions.
    I appreciate the opportunity to present this testimony in support 
of the Chippewa Flowage project in Wisconsin. I am advised that an 
appropriation of $4.5 million from the Forest Legacy Program (FLP) is 
needed in order to complete the protection of this 18,259-acre 
forestland property. I am thankful that the project was included in the 
President's budget request for fiscal year 2011 at a funding level of 
$2.5 million. That is so greatly appreciated. But, I am told the 
project can be completed this year with an appropriation of $4.5 
million.
    The diversity of wood/species types within Wisconsin's northern 
forest is rarely matched anywhere in the United States. The Northwoods 
remains blessed with stands of aspen, balsam, spruce, and a variety of 
pine, hardwoods such as red oak, maples, hemlock, and birch, and swamp 
forests containing black spruce, tamarack, black ash, and white cedar. 
The combination of forestland with an abundance of lakes, rivers, and 
streams offers some of the best recreational opportunities in the 
country, especially fishing and canoeing. Recognizing the unique 
attributes of its forests, the State of Wisconsin is focused on forest 
protection and easement acquisitions that benefit recreational and 
natural resources. The great attraction of easements is that several 
times as much acreage can be effectively protected for the same amount 
of money. The Wisconsin Department of Natural Resources has proposed 
FLP projects over the last several years to implement this critical 
protection effort.
    I believe that in fiscal year 2010, Congress appropriated $1.5 
million to the FLP and the State of Wisconsin committed $2.5 million in 
matching funds toward the protection of this more than 18,000 acres of 
outstanding conservation easement lands. An additional $4.5 million 
from the FLP is needed in fiscal year 2011 to finish the project. The 
easement is an important opportunity to create a unified block of more 
than 1 million acres of protected forest and natural lands in the 
Chippewa Flowage watershed, which is an ecological gem. The Chippewa 
Flowage is one of the wildest lakes in Wisconsin, drawing 
recreationists from around the world for its fishing. More than 30,000 
acres within the flowage area are managed jointly by the Wisconsin 
Department of Natural Resources, the U.S. Forest Service, and the Lac 
Courte Oreilles Band of Lake Superior Chippewa (LCO). The western 
boundary of the easement property adjoins nearly 24,000 acres of 
primarily natural LCO tribal land. The property extends the critical 
migratory corridor surrounding the Chequamegon portion of the 
Chequamegon-Nicolet National Forest, which covers 858,400 acres in six 
northwestern Wisconsin counties.
    Many natural resources used by the Lac Courte Oreilles band 
traditionally, and currently, are found on the property and adjoining 
tribal lands, including birch and pole oak for wigwam poles, morel 
mushrooms, and abundant wildlife for trapping and hunting. Pipestone 
rock, used to craft peace pipes, holds traditional significance for the 
LCO band and is present in the northwest corner of the property. 
Benefits for surrounding communities include water supply and watershed 
protection. The Village of Radisson's municipal water flows from parts 
of this property. The Federal listed endangered Gray Wolf is known to 
frequent the property, which also contains State Species of Concern, 
State Threatened, and State Endangered species.
    The Chippewa Flowage is a major tourist destination, helping to 
generate $8 million annually in Wisconsin from fishing, hunting, and 
wildlife viewing. The Chippewa Flowage is considered a world-class 
fishery for muskellunge and walleye. Public access on this property 
will continue to support the local economy. Forest-based recreation 
accounts for about $5.5 billion of the $14 billion spent on recreation 
in the State. The Wisconsin Northwoods is also a common destination for 
migratory and forest interior birdwatchers. Wisconsin ranks third in 
the Nation for bird watching, which adds $1 billion annually to the 
State's economy. This property delivers wood to 66 different customers; 
products include coated paper, corrugated packaging, cabinets, lumber, 
moldings, paneling, and more. If this property is not protected by a 
FLP easement, it will be divided and sold like other nearby 
timberlands, thereby eliminating one of the sources of fiber that makes 
jobs in the mills in Radisson, Birchwood, Hayward, and Drummond, 
viable.
    The property will also offer unique values for addressing climate 
change, as it holds important forestlands and wetlands containing large 
carbon stores that will help mitigate climate change. Carbon 
sequestration on the lands will be further enhanced by the sustainable 
forestry guidelines of the FLP easement. The project lands also offer 
significant benefits for climate adaptation: public-private partnership 
efforts are underway in the region to protect key habitat refugia and 
habitat connectivity in response to anticipated climate shifts. The 
project lands will be essential to maintain connectivity among the 
large, conserved habitat blocks in the region. The property also 
extends and protects a critical migratory corridor surrounding the 
national forest, which will help wildlife important to the State's 
economy adapt to a changing climate.
    Supporting parties include Chippewa Flowage Area Property Owners 
Association, Couderay Waters Regional Land Trust, Gathering Waters 
Conservancy, Lac Courte Oreilles Tribal Governing Board, Ruffed Grouse 
Society, Sawyer County Board of Supervisors, Town of Hunter, Town of 
Ojibwa, Chequamegon-Nicolet National Forest, Wisconsin Conservation 
Congress, Wisconsin Representative Gary E. Sherman, and Wisconsin State 
Senator Bob Jauch.
    The protection of these forestlands will have significant local and 
regional benefits. An appropriation of $4.5 million in fiscal year 2011 
from the FLP will complete the effort to conserve 18,259 acres of high-
quality Wisconsin forest. Protecting this large block of land within 
the checkerboard of public and private ownership is an exciting 
opportunity to create a unified area of 1 million protected acres that 
can support the local economy by preserving vast wildlife habitat, 
helping climate mitigation and adaptation, ensuring public access for 
recreation, and maintaining sustainable forestry practices, while at 
the same time protecting the watershed and semi-wilderness esthetic in 
the historically and culturally significant southeastern quadrant of 
Wisconsin's third largest inland water resource.
    I ask you to do all you can to ensure that this worthwhile program 
is funded adequately in fiscal year 2011 and that the Chippewa Flowage 
project receives $4.5 million in fiscal year 2011.
    I want to thank the chairman and all the members of the 
subcommittee for this opportunity to testify on behalf of this 
nationally important protection effort in Wisconsin, and I truly do 
appreciate your consideration of this funding request.
                                 ______
                                 
       Prepared Statement of the Coalition for Healthier Schools
    Dear Chairman Feinstein and Ranking Member Senator Alexander: On 
behalf of the Coalition's thousands of members and supporters across 
the country and tens of millions of children whose health, learning and 
behavior are daily impacted by dank, dark, dirty, and polluted 
conditions of our PreK-12 public schools, we urge you to fund the EPA's 
``Clean Green Healthy Schools Initiative'' at $8.2 million, $2 million 
above the President's $6.2 million request in the fiscal year 2011 EPA 
request.
    The national SICK SCHOOLS 2009 collaborative report assembled by 
more than 30 contributing public interest nonprofits, analyzed Federal 
data from EPA, Education, and CDC, as well as peer reviewed published 
sciences in healthy school environments. Result: at least 60 percent of 
all 55 million school children endure lower test scores and poor 
attendance due solely to the environmental conditions of their schools. 
See www.healthyschools.org/sickschools.
    The President's fiscal year 2011 EPA budget supports EPA's critical 
Office of Children's Health Protection and the agency's voluntary 
schools-focused programs that help local schools and districts to 
create healthier school environments for all children. EPA will co-lead 
a Federal interagency effort to integrate existing voluntary schools 
programs across the agencies, including asthma, indoor air quality, 
chemical clean outs, green practices (highly cost-effective as New York 
State has learned) and enhanced use of integrated pest management; 
promote safe handling and management of PCB-containing caulk in schools 
and build regional technical support and outreach; assesses the impacts 
of noncompliance with existing environmental laws on health risks in 
schools; and increase technical assistance on voluntary EPA guidelines 
under the Energy Independence Security Act (EISA of 2007) regarding 
school siting and other school environmental concerns.
    We also urge you to support increases for EPA's Healthier Indoor 
Air and for school and community air toxics monitoring, and for 
expanding EPA's asthma programs and pesticide-use reductions with 
schools. Children are 100 percent of our future and promoting healthy 
learning environments is a task that EPA is uniquely poised to tackle, 
in collaboration with Education and CDC.
    A copy of the national Coalition for Healthier Schools Position 
Statement is attached, along with a list of its national supporters.
position statement and recommendations . . . providing the platform and 
         the forum for school environmental health . . . since
    Each school day, 55 million children and 7 million adults--that's 
20 percent of the total U.S. population and 98 percent of all 
children--spend their workdays inside school buildings. Unfortunately, 
too many of our Nation's 125,000 public and private K-12 schools are 
``unhealthy'' buildings that can harm their health and hinder learning. 
Today, clear and convincing research shows that improving specific 
factors such as school indoor environmental quality improves 
attendance, academic performance, and productivity.
About children
    Children are more vulnerable than adults to environmental hazards 
because they're smaller, have developing organs, and breathe more air 
per pound of body weight. They cannot identify hazards. Adverse 
exposures and injuries during childhood may have a lifetime impact. See 
www.epa.gov/children.
School factors affecting health
    Many school environmental factors can affect the health of children 
and employees. Too many schools are sited near industrial plants or 
toxic waste sites; some are sited on abandoned landfills. Many school 
facilities are poorly maintained. Schools are more densely occupied and 
more intensively used than office buildings, magnifying problems. 
Thousands of schools are severely overcrowded, which compromises 
ventilation systems, acoustics, food service, recess, and sanitation 
and lavatories. Children also spend extra hours in vehicles or buses 
when their schools are beyond safe walking and biking distances.
    The U.S. EPA has estimated that up to half of all schools have 
problems with indoor environmental quality. Children and staff are a 
affected by: polluted indoor air and outdoor air, including toxic 
chemical and pesticide use; chemical spills; mold infestations; 
asbestos, radon, lead in paint and drinking water; inadequate chemical 
management; poor siting, design; hazardous materials purchased and 
stored onsite; and heavy metals and other toxics, such as mercury, CCA, 
PCBs.
    Results of unhealthy schools:
  --60 percent of all children endure health and learning problems due 
        SOLELY to the conditions of their schools:
  --poor health and absenteeism;
  --asthma, allergies, headaches, fatigue, nausea, rashes and chronic 
        illnesses;
  --more medication use by children and staff;
  --learning and behavior difficulties;
  --liability for school districts;
  --lower achievement, and reduced revenues due to poor attendance.
Coalition Position
    When the Nation is committed to raising academic performance and 
honoring each child's potential, and to improving the environment of 
every neighborhood, we have a moral obligation to protect all children 
and to accommodate children who already have impairments, and 
personnel.
    For children, for health, for environment, for education, and for 
communities, we support:
  --The President's fiscal year 2011 budget for EPA's Healthy Schools 
        Initiative, plus $2 million
  --Full staffing and resources for U.S. EPA children's health 
        protection and schools programs (at greater than fiscal year 
        2006 levels)
  --Full funding and staffing for Federal agencies to coordinate 
        Federal strategy to address healthy school environments (CDC, 
        EPA, Education, Energy, Labor, Homeland Security), including 
        high performance school design, siting, construction, and the 
        greening of schools with preventive maintenance (IAQ, IPM, 
        green cleaning, and more)
    --Fund the Healthy High Performance Schools (Subtitle E) of the 
            Energy Independence and Security Act of 2007
    --Fund the Healthy and High Performance Schools Act in No Child 
            Left Behind
  --Fund school construction/renovation and urgent repairs, consistent 
        with enacted laws promoting healthy school environments.
    This message sponsored by: American Association on Intellectual and 
Developmental Disabilities; American Federation of State, County, and 
Municipal Employees; Alliance for Healthy Homes; American Lung 
Association; American Public Health Association; Apollo Alliance; 
Beyond Pesticides; Children's Environmental Health Network; Healthy 
Children-Healthy World; Connecticut Foundation for Environmentally Safe 
Schools; Environmental Defense; Funders Forum on Environment and 
Education; Healthy Kids: The Key to Basics (MA); Green Schools 
Initiative/CA; Healthy Schools Network; Improving Kids Environment 
(IN); Initiative for Children's Environmental, Health; Learning 
Disabilities Association of America; Marin Golden Gate Learning 
Disabilities Association (CA); Massachusetts Healthy Schools Network; 
National Center for Environmental Health Strategies; National Education 
Association; National Education Association Health Information Network; 
National PTA; Natural Resources Defense Council; New Jersey Work 
Environment Council; New Jersey Environmental Federation; Oregon 
Environmental Council; Physicians for Social Responsibility; Preventing 
Harm Minnesota; Public Education Network; Twenty-first Century Schools 
Fund (DC); West Harlem Environmental Action; and League of Conservation 
Voters, Washington, DC; National Clearinghouse for Educational 
Facilities; National Association of Pediatric Nurse Practitioners; and 
over 200 more organizations nationwide.
                                 ______
                                 
 Prepared Statement of the California Industry and Government Coalition
    Mr. Chairman and members of the subcommittee: On behalf of the 
California Industry and Government Coalition for the Kern County Valley 
Floor Habitat Conservation Plan (KCVFHCP), we are pleased to submit 
this statement for the record in support of our funding request for the 
Interior, Environment, and Related Agencies appropriations bill for 
fiscal year 2011.
    First, the Coalition supports the President's budget request for 
the Department of the Interior's Cooperative Endangered Species 
Conservation Fund, especially funding for Habitat Conservation Plan 
land acquisition.
    Second, the Coalition urges the subcommittee to appropriate 
additional funding for land acquisition above the funding requested by 
the President. The additional funding requested by the Coalition 
anticipates that $1 million will be needed by the Kern County program 
to be used for purposes of acquiring and maintaining habitat preserves.
    The Coalition's request is supported by the timely need to 
implement the KCVFHCP. The county's local oil and gas production 
industry and water districts have contributed more than $550,000 to the 
development of this program. In 1997, the U.S. Fish and Wildlife 
Service (FWS) allocated $500,000 of Federal Endangered Species Act 
section 6 funds to assist in program implementation. The California 
State Government has authorized $1 million to augment the Federal 
funds. In order to secure the $3 million total necessary to assist in 
the implementation of the plan, we will require $1 million for fiscal 
year 2011 and $500,000 for fiscal year 2012.
    The Coalition requests that the subcommittee appropriate the 
maximum possible amount for this program, so that the funding pool can 
accommodate our request and need. We are confident that the plan's 
merits and urgency support this request.
    Kern County's program is unique from other regions in the Nation in 
that it contains some of the highest concentrations of plant and animal 
species protected by the Endangered Species Act (ESA) within the 
continental United States. The region is occupied by 11 wildlife 
species and 14 plant species covered as threatened or endangered under 
the program. The potential for conflict with the Federal ESA is great 
in Kern County because of the extensive oil and gas production 
activities, water conveyance efforts and the urbanization that is 
occurring. Since Kern County is the top oil producing county in the 
Nation and experiencing rapid urban growth, potential conflicts with 
the ESA and their resolution through a proactive conservation program 
has significant national importance.
    In recognition of the conflicts posed to economic growth by Federal 
and State endangered species laws, a joint agency Memorandum of 
Understanding was entered into by the FWS, Bureau of Land Management, 
California Energy Commission, California Division of Oil and Gas and 
Geothermal Resources, California Department of Fish and Game, and Kern 
County. The participating agencies agreed to develop a unified 
conservation strategy with the goal of providing a streamlined and 
consistent process of complying with State and Federal endangered 
species laws, yet at the same time allow important industry activities 
such as oil and gas, water conveyance and other industry activities to 
continue.
    Preparation of the KCVFHCP began in 1989 and involved a number of 
Federal, State and local government agencies, as well as the oil and 
gas industry, agricultural interests, utilities, and environmental 
groups.
    KCVFHCP is one of the largest and most diverse endangered species 
conservation programs under development in the Nation encompassing more 
than 3,110 square miles. The program represents a departure from 
traditional endangered species conservation programs which utilize 
prohibitory controls to assure conservation of species habitat. 
Instead, it is based on an incentive-based system of selling or trading 
habitat credits in an open market. This innovative approach, for the 
first time, provides landowners with real incentives and more 
importantly, the ability to choose how best to manage their own private 
property. The KCVFHCP is in the final stages of preparation. The HCP 
document is completed. An environmental impact statement is being 
prepared for public review in the near future. Final approval will 
occur in 2011.
    Numerous agencies, in concert with the State of California and 
local government entities, as well as the private oil and gas industry 
have contributed funding, time and other resources toward developing 
the KCVFHCP. The KCVFHCP program will be completed in 2011, provided 
there is the necessary Federal funding for the acquisition of habitat 
to mitigate for oil and gas operations and development. Additional 
funding is critical to completing the Habitat Conservation Plan (HCP). 
This is one of the final steps necessary to implement the conservation 
strategy. Because of the extensive private, local and State government 
financial support that went into the development of this program, 
Federal participation in program implementation will demonstrate that 
the burden of ESA compliance is not being placed exclusively on private 
property owners. Program funding will also contribute to eventual 
species recovery.
                         program funding needs
    In order for the KCVFHCP to be implemented, the program requires 
funding in the amount of $1.5 million (augments the $1.5 million in 
State and Federal funding received in 1997) that could be funded in 
increments over the first 2 years of the program. The purpose of this 
funding is described as follows:
Oil Development Issue
    A mitigation strategy has been devised that is intended to 
acknowledge existing oil field activities within Kern County. The 
strategy proposes to acquire 3,000 acres of endangered species habitat 
to mitigate for species loss resulting from oil field development 
outside of established oil field production areas, but within proximity 
of those areas. This is to allow for reasonable expansion of oil field 
activities over the life of the HCP program. The program strategy 
allocates $3 million for acquisition and perpetual maintenance of 
species reserve areas. With this type of strategy, oil field expansion 
activities would be provided for in the program. This strategy would be 
of great benefit to the small independent oil and gas companies within 
the program area.
Urban Development/County Infrastructure Issue
    The conservation program includes an urban development/county 
infrastructure mitigation strategy that mitigates for species habitat 
loss through the use of an incentive-based system of selling or trading 
habitat credits in an open market. This innovative program will add 
market value to land that is needed by project proponents to comply 
with endangered species laws which will encourage the owners of such 
properties to offer lands for the benefit of species conservation. 
Protected species of plants and animals will benefit from a program 
that promotes private property owners to conserve permanent habitat 
preserves consistent with the objectives of the ESA.
Water District Activity Issue
    A water district strategy is included in the program to address 
covered species protection due to the construction of new facilities 
and the operation and maintenance of existing water management and 
conveyance facilities. The covered species will benefit from reduced 
and less intrusive operation and maintenance measures than have been 
conducted historically due to concerns for conflicts with endangered 
species laws.
Federal Funding Support Will Augment Local Government and Private 
        Industry Efforts To Comply With the Endangered Species Act
    The $1.5 million required for the oil field strategy would help 
contribute to satisfying the program's endangered species conservation 
goals, while also providing for continued economic growth of Kern 
County's oil and urban development activities. Protected species would 
benefit from a comprehensive long-term program that promotes the 
creation of permanent habitat preserves.
    Numerous private businesses, in concert with the State of 
California and local government entities, are attempting to do their 
part, and we come to the appropriations process to request assistance 
in obtaining a fair Federal share of financial support for this 
important effort. This unique cooperative partnership involving State 
and local government, as well as private industry, has contributed 
substantial funds to date, to assist in the development of this 
program.
    The California Industry and Government Coalition appreciates the 
subcommittee's consideration of this request for a fiscal year 2011 
appropriation to support implementation of this significant program.
                        undersigned organization
    Kern County Valley Floor Habitat Conservation Plan; Western States 
Petroleum Association; Independent Oil Producers Association; 
Occidental of Elk Hills, Inc.; and Buena Vista Water Storage District
                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma
    On behalf of Chief Gregory E. Pyle, of the Great Choctaw Nation of 
Oklahoma, I extend to you the support of the people of the Choctaw 
Nation to work with you in addressing the priority issues of Contract 
Support Costs (CSC), Contract Health Services, (CHS) and Sanitation 
Facilities Construction (SFC). Thank you Chairwoman Feinstein for 
allowing the Choctaw Nation of Oklahoma to submit written testimony on 
these needs.
                                 issue
    CSC Funding.--$99.3 million in fiscal year 2010 and $100 million in 
fiscal year 2011.
    The fiscal year 2010 final appropriation provides a $116 million 
increase for CSC and signals an end to a sad chapter of neglect for 
Indian Self-Determination (ISD) and Self-Governance (SG). The growth of 
SG compacting was seriously undermined from 2002 through 2009, by the 
failure to pass adequate funding increases, to not only support 
existing contractors, but those who wanted to participate in SG 
opportunities. SG tribes appreciate the fiscal year 2010 and fiscal 
year 2011 support of the administration and Congress to address the CSC 
funding shortfall and acknowledge the commitment to sustain and expand 
ISD. The well-documented achievements of ISD and SG policies have 
consistently improved service delivery, increased service levels, and 
strengthened tribal governments, institutions, and services for Indian 
people.
    It is estimated that the CSC shortfall will be $99.3 million in 
fiscal year 2010 and $100 million in fiscal year 2011. The chronic 
underfunding of CSC represents the single greatest impediment to the 
expansion of tribal SG. CSC funding is vital to support the 
infrastructure needed to operate IHS programs. The present shortfall 
creates a disincentive for tribes to pursue SG compacts, and diminishes 
available healthcare funding as tribal budgets must absorb the 
shortfall amounts. Adequate CSC funding assures that tribes, under the 
authority of their IHS contracts and compacts, have the ability to 
deliver the highest-quality healthcare services to their members. 
Tribal programs have significantly increased the quality and level of 
services in their health systems compared to direct service programs. 
Failing to adequately fund CSC defeats the very program that has most 
improved health conditions for American Indians and Alaska Natives. 
Finally, underfunding CSC disproportionately hurts SG/ISD tribes 
because it protects direct service operations from sharing in overall 
funding reductions and limitations. And again, underfunding CSCs costs 
jobs in Indian country.
    Recommended Action.--We strongly urge consideration of this line 
item, and recommend an increase of $99.3 million in fiscal year 2010 
(by supplemental appropriations) and $100 million in fiscal year 2011 
to alleviate the shortfall for current contracting and compacting with 
IHS. To the extent fully funding CSC in fiscal year 2011 is deemed 
infeasible, the Choctaw Nation recommends that a plan be developed by 
the administration and implemented immediately to sustain CSC funding 
in the appropriations process by eliminating the IHS CSC shortfall over 
a defined period of time. The objective would be to (1) annually 
provide sufficient CSC increases to adequately cover expanded CSCs 
associated with program increases and inflation ($45.8 million in 
fiscal year 2011 and a similar sum in fiscal year 2012, and (2) include 
an additional CSC increase to phase-out the overall shortfall in 3 
years (by adding $35 million to the $45.8 million).
    Pacing increases in this manner would permit the administration to 
fulfill its commitment to support ISD and SG in a responsible manner 
that reflects the current difficult fiscal environment. It will allow 
tribal governments to support the administration and congressional 
efforts currently underway to create jobs in the most severely 
impoverished parts of the country. If these increases begin in fiscal 
year 2012, it will eliminate the shortfall entirely in the fiscal year 
2014 budget (after which annual increases would drop back to cover 
future inflationary, program increase, and ISD requirements).
    Finally, the administration should budget for CSC requirements 
associated with future IHS budget increases. For instance, today any 
new program dollar requires a matching increase of 13.5 cents in 
contract support costs, because the CSC requirement is an average 25 
percent of each direct service dollar that is under contract, and 54 
percent of all IHS service dollars are presently under contract. 
Developing appropriations increases in the future along these lines 
will prevent any future expansion of the historic CSC shortfall. Once 
that shortfall is eliminated (as proposed above) this approach will 
guard against any recurrence of shortfalls in the future.\1\
---------------------------------------------------------------------------
    \1\ Taken from the Tribal Self Governance Strategic Plan and 
National Priorities for the Obama Administration and the 111th 
Congress, 2nd Session, 2010-2011, updated February 2010.
---------------------------------------------------------------------------
                                  chs
    CHS is the most complex service delivered by the Indian Health 
Service (IHS), Tribally Operated Health Program (TOHP) healthcare 
delivery system. CHS is designed to refer patents and reimburse 
providers outside the IT system for medical services provided to 
American Indian/Alaska Natives (AI/AN) patients. CHS services consist 
of those services not provided by the TOHP hospitals and clinics.
    IHS and TOHP are taking positive steps to improve the way we 
deliver care in the CHS program. Dr. Yvette Roubideaux, Director of the 
IHS, will soon form a new workgroup to review the CHS program and 
initiate a ``best practices'' process that will allow the sharing of 
successful programs. We are heading down a positive road and we applaud 
the director for listening to our concerns and seeking a process to 
address the needs of Tribal health providers.
    The fiscal year 2010 appropriation from Congress for CHS was a good 
faith beginning. The $117 million increase is very much appreciated. 
The large problem with CHS is that no one is sure what the dollar 
figure is to fully fund this program. It is not just the total of 
dollars spent, plus denied referrals, plus deferred referrals. We know 
of providers who do not submit referrals because they know they will 
never meet the criteria for payment. So IHS and tribes must come up 
with a formula to provide Congress with a true number.
    Until this amount can be provided to Congress, all we know is that 
the program is woefully underfunded. The Choctaw Nation of Oklahoma 
requests that Congress support the $83 million increase in the 
President's budget request for CHS in fiscal year 2011. Also, we 
strongly recommend that the funding methodology used in fiscal year 
2010 be used to distribute the funds.
                                  sfc
    In mainstream America it is difficult to imagine citizens living 
without access to clean water or waste disposal facilities; after all 
it is 2010. Yet in many areas where AI/ANs reside, this is the rule 
rather than the exception. We know this is a fact in many of the 
reservation areas, but it is also a fact in rural Oklahoma. The 
southeast corner of Oklahoma is the homeland for the Choctaw Nation. It 
is the size of Vermont. Some Choctaw members and other Indians live in 
small towns and communities served by rural water districts or city 
systems, but most live in homes far from major highways and 
communities. The terrain is rough, distances are significant, landscape 
is mountainous with many large trees. Many of our citizens do not have 
access to the most basic of services. Then we question, why are our 
people sicker than the non-Indian population?
    Speaking specifically for the Oklahoma City area, IHS, SFC (and 
this is typical for all areas of IHS) we are unnoticed and underfunded. 
SFC is preventive in nature and is not prioritized as a health delivery 
need by many tribal leaders and tribal health directors. it is hard to 
compete with cancer, diabetes, and heart disease. It is a major need in 
our system.
    The Oklahoma City area, IHS covers Oklahoma, NE Kansas, SE 
Nebraska, and one tribe in Texas. The Area Sanitation Deficiency System 
(SDS) is a prioritized list of needed water, sewer, and solid waste 
projects. In November 2009 the SDS indicated a need of $77 million; the 
SFC funding was $7,113,000. The priority list grows at a much higher 
rate than the appropriations. Within the Oklahoma City Area, the IHS 
and tribal programs will begin a canvassing process throughout Indian 
country to identify a true unmet need. We anticipate the unmet need 
will actually triple once this process is completed.
    The President's 2011 budget request for SFC is $97,710,000, an 
increase of only $1,853,000 more than 2010 which was equal to the 2009 
level. We are requesting that Congress increase the SFC budget line 
item $7,000,000 more than the President's mark so that we can begin to 
close the gap in this important service.
    Mandatories.--Provide $474 million for IHS mandatory, inflation and 
population growth increase to maintain existing health care services.
    Mandatory costs increases are necessary to maintain the current 
level of services. These ``mandatories'' are unavoidable and include 
medical and general inflation, pay costs and population growth. 
Maintaining current services is a fundamental budget principle. Failure 
to do so would result in cuts in healthcare and delivery. We estimate 
the current services need in fiscal year 2011 is $474 million.
    Office of Tribal Self-governance.--Increase $5 million to the IHS 
Office of Tribal Self-Governance
    In 2003, Congress reduced funding for this office by $4.5 million, 
a loss of 43 percent from the previous year. In each subsequent year, 
this budget was further reduced due to the applied congressional 
rescissions. As of 2010, there are 330 SG tribes managing approximately 
$1.2 billion in funding. This represents 57 percent of all federally 
recognized tribes and 33 percent of the overall IHS funding. The SG 
office supports tribes operating programs under the Tribal Self-
Governance Amendments of 2000. The SG process serves as a model program 
for Federal Government outsourcing, which builds tribal infrastructures 
and provides quality services to Indian people.
    The Choctaw Nation supports the fiscal year 2011 budget requests 
included in the National Tribal Self-Governance Strategic Plan and 
Priorities, by the National Indian Health Board and by the National 
Congress of American Indians.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    Support for fiscal year 2011 Federal funding of $5.9 million for 
the Department of the Interior--Bureau of Land Management (BLM) to 
assist in the Colorado River Basin Salinity Control Program, with 
$1,500,000 to be designated specifically to identified salinity control 
efforts.
    This testimony is in support of fiscal year 2011 funding for BLM 
for the subactivity that assists title II of the Colorado River Basin 
Salinity Control Act (Public Law 92-500). This successful and cost-
effective program is carried out pursuant to the Colorado River Basin 
Salinity Control Act and the Clean Water Act (Public Law 92-500).
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California and the other six Basin States through the 
Colorado River Basin Salinity Control Forum (Forum), the interstate 
organization responsible for coordinating the Basin States' salinity 
control efforts, established numeric criteria in June 1975, for 
salinity concentrations in the River. These criteria were established 
to lessen the future damages in the Lower Basin States, as well as, 
assist the United States in delivering water of adequate quality to 
Mexico in accordance with Minute 242 of the International Boundary and 
Water Commission. California's Colorado River water users are presently 
suffering economic damages in the hundreds of million of dollars per 
year due to the River's salinity.
    The BLM's budget justification document has stated that the BLM 
continues to implement on-the-ground projects, evaluate progress in 
cooperation with the U.S. Bureau of Reclamation (USBR) and the U.S. 
Department of Agriculture (USDA), and report salt retaining measures in 
order to further the Plan of Implementation of Federal Salinity Control 
Program in the Colorado River Basin. The BLM budget, as proposed in the 
BLM budget justification document, calls for five principal program 
priorities within the Soil, Water, and Air Management Program. One of 
the priorities is reducing saline runoff in the Colorado River Basin to 
meet the interstate, Federal, and international agreements to control 
salinity of the Colorado River.
    As you are aware, BLM is the largest landowner in the Colorado 
River Basin. Due to geological conditions, much of the lands that are 
controlled and managed by the BLM are heavily laden with salt. Past 
management practices have led to human-induced and accelerated erosion 
processes from which soil and rocks, heavily laden with salt have been 
deposited in various stream beds or flood plains. As a result, salts 
are dissolved into the Colorado River system causing water quality 
problems downstream.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by the USBR through its Basin-wide Program and by the 
USDA through its on-farm Environmental Quality Incentives Program.
    In keeping with the congressional mandate to maximize the cost-
effectiveness of the salinity control program, the Advisory Council at 
its meeting in October 2009 in Phoenix, Arizona, recommended that 
Congress appropriate $5,900,000 to BLM in fiscal year 2010 for 
activities that help control salt contributions from BLM managed lands 
in the Colorado River Basin. In the past, BLM has used $800,000 of this 
funding for proposals submitted by BLM staff to the BLM's salinity 
control coordinator for projects that focus on salinity control. The 
Colorado River Basin Salinity Control Advisory Council report states 
that the BLM has now identified projects that in fiscal year 2011 could 
use $1.5 million. The Colorado River Board requests that Congress 
appropriate $5,900,000 to BLM in fiscal year 2011. The Colorado River 
Board supports the Advisory Council's recommendation and urges the 
subcommittee to specifically designate $1,500,000 for the Colorado 
River Basin Salinity Control Program as has been the direction to BLM 
from the subcommittee in past years.
    Since the congressional mandates of more than two decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. Reclamation estimates that the quantified economic impacts and 
damages to water users in the United States alone is about $376 million 
per year. However significant unquantified damages also occur. For 
example, damages can be incurred related to the following activities:
  --A reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are an additional $75 million damages within the 
United States. In addition, the Federal Government has made significant 
commitments to the Republic of Mexico and to the seven Colorado River 
Basin States with regard to the delivery of quality water to Mexico. In 
order for those commitments to be honored, it is essential that in 
fiscal year 2011, and in future fiscal years, that the Congress 
provides adequate funds to BLM for its activities related to salinity 
control in the Colorado River Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California, 
including municipal, industrial, and agricultural water users in 
Imperial, Los Angeles, Orange, Riverside, San Bernardino, San Diego, 
and Ventura Counties. Preservation and improvement of Colorado River 
water quality through an effective salinity control program will avoid 
the additional economic damages to users in California and the other 
States that rely on Colorado River water resources.
            Sincerely,
                                       Gerald R. Zimmerman,
                                                Executive Director.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    In support of $5,200,000 to assist in Colorado River Salinity 
Control, title II from the soil, water and air management effort, and 
with support for the President's request for that activity. Also a 
request that $1,500,000 be spent on identified salinity-control-related 
projects and studies.
    This testimony is in support of funding for the Bureau of Land 
Management (BLM) for the subactivity that assists the Colorado River 
Basin Salinity Control Program authorized by the Congress. The BLM 
budget, as proposed by the administration in the BLM budget 
justification document, calls for five principal program priorities 
within the Soil, Water, and Air Management Program. One of these 
priorities is reducing saline runoff to meet the interstate, Federal, 
and international agreements to control salinity of the Colorado River.
    The BLM's budget justification documents have stated that the BLM 
continues to implement on-the-ground projects, evaluate progress in 
cooperation with the U.S. Bureau of Reclamation (USBR) and the U.S. 
Department of Agriculture (USDA), and report salt-retaining measures in 
order to further the Plan of Implementation of the Federal Salinity 
Control Program in the Colorado River Basin. The Colorado River Basin 
Salinity Control Forum (Forum) believes that fiscal year 2011 funds 
appropriated by the Congress for the Soil, Water, and Air Management 
Program should be used, in part, for reducing saline runoff in the 
Colorado River Basin.
    The seven Colorado River Basin States, through the Forum, have 
engaged the BLM in a partnership with the Basin States as has been done 
previously with the two other Federal agencies implementing salinity 
control in the Basin. The Forum has requested and the BLM has selected 
a salinity control coordinator for this basinwide effort. This person 
now serves with the two full-time coordinators in place for the USBR 
and the USDA efforts. This enhanced working relationship has taken 
advantage of the availability of Basin States' cost-sharing monies to 
leverage Federal funds. The Forum is encouraged by the words in the BLM 
budget document. The Forum supports the funding request for the soil, 
water, and air management subactivity. As one of the five principal 
Soil, Water, and Air Program priorities, the Forum believes that the 
BLM needs to specifically target $5,200,000 to activities that help 
control salt contributions from BLM managed lands in the Colorado River 
Basin. In the past, the BLM has used $800,000 of the Soil, Water and 
Air Program funding for proposals submitted by BLM staff to the BLM's 
salinity control coordinator for projects that focus on salinity 
control. The Colorado River Basin Salinity Control Advisory Council has 
recognized that the BLM has now identified projects that in fiscal year 
2010 could use $1.5 million. For years, Congress has dedicated $800,000 
on the effort and now the Forum believes $1.5 million should be so 
designated.
    The success of the BLM in controlling erosion and, hence, salt 
contributions to the Colorado River and its tributaries is essential to 
the success of the Colorado River Basin Salinity Control Program, 
including adherence to the water quality standards adopted by the seven 
Colorado River Basin States and approved by the U.S. Environmental 
Protection Agency (EPA). Inadequate BLM salinity control efforts will 
result in very significant additional economic damages to water users 
downstream. The Forum submits this testimony in support of adequate 
funding so that the BLM program can move ahead at a pace that is needed 
to sustain these water quality standards.
Overview
    This testimony is in support of funding for a portion of the title 
II program. The Colorado River Basin Salinity Control Program was 
authorized by the Congress in 1974. The title I portion of the Colorado 
River Basin Salinity Control Act responded to commitments that the 
United States made, through a minute of the International Boundary & 
Water Commission, to Mexico specific to the quality of water being 
delivered to Mexico at the international boundary. Title II of the Act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly enacted Clean Water Act. Initially, the Secretary of 
the Interior and the USBR were given the lead Federal role by the 
Congress.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Salinity Control Act needed to be 
amended. In response to the Basin States' requests, the Congress 
revised the Act in 1984 to give new salinity control responsibilities 
to the USDA and to the BLM. That revision, while leaving implementation 
of the salinity control policy with the Secretary of the Interior, gave 
new salinity control responsibilities to the USDA and to the BLM. The 
Congress has charged the administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin States are strongly supportive of that concept and 
have proceeded to implement salinity control activities for which they 
are responsible in the Colorado River Basin.
    Since the congressional mandates of over two decades ago, much has 
been learned about the impact of salts in the Colorado River system. 
The USBR estimates that the quantified economic impacts and damages to 
United States' water users alone is about $353 million per year and 
there are very significant additional damages yet to be quantified. 
Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah, and Wyoming. The Forum 
has become the seven State coordinating body for interfacing with 
Federal agencies and the Congress in support of the implementation of 
the Salinity Control Program. In close cooperation with the EPA and 
pursuant to requirements of the Clean Water Act, every 3 years the 
Forum prepares a formal report analyzing the salinity of the Colorado 
River, anticipated future salinity, and the program elements necessary 
to keep the salinities at or below the concentrations in the river 
system in 1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 review of water quality standards 
includes an updated plan of implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed upon plan. If 
adequate funds are not appropriated, significant damages from the 
higher salt concentrations in the water will be more widespread in the 
United States and Mexico.
Justification
    The BLM is, by far and away, the largest land manager in the 
Colorado River Basin. Much of the land that is controlled and managed 
by the BLM is heavily laden with salt. Past management practices, which 
include the use of lands for recreation; for road building and 
transportation; and for oil, gas, and mineral exploration have led to 
man-induced and accelerated erosional processes. When soil and rocks 
heavily laden with salt erode, the silt is carried along for some 
distance and ultimately settles in the streambed or flood plain. The 
salts, however, are dissolved and remain in the river system causing 
water quality problems downstream.
    The Forum believes that the Federal Government has a major and 
important responsibility with respect to controlling salt contributions 
from public lands. The Congress has explicitly directed specific 
Federal agencies, including the BLM, to proceed with measures to 
control the salinity of the Colorado River, with a strong mandate to 
seek out the most cost-effective options. It has been determined that 
rangeland improvements can lead to some of the most cost-effective 
salinity control measures available. These salinity control measures 
may be more cost-effective than some now being considered for 
implementation by the USBR and by the USDA. They are very 
environmentally acceptable as they will prevent erosion, enhance 
wildlife habitat, increase dependable stream flows and increase grazing 
opportunities.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado and Wyoming, consortiums of Federal and State agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the administration allocate adequate funds to 
support the BLM's portion of the Colorado River Salinity Control 
Program as set forth in the Forum's adopted plan of implementation.
                                 ______
                                 
           Letter From by Colorado River Commission of Nevada
                                                     March 5, 2010.
Hon. Dianne Feinstein,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lamar Alexander,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.

Re: Support for fiscal year 2011 appropriations for the Bureau of Land 
        Management
    Dear Chairman Feinstein and Senator Alexander: As a Nevada 
representative of the Colorado River Basin Salinity Control Forum and 
Advisory Council, the Colorado River Commission of Nevada (CRCN) 
submits this written testimony in support of funding for the Bureau of 
Land Management (BLM) for the subactivity that assists the Colorado 
River Basin Salinity Control Program. The CRCN believes the BLM needs 
to specifically target $5,200,000 to activities that help control salt 
contributions from BLM managed lands in the Colorado River Basin. In 
the past, the BLM has used $800,000 of the Soil, Water and Air 
Management Program funding for proposals submitted by BLM staff to the 
BLM's salinity control coordinator for projects that focus on salinity 
control. The Colorado River Basin Salinity Control Advisory Council has 
recognized that the BLM has now identified projects that in fiscal year 
2011 could use $1.5 million. For years, Congress has dedicated $800,000 
on the effort; the CRCN believes $1.5 million should be so designated 
for fiscal year 2011.
    Salinity remains one of the major problems in the Colorado River. 
Congress has recognized the need to confront this problem with its 
passage of Public Law 93-320 and Public Law 98-569. Your support of the 
current funding recommendations that support the Colorado River Basin 
Salinity Control Program is essential to move the program forward so 
that the congressionally directed salinity objectives are achieved.
            Sincerely,
                                            George M. Caan,
                                                Executive Director.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    Mr. Chairman and members of the subcommittee, the Columbia River 
Inter-Tribal Fish Commission is pleased to share its view on the 
Department of the Interior, Bureau of Indian Affairs' (BIA) fiscal year 
2011 budget and has specifically identified two funding needs:
  --$7,712,000 (an increase of $3,232,000 more than fiscal year 2010 
        enacted) for Columbia River Fisheries Management under the 
        other recurring programs, wildlife and parks, rights protection 
        implementation areas to restore base program funding to the 
        Commission and the fisheries programs of its member tribes to 
        meet management obligations, including efforts for species 
        listed under the Endangered Species Act, and;
  --$4,800,000 (an increase of $680,000 more than fiscal year 2010 
        enacted) for U.S./Canada Pacific Salmon Treaty under the Other 
        Recurring Programs, Wildlife and Parks, Rights Protection 
        Implementation areas to achieve base program funding adequacy 
        and to implement new obligations under the recent agreement 
        adopted by the United States and Canada under the Treaty.
    The Columbia River Inter-Tribal Fish Commission (CRITFC) was 
founded in 1977 by the four Columbia River treaty tribes: Confederated 
Tribes of the Umatilla Indian Reservation, Confederated Tribes of the 
Warm Springs Reservation of Oregon, Confederated Tribes and Bands of 
the Yakama Nation, and Nez Perce Tribe. CRITFC provides coordination 
and technical assistance to these tribes in regional, national, and 
international efforts to protect and restore our shared salmon resource 
and the habitat upon which it depends. The collective ancestral 
homeland of the four tribes covers nearly one-third of the entire 
Columbia River Basin in the United States.
    In 1855, the United States entered into treaties with the four 
tribes \1\ whereupon we ceded millions of acres of our homelands to the 
United States. In return, the United States pledged to honor our 
ancestral rights, including the right to fish. Unfortunately, a 
perilous history brought the salmon resource to the edge of extinction 
with 12 salmon and steelhead populations in the Columbia Basin listed 
under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    Today, the CRITFC tribes' are leaders in fish restoration efforts 
and work with State, Federal, and private entities. CRITFC's member 
tribes are principals in the region's efforts to halt the decline of 
salmon, lamprey and sturgeon populations and rebuild them to levels 
that support ceremonial, subsistence and commercial harvests. To 
achieve these objectives, the tribes' actions emphasize supplementation 
of natural stocks, healthy watersheds, and collaborative efforts.
    The programs in this testimony are carried out pursuant to the 
Indian Self-Determination and Assistance Act. We have successfully 
secured other funds to support our efforts, including funds from the 
Bonneville Power Administration, the Pacific Coastal Salmon Recovery 
Fund, and the Southern Fund of the Pacific Salmon Treaty, to name a 
few. Our programs are integrated as much as possible with State and 
Federal salmon management and restoration efforts. Following several 
years of court supervised collaboration our member tribes have 
successfully forged three key 10-year agreements including a 
coordinated plan for salmon restoration to meet the objectives for the 
Biological Opinion on the Federal Columbia River Power System, while 
ensuring protection of our treaty reserved rights.
    Columbia River Fisheries Management Program Needs Under the Other 
Recurring Programs, Wildlife and Parks, Rights Protection 
Implementation.--Tribal natural resource management issues continue to 
increase in complexity, requiring greater data collection and more 
sophisticated analyses and funding has not kept pace with inflation. 
Funding shortfalls are undermining efforts to fulfill tribal self-
determination goals for fisheries management, ESA recovery efforts, 
protecting nonlisted species, conservation enforcement and treaty 
fishing access site maintenance. Since fiscal year 2003, our funding 
has decreased under the weight of inflation and rising operation costs. 
We are seeking an increase of $3,232,000 more than fiscal year 2010 for 
a new program base of $7,712,000 for Columbia River Fisheries 
Management as explained below:
    Restore Base Program and Meet Unfunded Program Needs.--The BIA's 
Columbia River Fisheries Management line item is the base funding that 
supports the fishery program efforts of CRITFC and the four member 
tribes. Unlike State fish and game agencies, the tribes do not have 
access to Dingell-Johnson/Pittman-Robertson or Wallop-Breaux funding. 
The increase will be directed to support the core functions of the 
fisheries management programs of the Commission's member tribes.
    In 2008 CRITFC and its member tribes successfully concluded lengthy 
negotiations resulting in three landmark agreements: (1) a Columbia 
Basin Fish Accords with Federal action agencies overseeing the Federal 
hydro system in the Columbia Basin; (2) a Ten-Year Fisheries Management 
Plan with Federal, tribal, and State parties under U.S. v OR, and (3) a 
new Chinook Chapter of the Pacific Salmon Treaty.\2\ These agreements 
establish regional and international commitments on harvest and fish 
production efforts, commitments to critical investments in habitat 
restoration, and resolving contentious issues by seeking balance of the 
many demands within the Columbia River basin. While through these 
agreements the tribes have committed to substantial on-the-ground 
projects with some additional resources from the Bonneville Power 
Administration, the overall management responsibilities of the tribal 
programs have grown exponentially without commensurate increases in BIA 
base funding capacity. For example, the tribes' leadership in 
addressing Pacific Lamprey declines is this species' best hope for 
survival and recovery. The tribes are taking the lead in developing 
needed lamprey management plans. The tribes are also addressing unmet 
mitigation obligations, such as fish losses associated with the 
construction of John Day and The Dalles dams.
---------------------------------------------------------------------------
    \2\ See ``Salmon Win A Triple Crown'' at http://www.critfc.org/
text/wana_w09.pdf.
---------------------------------------------------------------------------
    Public safety continues to be a high priority for CRITFC and the 
four tribes. Tribal law enforcement infrastructure is a necessary 
component of fisheries management. Tribal infrastructure needs include 
additional conservation officers, tribal code improvements, courts and 
prosecutorial capacity increases, and modern detention facilities. 
CRITFC conservation officers are also the cornerstone of the search and 
rescue, and subsequently recovery efforts. In the popular and heavily 
used Columbia Gorge they provide the most continuous on-river presence 
for both the tribal and nontribal community who depend on the river for 
commercial, cultural, and recreational opportunities.
    The Columbia River in lieu and treaty fishing access sites were 
authorized by Congress to fulfill the promises beginning in 1939 when 
the U.S. Government built the first of four Federal dams that flooded 
traditional fishing sites and villages on the lower Columbia River. 
After nearly 70 years, 29 sites are in place with two more sites slated 
for completion in 2011 thereby fulfilling the Government's pledge. 
Eighteen of the sites are along the Washington shores of the Columbia 
River between Bonneville and McNary Dams. Tribal fishers from the four 
tribes use the sites to support their harvest for ceremonial, 
subsistence and commercial purposes. The sites vary with improvements 
including boat launches, fish drying sheds, fish cleaning stations, and 
camping facilities.
    Compounding the challenges in implementing tribal fish management 
agreements are the impacts that climate change will have on the 
interior Columbia Basin and the tribe's treaty resources. The 
University of Washington Climate Impact Group predicts new challenges 
to salmon management due primarily to thermal effects and runoff timing 
changes. The CRITFC is being asked to develop mitigation and adaptation 
strategies on behalf of our member tribes. CRITFC and its member tribes 
currently have insufficient funds to do the technical work and allow 
policy-level participation in the co-management arena.
    The funding provided through the BIA to support tribal fishery 
programs is crucial to the tribes' and CRITFC's ability to successfully 
carry out tribal rights protection, including these agreements, by 
providing sound technical, scientific and policy products to diverse 
public and private forums. Lost buying power through rising costs, 
inflation and lack of pay-cost adjustments to tribal funding has 
further challenged us to deliver these essential services.
    U.S./Canada Pacific Salmon Treaty under the Other Recurring 
Programs, Wildlife and Parks, Rights Protection Implementation.--For 
tribal participants in the Pacific Salmon Treaty, the U.S. Section has 
identified a program need of $4,800,000 for BIA.
    The United States and Canada entered into the Pacific Salmon Treaty 
in 1985 to conserve and rebuild salmon stocks, provide for optimum 
production, and control salmon interceptions. The treaty established 
the Pacific Salmon Commission (PSC) as a forum to collaborate on 
intermingled salmon stocks. The U.S. section of the PSC annually 
develops a coordinated budget for tribal, State and Federal programs to 
ensure cost and program efficiencies. Congress increased funding in 
2000 in order to implement the 1999 Agreement but funding has 
significantly eroded since then. In 2008, the United States and Canada 
adopted a new long-term Treaty agreement after nearly 3 years of 
negotiations. Both parties agreed to significant new management 
research and monitoring activities to ensure the conservation and 
rebuilding of the shared salmon resource
    The $4,800,000 provides for direct tribal participation with the 
Commission, panels and technical committees. The funding enables the 
tribes to assist in Treaty implementation and facilitates management 
protecting trust resources. This funding maintains tribal resource 
assessment and research programs structured to fulfill required Treaty 
implementation activities. We are seeking to restore this capacity 
through reprogramming existing BIA funds in a manner consistent with 
policy and law. The fiscal year 2011 recommended level for this program 
is an increase of $680,000 more than the fiscal year 2010 enacted 
level. The recommendation follows the U.S. section's recommendation, 
includes pay cost adjustments and brings the program back in line with 
previous levels of participation.
    Pacific Salmon Treaty obligations add significantly to the tribes' 
administrative management, and research responsibilities. To 
effectively implement the treaty, tribal representatives must meet 
frequently to review technical information and develop informed policy 
input for use by the tribes' Pacific Salmon Commission representatives. 
These treaty-mandated responsibilities result in additional expenses 
for the tribes. Because each of the 25 tribes covered by this funding 
source is a separate government and manages its own fisheries, these 
obligations require direct tribal involvement.
    The tribal management programs provide needed and beneficial and 
technical support to the U.S. section. The Pacific Salmon Commission 
relies heavily on the various technical committees established by the 
Treaty. The work of these committees is integral to the task of 
implementing fishing regimes consistent with the Treaty and the goals 
of the Parties. Numerous tribal staff appointed to these committees and 
all of the tribal programs generate data and research to support their 
efforts. For example, indicator stock tagging and escapement monitoring 
provides key information for estimating the parties' annual harvest 
rates on individual stocks, evaluating impacts of management regimes 
established under the Treaty, and monitoring progress toward the 
Chinook rebuilding program started in 1984.
    In summary, through combined efforts of the four tribes supported 
by a staff of experts, we are proven natural resource managers. Our 
activities benefit the region while also essential to the U.S. 
obligation under treaties, Federal trust responsibility, Federal 
statutes, and court orders. We ask for your continued support of our 
efforts. We are prepared to provide additional information you may 
require on the Department of the Interior's BIA budget.
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission
    As Executive Director of the Chugach Regional Resources Commission 
(CRRC), located in Alaska, I am pleased to submit this testimony, which 
reflects the needs, concerns and requests of CRRC regarding the 
proposed fiscal year 2011 budget. CRRC respectfully requests that the 
subcommittee restore $500,000 in recurring base funding in the Bureau 
of Indian Affairs' (BIA) Trust-Natural Resources Budget. Of this 
amount, CRRC requests $350,000 for its core administrative operations, 
and $150,000 to restart and continue operations at the Alutiiq Pride 
Shellfish Hatchery in Seward, Alaska.
    I request that this funding be returned to the base budget due to 
the difficulties CRRC has had receiving its legally and contractually 
bound funding from the BIA over the last few years. Despite entering 
into a legally binding Self-Determination contract with CRRC in 1993, a 
contract that was subsequently renewed, the BIA has, in recent years, 
failed to request funding for CRRC in its budget. Recently, we brought 
suit against the BIA, which resulted in a legally binding agreement 
that the BIA would continue to honor its contract with CRRC and 
continue to fund it. Unfortunately, once again, the BIA failed to 
request funds in its budget. Because we do not want funding for other 
BIA programs to suffer, we request that Congress restore CRRC's funding 
to the base budget to assist the BIA in meeting its legal obligation to 
provide funding to CRRC.
    Commission History.--CRRC is a nonprofit coalition of Alaska Native 
Villages. CRRC was organized in 1987 by the seven Native Villages of 
the Chugach region of Alaska: Tatitlek Village IRA Council, Chenega IRA 
Council, Port Graham Village Council, Nanwalek IRA Council, Native 
Village of Eyak, Qutekcak Native Tribe, and Valdez Native Tribe.
    CRRC was created by these Villages to address environmental and 
natural resource issues and to develop culturally-sensitive economic 
projects at the community level to support the sustainable development 
of the region's natural resources. The Native Villages choice to create 
a separate entity demonstrates the level of their concern for 
environmental and natural resource management and protection--the 
creation of CRRC ensured that natural resource and environmental issues 
received sufficient attention and focused funding.
    In recognition of the level of concern the Chugach region Villages 
had, and the importance of CRRC's work, the BIA awarded CRRC a self-
determination contract (``self-determination contract'') with the 
Department of the Interior through the Indian Self-Determination and 
Education Assistance Act (``ISDEAA''), Public Law No. 93-368, in 1993, 
and received $350,000 as part of the BIA's base budget from fiscal year 
1994 through fiscal year 2002. CRRC was able to leverage this funding 
into almost $2 million annually to support its several community-based 
programs. While the base funding of $350,000 allowed CRRC to maintain 
core administrative operations, specific projects have received funding 
from sources such as ANA Grants, the EVOS Trustee Council, the State of 
Alaska, the BIA and the Forest Service. With these funds, CRRC has 
managed to develop and operate several important programs that provide 
vital services, valuable products, and necessary employment 
opportunities. These programs include:
    Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
Hatchery is the only shellfish hatchery in the State of Alaska. A 
20,000 sq. ft. shellfish hatchery located in Seward, Alaska, the 
Alutiiq Pride houses shellfish seed, brood stock and algae production 
facilities. The Hatchery is operated by CRRC and, when funded, has 
employed four individuals. Alutiiq Pride is undertaking hatchery 
nursery and grow out operations research to adapt mariculture 
techniques for the Alaskan Shellfish industry, as well as conducting 
scientific research on blue and red king crab as part of a larger 
federally sponsored program. As the only shellfish hatchery in the 
State, CRRC is the only organization in Alaska that can carry out this 
research. While CRRC planned to expand the production of the Hatchery 
so that it can support some of CRRC's base operating costs once it 
becomes self-sustaining, reduction and delays in funding since 2001 has 
led to the hatchery slowing down its operations and laying off most of 
its employees.
    Alutiiq Pride has been successful in culturing geoduck, oyster, 
littleneck clam, and razor clam species, and is currently working to 
develop culture, nursery, and grow-out techniques for red king crab and 
blue king crab. This important research cannot continue without base 
operational funding.
    The production and sale of geoducks and razor clam seed--two 
projects the hatchery is currently working on--has the potential to 
raise substantial revenue. For example, the production potential from 
only 2 million seed sales can approach $400,000, which is a tenfold 
revenue increase. The shellfish industry in Alaska has not yet grown to 
the point where seed sales cover the cost of operations, but we expect 
geoduck seed sales will coincide with the expected growth of the oyster 
sales industry. Until the Hatchery is self-sufficient in 2-5 years, 
however, it requires operations and research and development funds if 
it is to meet the State's growing demand for shellfish seed.
    To be able to re-hire hatchery employees and restart and continue 
to develop these important programs, CRRC is seeking annual funding of 
$150,000 for hatchery operating expenses and research and development 
until the Hatchery is able to become self-sustaining.
    Natural Resource Curriculum Development.--Partnering with the 
University of Alaska, Fairbanks, and the National Oceanic and 
Atmospheric Administration, CRRC is developing and implementing a model 
curriculum in natural resource management for Alaska Native students. 
This curriculum integrates traditional knowledge with Western science. 
The goal of the program is to encourage more Native students to pursue 
careers in the sciences. So far, there 15 students have completed the 
program, earning a total of 15 credits each towards a 30-credit 
certificate in tribal management. In addition, we are working with the 
Native American Fish & Wildlife Society and tribes across the country 
(including Alaska) to develop a university level textbook to accompany 
these courses.
    Alaska Migratory Bird Co-management Council.--CRRC is a member of 
the council responsible for setting regulations governing the spring 
harvest of migratory birds for Alaska Natives.
    Statewide Subsistence Halibut Working Group.--CRRC participates in 
this working group, ensuring the halibut resources are secured for 
subsistence purposes, and to conduct harvest surveys in the Chugach 
region.
    Employment.--CRRC has provided employment for 35 Native people in 
the Chugach region--an area where Native people face high levels of 
unemployment. As a result of reduction and elimination of funding in 
the past few years, CRRC had to lay off 20 employees, including most of 
our Village employees. This amounts to six families per Village losing 
this income. In Villages with an average population of 100, this loss 
of income is a devastating blow to the local community economies. If 
funding is not restored, we will be unable to rehire our employees, and 
these 20 families will create a much larger burden on State and Federal 
financial resources. Several of our projects, each of which serve 
important and innovative goals and provide valuable products and 
services, have also been put on hold until we have the funding to 
resume operations and rehire the necessary employees.
    Funding History.--As mentioned above, CRRC receives its core 
administrative funding through a self-determination contract with the 
Department of the Interior. CRRC entered into its original 3-year 
contract in 1993. Under the contract, the BIA agreed to provide annual 
funding to CRRC to protect the region's natural resources and engage in 
economic development for the Villages. This contract has subsequently 
been renewed each time it has come up for renewal.
    The ISDEAA requires the Interior to provide at least the amount of 
funding the ``Secretary would have otherwise provided for the operation 
of the programs'' the contract supports (the so-called ``Secretarial 
Amount'') plus additional contract support costs. 25 U.S.C. Sec. 450j-
1(a)(1)-(2). This means that Interior is required to provide CRRC with 
the same amount that the Secretary of the Interior would have to run 
the program. The ISDEAA further specifies that the Interior generally 
cannot reduce the contract funding from one year to the next. Despite 
this legislative and contractual obligation to provide consistent 
annual funding to CRRC, the BIA, since fiscal year 2003 has avoided its 
funding obligation by failing to request funding for CRRC in its 
budget.
    Even though Congress has been helpful in restoring funding for CRRC 
in the BIA's budget, the BIA has continued to avoid using those funds 
for CRRC. In fiscal year 2006, the BIA unilaterally reduced CRRC's 
funding to $300,000--a significant cut from our previous level of 
funding. In fiscal year 2007, Congress again provided $300,000 for 
CRRC, but the BIA used the absence of associated targeted spending 
language to redirect CRRC's funding elsewhere in its budget. Despite 
repeated appeals to the agency, and despite its contractual obligation 
to pay, the BIA did not provide CRRC with any funding in fiscal year 
2007. As a result, CRRC was forced to take out a bank loan of $100,000 
just to avoid closing its operations entirely. We were forced to lay 
off many employees, and several of our projects were put on hold 
because of the lack of funding and the resulting lack of employees.
    In fiscal year 2008, the BIA again sought to withhold all funding, 
and even tried to cut off CRRC's contract, which is illegal under the 
ISDEAA. CRRC was forced to spend several thousand dollars in legal fees 
to file suit to obtain its rightful funding for fiscal year 2008. The 
BIA resolved this lawsuit and agreed that it would continue to provide 
funding to CRRC, but once again, in fiscal year 2009 and fiscal year 
2010, the BIA did not provide for CRRC funding in its budget. We fear 
that without Congressional assistance in the form of a targeted 
spending request, we will be forced to sue the BIA every year to obtain 
the funding that CRRC should rightfully receive pursuant to its 
contract.
    If the BIA does not request funding for CRRC, it must take the 
funds from its other programs to fulfill its legally obligated duty to 
CRRC. Because we do not want to take funds from other BIA programs, we 
are asking that Congress restore this funding the base budget to assist 
the BIA in meeting this legal and contractual obligation.
    Our base budget is as follows:

------------------------------------------------------------------------
                                                          Projected cost
------------------------------------------------------------------------
Chugach Region Shellfish Mariculture Development........         $75,000
    Oyster grow-out operations in Tatitlek
    Oyster marketing
Nanwalek Sockeye Salmon Development Project.............         $25,000
    Seek funds for disease free water engineering study
    Operate smolt out-migration weir
Program Development/Regional Office Operations..........        $250,000
    Two staff persons/supplies/quarterly board meetings
    Biological Professional Assistance
    Project Development and Planning
    Harvest Surveys
    Resource Evaluation and Management
                                                         ---------------
      Total Direct Costs................................        $350,000
Indirect Cost (27.7 percent)............................         $96,950
                                                         ---------------
      Total projected base budget.......................        $446,950
Alutiiq Pride Shellfish Hatchery Operations.............        $150,000
                                                         ---------------
      Total.............................................    \1\ $596,950
------------------------------------------------------------------------
\1\ $500,000 requested.

                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission
    As Executive Director of the Chugach Regional Resources Commission 
(CRRC), located in Alaska, I am pleased to submit this testimony, which 
reflects the needs, concerns and requests of CRRC regarding the 
proposed fiscal year 2011 budget. CRRC respectfully requests that the 
subcommittee restore $500,000 in recurring base funding in the Bureau 
of Indian Affairs' (BIA) Trust-Natural Resources Budget. Of this 
amount, CRRC requests $350,000 for its core administrative operations, 
and $150,000 to restart and continue operations at the Alutiiq Pride 
Shellfish Hatchery in Seward, Alaska.
    I request that this funding be returned to the base budget due to 
the difficulties CRRC has had receiving its legally and contractually 
bound funding from the BIA over the last few years. Despite entering 
into a legally binding Self-Determination contract with CRRC in 1993, a 
contract that was subsequently renewed, the BIA has, in recent years, 
failed to request funding for CRRC in its budget. Recently, we brought 
suit against the BIA, which resulted in a legally binding agreement 
that the BIA would continue to honor its contract with CRRC and 
continue to fund it. Unfortunately, once again, the BIA failed to 
request funds in its budget. Because we do not want funding for other 
BIA programs to suffer, we request that Congress restore CRRC's funding 
to the base budget to assist the BIA in meeting its legal obligation to 
provide funding to CRRC.
    Commission History.--CRRC is a nonprofit coalition of Alaska Native 
Villages. CRRC was organized in 1987 by the seven Native Villages of 
the Chugach region of Alaska: Tatitlek Village IRA Council, Chenega IRA 
Council, Port Graham Village Council, Nanwalek IRA Council, Native 
Village of Eyak, Qutekcak Native Tribe, and Valdez Native Tribe.
    CRRC was created by these Villages to address environmental and 
natural resource issues and to develop culturally-sensitive economic 
projects at the community level to support the sustainable development 
of the region's natural resources. The Native Villages choice to create 
a separate entity demonstrates the level of their concern for 
environmental and natural resource management and protection--the 
creation of CRRC ensured that natural resource and environmental issues 
received sufficient attention and focused funding.
    In recognition of the level of concern the Chugach region Villages 
had, and the importance of CRRC's work, the BIA awarded CRRC a self-
determination contract (``self-determination contract'') with the 
Department of the Interior through the Indian Self-Determination and 
Education Assistance Act (``ISDEAA''), Public Law No. 93-368, in 1993, 
and received $350,000 as part of the BIA's base budget from fiscal year 
1994 through fiscal year 2002. CRRC was able to leverage this funding 
into almost $2 million annually to support its several community-based 
programs. While the base funding of $350,000 allowed CRRC to maintain 
core administrative operations, specific projects have received funding 
from sources such as ANA Grants, the EVOS Trustee Council, the State of 
Alaska, the BIA and the Forest Service. With these funds, CRRC has 
managed to develop and operate several important programs that provide 
vital services, valuable products, and necessary employment 
opportunities. These programs include:
    Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
Hatchery is the only shellfish hatchery in the State of Alaska. A 
20,000 sq. ft. shellfish hatchery located in Seward, Alaska, the 
Alutiiq Pride houses shellfish seed, brood stock and algae production 
facilities. The Hatchery is operated by CRRC and, when funded, has 
employed four individuals. Alutiiq Pride is undertaking hatchery 
nursery and grow out operations research to adapt mariculture 
techniques for the Alaskan Shellfish industry, as well as conducting 
scientific research on blue and red king crab as part of a larger 
federally sponsored program. As the only shellfish hatchery in the 
State, CRRC is the only organization in Alaska that can carry out this 
research. While CRRC planned to expand the production of the Hatchery 
so that it can support some of CRRC's base operating costs once it 
becomes self-sustaining, reduction and delays in funding since 2001 has 
led to the hatchery slowing down its operations and laying off most of 
its employees.
    Alutiiq Pride has been successful in culturing geoduck, oyster, 
littleneck clam, and razor clam species, and is currently working to 
develop culture, nursery, and grow-out techniques for red king crab and 
blue king crab. This important research cannot continue without base 
operational funding.
    The production and sale of geoducks and razor clam seed--two 
projects the hatchery is currently working on--has the potential to 
raise substantial revenue. For example, the production potential from 
only 2 million seed sales can approach $400,000, which is a tenfold 
revenue increase. The shellfish industry in Alaska has not yet grown to 
the point where seed sales cover the cost of operations, but we expect 
geoduck seed sales will coincide with the expected growth of the oyster 
sales industry. Until the Hatchery is self-sufficient in 2-5 years, 
however, it requires operations and research and development funds if 
it is to meet the State's growing demand for shellfish seed.
    To be able to re-hire hatchery employees and restart and continue 
to develop these important programs, CRRC is seeking annual funding of 
$150,000 for hatchery operating expenses and research and development 
until the Hatchery is able to become self-sustaining.
    Natural Resource Curriculum Development.--Partnering with the 
University of Alaska, Fairbanks, and the National Oceanic and 
Atmospheric Administration, CRRC is developing and implementing a model 
curriculum in natural resource management for Alaska Native students. 
This curriculum integrates traditional knowledge with Western science. 
The goal of the program is to encourage more Native students to pursue 
careers in the sciences. So far, there 15 students have completed the 
program, earning a total of 15 credits each towards a 30-credit 
certificate in tribal management. In addition, we are working with the 
Native American Fish & Wildlife Society and tribes across the country 
(including Alaska) to develop a university level textbook to accompany 
these courses.
    Alaska Migratory Bird Co-management Council.--CRRC is a member of 
the council responsible for setting regulations governing the spring 
harvest of migratory birds for Alaska Natives.
    Statewide Subsistence Halibut Working Group.--CRRC participates in 
this working group, ensuring the halibut resources are secured for 
subsistence purposes, and to conduct harvest surveys in the Chugach 
region.
    Employment.--CRRC has provided employment for 35 Native people in 
the Chugach region--an area where Native people face high levels of 
unemployment. As a result of reduction and elimination of funding in 
the past few years, CRRC had to lay off 20 employees, including most of 
our Village employees. This amounts to six families per Village losing 
this income. In Villages with an average population of 100, this loss 
of income is a devastating blow to the local community economies. If 
funding is not restored, we will be unable to rehire our employees, and 
these 20 families will create a much larger burden on State and Federal 
financial resources. Several of our projects, each of which serve 
important and innovative goals and provide valuable products and 
services, have also been put on hold until we have the funding to 
resume operations and rehire the necessary employees.
    Funding History.--As mentioned above, CRRC receives its core 
administrative funding through a self-determination contract with the 
Department of the Interior. CRRC entered into its original 3-year 
contract in 1993. Under the contract, the BIA agreed to provide annual 
funding to CRRC to protect the region's natural resources and engage in 
economic development for the Villages. This contract has subsequently 
been renewed each time it has come up for renewal.
    The ISDEAA requires the Interior to provide at least the amount of 
funding the ``Secretary would have otherwise provided for the operation 
of the programs'' the contract supports (the so-called ``Secretarial 
Amount'') plus additional contract support costs. 25 U.S.C. Sec. 450j-
1(a)(1)-(2). This means that Interior is required to provide CRRC with 
the same amount that the Secretary of the Interior would have to run 
the program. The ISDEAA further specifies that the Interior generally 
cannot reduce the contract funding from one year to the next. Despite 
this legislative and contractual obligation to provide consistent 
annual funding to CRRC, the BIA, since fiscal year 2003 has avoided its 
funding obligation by failing to request funding for CRRC in its 
budget.
    Even though Congress has been helpful in restoring funding for CRRC 
in the BIA's budget, the BIA has continued to avoid using those funds 
for CRRC. In fiscal year 2006, the BIA unilaterally reduced CRRC's 
funding to $300,000--a significant cut from our previous level of 
funding. In fiscal year 2007, Congress again provided $300,000 for 
CRRC, but the BIA used the absence of associated targeted spending 
language to redirect CRRC's funding elsewhere in its budget. Despite 
repeated appeals to the agency, and despite its contractual obligation 
to pay, the BIA did not provide CRRC with any funding in fiscal year 
2007. As a result, CRRC was forced to take out a bank loan of $100,000 
just to avoid closing its operations entirely. We were forced to lay 
off many employees, and several of our projects were put on hold 
because of the lack of funding and the resulting lack of employees.
    In fiscal year 2008, the BIA again sought to withhold all funding, 
and even tried to cut off CRRC's contract, which is illegal under the 
ISDEAA. CRRC was forced to spend several thousand dollars in legal fees 
to file suit to obtain its rightful funding for fiscal year 2008. The 
BIA resolved this lawsuit and agreed that it would continue to provide 
funding to CRRC, but once again, in fiscal year 2009 and fiscal year 
2010, the BIA did not provide for CRRC funding in its budget. We fear 
that without Congressional assistance in the form of a targeted 
spending request, we will be forced to sue the BIA every year to obtain 
the funding that CRRC should rightfully receive pursuant to its 
contract.
    If the BIA does not request funding for CRRC, it must take the 
funds from its other programs to fulfill its legally obligated duty to 
CRRC. Because we do not want to take funds from other BIA programs, we 
are asking that Congress restore this funding the base budget to assist 
the BIA in meeting this legal and contractual obligation.
    Our base budget is as follows:

------------------------------------------------------------------------
                                                          Projected cost
------------------------------------------------------------------------
Chugach Region Shellfish Mariculture Development........         $75,000
    Oyster grow-out operations in Tatitlek
    Oyster marketing
Nanwalek Sockeye Salmon Development Project.............         $25,000
    Seek funds for disease free water engineering study
    Operate smolt out-migration weir
Program Development/Regional Office Operations..........        $250,000
    Two staff persons/supplies/quarterly board meetings
    Biological Professional Assistance
    Project Development and Planning
    Harvest Surveys
    Resource Evaluation and Management
                                                         ---------------
      Total Direct Costs................................        $350,000
Indirect Cost (27.7 percent)............................         $96,950
                                                         ---------------
      Total projected base budget.......................        $446,950
Alutiiq Pride Shellfish Hatchery Operations.............        $150,000
                                                         ---------------
      Total.............................................    \1\ $596,950
------------------------------------------------------------------------
\1\ $500,000 requested.

                                 ______
                                 
  Prepared Statement of the Cuyahoga Valley National Park Association
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of 
acquiring land at Cuyahoga Valley National Park in Ohio. An 
appropriation of $5.275 million is needed in fiscal year 2011 from the 
Land and Water Conservation Fund in order for the National Park Service 
to acquire the remaining phase of the 580-acre Blossom property. The 
administration's budget for this year, recognizing the national 
significance of this land protection effort at Cuyahoga Valley National 
Park, includes an LWCF recommendation for the Park of $6.82 million. 
This will permit the protection of the Blossom acquisition as well as 
several other Cuyahoga Valley National Park inholdings.
    Located between Cleveland and Akron, the Cuyahoga Valley National 
Park conserves the Cuyahoga River valley and the associated historic 
canal and railroad corridors in Summit and Cuyahoga counties. The park 
is a major year-round outdoor recreation attraction in northeastern 
Ohio. More than 2.8 million people visited Cuyahoga Valley in 2008, 
making it the sixth most visited National Park in America and the 
single most visited NPS site in the Midwest. Native Americans named the 
river Cuyahoga, or ``crooked river,'' aptly describing the river's 
serpentine meanderings as it flows northwards beneath bluffs towards 
Lake Erie. The conserved forests, farmlands, and wetlands within the 
national park offer visitors a remarkable array of outdoor recreation, 
wildlife-viewing opportunities, and spectacular scenery including 
peaceful creeks, waterfalls, open prairie, and dense hardwood forests, 
all within easy access of a major metropolitan area.
    In fiscal year 2011, the National Park Service has the opportunity 
to complete the acquisition (begun in fiscal year 2010) of the 580-acre 
Blossom property, the top-priority inholding at Cuyahoga Valley 
National Park. The acquisition is crucial due to its location, natural 
and scenic resources, and likelihood of significant development if not 
protected. The Blossom tract is currently owned by the Cleveland 
Orchestra/Musical Arts Association (MAA) as part of the renowned 780-
acre Blossom Music Center, a vital and exceedingly popular performing 
arts destination for residents of the Cleveland area and beyond. MAA is 
an important cultural presence in the area; in order to sustain the 
many public-benefit programs MAA and the Orchestra provide to the 
community in the face of significant financial challenges, it now must 
monetize the bulk of this key asset. MAA agreed last year to make 580 
park-quality acres surrounding its facilities available for acquisition 
by the National Park Service, and Congress responded by providing $4 
million to begin the purchase in fiscal year 2010. Requested funding in 
fiscal year 2011 will allow the completion of the project so that MAA 
can set aside all other plans regarding these highly developable lands.
    As a large inholding, the acquisition of the Blossom tract would 
greatly benefit efforts to protect forest and water resources in the 
southern section of the national park. A mature forest covers most of 
the property, and its addition to the park will create 1,200 acres of 
unfragmented and protected forestlands. This acreage, combined with 
other nearby blocks of protected forest, forms a 5,000-acre forest 
ecosystem, the largest in the national park. This network of 
forestlands provides unparalleled habitat for a high diversity of 
species and particularly for important nesting and feeding areas for 
bird and other species most sensitive to habitat disturbance. Along 
these lines, the Blossom land is one of just two sites in the entire 
park that host cerulean warbler, black and white warbler, veery, and 
other bird species that are in decline nationally. Such rich forest 
communities are increasingly rare in northeastern Ohio.
    The Blossom property is key to improving water quality protection 
in the Cuyahoga Valley. Three distinct watersheds drain the Blossom 
land (Robinson Run, Adam Run, and an unnamed creek). These creeks 
provide many high-quality coldwater stream habitats that in turn 
support diverse fish populations and a broad spectrum of other 
sensitive species. Unlike many other tributaries of the Cuyahoga, these 
creeks have remained healthy and intact, mostly in part because of 
their location at the heart of the larger forest ecosystem. The Blossom 
tract therefore presents what likely is the best remaining watershed 
protection opportunity in the park.
    Recreational opportunities surround the inholding and will be 
enhanced by acquisition of the trails, creek corridors, and woodlands 
of the Blossom lands. Just across the Cuyahoga River to the west are 
the popular Hunt Farm Visitor Information Center, a boarding station on 
the Cuyahoga Valley Scenic Railroad, the Ira trailhead on the Ohio & 
Erie Canal Towpath Trail, and the Beaver Marsh wetland area. Just to 
the south of the property is the 278-acre Hampton Hills Metropark, 
managed by Summit County, featuring its own hiking trails, soccer 
fields, picnic grounds, and natural areas.
    Acquisition of the Blossom property by the National Park Service 
would be a signature accomplishment in the history of the park and in 
the complement of public resources here. As noted before, Congress 
approved a $4 million appropriation in fiscal year 2010 to commence the 
project. In order to complete the protection of these lands, an 
appropriation of $5.275 million from the Land and Water Conservation 
Fund directed to the Cuyahoga Valley National Park is needed in fiscal 
year 2011.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds, improving wildfire management, and assisting the 
adaptation of wildlife and fisheries to climate change. For all these 
reasons, the President has included meaningful increases to the program 
in his fiscal year 2011 budget, and I support the administration's 
commitment to fully funding the program in the near future. Recognizing 
the many demands this subcommittee faces, I also want to thank the 
committee for its recent effort to restore much-needed funding to this 
depleted program. This wise investment in the Land and Water 
Conservation Fund is one that will permanently pay dividends to the 
American people and to our great natural and historical heritage.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Ohio, and I appreciate your consideration of this 
funding request.
                                 ______
                                 
         Prepared Statement of the Civil War Preservation Trust
                              introduction
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony. My name is James Lighthizer, 
and I am the president of the Civil War Preservation Trust (CWPT). I am 
writing to respectfully request that the Senate Appropriations 
Subcommittee for the Interior, Environment, and Related Agencies fully 
fund the Civil War Battlefield Preservation Program (CWBPP), financed 
through the Land and Water Conservation Fund (LWCF) in the Department 
of the Interior, at its authorized amount of $10 million.
    I would like to start by providing a little information about our 
organization. CWPT is a 55,000-member nonprofit organization--the only 
national one of its kind--dedicated to preserving America's remaining 
Civil War battlefields. To date, CWPT has permanently protected more 
than 29,000 acres of hallowed ground in 20 States, most of it outside 
National Park Service boundaries.
    I am here today to discuss with you the small but highly effective 
Federal land conservation program that has made much of our success 
possible: the CWBPP. This matching grants program encourages 
cooperative partnerships between State and local governments and the 
private sector to preserve targeted, high-priority Civil War 
battlegrounds. Since it was first funded in fiscal year 1999, the 
program has been used to protect more than 15,500 acres of hallowed 
ground nationwide.
    Time is running out for our remaining Civil War battlefields. We 
estimate that even in this depressed economy, 30 acres of battlefield 
land are lost every day. If we are to save these sites so that future 
generations may visit them and learn from them, the time to act is now. 
We estimate that in the next 5 to 10 years the fate of many of these 
battlefields will be determined.
                         origins of the program
    In 1990, Congress created the Civil War Sites Advisory Commission 
(CWSAC), a blue-ribbon panel composed of lawmakers, historians, and 
preservationists. Its goal: determine how to protect America's 
remaining Civil War battlefields. In 1993, the Commission released a 
study entitled ``Report on the Nation's Civil War Battlefields.'' The 
report identified the 384 most historically important Civil War 
battlegrounds and further prioritized them according to preservation 
status and historic significance. Sixteen years later, this landmark 
report and a recent update conducted by NPS remain our guide for 
determining which battlefields should be preserved.
    In addition to creating a prioritized list of battlefield 
preservation targets, the Commission also recommended that Congress 
establish an ``emergency'' $10 million-a-year Federal matching grant 
program for acquisition of battlefield land outside NPS boundaries. The 
intent of the matching grants formula was to encourage private sector 
and State and local government involvement in battlefield acquisition. 
The Commission's proposal for an emergency Federal matching grant 
program was the genesis of the Civil War Battlefield Preservation 
Program.
               congressional funding and first successes
    Five years after the ``Report on the Nation's Civil War 
Battlefields'' was released, Congress acted upon the Commission's 
recommendation by setting aside $8 million from the LWCF for Civil War 
preservation matching grants. This first appropriation for the program 
was made available over 3 years, and required a 2 to 1 non-Federal/
Federal match. Grants were competitively awarded through the American 
Battlefield Protection Program (ABPP), an arm of NPS. Funding was 
solely for acquisition of properties outside NPS boundaries at 
battlefields identified in the 1993 report. Land could be purchased 
from willing sellers only; there was--and there remains--no eminent 
domain authority.
    Thanks to the new program, there began an unprecedented and almost-
immediate surge in Civil War battlefield preservation. The $8 million 
appropriation generated $24 million for land acquisition by encouraging 
State and private investment in battlefield land protection. The 
program inspired the Virginia and Mississippi legislatures to 
appropriate $3.4 million and $2.8 million, respectively, to meet the 
Federal match. The Civil War Preservation Trust alone contributed $4 
million in private sector funds to meet the match.
    As a result of the non-Federal funds generated by the program, 
battlefields like Virginia's Brandy Station and Manassas received a new 
lease on life. In addition, other sites such as Prairie Grove in 
Arkansas, Champion Hill in Mississippi, and Bentonville in North 
Carolina--just to name a few--were substantially enhanced. Largely 
because of the success of those first 3 years, Congress appropriated an 
additional $11 million for the program in fiscal year 2002, this time 
with a more attractive 1 to 1 non-Federal/Federal match requirement.
                      authorization of the program
    After approval of the fiscal year 2002 appropriation, authorization 
of the CWBPP seemed the next logical step. Supporters on Capitol Hill 
felt that authorization of the program would convey to the Department 
of the Interior congressional intent regarding the program's goals and 
objectives. Further, authorization would provide funding predictability 
for the program's non-Federal partners, encouraging them to continue 
their involvement in battlefield preservation.
    The authorization bill, entitled the Civil War Battlefield 
Preservation Act of 2002, was introduced in the House and Senate in the 
summer of 2002. The bipartisan bill formally tied the program to the 
1993 CWSAC report, creating a Federal conservation program with a 
highly focused, prioritized list of acquisition targets. It also 
provided for an annual appropriation of up to $10 million per year--the 
level originally recommended by the Commission in 1993. The Civil War 
Battlefield Preservation Act was passed with the unanimous consent of 
both the House and Senate in the fall of 2002, and was signed into law 
on December 17, 2002 (Public Law 107-359).
          additional successes and reauthorization legislation
    Since the program was first funded in fiscal year 1999, Civil War 
Battlefield Preservation Program grants have been used to protect 
15,500 acres of hallowed ground in 14 States. Among the many 
battlefields that have benefited from this program are: Antietam, 
Maryland; Averasboro, North Carolina; Chancellorsville, Virginia; 
Chattanooga, Tennessee; Corinth, Mississippi; Harpers Ferry, West 
Virginia; and Perryville, Kentucky.
    One of the program's most notable successes occurred in 2006, when 
the Department of the Interior awarded a $2 million grant to help save 
the Slaughter Pen Farm on the Fredericksburg Battlefield in Virginia. 
This property, soaked with the blood of 5,000 men in blue and gray, was 
nearly lost to industrial development. Five Medals of Honor were earned 
by Union soldiers for heroism on that field.
    The Civil War Battlefield Preservation Program was reauthorized as 
part of the Omnibus Public Land Management Act of 2009 (H.R. 146), 
which President Obama signed into law on March 30, 2009 (Public Law 
111-11).
      fiscal year 2010 and fiscal year 2011 appropriations request
    We would like to thank the Senate Appropriations Subcommittee on 
the Interior, Environment, and Related Agencies for providing $9 
million for the CWBPP in fiscal year 2010. This appropriation has 
allowed for the preservation of many historically significant lands at 
battlefields such as: Bentonville, North Carolina; Champion Hill, 
Mississippi; Davis Bridge, Tennessee; Perryville, Kentucky; Resaca, 
Georgia; and the Wilderness, Virginia. The ABPP, which administers the 
grant program, received the Treasury warrant on February 12, 2010, 
allowing the agency to begin obligating its fiscal year 2010 
allocation. The agency has already completed an apportionment memo to 
obligate $1.7 million and more apportionment memos are sure to follow 
in the coming months as pending applications quickly consume the entire 
$9 million appropriation. CWPT and our nonprofit partners are certain 
the entire $9 million allocation will be obligated by the end of this 
fiscal year. Since the entire fiscal year 2010 allocation will be 
consumed by current deals, in order for the program to continue it will 
need additional funding in fiscal year 2011.
    We respectfully ask the Senate Appropriations Subcommittee on the 
Interior, Environment, and Related Agencies to fully fund the Civil War 
Battlefield Preservation Program at its authorized amount of $10 
million. Please note that a letter signed by nine Senators was 
delivered to both the subcommittee and full committee in March. The 
Member letter requested that the program be fully funded at its 
authorized amount of $10 million in fiscal year 2011. President Obama 
included a $6 million request for the program as part of his fiscal 
year 2011 budget.
    We recognize that these are difficult economic times and appreciate 
the constraints on this subcommittee as you work to draft an 
appropriation bill that meets the needs of the agencies and programs 
under your jurisdiction. However, we believe that now is the opportune 
time to provide full funding for the CWBPP, especially with the Civil 
War sesquicentennial commemorations beginning next year. Funding at 
this level will allow for the continued success of the program and the 
preservation of key battlefield lands that will serve as lasting, 
tangible legacies for the sesquicentennial. In addition, with time 
rapidly running out to forever protect these hallowed grounds, funding 
for this program will soon no longer be necessary. We estimate that in 
the next 5 to 10 years the remaining Civil War battlefield lands will 
be either paved over or protected. That is why we must act now in order 
to preserve as much key battlefield land as possible before time runs 
out.
                               conclusion
    There is no question that the Civil War was a defining moment in 
our country's history. For 4 long years, North and South clashed in 
hundreds of battles that reunited our Nation and sounded the death 
knell for slavery. More than 625,000 soldiers and 50,000 civilians 
perished as a result of the war.
    Preserved battlefields not only honor the memory of our Civil War 
ancestors, but all of our Nation's brave men and women in uniform. 
Further, preserved battlefields serve as outdoor classrooms to teach 
new generations of Americans about the significance of the Civil War--
and remind them that the freedoms we enjoy today came at a terrific 
price.
    I sincerely hope this subcommittee will consider our request to 
provide full funding of the CWBPP at its authorized level of $10 
million. As noted, this is especially important as the nation begins to 
prepare for the upcoming sesquicentennial commemoration of the Civil 
War, beginning in 2011. The commemoration is expected to stimulate 
renewed interest in the conflict and generate unprecedented visitation 
to preserved Civil War battlegrounds. The preserved battlefield lands 
will create a legacy that long outlasts the sesquicentennial 
anniversary. We look forward to working with this subcommittee on 
battlefield protection and other historic preservation issues. Thank 
you for the opportunity to provide testimony.
                                 ______
                                 
     Prepared Statement of the Deschutes Chapter of Trout Unlimited
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of 
acquiring land along the Crooked National Wild and Scenic River in 
Oregon. An appropriation of $1.2 million is needed in fiscal year 2011 
from the Land and Water Conservation Fund in order for the Bureau of 
Land Management to acquire the 101-acre Crooked River Canyon inholding. 
In a demonstration of the importance of this acquisition, the $1.2 
million amount was included in the President's budget request for 
fiscal year 2011.
    On behalf of the Upper Deschutes Home Rivers Initiative and the 
Deschutes Chapter of Trout Unlimited, thank you for your time and 
interest in protecting our unique rivers and canyons here in Central 
Oregon. We are a national organization with more than 400 local members 
who support conservation and restoration of native fish habitat in the 
Upper Deschutes river basin. Trout Unlimited supports projects for our 
community and watershed which combine volunteers, staff support, and 
outside grant funds to care for our local and shared natural resources. 
We couldn't imagine living and working in a better place, and we hope 
congress can help preserve our natural heritage.
    The Wild and Scenic Rivers Act celebrated its 40th Anniversary in 
2008. The act, championed by Senator Frank Church and signed into law 
by President Lyndon Johnson on October 2, 1968, protects the free-
flowing waters of many of our Nation's most spectacular rivers. The act 
is notable for safeguarding the special character of these rivers, 
while also recognizing the potential for appropriate use and 
development. These living landscapes are uniquely managed to protect 
the public's enjoyment of these heritage resources for present and 
future generations. The managing agencies also try to accommodate and 
reflect community and landowner interests. Every designation preserves 
a sliver of traditional American experiences that are important to 
local communities, such as fishing and boating in waters our Nation's 
forefathers would have recognized and enjoyed. Oregon enjoys a 
reputation for some of the greatest river ecosystems and river 
recreation in the country. Many of these rivers are currently protected 
under the Wild and Scenic Rivers Act.
    Located in Jefferson County near the city of Terrebonne, Oregon, 
and available for acquisition by the Bureau of Land Management (BLM) in 
fiscal year 2011, is the 101-acre Crooked River Canyon property. The 
Crooked River is a nationally designated wild and scenic river which 
runs through the high desert in central Oregon and provides remote 
recreational opportunities including fishing, whitewater boating, 
wildlife viewing, and stunning scenic views. Because of the influx of 
cold ground spring water through the canyon walls, the river is home to 
unique ecosystems of lush gardens of plants rare to central Oregon's 
arid climate. Near one of the fastest growing areas in the United 
States, the Crooked River is a major tributary of the Deschutes River 
and in years of high water has attracted whitewater boaters from 
Oregon, Idaho, and Washington. Juniper trees and big sagebrush are part 
of the spectacular scenery along the narrow, meandering, dry canyon 
riddled with rock outcrops and lined by cliffs. Shaded ledges on rock 
cliffs provide spring nesting sites for prairie falcon, bald eagle, 
golden eagle, red-tailed hawk, and other raptors along with the ash-
throated flycatcher, gray flycatcher, and Western kingbird.
    Despite the fact that this river is nationally designated, there is 
very limited public access. All points where the river is easily 
accessible are privately owned, making it very difficult for the public 
to enjoy this resource. The Crooked River Canyon property is one of the 
few areas where public access is available, but it is currently for 
sale and threatened with development. The Crooked River Canyon parcel 
contains the ``outstandingly remarkable'' scenic and recreational 
values that led Congress to designate the Lower Crooked River as a part 
of the national wild and scenic river system in 1988. Approximately a 
mile and a half of the river flows through this property, which 
encompasses steep walls of the gorge and unique high desert scenery. 
Among supporters of public ownership of the Crooked River Canyon 
property are American Whitewater, representing approximately 80,000 
whitewater paddlers across the Nation, American Rivers, the Wilderness 
Society, and the Oregon Natural Desert Association.
    An fiscal year 2011 BLM appropriation of $1.2 million from the Land 
and Water Conservation Fund for acquisition of this property would 
preserve the scenic qualities of the gorge and permanently protect 
public access to this section of the Crooked River.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds, improving wildfire management, and assisting the 
adaptation of wildlife and fisheries to climate change. For all these 
reasons, the President has included meaningful increases to the program 
in his fiscal year 2011 budget, and I support the administration's 
commitment to fully funding the program in the near future. Recognizing 
the many demands this committee faces, I also want to thank the 
subcommittee for its recent effort to restore much-needed funding to 
this depleted program. This wise investment in the Land and Water 
Conservation Fund is one that will permanently pay dividends to the 
American people and to our great natural and historical heritage.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Oregon, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife
    Mr. Chairman, Ranking Member, and members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. 
Founded in 1947, Defenders has more than 1 million members and 
supporters and is dedicated to the conservation of wild animals and 
plants in their natural communities.
    Defenders understands the sober fiscal realities, and, in general, 
we are very pleased with several of the high-priority initiatives in 
the President's budget, including: (1) the continued emphasis on 
assisting wildlife and ecosystems in surviving the impacts of climate 
change and providing the necessary science; (2) the recognition of the 
importance of landscape level conservation; and (3) the commitment to 
reach full funding for the Land and Water Conservation Fund (LWCF). 
However, while the Department of the Interior (DOI) is moving ahead 
with praiseworthy initiatives to coordinate their work in addressing 
the impacts of climate change, it still is unclear how different 
efforts underway within the Department, individual agencies, and the 
Council on Environmental Quality will result in a comprehensive 
national strategy across all Federal departments and agencies in 
coordination with States, tribes, and other stakeholders to assist 
fish, wildlife, plants and natural systems in adapting to climate 
change, as directed in both the final fiscal year 2009 and fiscal year 
2010 Interior, Environment, and Related Agencies appropriations 
conference reports. We continue to be deeply grateful for the 
subcommittee's leadership on climate change, and we ask that you 
maintain your excellent efforts on this critically important issue, 
including working with the administration to ensure progress in 
developing the national strategy.
    However, we also are troubled by certain aspects of the request. In 
particular, we have deep concerns about the agency operating accounts, 
as they are the critical foundation on which rests the agencies' 
abilities to meet their missions and implement the administration's 
highest-priority initiatives. The unfortunate failure to, at minimum, 
meet fixed costs for the agencies will further erode base programs, 
even more dramatically compromising their status about which Congress 
has previously expressed concern. We also are concerned about specific 
aspects of the allocation of LWCF dollars, and, potentially, with some 
of the policy implications of the ``New Energy Frontier Initiative'' 
and with the reorganization of the Forest Service (USFS) budget.
    We urge the subcommittee to continue to rebuild the Fish and 
Wildlife Service (FWS), our Nation's premier wildlife conservation 
agency. We strongly support the following increases:
  --To continue progress in addressing the impacts of climate change on 
        wildlife and ecosystems, a total of $40 million for Climate 
        Change Adaptive Science Capacity, an increase of $20 million 
        more than fiscal year 2010 that will allow needed progress in 
        the effort to build more than 20 Landscape Conservation 
        Cooperatives across the country. In developing the 
        Cooperatives, it is important that the agency communicate in a 
        timely and comprehensive manner with their own staff and with 
        the many external partners about what these new partnerships 
        are, how partners can participate, and how these are additive 
        to existing partnerships.
  --To address the needs of our Nation's most vulnerable plants and 
        animals, a total of $217 million for the endangered species 
        operating accounts, an increase of $37.7 million more than 
        fiscal year 2010, allocated as follows: $15 million for 
        candidate conservation, an increase of $2.4 million; $32 
        million for listing, an increase of $9.9 million; $95 million 
        for recovery, an increase of $9.7 million; and $75 million for 
        consultation, an increase of $15.7 million. We are deeply 
        concerned that the request was essentially flat and even 
        reduced in for listing. Increases are needed for addressing the 
        backlog of 249 domestic and 20 foreign candidate species 
        awaiting protection under the Endangered Species Act, for 
        restoring a 16 percent staffing shortfall in the recovery 
        program, for addressing concerns about tracking species under 
        the consultation program and for updating Habitat Conservation 
        Plans to incorporate climate change into existing long-term 
        permits. We also are concerned about the decreases for the Wolf 
        Livestock Loss Demonstration program and for White Nose 
        Syndrome and ask that funding be restored.
  --To continue efforts to restore the integrity of the National 
        Wildlife Refuge System, a total of $578.3 million, an increase 
        of $75 million more than fiscal year 2010 as recommended by the 
        diverse coalition of 23 organizations in the Cooperative 
        Alliance for Refuge Enhancement. Defenders is concerned about 
        the $3.3 million decrease, an effective $18.3 million cut, 
        since an increase of at least $15 million each year is needed 
        to keep pace with fixed costs and to have adequate management 
        capability. We appreciate the $8 million requested increase for 
        inventory and monitoring needed to manage for climate change, 
        however, the amount is not a net increase. FWS also must ensure 
        that new inventory and monitoring efforts are integrated with 
        existing programs of other Federal agencies and non Federal 
        entities to avoid duplication and to allow for easy information 
        sharing.
  --To restore the mission critical Office of Law Enforcement, a total 
        of $77 million, an increase of $11.2 million, to support 
        hiring, training and equipping 24 special agents, 10 additional 
        port inspectors, and 4 of 12 critically needed forensics 
        scientists. The special agent force is still 23 percent below 
        the authorized number of 261 and Defenders is extremely 
        disappointed that the request included a decrease of $2.5 
        million, including $2 million that was specifically added in 
        fiscal year 2010 for special agents. We also recommend report 
        language directing the agency develop a plan to increase the 
        special agent force to, and maintain it at, the authorized 
        level.
  --To build the international affairs program, a total of $22 million, 
        an increase of $7.6 million more than the fiscal year 2010 
        level. The request included a 9 percent decrease in this very 
        modest program. Even at current funding, international affairs 
        lacks resources to implement most international treaties and 
        agreements the United States is involved in; to address 
        emerging problems at the global level such as human-wildlife 
        conflict, wildlife disease, and invasive species; to address 
        the growing permitting, research, and monitoring workload, 
        including the effort FWS is undertaking on species native to 
        the United States; and other crucial needs.
  --To support the Migratory Bird Management program, a total of $68.5 
        million, an increase of $14 million more than fiscal year 2010. 
        The request cut Migratory Bird Management by $1.7 million, yet 
        increases are needed to continue development and implementation 
        of plans for 139 focal species of highest conservation need, to 
        cover critical gaps in inventory and monitoring, and for the 
        innovative Urban Conservation Treaties for Migratory Birds.
  --For critical grant programs, $115 million for State and Tribal 
        Wildlife Grants, an increase of $25 million; $100 million for 
        the Cooperative Endangered Species Fund, an increase of $15 
        million; $6.5 million for the Neotropical Migratory Bird 
        Conservation Fund, an increase of $1.5 million; and $18 million 
        for the Multinational Species Conservation Fund, an increase of 
        $6.5 million.
    The multiple-use lands of the Bureau of Land Management (BLM) and 
the USFS are becoming increasingly crucial to the conservation of 
wildlife and habitat in the United States, yet their resources are not 
adequate to meet significant challenges. While Defenders supports the 
administration's efforts to move toward a clean energy economy, it must 
proceed in a balanced way that ensures the ability to maintain 
sustainable wildlife populations. We were extremely pleased that the 
fiscal year 2010 conference report directed the Department of the 
Interior and the USFS to submit a comprehensive review on siting and 
coordination of renewable energy projects. We urge continued strong 
oversight to ensure that any energy development is done in an 
environmentally sensitive fashion. And given the overriding challenge 
posed by climate change, it is imperative that both agencies have clear 
climate change adaptation and restoration policies and incorporate 
these considerations into any energy development plans.
    Defenders supports the stated goals of the Integrated Resource 
Restoration (IRR) initiative to move to a restoration and resiliency 
based approach to forest management. However, the success of any such 
effort--and beneficial rather than harmful outcomes--will depend on 
establishment of science-based management objectives and dedicated 
support for planning, assessment, and monitoring. It is not clear from 
the budget that such requirements have been taken into consideration. 
In particular, given the merging of Wildlife and Fisheries Habitat 
Management into IRR and elimination of its output measures, we are 
concerned about the adequacy of wildlife diversity objectives in this 
new proposal. Moreover, the agency currently is developing new National 
Forest Management Act (NFMA) planning regulations--an effective 
planning rule is necessary to ensure proper implementation of any 
integrated program. We urge the subcommittee to work with the 
administration to ensure a strong policy and regulatory framework 
before IRR is allowed to move forward. We will be following up with 
more detailed recommendations.
    We recommend the following funding for BLM and FS programs:
  --For BLM climate change adaptation, we support the request of $17.5 
        million, an increase of $2.5 million more than fiscal year 
        2010. However, as was the case in fiscal year 2010, it is again 
        proposed for funding under the soil, water, and air 
        subactivity. Since the stated focus of this funding primarily 
        is to assist native plant and animal communities in adapting to 
        climate change, consideration should be given to funding this 
        initiative through the wildlife and fish budget activities.
  --For BLM wildlife and fisheries management, a total of $65.4 
        million, an increase of $15 million more than fiscal year 2010 
        and for BLM threatened and endangered species management, a 
        total of $32.6 million, an increase of $10 million. Defenders 
        is extremely disappointed that these two activities were cut by 
        a combined total of more than $2 million, especially given the 
        dire status of the sage grouse and the need for proactive 
        conservation actions in the face of expanded renewable energy 
        development. Moreover, reports are that the practice continues 
        of inappropriately diverting at least 30 percent of funding to 
        compliance activities of energy and other nonrelated programs. 
        Consideration should be given to directing the Government 
        Accounting Office or a reputable outside entity knowledgeable 
        in natural resource management to review this problem and make 
        recommendations to resolve it.
  --For the BLM Challenge Cost Share (CCS) program, a total of $19.5 
        million, an increase of $10 million directed to wildlife. 
        Defenders is extremely disappointed in the decision to 
        eliminate this program, that, given the diversion of resources 
        from wildlife programs accomplishes much of the agency's 
        proactive wildlife and habitat conservation work.
  --For BLM resource management planning, a total of $55 million, an 
        increase of $5 million more than fiscal year 2010. We are quite 
        concerned about the $8.2 million decrease in the request. As is 
        the case with the wildlife activities, failure to invest in 
        planning sets the BLM up for less than optimal results in 
        energy development and adaptation policy implementation.
  --For BLM's land and realty management subactivity, we support the 
        requested $3 million increase to support site specific National 
        Environmental Policy Assessments for renewable energy projects.
  --For USFS land management planning, $80 million, an increase of 
        $34.1 million more than fiscal year 2010 and for USFS inventory 
        and monitoring, $180.5 million, an increase of $10 million. 
        Defenders was concerned that these requests were flat. Given 
        the new IRR proposal, parallel commitments are required to move 
        toward a restoration and sustainability agenda. Moreover, 
        robust Land Management Planning funding, which has declined by 
        more than 40 percent since 2001, is needed to support the 
        ongoing NFMA rulemaking process.
  --Given the IRR proposal, it is not clear if the separate Wildlife 
        and Fisheries Habitat Management line item will still exist, 
        however regardless of whether there is a separate or combined 
        line item, Defenders supports a total of at least $163 million 
        for wildlife and fish output measures, a $20 million increase 
        more than the fiscal year 2010 level that was still nearly $15 
        million below the 2001 inflation adjusted level. The program 
        has lost 15 percent of its scientists since 2003 and Defenders 
        is greatly concerned about the loss of biological capability in 
        the agency.
  --For USFS forest and rangeland research R&D programs, $265.1 
        million, an increase of $20 million more than fiscal year 2010 
        that includes a total of $41.9 million for climate change 
        research and $37.1 million for fish and wildlife R&D. Defenders 
        is concerned about the $5 million reduction for climate change 
        research in the request.
    The U.S. Geological Survey through its Biological Research 
Discipline (BRD) and National Climate Change and Wildlife Science 
Center supports the basic science necessary for conservation of fish, 
wildlife and habitat. To provide adequate science support, we urge the 
following increases:
  --For the National Climate Change and Wildlife Science Center, $27 
        million, an increase of $12 million more than fiscal year 2010. 
        We thank the subcommittee for its past strong support, 
        including the strong direction to the administration in the 
        fiscal year 2010 conference report that the future identity and 
        activities of the center remain distinct and accountable in the 
        overarching DOI climate change adaptation effort and urge that 
        strong support and oversight continue. We appreciate the 
        administration's requested increase of $8 million; however we 
        believe that a larger increase is needed to move more quickly 
        in establishing planned regional centers across the country.
  --For the BRD Research and Monitoring Program, a total of $170 
        million, an increase of $9.3 million above fiscal year 2010, 
        which includes a $5 million increase to support Landscape 
        Conservation Cooperatives, and for BRD Cooperative Research 
        Units, $22.5 million, an increase of $3.2 million. We have 
        concerns about the $3.6 million net decrease for BRD in the 
        request, but we appreciate the increases for FWS/NPS/BLM 
        science support ($4 million), in particular the $1 million for 
        BLM, the first time specific science support funding has been 
        requested for BLM.
    We urge the subcommittee to continue restoration of the Land and 
Water Conservation Fund (LWCF) at a total of $600 million, $425 million 
for Federal LWCF and $175 million for stateside. We are pleased at the 
significant increases in the request, but are concerned that a 
substantial portion is being directed to two other programs.
    Finally, we deeply appreciate the subcommittee's continued 
attention to the impacts of illegal immigration and related enforcement 
on sensitive land and wildlife resources along the Southwest border, 
and we urge continued oversight, funding and opposition to related 
riders hindering land management agency operations. In addition, we 
urge the subcommittee to work with the Department of Homeland Security 
(DHS) appropriations subcommittee to ensure that DHS provides funding 
to mitigate for any impacts from border security infrastructure, 
including the as yet unfulfilled commitment of $50 million in fiscal 
year 2009 funds and $40 million in fiscal year 2010 funds.
                                 ______
                                 
                    Prepared Statement of Dance/USA
    Madame Chairman and distinguished members of the subcommittee, 
Dance/USA is grateful for this opportunity to submit testimony on 
behalf of our members across the United States. We urge the Committee 
to designate a total of $180 million to the National Endowment for the 
Arts (NEA) for fiscal year 2011. This testimony is intended to 
highlight the importance of the Federal investment in the arts to 
sustaining a vibrant cultural community and to our national character.
    Dance/USA, the national service organization for not-for-profit 
professional dance, believes that dance is essential to a healthy 
society, demonstrating the infinite possibilities for human expression 
and potential, and facilitating communication within and across 
cultures. Dance/USA sustains and advances professional dance by 
addressing the needs, concerns, and interests of artists, 
administrators, and organizations. By providing services and national 
leadership, Dance/USA enhances the infrastructure for dance creation, 
education and dissemination. To fulfill its mission, Dance/USA offers a 
variety of programs, including data research and regional professional 
development, and works with organizations within and outside the arts 
field with whom common goals are shared. Dance/USA's membership 
currently consists of more than 500 ballet, modern, ethnic, jazz, 
culturally specific, traditional, and tap companies, dance service and 
presenting organizations, artist managers, individuals, and other 
organizations nationally and internationally. Dance/USA's member 
companies range in size from operating budgets of under $100,000 to 
more $50 million.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts.
    Before the establishment of the NEA in 1965, the arts were limited 
mostly to a few big cities. The Arts Endowment has helped strengthen 
regional theater, opera, ballet, and other artistic disciplines that 
Americans now enjoy. NEA funding provides access to the arts in regions 
with histories of inaccessibility due to economic or geographical 
limitations. The Endowment embodies the ideal that no one should be 
deprived of the opportunity to have art in their lives. The Arts 
Endowment has helped the arts become accessible to more Americans, 
which in turn has increased public participation in the arts.
    Despite diminished resources, the NEA continues to award grants to 
nonprofit arts organizations for projects that encourage artistic 
creativity. These grants help nurture the growth and artistic 
excellence of thousands of arts organizations and artists in every 
corner of the country. NEA grants also preserve and enhance our 
Nation's diverse cultural heritage. The modest public investment in the 
Nation's cultural life results in both new and classic works of art 
reaching all 50 States.
    NEA grants are instrumental in leveraging private funding. On 
average, each NEA grant generates at least $8 from other sources. 
Government cultural funding plays a catalytic leadership role that is 
essential in generating private support for the arts.
    The NEA is a great investment in the economic growth of every 
community.
    The return of the Federal Government's small investment in the arts 
is striking.
    The nonprofit arts industry generates $166.2 billion annually in 
economic activity, supports 5.7 million full-time equivalent jobs, and 
returns $12.6 billion to the Federal Government in income taxes. Few 
other Federal investments realize such economic benefits, not to 
mention the intangible benefits that only the arts make possible. Even 
in the face of tremendous cutbacks in recent years, the NEA continues 
to be a beacon for arts organizations across the country.
                           nea grants at work
    NEA grants are awarded to dance organizations through its core 
programs: Access to Artistic Excellence; Challenge America: Reaching 
Every Community; Federal/State Partnerships; and Learning in the Arts, 
as well as through initiatives such as American Masterpieces: Dance. 
The following are some examples of the impact of NEA funding on dance 
programs the NEA's 2010 Access to Artistic Excellence Program:
American Dance Festival, Inc., Durham, North Carolina, $70,000
    To support What is Dance Theater?, a series that will include works 
that blur the line between dance and theater. American Dance Festival 
will present a variety of American and international companies as well 
as commissioned new works.
American Tap Dance Foundation, Inc., New York, New York, $15,000
    To support Tap City, an annual summer tap festival. The festival 
offers training, education, special events, and performances.
Ballet Concierto de Puerto Rico, San Juan, Puerto Rico, $10,000
    To support an island tour as part of the company's 30th 
anniversary. The company will offer performances and outreach 
activities in rural communities across Puerto Rico.
Dance Saint Louis, St. Louis, Missouri, $25,000
    To support presentation of the River North Chicago Dance Company, 
Aszure Barton & Artists, and Giordano Jazz Dance Chicago. Performances 
will be presented at the Touhill Performing Arts Center on the 
University of Missouri-St. Louis campus.
Houston Ballet Foundation, Houston, Texas, $50,000
    To support the presentation of George Balanchine's Ballo della 
Regina and the world premiere of a new work by Houston Ballet associate 
choreographer Christopher Bruce. The ballets will be performed at the 
Wortham Theater Center.
Jacob's Pillow Dance Festival, Inc., Becket, Massachussets, $90,000
    To support residencies and performances of dance companies. The 
project will include a Creative Development Residency, presentation of 
national and international dance companies, and audience engagement and 
educational programs.
Spectrum Dance Theater, Seattle, Washington, $15,000
    To support the development and presentation of FAREWELL: A 
Fantastical Contemplation on America's Relationship with China. Through 
text, music, and movement, the project will explore critical human 
rights and social justice issues involving the United States and China.
              the non-profit professional dance community
    America's dance companies perform a wide range of styles and 
genres. These include both classical and contemporary ballet, classical 
and contemporary modern, as well as jazz, tap, cross-disciplinary 
fusions, and traditional to modern work rooted in other cultures. Over 
two-thirds of America's professional dance companies are less than 45 
years old; as an established art form with national identity and 
presence, dance has burst onto the scene almost entirely within living 
memory. And, yet, America can boast some of the greatest dance 
companies of the world and can take credit for birthing two indigenous 
dance styles--tap and modern dance.
    One key to this spectacular achievement has been the creation of a 
national marketplace for dance. When the National Endowment for the 
Arts instituted its Dance Touring Program in the 1970's, great dance 
became accessible to every community in America. What used to be a 
handful of professional companies and a scattering of ``regional'' 
dance has become a national treasure spread across cities and through 
communities, schools and theaters in all 50 States.
    There are now more than 600 professional dance companies in America 
as well as more than 1,000 pre-professional and semi-professional 
groups. Based on recent surveys, Dance/USA estimates that the 81 
largest and most visible nonprofit dance companies in the United States 
do the following:
  --Employed more than 6,000 people in a mix of full-time and part-time 
        positions;
  --Performed for total home audiences of nearly 2.9 million people;
  --Paid approximately $237.5 million in wages and benefits;
  --Had operating expense budgets totaling $452.2 million;
  --Earned $156.7 million, or 38 percent of their income, from 
        performances;
  --Earned $76.2 million from sales, tuitions, and activities other 
        than performances;
  --Received $16.7 million from State, local, and government 
        contributions;
  --Received $21.6 million from corporate contributions;
  --Received $46.2 million from private foundations;
  --Received $98.7 million from individual contributions through 
        donations, benefit events, guilds, and United Arts drives; and
  --Had over 24,300 volunteers, including more than 2,700 members of 
        Boards of Trustees.
                               conclusion
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties, and its programs are 
seriously underfunded. Dance/USA and other performing arts service 
organizations work hard each year to strengthen support for the NEA in 
Congress. As the NEA banner underscores, ``a great nation deserves 
great art.'' In order for there to be great art, organizations need 
stronger infrastructure and stability. Therefore, we urge you to 
increase the fiscal year 2011 NEA funding allocation to $180 million.
    On behalf of Dance/USA, thank you for considering this request.
                                 ______
                                 
     Prepared Statement of the Environmental Council of the States
                                summary
    The States' environmental agencies collectively support the 
President's 2011 State and Tribal Assistance Grants (STAG) budget 
request, and specifically support the Categorical Grants potion of that 
request, with the exception that we believe the Public Water System 
Supervision (PWSS) grant should be provided the same increase as the 
Clean Water Act 106 grant.
                               testimony
    The States are integral partners and co-regulators with the U.S. 
Environmental Protection Agency (EPA) in the implementation of the 
Nation's environmental laws. States conduct on EPA's behalf most of the 
permitting, enforcement, inspections, monitoring, and data collection 
required by those Federal environmental laws. In this document, the 
States' environmental agencies respectfully submit their collective 
comments on the 2011 budget proposal for the categorical grants portion 
of the EPA's budget that supports States, tribes, and local 
governments, known as the State and Tribal Assistance Grants (STAG).
    In the period 2004-2009, Federal support for State environmental 
protection declined. With the passage of the American Recovery and 
Reinvestment Act (ARRA) and the 2010 budget, this trend reversed for 
the infrastructure portions of the EPA budget. States committed 100 
percent of the safe drinking water and clean water ARRA funds within 
the time allotted, and exceeded the minimum requirements for 
expenditures on green infrastructure projects. We are grateful to 
Congress for the funding and proud of the States' achievements in 
quickly committing the infrastructure funds to important projects. We 
expect an excellent return in terms of both jobs and environmental 
compliance as a result of this investment.
    However, another portion of the Federal support for States has not 
been so fortunate. States rely on the ``categorical grants'' portion of 
the EPA STAG budget for support for the delegated and assumed programs. 
There are 20 categorical grants that cover the many environmental 
protection programs that States conduct in partnership with EPA. During 
the 3-year period 2007-2009, EPA promulgated 305 new or modified rules, 
for which essentially no additional funding was provided to the States. 
In addition, EPA continues to plan about 100 more new rules under 
development that will affect States.\1\ Many of these affect States 
because EPA expects States to implement them and, therefore, they carry 
an additional workload. Some of these may carry an especially heavy 
cost burden as well. For example, EPA listed five of these rules as 
having ``Federalism implications'' in 2009:
---------------------------------------------------------------------------
    \1\ See Fall 2009 EPA Semiannual Regulatory Agenda, Index D and E, 
and previous editions.
---------------------------------------------------------------------------
  --2020-AA47.--NPDES Program Management Information Rulemaking;
  --2040-AD39.--Uniform National Discharge Standards for Vessels of the 
        Armed Forces--Phase II;
  --2040-AA94.--National Primary Drinking Water Regulations: Radon;
  --2050-AE81.--Standards for the Management of Coal Combustion 
        Residuals Generated by Commercial Electric Power Producers; and
  --2070-AC64.--Lead-Based Paint Activities;
    These rules are in various stages of development, and there are 
others that have not yet been so designated that will no doubt be 
listed by the time the 2011 budget goes into effect. There are also 
other rules and policies that are not listed above that States believe 
will have equal or greater impact on their environmental agency budgets 
because they are new, are major modifications, or because they regulate 
previously unregulated industries.
    The primary concern of the States is that the number and complexity 
of new rules is arriving at a time when State resources are at their 
lowest in years. States are not opposing these rules, and may often be 
eager to implement them, but there is great concern among State 
environmental agency leaders about the resources being provided to 
accomplish these tasks.
    EPA has reported that ``for every dollar EPA Obligates, states 
contribute approximately 22 cents, which results in states, 
contributing 18 percent of the project cost.'' \2\ This conclusion is 
based on the minimum match requirements for categorical and 
infrastructure grants. However, for the largest categorical grants 
(e.g., 106, clean air, etc.), States greatly ``overmatch'' the Federal 
grant, which EPA's report does not take into account. Therefore, we 
find that in a typical State, 20-30 percent of the total categorical 
funding comes from EPA. The rest comes mostly from permit fees and 
State general funds.\3\ State environmental agencies have lost a 
substantial amount of their funding from non-Federal sources over the 
past year, with many States reducing staff and/or holding positions 
vacant.\4\ ECOS is currently documenting the cuts (or anticipated cuts) 
to State environmental agencies for fiscal years 2009, 2010, and 2011. 
This document is expected to be ready in June 2010.
---------------------------------------------------------------------------
    \2\ ``EPA Grants--State Cost Share'' via email from David Bloom to 
Steve Brown, February 25, 2010.
    \3\ State Environmental Expenditures, 2005-2008, Environmental 
Council of the States, March 2008.
    \4\ Impacts of Reductions in fiscal year 2010 on State 
Environmental Agency Budgets, in publication, Environmental Council of 
the States, March 2010. See www.ecos.org.
---------------------------------------------------------------------------
    The combination of new and modified rules, declines in Federal 
funding, and loss of State funding sources means the State-Federal 
environmental partnership is under great strain. States are making hard 
decisions about which parts of Federal programs they can continue to 
implement, and which parts they may have to ask EPA to undertake for a 
while.
    Fortunately, States and EPA have worked to improve our 
communications on these matters. Part of that communication has been 
State input into EPA's annual budget process. In 2009, as EPA began to 
develop its 2011 budget, ECOS was again asked to present its STAG 
budget needs. Focusing on the categorical grants (largely because ARRA 
had just passed and had addressed the infrastructure needs), ECOS 
presented the ``statement of needs,'' which outlined our assessment of 
the workload and the resources needed to accomplish it, with an 
emphasis on the largest categorical grants such as those previously 
listed. The resulting total for categorical grants was about double the 
current amount provided. However, we recognized that such a request 
would be very hard indeed to honor. So, we stated that ``Our base 
request is a 2 percent increase above 2010 appropriations to address 
inflation'' that would be applied to every categorical grant. We also 
explained that new rules would need new resources, especially this 
year.
    We were therefore pleased to see that EPA had listened to this 
request, and included an overall 14.3 percent increase for the 
categorical grants programs, with most receiving the 2 percent request 
and some (such as the air program and the clean water program which 
have new expansions) receiving larger amounts. This approach addresses 
some of the State needs, and is especially welcome during the current 
difficulties that States are facing in obtaining funding from State 
sources.
    The primary shortcoming in the agency's budget approach is that the 
drinking water program was not provided any increase. Our understanding 
from the agency is that it believed that previous budgets had addressed 
these needs. However, ECOS' examination of recent categorical grants 
budgets does not match the agency's assessment. For example:

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                    Categorical                                                     Comparative
                                   Grant: Public    PWSS annual      PWSS net       Comparative    net increase
                                   Water System     percentage      percentage     net increase       for Air
                                    Supervision      increase        increase       for CWA 106       Quality
                                      (PWSS)                                                        Management
----------------------------------------------------------------------------------------------------------------
2007 CR (base year).............     $98,274,000       Base year       Base year       Base year       Base year
2008 actual.....................      97,554,000          -0.738          -0.738           0.937          -1.580
2009 actual.....................      99,440,100           1.897           1.187           0.312           1.494
2010 actual.....................     105,700,000           5.922           7.556           6.061           2.874
2011 proposed...................     105,700,000  ..............           7.556          26.879          40.331
----------------------------------------------------------------------------------------------------------------

    This shows that the Categorical Grant for the drinking water 
programs is not keeping pace with the air and water point-source 
programs, and did not have a ``head start'' over the other programs in 
previous years that would carry it forward into the present, as the 
agency seems to assert. Furthermore, the PWSS grant had been 
supplemented by a Homeland Security grant of nearly $6 million per year 
that was eliminated in the 2010 budget. These duties must still be 
conducted, but the Homeland Security subcommittee seems unlikely to 
fund these activities, which means there is no funding source for them. 
In consideration of these facts and trends, we respectfully suggest 
that the PWSS categorical grant should be increased in an amount 
commensurate with the CWA 106 grant.
                          other considerations
    ECOS notes that the proposed EPA budget has eliminated several 
programs added by Congress in last year's or previous years' 
appropriations. Our endorsement of the President's budget should not 
necessarily be interpreted as opposition to these programs.
    ECOS understands that there is interest from some parties, 
including the General Accountability Office and the EPA Inspector 
General, in having EPA conduct a ``workforce analysis'' for at least 
the Clean Water program. ECOS agrees that this is overdue, but suggests 
that the analysis will be more accurate and complete if the States' 
role in implementing the act on behalf of the EPAis included as part of 
the workforce analysis. Should the subcommittee consider requiring EPA 
to conduct this analysis, the States' environmental agencies encourage 
you to include our role as part of the analysis.
                                 ______
                                 
   Prepared Statement of the Emissions Control Technology Association
    Madam Chairman and members of the subcommittee, my name is Tim 
Regan and I'm the President of the Emissions Control Technology 
Association (ECTA) and an executive with Corning Incorporated. ECTA is 
a trade association that promotes public policies to improve air 
quality by reducing mobile source emissions through the use of advanced 
technologies. ECTA represents the companies that have been at the 
cutting edge of mobile source emissions control technology for three 
and a half decades. Our members invented and developed the core, 
specifically the substrate and the catalyst, of the catalytic 
converter.
    Thank you for the providing me with the opportunity to submit 
written testimony in support of the Diesel Emission Reduction Act 
(DERA). This subcommittee has repeatedly recognized the importance of 
funding diesel emission reduction programs, and on behalf of ECTA I 
both thank you and encourage you to continue that commitment. 
Specifically, we respectfully request that the Committee fund the grant 
program authorized by the Diesel Emission Reduction Act of 2005 at $100 
million for fiscal year 2011.
    We are incredibly grateful for the $300 million in funding that you 
included in the American Recovery and Reinvestment Act of 2009 (ARRA) 
as well as the $80 million that you included in the fiscal year 2010 
budget for diesel emission reductions. This funding will not only 
assist in cleaning the air and protecting public health, but it also 
presents a unique opportunity to stimulate the economy in a timely and 
targeted manner.
The Challenge
    Thirty years ago, when the catalytic converter was first 
introduced, our industry was faced with the challenge of reducing 
nitrogen oxides from the transportation sector. Today, the challenge is 
to reduce the black smoke and smell from diesel exhaust. Once again, 
our industry has risen to the challenge by developing a full range of 
devices, commonly known as ``after-treatment'' technology that remove 
fine particulate matter and other pollutants in diesel exhaust.
    Our technology is required equipment on all new on-road heavy duty 
vehicles entered into service after January 1, 2007. This will make a 
significant contribution toward cleaner air and better health. In fact, 
EPA estimated at the time the so-called 2007 Highway Rule was 
promulgated that the technology would generate $66 billion in economic 
and health benefits annually when the new vehicles significantly 
penetrated the fleet after the year 2020.\1\
---------------------------------------------------------------------------
    \1\ See Environmental Protection Agency (July 7, 2005), ``2007 
Heavy-Duty Highway Final Rule,'' http://www.epa.gov/OMSWWW/diesel.htm.
---------------------------------------------------------------------------
    The challenge that we continue to face is how to retrofit this new 
technology onto existing vehicles and engines that are being used 
today. These vehicles and engines do not have the emissions control 
technology that is required for new vehicles. Consequently, they are 
the ``dirtiest'' diesel devices in use, and there are a lot of them.
    EPA estimates there are currently 20 million heavy duty diesel 
engines in use today, the so-called ``legacy fleet.'' \2\ Because 
diesel engines are so durable, the existing equipment in the fleet will 
not be fully replaced until the year 2030. The best way to clean up the 
legacy fleet is to retrofit it with the same kind of technology that is 
being installed on new vehicles. This retrofit equipment could include 
after-treatment devices, such as a diesel particulate filter or a 
diesel oxidization catalyst. It also could include vehicle replacement, 
engine replacement, engine rebuilds, and engine repair.
---------------------------------------------------------------------------
    \2\ Environmental Protection Agency, ``Report to Congress: 
Highlights of the Diesel Emission Reduction Program.'' http://
www.epa.gov/otaq/diesel/documents/420r09006.pdf p. 3.
---------------------------------------------------------------------------
    Unfortunately, the cost of purchasing and installing diesel 
retrofits oftentimes does not introduce enough operational efficiency 
to generate a return on the investment. So, equipment owners are 
understandably reluctant to invest in a retrofit unless they are given 
some form of financial assistance to help defray the cost. And, it 
makes sense for the public to help finance retrofits because they 
generate benefits in the form of cleaner air and improved public health 
for all of society.
Congressional Action
    To the credit of Congress, it has acted to provide the necessary 
financial assistance to promote the deployment of diesel retrofits. 
This subcommittee started addressing this problem as far back as fiscal 
year 2003. At that time, the subcommittee took the lead in 
appropriating $5 million to provide the original funding for the Clean 
School Bus USA program.
    Based on the positive experience with the Clean School Bus USA 
program, Congress took another big step in 2005 to advance the 
deployment of diesel retrofits. Specifically, as part of the Energy 
Policy Act, Congress proposed and passed DERA. This provision of law 
authorized the expenditure of $1 billion over 5 years to finance diesel 
retrofits through grants and revolving loans. The authorization calls 
for the appropriation of $200 million per year for fiscal year 2007 
through fiscal year 2011.
    Madame Chairman, your subcommittee has done a valiant job in trying 
to find the resources to fund DERA. These are difficult financial 
times. All Federal accounts are under stress, especially those under 
the jurisdiction of this subcommittee. But under your leadership, your 
subcommittee has continued to approve funding for this extremely 
important and cost-effective program. We appreciate the subcommittee's 
efforts.
The Problem
    Unfortunately, the resources available to fund diesel retrofits far 
exceeds the demand, even with the $300 million of funding included in 
the American Reinvestment and Recovery Act (Recovery Act). Despite 
increased funding in recent years, the DERA program continues to be 
oversubscribed. In fiscal year 2008, EPA received approximately $5 in 
requests for every available dollar.
    This trend continued with the Recovery Act funding. The national 
grant component of the DERA program under the Recovery Act contained 
funding for $155.8 million worth of clean diesel projects. However, EPA 
received 598 applications requesting a total of $1.7 billion and 
providing $2.2 billion in matching funds. This translates into a 
request of $10 for every $1 available.
Our Request and Rationale
    In light of this strong demand for funding, we respectfully request 
$100 million for the Diesel Emissions Reduction Act (DERA) in fiscal 
year 2011. We believe that this proposed increased level of funding is 
reasonable and appropriate for several reasons.
    First, the money will be well spent because diesel retrofits have 
been proven to be one of the cost-effective emission reduction 
strategies. Studies have shown that emission reduction strategies which 
involve the use of diesel retrofit technology can, in almost every case 
analyzed, achieve lowest cost per ton of emissions reduced compared a 
long list to other strategies for reducing emissions from the 
transportation sector.\3\ For example, installing a diesel particulate 
filter on a Class 7 heavy duty truck is 15 times more cost-effective 
than replacing a conventional bus and 46 times more cost-effective than 
building an HOV lane.\4\
---------------------------------------------------------------------------
    \3\ See ECTA comments (February 20, 2007) in Federal Highway 
Administration Docket No. FHWA-2006-26383, http://dmses.dot.gov/
docimages/p89/454896.pdf, http://dmses.dot.gov/docimages/p89/
454899.pdf.
    \4\ Ibid, Table 4, p. 10, http://dmses.dot.gov/docimages/p89/
454896.pdf.
---------------------------------------------------------------------------
    Second, DERA represents a unique opportunity to simultaneously 
stimulate the economy and save jobs while improving national 
environmental and health outcomes. DERA funding is targeted at 
industries undergoing significant dislocation and layoffs. In 
particular, as a study by Keybridge Research notes ``the economic 
impact [of DERA funding] is likely to be the greatest in auto parts 
manufacturing and heavy-duty truck (e.g., school bus) manufacturing 
sectors, which have sustained job losses at nearly 9-times and 7-times 
the national rate.'' Employing a methodology based on the use of 
standard economic multipliers provided by the Bureau of Economic 
Analysis's RIMS II model, Keybridge Research concluded that DERA is 
likely to generate approximately $6 of increased economic output for 
every $1 of Federal expenditures.\5\
---------------------------------------------------------------------------
    \5\ Keybridge Research, LLC, ``Green Stimulus: The Economic Impacts 
of Funding the Diesel Emission Reduction Act.'' http://www.ectausa.com/
documents/DERAEconomicImpactStudy.pdf p. 16.
---------------------------------------------------------------------------
    Third, spending on diesel retrofits generates a substantial return 
on an investment. When DERA was enacted, EPA estimated that, if fully 
implemented, the program would generate $20 billion of economic and 
health benefit for $1.5 billion of cost. In a recent Report to Congress 
on the first year of the DERA program (fiscal year 2008), the EPA 
estimates that for every $1 spent on the DERA program, an average of 
more than $20 in health benefits are generated.\6\
---------------------------------------------------------------------------
    \6\ Environmental Protection Agency, ``Report to Congress: 
Highlights of the Diesel Emission Reduction Program.'' http://
www.epa.gov/otaq/diesel/documents/420r09006.pdf p. 11.
---------------------------------------------------------------------------
    Fourth, because DERA sets aside 30 percent of its funds for a State 
Grant Program, it can be used to help States reach attainment of the 
National Ambient Air Quality Standards (NAAQS) for particulate matter. 
Every State in the Nation now has a diesel retrofit program and would 
benefit from DERA funding.
    Fifth, increasing the installation of clean diesel retrofits 
through significant funding for DERA can generate global warming 
benefits. While U.S. EPA and others continue to study the issue, recent 
studies show that black carbon from diesel exhaust has global warming 
potential. Clean diesel retrofits can reduce this black carbon by more 
than 90 percent.
    Finally, there is a very broad base of support for the DERA 
program. From the beginning, DERA enjoyed strong support from both 
sides of the aisle in Congress and from the entire range of private 
interests and nonprofit public interest groups. Few environmental 
programs enjoy such widespread support.
State and Local Air Quality Grants
    We would also like to endorse the request for increased funding to 
support State and local air quality grants that is being requested by 
the National Association of Clean Air Agencies (NACAA) in their written 
testimony submitted to the Subcommittee. State and local governments 
hold primary responsibility for preventing and controlling air 
pollution. They rely on grants to carry out their core obligations 
under the Clean Air Act, including monitoring air quality, assessing 
emissions impacts, permitting and inspecting sources, and enforcing 
environmental regulations.
    For fiscal year 2011, NACAA recommends that grants within the STAG 
program for State and local air pollution control agencies under 
Sections 103 and 105 of the Clean Air Act be funded at $309.1 million, 
an $82.5 million above the fiscal year 2010 appropriation. We support 
NACAA in this request.
Conclusion
    Thank you again Madam Chairman for the opportunity to appear before 
the subcommittee. In closing, we urge you to fund DERA at $100 million 
for fiscal year 2011 because it will result in the most cost-effective 
use of Federal funds to achieve emission reductions from the 
transportation sector.
                                 ______
                                 
    Prepared Statement of the Energy Minerals Reclamation Committee
    Dear Chairman Feinstein and Senator Alexander: On behalf of the 
coal mine reclamation agencies in the States of Colorado, Montana, New 
Mexico, Utah, and Wyoming, we are writing to convey our concerns with 
the administration's proposed 15 percent ($11 million) reduction in 
State regulatory grants in fiscal year 2011 authorized under the 
Surface Mining Control and Reclamation Act (issued by the Office of 
Surface Mining Reclamation and Enforcement). More than one-half of the 
Nation's coal is mined in our States.
    In fiscal year 2010, Congress approved an additional $5.8 million 
increase for State title V grants over the fiscal year 2009 enacted 
level, for a total of $71.3 million. Congressional action helped avert 
serious problems in the funding of Western State regulatory programs as 
outlined in a report we prepared in November 2006, ``An Impending 
Crisis for Coal Supplies'' (http://www.westgov.org/wieb/reclamation/
2006/12-01-06finalrpt.pdf). Congressional action was essential to 
restoring the Federal share of State regulatory programs and reversing 
a 12-year period during which OSM costs were adjusted for inflation but 
State regulatory grants were not.
    The administration's proposed fiscal year 2011 budget threatens to 
undo the progress made by Congress. The administration's proposal to 
cut State regulatory grants--a proposal that is based on the 
unsupported assumption that State permit fees can be quickly raised to 
fill the budget hole--is completely unrealistic. The most likely 
outcome of the administration's proposal is serious erosion of State 
program capabilities as positions go unfilled, personnel are laid off, 
and needed equipment purchases are deferred. As State program 
capabilities erode, so do our abilities to orderly review and enforce 
coal mine permits and to protect the public from any potential health 
and environmental impacts of coal mining.
    We appreciate the support Congress has provided state regulatory 
programs through title V grants and the funding of critical OSM 
training and technical assistance programs. We urge you to block the 
administration's proposals that would undercut effective regulatory of 
coal mining by the States and maintain the constructive course Congress 
has been on in the last several years.
                                 ______
                                 
      Prepared Statement of the Enewetak/Ujelang Local Government
    Madam chairman and distinguished members of this subcommittee: 
Thank you for providing us this opportunity to the people of Enewetak 
to describe issues that relate to our ability to live on our homeland 
of Enewetak Atoll, which was used as a nuclear test site by the United 
States from 1947 to 1958.
    As the only people ever resettled on a nuclear test site, we face 
many challenges. Life on Enewetak Atoll is made possible through 
support provided by the congressionally funded Enewetak Food and 
Agriculture Program. That program provides funding for imported food, 
an agriculture rehabilitation program, and the operation of a vessel. 
We request that funding for that program for fiscal year 2010 be 
increased by the amount of $500,000, the same amount of increase as 
provided by Congress in fiscal year 2010. Also, we hope that this 
committee will support continued funding of the health program for the 
four nuclear affected atolls of which we are one, and funding for the 
environmental monitoring by the Department of Energy of the Runit 
Island nuclear waste site which is on our atoll.
    Before we discuss the particulars of this request, we would first 
like to thank you, Madam Chairman, and members of this committee, on 
behalf of the Enewetak people, for your support in funding the food and 
agriculture program for my people in the Compact of Free Association. 
We also thank you for your past support in assuring that the Enewetak 
Food and Agriculture Program is adequately funded, particularly your 
support for the $500,000 increase for fiscal year 2010 and your 
approval of our request to purchase a replacement vessel during fiscal 
year 2008 from previously appropriated program funds.
    As you know, Enewetak Atoll was the site of 43 of the 67 nuclear 
tests the United States conducted in the Marshall Islands. We were 
removed from our land by the U.S. Government to make that testing 
possible. We were exiled from our land for a period of more than 33 
years--a period in which we suffered near starvation, poor health, and 
lack of education.
    In 1980, after a significant cleanup, soil rehabilitation, and 
resettlement effort undertaken by the United States, we were able to 
return and live on only a part of our land. A large part of our land 
and environment remain contaminated making it impossible for us to rely 
on our natural food resources and preventing us from developing a 
fishing or tourist economy.
    We now live on a former nuclear test site. In fact, we are the only 
people ever resettled on a nuclear test site. The Enewetak Food and 
Agriculture Program makes life on Enewetak possible. And that is why we 
are so thankful to you for assuring funding in the minimum amount of 
$1.3 million for the program in the Compact.
    However, the program was funded at a level of approximately $1.9 
million in fiscal year 2010 and close to that amount for the past 
several years. That funding level needs to continue to maintain the 
minimum components of the program which include a soil and agriculture 
rehabilitation program, the importation of food, and the operation of a 
vessel. Therefore, we request your support for the additional $500,000 
for the program for fiscal year 2011 so that the components of the 
program will be funded in the total amount of $1.9 million, as has been 
the case these past several years.
    In 2008 we faced a challenge with regard to the transportation of 
food, material, equipment, supplies, and transport of people to and 
from our atoll. Our atoll is the most distant atoll from Majuro Atoll, 
the capital of the Marshall Islands. In fact, the distance between 
Majuro and Enewetak is 600 miles one way. All of our food, material, 
supplies, and equipment are sent to Majuro for further transshipment to 
Enewetak. Consequently, a reliable vessel is a lifeline for us. The 
vessel available to us up to fiscal year 2009 was so old that parts 
were difficult if not impossible to find. Therefore, we were in the 
market for a replacement vessel that would be even more suitable for 
voyages between Enewetak and Majuro than the vessel we had. We found a 
suitable vessel and greatly appreciate the approval provided by this 
committee to purchase the replacement vessel from previously 
appropriated program funds. That vessel was in service as of 2008 and 
provides the necessary sea transport to support each of the components 
of the program.
    A final comment on the Enewetak Food and Agriculture Program: This 
program is a true success story. It allows us to live on our homeland 
while providing the resources which allow us to attempt to accomplish 
some of the rehabilitation required to transform part of the atoll from 
a severely damaged nuclear test site to a place that more resembles 
home. The additional $500,000 to maintain current funding levels will 
ensure the continued success of this program.
    Now we would like to briefly address the four atoll healthcare 
program. Funding for fiscal year 2011 is necessary to continue the 
program. We appreciate the funding for such program provided by the 
Congress in the amount of $1 million for fiscal year 2010. However, 
continued funding is required to maintain the key elements of the 
program which provide for an on-site physician for each of the four 
atolls, necessary medicines and supplies, funding for a health aide for 
each atoll, and funding for care of the people of the four atolls at 
the hospitals in the Marshall Islands when required.
    Lastly, we need to mention the nuclear waste site on Runit Island. 
That site was built by the United States and contains more than 110,000 
cubic yards of material including plutonium and other radioactive 
debris. This site needs to be monitored to assure the integrity of the 
structure and to assure that no health risks from the radioactive waste 
site are suffered by us. To effect the foregoing, a long-term 
stewardship program of Runit Island needs to be implemented by the 
United States.
    Again, Madam Chairman, we thank you and members of this 
subcommittee for your support which makes life possible for us on our 
home atoll of Enewetak.
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa
    I am Karen R. Diver, Chairwoman of the Fond du Lac Band of Lake 
Superior Chippewa. We appreciate having the opportunity to provide you 
with testimony on fiscal year 2011 appropriations for the Indian 
programs funded through the Department of the Interior and Indian 
Health Service (IHS). The Fond du Lac Band provides health, education, 
social and other governmental services to 6,500 Indian people living on 
or near our reservation in northeastern Minnesota. These programs are 
essential to our ability to educate our children, care for our elderly 
and infirm, prevent crime, and protect and manage natural resources.
    Bureau of Indian Education (BIE): Education.--We urge Congress to 
substantially increase funding for BIE elementary/secondary school 
programs. The Fond du Lac Band relies on BIE funding for the operation 
of the Band's pre-K through grade 12 Ojibwe School. The Ojibwe School 
serves approximately 320 students most of whom are tribal members or 
descendants of tribal members. Most of our students come from very-low-
income households, illustrated by the fact that more than 90 percent of 
our students qualify for free or reduced rate lunch. But although 
American Indian students are the most at-risk group of students in our 
Nation, the BIE elementary/secondary school programs have been 
historically underfunded. The necessary increases in education program 
funding can and should be offset in part by reductions in BIE's 
administrative costs so that more funds go directly to the schools 
where they can most effectively be used. We ask that BIE elementary/
secondary school program funding be adjusted as follows:
    Increase Indian School Equalization Program (ISEP) Formula Funding 
by 29 Percent From Fiscal Year 2010 Enacted Levels.--We urge Congress 
to increase by 29 percent ($112 million) the ISEP formula funds. ISEP 
formula funds are the primary means by which we pay the costs of school 
operations and education programs but these funds have consistently 
fallen very far short of our need. As described in the President's 
budget, 75 percent of the tribal and Bureau of Indian Affairs (BIA) 
schools are struggling and at risk of failing to meet the adequate 
yearly progress goals required by the No Child Left Behind Act. The 
Fond du Lac Ojibwe School is among those at risk. Far too many tribal 
and BIA schools are in need of intervention, restructuring or 
corrective action under that act, but existing funding levels are not, 
and have never been, sufficient to help us meet the act's requirements. 
Instead, funding shortfalls have forced us over the years to cut back 
programs, layoff teachers and school aids, and reduce working hours for 
others. For our students to succeed, our schools need a commitment of 
high-priority support so that we can pay competitive salaries to 
attract and retain skilled teachers; invest in research-based reading 
and math curricula; keep pace with costs of student transportation; and 
provide early childhood development programs.
    Increase School Facility Operations by $30 Million and School 
Facility Maintenance by $3 Million From Fiscal Year 2010 Enacted 
Levels.--We urge Congress to increase funding for school facility 
operations and school facility maintenance as past funding has failed 
to keep pace with the cost of school operations or the growing backlog 
of Indian schools and facilities needing repair.
    Increase Tribal Grant Support Costs (TGSC) by $21 Million.--We 
appreciate the President's proposal to increase funding for TGSC. 
However, because these funds have seen no increase for many years even 
though costs have risen, we urge that these funds be increased by $21 
million from the fiscal year 2010 enacted level.
    Increase Student Transportation by $6.2 Million.--We also urge 
Congress to increase funding for student transportation by $6.2 
million. Rising fuel costs and the need to replace vehicles forces us 
to reallocate money needed for education programs to pay for 
transportation so we can ensure that our children are able to get to 
school safely. We should not have to choose between funding education 
programs and providing safe and reliable transportation services to our 
students.
    Proposed Decreases in BIE Administrative Costs.--In our view, these 
increases in funding for the school programs can and should be offset 
in part by decreasing funds for BIE's administrative functions. Over 
the past 6 years, funding for BIE education management has more than 
tripled while funding for all of the school-based programs have 
remained essentially the same, with only some modest increases for some 
programs in very recent years. The funds allocated for BIE management 
are not needed. BIE has failed to provide any meaningful assistance to 
schools in corrective action or in restructuring under the No Child 
Left Behind Act. It has not provided information to schools regarding 
funding opportunities. Indeed, even when BIE has funds for grants, BIE 
fails to timely award them--as has occurred with the technology grants 
that should have been awarded in October 2009 and which we desperately 
need to update our technology structure for our students. For these 
reasons we recommend that funds allocated for BIE administrative 
functions be decreased. This includes: decreasing BIE education 
management by $10,000,000; decreasing BIE program enhancements by 
$12,067,000; and eliminating the proposed BIE ISEP program adjustments 
of $7,238,000. This shift in funding will better ensure that the money 
is targeted to our schools where it can be most effectively used for 
teacher salaries, education programs, school maintenance, and student 
transportation.
    BIA: Public Safety and Justice.--We urge Congress to increase BIA 
funding for law enforcement above the level proposed in the President's 
budget. While we support the President's proposal to increase law 
enforcement funding to enhance the number of FBI agents working in 
Indian country, this should not be at the expense of increased funding 
for tribal law enforcement. In our experience, the FBI's work will be 
limited to targeting specific major crimes. The FBI will not address 
the very substantial day-to-day law enforcement needs that arise on 
most Indian reservations which must be addressed by tribal law 
enforcement departments like the Fond du Lac Band's law enforcement 
department. We also ask that Congress increase the Band's base funding 
by $2 million for court operations and law enforcement, and provide a 
one-time appropriation of $8 million to allow us to expand the facility 
that houses our law enforcement department, but which is completely 
inadequate for that purpose.
    We continue to face massive unmet needs for law enforcement on 
matters that are not addressed by the FBI. We had to assume 
responsibility for law enforcement after the Minnesota Supreme Court 
ruled that the State did not have jurisdiction to enforce traffic laws 
on roads within Indian reservations, State v. Stone, 572 N.W.2d 725 
(Minn. 1997). We have done this using a combination of tribal and 
Federal funds (made available through the Community Oriented Policing 
Services (COPS) program and the BIA), and by cooperative agreements 
with local law enforcement agencies. But because of the insurgence of 
methamphetamine, alcohol, illegal prescription drug use, and gang-
related activities on our reservation our law enforcement 
responsibilities continue to grow. Prescription drug abuse is an 
epidemic. Increasing numbers of our elders and others are the victims 
of more frequent assaults and robberies that are prescription drug 
related. Our officers are responding to a growing number of drug-
related overdoses and deaths, as well as juvenile offenses involving 
drugs, alcohol, thefts, assaults, and burglaries. In 2009 alone, we 
responded to more than 1,000 reported incidents and requests for 
assistance. These include, for example, reports and requests involving 
domestic disputes, disturbances, disorderly conduct, property damage, 
drug incidents, theft, medical emergencies, fire, neglected children, 
runaways, suicide threats, not to mention hundreds of traffic-related 
matters.
    To address these problems, we need to increase our law enforcement 
staff so that we can station police officers in specific locations, 
such as near elderly housing, and ensure effective law enforcement 
coverage 24/7. But we do not have sufficient funds to attract and 
retain the number of officers that we need. We currently employ 12 
patrolmen, 1 investigator, 1 school resource officer (assigned to the 
Ojibwe School to try and stem the tide of juvenile crime), a Chief of 
Police, and 3 administrative staff. Our goal is to schedule three 
officers per shift, but we do not have sufficient funds to do this 
around the clock. Fewer officers on duty means serious safety issues 
for both officers and the people we need to protect. Our limited staff 
also means that we cannot implement pro-active measures, such as youth 
education and outreach programs, and assistance to the clinics in 
developing means for identifying and preventing prescription drug 
abuse. To effectively address law enforcement, we need approximately 20 
officers, but do not have the funding for this.
    Federal funding is also vital for law enforcement equipment. We 
appreciate the help that we have received on this through the COPS 
program, but to effectively address crime, we still need to 
periodically upgrade or replace patrol cars, radar equipment, and in-
squad computers. We need e-ticket (ticket writers), and in-squad 
cameras for patrol cars. We need to replace our existing radio system 
to narrowband. In addition, the nearby counties have enhanced their 9-
1-1 system. As a result, we need additional funds to effectively 
integrate the Band's system with that used by those counties as well as 
a T-1 communications line to establish a more secure connection to that 
system.
    Finally, we need a new facility for our law enforcement department. 
The department is now housed in a 6-room building which we share with 
the Band's housing program, and which has no room for investigative 
interviews, nor office space for specialty positions such as 
investigators. The evidence room and reception area are all completely 
inadequate for law enforcement purposes. A new building with a garage, 
along with a larger evidence room and storage room for record keeping, 
and a training room for officers, is essential.
    BIA: Natural Resources.--We very much appreciate the increase in 
funding for BIA natural resource programs that Congress provided for 
fiscal year 2010 and urge Congress to at least maintain if not increase 
those funding levels. Natural resources are vitally important to our 
tribal members as they provide the foundation for our culture, meet 
subsistence needs, and provide employment. The Fond du Lac Band's right 
to access natural resources within and outside our reservation was 
reserved by Treaties with the United States in 1837 and 1854 and 
reaffirmed by the courts. In connection with these Treaty rights, the 
Band is responsible for managing natural resources and for enforcing 
Band conservation laws that protect those natural resources by 
regulating tribal members who hunt, fish, and gather those resources 
both within and outside the reservation. Funding is essential for that 
work. We request that $2 million be added to our base budget for 
resource management programs, as funds for this program have not been 
increased since 1991.
    BIA: Human Services.--We support the President's proposed increase 
in funding for human services programs including those funded through 
TPA, such as the Indian Child Welfare Act program but urge Congress to 
increase funding by more than the $2 million proposed. A larger 
increase is needed to address the impact that the methamphetamine 
epidemic has on not only public health and safety, but also on child 
protection, child welfare and foster care services. Increased funding 
for social services and ICWA programs are essential if tribes are to 
have any realistic hope of protecting Indian children, preventing 
domestic violence, and fostering Indian families.
    IHS.--We fully support the President's proposed increase in funding 
for IHS and appreciate the commitment that the administration and 
Congress have made to address the funding needs for healthcare in 
Indian country. The President's proposed increase is essential to 
address the high rates of medical inflation and the substantial unmet 
need for healthcare among Indian people. Indians at Fond du Lac, like 
Indians throughout the Nation, continue to face disproportionately 
higher rates of diabetes and the complications associated with 
diabetes, than the rest of the population. Heart disease, cancer, 
obesity, chemical dependency, and mental health problems are also 
prevalent among our people. While other Federal programs, like Medicare 
and Medicaid, have seen annual increases in funding to address 
inflation, the budget for IHS has never had comparable increases, and, 
as a result, IHS programs have consistently fallen short of meeting the 
actual needs. All Indian tribes should receive 100 percent of the level 
of need formula, which is absolutely critical for tribes to address the 
serious and persistent health issues that confront our communities. The 
Band serves approximately 6,707 Indian people at our clinics, but the 
current funding level meets only 38 percent of our healthcare funding 
needs.
    In conclusion, the needs at Fond du Lac and throughout Indian 
country remain massive. Your support on these funding issues is 
essential to our ability to maintain vitally important programs and 
improve the delivery of services to Band members. Miigwech. Thank you.
                                 ______
                                 
  Prepared Statement of The Friends of the Bosque del Apache National 
                            Wildlife Refuge
    Madam Chairman and members of the subcommittee: The Friends of the 
Bosque del Apache National Wildlife Refuge wish to express their 
sincere thanks for your efforts to increase funding for the National 
Wildlife Refuge System (NWRS). We also thank you for again holding a 
public witness hearing, allowing us to describe our individual refuges 
and the challenges we face. As the Executive Director of the Friends of 
the Bosque del Apache National Wildlife Refuge, I submit this written 
public testimony to offer comments on the fiscal year 2011 Interior, 
Environment, and Related Agencies appropriations bill. Specifically, we 
request a funding level of $578 million for the U.S. Fish and Wildlife 
Service, NWRS in fiscal year 2011, and continuation and funding of the 
Department of the Interior's Challenge Cost Share Program.
    Since fiscal year 2008, Congress has provided critical funding 
support for the NWRS's operations and maintenance, allowing for the 
temporary suspension of workforce downsizing plans and for urgent 
projects to be completed. However, the administration's proposal to cut 
NWRS funding by $3.3 million in fiscal year 2011 could stall or even 
reverse recent progress, threatening habitat preservation projects, 
invasive species eradication, law enforcement capabilities, 
environmental education, and visitor services for 41 million visitors 
each year. Such cuts could be devastating for the local communities 
whose economies rely on the jobs and tourism provided by local National 
Wildlife Refuges. The economic impact of the Bosque del Apache NWR in 
New Mexico is significant, as recreational visits to the Refuge 
generate more than $4.3 million in tax revenue for the region. For 
every $1 of the Refuge budget, there is a local economic effect of 
nearly $8.
    The effectiveness and importance of the Challenge Cost Share 
Program (CCS) to Bosque del Apache NWR and many other Refuges is 
undeniable, as it leverages funding through strategic partnerships to 
achieve much more than through Federal funding alone. Shortfalls in the 
program's reporting and accountability must be corrected through more 
stringent and enforced guidelines, not by cutting one of the few 
programs that has truly enabled a broad range of collaborative projects 
that benefit our natural resources. At Bosque del Apache, CCS has 
facilitated water management and habitat improvements, graduate student 
research projects, youth outdoor education and hunting programs, 
visitor services improvements, coordination of our annual birding 
festival (the single greatest income-generating event for our county), 
and research into the efficiency of current land use and wildlife 
management practices. The projects totaled $160,000 in CCS funds, but 
generated more than $185,000 in matching contributions, accomplished 
projects across the spectrum of USFWS objectives, and fostered 
partnerships with educational institutions, nonprofit agencies, and 
State agencies.
    Volunteer organizations such as the Friends provide laudable and 
needed supplements to the NWRS, but should not be looked to as 
substitutes for the Refuge programmatic and operational support that is 
a proper Federal responsibility. Our commitment to the Bosque del 
Apache National Wildlife Refuge has allowed us to supplement the 
economic and educational opportunities for our region. However, we can 
scarcely maintain, much less grow, the Refuge's capabilities without an 
adequate Federal budget and mechanisms, such as the Challenge Cost 
Share Program, for leveraging Friends' support. The Bosque del Apache 
NWR has often been described as the ``Jewel of New Mexico.'' Yet that 
description applies not only to the amazing natural resource that is 
the Bosque, but also to the Refuge's role as an economic engine. Its 
role in our community, in our economy, and in the broader mission of 
restoring and preserving our natural heritage is why we must do what we 
can to help it thrive. As our cities grow and water demands increase, 
future generations will need the Bosque del Apache NWR and the lessons 
it is teaching us to help us appreciate the delicate ecological balance 
that exists in the Southwest and beyond. We can never underestimate the 
importance of National Wildlife Refuges to our children's futures, to 
the environment, and to our economies.
    We encourage you to help us make a difference by funding the NWRS 
at $578 million in fiscal year 2011, and by ensuring that the 
Department of the Interior's Challenge Cost Share Program is funded.
    Thank you for your time and consideration, and please contact me if 
you have any further questions.
                                 ______
                                 
               Prepared Statement of Friends of Back Bay
    I am Molly Brown from Virginia Beach, Virginia. I am the President 
of Friends of Back Bay, a group of more than 150 dedicated volunteers 
who are committed to the protection of the Back Bay National Wildlife 
Refuge. Located in southeastern Virginia Beach, Back Bay National 
Wildlife Refuge (Refuge) was established on February 29, 1938, as a 
4,589-acre refuge and breeding ground for migratory birds. We thank 
Congress for their continued support of this project. The Director of 
the U.S. Fish and Wildlife Service approved a Refuge boundary expansion 
on May 7, 1990. The expansion area includes 6,340 acres of important 
wildlife habitat. To date the Fish and Wildlife Service has been able 
to acquire 4988 acres.
    In order to continue the Back Bay Refuge expansion project, we 
respectfully request $1 million for fiscal year 2011. This money will 
help to fill in the mosaic pattern of small land parcels from willing 
sellers who have been waiting patiently to sell their land to the 
Refuge. This continuing project was first funded by Congress in 1990. 
With only a few remaining parcels to purchase, we hope Congress will 
want to see this Back Bay project completed.
    The enclosed map gives a visual description of the Acquisitions 
through 2009 and the remaining parcels by priority to be purchased from 
willing sellers within the Back Bay National Wildlife Refuge proposed 
acquisition boundary. Here is a brief description of each parcel.
Fiscal Year 2010
    Rice: Tract 249--$425,000--8 Acres--Closing this fiscal year (2010) 
with LWCF funds appropriated. This project uses most of the 
appropriated funds with the remainder ($120,000) to be ``banked'' in 
combination with future funds to complete acquisitions, as listed 
below. Project Description--valuable riparian/wetland habitat on the 
southern bank of Nanney's Creek. This Creek has been identified as one 
of Virginia Beach's ``impaired waterways'' by the State DEQ. 
Cooperative efforts by private landowners (mostly farmers), the City of 
Virginia Beach, the State of Virginia and Back Bay NWR are ongoing to 
restore the water quality of this tributary of Back Bay. This property 
is adjacent to existing Refuge property on its north and east 
boundaries.
Fiscal Year 2011
    Brown: Tract 193--$216,000--18 Acres. Project Description--Mostly 
forested wetlands on the west side of Back Bay with existing valuable 
habitat for migratory birds, especially neotropical migrants. This 
property is within the original Refuge acquisition boundary and is 
adjacent to existing Refuge property on three sides (North, East, and 
South). Option to purchase in effect.
    Johnson: Tract 173--$402,000--30 Acres. Project Description--
Emergent marsh habitat adjacent to Ashville Bridge Creek with existing 
valuable habitat for migratory birds, especially waterbirds. This 
property is within the original Refuge acquisition boundary and is 
adjacent to existing Refuge property on three sides (North, East, and 
West). Option to purchase in effect.
    Van Nostrand: Tract 250--$200,000--15 Acres. Project Description--
This property has been cleared, and is ready for farming and/or 
development. Although the current habitat has little wildlife value, 
reforestation of this parcel, as Back Bay NWR has done with so many 
other parcels, will serve as quality habitat for a variety migratory 
birds, especially neotropical migrants. Option to purchase in effect.
    Griffith: Tract 100c, d and e--$250,000--105 Acres. Project 
Description--Emergent marsh habitat on the east side of Back Bay. This 
property already supports a wide variety of nesting and wintering 
migratory birds, especially waterfowl. Because this parcel is located 
on the bay side of the highly developed Sandbridge area of Virginia 
Beach, failure to acquire this piece could result in increased private 
recreational boating facilities by individuals who own lots/houses 
adjacent to this property. The Refuge is currently partnering with The 
Conservation Fund to appraise and acquire this parcel.
    Good things continue to happen at Back Bay! A new educational 
project to enhance the wildlife viewing opportunities of the public is 
the ``windows on wildlife.'' This one-way glass will allow the public 
to watch migratory birds without being seen by and thus disturbing the 
waterfowl. This project opened this winter. On a recent January day, 
the pond featured a visual smorgasbord of tundra swans, Canada geese, 
black sucks, snow geese, mallards and pied-billed grebes. A red-tail 
hawk flew close to the building and landed on the branch of a near by 
tree. This ``national treasure'' received 150,000 visitors in 2009.
    This March the Back Bay Restoration Foundation conducted its 9th 
annual Back Bay Forum 2010. There were presentations on research and 
data collected within the Back Bay watershed, followed by an 
opportunity for participants to identify future research and action 
needed for the health of the bay system. Scientists stated that 
conditions are improving since last year. The water clarity is better 
and vital underwater grasses are growing again. Large numbers of ducks 
are coming back. The local hunters had a very successful season.
    I wish to extend my appreciation for the funding that you 
appropriated through fiscal year 2009. The $545,000 that was 
appropriated in fiscal year 2009 has purchased 8 acres of a key parcel 
along Nanney's Creek. To date we have purchased 4,988-acres of the 
proposed 6,340-acre expansion. This means that this project is more 
than 78 percent completed in seventeen years. Thank you for the 
opportunity to comment on this important project.
                                 ______
                                 
  Prepared Statement of Friends of Blackwater National Wildlife Refuge
    Mr. Chairman and members of the subcommittee: On behalf of the 
Friends of Blackwater National Wildlife Refuge located near Cambridge, 
Maryland, I am submitting testimony for the Senate Appropriations 
Subcommittee on the Interior, Environment, and Related Agencies 
concerning the fiscal year 2011 budget for the National Wildlife Refuge 
System (NWRS). We respectfully request that the subcommittee support 
the following funding levels:
  --$578 million in fiscal year 2011 for the U.S. Fish and Wildlife 
        Service's (FWS) NWRS Operations and Maintenance (O&M) account;
  --Fully fund the Land and Water Conservation Fund (LWCF) at $900 
        million including $300 million for the NWRS, and pass S. 2747, 
        legislation to ensure dedicated and full funding to the LWCF;
  --Increase funding to $210 million for key FWS partner-based programs 
        including Landscape Conservation Cooperatives, Partners for 
        Fish and Wildlife, State Wildlife Grants, the Coastal Program 
        and the North American Wetlands Conservation Act;
  --Fund the NWRS construction account at $100 million for large-scale 
        habitat restoration projects and visitor service facilities.
    An astonishing 20 percent of all work that occurs on wildlife 
refuges is contributed by more than 30,000 volunteers each year. 
Critical to facilitating this remarkable commitment is the 
reauthorization of the Volunteer and Community Partnership Act which 
encourages the use of volunteers to assist the FWS in refuge management 
as appropriate. We also urge Congress to fund the Department of the 
Interior's Challenge-Cost Share Program. This program was created to 
leverage funding through strategic partnerships that would not be 
achieved by the Federal Government on its own. We are concerned that 
not funding the program would have significant adverse impacts to 
conservation and environmental education programs at refuges 
nationwide.
    It is necessary that the NWRS budget by about $20 million each year 
in order to maintain services and programs from the previous year. This 
increase accounts for cost-of-living increases for FWS personnel, 
growing rent and real estate costs and other cost increases, while 
sustaining current levels of visitor services and wildlife management. 
Funding the O&M account at $578 million would allow the NWRS to avoid 
further employee layoffs and reductions in services that are important 
at the Blackwater NWR and Chesapeake Marshlands Wildlife Complex, and 
to the more than 150,000 who visit the Blackwater NWR each year, while 
also preventing the approximately $3.5 billion NWRS O&M backlog from 
growing larger. While refuges received an increase for fiscal year 
2010, the NWRS is still not funded at the level it was in fiscal year 
2003 when adjusted for inflation. Because of this, refuges such as 
ours, the Blackwater NWR, struggle to meet their most basic wildlife 
conservation objectives.
    Refuges are also vital economic engines in the local economy, 
fueling hotel stays, restaurant patronage and much, much more. 
According to Banking on Nature, a 2007 report by the FWS, recreational 
visits to national wildlife refuges generate substantial economic 
activity. Nearly 35 million people visited national wildlife refuges in 
2006, generated more than $1.7 billion for local economies--including 
27,000 jobs and $185 million in tax revenues. Eighty-seven percent of 
all economic activity generated by refuges is from nonresident 
visitation. These visitors contribute to the local economy through 
patronage of local hotels, restaurants, outfitters, and gas stations to 
name just a few examples. We simply cannot afford to lose these local 
economic engines. Supporting our refuges with adequate funding is an 
effective method of resisting the economic depression with which the 
Nation is currently struggling.
    The Appropriations Subcommittee on the Interior, Environment, and 
Related Agencies should provide strong funding for NWRS visitor 
services programs and visitor facility enhancement projects. Visitor 
services funding pays for many Friends and volunteer programs. We 
depend on this funding for programs that allow us to remain effective 
stewards of our refuge.
    Recognizing invasive species as a top threat to our refuge lands, 
we also ask the subcommittee to continue their support by again 
providing adequate funding for cooperative projects with Friends groups 
and volunteers on invasive species control. This funding supports 
worthy programs like competitive grants for Friends groups and the 
Volunteer Invasives Monitoring Program. Utilizing the energy and 
enthusiasm of Friends and volunteers is a proven, effective and 
economical partnership for the NWRS and FWS.
    We encourage the subcommittee to allocate sufficient funding to 
assess and purchase high-priority water rights and high-priority lands 
and conservation easements through the LWCF, $900 million. Inadequate 
water quantity and quality represent some of the biggest obstacles for 
refuges to overcome and unfortunately, many refuges do not own the 
water rights on the refuge or they are not guaranteed an allocation of 
water from a river or stream. The FWS is currently compiling a needs-
based priority database of where water rights need to be secured, and 
we urge the subcommittee to allocate sufficient funding to allow the 
FWS to acquire these essential rights while they are available and 
affordable. Also, NWRS land acquisition backlog is estimated at more 
than $4 billion, with more than 15 million acres remaining to be 
acquired within approved refuge boundaries. While a full suite of 
conservation strategies should be employed in working with private 
landowners, in cases where fee title acquisition is preferred by the 
landowner and the refuge has identified it as a top priority, the FWS 
should acquire the land.
    We encourage the subcommittee to allocate $10 million for the 
National Fish and Wildlife Foundation through the FWS' resource 
management general administration appropriation. Each year, NFWF 
receives more project proposals than they are capable of funding. 
Adequate funding will ensure NFWF has the ability to leverage resources 
to fund projects that directly benefit diverse species in, around and 
outside of national wildlife refuges across the country.
    Again, on behalf of the Friends of Blackwater National Wildlife 
Refuge Association, Inc., we thank you for your consideration of our 
requests. If you have any questions, we would certainly be happy to 
help in any way.
                                 ______
                                 
          Prepared Statement of the Friends of Congaree Swamp
    Madam Chairman and members of the subcommittee: We enthusiastically 
support President Obama's fiscal year 2011 budget request for $1.4 
million from the Land and Water Conservation Fund for the National Park 
Service (NPS) to purchase land at Congaree National Park. This funding 
will enable the NPS to complete acquisition of the 1,840-acre 
Riverstone tract for Congaree National Park.
    Congaree Swamp National Monument was authorized as a NPS unit in 
1976. In 2003, Public Law 108-108 elevated Congaree to a National 
Park--South Carolina's only National Park--and authorized a boundary 
expansion of 4,576 acres. Two tracts--the 1,840-acre Riverstone tract 
and the 2,395-acre Bates Fork tract--comprise almost 93 percent of the 
authorized boundary expansion.
    Congaree National Park--on the floodplains of the Congaree and 
Wateree rivers--is recognized as an International Biosphere Reserve, a 
National Natural Landmark, a Wilderness Area, and an Important Bird 
Area. Currently, it is being nominated for recognition as a Wetland of 
International Importance. All waters within the park's pre-2003 
boundary are designated Outstanding Resource Waters, and much of Cedar 
Creek within the park is designated Outstanding National Resource 
Waters. Congaree River Blue Trail, bordering the park for more than 25 
miles, is a National Recreation Trail.
    With more than 75 species of trees, Congaree harbors the Nation's 
largest tract of old-growth bottomland hardwood forest. Trees in this 
floodplain forest are some of the tallest in the Eastern United States, 
and form one of the tallest temperate deciduous forest canopies in the 
world.
    More than 195 species of birds have been observed within the park. 
If the Ivory-billed Woodpecker has survived in the United States, 
Congaree National Park is considered prime habitat for recovery of this 
species.
    Congaree National Park also offers excellent opportunities for 
recreation. A 2.5-mile boardwalk loop provides easy access into 
Congaree's forest, and more than 20 miles of trails are available for 
hiking. Visitors enjoy canoeing and kayaking on Cedar Creek. Outdoors 
enthusiasts can also enjoy fishing, camping, birding, and picnicking.
    As mentioned above, the 1,840-acre Riverstone tract and the 2,395-
acre Bates Fork tract comprise almost 93 percent of the park boundary 
expansion which Congress authorized in 2003. The NPS purchased the 
Bates Fork tract in 2005, using a $6 million appropriation in fiscal 
year 2005.
    Since then, the NPS has focused on acquiring the 1,840-acre 
Riverstone tract. This tract is forested floodplain, with frontage on 
the Congaree River. Riverstone acquisition will connect a conservation 
corridor of more than 42,000 acres of Federal and State lands along the 
Congaree, Wateree, and Santee rivers.
    In addition to its biological resources, the Riverstone tract has 
significant geological and hydrological resources, including Running 
Lake, Running Creek, and an oxbow lake known as Bates Old River--the 
remnant of a 4-mile-long former channel of the Congaree River. No other 
oxbow lake in the Congaree floodplain can compare to Bates Old River in 
size, hydrological dynamics, accessibility, or as a recreational 
resource. This oxbow is flanked by the best-defined ridge and swale 
topography in the Congaree floodplain.
    The Riverstone tract also has significant cultural and historical 
resources, including a prehistoric mound constructed by Native 
Americans during the Woodland Period (1000 B.C. to A.D. 1000). The 
history of McCord's Ferry (established before 1750 as Joyner's Ferry) 
is intertwined with the Riverstone tract. Patriot and British forces 
used McCord's Ferry during the American Revolution.
    Accordingly, acquisition of the Riverstone tract for Congaree 
National Park will add opportunities for visitor access, education, 
recreation, wildlife and habitat protection, and research.
    Richland County Council unanimously adopted a resolution in 2007, 
endorsing Federal funding to purchase the Riverstone property for 
Congaree National Park. The resolution identifies Congaree National 
Park as an attraction in the Lower Richland Heritage Corridor--to 
promote heritage tourism in the region.
    Recognizing the Riverstone tract as a key priority for acquisition, 
the NPS identified $500,000 in existing funds in 2008 to purchase 
156.25 acres. A $2.69 million appropriation by Congress in fiscal year 
2009 enabled the NPS to purchase 837.75 acres. The $1.32 million 
appropriation in fiscal year 2010 enabled the NPS to purchase 412.5 
acres in March 2010.
    Because of its configuration, most of the Riverstone property is 
inaccessible to park visitors until the entire tract is acquired. A 
fiscal year 2011 appropriation of $1.4 million--requested by President 
Obama--will enable the NPS to promptly purchase the final 434 acres, 
thereby completing acquisition of the 1,840-acre Riverstone tract at 
Congaree National Park.
    Thank you, Madam Chairman, for your previous support of Congaree 
National Park and for your consideration of President Obama's fiscal 
year 2011 request for $1.4 million.
                                 ______
                                 
          Prepared Statement of Friends of the Columbia Gorge
Introduction
    Thank you for the opportunity to submit written public testimony in 
support of the Forest Service land acquisition program in the Columbia 
River Gorge National Scenic Area. Friends of the Columbia Gorge is 
requesting an appropriation of $1.5 million from the Land Water 
Conservation Fund (LWCF) to allow the United States Forest Service 
(USFS) to purchase land with a high conservation value in the Columbia 
River Gorge National Scenic Area. The requested funding will go a long 
way to protect a number of identified high-priority properties totaling 
more than 400 acres in the Columbia River Gorge National Scenic Area. 
This project is authorized by the Columbia River Gorge National Scenic 
Area Act, Public Law 99-663, section 16(a).
    Friends of the Columbia Gorge (Friends) is a nonprofit organization 
with approximately 5,000 members who live in the Columbia River Gorge, 
the States of Oregon and Washington and across the country. We are 
dedicated to the protection and enhancement of the scenic beauty and 
natural and cultural heritage of the Columbia River Gorge. Friends 
works to promote responsible stewardship of Gorge lands and waters and 
encourage public ownership of sensitive areas. Throughout the year, 
Friends leads more than 70 hikes and stewardship events that are open 
to the public.
    Fiscal year 2011 marks the 25th anniversary of the Columbia Gorge 
National Scenic Area Act. In honor of the upcoming anniversary, we hope 
to secure $1.5 million in Federal LWCF funding for the Forest Service 
to purchase and protect landscapes in the Gorge.
Background
    The Columbia Gorge, shared and cherished by both Oregon and 
Washington, is truly one of America's most stunning natural landscapes. 
As the only sea-level passage through the Cascade Mountain range, the 
Columbia River Gorge includes five distinct ecosystems. These 
ecosystems support more than 800 species of flowering plants, including 
16 that are found nowhere else in the world, more than 300 species of 
birds and provides critical habitat for threatened fish and wildlife, 
such as the western pond turtle, Larch Mountain salamander, western 
gray squirrel, steelhead, Chinook, coho, and chum salmon.
    The Gorge has been inhabited by humans for at least 11,000 years. 
Important cultural resources are found throughout the Gorge, including 
a high concentration of Native American rock carvings and paintings, 
called petroglyphs and pictographs, in the eastern end of the Gorge. 
Several tribes retain treaty rights in the Gorge, including the 
preservation of hunting, fishing and gathering rights on the lands 
ceded to the United States in their respective treaties. In addition, 
the Gorge ranks as the most recognizable natural site along the Lewis & 
Clark trail.
    In 1986 Congress and the states of Oregon and Washington recognized 
the outstanding scenic beauty and natural and cultural heritage of the 
Gorge by designating it as a National Scenic Area. The Columbia River 
Gorge National Scenic Area Act (Act) was passed ``to protect and 
provide for the enhancement of the scenic, cultural, recreational, and 
natural resources of the Columbia River Gorge'' and to encourage 
economic growth in nearby urban areas.
    Last year, Congress recognized the unique geologic resources in the 
Gorge when they established the Ice Age Floods National Geologic Trail 
as part of the Omnibus Public Land Management Act of 2009.
Forest Service Land Acquisition
    Although The Columbia River Gorge Scenic Area enjoys national 
protection, preservation of its outstanding natural and scenic 
resources requires proactive management. Section 9(a) of the act, 
created a unique regulatory plan, which allowed conservation in 
partnership with private landowners. The act recognized that some 
landowners would prefer to sell their property rather than fall under 
Scenic Area regulations. The desire to conserve key properties and to 
provide regulatory relief to landowners led Congress to create a 
special land acquisition program with the Forest Service.
    When the Columbia River Gorge National Scenic Area was enacted in 
1986, large portions of the designated Scenic Area were held in private 
ownership. As properties become available from willing sellers, the 
Forest Service is working to piece together properties in priority 
areas to protect and enhance resources. Since 2001, over 4,000 acres of 
``high-priority'' private land worth an estimated $35 million have been 
offered for sale to the Forest Service, yet Congress has only 
appropriated $17.5 million to date.
Fiscal Year 2011 Request
    In 2011, the Forest Service has the opportunity to purchase over 
300 acres in the Major Creek Drainage, a vitally important wildlife 
corridor between the Columbia River and the uplands above the Gorge 
walls in Washington. It is a wild, undeveloped area of steep canyons, 
old growth trees, creeks and springs, and an abundance of wildlife. 
Acquisition of this parcel will conserve open space, sustain a healthy 
watershed, and link with other National Forest System land.
    Funding would also allow the Forest Service complete a key segment 
of the stunning Cape Horn Trail. The USFS has now purchased more than 
1,000 acres in the Cape Horn area to create a world-class loop trail 
with stunning views of the Gorge. This purchase would complete an 
essential component of the trail by creating a public trailhead 
adjacent to the newly built Skamania County Park and Ride.
    The five properties targeted to be acquired in 2011 will: secure a 
wildlife corridor, conserve open space, sustain a healthy watershed, 
and link National Forest Systems, consolidate an 80 acres in holding, 
add management access to the Major Creek bed which is home to 
threatened steelhead, and allow termination of a trail easement held by 
Columbia Land Trust which will give the Forest Service control over 
trail management and use of the surrounding area.
    The benefit of the Forest Service land acquisition program extends 
to all counties in the Gorge by providing the following:
    Economic Benefit.--This project will create more public trails and 
recreation opportunities in the Columbia River Gorge and thereby 
attract more visitors and tourist dollars to nearby communities. 
Increasingly, recreation is becoming a more important pillar of the 
Gorge economy. This project is supported by the Skamania County 
Commission specifically for its potential to generate revenue from 
outdoor recreation.
    Expands Recreation.--Public land acquired by the Forest Service 
will allow for more official trails and increase opportunities for 
outdoor recreation.
    Protects Scenic Beauty.--In the National Scenic Area Act, Congress 
recognized the Columbia River Gorge as one of the nation's most 
spectacular natural treasures. The USFS acquisitions have succeeded in 
protecting the beauty of the Gorge.
    Protects Habitat.--Habitat destruction is a main factor threatening 
the native flora and fauna of the Gorge. This project expands 
recreation, protects habitat and scenic landscapes, and bolsters the 
emerging recreation-based economies in the Columbia River Gorge.
    This project is supported by Columbia River Gorge Commission, Hood 
River County Commission, Wasco County Commission, Skamania County 
Commission, Trust for Public Land, Columbia Riverkeeper, Hood River 
Valley Residents Committee, Columbia Gorge Ecology Institute and 
Friends of Clark County.
Conclusion
    Columbia Gorge Land Acquisition is funded in the President's fiscal 
year 2011 budget at a level of $850,000; however an additional $650,000 
is needed to allow the Forest Service to purchase all of the available 
land.
    Please consider our request of $1.5 million to honor the 25th 
anniversary of the National Scenic Area Act and to ensure that the 
Gorge remains a place apart for future generations to enjoy. Thank you 
for the opportunity to provide testimony in support of the Forest 
Service land acquisition program in the Columbia River Gorge National 
Scenic Area.
                                 ______
                                 
   Prepared Statement of the Friends of Virgin Islands National Park
    Dear Chairman Feinstein and Senator Alexander: I appreciate the 
opportunity to provide testimony on behalf of an important land 
acquisition funding need at Virgin Islands National Park. An 
appropriation of $4.5 million from the Land and Water Conservation Fund 
(LWCF) is requested in fiscal year 2011 to complete the acquisition of 
the unique Maho Bay property by the National Park Service. We are very 
pleased that your subcommittee has already provided a total of $4.5 
million to this project in fiscal year 2009 and fiscal year 2010. 
Additionally we are very pleased this project was included in the 
President's budget in fiscal year 2011. However, we respectfully urge 
the subcommittee to include the full $4.5 million needed to complete 
the project, rather than the $3.75 million President's budget level.
    I represent the Friends of VI National Park, a 501(c)(3) nonprofit 
organization, dedicated to the protection and preservation of the 
natural and cultural resources of Virgin Islands National Park and to 
promoting the responsible enjoyment of this national treasure. We have 
more than 3,000 members--20 percent of whom live in the Virgin Islands 
and the balance represent every State in the Union.
    We carry on the rich tradition of using private philanthropy for 
the betterment of this park as well as mobilize volunteers and 
community participation. In our 20 years of work in support of Virgin 
Islands National Park we have been involved in many initiatives, 
projects, and activities that help this park be a model of natural 
resource protection and cultural preservation--but none have been as 
important as our work in support of the acquisition of Estate Maho Bay 
and its incorporation within the park.
    We have played the important role of informing and motivating the 
community about the issues related to the preservation of Estate Maho 
Bay. But motivation was hardly needed; the preservation of Estate Maho 
Bay and ensuring unimpeded access to this spectacular area enjoys near 
unanimous support among native St. Johnians, residents who have moved 
here from mainland United States and visitors alike--no easy feat for a 
community that prides itself in its diversity of opinions.
    Virgin Islands National Park, located on the island of St. John, is 
a tropical paradise preserved for the enjoyment and edification of the 
public. Beautiful white sand beaches, protected bays of crystal blue-
green waters, coral reefs rich in colorful aquatic life, and an on-
shore environment filled with a breathtaking variety of plants and 
birds make St. John a magical place. More than 800 species of trees, 
shrubs, and flowers are found in the park, and more than 30 species of 
tropical birds breed on the island, which was designated an 
international Biosphere Reserve by the United Nations in 1976. St. John 
is also home to two species of endangered sea turtles, the hawksbill 
and the green. In addition, the park contains archeological sites 
indicating settlement as early as 770 B.C. The later colonial history 
of St. John is also represented by remnants of the plantations and 
sugar mills established by the Danes in the 18th and 19th centuries.
    One of St. John's most popular eco-campgrounds sits on a cliff 
overlooking Maho Bay and its pristine white sand beaches. The bay's 
campgrounds create memorable vacations in the beautiful setting of St. 
John without sacrificing the delicate ecosystem of the island. Few 
places on earth match the breathtaking beauty of Maho Bay. A lush 
forested slope rising nearly 1,000 feet rims its crystal waters and 
soft white beaches. Hundreds of tropical plant species and more than 50 
species of tropical birds fill these lands on the island of St. John, 
at the heart of the American paradise of Virgin Islands National Park. 
Just offshore are seagrass beds, green turtles, and magnificent coral 
reefs. This fragile area contains large nesting colonies of brown 
pelicans, as well as the migratory warblers and terns that winter on 
St. John. In addition to its natural treasures, the largest 
concentration of historic plantations and ruins on the island is found 
within this area.
    Available within the Virgin Islands National Park boundaries in 
fiscal year 2011 is the third phase of a 207-acre acquisition at Maho 
Bay. This Maho Bay property offers spectacular views of the bay and 
includes some beachfront. It is extremely important because of their 
relationship to the whole undeveloped area and its cultural resources.
    Though the park boundaries cover a broad area of St. John, the 
National Park Service actually owns two separated blocks of land. A 
smaller block covers the northeastern shore of the island, and a 
larger, more contiguous block extends from the southern to northwestern 
side. The acquisition of the Maho Bay property would be the first link 
of these two blocks, ensuring future access, resource connectivity, and 
seaside protection.
    Wetlands in the lower portion of the watershed provide adequate 
sediment retention for the undeveloped nature of this area. As a result 
of long-term geological processes, the topography created by these 
processes and the historical rise of sea level during the past 5,000 
years, a large, rare and complicated freshwater dominated wetland 
developed throughout the basin. It represents a natural stage wetland 
typical of large watersheds with relatively flat basin topography. The 
Maho Bay wetland is the largest of this type on St. John and along with 
the Magens Bay wetland on St. Thomas, one of only a few of this type in 
the Territory. These wetlands provide habitat to numerous species of 
shorebirds, water fowl and other wildlife, several listed as endangered 
under the V.I. Endangered and Indigenous Species Act. Others are 
protected under various Federal laws and treaties.
    The land was historically used during the plantation era for 
agricultural activities such as sugar cane, coconut, and cotton 
cultivation. The lands include portions of several historic plantation 
era sugar estates. The Maho Bay area contains the highest density of 
plantation era estates on St. John. Preservation of these sites is 
important in reconstructing the history and heritage of St. John. With 
increasing growth and investment throughout the Caribbean--including 
places not far from the unspoiled beauty of St. John--this vulnerable 
land has been the focus of intense development threats. In recent 
years, more than one investor envisioned private development along 
these shores, which would have jeopardized the unique character of Maho 
Bay. Once this land is acquired by the park, future visitors will be 
treated to spectacular views of Maho Bay and some of the most 
accessible and scenic shoreline and waters on St. John.
    The total estimated fair market value of the 207 acres is $18.6 
million. This property is being made available to the National Park 
Service for a total of $9 million over 2 years, with the balance to be 
provided through private donations of cash and land value. As $2.25 
million was provided in fiscal year 2009 and another $2.25 million in 
fiscal year 2010, this year, an appropriation of $4.5 million is needed 
from the Land and Water Conservation Fund toward the purchase of the 
remaining 131 acres of these valuable lands.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. For all these reasons, the President has included 
meaningful increases to the program in his fiscal year 2011 budget, and 
I support the administration's commitment to fully funding the program 
in the near future. Recognizing the many demands this committee faces, 
I also want to thank the committee for its recent effort to restore 
much-needed funding to this depleted program. This wise investment in 
the LWCF is one that will permanently pay dividends to the American 
people and to our great natural and historical heritage.
    Madam Chairwoman and distinguished subcommittee members, I want to 
thank you for this opportunity to testify on behalf of this important 
national protection effort in Virgin Islands National Park. On behalf 
of the Friends of Virgin Islands National Park and the over one million 
visitors to the Park each year, I appreciate your consideration of this 
funding request.
                                 ______
                                 
 Prepared Statement of the Friends of Wallkill River National Wildlife 
                                 Refuge
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of 
acquiring land at Wallkill River National Wildlife Refuge in New 
Jersey. An appropriation of $1.75 million is needed in fiscal year 2011 
from the Land and Water Conservation Fund (LWCF) in order for the U.S. 
Fish and Wildlife Service (FWS) to acquire the 156-acre Kenely 
property.
    The environment and wildlife are enduring catastrophic conditions 
as a result of human failures. The BP oil gusher and the White Nose Bat 
Syndrome are two man-made catastrophes that are being addressed by the 
FWS. When FWS staff have to concentrate their time on these 
emergencies, other work falls by the wayside. The FWS needs increases, 
not reductions in maintenance and operation funds to manage these 
disasters. We are looking at the likely extinction of at least 9 
species of cave dwelling bats within a few years, time cannot be 
wasted, the bats will be gone forever, if WNS is not addressed now.
    The Wallkill River National Wildlife Refuge was established in 1990 
to preserve and enhance wildlife habitat in one of the most fertile 
valleys and natural areas in all of New Jersey. Located within a 1-hour 
drive of New York City, the Wallkill River valley is a resource-rich 
part of the New Jersey-New York Highlands area. The extent of its 
forested wetlands and undisturbed grasslands makes the Wallkill River 
one of the largest high-quality inland waterfowl habitats in the mid-
Atlantic region. The refuge provides critical habitat for migratory 
waterfowl on both the Atlantic Flyway and the Hudson-Delaware corridor 
and is a major black duck focus area of the North American Waterfowl 
Management Plan. Large populations of nesting black ducks, wood ducks, 
blue- and green-winged teal, mergansers, mallards, and pintail frequent 
the refuge's wetland areas. In addition, the Wallkill River and its 
tributaries are home to 19 State-listed threatened and endangered 
species.
    Wallkill's many forested wetlands, also known as swamps and bogs, 
are highly productive and dynamic ecosystems, containing a diverse 
array of habitat types. They support high numbers of species by 
providing vital breeding, feeding, and resting grounds for waterfowl 
and other animal and plant species. Forested wetlands also filter 
nutrients, wastes, and sediments from the water flowing within them, 
improving water quality while also providing flood control by 
stabilizing sediments with their root systems and absorbing excess 
water. Within the past 200 years, the State of New Jersey has lost an 
estimated 40 percent of its forested wetlands. The Wallkill River NWR 
has focused its land acquisition program on protection of the river and 
its major tributaries through consolidation of significant forested 
wetland, wetland, and associated upland properties. A recently approved 
land protection plan expands the refuge boundary to provide greater 
habitat protection for the federally listed endangered bog turtle.
    Available for acquisition within this new refuge focus area in 
fiscal year 2011 is the 165-acre Kenely tract. This highly developable 
tract, which abuts refuge-protected lands, encompasses a diversity of 
habitats including mixed open fields, woodlands, wetlands, and 
brushlands. It is highly threatened by development because it has 
significant frontage along Route 284, which now forms the western 
boundary of the refuge. Along with its diversity of habitat types, the 
property's varied topography of high-gradient hills and deep valleys 
support a large number and variety of wildlife species. The emergent 
wetlands of the property support a number of reptile and amphibian 
species such as spotted turtles. The open fields support breeding of 
State-listed species such as Savannah and grasshopper sparrows and 
bobolink. This type of habitat is also vital for numerous raptor 
species during the winter months such as short-eared owls and northern 
harriers.
    An allocation of $1.75 million from the LWCF to the Wallkill River 
NWR in fiscal year 2011 will ensure the protection of these key 156 
acres as part of the refuge's effort to consolidate refuge ownership, 
conserve important habitat within the refuge's expansion area, increase 
recreational opportunities, and maintain the water quality in the 
Highlands region of New Jersey.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. For all these reasons, the President has included 
meaningful increases to the program in his fiscal year 2011 budget, and 
I support the administration's commitment to fully funding the program 
in the near future. Recognizing the many demands this subcommittee 
faces, I also want to thank the subcommittee for its recent effort to 
restore much-needed funding to this depleted program. This wise 
investment in the LWCF is one that will permanently pay dividends to 
the American people and to our great natural and historical heritage.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in New Jersey, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
 Prepared Statement of the Friends of the Tampa Bay National Wildlife 
                             Refuges, Inc.
    Mr. Chairman and members of the subcommittee: On behalf of Friends 
of the Tampa Bay National Wildlife Refuges, Inc. (FTBR) and its 130 
members, I want to thank you for your leadership and strong support for 
the National Wildlife Refuge System (NWRS) and increased funding over 
the past few years. I further thank you for the opportunity to offer 
comments on the fiscal year 2011 Interior, Environment, and Related 
Agencies appropriations bill. Specifically, we respectfully request 
that the subcommittee support the following:
  --An overall funding level of $578 million in fiscal year 2011 for 
        the operations and maintenance (O&M) budget of the NWRS, 
        managed by the U.S. Fish and Wildlife Service (FWS);
  --An allocation of $900 million in the Land and Water Conservation 
        Fund (LWCF) budget fiscal year 2011 to protect vital habitat 
        for wildlife and establish key wildlife corridors and 
        connections. We ask that this includes $300 million for the 
        NWRS; and
  --Funding for the Department of the Interior's Challenge-Cost Share 
        Program to leverage funding through strategic partnerships to 
        obtain greater conservation objectives than would be achieved 
        by the Federal government on its own.
    FTBR is a 501(c)3 nonprofit organization. We are a group of members 
and volunteers who support Egmont Key, Passage Key and the Pinellas 
National Wildlife Refuges in the Tampa Bay area of Florida. 
Contributing thousands of hours of support each year, we help remove 
invasive plants, provide support to critical bird nesting sites through 
``bird steward'' public outreach each weekend during nesting season, 
provide general maintenance of equipment and buildings on the refuges, 
and organize island cleanups to ensure wildlife is safe from debris 
like monofilament line and plastic bags. We work closely with our FWS 
refuge manager to help meet objectives as outlined in each refuge's 
Comprehensive Conservation Plan.
    The Cooperative Alliance for Refuge Enhancement (CARE) has 
determined that the NWRS needs $900 million annually to protect and 
care for the more than 550 wildlife refuges and monuments and thousands 
of prairie wetlands totaling approximately 150 million acres. These 
lands and waters provide essential habitat for migratory birds and 
other wildlife, safe havens for endangered species, and $1.7 billion 
annually to local economies in compatible recreational opportunities 
for more than 41 million visitors each year. Our request for $578 
million in O&M for fiscal year 2011 represents a $75 million increase 
more than fiscal year 2010 and builds on the increases in the past 3 
years that have allowed the NWRS to rebound from the dramatic 20 
percent staff reductions in the years prior to this. Although some 
positions have been refilled, 10 percent of the workforce has been 
eliminated. The NWRS needs at least a $15 million increase each year to 
prevent reductions in programs and public use. There is still an 
operations backlog of $1 billion and a maintenance backlog of $2.7 
billion. We respectfully urge the Congress to incrementally increase 
funding to restore the NWRS by carefully considering our request for 
$578 million in the fiscal year 2011 budget.
    While providing adequate funding to operate and maintain the NWRS 
is of vital importance, most refuges are too small in size to achieve 
their conservation mission and objectives alone. Their integrity 
depends on the health of surrounding State, Federal, and private lands 
and waters. Consequently, there is a growing need to provide funding to 
ensure that lands and waters beyond refuge boundaries are conserved. 
FTBR encourages the subcommittee to allocate the full $900 million 
funding to assess and purchase high-priority lands and conservation 
easements through the LWCF. The NWRS is mandated to be strategically 
grown, but years of inadequate funding for land acquisition has 
resulted in the loss of many important habitats. More than 8 million 
acres are unprotected within existing refuge boundaries and there is an 
increasing need to establish key wildlife corridors and connections 
between protected areas. The Obama administration has made full funding 
for LWCF by fiscal year 14 a top priority and we request Congress to 
make this a priority also. We urge the subcommittee to allocate the 
full $900 million funding in fiscal year 2011 to allow the NWRS to 
acquire lands and easements while they are available and affordable.
    In conclusion, FTBR believes the NWRS can meet its important 
conservation objectives only with strong and consistent funding 
leveraged by the valuable work of refuge staff and volunteers. We 
extend our appreciation to the subcommittee for its ongoing commitment 
to our NWRS and encourage you to approve $578 million for the fiscal 
year 2011 NWRS O&M budget managed by FWS and to approve $900 millions 
for fiscal year 2011 for the LWCF land acquisition budget as well as 
funding the Department of the Interior's Challenge-Cost Share Program.
                                 ______
                                 
   Prepared Statement of the Georgia Department of Natural Resources
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of 
acquiring land at Chattahoochee River National Recreation Area in 
Georgia. An appropriation of $3.6 million is needed in fiscal year 2011 
from the Land and Water Conservation Fund (LWCF)in order for the 
National Park Service (NPS) to acquire two properties totaling 36.5 
acres. In a demonstration of the importance of this acquisition, the 
$3.62 million needed was included in the President's budget request for 
fiscal year 2011.
    Flowing in a southwesterly direction from the Appalachian Mountains 
in northeastern Georgia, the Chattahoochee River is a significant 
recreational and ecological corridor in the Atlanta metropolitan area. 
Between Atlanta and Chattanooga a series of mountain ridges separated 
by river valleys cross the landscape. The Chattahoochee River valley is 
the southernmost in this chain. The river's length and breadth provides 
an excellent corridor for river recreation and open space for wildlife 
habitat. With substantial headwaters in the forested mountains of 
northern Georgia--largely within the Chattahoochee National Forest--the 
protection of the river's water quality for drinking water and 
recreation is an important regional and national objective.
    The Chattahoochee River National Recreation Area provides much 
needed recreational opportunities for Georgians and visitors in the 
Atlanta metropolitan area. The park was created in 1978 to protect the 
watershed, provide opportunities for river and land recreation, and 
conserve important tracts in the river's floodplain. The park's current 
boundaries extend along the river for nearly 50 miles from Buford Dam 
at Lake Sidney Lanier to the entrance of Peachtree Creek tributary by 
Marietta Boulevard in Atlanta. Annually the park averages about 2.75 
million visitors; most are from the burgeoning Atlanta metropolitan 
area. In recent years, the population in the State of Georgia has grown 
rapidly to 9.5 million residents and more than half of these residents 
live in the Atlanta area. The population growth has placed tremendous 
pressure on lands important to the region's water quality, recreation, 
and historical and agricultural heritage.
    Available for acquisition in fiscal year 2011 are two properties 
totaling 36.5 acres at the northern end of the national recreation area 
near Lake Lanier. The Manning and Friedman inholdings are located 
directly on the western bank of the Chattahoochee River just north of 
the Georgia Route 20 bridge in Forsyth County. The tracts would be 
added to the Bowman's Island Unit of the park. The unit is noted for 
its hiking and horseback riding trails, and also features river access 
for canoes, kayaks, and rafts just below Buford Dam.
    The acquisition of the Manning and Friedman properties will enable 
the NPS to protect this important riverfront land and water resources 
and expand recreational opportunities at the Bowman's Island Unit. 
Between Buford Dam and Route 20, NPS already owns a significant amount 
of land on the eastern bank and several tracts north of Buford Hatchery 
including Bowman's Island. If the Manning and Friedman properties are 
acquired, NPS would own land on both sides of the river. For many years 
the park has sought to construct a 5-mile loop trail at the Bowman's 
Island Unit that would proceed along both banks of the river between 
Buford Dam and Route 20. The acquisition of these properties, along 
with a planned improvement of pedestrian and bicycle use of the Route 
20 bridge, would greatly enhance this objective.
    My particular interest lies in the fact that the subject parcels 
are immediately adjacent to the Buford Hatchery, operated by the 
Wildlife Resources Division of the Georgia Department of Natural 
Resources, my agency. The hatchery rears stocks of brown and rainbow 
trout for State fishing programs in lakes and streams across Georgia. 
The hatchery is open to visitors for fishing, education, bird watching, 
and hiking. We believe there is a natural synergy in connecting the 
State of Georgia's education and recreational facility with the 
envisioned NPS trails and amenity area directly to its south, and 
creating a larger conservation and recreation system along the banks of 
the Chattahoochee River at this location. We certainly would not want 
to ever see these properties degraded or developed.
    In 1999 Congress passed Public Law 106-154, in which it stated the 
intention to ``increase the level of protection of the open spaces 
along the Chattahoochee River.'' The acquisition of the Manning and 
Friedman tracts represents one of the ``dwindling opportunities to 
protect the scenic, recreational, natural, and historic values'' of the 
Chattahoochee River corridor. In fiscal year 2011, an appropriation of 
$3.6 million from the LWCF is needed to protect these critical 
properties.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. For all these reasons, the President has included 
meaningful increases to the program in his fiscal year 2011 budget, and 
I support the administration's commitment to fully funding the program 
in the near future. Recognizing the many demands this subcommittee 
faces, I also want to thank the committee for its recent effort to 
restore much-needed funding to this depleted program. This wise 
investment in the LWCF is one that will permanently pay dividends to 
the American people and to our great natural and historical heritage.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Georgia, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission
    1. BIA Rights Protection Implementation.--At least $30,451,000 
(same as fiscal year 2010 appropriation). GLIFWC: At least $5,619,000 
(proportionate allocation within RPI program).
    Agency/Program Line Item.--Department of the Interior, Bureau of 
Indian Affairs, Operation of Indian Programs, Trust-Natural Resources 
Management, Rights Protection Implementation, Great Lakes Area Resource 
Management.\1\
---------------------------------------------------------------------------
    \1\ The requested BIA funds reflect GLIFWC's allocation of this 
line item that also funds the 1854 Treaty Authority.
---------------------------------------------------------------------------
    Funding Authorizations.--Snyder Act, 25 U.S.C. Sec. 13; Indian 
Self-Determination and Education Assistance Act, (Public Law 93-638), 
25 U.S.C. Sec. Sec. 450f and 450h; and the treaties between the United 
States and GLIFWC's member Ojibwe Tribes, specifically Treaty of 1836, 
7 Stat. 491, Treaty of 1837, 7 Stat. 536, Treaty of 1842, 7 Stat. 591, 
and Treaty of 1854, 10 Stat. 1109.\2\
---------------------------------------------------------------------------
    \2\ The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities, have been affirmed 
by various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
    2. EPA Great Lakes Restoration.--$475,000,000 (same as fiscal year 
2010 appropriation). GLIFWC: $1,200,000 (estimated annual need).
    Agency/Program Line Item.--Environmental Protection Agency, 
Environmental Programs and Management, Geographic Programs, Great Lakes 
Restoration.
    Funding Authorizations.--Clean Water Act, 33 U.S.C. Sec. 1268(c); 
and treaties cited above.
GLIFWC'S Goal--A Secure Funding Base to Fulfill Treaty Purposes
    As Congress has recognized for more than 25 years, funding for 
GLIFWC's conservation, natural resource protection, and law enforcement 
programs honors Federal treaty obligations to 11 Ojibwe Tribes and 
provides a wide range of associated public benefits. GLIFWC seeks an 
inflation-adjusted secure funding base to: (i) implement Federal court 
orders and intergovernmental agreements governing the exercise of 
treaty-guaranteed hunting, fishing and gathering rights; and (ii) 
participate in management partnerships in Wisconsin, Michigan and 
Minnesota.
Elements of GLIFWC's Funding Request
    1. BIA Rights Protection Implementation: At least $30,451,000.--In 
fiscal year 2010, Congress addressed chronic underfunding of the Rights 
Protection Implementation (RPI) program by increasing this line item by 
$12 million, a welcome increase but still far less than the tribes' 
total RPI needs. From this increase, the administration provided GLIFWC 
with a much-needed $1.7 million increase in its fiscal year 2010 RPI 
funding to the current level of $5,619,000. Unfortunately, in fiscal 
year 2011 GLIFWC could lose at least $450,000--more than 26 percent--of 
the fiscal year 2010 $1.7 million increase because of a proposed cut to 
its RPI funding, the absorption of fixed costs, and contract support 
cost shortfalls.
    With the full fiscal year 2010 funding amount and full contract 
support costs, GLIFWC would be able to create and sustain jobs that 
will protect and enhance natural resources and associated habitats. 
Specifically, GLIFWC could: (i) fill at least six staff vacancies, (ii) 
restore its long-standing fish contaminant and consumption advisory 
program; (iii) reinstitute fall juvenile walleye recruitment surveys at 
previous levels; (iv) restore tribal court and registration station 
funding; (v) restore Lake Superior lamprey control and whitefish 
assessment programs; (vi) restore GLIFWC's share in cooperative 
wildlife and wild rice enhancement projects; (vii) replace ageing 
equipment; (viii) meet expanding harvest monitoring needs and increased 
natural resource assessment responsibilities; and (ix) meet 
uncontrollable increases in employee benefit costs.
    2. EPA Environmental Programs and Management: $475,000,000.--GLIFWC 
supports continued funding for the EPA's Great Lakes Geographic Program 
(GLGP) and the Great Lakes Restoration Initiative (GLRI) at $475 
million, the same as the fiscal year 2010 appropriation. It also 
recommends that at least $25 million be provided to the BIA for tribes, 
to ensure they are able to undertake projects that contribute to the 
protection and restoration of the Great Lakes. Funding provided through 
the BIA should be made available under the Indian Self-Determination 
and Education Assistance Act.
    In fiscal year 2010, GLIFWC is proposing about $1.2 million in 
GLGP/GLRI funding. If funding is sustained at this level, GLIFWC will 
be able to create jobs that will allow it to fully participate in the 
decisionmaking processes that affect the treaty rights of its member 
tribes, ensure that decisions are based upon sound science, and 
implement specific habitat and human health research projects relevant 
to the subsistence, economic and cultural needs of tribal communities. 
One particular priority is to undertake projects that evaluate the 
potential impacts of climate change on natural resources important to 
GLIFWC member tribes.
Ceded Territory Treaty Rights--GLIFWC's Role and Programs
    Established in 1984, GLIFWC is a natural resources management 
agency for eleven member Ojibwe Tribes regarding their ceded territory 
(off-reservation) hunting, fishing and gathering treaty rights. These 
ceded territories extend over a 60,000 square mile area in a three 
State region. GLIFWC's mission is to: (i) ensure that its member tribes 
are able to exercise their rights for the purposes of meeting 
subsistence, economic, cultural, medicinal, and spiritual needs; and 
(ii) ensure a healthy, sustainable natural resource base that supports 
those rights. GLIFWC is a ``tribal organization'' as defined by the 
Indian Self-Determination and Education Assistance Act. It is governed 
by a Constitution ratified by its member Tribes and by a Board composed 
of the Chairs of those Tribes.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    GLIFWC operates a comprehensive ceded territory hunting, fishing, 
and gathering rights protection/implementation program through its 
staff of biologists, scientists, technicians, conservation enforcement 
officers, policy specialists, and public information specialists. Its 
activities include: (i) natural resource population assessments and 
studies; (ii) harvest monitoring and reporting, (iii) enforcement of 
tribal conservation codes in tribal courts; (iv) funding for tribal 
courts and tribal registration/permit stations; (v) development of 
natural resource management plans and tribal regulations; (vi) 
negotiation and implementation of agreements with State, Federal, and 
local agencies; (vii) invasive species eradication and control 
projects; (viii) biological and scientific research, including fish 
contaminant testing; and (ix) development and dissemination of public 
information materials.
Justification and Use of the Requested Funds
    For more than 25 years, Congress has recognized GLIFWC as a cost-
efficient agency that plays a necessary role in: (i) meeting specific 
Federal treaty and statutory obligations toward GLIFWC's member Tribes; 
(ii) fulfilling conservation, habitat protection, and law enforcement 
functions required by Federal court decisions affirming the Tribes' 
treaty rights; (iii) effectively regulating harvests of natural 
resources shared among the treaty signatory tribes; and (iv) serving as 
an active partner with State, Federal, and local governments, with 
educational institutions, and with conservation organizations and other 
nonprofit agencies.
    Particularly relevant to the requested EPA funds, tribal members 
rely upon treaty-protected natural resources for religious, cultural, 
medicinal, subsistence, and economic purposes. Their treaty rights mean 
little if contamination of these resources threatens their health, 
safety, and economy, or if the habitats supporting these resources are 
degraded.
    With the requested stable funding base, GLIFWC will:
    1. Maintain the Requisite Capabilities to Meet Legal Obligations, 
to Conserve Natural Resources and to Regulate Treaty Harvests.--
Although it does not meet all GLIFWC's needs, sustained funding at 
fiscal year 2010 levels would go a long way in facilitating continued 
tribal compliance with various court decrees and intergovernmental 
agreements governing the tribes' treaty-reserved hunting, fishing and 
gathering rights. It also enhances GLIFWC's capability to undertake 
work and participate in relevant partnerships to tackle ecosystem 
threats, such as invasive species, habitat degradation and climate 
change, that harm treaty natural resources.
    2. Remain a Trusted Environmental Management Partner and Scientific 
Contributor in the Great Lakes Region.--With the requested EPA funding 
base, GLIFWC would maintain its role as a trusted environmental 
management partner and scientific contributor in the Great Lakes 
Region. It would bring a tribal perspective to the interjurisdictional 
mix of Great Lakes managers \3\ and would use its scientific expertise 
to study issues and geographic areas that are important to its member 
tribes but that others may not be examining.\4\
---------------------------------------------------------------------------
    \3\ GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Restoration 
Initiative, and the implementation of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \4\ With the requested fiscal year 2011 funds, GLIFWC would: (i) 
continue a ceded territory wild rice enhancement project; (ii) 
facilitate tribal review and input on the re-negotiation of the Great 
Lakes Water Quality Agreement and any implementing activities; (iii) 
continue to participate in the development and implementation of the 
Lake Superior Lakewide Management Plan; (iv) build upon its long-
standing fish contaminant analysis and consumption advisory program by 
testing additional species, testing in a wider geographic range, and 
testing for chemicals of emerging concern; and (v) enhance its invasive 
species and animal disease prevention, monitoring and mitigation 
programs, particularly given the potential impacts of climate change, 
the recent discovery of viral hemorrhagic septicemia (VHS) in Lake 
Superior and the likely migration of the Asian Carp into the Great 
Lakes.
---------------------------------------------------------------------------
    3. Maintain the Overall Public Benefits That Derive From its 
Programs.--Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management, in emergency services networks, 
and in providing accurate information to the public. Because of its 
institutional experience and staff expertise, GLIFWC provides 
continuity and stability in interagency relationships and among its 
member Tribes, and contributes to social stability in the context of 
ceded territory treaty rights issues.
    For more than 25 years, GLIFWC has built and maintained numerous 
partnerships that: (i) provide accurate information and data to counter 
social misconceptions about tribal treaty harvests and the status of 
ceded territory natural resources; (ii) maximize each partner's 
financial resources and avoid duplication of effort and costs; (iii) 
engender cooperation rather than competition; and (iv) undertake 
projects and achieve public benefits that no one partner could 
accomplish alone.
Other Related Appropriations Concerns
    Full Funding of BIA Contract Support Costs.--GLIFWC seeks full 
funding of its contract support costs. The administration's fiscal year 
2011 proposed increase of $21.5 million for these costs is welcomed, 
but even that amount only achieves an estimated 94 percent of need 
based on fiscal year 2007 funding levels. GLIFWC anticipates its fiscal 
year 2010 indirect cost shortfall to be at least $287,000, and this 
does not even take into account the shortfall for all of its direct 
contract support costs. These shortfalls significantly inhibit GLIFWC's 
ability to restore program cuts and service capacity.
    BIA Circle of Flight Tribal Wetland and Waterfowl Initiative.--
GLIFWC supports BIA funding of the Circle of Flight Tribal Wetland & 
Waterfowl Enhancement Initiative for Michigan, Minnesota, and 
Wisconsin. The Circle of Flight program is a long-standing tribal 
contribution to the North American Waterfowl Management Plan that has 
leveraged matching partnership funding on a 3 to 1 ratio. In 2010, this 
program was awarded a Department of the Interior ``Partners in 
Conservation'' Award.
                                 ______
                                 
             Prepared Statement of the Green Mountain Club
    Mr. Chairman and honorable members of the subcommittee: As Director 
of Conservation for the Green Mountain Club, the nonprofit organization 
that maintains Vermont's Long Trail, the Nation's oldest long-distance 
hiking trail, I appreciate the opportunity to present this testimony in 
support of the Northern Green Mountains Linkage project in Vermont. An 
appropriation of $5.875 million to the U.S. Forest Service for the 
Forest Legacy Program is needed in order to protect an assemblage of 
6,516 acres. I am thankful that this project was included in the 
President's budget request for fiscal year 2011 at a funding level of 
$2.3 million. However, the conservation of the assemblage of properties 
can be completed this year with an appropriation of $5.875 million.
    The Forest Legacy Program in Vermont seeks to achieve significant 
conservation goals for the State by protecting the following types of 
land: large contiguous and productive forest blocks, wildlife habitat 
dependent on large forested tracts, threatened and endangered species 
habitat, State fragile areas, undeveloped shoreline, significant 
wetlands, and important recreation corridors.
    The State's top Forest Legacy Program priority for fiscal year 2011 
is the 6,516-acre Northern Green Mountains Linkage. Situated on the 
spine of the Northern Green Mountains in Lamoille, Orleans and Franklin 
Counties, the Northern Green Mountains Linkage Forest Legacy Project 
will conserve 6,516 acres of managed and productive timberland while 
protecting 25 undeveloped ponds, 25 miles of streams, several rare 
species and natural communities, and high-quality wildlife habitat. 
Using fee and easement acquisitions, the project will link 62,200 acres 
of conserved lands, including lands the Green Mountain Club has 
protected for the Long Trail, providing connectivity from the Champlain 
Valley to the Green Mountains, north to Quebec, and east to the 
Worcester Range. This project will address the problem of forest 
fragmentation and associated impacts on the timber economy, public 
access to recreation, and wildlife habitat connectivity in Vermont's 
northern region by permanently protecting critically located 
properties.
    Vermont's Northern Green Mountains are one of the largest and 
wildest forested landscapes remaining in all of New England. The 
region, which follows the spine of the Green Mountains north from Mount 
Mansfield to the Canadian border, encompasses sweeping tracts of forest 
where moose, bobcat, black bear, and a myriad of rare and endangered 
songbirds make their home. These mountains and their slopes are 
remarkably diverse, containing all the major ecosystem types of the 
ecoregion, from boreal forests, temperate mixed hardwoods, and alpine 
meadows to floodplain forests and marshes. Additionally, there are 
State rare and threatened plant species on the properties, including 
cliff fern, rose pogonia, lungwort, and smooth musk flower. This area 
is also a magnet for hikers, skiers, backpackers, and other outdoor 
enthusiasts, particularly those drawn by a 65-mile portion of the Long 
Trail, a footpath running the length of Vermont which the Green 
Mountain Club built and has maintained for the past 100 years. Also 
snaking through the region is the increasingly popular Catamount Trail, 
a cross-country ski trail traversing the State.
    The Northern Green Mountains have long been recognized as a top 
conservation priority by many of the region's small towns, such as 
Enosburg, Jay, and Hyde Park, which are now mobilizing to conserve the 
places that define and sustain their communities. Two Countries One 
Forest (2C1Forest), a Canadian-American coalition of 50 conservation 
organizations, public agencies, and researchers, sponsored scientific 
research to identify important wildlife corridors in the Northern 
Appalachian-Acadian ecoregion. In 2007, 2C1Forest chose the Northern 
Green Mountains-to-Sutton Mountains linkage as one of their top five 
conservation priorities. The area has also been identified as 
significant in the Vermont Department of Fish and Wildlife's soon-to-
be-completed statewide assessment and ranking of large forested blocks 
and associated linkage habitats. The Northern Green Mountains are a 
crucial place for regional landscape connectivity because they help tie 
together the Adirondacks of New York, the central Appalachians of 
Massachusetts, and points south to the Northern Appalachians of Maine 
and Canada. In so doing they serve as an important north-south corridor 
for wildlife and, because of their large range in elevation, provide 
species with flexibility in their movement. This is an important factor 
in adaptation strategies aimed at averting species extinctions due to 
climate change.
    The vast majority of the land in the Northern Greens remains in 
private hands, with thousands of acres available on the open market. 
Threats from an expanding second-home industry (even in today's 
uncertain economy), road construction, and changing forestry and 
farming practices put key blocks of forestland at risk and create 
barriers to wildlife movement. Such changes also threaten the vibrant 
rural culture and economy of the Northern Greens, with its mix of small 
farms, forestry, and recreation. A recent explosion of development 
pressure in the Northern Green Mountains resulting from expanding ski 
resorts and the area's proximity to greater Burlington and other 
population centers, has made this a ``now or never'' moment to conserve 
key landscapes in this important habitat and recreational area. 
According to census data, growth rates in Lamoille, Orleans, and 
Franklin counties are more than double the growth rate in Vermont as a 
whole. In Vermont, only 21 percent of the Northern Green Mountains is 
protected from development, compared to 45 percent of the central and 
southern Green Mountains.
    In fiscal year 2011, an appropriation of $5.875 million from the 
Forest Legacy Program is needed to ensure the protection of critical 
forest resources in northern Vermont. This Federal funding will be 
matched by $1.98 million of non-Federal contributions and allocated to 
19 separate land transactions for the acquisition of full fee and 
partial interests through conservation easement. One of the tracts 
which will be conserved that the Green Mountain Club is particularly 
interested in is Canada View, 1,022 acres of forestland in Jay. A 1.6 
mile section of the Long Trail, one of Vermont's premier recreational 
resources, is located adjacent to Canada View, in some places within 
100 to 500 feet of the parcel's boundary. The northern terminus of the 
Long Trail at the Canadian border, a starting or finish point for end-
to-end hikers of the trail, is located beside Canada View.
    Please do all that you can to ensure that this worthwhile program 
is funded adequately in fiscal year 2011 and that the Northern Green 
Mountains Linkage project receives $5.875 million in fiscal year 2011.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Vermont, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
        Prepared Statement of the Geological Society of America
Summary
    The Geological Society of America (GSA) urges Congress to 
appropriate at least $1.3 billion for the U.S. Geological Survey (USGS) 
in fiscal year 2011. The USGS is one of the Nation's premier science 
agencies. It addresses many of society's greatest challenges, including 
energy resources, climate change, water resources, and natural hazards. 
The devastating earthquake in Haiti on January 12, 2010 and the 
eruption of Eyjafjallajokull volcano in Iceland that began on April 14, 
2010 emphatically demonstrate the value of robust natural hazards 
monitoring and warning systems and the need for increased Federal 
investments in the USGS. Nevertheless, funding for USGS has stagnated 
in real dollars for more than a decade (see Figure 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  Figure 1.--USGS funding in constant 2011 dollars, fiscal year 1996-
fiscal year 2011. EI is Enterprise Information and GC is Global Change. 
                     Data from USGS Budget Office.

    The Geological Society of America supports strong and growing 
investments in earth science research at USGS and other Federal 
agencies. Substantial increases in Federal funding for earth science 
research are needed to ensure the health, vitality, and security of 
society and for stewardship of Earth. The USGS has a unique combination 
of biological, geographical, geological, and hydrological programs that 
enables it to address interdisciplinary research challenges that are 
beyond the capabilities of most other organizations. The USGS benefits 
every American every day.
    The Geological Society of America, founded in 1888, is a scientific 
society with more than 22,000 members from academia, Government, and 
industry in all 50 States and more than 90 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind. GSA encourages cooperative research among earth, life, 
planetary, and social scientists, fosters public dialogue on geoscience 
issues, and supports all levels of earth science education.
Rationale
    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal investments in 
research pay substantial dividends. According to the National 
Academies' report Rising Above the Gathering Storm (2007), ``Economic 
studies conducted even before the information-technology revolution 
have shown that as much as 85 percent of measured growth in U.S. income 
per capita was due to technological change.''
    The earth sciences are critical components of the overall science 
and technology enterprise. Growing investments in earth science 
research are required to stimulate innovations that fuel the economy, 
provide security, and enhance the quality of life. Substantial 
increases in Federal funding for earth science research are needed to 
ensure the health, vitality, and security of society and for Earth 
stewardship. Earth science research provides knowledge and data 
essential for developing policies, legislation, and regulations 
regarding land, mineral, energy, and water resources at all levels of 
government.
Broader Impacts of the Earth Sciences
    It is critically important for Congress to provide significant 
increases in funding for the USGS to meet challenges posed by human 
interactions with Earth's natural systems and to help sustain these 
natural systems and the economy. Additional investments in the USGS are 
necessary to address such issues as natural hazards, energy, water 
resources, and climate change.
  --Natural hazards, such as earthquakes, tsunamis, volcanic eruptions, 
        floods, droughts, wildfires, and hurricanes, remain a major 
        cause of fatalities and economic losses world-wide. An improved 
        scientific understanding of geologic hazards will reduce future 
        losses through better forecasts of their occurrence and 
        magnitude. The devastating earthquake in Haiti on January 12, 
        2010 and the eruption of Eyjafjallajokull volcano in Iceland on 
        April 14, 2010 emphatically demonstrate the value of robust 
        natural hazards monitoring and warning systems and the need for 
        increased Federal investments in the USGS.
  --Energy and mineral resources are critical to the functioning of 
        society and to national security and have positive impacts on 
        local, national, and international economies and quality of 
        life. These resources are often costly and difficult to find, 
        and new generations of geoscientists need the tools and 
        expertise to discover them. In addition, management of their 
        extraction, use, and residue disposal requires a scientific 
        approach that will maximize the derived benefits and minimize 
        the negative effects. Improved scientific understanding of 
        these resources will allow for their better management and 
        utilization, while at the same time considering economic and 
        environmental issues. This is particularly significant because 
        shifting resource demands often reframe our knowledge as new 
        research-enabling technologies become available.
  --The availability and quality of surface water and groundwater are 
        vital to the well being of both society and ecosystems. Greater 
        scientific understanding of these critical resources-and 
        communication of new insights by geoscientists in formats 
        useful to decision makers---is necessary to ensure adequate and 
        safe water resources for the future.
  --Forecasting the outcomes of human interactions with Earth's natural 
        systems, including climate change, is limited by an incomplete 
        understanding of geologic and environmental processes. Improved 
        understanding of these processes in Earth's history can 
        increase confidence in the ability to predict future states and 
        enhance the prospects for mitigating or reversing adverse 
        impacts to the planet and its inhabitants.
  --Research in earth science is also fundamental to training and 
        educating the next generation of earth science professionals.
    USGS should be a component of broader initiatives to increase 
overall public investments in science and technology. For example, 
earth science research should be included in a recommendation by the 
National Academies to ``increase the Federal investment in long-term 
basic research by 10 percent each year over the next 7 years.'' (Rising 
Above the Gathering Storm, 2007). Likewise, when Congress reauthorizes 
the America COMPETES Act, it should broaden the act to include a new 
title that puts the USGS budget on the same doubling track as other key 
science agencies.
Budget Shortfalls
    President Obama's fiscal year 2011 budget request for USGS is 
$1.133 billion, an increase of $21.6 million of 1.9 percent more than 
the fiscal year 2010 enacted level. The USGS budget request includes 
$52 million in program increases, $18.6 million in program decreases, 
and $11.7 million in additional decreases made on a Department of the 
Interior-wide basis. The budget request also assumes that the USGS will 
absorb $13.5 million in uncontrollable cost increases. Underfunding of 
uncontrollable cost increases over many years has compromised the 
scientific capacity of the USGS. We urge Congress to restore proposed 
cuts in the USGS budget request, to provide full funding for 
uncontrollable cost increases, to provide new funds to enable the 
agency to address a growing backlog of needs for USGS science and 
information and undertake new initiatives. Congress should support 
proposed USGS budget increases for initiatives including the New Energy 
Frontier, Climate Change Adaptation, WaterSMART Program, Treasured 
Landscapes (Chesapeake Bay Executive Order), Increasing Resilience to 
Natural Hazards, Landsat Data Continuity Mission, and Coastal and 
Marine Spatial Planning.
    The USGS budget fell in real dollars for 7 consecutive years from 
fiscal year 2001 to fiscal year 2008 (see Figure 1). Despite budget 
increases in fiscal year 2009 and fiscal year 2010, the USGS budget 
request for fiscal year 2011 remains below the USGS budget for fiscal 
year 2001 in real dollars. The decline in funding for the USGS during 
this time period would have been greater if Congress had not repeatedly 
restored proposed budget cuts. Federal funding for non-defense R&D has 
increased significantly while funding for the USGS stagnated for more 
than a decade.
    The Geological Society of America joins with the USGS Coalition and 
other organizations in recommending an appropriation of $1.3 billion 
for the USGS in fiscal year 2011. This budget would enable the USGS to 
address the growing backlog of science needs that has resulted from 
stagnant real budgets for more than a decade, accelerate the timetable 
for deployment of critical projects, and launch science initiatives 
that address new challenges.
    The Geological Society of America is grateful to the Senate 
Appropriations Subcommittee on Interior, Environment, and Related 
Activities for its past leadership in increasing the budget for USGS. 
We remain grateful to the subcommittee for its leadership in providing 
$143 million in stimulus funds for the USGS under the American Recovery 
and Reinvestment Act of 2009. Thank you for your thoughtful 
consideration of our request.
                                 ______
                                 
        Prepared Statement of the Greater Yellowstone Coalition
    Madam Chairman and honorable members of the subcommittee: On behalf 
of the Greater Yellowstone Coalition, I appreciate the opportunity to 
present this testimony in support of acquiring land in the Shoshone 
National Forest in Wyoming. The Greater Yellowstone Coalition is a 
conservation organization dedicated to protecting and restoring the 
Greater Yellowstone Ecosystem (GYE) and the unique quality of life it 
sustains, now and in the future. Central to the Greater Yellowstone 
Coalition's mission is the integrity of Yellowstone and Grand Teton 
National Parks, which form the core of the GYE. The GYE is the most 
intact landscape in the lower 48 States and is internationally 
renowned. Formed in 1983, The Greater Yellowstone Coalition has 18,000 
members and activists who regularly use and enjoy the Yellowstone area, 
including Yellowstone and Grand Teton National Parks.
    An appropriation of $2.5 million is needed in fiscal year 2011 from 
the Land and Water Conservation Fund (LWCF) in order for the Forest 
Service (USFS) to acquire the 118-acre Russell Creek Winter Range 
inholding. In a demonstration of the importance of this acquisition, 
the $2.5 million amount was included in the President's budget request 
for fiscal year 2011.
    Roughly the same size as West Virginia, the GYE encompasses 
approximately 18 million acres in Wyoming, Montana, and Idaho. The GYE 
includes Yellowstone and Grand Teton national parks, portions of seven 
different national forests, and three national wildlife refuges. The 
headwaters of the Yellowstone, Missouri, Snake, and Green rivers are 
found in its mountains. Its varied topography consists of arid high 
plains, verdant river valleys, high-elevation plateaus, and spectacular 
mountain ranges, as well as the most diverse and intact collection of 
geysers and hot springs in the world. Additionally, the GYE is one of 
the largest, relatively intact temperate zone ecosystems remaining in 
the world.
    Remarkably diverse, the GYE provides some of the best wildlife 
habitat in the country, including home for one of the last viable 
grizzly bear populations in the lower 48 States. It hosts the largest 
elk and free-roaming bison herds in North America, and provides the 
only U.S. wintering ground for the rare trumpeter swan. Wolverines, 
lynx, fishers, and martens still roam the GYE's mountains, as do 
bighorn sheep, black bears, and mountain goats. Other flourishing 
species include pronghorn antelope, wolves, moose, mountain lions, mule 
deer, beavers, coyotes, osprey, bald eagles, and peregrine falcons. The 
GYE hosts a total of 316 bird, 94 mammal, 24 reptile and amphibian, and 
more than 1,700 vascular plant species. The rich, biological diversity 
of the GYE is truly exceptional--nowhere else in the lower 48 States 
can you find a large and relatively intact ecosystem containing nearly 
all the living organisms present in pre-Columbian times.
    In addition to its impressive wildlife values, the GYE offers some 
of the best recreational opportunities in North America. Its fisheries 
are world-renowned and attract fly fishermen from all over the globe. 
Big game hunting opportunities are abundant. In addition to these 
sporting opportunities, the GYE offers a wide range of backcountry 
recreational opportunities including skiing, snowshoeing, snowmobiling, 
hiking, camping, whitewater rafting, horseback riding, and wildlife 
viewing.
    Available for acquisition within the GYE in fiscal year 2011 is the 
118-acre Russell Creek Winter Range property in the Shoshone National 
Forest in Park County, Wyoming. The tract lies about 1.5 miles off of 
Wyoming Route 296 in between Cody and Cooke City and the eastern and 
northeastern entrances to Yellowstone National Park. Bounded by Forest 
Service land on three sides, the tract is near Windy Mountain and is 
adjacent to Dead Indian Pass, where Route 296 drops dramatically into 
the valley of the Clarks Fork of the Yellowstone River, a national wild 
and scenic river.
    With outstanding scenery, threatened and endangered species 
habitat, and riparian resources, the property is the priority 
acquisition for the forest and included in the region's GYE program for 
fiscal year 2011. The property contains prime riparian habitat and 
important wetlands along one-half mile of Russell Creek. Gray wolves 
inhabit the area, and the inholding is located within the Yellowstone 
Recovery Zone for grizzly bears--a federally listed threatened species. 
Furthermore, the tract is within a crucial rearing area for elk and 
crucial winter range for elk, mule deer, and bighorn sheep. 
Additionally, the parcel contains habitat for sensitive plant species: 
shoshonea, Hall's fescue, North Fork Easter daisy, and Absaroka 
goldenweed.
    The tract is accessible via a private road, offering significant 
opportunities and access for the public to hunt, hike, and camp if the 
property is acquired--and a significant second-home subdivision and 
development risk if it is not. Subdivision into several smaller parcels 
is fully authorized under existing county land-use regulations. In 
addition to precluding this threat, acquisition also will allow the 
USFS to improve fire management, control invasive plant species, and 
resolve obstacles to the free movement of grizzlies and other large 
game and nongame wildlife.
    An appropriation of $2.5 million is needed from the LWCF to secure 
these abundant resources, to preserve the important wildlife habitat 
along Russell Creek, and prevent development in a scenic section of the 
Shoshone National Forest.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. For all these reasons, the President has included 
meaningful increases to the program in his fiscal year 2011 budget, and 
I support the administration's commitment to fully funding the program 
in the near future. Recognizing the many demands this subcommittee 
faces, I also want to thank the subcommittee for its recent effort to 
restore much-needed funding to this depleted program. This wise 
investment in the LWCF is one that will permanently pay dividends to 
the American people and to our great natural and historical heritage.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Wyoming, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
  Prepared Statement of the Healing Our Waters--Great Lakes Coalition
    Chairman Feinstein and Senator Alexander. It is an honor to provide 
this written testimony regarding one of our Nation's most prized 
natural and economic resources--the Great Lakes.
    The Healing Our Waters--Great Lakes Coalition asks the subcommittee 
to support $475 million for the popular and effective Great Lakes 
Restoration Initiative in fiscal year 2011. We appreciate the strong 
support the subcommittee provided last year and ask you to provide the 
same funding in fiscal year 2011 as you did in fiscal year 2010. We 
feel that our request is well justified because:
  --Fiscal year 2010 funds are being obligated this year;
  --There is an unprecedented need;
  --Through public-private partnerships we have the ability to get the 
        work done implementing our region's restoration plan; and
  --The eight State region's economic recovery hinges on a healthy, 
        restored Great Lakes.
    The Healing Our Waters--Great Lakes Coalition is comprised of more 
than 110 environmental, conservation, hunting, and fishing 
organizations; museums, zoos, and aquariums; and businesses 
representing millions of people whose goal is to restore and protect 
the Great Lakes. We came together to fight for the Great Lakes, and we 
recognize the need for Federal assistance for all great waters, 
including San Francisco Bay, Puget Sound, the Everglades, and 
Chesapeake Bay.
    Madam Chairman and Mr. Ranking Member, 40 million people rely on 
the Great Lakes for their drinking water, and millions more benefit 
from the commerce and business that depend on the waters of the Great 
Lakes. Unfortunately, the health of the Great Lakes continues to be 
seriously threatened by problems such as untreated sewage, toxic 
pollution, and invasive species. The eight States that border the Great 
Lakes and numerous nongovernmental organizations have invested a 
significant amount of resources in preserving these bodies of water. 
Additional funding, however, is needed. Unless the Federal Government 
continues to invest in the lakes these problems will get worse and the 
price we pay will be higher.
    While restoration efforts to date have made progress, Federal 
funding historically has not kept pace with the enormity of the 
problem. More than $26 billion is needed according to the Great Lakes 
Regional Collaboration Strategy, yet Great Lakes programs over the last 
decade have received only a small fraction of that amount. We are now 
embarking on more significant restoration activities thanks to 
President Obama's Great Lakes Restoration Initiative (GLRI). Cleaning 
up the Great Lakes is not only critical for the health and quality of 
life of the region, it will also drive economic development--and jobs--
in our Nation for years to come. According to the Brookings 
Institution, an investment of $26 billion to restore the Great Lakes 
will lead to at least $50 to $80 billion in economic benefit. That's 
why the region's chambers of commerce, industry, governors, mayors, 
tribes, and conservation organizations have united around the common 
goals of restoring the Great Lakes--the largest surface freshwater 
resource on the planet--and funding the GLRI at last year's level.
    President Obama recognized the importance of a Federal commitment 
to the Great Lakes by including a new $475 million Great Lakes 
restoration initiative in his inaugural fiscal year 2010 budget. As 
already noted, under the leadership of this subcommittee and other key 
appropriators like Senator Durbin, Congress fulfilled the President's 
request. This support has energized the region like at no other time 
and people are responding. Now is not the time to slow down the 
progress being made, which is why we were disappointed by the 
administration's $300 million request for fiscal year 2011. Although we 
acknowledge that senior administration officials may believe that 
fiscal year 2010 funding isn't being obligated quickly enough to 
justify an additional $475 million for the GLRI, we disagree with their 
view. The Environmental Protection Agency's (EPA) Great Lakes National 
Program Office (GLNPO) has worked hard over the last year with their 
sister agencies to ensure that fiscal year 2010 GLRI funding can be put 
to good use this year. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A quick snapshot of everything GLNPO has accomplished in 2009:
  --GLNPO coordinated 15 different agencies in pulling together a 
        spending plan for the new $475 million initiative; they wrote a 
        plan on how to implement the Great Lakes Regional 
        Collaboration's restoration strategy; they held 18 meetings 
        last summer where they solicited public feedback on that plan; 
        they prepared and issued a Request for Proposals to award more 
        than $120 million in grants to non-Federal organizations; they 
        coordinated and created 13 interagency agreements (see table 
        above); they began developing a system to establish an 
        accountability and reporting system for the Initiative; they 
        began to renegotiate the bi-national Great Lakes Water Quality 
        Agreement; all while continuing to operate the Great Lakes 
        Legacy Act program and fulfill their other statutory 
        responsibilities.
                     glri funds are being obligated
    All this work has set the stage for GLRI money to flow this year to 
on-the-ground restoration work throughout the region. GLNPO and the 
other Federal agencies are obligating GLRI funds. GLNPO will have 
obligated more than $247 million through interagency agreements by the 
end of May. Other agencies will also have spent their GLRI allocations. 
NOAA recently awarded GLRI funds to a land acquisition project in 
Michigan. The U.S. Fish and Wildlife Service (FWS) will award habitat 
restoration funds later this year under their Great Lakes Fish and 
Wildlife Restoration Program. The National Fish and Wildlife 
Foundation, through a transfer of funds from the FWS, obligated $6 
million in GLRI funds for restoration projects in April. The Natural 
Resources Conservation Service just committed more than $33 million in 
May. EPA will begin awarding $120 million worth of grants this summer 
for work that will get underway later this year.
                  need far outweighs available funding
    The preparation for spending the GLRI's allocation has also 
revealed that the amount of funding needed for Great Lakes restoration 
continues to far outweigh what is available, even with significant new 
Federal support.
    EPA, NOAA, the FWS and the National Fish and Wildlife Foundation 
all recently closed grant solicitations on how to spend GLRI funds. 
Nearly 1,400 proposals were submitted totaling more than $1.1 
billion.\1\ Only 13 percent of proposals on average will receive 
funding through these solicitations since only $144 million is 
currently available (see chart below). We expect additional agency 
requests for proposals to be made available throughout the year. It's 
important to remember that not all GLRI funds will go to grants and 
even if they did, current GLRI funding would still fund less than half 
the projects that have been proposed through the most recent four 
request for proposals.
---------------------------------------------------------------------------
    \1\ Current request for proposals; Source: EPA, NOAA, FWS, NFWF
    Agency RFP amount available Total amount available Proposals 
submitted
    NOAA $10 million $61 million       52
    FWS  $8 million  $44 million       167 
    EPA  $120 million $947 million     1,057
    NFWF $6 million  $72 million       104 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                  getting work done; according to plan
    The restoration work being undertaken with GLRI funds is focused on 
one goal: to implement the region's restoration plan. Our region 
produced the comprehensive, science-based ``Great Lakes Regional 
Collaboration Strategy to Restore and Protect the Great Lakes'' in 
2005, which laid out the steps needed to restore and protect the Great 
Lakes. After a series of meetings with the public and two public 
comment periods last year, GLNPO subsequently produced a Federal work 
plan called the ``Great Lakes Restoration Initiative Action Plan'' \2\ 
to implement that strategy: ``The GLRC Strategy provides a framework 
for the Action Plan, and the Action Plan is just that: an action 
driver.'' \3\ This plan lays out measurable 5-year restoration goals 
for the five most significant issues facing the Great Lakes: toxic 
substances and areas of concern; invasive species; nearshore health and 
nonpoint source pollution; habitat and wildlife protection and 
restoration; accountability, education, monitoring, evaluation, 
communication, and partnerships.
---------------------------------------------------------------------------
    \2\ Released February 21, 2010.
    \3\ EPA ``Great Lakes Restoration Initiative Action Plan'' 2010. 
Page 4.
---------------------------------------------------------------------------
    In addition, with the hope of significant new funds being available 
this year, most Great Lakes States and many nongovernmental 
organizations worked together closely to develop project proposals that 
address both their State and the region's top restoration priorities. 
New York's Department of Environmental Conservation facilitated 
collaboration between NGOs, State agencies, and other stakeholders in 
pulling together a list of projects to be undertaken in the Great Lakes 
watershed in New York State. Wisconsin, Michigan, and Minnesota also 
undertook similar efforts to coordinate project submissions and build 
solid public-private partnerships in order to get work done. For work 
that could not be undertaken by State agencies because of budgets or 
capacity, States supported the application of funds by nongovernmental 
organizations that had the expertise and experience to successfully 
complete restoration work.
    In addition to developing a plan, GLNPO also made progress in 
pulling together a project tracking system based on one used by the 
Chesapeake Bay program to track progress made in implementing this 
plan. These reporting requirements are also being built into the 
interagency agreements, which is partially why it has taken them more 
time to complete.
    Lastly, to ensure that the regional efforts are based on sound 
science, GLNPO is also establishing a science advisory board, which 
will provide oversight and advice on the region's restoration efforts.
                               asian carp
    One of the biggest threats facing the Great Lakes today is Asian 
carp, which swam up the Mississippi River after escaping fish farms in 
the 1970s. After years of battling to keep Asian carp out of the Great 
Lakes, Asian carp DNA was recently discovered in Lake Michigan. This 
startling finding has provoked a serious response from Federal 
agencies. Although we are glad that the President had the foresight to 
create a GLRI that could respond quickly to this threat, continued use 
of GLRI funds for Asian carp management would violate one of the GLRI's 
own criteria: support new work or ``enhance (but do not replace) 
existing Great Lakes baseline activities.'' \4\ We believe that over 
the long term keeping Asian carp out of the Great Lakes must be built 
into agencies baseline budgets in order to leave the GLRI free to 
supplement other restoration activities.
---------------------------------------------------------------------------
    \4\ Ibid. Page 14.
---------------------------------------------------------------------------
                               conclusion
    We thank you again for the opportunity to share our views with you. 
We recognize the tough choices you face, but we believe that restoring 
the Great Lakes is not only good for the environment but also is good 
for the national economy as well. In addition to your support for $475 
million in GLRI funds, we also hope you will support the following 
recommendations in report language or oversight:
  --Spend GLRI funds in the Great Lakes Basin.
  --Ensure that all stakeholders helping to restore the Great Lakes--in 
        particular nongovernmental organizations--have a voice in 
        setting Great Lakes restoration priorities.
  --Streamline application procedures so non-Federal stakeholders can 
        use one application form for multiple agency requests.
  --Allow EPA to bundle funding for multiple projects (either by the 
        same sponsor or multiple sponsors) in targeted areas in order 
        to more efficiently direct funds to high-priority areas and on 
        multiple issues (either concurrently or consecutively) and to 
        minimize administrative costs for smaller nongovernmental 
        groups that have the expertise to do restoration work but may 
        be too small to manage large Federal grants.
  --Reduce the number of Federal programs receiving GLRI funding to 
        better target these investments.
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States, Humane 
         Society Legislative Fund, and Doris Day Animal League
    Thank you for the opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on items of importance 
to our organizations with a combined membership of more than 11 million 
supporters nationwide. We urge the subcommittee to address these 
priority issues in the fiscal year 2011 Department of Interior 
appropriation.
Bureau of Land Management--Wild Horse and Burro Program
    The BLM is charged with the management of approximately 33,000 wild 
horses in 10 Western States, but the current program is grossly 
underfunded. While we support a reduction in the number of annual 
roundups, depending on rounding up horses without implementing any 
active program for preventative herd growth is an unsupportable wild 
horse management approach because it leads to a continual cycle of 
roundups and removals rather than the use of long-term, cost-efficient 
and humane management strategies.The BLM should focus on five 
mechanisms for managing wild horses and burros; (1) preserving free-
roaming wild horse and burro populations through the use of humane 
birth control; (2) recolonizing any of the more than 19 million acres 
of zeroed-out habitat with wild horses and burros from the short and 
long-term holding facilities; (3) identifying new, appropriate 
rangelands and establishing sanctuaries for wild horses and burros; (4) 
continuing long-term, humane pasturing for equines that must be removed 
from the range utilizing birth control on these captive animals; and 
(5) implementing creative and more aggressive marketing strategies to 
increase adoption rates for captured equines.
    The BLM's current focus on roundup and adoption tools has resulted 
in an increasing number of wild horses being permanently warehoused in 
BLM sponsored holding centers, at a cost of $27 million annually 
(representing almost 75 percent of the BLM's $36.2 million wild horse 
management budget). Peer reviewed studies have shown that costs to 
manage the herd could decrease significantly by treating more mares 
with the immunocontraceptive PZP (porcine zona pellucida) and returning 
them to the range, rather than detaining them indefinitely in holding 
centers, and through the wide-scale marketing of the BLM's Adopt-a-
Horse program. According to a paper published in the Journal of 
Wildlife Management in 2007, contraception on-the-range could reduce 
total wild horse and burro management costs by 14 percent, saving $6.1 
million per year (Bartholow, J. 2007. Economic benefit of fertility 
control in wild horse populations. J. Wildl. Mgmt. 71(8):2811-2819.). 
This study demonstrates conclusively that the use of 
immunocontraception could easily result in a reduction in the 
continuing long-term expenses associated with the BLM's current wild 
horse management program.
    In October 2006, The Humane Society of the United States (HSUS) and 
the BLM signed a Memorandum of Understanding to facilitate the use of 
contraceptive vaccines as a key component for managing wild horses on 
public lands. In 2007, the Annenberg Foundation pledged $1.8 million to 
a project launched by The HSUS and the BLM to promote the use and 
application of contraceptives to manage wild horses throughout the 
west. The BLM and The HSUS have an opportunity to revolutionize the 
course of wild horse population control from a standard that is often 
inefficient, costly, and cruel to one which is technologically 
advanced, cost effective and humane. We urge the subcommittee to take 
advantage of the demonstrated cost savings associated with the use of 
immunocontraceptives by directing BLM and EPA to take action to 
facilitate the implementation of The HSUS/BLM Research Project, and by 
increasing BLM's budget for PZP research and development programs by 
$1.5 million.
    The subcommittee's support would encourage greater cooperation 
between the BLM, the EPA and The HSUS in the implementation of a 
program that we believe will be of great benefit not only to our 
Nation's beloved wild horse populations, but also to the American 
taxpayer. While we are pleased with the stated intent in BLM's budget 
justification, we hope this new direction will be implemented in fiscal 
year 2011.
Law Enforcement Division of the Fish and Wildlife Service
    The illegal trade in wildlife and wildlife parts amounts to 
billions of dollars, second only to the smuggling of drugs and arms. 
The United States remains one of the largest markets for legal and 
illegal trade of wildlife and wildlife products. New technology and a 
full complement of special agents and wildlife inspectors are essential 
to enforce the Nation's endangered species and other wildlife laws. We 
are concerned that there are 71 special agent vacancies. We encourage 
the Subcommittee to fully fund the Law Enforcement Division.
Large Constrictor Snakes
    The HSUS commends the U.S. Fish and Wildlife Service for proposing 
to list nine species of large constrictor snakes as ``injurious,'' 
which will prohibit importation and interstate movement of animals as 
pets. A recent, comprehensive report by the U.S. Geological Survey 
showed these snakes all pose medium or high risk to our environment; 
none are low risk. While Burmese pythons and, to a lesser extent, boa 
constrictors have been established in Florida for some time, it appears 
that northern African pythons are now breeding there as well. The 
Service must have the resources to respond quickly to prevent the 
spread of these species and establishment of new ones.
Environmental Protection Agency
            Toxicity Pathways
    Research focused on molecular screening the potential to 
revolutionize toxicity testing improving both its efficiency as well as 
the quality of information available for human safety assessment. 
However, there is a need for more focus on toxicity pathways, as 
recommended by the National Research Council's report ``Toxicity 
Testing in the 21st Century: A Vision and a Strategy.'' Such toxicity 
pathway research is best accomplished by EPA through contracts, grants 
and collaborations of EPA's National Center for Computational 
Toxicology with researchers in academia and other institutions. We urge 
the Committee to incorporate the following report language:

    The subcommittee strongly supports and has increased funding for 
the efforts of EPA's Office of Research and Development and its 
National Center for Computational Toxicology to apply computational 
chemistry, high-throughput screening and toxicogenomic technologies to 
predict potential for toxicity. The Center shall focus additional 
activity to address the issues of metabolism and exposure science in 
order to overcome these limitations within the current ToxCast program. 
In addition to the correlative computational profiling research 
currently being conducted by the Center and its Federal partners, the 
subcommittee directs EPA, through its Science and Technology budget, to 
increase its allocation of resources to the National Center for 
Computational Toxicology to expand its collaborations with other 
research organizations outside the Federal government engaged with 
proof of concept investigations of specific toxicological pathways.

    Review and Upgrading of the Test Methods Used in EPA's Endocrine 
Disruptor Screening Program (EDSP).--EPA's budget request for 2011 
acknowledges that the additional resources appropriated for 2011 will 
fund ``next generation tools'' which will speed up EDSP and reduce 
animal use. ``In fiscal year 2011, the Computational Toxicology 
Research program will play a critical role in coordinating and 
implementing research across the EPA. In addition, greater emphasis 
will be placed on using systems biology based approaches to advance 
health-based assessments. In fiscal year 2011, EPA is requesting $21.9 
million, an increase of $1.9 million, to support application of 
mathematical and computer models to help assess chemical risk to human 
health and the environment. Funds for next-generation tools will speed 
and facilitate implementation of EPA's Endocrine Disruptor Screening 
Program (EDSP).''http://www.epa.gov/budget/2011/
fy_2011_congressional_justification.pdf.
Multinational Species Conservation Fund
    The HSUS joins a broad coalition of organizations in requesting an 
increase over the administration's request for the Multinational 
Species Conservation Fund (MNSCF) and Wildlife Without Borders. The 
MNSCF was established by Congress to benefit African and Asian 
elephants, rhinos, tigers, great apes, neotropical migratory birds and 
marine turtles. Congress has been very supportive of these programs in 
the past. Unfortunately in past years, the funding has been 
considerably less than the amounts necessary to carry out these 
valuable missions. We ask that you continue to support these highly 
threatened mammals and birds in fiscal year 2011 by appropriating $3 
million each for the Asian Elephant, African Elephant, Marine Turtle, 
and Great Ape Conservation Funds, $6 million for the combined 
Rhinoceros and Tiger Conservation Fund, and $6.5 million for the 
Neotropical Migratory Bird Conservation Fund. We also request $10.4 
million for the Wildlife Without Borders regional program.
    While we wholeheartedly support increased funding for the MNSCF, we 
are concerned about past incidents and future opportunities for funds 
from these conservation programs to be allocated to promote trophy 
hunting, trade in animal parts, and other consumptive uses-including 
live capture for trade, captive breeding, and entertainment for public 
display industry-under the guise of conservation for these animals. 
Grants made to projects under the MNSCF must be consistent with the 
spirit of the law.
Protection for Walruses
    We urge this subcommittee to appropriate $500,000 in fiscal year 
2011 to fund the continuation of much-needed research on the Pacific 
walrus. Recently developed methodologies for surveying walrus 
populations have been used successfully and require sustained funding 
support to produce reliable population estimates. A comprehensive 
walrus survey was begun in 2005 and produced preliminary results in 
2009--the effort must receive continued support to maximize the utility 
of its results. Walruses are targeted by Native hunters for 
subsistence, despite a paucity of data regarding their current 
population status or population structure. Hundreds of walruses are 
killed annually; in some years this number has climbed to as many as 
7,000. Moreover, in some hunting villages, females and their calves are 
preferentially killed, against the recommendation of the USFWS and 
standard management practice. A portion of the research funds could 
also be used to improve the Walrus Harvest Monitor Project, which 
collects basic management data.
White Nose Syndrome
    The devastating impact of White Nose Syndrome (WNS) continues to 
spread across the country affecting bat populations in at least 11 
States. A consensus statement issued by scientists and wildlife 
managers in May of last year calls WNS ``the most precipitous decline 
of North American wildlife in recorded history''. We are grateful that 
Congress provided the USFWS with additional funding to combat the 
problem of WNS, but the spread of disease is simply outpacing efforts 
to control it.
    We respectfully ask Congress to: (1) Support the $4 million 
increase the Fish and Wildlife Service (FWS) requested for Declining 
Species; (2) Approve the 2 additional FTEs FWS requested, which we 
understand are to be the WNS coordinators for Regions 3 and 4; (3) 
Support the $3 million increase the U.S. Geological Survey (USGS) 
requested for science support for FWS and National Park Service 
priority research, monitoring, and technical assistance needs; (4) 
Support the $600,000 increase USGS requested for wildlife: terrestrial 
and endangered resources; and (5) Include an additional $5 million in 
FWS' Endangered Species: Recovery of Listed Species programming funds.
                                 ______
                                 
        Prepared Statement of the Hoopa Tribal Police Department
    On behalf of the Hoopa Valley Tribe and the Hoopa Valley Tribal 
Police Department, we are submitting testimony in support of an 
appropriations request for the Hoopa Valley Tribal Police Department. 
The amount of the request is $1,225,234 for base funding for the tribal 
police department. The agency involved is the Bureau of Indian Affairs 
and the program involved is Public Safety and Justice--Law Enforcement.
The Request and Justification
    We are requesting $1,225,234 to provide base funding for our police 
department so it may continue to provide law enforcement services to 
the tribe and its surrounding community. Although the reservation is in 
a Public Law 280 State, services provided by county law enforcement are 
minimal. Given future budget concerns with the county, any county 
service provided to the Hoopa Reservation and surrounding communities 
may be cut significantly. The tribal police department is located on 
the Hoopa Reservation and it is routinely, the first and sometimes the 
only responders to calls for service on the reservation. The request 
for base funding would assist the tribal police department with further 
development and enhancement of services provided to the Hoopa 
community. The Hoopa Tribe has borne the financial burden for the 
police department, but can no longer afford to do so without harming 
other necessary services to its membership and community. However, the 
tribe feels a responsibility to protect the community, and its members.
    The Hoopa Valley Tribal Council feels that the tribal police 
department is deserving of the opportunity to receive base funding from 
the Bureau of Indian Affairs and/or the Department of Justice, since 
services, and the quality of services are those of any other law 
enforcement agency. We do not believe that because we are a Public Law 
280 State we should be hindered in carrying out our duties due to lack 
of funds, when the level of services and funding provided to non-Public 
Law 280 tribes is greater. Additionally, the Hoopa Valley Tribe is one 
of the first and only tribal police departments in the State of 
California to have a Joint Powers Agreement (JPA)/MOU and a 
deputization agreement with their neighboring county.
    The subcommittee's support in providing base funding would be an 
enhancement to our department, tribe, community, and surrounding areas. 
These funds would be used to provide a 24-hour police force, something 
desperately needed on and around our reservation. The funds would also 
be used to increase officers' salaries in order to be competitive with 
State and county agencies. Historically, the department has been able 
to recruit officers in entry level positions; however, retainment of 
these officers has been problematic as we have not been able to compete 
by offering salaries comparable to the State and county agencies. Thus, 
once an officer has been trained, and attained more experience they 
leave for those agencies offering better salary and benefit packages. 
An increase in funding will alleviate this problem.
    The base funding would also be used for: recruiting local tribal 
members and paying for sending them to the POST Certified Academy; an 
increase in dispatch personal and salaries once again trying to keep 
competitive with State and local agency's; advance officer training, 
uniforms and basic issue equipment; meeting the rising cost of 
gasoline/vehicle maintenance and repair; the Hoopa Valley Tribal Police 
Department building i.e., repairs and maintenance, rising utilities, 
and other related costs to maintain the building to keep it functional; 
and office equipment/supplies for efficient administrative operations 
of the Hoopa Valley Tribal Police Department.
Background on the Hoopa Valley Tribal Police Department and 
        Intergovernmental Cooperation between the tribe and the County.
    The Hoopa Valley Tribal Police Department was officially formed in 
1984. Prior to 1984, the department operated as hoopa tribal security. 
As tribal security, the primary function was to patrol and check all 
tribal resources, buildings and property to prevent vandalism and 
theft. As the department became more familiar in the community they 
were routinely called upon to provide other services. As a result, the 
Hoopa Valley Tribal Council determined that is was necessary for the 
department to evolve. This was the beginning of the Hoopa Department of 
Public Safety/Hoopa Valley Tribal Police Department. The tribe then 
began training their personnel as police officers.
    The determination was made that personnel would be trained in 
compliance with California Peace Officers Standards and Training 
(P.O.S.T.) guidelines in order to better serve the Hoopa Valley Tribe 
and its community. The primary function of the police department was to 
enforce tribal law, i.e., fishing, wood cutting, and other natural 
resource protection functions. The Hoopa Valley Tribal Council funded 
the department from tribal funds. The tribal council funded officers 
training at the College of the Redwoods Police Academy, and conducted 
thorough background investigations, again using P.O.S.T. guidelines. 
Since the officers were trained at the same level as local law 
enforcement personnel, and since tribal police officers live on the 
reservation, where local county officers do not, tribal police were 
routinely called upon to provide other law enforcement services to the 
tribe and adjacent communities. In order to address jurisdictional 
problems with Public Law 280, the tribal council and county entered 
into an agreement whereby officers were individually cross-deputized by 
the county sheriff, provided the appropriate standards and training 
were met by the individual officer.
    On May 30, 1995, the County of Humboldt and the Hoopa Valley Tribal 
Council entered into a JPA for the purpose of sharing responsibility 
for law enforcement services on the Hoopa Indian Reservation. That 
agreement, a first in California (a Public Law 280 State), specified 
that the Humboldt County Sheriff's Office (HCSO) and the Hoopa Valley 
Tribal Police (HVTP) would: (1) work together to provide law 
enforcement services to the community; (2) cross-deputize the other 
agency's law enforcement officers; (3) share information and resources; 
and (4) share facilities (the sharing of facilities never came to 
pass). On October 7, 1996, the respective areas of responsibility of 
the HCSO and HVTP under the JPA were more specifically defined in a 
memorandum prepared by Lt. Greg Busey, the Hoopa Sheriff's Substation 
Commander. This memorandum became essentially, a Memorandum of 
Understanding (MOU), under which both agencies have operated to the 
present day. Under this MOU, tribal police handle most noncriminal and 
misdemeanor criminal investigations, felony property crimes, and 
domestic violence cases, and the HCSO deputies handle part 1 felony 
crimes against persons. In actuality and in a spirit of cooperation 
each agency has taken responsibility for cases that were the primary 
responsibility of the other when it was expedient to do so.
    As the department progresses so does the need for additional 
officers, support personnel, equipment. and technology. In essence, the 
tribal police department has become the primary law enforcement agency 
on the reservation enforcing tribal, Federal, and State law, as well as 
providing other service related functions. Since, California is a 
Public Law 280 State, the tribe has been unable to utilize State funds 
even though the tribal police department is providing the primary law 
enforcement services on the Hoopa reservation. The tribe has funded the 
department since its inception using tribal, compact, and grant funds 
in an effort to ensure that the tribe, its members, and the Hoopa 
community are adequately protected.
Conclusion
    The Hoopa Valley Tribe needs $1.225 million in its base budget for 
its police department for adequate and effective law enforcement and 
police protection on the Hoopa Valley Reservation to keep the residents 
and visitors of the reservation and surrounding communities safe.
    The tribe's police officers are trained and maintain compliance 
with the California Commission on P.O.S.T. at the same level as local 
law enforcement personnel and are deputized by the Humboldt County 
Sheriff pursuant to a deputization agreement. This agreement along with 
the Joint Powers Agreement and MOU between the Tribe and the County as 
well as the tribe's concurrent jurisdiction and remote location has 
resulted in the tribe providing the primary law enforcement services on 
the reservation.
    The tribe receives very limited Federal funding which can be used 
for law enforcement services and does not receive any State funds. The 
tribe has been covering the costs of its tribal police department, but 
it can no longer afford to do so, risking inadequate law enforcement 
and police protection in the face of significant community policing 
challenges, including rampant illegal drug use and trafficking in the 
area.
    The appropriation of $1.225 million for our police department will 
benefit the residents and visitors of the Hoopa Reservation and 
surrounding communities. The Hoopa Tribal Police Department is 
routinely the first and only responder to calls for police on the 
reservation, responding to all calls on the full range of law 
enforcement matters. The funding will allow for 24-hour police coverage 
for the reservation, the ability of the tribe to retain trained 
officers, and use up-to-date equipment and technology for the provision 
of police services.
    The appropriation will promote the safety of the residents and 
visitors on the reservation and in surrounding communities. This is 
extremely important given the reservation's remote area and significant 
police challenges arising from the rampant illegal drug use and trade 
in the area. The funding will also further the extraordinary 
intergovernmental cooperation between the Tribe and Humboldt County. 
Not only will the reservation and surrounding communities benefit from 
this funding, but Humboldt County, itself, will as well. Humboldt 
County would certainly benefit from the Tribe having a 24-hour police 
department to respond to calls on the reservation.
    We ask the subcommittee to appropriate $1.225 million for the Hoopa 
Valley Tribal Police Department. Please do not hesitate to contact us 
if you need additional information.
                                 ______
                                 
              Prepared Statement of the Hoopa Valley Tribe
    This written testimony in support of appropriations for the Hoopa 
Valley Tribe, K'ima:w Medical Center in the amount of $1,166,715. The 
agency involved is the Indian Health Services and the programs involved 
include Health Services and Equipment.
    K'ima:w Medical Center, (KMC) is an entity of the Hoopa Valley 
Tribe located in far northern California. The Hoopa Valley Indian 
Reservation is in a rural and remote area, 55 miles from the larger 
populated areas of Eureka and Arcata. Hoopa is the largest land based 
tribe in California and is often referred to as a ``12 mile square''. 
The reservation encompasses approximately 144 square miles (98,355 
acres) including the valley floor.
    KMC is a Joint Commission accredited ambulatory clinic with 
operational hours between 8 a.m.-6 p.m. on weekdays. As an ambulatory 
clinic, KMC offers a comprehensive set of services that include 
medical, dental, community health, nutrition, social services, senior 
nutrition, full laboratory, and radiology services as well as specialty 
clinics for vision, podiatry, and telemedicine.
    According to the U.S. Census Bureau (Census 2000), there are 
approximately 2,633 people living on the Hoopa Valley Indian 
Reservation. Eighty-four point seven percent of Hoopa residents are 
American Indian. KMC's service area encompasses the surrounding area of 
Willow Creek, Salyer, and Johnson's. Thirty-two percent of Hoopa 
residents are living in poverty (2.3 times the statewide figure of 14.2 
percent and 2.6 times the nationwide figure of 12.4 percent). During 
the past year KMC has served 4,966 users.
    Poverty, struggling and inadequate education, discrimination, high 
rates of unemployment, and limited access to health services are 
creating significant and alarming health disparities among our people. 
Our people are in desperate need of help to improve the quality of 
care, access for services, technological advancement, and job 
opportunities.
    Three focus areas have been identified as priorities in addressing 
the disparities and increasing the quality of care and access for 
services: Emergency Medical Services, Electronic Health Record, and 
Radiology Digital Equipment.
Emergency Medical Services
    Imagine driving in a mountainous area, on a very windy, two-lane 
road with very steep embankments and no shoulders to speak of, when 
suddenly your car hits black ice, you spin out of control and roll down 
the bank 300 feet. The closet Level Four hospital is an hour and a half 
away and the nearest trauma center is 3 hours away. Critically injured, 
the only thing standing between you and death is the swift and 
competent actions of the ambulance crew responding to the emergency. 
Ambulance personnel must begin medical treatment immediately, knowing 
that delaying treatment until you are transferred to the nearest 
hospital will significantly decrease the likelihood of surviving these 
injuries.
    Residents in this area, all too often face these types of scenarios 
and it is vital to the Hoopa community and surrounding area to have 
Advanced Life Support emergency services available. The Tribe's KMC 
ambulance service provides the only basic and advanced life support 
emergency service in the area and responds to 1,100 emergency calls per 
year. Staffed 24 hours per day/7 days per week, paramedic level of 
support is necessary because of the length of time it takes to reach 
the nearest hospital, ranging from 50 minutes to 2.5 hours. KMC's 
ambulance crew not only provides emergency medical services, but also 
conducts white water rescue and over the bank rescue.
    KMC's ambulance service, not only provides emergency medical 
services to the Hoopa community but also provides services to a three-
county service area covering northeastern Humboldt County and portions 
of Trinity and Siskiyou Counties. As the only ambulance service for 
this whole area, services are not only provided for American Indians 
but for non-Indians as well. The ambulance service area covers the 
towns of Willow Creek, Salyer, Hoopa, Weitchpec, Orleans, Somes Bar, 
and Johnsons. The area is vast between towns and communities with two 
lane roads in a mountainous area. At times because of slides and 
unfavorable weather conditions (i.e., snow, ice, fog) our ambulances 
must drive over and through treacherous conditions to transport 
patients to coastal hospitals.
    While this service is so vital to those who live in this area, 
unfortunately inadequate reimbursements from Medicare and Medi-Cal are 
severely impacting KMC's ability to provide this service. The Tribe can 
no longer subsidize the operation of the ambulance and funding is 
needed to continue the current level of emergency medical services 
provided not only in Hoopa, but in surrounding areas as well.
    Funding in the amount of $362,315 is requested for our Ambulance 
Program to ensure that our area has continued Advanced Life Support 
emergency services.
Electronic Health Record
    KMC is in the process of converting to an Electronic Health Record 
(EHR) system. To date the Tribe has provided 32 percent of the 
necessary funding in the amount of $250,000, but needs assistance with 
the remaining 68 percent, $539,000 to purchase EHR software and 
hardware technology along with related infrastructure.
    The benefits of converting to an EHR system include reducing 
healthcare costs, improving efficiency, increasing patient safety and 
improving the overall delivery of health services to our tribe and 
community. Additionally, incentives offered for providers using EHR 
will help the Medical Center overall with increased third-party 
revenue.
    For providers, EHR allows patient care activities and access to the 
records simultaneously and at multiple locations without depending on 
the availability of a paper chart. Data entries can be entered at 
point-of-service which ensures that the record is always up to date for 
all users.
    Because KMC is a rural health clinic, specialty clinics come to our 
area and offer services needed by our patients. Specialty clinics 
offered here include obstetrics, pediatrics, ophthalmology, and 
podiatry. Additionally KMC offers telemedicine services for psychiatry, 
endocrinology, nutrition, pain management and hepatology. EHR allows 
easier access to patient records, referrals, medication lists, etc. for 
visiting providers and telemedicine providers and allows more efficient 
treatment for our patients while increasing safety for patients with 
multiple medical problems.
    Funding in the amount of $539,000 is requested for implementing an 
EHR system.
Radiology Digital Equipment
    Along with converting to an EHR system is the need to purchase 
radiology digital equipment and related infrastructure which will 
reduce healthcare costs, improve efficiency, increase patient safety, 
and improve the overall delivery of health services to our families.
    Currently, KMC Radiology Department must send its films to Mad 
River Hospital (an hour drive away) using two different couriers. This 
creates significant delays in diagnoses and treatment. At times, x-rays 
may have to be repeated, causing even longer delays in diagnoses and 
treatment. In combination with EHR, radiology digital equipment will 
improve the timeliness of diagnosis for our patients, allow us to cut 
costs, decrease the storage space necessary to store films and improve 
the service that we provide to our patients.
    Radiology Digital Equipment will allow information sharing between 
doctors who can simultaneously open the exam and compare impressions 
without having to send hard copy films back and forth between 
providers, hospitals, etc.
    Funding in the amount of $265,400 requested for radiology digital 
equipment.
                                 ______
                                 
           Prepared Statement of the Ice Age Floods Institute
    Because it has been determined that the President's proposed fiscal 
year 2011 budget does not provide enough funding for NPS to move ahead 
on the development of the Trail, the Senators from the region have 
received formal appropriation requests for this item from constituents.
    At this time, of course, it is not known if this requested item 
will be accepted for inclusion in the Interior, Environment, and 
Related Agencies appropriations bill at any of the steps as the bill 
moves from the subcommittee, to the full Committee, and then is 
considered on the floor in the Senate. It is that uncertainty that 
prompts the submission of this testimony.
    However, it is an established fact that all 25 members of the 
region's current congressional delegations (House and Senate, Montana, 
Idaho, Washington, Oregon, Republican and Democrat) are on record as 
supporting the authorization of the Trail, either in the form of the 
identical bills introduced by Representative Doc Hastings and Senator 
Maria Cantwell, beginning in the 108th Congress, or as a part of Public 
Law 111-11, the Omnibus Public Land Management Act of 2009, signed into 
law by the President over a year ago.
    It is not my purpose here to recount the reasons for recognizing 
the Floods as a truly significant part of the Nation's natural 
heritage. The justification has been well-documented in earlier studies 
and hearings, and in the language of the authorizing act itself. What 
now must be faced are questions and objections that will be raised, 
with respect to actually appropriating the funds that are needed to go 
forward with the Trail project.
    These are undeniably difficult times, and careful consideration 
must be given to all public expenditures and sources of revenue, and to 
the effect of public measures on the economic circumstances of the 
population. With that very much in mind, I am here recommending that 
this requested item would be a sound investment of public funds, and 
would have a positive effect on the economy.
    The funding now being requested is for the start-up and operation 
of a small Trail office. The first tasks will be related to the 
collaborative development of the management and interpretive plan 
required by Public Law 111-11. It certainly could be remarked that the 
small size of the request bears no relationship to the awesome scale 
and power of the Floods themselves, or the dramatic effects they 
wrought on a huge part of the Pacific Northwest.
    Distribution of $250,000 being requested: $200,000 for salary and 
benefits (two employees in fiscal year 2011--the Trail Superintendent 
and an Interpretive/Education Specialist); $20,000 for two leased 
vehicles; $15,000 for travel (extensive travel in the four-State area); 
$10,000 for office equipment (computing, copying, phones, etc.); and 
$5,000 for office supplies.
    Objections may be raised that this item would add to the deficit 
and do nothing to add jobs and help with economic recovery. It is more 
likely that the dollars are already being recovered, without special 
promotion of the Trail.
    This is not to suggest that the request and the Trail project can 
now be ignored, but to point out that this appropriation request 
responds to the opportunity that there is now to make significant, but 
not instantaneously obvious, increases in employment, small business 
profits, and tax revenues, largely to the benefit of rural communities 
that regrettably have had to contend with economic distress and decline 
for many years.
    There clearly has been increased media attention to the Ice Age 
Floods and their effects, and to the theme of eco-tourism. It 
definitely is reasonable to believe that hotels, motels, RV parks, 
restaurants, gas stations, grocery stores, etc., are directly 
benefiting from growing interest in the Trail project, even before it 
is begun. We can expect that more people are right now coming to the 
region, or are extending their visits, in order to explore the 
landscape left by the Floods. And local residents are probably spending 
more of their tourism and recreation dollars in the region, as they 
deal with restricted incomes and high fuel costs. Particularly in the 
case of local residents, many will discover reasons to make repeated 
visits to the Floods area.
    But anyone who does visit the region, or is considering doing so, 
is likely to ask, Why is there no coherent interpretive program to 
explain these amazing floods and their remarkable legacy? That question 
has been under discussion for at least 20 years. The basic concepts of 
how to proceed are now stated in the authorizing act, but the remaining 
impediment is that the funding has not yet been provided for NPS to 
coordinate the activities and resources of many partners, in telling 
the story.
    With some justification, earmarks have come under close scrutiny in 
discussions of the Federal budget and the budgeting process. However, 
it now appears that the term may be being applied too broadly, and some 
sound expenditures may be disallowed ``on principle''. With respect to 
any meaningful criteria, the Trail project fails to qualify as an 
``earmark''. In all stages of study and discussion, the Trail proposal 
has involved four States. The NPS Special Resource Study, in response 
to widespread interest and with public participation, was launched in 
1999 and presented to Congress in 2001. Authorizing legislation has 
been considered in every Congress, from the 108th on. And there has 
been consistent bi-partisan support from the start, from across the 
four-State region. Funding for the Trail project deserves attention on 
its merits, in a straightforward consideration of proposals that have 
an honorable history and justification, have been authorized by 
statute, and have good prospects for a real return on investment.
    There is one particular aspect of the Trail proposal that offers 
surprising economy in achieving the project's objectives. The Trail 
will be based on existing public land holdings, which are adequate to 
offer a very good presentation of Flood features and phenomena. There 
is no authorization for Federal land acquisition or new land-use 
regulation or change of jurisdiction, to develop the Trail. However, 
the existing management agencies already have their respective 
responsibilities and funding related to research, interpretation and 
recreation based on their holdings. In fact, much of the interest in 
the Trail grew out of a shared concern for those responsibilities and 
the opportunity there might be to collaborate in performing their work 
as it related to effectively presenting the Floods story. This accounts 
for the involvement of the Bureau of Land Management, U.S. Forest 
Service, Bureau of Reclamation, U.S. Fish and Wildlife Service, and 
Army Corps of Engineers in the ongoing discussions that led to the 
Trail proposal. It will largely be through these agencies' 
participation that economic benefit will be derived from the 
conservationally sound use of public lands as the basis for the Trail.
    In any interpretive effort involving several partners, it is 
important to make a determined effort to provide a consistent, 
authoritative and honest presentation of the current state of 
knowledge.
    From the perspective of the general public, noticeable differences 
will lead to calling all of the presentations in question, to no one's 
benefit or credit. This is particularly challenging in the case of the 
Ice Age Floods, where the basic story is well understood, but some 
details are difficult to determine. However, to claim that all the 
answers have been found is to misrepresent all scientific inquiry. Here 
again, there may be a fortunate circumstance in the Trail situation, in 
that some form of expert peer review is already acknowledged to be a 
necessary component of the Trail project, and is being applied to 
review text and illustrations for a Washington State Parks project that 
is currently under way. The concern of all parties is that the WSP 
project should be consonant with what comes later, when the Trail is 
actually under development. Because of the longstanding involvement of 
staff of the U.S. Geological Survey, as well as state geological 
agencies and academic earth science departments, a high but achievable 
standard has been set for the Trail.
    It might seem unlikely, but an honest presentation of scientific 
uncertainty should in itself have a tangible benefit. There are a 
number of issues under discussion in our society that have some 
connection with the Floods phenomenon, and which call for skills and 
interests that are under-represented in our scientific and technical 
workforce. Inquisitive youngsters who become interested in unresolved 
questions regarding the Floods are likely candidates for careers in the 
specialties that will help us in understanding major cycles in climate 
change, in preparing for visits to Mars, and, perhaps most urgently, in 
dealing with issues of water supply and water quality, and the 
sustainability of agriculture and fisheries.
    The Ice Age Floods National Geologic Trail would be a new kind of 
National Trail, fitted to the scale and special nature of the Floods 
phenomenon, and to the availability of suitable public land resources, 
which are under the management of a wide variety of agencies. The 
National Park Service would primarily be responsible to coordinate the 
large collaborative interpretive Trail project that would be organized 
to make a unified, ``branded'', consistent and authoritative 
presentation of these Floods that affected a huge area in the Pacific 
Northwest.
    The basic elements of the Trail would be designated auto touring 
routes on public roads, with strategically located interpretive 
facilities, some of which already exist, plus other related 
recreational and educational activities, utilizing public lands. Other 
public agencies, not just Federal, would be voluntarily involved, in 
line with their established responsibilities and funding for land 
management and conservation, education and recreation, roads, 
scientific assessment of geology and hydrology, etc. Private 
institutions and organizations, including the Ice Age Floods Institute, 
will voluntarily be working on the project, too. In addition, there 
would be opportunities for associated services to be provided by 
businesses such as outdoor guides and outfitters, cruise and tour 
operators, and charter flightseeing services.
    The authorizing bill does allow for the development of major 
capital projects, but only in partnership with other public or private 
organizations and in conformity with the overall Trail plan. To quote 
from section 5203 of the authorizing act: ``Interpretive facilities--
The Secretary may plan, design, and construct interpretive facilities 
for sites associated with the Trail if the facilities are constructed 
in partnership with State, local, tribal, or non-profit entities and 
are consistent with the plan.''
    In the presentations and facilities related to the Trail, the 
participation of all the kinds of public and nonprofit entities that I 
have mentioned would be prominently recognized with appropriate signs 
and credits. The Trail will be a significant model of what can be 
accomplished in a structure of partnership and coordinated 
collaboration.
    An organizational scheme for the Trail is eagerly awaited by the 
many potential partners. For years, what had been lacking was (1) the 
appropriate ``national'' designation of this major interpretive 
project, (2) the critical element of assigning coordinating authority 
and responsibility, and (3) the provision of funding to accomplish the 
coordination. With the designation and assignment now accomplished, 
what immediately needs to be done is to provide the relatively modest 
start-up funding to the National Park Service, for it to begin to 
function as the agency that will enable a unified project to go 
forward.
    No benefit will be gained by delaying the start-up work on the Ice 
Age Floods National Geologic Trail. The requested funds will be a good 
investment of scarce Federal dollars, because the Trail will present a 
significant and fascinating chapter in Earth's history, contribute to 
general public understanding of natural processes and their effect on 
our ways of life, attract more workers to currently important fields 
related to the natural sciences, and bring substantial on-going 
benefits to the large region that was the setting for the story.
    Consequently, I urge that the item requested here be approved by 
the subcommittee and included in the bill that is forwarded by the full 
Appropriations Committee to the floor of the Senate.
    And I want to thank the subcommittee for this opportunity to 
present testimony for this small but critical budget item. Please 
contact me if further information would be helpful.
                                 ______
                                 
               Letter From the Idaho Conservation League
Hon. Dianne Feinstein,
United States Senate,
Washington, DC.
    Dear Senator Feinstein: I am writing in support of an appropriation 
of $2.2 million from the Land and Water Conservation Fund for the Idaho 
Wild and Scenic Rivers program to protect the 160-acre Morgan Ranch 
property. The fiscal year 2011 President's budget request included $1 
million for this project, but the full $2.2 million appropriation is 
needed to complete the protection of the property this year.
    Over the past few years, the Forest Service has been working to 
protect natural and recreational resources along the Salmon River and 
its tributaries by securing interests in critical inholdings from 
willing sellers via fee ownership or conservation easements. In many 
cases, the Salmon River program has reduced the cost of Forest Service 
management by eliminating inholding boundaries or assisting fire-
fighting efforts.
    The Morgan Ranch property is a 160-acre wilderness inholding within 
the Salmon-Challis National Forest that lies along the Middle Fork of 
the Salmon Wild & Scenic River corridor in Valley County. Half of the 
property consists of valuable wetlands and riparian habitat, including 
Prospect Creek and Sulphur Creek drainages. The tract is also located 
just downstream from the Boundary Creek campground and river access 
point, of two sites along the Middle Fork of the Salmon. The landowner 
is interested in working with the Forest Service to conserve the 
property, while retaining private structures and uses on a portion of 
the property.
    The protection of this inholding will secure for the public 
recreational access to the Middle Fork of the Salmon, prevent 
incompatible development, and protect important riparian habitat. Thank 
you for your consideration of this request.
            Sincerely,
                                              John Robison,
                                             Public Lands Director.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    My name is Gregory E. Conrad and I am Executive Director of the 
Interstate Mining Compact Commission (IMCC). I appreciate the 
opportunity to present this statement to the subcommittee regarding the 
views of the Compact's member States on the fiscal year 2011 budget 
request for the Office of Surface Mining Reclamation and Enforcement 
(OSM) within the U.S. Department of the Interior. In its proposed 
budget, OSM is requesting $60.3 million to fund title V grants to 
States and Indian tribes for the implementation of their regulatory 
programs, a reduction of $11 million or 15 percent below the fiscal 
year 2010 enacted level. OSM also proposes to cut discretionary 
spending for the title IV abandoned mine land (AML) program by 
approximately $174 million, including the elimination of funding for 
the emergency program and a proposal to eliminate all AML funding for 
certified States and tribes. Our statement will address each of these 
proposals.
    The Compact is comprised of 24 States that together produce some 95 
percent of the Nation's coal as well as important noncoal minerals. The 
Compact's purposes are to advance the protection and restoration of 
land, water, and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving, and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive, and economically viable mining 
industry.
    OSM has projected an amount of $60.3 million for title V grants to 
States and tribes in fiscal year 2011, an amount which is matched by 
the States each year. These grants support the implementation of State 
and tribal regulatory programs under the Surface Mining Control and 
Reclamation Act (SMCRA) and as such are essential to the full and 
effective operation of those programs.
    In fiscal year 2010, Congress approved an additional $5.8 million 
increase for State title V grants over the fiscal year 2009 enacted 
level, for a total of $71.3 million. For the first time in many years, 
the amount appropriated for these regulatory grants aligned with the 
demonstrated needs of the States and tribes. The States are greatly 
encouraged by the significant increases in title V funding approved by 
Congress over the past 3 fiscal years. Even with mandated rescissions 
and the allocations for tribal primacy programs, the States saw a $12 
million increase for our regulatory programs over fiscal year 2007 
levels. As we noted in our statement on last year's budget, State title 
V grants had been stagnant for more than 12 years and the gap between 
the States' requests and what they received was widening. This 
debilitating trend was compounding the problems caused by inflation and 
uncontrollable costs, thus undermining our efforts to realize needed 
program improvements and enhancements and jeopardizing our efforts to 
minimize the potential adverse impacts of coal extraction operations on 
people and the environment.
    In its fiscal year 2011 budget, OSM has unilaterally and 
drastically reversed course and essentially unraveled and undermined 
the progress made by Congress in supporting State programs with 
adequate funding. This comes at precisely the wrong time. The States 
are still in the process of putting the recent improvements in funding 
to work in their programs through the filling of vacant positions and 
the purchase of much needed equipment. As States prepare their future 
budgets, we trust that the recent increases approved by Congress will 
remain the new base on which we build our programs. Otherwise we find 
ourselves backpedaling and creating a situation where those who were 
just hired face layoffs and purchases are canceled or delayed.
    The States continue to face significant cost increases in their 
programs due to inflation, especially increased fuel and equipment 
costs. Health insurance premiums and cost of living adjustments are 
also significant factors in the annual operation of State programs, 
especially with personnel expenses representing some 80 percent of 
total program costs. A new challenge has come in the form of 
retirements, where States are faced with buy-outs, paying for unused 
annual leave, and replacing an aging work force. These are substantial, 
often unanticipated, costs that are wreaking havoc on State budgets.
    It is essential that we maintain consistent, inflation-adjusted 
funding from year to year in order to deploy resources for our 
programs. This is especially true with regard to hiring new staff to 
fill vacancies or to supplement understaffed areas of the programs. We 
cannot afford to invest money in these positions and then face 
potential layoffs the next year because funding is not maintained. As 
it is, State agencies are continually faced with making the case to 
State legislatures and budget officers to support their regulatory 
programs through matching State funds, particularly given the difficult 
fiscal climate facing the States. A clear message from Congress that 
reliable, consistent funding will continue into the future will do much 
to stimulate support for these programs. In this regard, it should be 
kept in mind that a 15 percent cut in Federal funding translates to a 
30 percent cut for overall program funding for many States, especially 
those without Federal lands, since these States can only match what 
they receive in Federal money.
    OSM's solution to the drastic cuts for State regulatory programs 
comes in the way of an unrealistic assumption that the States can 
simply increase user fees in an effort to ``reduce the level of Federal 
funding required to regulate, and to an extent subsidize, the coal 
industry.'' No specifics on how the States are to accomplish this far-
reaching proposal are set forth, other than an ``encouragement'' to do 
so in the course of a single fiscal year. Aside from the debate about 
whether the coal industry is truly being ``subsidized'' and how the 
adoption of user fees impacts the working relationship between the 
regulator and the regulated, OSM's proposal is completely out of touch 
(some would say ``out of line'') with the realities associated with 
establishing or enhancing user fees. IMCC's recent polling of its 
member States confirmed that, given the current fiscal and political 
implications of such an initiative, it will be difficult, if not 
impossible, for most States to accomplish this feat at all, let alone 
in less than 1 year. OSM is well aware of this, and yet, without input 
from or consultation with the States and tribes, has pushed forward 
with a proposal that was poorly conceived from its inception. We 
strongly urge the subcommittee to reject this approach and mandate that 
OSM work through the complexities associated with any future user fees 
proposal in close cooperation with the States and tribes.
    With regard to funding for State regulatory grants in fiscal year 
2011, there continues to be no disagreement about the need demonstrated 
by the States. In fact, in OSM's budget justification document, the 
agency states that: ``the states have the unique capabilities and 
knowledge to regulate the lands within their borders. Providing up to a 
50 percent match of Federal funds to primacy States in the form of A & 
E grants results in the highest benefit and the lowest cost to the 
Federal Government. If a State were to relinquish primacy, OSM would 
have to hire sufficient numbers and types of Federal employees to 
implement the program. The cost to the Federal Government would be 
significantly higher.'' (Page 60 of OSM's Budget Justification) For all 
the above reasons, we urge the subcommittee to approve not less than 
$71 million for State and tribal title V regulatory grants, as fully 
documented in the States' and tribes' estimates for actual program 
operating costs.\1\
---------------------------------------------------------------------------
    \1\ Funding for State title V grants will become increasingly 
important as OSM moves forward with a recent initiative to adjust 
Federal oversight of State programs pursuant to the June 11 Memorandum 
of Understanding (MOU) between the Interior Department, the U.S. 
Environmental Protection Agency and the U.S. Army Corps of Engineers. 
Several action items under this initiative have significant resource 
implications for the States in the way of followup to increased Federal 
inspections, data collection and analysis, and State responses to the 
reflexive use of Ten-Day Notices.
---------------------------------------------------------------------------
    With regard to funding for State title IV Abandoned Mine Land (AML) 
program grants, congressional action in 2006 to reauthorize title IV of 
SMCRA has significantly changed the method by which State reclamation 
grants are funded. Beginning with fiscal year 2008, State title IV 
grants are funded primarily by permanent appropriations. As a result, 
the States should have received a total of $413.2 million in fiscal 
year 2011. Instead, OSM has budgeted an amount of $259.5 million based 
on an ill-conceived proposal to eliminate mandatory AML funding to 
States and tribes that have been certified as completing their 
abandoned coal reclamation programs. This $153.7 million reduction 
flies in the face of the comprehensive restructuring of the AML program 
that was passed by Congress in 2006, following more than 10 years of 
congressional debate and hard fought compromise among the affected 
parties. While we have not seen the details of the proposal, which will 
require adjustments to SMCRA, it will clearly undermine the delicate 
balance of interests and objectives achieved by the 2006 amendments. It 
is also inconsistent with many of the goals and objectives set forth in 
the recent jobs bill and the American Recovery and Reinvestment Act. We 
urge the subcommittee to reject this unjustified proposal, delete it 
from the budget and restore the full mandatory funding amount of $413.2 
million.
    We also urge the subcommittee to approve continued funding for the 
AML emergency program. In a continuing effort to ignore congressional 
direction, OSM's budget would completely eliminate funding for State-
run emergency programs and also for Federal emergency projects (in 
those States that do not administer their own emergency programs). When 
combined with the great uncertainty about the availability of remaining 
carryover funds, it appears that the program has been decimated.
    Funding the OSM emergency program should be a top priority for 
OSM's discretionary spending. This funding has allowed the States and 
OSM to address the unanticipated AML emergencies that inevitably occur 
each year. In States that have federally operated emergency programs, 
the State AML programs are not structured or staffed to move quickly to 
address these dangers and safeguard the coalfield citizens whose lives 
and property are threatened by these unforeseen and often debilitating 
events. And for minimum program States, emergency funding is critical 
to preserve the limited resources available to them under the current 
funding formula.
    Section 410 of SMCRA establishes an emergency reclamation procedure 
for AML sites that pose a ``sudden danger with a high probability of 
substantial physical harm to the health, safety or general welfare of 
people before it can be abated under normal program operation 
procedures''. The funding for the emergency program is separate from 
the State and tribal nonemergency AML grant funding since it comes from 
the Secretary's ``discretionary share''. Section 402(g)(1)(C) 
specifically requires that the nonemergency State share be used only 
for annual reclamation project construction and administration costs. 
The nonemergency Federal share allocated to the States in section 
402(g)(5) is used to supplement the State share received under 
402(g)(1) until the priorities set forth in section 403(a)(1) and (2) 
are met. Emergencies do not fall under section 403, but are provided 
for only in section 410.
    While there were several significant changes to the AML program 
under SMCRA as a result of the 2006 amendments, there were absolutely 
no changes to the emergency program under section 410 of the act. In 
fact, significant funding increases were approved by Congress that 
would allow the States to address long-overdue reclamation problems 
including landslides, contaminated drinking water, refuse piles, 
dangerous highwalls, mine fires, and exposed mine portals. Diverting 
these monies to the emergency program, as mandated under OSM's proposed 
budget, would impede the progress the States are now making to address 
AML problems that have been awaiting funding for years. In this regard, 
new section 402(g)(1)(D)(2) requires that the Secretary ensure ``strict 
compliance'' by the States in their use of nonemergency grant funds for 
the priorities listed in section 403(a). For the States to do otherwise 
would require at the least a rulemaking by OSM, if not legislative 
adjustment. It would also reverse 30 years of official guidance and 
practice by OSM. We therefore request that the subcommittee restore $20 
million for the AML emergency program in OSM's fiscal year 2011 budget.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as EPA's 319 program. Until fiscal year 2009, language 
was always included in OSM's appropriation that encouraged the use of 
these types of matching funds, particularly for the purpose of 
environmental restoration related to treatment or abatement of acid 
mind drainage (AMD) from abandoned mines. This is a perennial, and 
often expensive, problem, especially in Appalachia. IMCC therefore 
requests the subcommittee to once again include language in the fiscal 
year 2011 appropriations bill that would allow the use of AML funds for 
any required non-Federal share of the cost of projects by the Federal 
Government for AMD treatment or abatement.
    We also ask the subcommittee to support funding for OSM's training 
program, including monies for State travel. These programs are central 
to the effective implementation of State regulatory programs as they 
provide necessary training and continuing education for State agency 
personnel. IMCC also urges the subcommittee to support funding for 
TIPS, a program that directly benefits States by providing critical 
technical assistance. In this regard, we also request that the 
subcommittee restore the $303,000 for these two programs that has been 
proposed for reduction. We also request that the subcommittee direct 
OSM not to make any further adjustments to these programs in order to 
focus resources on other regulatory program activities related to the 
June 11 MOU, as suggested in OSM's budget justification document. 
Finally, we support funding for the Watershed Cooperative Agreements in 
the amount of $1.55 million.
                                 ______
                                 
           Prepared Statement of the Independent Review Team
    Thank you for the opportunity to submit written testimony on 
serious funding needs that have limited and continue to hinder the 
operations of tribal judicial systems in Indian country. I am the 
leader of the Independent Tribal Court Review Team. I am here today to 
request that this subcommittee increases funding for tribal courts by 
at least $50 million in fiscal year 2011 and maintain the tribal courts 
set-aside.
            budget priorities, request, and recommendations
    +$58.4 million authorized under the Indian Tribal Justice Act of 
1993, Public Law 103-176, 25 U.S.C. 3601 and re-authorized in year 2000 
Public Law 106-559 (no funds appropriated to date)
  --Increase funding for tribal courts by 50 percent; and
  --Maintain the set-aside for tribal courts.
    We support an increase in funding for:
  --Hiring and Training of Court Personnel.--Tribal Courts make do with 
        underpaid staff, underexperienced staff, and minimal training. 
        (We have determined that hiring tribal members limits the 
        inclination of staff to move away; a poor excuse to underpay 
        staff.)
  --Salary Increases for Existing Judges and Court Personnel.--Salaries 
        should be comparable to local and State court personnel to keep 
        pace with the nontribal judicial systems and be competitive to 
        maintain existing personnel.
  --Tribal Courts Need State-of-the-Art Technology (Software, 
        Computers, Phone Systems, Tape Recording Machines).--Many 
        tribes cannot afford to purchase or upgrade existing court 
        equipment unless they are awarded a grant. This is accompanied 
        by training expenses and licensing fees which do not last after 
        the grant ends.
  --Security and Security Systems To Protect Court Records and Privacy 
        of Case Information.--Most tribal courts do not even have a 
        full-time bailiff, much less a state-of-the-art security system 
        that uses locked doors and camera surveillance. This is a 
        tragedy waiting to happen.
  --Tribal Court Code Development.--Tribes cannot afford legal 
        consultation. A small number of tribes hire on-site staff 
        attorneys. These staff attorneys generally become enmeshed in 
        economic development and code development does not take 
        priority. Tribes make do with underdeveloped codes. The Adam 
        Walsh Act created a hardship for tribes who were forced to 
        develop codes, without funding, or have the State assume 
        jurisdiction. (States have never properly overseen law 
        enforcement in a tribal jurisdiction.)
  --Financial Code Development.--We have rarely seen tribes with 
        developed financial policies. The process of paying a bond, for 
        example, varies greatly from tribe to tribe. The usual process 
        of who collects it, where it is collected and how much it is, 
        is never consistent among tribes.
    For the past 4 years, the Independent Court Review Team has been 
traveling throughout Indian country assessing how tribal courts are 
operating. During this time, we have completed some 60 court reviews. 
There is no one with more hands-on experience and knowledge regarding 
the current status of tribal courts than our Review Team.
    We have come into contact with every imaginable type of tribe; 
large and small, urban and rural, wealthy, and poor. What we have not 
come into contact with is any tribe whose court system is operating 
with financial resources comparable to local and State jurisdictions.
    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their court systems. Tribes with even modest resources tend to send 
additional funding to courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian courts.
    Tribal courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained Judges, without doing away with 
Judges who have cultural/traditional experience. Tribal court systems 
have appellate courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and tribal bar listings and fees. Perhaps most 
importantly, tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate courts and judges from political 
pressure. No longer in Indian country are judges automatically fired 
for decisions against the legislature.
    Our research indicates tribal courts are at a critical stage in 
terms of need. Nationwide, there are 156 tribes with courts that 
receive Federal funding. These tribes divided a mere $11.9 million in 
Federal funds throughout fiscal year 09. It is the strong 
recommendation of the Independent Tribal Courts Review Team that the 
Federal tribal courts budget be substantially increased above what is 
in the President's budget.
    Assessments have indicated that the Bureau of Indian Affairs only 
funds tribal courts at 26 percent of the funding needed to operate. The 
remainder is funded by the tribes. Tribes who have economic development 
generally subsidize their tribal courts. On the flip side, tribes who 
cannot afford to assist in the financial operations of the court are 
tasked with doing the best they can with what they have even at the 
expense of decreasing or eliminating services elsewhere. This while 
operating at a disadvantage with already overstrained resources and 
underserved needs of the tribal members. The assessment suggests that 
the smaller courts are both the busiest and most underfunded.
    We thank this subcommittee for the additional $5 million funding, 
and the Senate's additional $5 million ($10 million) in fiscal year 
2010. This will be a big asset once the funding trickles down to the 
tribal courts. These funds will be added to the base funding of the 
tribal justice systems.
    The grant funding in the Department of Justice is intended to be 
temporary, but instead it is used for permanent needs; such as funding 
a drug court clerk who then is used as a court clerk with drug court 
duties. When the funding runs out, so does the permanent position. We 
have witnessed many failed drug courts, failed court management 
software projects (due to training costs) and incomplete code 
development projects. When the justice funding runs out, so does the 
project.
    As a directive from the Office of Management and Budget, our 
reviews specifically examined how tribes were using Federal funding. In 
the last 4 fiscal years there was only one isolated incident of a 3 
percent questionable expenditure of Federal funds (fiscal year 2009). 
It is speculated that because of our limited resources, we compromise a 
defendant's due process and invoke ``speedy trials'' violations to save 
tribal courts money. Everyone who is processed through the tribal 
judicial system is afforded their constitutional civil liberties and 
civil rights.
    We do not wish to leave an entirely negative impression about 
tribal courts. True, tribal courts need an immediate, sustained, and 
increased level of funding and there are strong indications that the 
courts will put such funding to good use.
    There are tribes like the Fort Belknap Tribe of Montana whose chief 
judge manages both offices and holds court in an old dormitory that 
can't be used when it rains because water leaks into the building and 
the mold has consumed one wall. Their need exceeds 100 percent.
    And, there are tribes like the isolated Havasupai, located in the 
bottom of the Grand Canyon. They can only afford a judge 1 day a month. 
Their computers only work sporadically because of the fine layer of 
dust that appears to cover everything. They have a single, underpaid 
clerk, who remains dedicated to her job, even though her employment 
experience means she could make twice as much working out of the Canyon 
away from home. When she goes to pick up her children at school, the 
court must close, because she is the only one there. The flooding of 
the Canyon has not helped. Their need exceeds 100 percent.
    Tribal courts have other serious needs. Tribal appellate court 
judges are mostly attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts offer jury trials. In many courts, one sustained jury trial will 
deplete the available budget. The only place to minimize expenses is to 
fire staff. Many tribal courts have defense advocates. These advocates 
are generally law trained and do a good job protecting an individual's 
rights (including assuring speedy trial limitations are not violated.) 
However, this is a large item in court budgets and if the defense 
advocate, or Prosecutor, should leave, the replacement process is slow.
    I come here today to tell Congress these things. We feel it is our 
duty to come here on behalf of tribes to advocate for better funding 
for tribal justice systems. Tribes ask us to tell their stories. They 
open their files and records to us and say, ``We have nothing to 
hide.'' Tell Congress we need better facilities, more detention 
facilities, more legal advice, better codes. the list goes on and on. 
But, as we have indicated, it all involves more funding. This Congress 
and this new administration can do something great. Put your money 
where your promises have been.
    We support the requests and recommendations of the National 
Congress of American Indians.
                                 ______
                                 
        Prepared Statement of the InterTribal Bison Cooperative
Introduction and Background
    As a member of the Blackfeet Nation and President of the 
InterTribal Buffalo Council (ITBC), I appreciate the opportunity to 
submit written testimony to the honorable members of the Senate 
Committee on Appropriations; Subcommittee on the Interior, Environment, 
and Related Agencies. ITBC, recently reorganized from a nonprofit 
corporation to a federally chartered Indian organization under section 
17 of the Indian Reorganization Act is headquartered in Rapid City, 
South Dakota. ITBC is comprised of 56 federally recognized Indian 
tribes in 18 States that are committed to the restoration, preservation 
and protection of buffalo in Indian Country and beyond. In this 
testimony, I will address: (1) ITBC's request for a $3,000,000 
appropriation for fiscal year 2011, from the Department of Interior to 
continue buffalo restoration efforts, provide expert technical 
assistance, implement a marketing initiative, develop faculties to 
accommodate buffalo released from the Yellowstone quarantine facility 
and continue the viable health initiative to prevent and treat diet 
related diseases among Native Americans; and (2) convey to the 
subcommittee the unmet needs of the ITBC membership.
    Historically, Native Americans, particularly in the Plains regions 
of North America, relied heavily on buffalo for survival. This 
dependence on buffalo cultivated the strong spiritual and cultural 
relationship between Native Americans and buffalo that has not 
diminished with the passage of time. In the 1800's, buffalo were 
needlessly slaughtered to a point of near extinction during the period 
Native Americans were moved onto reservations. While Tribe's long 
desired sufficient lands, financing and capacity to protect buffalo, 
this desire did not come to fruition until the early 1990's with the 
formation of the ITBC. ITBC was established to promote the mission of 
preserving the sacred relationship between Indian people and buffalo 
through the restoration of buffalo to tribal lands. ITBC envisioned the 
restoration of buffalo to tribal lands could foster sustainable 
economic development that would be compatible with Tribal culture. ITBC 
first received Federal funding through the Department of the Interior 
in 1992 to commence restoration efforts.
    Federal appropriations have allowed ITBC to successfully restore 
buffalo to more than 50 Reservations, thereby re-establishing the 
sacred relationship between Indian people and buffalo. With healthy, 
viable buffalo herds, opportunities now exist for tribes to utilize 
buffalo for economic development and for the prevention and treatment 
of the diet related diseases that gravely impact Native American 
populations such as diabetes, obesity, and cardiovascular disease. 
Economically sustainable herds will allow tribes to utilize a 
culturally relevant resource in a manner that is compatible with their 
spiritual and cultural beliefs.
Funding Request
    The InterTribal Bison Cooperative respectfully requests an 
appropriation for fiscal year 2011 in the amount of $3,000,000. This 
amount would restore ITBC Federal funding to the fiscal year 2006 
appropriation level and would allow ITBC to successfully accomplish its 
goals and objectives. This request will help balance ITBC's continuing 
growth in membership with its funding level. A $3,000,000 appropriation 
would restore vital funding that was cut from the administration's 
fiscal year 2007, fiscal year 2008 and fiscal year 2009 budgets. 
$3,000,000 in appropriated funding will allow ITBC Tribes to continue 
successful buffalo restoration efforts, to implement ITBC's marketing 
and infrastructure development initiative, to restore the health 
initiative for the prevention and treatment of diet related diseases 
among Native American populations, and develop faculties to accommodate 
buffalo released from the Yellowstone National Park quarantine program.
Funding Shortfall and Unmet Need
    In fiscal year 2006, ITBC and it member tribes were funded through 
appropriations at $4,150,000. The Presidents budget in fiscal year 2007 
and fiscal year 2008 eliminated funding for ITBC. ITBC was funded 
$1,000,000 in fiscal year 2007 and fiscal year 2008 through a 
Congressional appropriation. In fiscal year 2009 ITBC was funded 
$1,000,000 through a congressional appropriation and $421,000 from 
Bureau of Indian Affairs (BIA) carryover funds from fiscal year 2008. 
In 2009 and 2010, ITBC has been funded $1,000,000 from the BIA's 
Wildlife Management line item. ITBC had started a successful Marketing 
Program and Health Initiative that addressed diet related health 
problems that are epidemic on most of our Reservations when ITBC's 
funding had been drastically reduced.
    Without the restoration of funding close to the fiscal year 2006 
level, new member Tribes will not receive adequate funding to begin 
buffalo restoration efforts. Tribes that have successfully restored 
buffalo to tribal lands will not receive adequate technical assistance 
and resource development funds to ensure the sustainability of existing 
herds. Furthermore, the investment made by Congress in fiscal year 2006 
towards ITBC's healthcare initiative has been cut to the point of 
almost being nonexistent.
    ITBC funding benefits member tribes via direct awards of Herd 
Development Grants for restoration or herd maintenance and also 
provides critical technical assistance for herd health needs, range 
management and herd management training. ITBC surveys member Tribes 
annually to determine unmet project needs and currently the total unmet 
needs for ITBC member tribe's projects is approximately $7,000,000. 
These needs include infrastructure (fencing and corrals) needs, 
equipment, water development, range development, marketing, and a 
processing facility.
ITBC Goals and Initiatives
    The goal of ITBC is restoration of buffalo to Indian lands for 
Tribes to utilize as sustainable economic development efforts. ITBC's 
ultimate goal is for tribal buffalo herds to achieve economic 
sustainability and become integrated, on a daily basis, into the diets 
of reservation populations.
            Tribal Buffalo Marketing to Achieve Viable Economic 
                    Development
    In 1991, seven Indian tribes had small buffalo herds that 
collectively comprised less than 1,600 animals. The buffalo provided 
little or no economic benefit to the tribal owners. ITBC has proven 
extremely successful at buffalo restoration in its 15 years of 
existence. Today, with the support and technical assistance of ITBC and 
its fellow member tribes, 56 Indian tribes are engaged in raising 
buffalo or developing plans to raise buffalo with a goal of achieving 
economically sustainable herds. ITBC and the member tribes have 
restored approximately 15,000 buffalo back to tribal lands for use by 
the tribes and their members. Collectively, tribes raise the largest 
buffalo herd in the United States.
    Many of these tribal buffalo programs have developed herds large 
enough to justify plans for marketing products as a step towards self 
sufficiency. However, tribes must have the resources to build solid 
foundations for this new industry and viable marketing options to 
achieve economic development efforts. ITBC's marketing initiative is in 
an infancy stage and renewed funding is critical to achieve meaningful 
economic opportunities for tribes. ITBC had launched efforts to develop 
viable markets for tribal buffalo both in the private sector and 
through coordination with Federal agencies. However, ITBC has been 
unable to compete for large-scale buffalo meat contracts due to its 
inability to maintain a constant, cost-effective supply chain. To re-
initiate these efforts, provide critical marketing training for 
individual tribes, and to acquire sufficient pasture lands to maintain 
a significant supply of buffalo to accommodate large-scale product 
orders, ITBC requests $1,000,000 in funding.
    ITBC member tribes face a multitude of obstacles when trying to get 
their buffalo to market. The remoteness of the reservations requires 
the transportation of buffalo over long distances to processing plants 
resulting in higher operating costs. Some processing plants are 
reluctant to process range fed buffalo while others require that 
animals be corn finished in a feedlot which compromises ITBC's 
objective to deliver natural, range-fed, low-fat buffalo products. To 
remedy this obstacle, ITBC seeks funding in the amount of $500,000 to 
purchase an USDA approved mobile slaughter unit and equipment for 
transportation and/or storage of live and processed buffalo. 
Additionally, funds will be utilized to train ITBC member tribes on use 
of the mobile slaughter facility. Presently, at least three USDA 
approved mobile slaughter units process buffalo in the United States. 
ITBC would like to acquire a unit for use by the member tribes to 
maintain the integrity of ITBC's natural range-fed buffalo. ITBC has 
discussed this request with the BIA Economic Development Office 
although no funding has been allocated.
            Yellowstone National Park Bison Quarantine Facility
    ITBC has long been considered the ``informal protectors'' of 
buffalo in the United States and in this capacity, ITBC has long been 
at the table with other Federal and State agencies surrounding the 
Yellowstone National Park to address the brucellosis concerns of 
Yellowstone Park buffalo. The slaughter of buffalo that forage outside 
the Park in Montana as well as the recent transfer of treated buffalo 
to private ownership has resulting in public outcry. ITBC proposes to 
develop faculties to accommodate the buffalo coming out of the 
Yellowstone National Park quarantine facilities to ensure animals are 
going to tribal lands as the Greater Yellowstone Area initial 
management plans intended. ITBC tribes desire acquiring the buffalo but 
have been limited by the required infrastructure to accommodate the 
animals. ITBC requests funding in an amount of $500,000 to coordinate 
with the National Park Service and other Federal agencies to develop a 
program to accommodate buffalo released from the Yellowstone quarantine 
facility that ensures continued protection of buffalo while minimizing 
disease concerns for livestock industries. The funding request will 
accommodate transportation, testing, adequate pasture with required 
fencing, and maintenance costs with a goal of eventually transferring 
the animals to tribes and other public entities.
            Preventive Health Care Initiative
    ITBC is committed to providing buffalo meat to Indian Reservation 
families both as an economic development effort for Native American 
producers and, more critically, as a healthy food to reintroduce into 
the diets of Native American populations. Current research indicates 
that the diet of most Indian Reservation families includes large 
amounts of high cholesterol, processed meats that contribute to 
diabetes, obesity, cardiovascular disease and other diet related 
illnesses.
    ITBC member tribes were just beginning to implement a preventive 
healthcare initiative with fiscal year 2006 funding that provided easy 
access to buffalo meat on Indian Reservations and educated Indian 
families on the health benefits of range fed buffalo meat. A 
restoration of the funds in the amount of $1,000,000 will allow the 
program to operate at the fiscal year 2006 level. This funding will 
allow ITBC to provide buffalo meat in family sized quantities to 
Reservation markets and interact with the Federal Food programs to make 
buffalo meat available in reservation schools and local community 
health networks to address diabetes and other health issues.
Conclusion
    The projects detailed above total $3 million which when added to 
the allocation in the President's budget request will restore ITBC to 
its fiscal year 2006 funding level of $4.1 million. ITBC anticipates 
that funding of all the projects above will create 150 temporary jobs 
and 50 permanent positions.
    I would like to thank this subcommittee for the opportunity to 
present testimony and the members of ITBC invite the honorable members 
of the subcommittee to visit our tribal buffalo projects and experience 
first hand their successes.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America
    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2011 for 
various agencies and programs under the jurisdiction of the 
subcommittee. The League is a national, nonprofit organization founded 
in 1922. We have nearly 38,000 members and more than 260 local chapters 
nationwide. Our members are committed to advancing common sense 
policies that safeguard wildlife and habitat, support community-based 
conservation, and address pressing environmental issues. The following 
pertains to programs administered by the Departments of Agriculture and 
the Interior, Fish and Wildlife Service, and Environmental Protection 
Agency.
Departments of Agriculture and Interior, Land and Water Conservation 
        Fund
    The League is very encouraged by the President's proposal to 
increase funding for the Land and Water Conservation Fund (LWCF) to 
approximately $620 million in fiscal year 2011 with the goal of fully 
funding LWCF at $900 million by 2014. The League strongly supports full 
funding and its members reaffirmed this commitment in 2008 by adopting 
a resolution during our National Convention endorsing this goal. It is 
important to begin to reinvest in strategic land acquisition to protect 
critical habitat, provide recreational access, and to buffer against 
the likely impacts of climate change.
Fish and Wildlife Service, National Wildlife Refuge System (NWRS)
    The League joins other members of the Cooperative Alliance for 
Refuge Enhancement (CARE), a diverse coalition of 22 wildlife, 
sporting, conservation, and scientific organizations representing more 
than 14 million members and supporters, in requesting $578 million in 
fiscal year 2011 for operations and maintenance of the NWRS. We urge 
the subcommittee to reject the administration's proposal to cut the 
operations and maintenance budget by more than $3 million compared to 
the fiscal year 2010 appropriation.
    We greatly appreciate the subcommittee's leadership in boosting 
NWRS funding to approximately $503 million in the fiscal year 2010. We 
are concerned that the president's proposal would stall momentum the 
Congress has created over the past 3 years. Moreover, if a funding 
freeze or cuts are continued over multiple fiscal years, this could 
force the Fish and Wildlife Service to curtail visitor services, 
eliminate staff, and further delay essential maintenance projects.
    It is important to note that the cut proposed by the administration 
is greater than $3.3 million because the Department is proposing that 
agencies absorb fixed costs. The Fish and Wildlife Service estimates 
that NWRS requires at least $15 million annually to keep pace with 
inflation, including rising fuel, rental, and utility costs and cost-
of-living adjustments for staff. Therefore, the effective budget cut 
would exceed $18 million. NWRS has a $2.7 billion maintenance backlog 
today, in part, because the Service has been forced to continuously 
defer essential maintenance when base funding fell short of basic 
operational needs. The administration's proposal would only exacerbate 
this problem.
    Furthermore, the administration proposes specific cuts within the 
operations and maintenance budget that we oppose and consider 
counterproductive. For example, it recommends cutting the visitor 
services account by nearly $4 million. Last year, 42 million Americans 
visited wildlife refuges across the country to hunt and fish, observe 
wildlife, learn from Service professionals, or simply take a walk in 
the woods. And these visitors have a direct, positive impact on local 
economies. The Service estimates that refuge visitors generate $1.7 
billion in sales and support 27,000 private-sector jobs. If visitor 
services decline due to budget cuts and visitation is negatively 
impacted, our shared goal of reviving the economy and creating jobs 
could be undermined.
    In addition, the administration proposes to cut the law enforcement 
budget. We believe this fails to reflect an urgent need across wildlife 
refuges. The analysis of NWRS performance issued in 2008 by Management 
Systems International (MSI) concluded that ``[A]t many refuges, law 
enforcement coverage is insufficient to ensure protection of resources 
and the safety of visitors and refuge staff.'' This analysis 
recommended that the Service double the number of refuge law 
enforcement staff from 200 to ``at least 400 full-time officers.'' In 
fiscal year 2010, NWRS has approximately 210 full-time law enforcement 
personnel. Moreover, the analysis tied the law enforcement problem 
directly to funding stating ``[I]t is highly unlikely that any 
meaningful progress towards improving the Refuge System's law 
enforcement capability (will occur) under current and expected budget 
allocation levels.'' Increasing funding for operations--rather than 
cutting it--will allow the Fish and Wildlife Service to begin to boost 
law enforcement capability, which is important to protecting visitors, 
fish, wildlife, and habitat.
Fish and Wildlife Service, State Wildlife Grants
    As a member of the Teaming with Wildlife National Steering 
Committee, the League urges the subcommittee to provide $100 million 
for the State Wildlife Grants Program in fiscal year 2011.
    The State Wildlife Grants Program supports proactive conservation 
projects aimed at preventing wildlife from becoming endangered. 
Experience shows that efforts to restore imperiled wildlife can be 
particularly contentious and costly when action is taken only after 
species are formally listed as threatened or endangered pursuant to the 
Endangered Species Act. State Wildlife Grants support State and 
community-based efforts to safeguard habitat and wildlife before either 
reaches the tipping point. This program also provides States with an 
important source of Federal funds to address nongame species. Finally, 
the Federal investment leverages significant funding from private, 
State, and local sources.
Environmental Protection Agency, Clean Water State Revolving Fund
    The League supports the request for $2 billion for the Clean Water 
State Revolving Fund (SRF). Nationwide, broken sewer pipes and 
overflows spill more than 1 trillion gallons of untreated sewage into 
our waterways every year costing more than $50 billion for cleanup. 
These overflows pose serious risks to fish, wildlife, and human health. 
The SRF is a highly successful program that provides the funds needed 
to reduce sewage contamination and improve water quality. However, the 
Environmental Protection Agency's Clean Water and Drinking Water 
Infrastructure Gap Analysis found a $535 billion gap between current 
spending and projected needs for drinking water and wastewater 
infrastructure over the next 20 years. Investing $2 billion in the 
Clean Water SRF is essential to improving water quality, protecting 
public health, and supporting jobs across the country.
Environmental Protection Agency, Great Lakes Restoration
    The League is also very encouraged by the President's on-going 
commitment to Great Lakes restoration. We support providing at least 
$300 million as requested to build on the funding Congress provided in 
fiscal year 2010 and to support implementation of the recently released 
Great Lakes Restoration Initiative Action Plan. The Great Lakes provide 
drinking water to 35 million people and support jobs and recreational 
opportunities for millions more. However, the health of the Great Lakes 
is seriously threatened by untreated sewage, toxic pollution, invasive 
species, and other problems. The eight States that border the Lakes and 
many nongovernmental organizations have invested significant resources 
to safeguard these national treasures. Significant Federal investment 
is also needed or the problems will only get worse and cost even more 
to fix. Cleaning up the Great Lakes will provide many benefits, 
including economic development in the region.
    The League urges the subcommittee to provide at least $300 million 
to advance this critical initiative, especially when numerous studies 
estimate that $5 billion is required to restore the Great Lakes 
ecosystem. In addition, we believe it will be important to appropriate 
$475 million for Great Lakes restoration in fiscal year 2012 and 
beyond. In the Action Plan, the administration states its intention to 
request this amount in the future and the Great Lakes Ecosystem 
Protection Act (H.R. 4755/S. 3073) authorizes this amount between 
fiscal year 2011 and 2016.
Environmental Protection Agency, Non-point Source Management Program 
        (Clean Water Act Section 319)
    The League urges the subcommittee to appropriate at least $200 
million for section 319, the Non-point Source Management Program, as 
requested by the president. This program provides grants to States, 
territories and tribes for nonpoint source pollution reduction 
activities. EPA and many States report that nonpoint source pollution 
is the leading cause of water quality problems, including harmful 
effects on drinking water supplies, recreation, fisheries and wildlife. 
The Non-point Source Management Program provides critical funding for 
restoration. For example, 172 water bodies in 44 States have been 
restored with section 319 funding. Continued investment in this program 
will help restore our waterways for people and wildlife.
Environmental Protection Agency, Chesapeake Bay Program
    The League strongly supports the administration's request for $63 
million in fiscal year 2011 for the Chesapeake Bay Program.
    The Chesapeake Bay is the largest estuary on the Atlantic coast and 
one of the largest in the world. EPA's Chesapeake Bay Program Office 
(CBPO) is the primary facilitator of restoration activities by partners 
throughout the watershed. Although the Chesapeake Bay Program has made 
significant progress toward pollution reduction, habitat restoration, 
fisheries management, and watershed protection goals, much more work is 
needed to restore the Bay. For example, habitat restoration efforts are 
collectively less than half way to Program goals and there is concern 
about the overall quality of habitat that remains.
    Although the request is positive, the League believes it is 
important for the administration and the subcommittee to prepare to 
make substantial additional investments in Bay restoration. According 
to the Chesapeake Bay Commission's report The Cost of a Clean Bay 
(2003), $19 billion is needed to meet the restoration goals outlined in 
the Chesapeake 2000 agreement. Additional investment will be necessary 
to fulfill new goals being developed following the President's 2009 
Chesapeake Bay Executive order. The executive order establishes the 
framework for a comprehensive Federal effort, in partnership with 
States, local governments, and many others, to tackle persistent 
problems that negatively impact water quality, habitat, recreation, and 
important sectors of the regional economy. The EPA is completing a 
total maximum daily load (TMDL) for the Bay that will be a key tool in 
improving water quality. At the same time, it must be coupled with 
proactive technical assistance and funding to assist local governments, 
farmers, and others with compliance. Achieving the President's goals, 
successfully implementing new pollution reduction measures, and 
restoring habitat, streams, and wetlands will depend, in part, on 
significant new investment in future fiscal years.
    The League appreciates the opportunity to testify about these 
important issues.
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    My name is W. Ron Allen. On behalf of the Jamestown S'Klallam 
Tribe, I want to thank this subcommittee for the opportunity to submit 
this written testimony on our funding priorities and requests on the 
fiscal year 2011 Bureau of Indian Affairs (BIA) and Indian Health 
Service (IHS) budgets. We have long appreciated this subcommittee's 
support of our funding requests.
                tribal-specific appropriation priorities
    $600,000 land purchase for Tamanowas Rock Sanctuary Project; and an 
$200,000 increase to BIA tribal base budget for fish and wildlife 
management.
              local/regional requests and recommendations
    We support all requests and recommendations of Affiliated Tribes of 
Northwest Indians; Northwest Portland Area Indian Health Board; and the 
Northwest Indian Fisheries Commission.
                 national requests and recommendations
BIA Requests
    Provide $82.9 million general increase to BIA Tribal Priority 
Allocation (TPA) for inflationary and fixed costs; provide $64 million 
increase for BIA Contract Support Cost (CSC), including Direct CSC; and 
provide a $5 million increase in the Indian Self-Determination (ISD) 
Fund; and provide 100 percent of fixed costs (uncontrollable), 
including tribal pay costs.
IHS Requests
    Provide $474 million for IHS mandatory inflation and population 
growth increase to maintain existing healthcare services; $330 million 
increase for Contract Health Services (CHS); $122 million increase for 
the IHS to fully fund CSC, including Direct CSC; and increase $5 
million to the IHS Office of Tribal Self-Governance (OTSG).
    We support all requests and recommendations of the National 
Congress of American Indians (NCAI) and the National Indian Health 
Board (NIHB). The leadership of the Jamestown S'Klallam Tribe remains 
actively involved in both NCAI and NIHB and has participated in 
numerous national forums to discuss and prioritize program funding and 
budgets. We are extremely supportive of the requests from these 
organizations.
              tribal-specific appropriation justification
$600,000 Land Purchase for Tamanowas Rock Sanctuary Project
    The purpose of the project is to preserve tribal cultural and 
ceremonial access to an important archaeological site of the S'Klallam 
American Indian people. Tamanowas Rock, located in eastern Jefferson 
County on the Olympic Peninsula of Washington State, is of great 
cultural and spiritual significance to the tribes in the region, and 
also holds special significance for the local non-Indian community. As 
a geological formation, the estimated age of the Rock is 43 million 
years. More importantly, the oral history associated with the Rock 
among the local tribes includes the era of the mastodons (extinct for 
8,000 years), when it was used as a perch by tribal hunters and a story 
of a great flood (assumed to be a tsunami from around 3,000 years ago) 
when people tied themselves to the Rock to avoid being swept away.
    In 1976, the Rock was listed in the Washington Heritage Register as 
having significant archaeological interest. The tribes and local 
community have been working for more than 10 years to try to protect 
the property where the Rock is located from development. In February 
2005, the Jamestown S'Klallam Tribe, acting on behalf of all the 
S'Klallam Tribes, obtained loans to purchase a 20-acre parcel and a 
group of platted properties totaling 66.32 acres (if dedicated roads 
are vacated, the acreage is closer to 100 acres for the platted 
properties). This property was in imminent threat of development in the 
vicinity of the Rock. The local community and the tribes now seek funds 
to purchase the land temporarily secured by the loan and purchase the 
remaining 80 acres directly surrounding Tamanowas Rock, all of which 
would be protected in perpetuity.
$200,000 Increase to BIA Tribal Base Budget for Fish and Wildlife 
        Management
    The U.S. Government formally recognized the Jamestown S'Klallam 
Tribe in 1981. Jamestown is 1 of 4 tribes that signed the Point No 
Point Treaty with the U.S. Government in 1855. The BIA began 
contracting with the tribe to provide fisheries management services. 
The Point No Point Treaty Council (PNPTC) was serving as the fisheries 
management agency for the other Klallam and Skokomish Tribes. In its 
efforts to contract with Jamestown for basic fisheries management 
services, the BIA decided to provide only enough funding to slightly 
expand PNPTC rather than providing funding of sufficient quantity for 
Jamestown to operate a fisheries program of the same size as the other 
three tribes. Following the implementation of the Self-Governance (SG) 
statute, the distribution of contracted funds to each PNPTC member 
tribe was based on funding history, thus Jamestown received a 
significantly smaller portion of the PNPTC base funding than received 
by the other three tribes. The Jamestown S'Klallam Tribe is nonetheless 
required to meet the basic fisheries and wildlife management 
responsibilities of U.S. v. Washington including planning, negotiation, 
regulation, technical expertise and enforcement. The $200,000 increase 
to our fiscal year 2011 SG base is needed to implement these essential 
treaty fish and wildlife management services.
              local/regional requests and recommendations
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
                    national requests and priorities
BIA Requests
    Overall, funding for BIA in fiscal year 2011 would be ``level 
funded'' at $2.6 billion under the President's proposed budget. Total 
funding represents a $53.6 million reduction below the enacted fiscal 
year 2010 level. The President has committed to support and advance ISD 
and SG for the Nation's 567 federally recognized tribes. Consistent 
with that commitment, the fiscal year 2011 budget should include the 
following critical increases:
    TPA General Increase.--Provide $82.9 million (10 percent increase 
over fiscal year 2010) for general increase to BIA TPA for inflationary 
and fixed costs
    TPA is one of the most important funding areas for tribal 
governments. It covers such needs as scholarships and higher education 
funding, human services, economic development, and natural resources 
management. This funding has steadily eroded due to inflation and 
population growth. The effects of rising costs of travel, equipment, 
supplies, and purchased services have been compounding for years while 
the Native American population has increased at 1.6 percent per year. 
Since tribes have the flexibility to use TPA funds to meet the unique 
needs of their individual communities, they are the main resources for 
tribes to exercise their powers of ISD and SG. We respectfully urge the 
subcommittee to provide at least a 10 percent ($82.9 million) increase 
over the fiscal year 2010 enacted level for TPA in order to maintain 
these programs and services.
    CSC.--Provide $64 million increase for BIA to fully fund CSC, 
including Direct CSC; and provide $5 million for the ISD Fund.
    Excluding the President's requested increase in CSC for fiscal year 
2011, it is anticipated that there will be a shortfall in CSC of $64 
million for fiscal year 2011. Additionally, $5 million is needed 
annually for administrative costs for new and expanded programs (ISD 
Fund). CSC are the key to ISD for tribes. Full funding of CSC covers 
the fixed overhead costs that a tribe must incur to operate a BIA 
program or facility as required under the Indian Self-Determination and 
Education Assistance Act. When CSC is not fully funded, tribes are 
forced to utilize limited direct program services dollars or tribal 
resources to cover these shortfalls. Further, CSC directly funds jobs--
and those jobs directly enhance services for education, law enforcement 
and other essential governmental services across Indian country. We 
respectfully urge the subcommittee to fund these essential services and 
not permit Indian agreements to remain the only government contracts 
that are not fully funded.
    Fixed Costs.--Provide 100 percent of tribal fixed costs 
(uncontrollable), including pay costs.
    The 2011 President's budget does not include an increase for 
anticipated fixed costs, including pay and benefit costs. Without this 
funding, tribal programs will be forced to absorb these uncontrollable 
fixed costs. We respectfully urge the subcommittee to provide annual 
increases for tribal pay and fixed costs to avoid progressive program 
declines.
IHS Requests
    The President's proposed increase for the IHS is projected to be 
$354.1 million (8.7 percent increase) more than the fiscal year 2010 
enacted level. This marks the second year of the Obama administration's 
support to Indian health programs and it represents the first step 
toward meeting the overwhelming $21.8 billion needed to bring parity in 
healthcare for American Indians and Alaska Natives.
    Mandatories.--Provide $474 million for IHS mandatory, inflation and 
population growth increase to maintain existing health care services.
    Mandatory costs increases are necessary to maintain the current 
level of services. These ``mandatories'' are unavoidable and include 
medical and general inflation, pay costs, and population growth. 
Maintaining current services is a fundamental budget principle. Failure 
to do so would result in cuts in healthcare and delivery. We estimate 
the current services need in fiscal year 2011 is $474 million.
    Contract Health Services (CHS).--Provide $330 million Increase for 
CHS.
    Tribes have recommended that an increase of $330 million is needed 
for CHS funding. At present, less than one-half of the CHS need is 
being met, leaving too many Indian people without access to necessary 
medical services. This level will allow those tribes who are not served 
by an IHS hospital to provide healthcare services at the same level as 
those tribes who are served by an IHS hospital.
    CSC.--Provide $122 million for IHS to fully fund CSC, including 
Direct CSC.
    This year's fiscal year 2011 request of a $45.8 million increase 
for CSC continues a sad chapter of neglect for ISD. Last year the 
President requested a $107 million increase for CSC with Congress 
providing an additional $9 million. For fiscal year 2011, the estimated 
shortfall is $122 million. The present shortfall creates a disincentive 
for tribes to pursue SG compacts, and diminishes available healthcare 
funding as tribal budgets must absorb the shortfall amounts. Adequate 
CSC funding assures that tribes have the ability to deliver the 
highest-quality healthcare services to their members.
    OTSG.--Increase $5 million to the IHS OTSG.
    In 2003, Congress reduced funding for this office by $4.5 million, 
a loss of 43 percent from the previous year. In each subsequent year, 
this budget was further reduced due to the applied congressional 
rescissions. As of 2010, there are 330 SG tribes managing approximately 
$1.2 billion in funding. This represents 57 percent of all federally 
recognized tribes and 33 percent of the overall IHS funding. The OTSG 
supports tribes operating programs under the Tribal Self-Governance 
Amendments of 2000. The SG process serves as a model program for 
Federal Government outsourcing, which builds tribal infrastructures and 
provides quality services to Indian people.
    Thank you for the opportunity to provide written testimony to 
present the budget priorities of the Jamestown S'Klallam Tribe.
                                 ______
                                 
              Prepared Statement of Keep Valley Forge Safe
    Gentlemen/Ladies: We request that you cut funds from fiscal year 
2011 and beyond from the Operations of the National Park System (ONPS) 
so the implementation of the white-tailed deer management plan at 
Valley Forge National Historic Park (VFNHP) cannot be implemented.
    VFNHP officials do not have an accurate count of the number of deer 
which inhabit VFNHP. Their population counts vary as much as 825 
individuals.
    By one method, fall spotlighting, there are about 375 deer. This 
number shows a reduction of 150 deer in the 3 preceding years 
indicating the population is regulating itself. Wildlife communities 
self-regulate their numbers based on the availability of shelter and 
food. According to VFNHP's other method of counting, spring 
compartment, there are about 1,200 individuals, a decline of 400 deer 
from the previous year. The spring compartment count is based on 
dubious methodology which multiplies sighted deer by an index of 0.58 
percent which assumes an inflation of about 60 percent in the sighted 
deer. (see Final/EIS, pg. 3-17 and 3-18)
    VFNHP needs to determine an exact count by conducting infrared, 
flyover photography of VFNHP before taxpayers are charged about $3 
million to implement this deer management plan (see Final/EIS, 2.8.3, 
pg. 2-46)
    Sharpshooting is dangerous especially in a suburban area like 
Valley Forge which is located 2 miles from Phoenixville, 2\1/2\ miles 
from the Mainline, and about 2 miles from King of Prussia, a major 
commercial center. Rt. 23 and Rt. 422 (a four-lane highway connecting 
Reading and Philadelphia) run through VFNHP and are used by motorists 
24 hours a day, 7 days a week.
    Park officials admit sharpshooting will probably increase deer 
vehicle collisions (Final/EIS, pg. 4-89) During the public hearing 
about the plan on January 15, 2008, Michele Batcheller, national park 
Service (NPS) wildlife biologist, stated sharpshooters would push deer 
across roads out of VFNHP into surrounding neighborhoods. It is a well 
known fact deer run away in panic from anything shot at them. Both Erie 
Insurance, which studies the subject for the industry, and Penndot draw 
a direct correlation between shooting at deer and wildlife vehicle 
crashes.
    Deer can run at 35 mph (Bauer, ``Whitetails'' Voyageur Press, 1993, 
pg. 25). At that speed they can run from one end of the 5 square mile 
VFNHP to the other in 8.6 minutes crossing Rt. 23 and Rt. 422 in 6-8 
minutes or less. They can also run to Conestoga Road, Tredyffrin 
Township, about 2 miles way in 3-4 minutes. The plan calls for using 
sharpshooters for at least 4 years, and perhaps as many as 15 years, 
i.e., the life of the plan thus subjecting residents, the public and 
motorists to being shot or killed in a deer vehicle crash for 4-15 
years. This risk is totally unacceptable.
    Nothing can protect residents, the public or motorists from 
misfired or stray bullets as victims like 2-year-old Giana De Campos 
knows (see Courier News, December. 5, 2008); or the Swan Lake, NY 
toddler who was killed when a bullet 400 feet away pierced the walls of 
her home (see Times-Herald, Nov. 17, 2008); or Casey Kantner, 18 years 
old, and scores of other victims. The plan at VFNHP will permit 
sharpshooters with high powered rifles to be as close as 300 feet from 
roads; at that distance bullets could overshoot highways.
    Chances are neither the sharpshooters nor NPS will be held 
accountable; the accident victim will likely bear the consequences 
including the cost of medical care for their injury, loss of wages, 
etc. Any court awards as a result of lawsuits will be paid by the 
American taxpayer.
    In addition to the serious risks to public safety posed by this 
Plan it also misuses the Impairment Standard of the Organic Act which 
pertains to the public's use of VFNHP, not wildlife. According to 16 
U.S.C. 3 the only reason under which the Secretary of the Interior can 
kill wildlife is if the animals are detrimental to the public's use of 
VFNHP, i.e., the situation where grizzly bears mauled park visitors, 
and the black bears who became a risk to public safety by foraging for 
food near motor vehicles.
    The plan also violates NEPA because NPS failed to include a forest 
management plan which is integral to the deer management plan because 
VFNHPis basing the success of the deer management plan on forest 
regeneration.
    We send our elected representatives to Washington to provide 
oversight over Federal bureaucracies. Our Senators are failing us if 
they can't stop the NPS from implementing a deer management plan a 
VFNHP which NPS admits risks killing and seriously injuring people. We 
are asking you to cut appropriation funding from the fiscal year 2011 
and beyond to the NPS so it cannot implement its white-tailed deer 
management plan at VFNHP. I understand funds to implement the Plan 
represent VFNHP base funds.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras
    The League of American Orchestras urges the subcommittee to approve 
fiscal year 2011 funding for the National Endowment for the Arts (NEA) 
at a level of $180 million. After suffering a 40 percent budget cut in 
the mid-90s, funding has been gradually climbing for the agency, but 
still falls short of its 1992 appropriations level. We urge Congress to 
continue supporting the important work of this agency and to increase 
its capacity to improve public access to the arts, nurture cultural 
diversity, foster new artistic works, and support jobs in communities 
nationwide.
    Founded in 1942, the League of American Orchestras is the national 
service organization for symphony, chamber, youth, and collegiate 
orchestras. The League strives to stimulate the exchange of ideas and 
practices, promote innovation, and foster unity across the orchestra 
field. We estimate that there are approximately 1,800 orchestras in the 
United States, with annual budgets ranging from less than $12,000 to 
more than $88 million. Orchestras exist in all 50 States, in virtually 
every community, and are supported by a network of citizens including 
instrumentalists, conductors, managers, board members, volunteers, 
staff members, and business partners.
    The experience of live orchestral music is an important part of a 
community's fabric, and the presence of orchestras is often an 
indicator of a community's economic and cultural strength. In addition 
to fueling local economies, attracting new business development, and 
educating young people, the power of music also unites individuals and 
cultures in good times and bad. Furthermore, amidst today's economic 
turmoil, the need for understanding the changing context around us and 
effectively adapting is greater than ever. The League is committed to 
help orchestras in this work by bringing new knowledge and perspectives 
concerning the shifting priorities in our communities to our members. 
Likewise, the NEA plays an incredibly valuable leadership role through 
its direct grants to organizations, national research, and strategic 
initiatives.
    More than 40 years of support from the NEA has increased the 
capacity of orchestras to serve and strengthen communities across our 
country. Federal arts support has an exponential impact: because the 
competition for Federal dollars is extremely intense, the awarding of 
an NEA grant greatly enhances and strengthens an orchestra's 
application for funding from other sources. Furthermore, an NEA grant 
serves as an emblem of public value and national artistic significance, 
and communities large and small partake in the distinction of 
presenting nationally recognized NEA-supported programs.
    NEA grants support music education for children and adults, 
preserve great classical works, foster the creative endeavors of 
contemporary classical musicians, composers, and conductors, and expand 
public access to performances. In fiscal year 2009, the NEA's Grants to 
Organizations included 119 grants to orchestras, and an increase in 
funding will expand the NEA's ability to serve the American public 
through grants supporting and promoting the creation, preservation, and 
presentation of the arts in America through the NEA's core programs--
Access to Artistic Excellence, Challenge America: Reaching Every 
Community, Learning in the Arts for Children and Youth, and Federal/
State partnerships.
    The NEA also provides leadership supporting the value of the arts 
through national research and initiatives such as Our Town, which was 
proposed in the President's fiscal year 2011 budget. This initiative 
will seek to improve the cultural health of communities in order to 
improve their livability, which in turn restores and enhances the civic 
pride of their citizens. Investing in the arts by supporting innovative 
approaches to maximize the economic growth potential of the creative 
sector has a demonstrated impact in helping to reverse economic 
decline. Orchestras look forward to participating in this new effort, 
as well as continuing to learn from the NEA's ongoing national research 
projects that illuminate trends in public participation, workforce 
development, and other key areas of the American arts infrastructure.
        nea funding leads to increased public access to the arts
    The NEA, together with the arts organizations that receive Federal 
support, is committed to improving public access to the arts. NEA 
grants reach every congressional district in the country. Grants 
awarded to orchestras through the Access to Artistic Excellence program 
support educational activities, concerts, festivals, professional 
development, and residencies in communities across the country. The 
Vermont Symphony Orchestra's ``Made in Vermont Music Festival'' tour 
will bring orchestral concerts to remote areas of the State, offering 
audiences that are traditionally underserved by the professional 
performing arts exposure to classical and contemporary music in their 
own communities. Many of these towns are in economically challenged 
areas that host few concerts of any kind, so community outreach is key 
to the tour's success.
    The Challenge America: Reaching Every Community Fast-Track Review 
Grants offer support to small and mid-sized organizations for projects 
that extend the reach of the arts to underserved populations. The Great 
Falls Symphony will use its fiscal year 2010 Challenge America grant to 
present a performance of opera arias, choral workshops for high school 
students, and an open dress rehearsal for area choral and orchestra 
students, as well as for residents of homes for the developmentally 
disabled. The South Dakota Symphony's Lakota Music Project received an 
fiscal year 2010 Challenge America grant to enable guest artists from 
Sioux tribes to perform with the orchestra in Sioux Falls, Rapid City, 
and on several American Indian reservations. Because of this Federal 
funding, the orchestra was able to accept an invitation to present this 
moving musical event to more than 750 people at the South Dakota 
Governor's Tourism Banquet, which then led to an invitation for the 
orchestra to present the program in 2011 on Native American Day at the 
Crazy Horse Monument. With Federal support, orchestra grantees are 
extending the reach of their activities beyond their home cities and 
towns, bringing unique musical experiences to communities in 
surrounding regions.
          nea-funded arts programs nurture cultural diversity
    Americans enjoy a rich and diverse cultural heritage in the arts, 
and NEA grants to orchestras allow for creative expression to overcome 
cultural divides in order to help improve our ability to understand and 
honor our history. Orchestra programming increasingly reflects the 
cultural diversity that distinguishes our country, such as a project of 
the Fargo-Moorhead Symphony Orchestra, which received an fiscal year 
2010 Challenge America grant to support performances of Peter Boyer's 
Ellis Island--Dreams of America. Through a collaborative effort with 
Theatre B, local immigrants provided oral histories, received drama 
lessons and presented their stories in the orchestra's season finale 
concert. The program resonated so powerfully that as a result, a 
collaborative, community-wide project has spun off titled ``My Journey, 
My Story: Oral Histories of New Americans in Fargo-Moorhead.'' The 
Fargo-Moorhead Symphony once again is the lead partner in this effort, 
engaging its citizens that speak more than 50 native languages to 
capture and share their oral histories with one another. Likewise, the 
San Francisco Chamber Orchestra will explore its unique cultural 
influences in performances of a new violin concerto titled Hailli 
Lirico. Orchestra musicians will partner with Andean folk specialists 
for the series, introducing classical music and its cultural parallels 
to South American traditional music to Latino audiences in San 
Francisco's Mission District, Berkeley, and Vallejo. NEA grants are a 
vital part of the support system that enables orchestras to showcase 
our society's rich array of cultures and provide a vehicle to engage 
and connect with diverse audiences across our country.
         nea funding supports education for children and youth
    Arts education is proven to boost the capacity of young people to 
succeed in school, work, and life. Children gain the ``arts advantage'' 
through NEA-funded projects that engage them in the creative process, 
spark their skills of imagination, and develop their capacity for self-
discipline, perseverance, and teamwork. Orchestras are essential and 
active partners in increasing access to lifelong music education, 
improving the quality of life in their communities by collaborating 
with school systems and other local partners to deliver a wide array of 
education and community programs. The Baltimore Symphony Orchestra will 
utilize NEA assistance to support a young artists concert series 
celebrating youth and illuminating the life of the prolific composer, 
Gustav Mahler. Throughout the season, local students will perform 
alongside young ``up-and-coming'' artists in programs that celebrate 
Mahler and feature works specifically written for or about young 
people. Also engaging its young citizens, the Anchorage Symphony 
Orchestra will use NEA Access to Artistic Excellence funding to support 
its annual Young People's Concert series. This program serves 
approximately 7,000 elementary students in the school district, as well 
as students from south central Alaska. The concert series provides 
teachers with numerous activities and lessons plan developed by music 
educators, and each activity demonstrates how it meets education 
standards. With a grant in the Learning in the Arts for Children and 
Youth program, the Nashville Symphony will expand its One Note, One 
Neighborhood program, which provides comprehensive music education 
resources to underserved children and youth. This initiative represents 
a close partnership between the symphony, Metro Nashville Public 
Schools and W.O. Smith/Nashville Community Music School. It offers, 
without cost to students, classroom curriculum materials, music 
lessons, instruments, concerts and other learning opportunities at 
Schermerhorn Symphony Center. The NEA is a vital partner in helping to 
sustain and grow valuable programs such as these, allowing music to 
continue to be a positive force for teaching young people to work 
creatively together.
           nea grants support jobs in communities nationwide
    The American Recovery and Reinvestment Act (ARRA) of 2009 allocated 
Federal funding to support economic recovery in communities nationwide, 
including $50 million to the NEA to provide direct grants and block 
grants to State and regional arts councils to fund arts projects and 
activities vital to communities nationwide. The NEA was one of the 
first Federal agencies to disseminate stimulus funding in support of 
local economies and on July 7, 2009, it announced 631 awards of nearly 
$30 million in ARRA funding to arts organizations, including 64 direct 
grants to orchestras. Orchestra grantees across the United States 
helped stabilize local economies by putting Federal funds to use to 
preserve full and part-time administrative and artistic positions that 
were in jeopardy of being eliminated due to the struggling economy.
    A $50,000 NEA stimulus grant enabled the Memphis Symphony Orchestra 
to pay two weeks of paid work for 35 full-time musicians over the next 
year, and ensure that the community continues to be enriched by the 
orchestra's services and programs. This valuable support enabled the 
Memphis Symphony to continue providing music education, for in addition 
to the concert season, musicians present a nationally recognized 
corporate leadership training program; present an educational series at 
a residential program for troubled children; work with local librarians 
to present a Saturday morning performance series based on children's 
literature; and mentor students at the Soulsville Charter School. The 
Wheeling Symphony also used its $50,000 NEA stimulus grant to help 
restore the loss of income suffered by its principal musicians due to 
forced reductions in season programming. The grant funded the ``Music 
In the Neighborhoods'' chamber series, which presented 40 free ensemble 
performances in schools, libraries and other public locations. Not only 
did the NEA grant help the orchestra through the economic downturn, but 
it also provided a means for the orchestra to seek additional funding 
sources, and as a result, it will be able to maintain the series into 
fiscal year 2011.
    Thank you for this opportunity to illustrate the value of NEA 
support for orchestras and communities across the Nation. The 
Endowment's unique ability to provide a national forum to promote 
excellence, both through high standards for artistic products and the 
highest expectation of accessibility, remains one of the strongest 
arguments for a Federal role in support of the arts. We urge you to 
support creativity and access to the arts by approving $180 million in 
funding for the National Endowment for the Arts.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians
    This testimony is respectfully submitted on behalf of the Lac du 
Flambeau Band of Lake Superior Chippewa Indians, located in Wisconsin, 
and reflects the needs, concerns and issues of the tribe's membership 
regarding the proposed fiscal year 2011 budget. We believe that the 
fiscal year 2011 budget reflects the administration's dedication to 
addressing funding shortfalls that have plagued Indian country and its 
continuing dedication to building a nation-to-nation relationship with 
tribes. However, while we support much of the budget's proposals, we do 
have concerns.
    Because the tribe embraces the Seventh Generation concept and 
believes that without a healthy Mother Earth we cannot have healthy 
people now or in future generations, we are very supportive of the 
inclusion of the Circle of Flight program in the base budget. The 
proposed fiscal year 2011 budget provides $600,000 in the Tribal 
Management/Development Program account for this important program after 
years of its exclusion from the base budget. Circle of Flight provides 
critical resources necessary to restore and preserve wetlands and 
waterfowl populations, which are vital to the culture and economy of 
the Great Lakes region. Improved tribal wetland habitats supports 
waterfowl and other bird species especially in the spring and fall 
migrations, provide expanded hunting opportunities for tribal members 
and the general public, and offer enhanced wild rice gathering 
opportunities. In addition to protecting these natural resources, 
returning this funding to the base budget will support economic 
development in this region and assist the tribe in the hiring of 1.5 
FTE employees--specifically a wildlife biologist and wildlife 
technician--to implement and support these programs.
    We also support the overall budget for the Environmental Protection 
Agency. Specifically, we support the $8.5 million in GAP grant funding 
and the $30 million for the new multimedia grant program to assist 
tribes with implementing environmental compliance programs on tribal 
lands, such as those under the Clean Air Act or RCRA. It is important 
for tribes to protect their members by ensuring that their lands are 
healthy and sustainable--just as important as it is for Federal and 
State governments to protect their citizens. While we are concerned 
that funding for the Clean Water and Drinking Water State Revolving 
Funds were decreased by $93 million, we fully support the increased 
Tribal set-aside. We support the continued funding for the Great Lakes 
Restoration Initiative, but ask that funding for the Initiative be 
returned to fiscal year 2010 levels of $475 million to provide the 
opportunity for the restored funds to allow the tribe to maintain our 
Great Lakes Restoration Specialist and continue to restore habitats on 
the reservation.
    The Lac du Flambeau Tribe supports the proposed increase to the 
Bureau of Indian Affairs' (BIA) budget for indirect costs to 94 percent 
of the fiscal year 2007 level. However, the tribe is concerned with the 
proposed $19.4 million absorption of fixed costs. It is anticipated 
this absorption would amount to a reduction of funding for fixed costs, 
such as for salary and fringe, by $12.4 million in Indian country. This 
is money we just cannot absorb at this time. Healthcare costs are still 
rising at an alarming rate, which continues to compound the problem. 
Therefore, the Lac du Flambeau Tribe requests Congress restore the 
$19.4 million to the BIA budget.
    Our support for and concerns regarding the proposed fiscal year 
2011 budget for natural resources, law enforcement and higher education 
are below.
                           natural resources
    Tribes are leaders in natural resource protection and BIA natural 
resource funding is essential for maintaining our programs. Lac du 
Flambeau has a comprehensive Natural Resources Department and dedicated 
staff with considerable expertise in natural resource and emergency and 
land management. Among other activities, our Department raises fish for 
stocking, collects data on water and air quality, develops well head 
protection plans, conducts wildlife surveys and administers timber 
stand improvement projects on our 86,000-acre Reservation. All of these 
activities speak directly to our tribe's economic, environmental, and 
physical health. Unfortunately, natural resource programs have been cut 
or flat-funded for many years now, and tribes have been forced to lay 
off staff and shut down programs, leaving critical resources in 
jeopardy.
    Conservation Law Enforcement Officers.--One of the critical 
elements of our Natural Resource Program is our Conservation Law 
Enforcement Officers. These officers are primarily responsible for 
enforcing hunting and fishing regulations related to the exercise of 
treaty rights, but they also have a much larger role in law 
enforcement. They are often the first to respond to emergency 
situations, handle the management of environmental emergencies, such as 
forest fires or tornado damage, and are the first line of defense for 
illegal activity on the reservation. The lack of adequate law 
enforcement resources on reservations is a well-known problem that 
plagues the public safety of tribal communities. Conservation Law 
Enforcement Officers are an incredibly important part of protecting our 
treaty rights and enabling us to protect our communities by 
supplementing our law enforcement presence.
    Unfortunately, our Conservation Officers are now 100 percent 
dependent on tribal funds. This costs the tribe $248,000 annually, in 
addition to the $682,700 the tribe pays for its nonconservation law 
enforcement programs. The BIA does not provide any resources for this 
activity, which plays a significant role in protecting our community 
and is critical to maintaining and protecting our treaty rights. 
Protection of our natural resources is the protection of our treaty 
rights. The tribe's funding can only support two conservation officers 
on duty at a time to patrol a 144 square mile reservation that includes 
260 lakes, 24,000 acres of wetland and 46,000 acres of forested land. 
If the BIA is unable to provide money to allow our Conservation 
Officers to continue their important mission, Federal officers will 
have to step up to take over and uphold the United States' binding 
obligations toward these treaty rights. We request that money be 
provided in the budget for conservation law enforcement programs.
    Forestry.--The tribe continues to request that the subcommittee 
increase funding for BIA Forestry Programs. Our reservation contains 
46,000 acres of forested land that supports hunting, gathering, and 
employment opportunities for tribal members. Proper management of the 
forest is essential not only to sustain our subsistence lifestyle, but 
also to provide economic growth for the tribe. We recognize that in 
this tough economic time, the administration and Congress must make 
tough choices. However, it would be more costly if sensible resource 
management is sacrificed. Forest management not only provides a 
mechanism for economic development for tribes, it is a fundamental 
activity that protects forested communities from wildfire, enhances 
resource conservation and combats climate change.
    Commercial forestry provides tribes with an important source of 
economic revenue and job creation. In our tribe, two foresters and one 
technician undertake a broad range of management activities, including 
tree planting, prescribed burning, forest road design and maintenance 
and timber sale establishment and administration. If properly funded, 
timber sales could provide a source of tribal revenue. Forest 
management activities provide important wildfire suppression functions 
and manage invasive species. If forest management programs go unfunded, 
the future costs of destruction due to wildfires or invasives could be 
devastating.
    The total cost of operating the forestry program is approximately 
$217,000. In the last several years the level of funding from the BIA 
has been less than half of this, and the program has not received 
substantial funding increases since fiscal year 1991. The proposed 
budget reflects a decrease of $156,000 in funding for BIA Forestry 
Projects. We request that Congress reject the decrease to this already 
underfunded program and begin to fully invest in protecting our 
forested lands.
    Fish Hatchery.--The Lac du Flambeau support the $3.6 million 
provided for fish hatchery operations and the $2.8 million provided for 
fish hatchery maintenance. This is equal to the funding provided in the 
fiscal year 2010 budget and is an amount triple that provided in fiscal 
year 2009.
    Historic Preservation.--In 1995, Congress began encouraging tribes 
to assume historic preservation responsibilities as part of self-
determination activities. It is estimated that in fiscal year 2011 
there will be 100 tribes approved by the Secretary of the Interior to 
administer historic preservation programs. These programs conserve 
fragile places, objects and traditions crucial to tribal culture, 
history and sovereignty. As was envisioned by Congress, more tribes 
qualify for funding every year. In fiscal year 2001, there were 27 
Tribal Historic Preservation Officers (THPOs) with an average award of 
$154,000 per tribe. Currently, while the number of tribes operating 
THPO programs has increased, Lac du Flambeau now only receives $74,145. 
Paradoxically, the more successful the program becomes overall, the 
less each tribe receives to maintain professional services, ultimately 
crippling the programs. To provide a minimum level of services, these 
offices require at least $120,000. Therefore, we request that the 
budget provide the minimum $120,000 for each tribe operating a THPO 
program.
                            law enforcement
    We commend the focus the administration and Congress has placed on 
improving public safety in Indian country. As we all know, tribal 
communities experience a highly disproportionate level of crime and 
adequate law enforcement resources have been woefully underfunded for 
decades. The rate of violent crime for Native Americans is more than 
twice the national average. The administration has shown its commitment 
to addressing public safety issues by holding a series of listening 
sessions throughout Indian country. We believe that these listening 
sessions have led to the repackaging of tribal criminal justice 
programs in the fiscal year 2011 budget for the Department of Justice 
in an attempt to create a more flexible tribal criminal justice 
program. Unfortunately, we believe that some funds provided to the BIA 
for public safety are misdirected.
    Specifically, we do not support the $19 million to be used for the 
BIA to reimburse the Department of Justice for 45 additional FBI agents 
dedicated to Indian country. While we greatly appreciate the intent to 
increase law enforcement presence in Indian country, we do not believe 
$19 million for only 45 FBI agents is the most efficient or effective 
way to increase public safety in tribal communities. While 45 
additional FBI agents would significantly increase law enforcement 
presence if they were dedicated to only a handful of communities, the 
reality is that it is too small of a number for all of Indian country 
to feel the affect. Essentially, approximately 365 federally recognized 
tribes would not see the effects of this increase in FBI presence.
    Instead of overspending on a few FBI agents and their support 
staff, we believe that the $19 million would be of better use if it 
were put towards Conservation Law Enforcement Officers. As was 
mentioned earlier in our testimony, these officers provide the first 
line of defense for many tribal law enforcement departments. They 
perform the same public safety functions as do law enforcement 
officers, and protect our natural resources. We feel that staffing 
Conservation Law Enforcement Officers is a more efficient use of the 
money and will put more boots on the ground in Indian country.
                            higher education
    To continue the progress Indian country has made in participation 
and control of education programs and schools, it is imperative that 
funding for tribal higher education programs be increased. The tribe's 
high school graduation rates are improving, but are still far below 
national standards. President Obama has repeatedly expressed his 
commitment to national education programs, and in his address to Indian 
country he made a commitment to honor ``obligations to Native Americans 
by providing tribes with the educational resources promised by treaty 
and Federal law.'' We embrace that commitment, but we want to remind 
you that the need for support does not lie only with high schools. Our 
students who want to pursue higher education need our continued 
support.
    The budget proposes $2.164 million for Special Higher Education 
Scholarships (SHEP) to support Indian students working for graduate 
degrees. We strongly support the SHEP program, but are concerned that 
funding for it has remained flat over the last couple of years. Tribal 
communities have made great strides in educating their youth. Those 
strides are evident in the fact that more Indian students are attending 
and graduating from colleges and other post-secondary institutions. 
However, tribal communities must continue to evolve with other 
communities. The national and global economy has changed--students must 
earn graduate degrees to remain competitive. After making progress in 
Indian education, Indian students cannot be allowed to fall behind 
again because of lack of access to higher education programs.
                                 ______
                                 
            Prepared Statement the Lower Elwha Klallam Tribe
    My name is Frances Charles, chairwoman of the Lower Elwha Klallam 
Tribe. Thank you Chairwoman Feinstein for the opportunity to submit 
written testimony on priority funding for the delivery of basic 
services to the Elwha people, and in support of increased 
appropriations for native programs in the fiscal year 2011 budgets for 
the Bureau of Indian Affairs (BIA) and Indian Health Service (IHS) 
budgets.
                        tribal specific requests
    Fifteen million dollars for Lower Elwha Klallam land acquisition 
and economic development and $458,000 for Lower Elwha Klallam tribal 
historic preservation
                       regional support requests
    Support the request of the Affiliated Tribes of Northwest 
Washington; support the request of the Northwest Portland Indian Health 
Board; and support the request of the Northwest Indian Fisheries 
Commission.
           national and self-governance (sg) support requests
    BIA.--Provide $82.9 million general increase to BIA Tribal Priority 
Allocation (TPA) for inflationary and fixed costs.
    BIA.--Provide $64 million increase for BIA Contract Support Cost 
(CSC), including direct CSC.
    BIA.--Provide $5 million increase in the ISD fund.
    BIA.--Provide 100 percent of fixed costs (uncontrollable), 
including tribal pay costs.
    BIA.--$12 million for National Historic Preservation Officer 
Program.
    Increase OTSG budget to fully staff to meet the needs of the 
increase in tribes entering SG;
    IHS.--Provide $474 million for IHS mandatory, inflation, and 
population growth increase to maintain existing healthcare services.
    IHS.--$330 million increase for Contract Health Services (CHS)
    IHS.--$122 million increase for IHS to fully fund CSC, including 
Direct CSC.
    IHS.--Increase $5 million to the IHS OTSG.
    The Elwha Klallam Tribe supports the fiscal year 2011 budget 
requests National Congress of Indians and National Indian Health Board.
                   tribal specific request narrative
    Fifteen Million Dollars for Lower Elwha Klallam Land Acquisition 
and Economic Development.--In 1992, Congress enacted the Elwha River 
Ecosystem and Fisheries Restoration Act (Public Law 102-495). The law 
mandated the removal of the Elwha and Glines Canyon dams from the Elwha 
River. Since then, the U.S. Government has committed itself to Elwha 
River restoration and to addressing the public health and safety, 
environmental, and economic development issues associated with the dam 
removal. Dam removal is scheduled to begin in 2011. The law states:

``SEC. 7. TRIBAL LAND ACQUISITION AND DEVELOPMENT.

    (a) After the Secretary makes the determination to remove the dams 
and actually acquires the Projects and funds are appropriated for such 
conveyance and removal, the Secretary is authorized to acquire by 
purchase, and hold in trust in reservation status for the benefit of 
the Lower Elwha Klallam Tribe, lands in Clallam County, Washington, for 
housing, economic development, and moorage for the Tribal commercial 
fishing fleet.
    (b) There is authorized to be appropriated an amount not to exceed 
$4,000,000 to carry out the land acquisition purposes of this 
section.''

    Congress authorized $4 million for land purchases for the tribe to 
make amends for damages to tribal fisheries. The National Park Service 
(NPS), acting as the lead agency for the Federal dam-removal project, 
decided that its mandate did not include addressing any appropriation 
to the tribe. In the 18 years since the act was passed the project has 
moved forward, but without any appropriations for tribal land 
acquisition. There has been a significant increase in property prices 
since 1992. For this reason, and to affect the intended purposes of the 
1992 act, the tribe has repeatedly requested that Congress increase the 
initial $4 million authorization to $15 million so that the tribe could 
begin the necessary activities identified in the act before dam removal 
commences next year.
    Acquisition of land was part of the broader Elwha River Ecosystem 
and Fisheries Restoration Act which will restore Elwha River fisheries 
and permit the Lower Elwha Klallam Tribe to resume its historic 
livelihood of salmon fishing in the Elwha River, which the two 100-
year-old dams had rendered impossible. The provision of the law for 
land acquisition was and is necessary to mitigate the disruptive 
effects of the dam removal process and to provide the tribe with land 
for much needed housing and to pursue economic development that will 
generate funding to build upon the tribal infrastructure and strengthen 
the economy of the reservation.
    Of the $15 million request, the tribe would immediately use $2 
million to purchase and improve 12 acres centrally located on Highway 
101 on the east shore of Lake Aldwell, thereby gaining a timely 
opportunity to develop land that is contiguous to the Project Lands 
that the tribe also seeks to acquire.
    Improvements would facilitate conversion of the parcel from private 
to public use, including: road access development, potable water, 
wastewater treatment, parking, utilities, trail development and 
facility upgrades. Acquisition and development of this site provide the 
unique setting for a world-class interpretative center to foster 
research, educational outreach, and a showcase for ecosystem 
restoration that will follow removal of the Elwha Dams.
  --$458,000 for Tribal Historic Preservation.--The Lower Elwha Tribe 
        is located in an area that is extremely rich in cultural 
        resources and significant sites. We have been involved in the 
        protection and restoration of the Tse-whit-zen village and 
        cemetery site in downtown Port Angeles, where we have re-
        interred the remains of more than 300 of our Klallam ancestors, 
        the largest single site that has been unearthed west of the 
        Mississippi River. Other sites of equal or greater significance 
        exist in Port Angeles and surrounding areas. One such site is 
        the Y'innis village site on Ennis Creek, which flows through 
        the site of an abandoned lumber mill that is currently 
        undergoing cleanup. The tribe is involved in overseeing the 
        cleanup of that site, the restoration of Ennis Creek, and the 
        protection of the village site.
    The tribe must also spend ever-increasing time responding to 
Federal agency requests for consultation under section 106 of the 
National Historic Preservation Act (NHPA) of 1966. As you know, the 
NHPA declared that the preservation of our irreplaceable heritage was 
in the Nation's interest and agencies must consider the effects of 
their undertakings on historic properties in consultation with affected 
tribes. This consultation is at the heart of the Federal-tribal 
relationship, but without adequate funding support for a Tribal 
Historic Preservation Office (THPO), the consultation requirement 
functions as an unfunded mandate. In addition, the tribe's activities 
associated with its rights under the 1990 Native American Graves 
Protection and Repatriation Act (NAGPRA) have intensified in a number 
of areas, including the completion of summaries and inventories of 
remains and objects. In order to protect its cultural heritage and its 
rights and opportunities under NHPA and NAGPRA, and to ensure that the 
major sites in the Port Angeles area are protected from development and 
natural resources restoration activities, the tribe needs a basic THPO 
program. Such a program requires at a minimum a qualified staff that 
meets the Secretary of the Interior Standards as an Archeologist or 
Cultural Resource Director that can review the projects scheduled for 
implementation and provide tribal comment. This funding request will 
provide the tribe with that basic program and assist in averting 
another disaster like the one that occurred at the Tse-whit-zen site.
        national and self-governance support requests narrative
    BIA.--Provide $82.9 million more than the fiscal year 2010 enacted 
level for general increase to BIA TPA for inflationary and fixed costs: 
This funding has steadily eroded due to inflation and population 
growth. The effects of rising costs of travel, equipment, supplies, and 
purchased services have been compounding for years while the Native 
American population has increased at 1.6 percent per year. Since tribes 
have the flexibility to use TPA funds to meet the unique needs of their 
individual communities, they are the main resources for tribes to 
exercise their powers of Indian Self-Determination (ISD)and SG.
    BIA.--Provide $64 million increase for BIA CSC, including Direct 
CSC: Full funding of CSC covers the fixed overhead costs that a tribe 
must incur to operate a BIA program or facility as required under the 
Indian Self-Determination and Education Assistance Act. When CSC is not 
fully funded, tribes are forced to utilize limited direct program 
services dollars or tribal resources to cover these shortfalls. We 
respectfully urge the subcommittee to fund these essential services and 
not permit Indian agreements to remain the only Government contracts 
that are not fully funded.
    BIA.--Provide $5 million increase in the ISD fund.
    BIA.--Provide 100 Percent of Fixed Costs (Uncontrollable), 
Including Tribal Pay Costs.--The 2011 President's budget does not 
include an increase for anticipated fixed costs, including pay and 
benefit costs. Without this funding, tribal programs will be forced to 
absorb these uncontrollable fixed costs. We respectfully urge the 
Subcommittee to provide annual increases for tribal pay and fixed costs 
to avoid progressive program declines.
    BIA: $12 Million for THPO Program.--The President's proposed level 
of $8 million in fiscal year 2011 will continue to increase the 
shortfall that THPOs are experiencing, yet the program continues to 
expand. We further recommend that future program expansion be funded 
with increased appropriations for the program in order not to impact 
the funding of existing THPO programs.
    IHS.--Provide $474 million for IHS mandatory, inflation, and 
population growth increase to maintain existing healthcare services.--
Mandatory costs increases are necessary to maintain the current level 
of services. These ``mandatories'' are unavoidable and include medical 
and general inflation, pay costs, and population growth. Maintaining 
current services is a fundamental budget principle. Failure to do so 
would result in cuts in healthcare and delivery. We estimate the 
current services need in fiscal year 2011 is $474 million.
Increase OTSG Budget To Fully Staff To Meet the Needs of the Increase 
        In Tribes Entering SG
    IHS: $330 Million Increase for Contract Health Services (CHS).--
Tribes have recommended that an increase of $330 million is needed for 
CHS funding. At present, less than one-half of the CHS need is being 
met, leaving too many Indian people without access to necessary medical 
services. This level will allow those tribes who are not served by an 
IHS hospital to provide healthcare services at the same level as those 
tribes who are served by an IHS hospital.
    IHS: $122 Million Increase for IHS to Fully Fund CSC, Including 
Direct CSC.--This year's fiscal year 2011 request of a $45.8 million 
increase for CSC continues a sad chapter of neglect for ISD. For fiscal 
year 2011, the estimated shortfall is $122 million. The present 
shortfall creates a disincentive for tribes to pursue SG compacts, and 
diminishes available healthcare funding as tribal budgets must absorb 
the shortfall amounts.
    IHS: Increase $5 million to the IHS OTSG.--As of 2010, there are 
330 SG tribes managing approximately $1.2 billion in funding. This 
represents 57 percent of all federally recognized tribes and 33 percent 
of the overall IHS funding. The OTSG supports tribes operating programs 
under the Tribal Self-Governance Amendments of 2000. The SG process 
serves as a model program for Federal Government outsourcing, which 
builds tribal infrastructures and provides quality services to Indian 
people.
                                 ______
                                 
        Prepared Statement of the Lummi Indian Business Council
    I want to thank Chairwoman Dianne Feinstein and the subcommittee 
members for the opportunity to submit written testimony on financial 
and legislative priorities of the Lummi Nation for 2011 for the 
Department of the Interior; Bureau of Indian Affairs (BIA) and the 
Indian Health Services (IHS).
    The Lummi Nation is located on the northern coast of Washington 
State, and is the third-largest tribe in Washington State serving a 
population of more than 5,200. The Lummi Nation is a fishing nation. We 
have drawn our physical and spiritual sustenance from the marine 
tidelands and waters that surround us for hundreds of thousands of 
years. Now the abundance of wild salmon is gone. The remaining salmon 
stocks do not support commercial fisheries. Our fishers have trying to 
survive with shellfish products. In 1999, we had 700 licensed fishers 
who supported nearly 3,000 tribal members. Today, we have about 523 
remaining. This means that more than 200 small businesses in our 
community have gone bankrupt in the past 11 years. This is the basic 
inescapable reality of the Lummi Nation. We are the last hunter/fisher/
gatherer society surviving within the contiguous United States. We can 
no longer survive as fishers, without assistance.
                lummi nation appropriation requests--bia
    +$12 Million.--Increase in funding for hatchery construction, 
operation and maintenance funding directed to meet the needs of 
fisheries needs consistent with declared disasters.
    +$5 Million (Nationally).--Increase the funding for the BIA general 
assistance for emergency services for tribes operating under emergency 
declarations.
                                  ihs
    Increased Contract Health Services (CHS) funding be available to 
Northwest Regional Tribes, which are not served by IHS hospitals.
    +$200,000.--To support direct intervention with the Lummi Nation to 
support rapid HIV testing and diagnosis and treatment.
                    subcommittee direction requests
    Direct the BIA to recognize fisheries economic disaster 
declarations and work with the Lummi Nation to insure that direct 
relief needs of its fishers covered under the Department of Commerce 
Disaster Declaration are met through general assistance emergency 
assistance funding.
    Direct the BIA to work with Lummi Nation to ensure that its needs 
related to the Salomon disaster are met through increased hatchery 
construction, operations and maintenance funding.
    Direct the BIA Branch of Roads to support the subcommittee request 
that the Federal Lands High Way Project reserve $6 million for the 
Lummi Nation Slater Road Elevation Project.
    Direct the Department of the Interior to fully fund the Office of 
Indian Energy and Economic Development, Workforce Development Division 
to continue its job training/development work that has results in jobs.
    Our people have problems and needs but we also have solutions. 
Today, I am presenting a coordinated set of proposals to address the 
prolonged economic and cultural disaster imparting our people through 
the loss of our sockeye salmon. Starting more than 10 years ago in 
1999. In 2008, the Department of Commerce reissued the disaster 
declaration (See also--Congressional Research Services--CRS Report to 
Congress, Commercial Fishery Disaster Assistance, (RL-34209) May 2, 
2008), and we now seek ways to turn this scenario around to have a more 
positive outcome.
    Our strategy is to consolidate our native and scientific knowledge 
of fish biology, behavior, and management into the Northwest Indian 
Marine Education and Research Center for Excellence. Collecting our 
professionals and traditional practitioners and field worker into a 
team to plan, design, finance, and construct and operates create 
aquaculture and hatcheries facilities and programs. The same group 
would instruct and train aquaculture and hatcheries workers needed by 
theses facilities, through Northwest Indian College. Aquaculture/
hatcheries facilities and operations are the only way to ensure the 
salmon fisheries that was solemnly secured in 1855 by our fathers and 
yours, large enough to support our families and our way of life.
    Our goal is to increase fish returns by improving aquaculture and 
hatchery production and creates a reliable, sustainable resource to 
salmon fishers by increasing enhancement. Additionally, we seek to 
raise the value of these harvests through advanced marketing, the 
introduction of a fisher's co-operative, and grow-out operations for 
shellfish products.
                  lummi nation specific requests--bia
    +$5 Million (Nationally) Fisher's Disaster Assistance Funding.--
Lummi Nation is requesting funding to support emergency relief services 
for our fishers. This assistance is needed to help fishers make the 
transition from sockeye salmon to other salmon species and other 
commercial fishery resources. Lummi Nation is requesting the 
subcommittee provide the BIA Welfare Assistance Program an additional 
funding to address the Lummi Nation Fishers and West Coast Fisherman 
impacted by economic fisheries disaster.
    +$12 Million--Salmon/Shellfish Hatchery.--The Lummi Nation 
currently operates three salmon hatcheries and one shellfish hatchery 
that support tribal and other fisheries in the region. The tribal 
hatchery facilities were originally constructed in the early 1970's. 
Predictably some of the original infrastructure needs to be repaired or 
replaced as it approaches the end of its useful life and other 
infrastructure needs to be developed or modified to ensure compliance 
with the Clean Water Act and/or the Endangered Species Act. Lummi 
Nation fish biologists estimate that these facilities are now operating 
at 40 percent of their productive capacity. While the Lummi Nation 
recognizes and appreciates the $2 million provided in 2010 for expanded 
hatchery funding these funds were distributed nationally without regard 
to the extreme need of the Lummi Nation and other tribes impacted by 
the West Coast Salmon disaster. The 2010 funding must be maintained and 
expand further consistent with the needs of tribes covered by existing 
disaster declarations.
                   lummi salmon hatchery--$2,200,000
    $720,000: Hatchery Intake.--South Fork Nooksack Chinook Recovery 
program replace intake system that has high O&M and often fails.
    $625,000: Large Pond Improvement.--Increase annual production 
capacity.
    $855,000: New Raceways.--Replace originally constructed 
infrastructure that is deteriorating and falling apart.
                   lummi salmon hatchery--$5,360,000
    Nooksack River Pump Station.--This will increase the production 
capacity of Lummi Bay hatchery by improving water pumping capacity and 
resource.
                   lummi shellfish hatchery--$570,000
    Multiple operation and maintenance issues for increasing production 
capacity in areas of feed, building insulation, heating and cooling 
systems, increase grows out tank space, results in increased seed 
production.
             lummi pond tide gates improvements--$3,510,000
    This project rehabilitates current shellfish hatchery to optimize 
production capabilities. Increased shellfish seed production increases 
enhancement activities on Lummi tidelands to create jobs for tribal 
shellfish harvesters and increase sales to the West Coast shellfish 
industry to create jobs for growers and businesses.
                planning/transportation--bridge--project
    +$6 Million.--Slater Elevated Road Project reserved for the Lummi 
Nation through the Federal Land Highway Programs funneled through the 
BIA's Indian Reservation Roads Program
    Project Description.--The Lummi Nation is partnering with the 
Federal Emergency Management Agency and Whatcom County to elevate the 
eastern approach to the Slater Road Bridge over the Nooksack River. 
This section of Slater Road is frequently flooded by Silver Creek, 
which runs parallel to the Nooksack River. The project is an extension 
of the Slater Road Bridge over Sliver Creek, which is a salmon spawning 
stream.
    Need for the Project.--When this section of Slater Road is flooded, 
access to the Lummi Reservation, Lummi Island, the Cherry Point heavy 
impact industrial zone, and the City of Ferndale are severely limited. 
Most years these limitations last for days at a time. The impact 
threatens public health and safety and has substantial negative 
economic impacts for the retail, commercial and manufacturing 
businesses in the area.
    Matching Funding.--Lummi Nation has secured a $3 million in project 
matching funds for the project through the Pre-Disaster Mitigation 
Program (the maximum grant allowable).
                  lummi nation specific requests--ihs
Request for Contract Health Funds Allocation Formula Methodology
    Lummi Nation and all tribes located in the Portland area are not 
served by IHS hospitals. We are totally dependent on the IHS Contract 
Health Care Program to support hospitalization and any healthcare 
measure performed outside of our limited ambulatory healthcare clinic. 
The Lummi Nation has endured a shortage of contract healthcare funds 
for many years due to constantly increasing healthcare and healthcare 
administrative costs and a budget that does not keep pace. The Lummi 
Nation is requesting that the subcommittee direct the IHS to develop an 
allocation plan for contract healthcare funds that recognizes that 
tribes, not served by an IHS hospital incur greater contract health 
costs than those tribes who have an IHS hospital.
    +$200,000.--Direct funding to support Community-based AIDS/HIV 
Rapid Testing Lummi Nation is experiencing an epidemic of black tar 
heroin among its addicted members. This has increased the risk in our 
community for contracting HIV. We are seeking this funding on an 
emergency basis.
       national and self-governance requests and recommendations
BIA Requests
    + $21.4 million for Johnson O'Malley Program; + $13.6 million for 
Housing Improvement Program added to tribal base programs; +$9 million 
general increase to BIA Tribal Priority Allocation for inflationary and 
fixed costs; provide $64 million increase for BIA CSC, including Direct 
CSC; provide $5 million increase in the Indian Self-Determination Fund; 
provide 100 percent of fixed costs (uncontrollable), including tribal 
pay costs; and increase Office of Self-Governance budget to fully staff 
to meet the needs of the increase in tribes entering Self-Governance.
IHS Requests
    Provide $474 million for IHS mandatory inflation and population 
growth increase to maintain existing healthcare services; $330 million 
increase for CHS; $122 million increase for IHS to fully fund Contract 
Support Cost (CSC), including Direct CSC; and increase $5 million to 
the IHS Office of Tribal Self-Governance
Local/Regional Requests and Recommendations
    Affiliated Tribes of Northwest Indians; Northwest Portland Area 
Indian Health Board; and the Northwest Indian Fisheries Commission.
                           natural resources
    In closing the Lummi Nation fully supports the Hatchery Reform 
Committee that is being set up in cooperation with University of 
Washington through the efforts of the Native American Fish and Wild 
life Society. We ask the subcommittee to become aware and supportive of 
this effort to increase our technical knowledge of hatchery 
development, operations, which is critical to the survival of our 
fishing communities.
    I appreciate the opportunity to share the fiscal year 2011 
budgetary priorities of the Lummi Nation.
                                 ______
                                 
              Prepared Statement of Ludlow's Island Resort
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of 
acquiring land along in the Superior and Chippewa National Forests as 
part of the Minnesota Wilderness program. An appropriation of $3.1 
million is needed in fiscal year 2011 from the Land and Water 
Conservation Fund (LWCF) in order for the Forest Service (USFS) to 
acquire an assemblage of forestlands totaling 220 acres. I am thankful 
that Minnesota's national forests were recognized in the President's 
budget, which reserved $1.4 million for the Minnesota Wilderness 
program. However, in order to protect all four tracts in fiscal year 
2011, an appropriation of $3.1 million is needed.
    The Minnesota Wilderness land acquisition program includes the 
Superior and Chippewa National Forests in Minnesota and is focused on 
protecting public access to lakes and streams as well as ensuring 
critical habitat protection for fish and wildlife. These forests offer 
Minnesotans and other visitors abundant opportunities for outdoor 
recreation and are an integral part of the Northwoods economy.
    Located in the northeasternmost tip of Minnesota, the Superior 
National Forest spans 150 miles along the United States-Canadian border 
and is one of the wettest, wildest forests in the entire national 
forest system. The deep pine woods of the Superior play host to a 
landscape of lakes, bogs, and rocky outcrops that are remnants of the 
glacial period and create the only thriving boreal or northern forest 
in the continental United States. More than 10 percent of the forest 
consists of surface water, and another 1,300 miles of cold-water 
streams and 950 miles of warm-water streams flow within the forest's 
boundaries. Visitors to the Superior National Forest are attracted by 
its abundance of outdoor recreational opportunities. For wilderness 
devotees, there are few areas in the United States that can rival the 
solitude and timelessness of the Boundary Waters Canoe Area Wilderness 
(BWCAW), a maze of lakes, rivers, and rocks at the northern edge of the 
Superior, offering 12,000 miles of canoe trails. Here and elsewhere in 
the forest, outdoor enthusiasts can enjoy camping, biking, canoeing, 
fishing, hiking, cross-country skiing, snowmobiling, and dog sledding. 
The deep foliage and plentiful water also attract a wide variety of 
wildlife, including bald eagle, common loon, moose, timber wolf, black 
bear, lynx, and migratory birds. The BWCAW draws more than 200,000 
campers and canoeists annually, following in the wake of Native 
Americans and the voyageurs--those French-Canadian fur traders who 
canoed these waters 200 years ago.
    The Chippewa National Forest is located in the heart of northern 
Minnesota, combining elements of western prairies and northern boreal 
forests. Within the forest, elements of these two ecosystems are found 
side by side: red oak next to white pine, wild ginger alongside wild 
rice, and Canada lynx habitat abutting sandhill crane territory. The 
Chippewa National Forest shares borders with the Leech Lake Band of 
Ojibwe. More than 400,000 acres of the Chippewa National Forest are 
actually lakes and wetlands. The Chippewa contains two of Minnesota's 
five largest lakes, and eight different types of wetlands each with 
distinct plant and animal life. Sixty-seven of the 314 wildlife species 
that make their home on the Chippewa National Forest are dependent on 
lakes and wetlands. More than 230 species use wetlands and only 20 
percent of Minnesota's original wetland remain today. The first 
national forest west of the Mississippi River, the Chippewa National 
Forest is one of the few areas with wetlands essentially unchanged 
since settlement. This area is unique in that it contains some 40 wild 
rice producing lakes.
    Through USFS's Minnesota Wilderness acquisition program, four 
properties are available for acquisition in fiscal year 2011 in the 
Superior and Chippewa National Forests.
Wolf Island Phase II
    The 60-acre Wolf Island property in the Superior National Forest is 
located in Lake Vermilion and is a high priority for protection this 
year by USFS. Twenty-four miles long, Lake Vermilion is one of 
Minnesota's largest vacation destination lakes. It is home to healthy 
populations of walleye, northern pike, muskie, bass, and bluegill, and 
was once named by National Geographic as one of the Nation's 10 most 
scenic lakes. Wolf Island's location affords scenic views of the 
beloved lake as well as the national forest. Its 60 acres are mostly 
high rolling land that is densely forested with mature aspen, pine, and 
maple. Its rich history is well documented by John Jaeger, a prominent 
Minneapolis architect who homesteaded the island after first visiting 
in 1906. Jaeger's drawings identified cultural resources, including 
burial mounds and a canoe-building workshop plaza.
    Wolf Island is at risk of being lost to development. In order to 
ensure the protection of the island and access to quality resources in 
areas of second-home development pressure, The Trust for Public Land 
stepped in at the request of USFS to secure the island in March 2007, 
and $900,000 from the LWCF was appropriated in fiscal year 2010 to 
protect half the island. The acquisition of the entire island by the 
Superior National Forest will bring into public ownership an 
outstanding scenic resource and access for paddlers, boaters, and other 
recreational users who follow in the footprints of both Native 
Americans and voyageurs of years gone by.
Stony Point
    The 40-acre Stony Point property is located on a prominent point on 
the shores of Leech Lake in the Chippewa National Forest. Home to 
thousands of acres of waterfowl and other wildlife habitat, Leech Lake 
has one of the largest nesting populations of bald eagles in the lower 
48 States--almost 200 pairs. The Stony Point bald eagle nesting site 
contains a half-mile of Leech Lake frontage. The pristine parcel is 
completely surrounded by national forest ownership and likely contains 
Native American artifacts. Acquisition by the Chippewa National Forest 
would eliminate the need for road access that would otherwise impact 
over a one-half mile of undisturbed wetlands. The property was 
purchased by a developer who intended to develop it into several 
homesites, thus depriving forest visitors of significant scenic and 
recreational values.
Kremer Lake/Spider Lake
    Located on the eastern boundary of the Chippewa National Forest, 
the 120-acre Kremer Lake and Spider Lake properties offer substantial 
lakeshore protection along the Edge of the Wilderness National Scenic 
Byway (Rte. 38) near Grand Rapids in Itasca County. The Kremer Lake 
parcel is located along the north shore of this more than 80-foot deep 
small lake, which lies along the west side of the byway. The property 
has more than 3,000 feet of riparian shoreline and is adjacent to the 
Suomi Hills Semi-Primitive Recreation Area. The Spider Lake property is 
located along the west side of larger Spider Lake, which is mostly in 
USFS ownership. The tract contains more than 5,000 feet of shoreline 
and many acres of associated riparian and wetland habitat. Both 
properties, which are under a single ownership, are located within the 
Upper Mississippi River watershed. They contain wildlife habitat for 
the endangered gray wolf and the Canadian lynx, as well as for the 
sensitive bald eagle. Both tracts also offer substantial recreational 
opportunities, such as fishing, hiking and cross country skiing, and 
their acquisition would improve public access to the lakes for these 
purposes.
    Demand for summer recreational residences and hunting cabins is 
present in the area near Grand Rapids, and portions of the Kremer Lake 
and Spider Lake properties could be developed for this purpose. The 
acquisition of both tracts would eliminate any development threat and 
ensure permanent protection of critical water resources.
    Public acquisition of the remainder of Wolf Island and the entirety 
of the Stony Point, Kremer Lake, and Spider Lake properties will ensure 
that the attributes of the Northwoods region so treasured by its many 
visitors--the solitary sound of the common loon, the serenity of an 
evening paddle, the call of the wild--will be protected in perpetuity. 
An appropriation of $3.1 million from the LWCF in fiscal year 2011 will 
secure these properties and provide greater access for current and 
future generations of visitors to both secluded lakes and popular lakes 
within the forests that are such critical natural resources for the 
public.
    LWCF is our Nation's premier Federal program to acquire and protect 
lands at national parks, forests, refuges, and public lands and at 
State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. For all these reasons, the President has included 
meaningful increases to the program in his fiscal year 2011 budget, and 
I support the administration's commitment to fully funding the program 
in the near future. Recognizing the many demands this committee faces, 
I also want to thank the subcommittee for its recent effort to restore 
much-needed funding to this depleted program. This wise investment in 
the LWCF is one that will permanently pay dividends to the American 
people and to our great natural and historical heritage.
    My resort, located on Lake Vermilion relies on visitors to the 
great Northwoods of Minnesota. Protection of key places, such as Wolf 
Island, Stony Point, and Kremer Lake/Spider Lake are critical to insure 
that future generations can continue to enjoy these valued resources as 
well as contribute to the tourism economy in the area.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Minnesota, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
  Prepared Statement of the Land and Water Conservation Fund Coalition
    Chairwoman Feinstein and Ranking Member Alexander and other members 
of the subcommittee, thank you for the opportunity to submit testimony. 
We begin this statement by applauding the subcommittee for the 
increases in the Land and Water Conservation Fund (LWCF) and Forest 
Legacy Program (FLP) funding contained in the fiscal year 2010 
Interior, Environment, and Related Agencies Appropriations bill, 
reversing almost a decade in dramatic program declines. We are equally 
delighted by increases for these programs proposed in the President's 
fiscal year 2011 Obama budget request--a great step towards the 
administration's stated goal of fully funding the LWCF by the year 
2014. We urge the subcommittee to set the course towards this goal by 
including substantial funding increases in the fiscal year 2011 
Interior, Environment, and Related AGencies appropriations bill for 
these two important programs. We recommend increasing the funding of 
Federal LWCF to $384 million, stateside LWCF to $50 million, and the 
allocation of $100 million for the FLP.
    Over the LWCF program's 44-year history only once has it been fully 
funded at the congressionally authorized level of $900 million 
annually. Today, we face an extensive and growing backlog of land 
acquisition needs in our national parks, national wildlife refuges, 
national forests, National Landscape Conservation System, and other 
Bureau of Land Management (BLM) units, wild and scenic rivers, and 
national trails. Critical natural, historical and recreational 
properties are being lost to inappropriate development that compromises 
management objectives and undermines resource protection across our 
Federal lands. Willing-seller landowners with conservation intent, 
wishing to see their property protected, wait years with no measurable 
prospect for Federal acquisition of their property. America's 
irreplaceable wildlands, woodlands, farmlands, fish and wildlife 
habitats, scenic areas, historic sites, trails and neighborhood parks 
are being developed, fragmented, and otherwise sacrificed because there 
is simply not enough LWCF money to go around.
    The State grants component of the LWCF is in equal distress from 
insufficient funding. This program supports the protection of 
recreation lands and the development of parks at the State and local 
level to provide accessible, close-to-home recreation. These matching 
grants enable communities, counties, and States to acquire land and to 
build or improve recreational facilities. Despite low funding levels, 
the program has distributed funds to almost every county in the country 
for more than 41,000 projects including creating parks, playgrounds, 
recreation facilities, trails, and preserving forests and wildlife 
habitat. Across the Nation more than 6,600 State parks and countless 
local parks depend on this Federal partnership to help meet land 
acquisition and park infrastructure needs. Forty-four States recently 
reported that less than 5 percent of park funding needs are currently 
being met. The Federal partnership is largely missing from the funding 
equation and the social and economic benefits of these parks cannot be 
overstated. With soaring child obesity rates, spending time with 
children out-of-doors can inspire a lifetime of healthy exercise and 
outdoor activity, preventing disease and saving millions in healthcare 
costs. Today, we better understand that outdoor play also contributes 
to a child's development on many levels including their capacity to be 
creative and problem solve, as well as their emotional and intellectual 
development.
    The LWCF is a vital funding mechanism creating significant 
environmental, economic, and cultural benefits. Lands protected through 
the program include wilderness access points, river corridors popular 
with paddlers and anglers, endangered species habitat, beaches and 
coastal areas, campgrounds, historic battlefields, and pristine 
mountain forests. Eighty percent of the lands acquired with LWCF funds 
lie within the existing boundaries of Federal parks, refuges, forests, 
or recreation areas. Within our national parks alone, 1.9 million acres 
of inholdings identified for protection remain to be acquired and may 
be developed if they are not conserved.
    In 1990, Congress created another important tool to help protect 
forests. The FLP, administered by the USDA Forest Service (USFS), helps 
to preserve working forestlands threatened by conversion and 
development. This program leverages Federal funds with State and 
private monies to permanently protect forested properties by direct fee 
title purchase or through conservation easements. FLP enables 
landowners and communities to retain ownership of forestland and to 
continue to earn income from these resources through sustainable timber 
harvesting. This program also conserves open space, wildlife habitat, 
and clean water, and ensures continued opportunities for public 
recreation.
    To date, the FLP has protected almost 2 million acres in 42 States 
and Puerto Rico. Over the history of this highly successful program, a 
total of $456 million of Federal funds have been matched by more than 
$1 billion in non-Federal funds and donations, making the Federal share 
less than 50 percent of overall project costs. FLP program funding of 
$76 million in fiscal year 2010 reversed a funding decline of the 
previous 7 years. For fiscal year 2011, 63 conservation projects were 
submitted to the USFS by 41 States; the requests total more than $200 
million in the FLP need to protect 361,604 acres of forestlands valued 
at more than $437 million. We applaud the President's budget 
recommendation to provide a significant increase for the FLP program. 
However, additional funding is needed to meet pressing project needs 
and provide adequate project funding levels. To respond to this 
significant demand, we urge the subcommittee to support a funding level 
of $100 million in fiscal year 2011.
    In the face of the current economic downturn, we cannot 
underestimate the power public lands can have in turning the tide. 
Tourism dollars and visitation to our parks and public lands can serve 
as an economic engine for local and regional economies. For example, 
the National Association of State Park Directors reports that America's 
State park system contributes $20 billion to local and State economies. 
Each year millions of Americans visit our public lands to enjoy hiking, 
wildlife watching, hunting, fishing, climbing, camping, mountain 
bicycling, horseback riding, photography, paddling and boating, cross-
country and backcountry skiing, snowmobiling, and outdoor education and 
interpretation. The Outdoor Industry Association reports that active 
outdoor recreation contributes $730 billion annually to the U.S. 
economy, supporting 6.5 million jobs across the country. Investment by 
the Congress in the LWCF will yield greater public dividends now, than 
perhaps in any time in recent history. With property values 
significantly down from just a year ago, timely acquisition funding 
will make a real difference in addressing the backlog of Federal 
agencies' land acquisition needs. In this market, public agencies can 
better compete with private buyers and developers, and can stretch LWCF 
dollars even further. In addition, LWCF and FLP funding can help 
landowners achieve their economic objectives through the sale of their 
land.
    A 2006 economic assessment of the National Park System produced by 
the National Parks Conservation Association determined that national 
park visitors spend more than $13 billion annually in communities 
surrounding parks supporting 267,000 jobs. Similarly, a recent Fish and 
Wildlife Service report, Banking on Nature, revealed that the 40 
million annual visitors to national wildlife refuges generate more than 
$1.7 billion in annual sales to local economies, resulting in the 
creation of 27,000 jobs.
    The LWCF and FLP are needed now more than ever to protect 
watershed, wildlife, and support local economies. Fighting wildfires 
along the wildland-urban interface is costing the American taxpayer 
billions of dollars annually. Using the LWCF for strategic land 
purchases in and adjacent to public lands to prevent private 
development in the most fire prone areas will allow agencies to 
implement better fire prevention management in these critical zones. 
Furthermore, the FLP provides States and private landowners with a tool 
to maintain key areas as working forests and to prevent inappropriate 
development.
    Drinking water quality and quantity greatly depend on the 
protection of forestlands, grasslands, and wetlands ranging from high 
elevation watersheds to coastlines. These acres filter pollutants, 
prevent erosion along rivers, and decrease the costs and damage from 
floods and storms. Headwaters, river corridors, lakeshores, and 
estuaries also provide critical natural habitat and migratory corridors 
for fish and wildlife. The American public deeply values the protection 
of water resources. A 2008 summary of local and statewide polls 
conducted nationwide ranked clean water as the top conservation concern 
for 88 percent of the people polled. Protection of land and water 
through LWCF purchases in and around our national forests, parks, 
refuges and other conservation areas helps maintain the long-term 
integrity of our Nation's water quality and water supplies. Maintaining 
working forests with FLP dollars provides a critical tool to protect 
valuable community watersheds.
    Today, our Federal, State, and private conservation lands and 
waterways provide a critical opportunity to address the unprecedented 
challenges that climate change poses to our forests, fish and wildlife, 
and riparian resources. The strategic protection of key inholdings, 
buffer areas, and wildlife migration corridors within and adjacent to 
existing public lands enhances adaptation efforts and fosters intact 
landscapes. These natural areas also store carbon, buffer flooding, 
conserve water, and support healthy fisheries and wildlife populations. 
Hand-in-hand with mitigating the deleterious impacts of our environment 
from burning fossil fuels is the need to respond to climate change with 
a foresighted investment in land protection and natural resource 
adaptation across the Federal public lands.
    In closing, we thank the subcommittee for your continuing 
leadership on Federal land conservation and meeting the environmental 
and recreation needs of citizens at the State and community levels 
through programs such as LWCF. The LWCF Coalition stands ready to work 
with you to secure full and consistent funding for the LWCF and FLP. 
Thank you.
                     the undersigned organizations
    The Access Fund; American Canoe Association; American Hiking 
Society; American Land Conservancy; American Rivers; American 
Whitewater; Appalachian Mountain Club; Appalachian Trail Conservancy; 
California State Parks Foundation; Choose Outdoors; City Parks 
Alliance.
    Civil War Preservation Trust; The Conservation Fund; Conservation 
Trust for North Carolina; Defenders of Wildlife; Eastern Forest 
Partnership; Friends of Rachel Carson National Wildlife Refuge; 
Highlands Coalition; International Mountain Bicycling Association; Land 
Trust Alliance; Land Trust for the Little Tennessee.
    National Association of State Outdoor Recreation Liaison Officers; 
National Association of State Park Directors; National Audubon Society; 
National Park Trust National Parks Conservation Association; National 
Recreation and Park Association; National Wildlife Federation; National 
Wildlife Refuge Association; The Nature Conservancy; New Mexico 
Wildlife Federation; New York State Office of Parks, Recreation and 
Historic Preservation.
    North Country Trail Association; Northern Forest Alliance; Northern 
Sierra Partnership; Outdoor Alliance; Outdoor Industry Association; 
Outdoors America; Pacific Crest Trail Association; The Pacific Forest 
Trust; Pacolet Area Conservancy; Partnership for the National Trails 
System.
    Sierra Business Council; Sierra Club; Society for the Protection of 
New Hampshire Forests; Southern Appalachian Forest Coalition; Southern 
Appalachian Highlands Conservancy; Tennessee Parks and Greenways 
Foundation Trout Unlimited; The Trust for Public Land; Western Rivers 
Conservancy; The Wilderness Society; Wildlife Forever; Winter Wildlands 
Alliance World Wildlife Fund.
                                 ______
                                 
       Prepared Statement of the Mother Lode Chapter, Sierra Club
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony on behalf of the 
Mother Lode Chapter of the Sierra Club in support of acquiring land at 
Tahoe and Eldorado National Forests in California. An appropriation of 
$5.5 million is needed in fiscal year 2011 from the Land and Water 
Conservation Fund in order for the Forest Service to acquire an 
assemblage of properties totaling 3,187 acres.
    The Mother Lode Chapter members are very concerned about the 
wildlife and other amenities of these neighboring forests. The 
irrational checkerboard ownership pattern in the central Sierra Nevada 
is one of the most significant challenges facing Forest Service land 
management. Incompatible uses on private parcels interspersed with 
public lands degrade wildlife habitat, water quality, recreational 
access, and scenic views on the public lands and complicate forest 
management and fire control. Disruption of north-south habitat 
connectivity, essential to wildlife migration in the Sierra Nevada, 
will have much more serious effects as climate change significantly 
shifts wildlife habitats. For these reasons, the Forest Service has 
made consolidation of public ownership in checkerboard areas an 
acquisition priority in California. Acquiring all the private lands in 
the checkerboard region with significant wildlife, watershed, scenic, 
and recreational values will be a very long-term effort; consistent 
progress is essential.
    We are asking you to support funding for parcels in six areas, all 
but one of which are in the region of checkerboard ownership. These 
parcels are the Tahoe and Eldorado National Forests' highest 
acquisition priorities in fiscal year 2011. The merits of the parcels 
in each area are briefly described below.
Castle Peak Area (Tahoe National Forest, checkerboard region)
    Our highest priorities for acquisition are parcels in the Castle 
Peak area on the Sierra Crest in Tahoe National Forest. Most of the 
Castle Peak area is included in the Castle Peak Proposed Wilderness. 
The Castle Peak area is highly scenic and is a very popular year-round 
recreation area for the large populations of northern California and 
western Nevada. Thousands of acres in the Castle Peak area have been 
purchased in recent years, thanks in part to your support, but the 
acquisitions are not yet complete.
    The White Rock Lake parcel, most of which is roadless, is on the 
northern edge of the Proposed Wilderness. Including the roadless 
portion of the parcel in the Proposed Wilderness would make its 
boundary more logical and defensible. Acquisition of the parcel would 
consolidate public ownership of the White Rock Lake watershed, better 
protecting the Lake and its population of Federal endangered mountain 
yellow-legged frogs.
    Two parcels southwest of Castle Peak and close to the Proposed 
Wilderness have significant recreational values. Acquisition of these 
parcels would make possible an improved routing of the popular Hole in 
Ground bicycle trail onto public lands. These parcels, which are near 
already subdivided lands, are potential locations for second-home 
development, which makes their acquisition more urgent.
Sagehen Creek Watershed (Tahoe National Forest, checkerboard region)
    The University of California's Sagehen Creek Field Station has used 
the Sagehen Creek watershed as an outdoor classroom and site for 
wildlife, forestry, and hydrology research since 1951. Recognizing this 
use, the Forest Service has designated the public lands in the 
watershed as the Sagehen Creek Experimental Forest.
    Consolidated public ownership of the Experimental Forest would 
ensure that incompatible activities on private land in the watershed do 
not confound research data and restrict educational activities. 
Acquisition of sections 13 and 15 on the southern and western 
boundaries of the Experimental Forest would significantly decrease the 
private lands in the Sagehen Creek watershed. Acquisition would also 
add to the public lands in the north-south wildlife corridor on and 
near the Sierra Crest, in which ownership is significantly fragmented.
Lacey Valley Meadows and Webber Lake (Tahoe National Forest, 
        checkerboard region)
    The 1,500 acres of beautiful subalpine meadow in Lacey Valley south 
of Webber Lake are an outstanding feature of a 3,000-acre property in 
the vicinity of the Lake that will be available for acquisition. Two 
sections in the upper end of the Valley are available in fiscal year 
2011.
    The meadow and riparian areas of Lacey Valley are habitat for 
waterfowl and for the willow flycatcher, which is on the State 
endangered list. The meadow and the surrounding uplands provide habitat 
for deer and numerous species of raptors and predators.
    Though meadows are only a small percentage of the lands within 
Tahoe National Forest, they contribute disproportionately to the 
forest's scenic, wildlife, and recreation values. A large proportion of 
meadows within the Forest are privately owned; early settlers valued 
the resources of meadows and their suitability for settlement. Now 
meadows are attractive locations for second-home and resort development 
which seriously degrades their ecosystems and denies the general public 
access. Promptly responding to opportunities to acquire meadows is 
essential because meadows are so attractive to residential and resort 
developers. Acquisition of the forested ridges surrounding the Lacey 
Valley meadows ensures protection of the meadows and creeks.
English Mountain (Tahoe National Forest, checkerboard region)
    Purchase of this parcel would help consolidate very fragmented 
public ownership immediately northeast of English Mountain by acquiring 
the remainder of a checkerboard section. The parcel contains most of 
the northeastern slopes of English Mountain and also Secret Lake, a 
small alpine tarn, and its outlet stream. Purchase of the section is 
the beginning of the highly desirable eventual consolidation of public 
ownership of beautiful English Meadow and other meadows along the 
Middle Yuba River. The Grouse Lakes Potential Wilderness, which 
includes the summit of English Mountain, is immediately to the south of 
the parcel. Though part of the section has been logged, some mature 
mixed conifer forest remains.
Big Avalanche Cave (Tahoe National Forest, checkerboard region)
    Public ownership of the parcel would protect and guarantee public 
access to this regionally significant limestone cave system with 1,500 
to 2,000 feet of passages. In the opinion of northern California 
speleologists, Big Avalanche Cave, where extensive exploration of easy 
passages with minimal resource impacts is possible, is the most 
important recreational cave in the northern Sierra Nevada. A colony of 
Townsend's Big-eared Bats, a species of concern in California, occupies 
a summer roost a few miles away. The cave is a suitable and likely 
winter hibernation site for this colony. Both the Western Cave 
Conservancy and the National Speleological Society support this 
acquisition.
Martin Meadow (Eldorado National Forest)
    The volcanic ridge east of Silver Lake, between Silver Lake and the 
Kirkwood Ski Area, is a striking scenic backdrop for Silver Lake. This 
parcel is on the west slope of the ridge, within a potential addition 
to the Mokelumne Wilderness, surrounded on three sides by Forest 
Service land. Public ownership of the parcel will preserve its 
wilderness character and the wilderness character of surrounding 
national forest lands.
Conclusion
    Your past support of appropriations to purchase private lands with 
significant wildlife and recreational values in Tahoe and Eldorado 
National Forests has been invaluable. The Mother Lode Chapter of the 
Sierra Club urges you to continue your past support by supporting this 
$5.5 million appropriation for fiscal year 2011.
                                 ______
                                 
    Letter Submitted by the Metropolitan Water District of Southern 
                               California
                                                    March 26, 2010.
Hon. Dianne Feinstein,
Chairman, Subcommittee on the Interior, Environment and Related 
        Agencies
Washington, DC.
    Dear Seantor Feinstein: Support for fiscal year 2011 Federal 
funding of $5.9 million for the Department of the Interior--Bureau of 
Land Management (BLM) to assist in the Colorado River Basin Salinity 
Control Program, with $1.5 million to be designated specifically to 
identified salinity control efforts.
    The Metropolitan Water District of Southern California 
(Metropolitan) has adopted a position supporting funding for the BLM's 
Colorado River Basin Salinity Control Title II Program.
    For 70 years Metropolitan has provided imported water to the 
southern California region from the Colorado River and the State Water 
Project originating in northern California. Our mission is to provide 
high quality, reliable drinking water supplies primarily for municipal 
and industrial use. Metropolitan is the Nation's largest provider of 
imported water to an urban area. The population today in our service 
area is 19 million and it is projected to rise to 25 million within the 
next 25 years. Metropolitan is comprised of 26 member public agencies 
that serve an area spanning 5,200 square miles and 6 southern 
California counties.
    Water imported via the Colorado River Aqueduct (CRA) has the 
highest salinity of Metropolitan's imported sources of supply, 
averaging around 630 milligrams per liter since 1976 and causing 
economic damages. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the cost of water treatment and sewer fees in the 
        industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration;
  --Increased use of imported water for leaching; and
  --Increased cost of desalination and brine disposal for recycled 
        water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission approved Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President approved the Colorado River Basin 
Salinity Control Act in 1974. High total dissolved solids in the 
Colorado River as it entered Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation on this issue and coordinate the Colorado River 
Basin States' efforts on salinity control, the seven Basin States 
formed the Colorado River Basin Salinity Control Forum (Forum).
    The Colorado River Basin Salinity Control Program reduces salinity 
by preventing salts from dissolving and mixing with the River's flow. 
Irrigation improvements (sprinklers, gated pipe, lined ditches, etc.) 
and vegetation management reduce the amount of salt transported to the 
Colorado River. Point sources such as saline springs are also 
controlled. The Federal Government, Basin States, and contract 
participants spend close to $50 million annually on salinity control 
programs.
    The Program, as set forth in the act, benefits both the Upper 
Colorado River Basin water users through more efficient water 
management and the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the River's salinity.
    By some estimates, concentrations of salts in the Colorado River 
cause approximately $350 million in quantified damages in the lower 
Colorado River Basin States each year and significantly more in 
unquantified damages. Salinity control projects have reduced salinity 
concentrations of Colorado River water on average by more than 100 
milligrams per liter with an economic benefit of $264 million per year 
(2005 dollars) in avoided damages.
    The BLM's budget justification document has stated that the BLM 
continues to implement on-the-ground projects, evaluate progress in 
cooperation with the U.S. Bureau of Reclamation (USBR) and the U.S. 
Department of Agriculture (USDA), and report salt-retaining measures in 
order to further the Plan of Implementation of Federal Salinity Control 
Program in the Colorado River Basin. The BLM budget, as proposed in the 
BLM Budget Justification Document, calls for five principal program 
priorities within the Soil, Water, and Air Management Program. One of 
the priorities is reducing saline runoff in the Colorado River Basin to 
meet the interstate, Federal and international agreements to control 
salinity of the Colorado River.
    As you are aware, BLM is the largest landowner in the Colorado 
River Basin. Due to geological conditions, much of the lands that are 
controlled and managed by the BLM are heavily laden with salt. Past 
management practices have led to human-induced and accelerated erosion 
processes from which soil and rocks, heavily laden with salt have been 
deposited in various stream beds or flood plains. As a result, salts 
are dissolved into the Colorado River system causing water quality 
problems downstream.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by the USBR through its Basin-wide Program and by the 
USDA through its on-farm Environmental Quality Incentives Program.
    Metropolitan requests that Congress appropriate $5.9 million to BLM 
for fiscal year 2011 and urges the subcommittee to specifically 
designate $1.5 million of that amount for the Colorado River Basin 
Salinity Control Program as has been the direction to BLM from the 
subcommittee in past years.
    Over the past years, the Colorado River Basin Salinity Control 
program has proven to be a very cost effective approach to help 
mitigate the impacts of increased salinity in the Colorado River. 
Continued Federal funding of this important Basin-wide program is 
essential.
    I would appreciate it if you make this statement a part of the 
formal hearing record concerning fiscal year 2011 appropriations for 
the BLM. I thank you for your subcommittee's support of this program in 
years past and hope that you will again support funding to continue 
this valuable program.
            With best regards,
                                       Jeffrey Kightlinger,
                                                   General Manager.
                                 ______
                                 
      Prepared Statement of the Maumelle Water Excellence Project
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Maumelle Water Excellence (MWE) project in Arkansas. An appropriation 
of $4 million from the Forest Legacy Program (FLP) is needed in order 
to protect a 594-acre property. I am thankful that this project was 
included in the President's budget request for fiscal year 2011 at a 
funding level of $2.5 million. However, the project can be completed in 
fiscal year 2011 with an appropriation of $4 million.
    In 2004, the State of Arkansas enrolled in the USDA's FLP to help 
address forest fragmentation resulting from increased development 
pressure and an increased demand for outdoor public recreation. For the 
second year in a row, the Arkansas Forestry Commission, the lead 
implementing agency for the FLP in Arkansas, has made the MWE project 
the State's top-ranked FLP project.
    The Maumelle Water Excellence (MWE) project proposes to conserve 
more than 900 acres of pristine forested land along 3.6 miles of the 
Big Maumelle River through fee title acquisition. The MWE project would 
create an invaluable link between existing public lands and would form 
a protected riparian corridor leading to Lake Maumelle, the primary 
drinking water supply for approximately 400,000 Central Arkansas 
residents. Successfully completing the project will help preserve 
forests and sensitive habitat that serve a vital role in providing a 
high-quality drinking water supply for the region.
    The project is part of a 915-acre sod farm previously owned by a 
private investment group, of which 594 acres are forested and eligible 
for FLP funding. The nonforested portion of the sod farm will be 
purchased with non-Federal money, where water quality conservation 
measures will be implemented, and forests and native grasses will be 
planted. Non-Federal funding would also be used to establish the 
Watershed Center of Excellence, a partnership of the University of 
Arkansas at Little Rock and local, State, and Federal agencies tasked 
to educate the public on watershed management, water quality 
conservation techniques, and beneficial stream reconstruction.
    The property consists of bottomland hardwoods and cypress breaks, 
which are rare for the Ouachita Mountains Ecoregion. These forests 
provide habitat for the federally listed endangered harperella plant, 
multiple species of migratory waterfowl, many small- and large-game 
species, and the Prothonotary Warbler, which is listed in the Arkansas 
Wildlife Action Plan as a species of great conservation need. The MWE 
project offers tremendous recreational opportunities for the region. 
The project will, for example, create new opportunities for hiking, 
fishing, and hunting. Protection of this project area will open more 
hunting grounds for Little Rock area residents and offer targeted 
hunter education to area youth.
    The MWE project also provides a significant national benefit by 
protecting several miles of the Ouachita National Recreation Trail 
(ONRT) viewshed. ONRT is a scenic trail formally designated by the 
Secretary of Agriculture under the National Trail System Act of 1968. 
ONRT is 224 miles long stretching from eastern Oklahoma across 192 
miles of the Ouachita National Forest and 32 miles of private/other 
public lands to central Arkansas ending at Pinnacle Mountain State 
Park. The ONRT runs immediately adjacent to 2.2 miles of the MWE's 
southern boundary and continues onto property Central Arkansas Water 
already owns.
    The State of Arkansas, Central Arkansas Water (CAW), and Arkansas 
Game & Fish Commission have pledged considerable funds to protect the 
lands along the Big Maumelle River. This impressive collaboration, 
which has allocated more than $8 million in non-Federal funding to 
protect this property, offers tremendous value and a remarkable 
opportunity to help preserve an important landscape in Arkansas.
    The most significant threats to the water quality of Lake Maumelle 
are development and deforestation. Located just 15 miles west of Little 
Rock, the State's capitol, this property is at the edge of development 
in the metro area. Given the popularity of Lake Maumelle, housing 
density within its watershed is expected to increase between 5 to 20 
percent in the next 20 years. The MWE project offers to protect 
important endangered species habitat, preserve and restore working 
forests, boost outdoor recreational opportunities, and safeguard a 
critical water supply--all within 15 miles of the State capital.
    The property is available now for permanent protection. An 
appropriation of $4 million from the FLP in fiscal year 2011 would be 
matched by more than $8 million in State and other public funds to 
allow the conservation of this critical natural resource property and 
ensure safe drinking water for area residents.
    I urge you to do all you can to ensure that this worthwhile program 
is funded adequately in fiscal year 2011 and that the MWE project 
receives $4 million in fiscal year 2011.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Arkansas, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs
    My name is Michael Garner and I am Director of Maryland's Abandoned 
Mine Land Program. I also serve as President of the National 
Association of Abandoned Mine Land Programs (NAAMLP). The NAAMLP 
represents 30 States and tribes with federal approved abandoned mine 
land reclamation (AML) programs authorized under title IV of the 
Surface Mining Control and Reclamation Act (SMCRA). title IV of SMCRA 
was amended in 2006 and significantly changed how State AML grants are 
funded. Beginning in fiscal year 2008, State AML grants are funded 
primarily by mandatory appropriations. As a result, the States should 
receive $413.2 million in fiscal year 2011. Instead OSM has budgeted an 
amount of $259.5 million for State AML grants, a reduction of $153.7 
million. The proposed spending cuts would eliminate funding to States 
and tribes that have ``certified'' completion of their highest-priority 
coal reclamation sites. OSM has also proposed to $20 million reduction 
in discretionary spending that would eliminate the Federal emergency 
program under 410 of SMCRA. I appreciate the opportunity to testify and 
present this statement to the Subcommittee on issues related to the 
proposed fiscal year 2011 budget for the Office of Surface Mining 
Reclamation and Enforcement (OSM).
    SMCRA was passed in 1977 and set national regulatory and 
reclamation standards for coal mining. The act also established a 
Reclamation Fund to work towards eliminating the innumerable health, 
safety and environmental problems that existed across the Nation from 
the mines that were abandoned prior to the act. The Fund generates 
revenue through a fee on coal production. This fee is collected by OSM 
and distributed to States and tribes that have federal approved 
regulatory and AML programs. The promise Congress made in 1977, and 
with every subsequent amendment to the act, was that, at a minimum, 
half the money generated from fees collected within the boundaries of a 
State or tribe, referred to as ``State share'', would be returned for 
uses described in the act if the State or tribe assumed responsibility 
for regulating coal mining according to SMCRA. If a State or tribe was 
successful in completing reclamation of abandoned coal mines and was 
able to ``certify'' according to section 411, then the State share 
funds could be used to address a myriad of other problems related to 
noncoal mining, public facilities, infrastructure, water supply and 
environmental cleanup. The 2006 amendments clarified the scope of what 
the State share funds could be used for and reaffirmed the promise made 
by Congress in 1977. Currently, certified States and tribes are using 
the funds ``with priority given for addressing the impacts of mineral 
development'' as provided for in the act. These include environmental 
stewardship, cleaning up abandoned coal and hardrock mines nationwide, 
creating green jobs, sustainable development, infrastructure 
improvements, and alternative energy projects. These funds stimulate 
economic activity in local communities by putting money to work on the 
ground in an expeditious manner, and protecting public health and 
safety--all the while improving the environment.
    The reduction in certified State AML grants proposed by OSM not 
only breaks the promise of State share funding, but will upset the 
balance and compromise that was achieved in the comprehensive 
restructuring of SMCRA accomplished in the 2006 amendments following 
more than 10 years of discussion and negotiation. The reduction in 
funding is also inconsistent with the goals set forth in the American 
Recovery and Reinvestment Act (ARRA). The certified State AML programs 
have been up and operating effectively and have been achieving many of 
the goals and objectives set forth in the ARRA for more than 30 years. 
We therefore respectively ask the subcommittee to continue the funding 
for certified States at the statutory authorized levels and turn back 
any efforts to amend SMCRA.
    In addition to the $153.7 million reduction, the proposed fiscal 
year 2011 budget would also eliminate or redirect $20 million annually 
from the Federal AML emergency program. This would eliminate all 
funding for the emergency program and leave the States and tribes to 
rely on funds received through their non-emergency AML grant funds. 
This is contradictory to the 2006 amendments that require the States 
and tribes to maintain ``strict compliance'' with the non-emergency 
funding priorities described in section 403(a), while leaving Section 
410, Emergency Powers, unchanged.
    Section 410 of SMCRA requires OSM to fund the emergency AML program 
using OSM's ``discretionary share'' under section (402)(g)(3)(B), which 
is entirely separate from State and tribal nonemergency AML grant 
funding under sections (402)(g)(1), (g)(2), and (g)(5). SMCRA does not 
allow States and tribes to administer or fund an AML emergency program 
from their nonemergency AML grants, although, since 1989, 15 States 
have agreed to implement the emergency program on behalf of OSM 
contingent upon OSM providing full funding for the work. By using the 
State's existing AML programs to abate the emergencies, OSM has been 
able to fulfill their mandated obligation more effectively and 
efficiently. There are 10 States and 3 tribes that continue to rely 
solely on OSM to operate the emergency program within their 
jurisdiction.
    Emergencies are defined as ``a sudden danger with a high 
probability of substantial physical harm to the health, safety and 
general welfare of people before they can be abated under normal 
program operation procedures'' (OSM Directive AML-4). Regardless of 
whether a State AML Program or OSM operates the emergency program, OSM 
has always retained the authority to ``declare'' the emergency which 
clears the way for the expedited procedures to be implemented. The 
emergency declaration is done by making the findings described in 
section 410 that ``(1) an emergency exists constituting a danger to the 
public health, safety, or general welfare; and (2) no other person or 
agency will act expeditiously to restore, reclaim, abate, control, or 
prevent the adverse effects of coal mining practices.'' In fiscal year 
2009 OSM made 183 emergency declarations in Kentucky and Pennsylvania 
alone, States where OSM operates the emergency program. As part of 
these declarations, OSM has made the finding (183 times in 2009) that 
they are the only agency that can ``act expeditiously to restore, 
reclaim, abate.'' the emergency. And yet in fiscal year 2011, OSM now 
asserts this is no longer the case. OSM has not developed legislation, 
regulations, procedures, directives or policies to transfer emergency 
powers to the States and tribes, nor has OSM received a solicitor's 
opinion regarding the legality of this transfer. OSM's only guidance to 
the States has been that beginning in 2011 the agency ``will no longer 
declare emergencies'' which simply ignores the emergency situation and 
OSM's statutorily mandated obligation to address it. Simply denying 
that emergencies exist does nothing to protect the public or allow 
States and tribes to make progress towards certification.
    If Congress allows the elimination of the emergency program, States 
and tribes will have to adjust to their new role by setting aside a 
large portion of their nonemergency AML grant funds so that they can be 
prepared for any emergency that may arise. Emergency projects come in 
all shapes and sizes, vary in number from year to year and range in 
cost from thousands of dollars to millions of dollars. This will result 
in funds being diverted from other high-priority projects. It will also 
delay certification under section 411 and increase the backlog of 
projects on the Abandoned Mine Land Inventory System (AMLIS). For 
minimum program States and States with small AML programs, large 
emergency projects will require the States to redirect all or most of 
their AML resources to address the emergency delaying other high-
priority reclamation. In a worst-case scenario, a minimum program State 
would have to ``save up'' multiple years of appropriations to eliminate 
a costly emergency. Furthermore, by failing to fund the emergency 
program each year, OSM will be adding to the Federal expense share, 
section 402(g)(3), that resides in the AML Trust Fund. This share 
already stands at approximately $420 million and will continue to grow 
by at least $20 million per year if discretionary funds are not 
appropriated for the emergency program. One of the congressional 
objectives in restructuring the funding formula in the 2006 Amendments 
was to assure that AML fees collected annually are put to use on the 
ground where they can make a difference. What better way to accomplish 
this than to provide Federal funding to address emergency reclamation 
work each year.
    Finally, it should be kept in mind that eliminating $20 million for 
emergency funding will ultimately reduce reclamation funding by over 
$200 million for the life of the AML program. As previously stated, AML 
reclamation achieves many of the goals envisioned in the ARRA. For the 
reasons above, we urge the subcommittee to restore $20 million for the 
AML emergency program in fiscal year 2011.
    Included in the mandatory funding mentioned above is supplemental 
funding for ``minimum program'' States. Under the funding formula 
contained in the 2006 amendments to SMCRA, all of the States are to 
receive sizeable funding increases except for minimum program States. 
We urge Congress to fund these States at the statutorily authorized 
level of ``not less than $3 million annually'' in fiscal year 2011 to 
allow these States to proceed with the critical AML projects awaiting 
funding. The current phase-in approach limits funding to $2.25 million 
which greatly inhibits the ability of these States to accomplish much 
in the way of substantive AML work--especially given their inventory of 
remaining high priority problems and the looming possibility of 
emergency projects.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as EPA's 319 program. Until fiscal year 2009, language 
was always included in OSM's appropriation that encouraged the use of 
these types of matching funds, particularly for the purpose of 
environmental restoration related to treatment or abatement of acid 
mind drainage (AMD) from abandoned mines. This is an ongoing, and often 
expensive, problem, especially in Appalachia. NAAMLP therefore requests 
the Committee to once again include language in the fiscal year 2011 
appropriations bill that would allow the use of AML funds for any 
required non-Federal share of the cost of projects by the Federal 
government for AMD treatment or abatement.
    We also urge the subcommittee to support funding for OSM's training 
program, including monies for student travel. These programs are 
central to the effective implementation of State regulatory programs as 
they provide necessary training and continuing education for State 
agency personnel. NAAMLP also urges the subcommittee to support funding 
for TIPS, a program that directly benefits both the AML and Regulatory 
Programs in the States by providing critical technical assistance. In 
this regard, we also request that the subcommittee restore the $303,000 
for these two programs that has been proposed for reduction. We also 
request that the subcommittee direct OSM not to make any further 
adjustments to these programs in order to focus resources on other 
regulatory program activities related to the June 11 MOU, as suggested 
in OSM's budget justification document. Finally, we support funding for 
the Watershed Cooperative Agreements in the amount of $1.55 million.
    The fiscal year 2011 budget is of great concern to the NAAMLP 
membership for the reasons described above and because it is counter to 
the objectives of title IV of the act and disregards the intentions of 
Congress that have been made clear from 1977 to the most recent 
amendments in 2006. This OSM budget proposal was developed unilaterally 
and did not include any participation by the States and tribes who have 
historically worked jointly with OSM in the drive to protect the public 
safety and welfare since the inception of SMCRA over three decades ago.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies
    The National Association of Clean Air Agencies (NACAA), 
representing the State and local air quality agencies in 53 States and 
territories and more than 165 metropolitan areas across the country, 
appreciates this opportunity to provide testimony on the fiscal year 
2011 budget for the United States Environmental Protection Agency 
(EPA). NACAA supports the President's request for an $82.5 million 
increase in Federal grants for State and local air pollution control 
agencies under sections 103 and 105 of the Clean Air Act--part of the 
State and Tribal Assistance Grant (STAG) program. This would raise the 
total amount for Section 103/105 air grants to State and local air 
agencies to $309.1 million.
Air Pollution Presents a Serious Public Health Threat
    Air pollution is one of the most pressing public health problems 
facing our Nation. In this country alone, exposure to polluted air 
results in the deaths of tens of thousands of people prematurely every 
year and causes many other serious health problems, such as the 
aggravation of respiratory and cardiovascular disease; decreased lung 
function; difficulty breathing; coughing; increased susceptibility to 
respiratory infections; effects on the brain, such as IQ loss and 
impacts on learning, memory, and behavior; and cancer. For sensitive 
populations, such as the elderly, children or individuals with 
underlying health problems, the risks are even greater. Air pollution 
is also damaging in other ways, including harming vegetation and land 
and water systems, impairing visibility and causing adverse impacts on 
climate.
    Exposure to air pollution is widespread. According to EPA data, 
approximately 127 million people lived in counties that exceeded at 
least one of the health-based national ambient air quality standards 
(NAAQS) in 2008.\1\ When a new health-based standard for ozone is 
issued, this number will likely be higher. With respect to hazardous 
air pollutants, also called ``air toxics,'' EPA estimates that nearly 
everyone in the United States has an increased cancer risk of greater 
than 10 in 1 million (1 in 1 million is generally considered 
``acceptable'').\2\ Air pollution probably causes more deaths than any 
other problem under this subcommittee's jurisdiction.
---------------------------------------------------------------------------
    \1\ Our Nation's Air: Status and Trends Through 2008 (February 
2010), EPA, www.epa.gov/airtrends/2010/.
    \2\ National-Scale Air Toxics Assessment for 2002--Fact Sheet, 
www.epa.gov/ttn/atw/nata2002/factsheet.html.
---------------------------------------------------------------------------
The President's Request Recognizes the Importance of Healthful Air 
        Quality
    As stated at the outset, NACAA supports the President's request of 
$309.1 million for State and local air grants, which represents an 
increase of $82.5 million above the amount appropriated in fiscal year 
2010, and strongly urges Congress to appropriate funds at this level. 
Even though this increase will not fully address the funding deficit 
that State and local air agencies have been facing for many years, 
which will be discussed further in a moment, it will be enormously 
helpful as we continue our existing programs and take on additional 
responsibilities in fiscal year 2011. Such an increase, especially 
during these difficult economic times, is recognition by the 
administration that clean air is critically important to public health 
and the welfare of this country and that the benefits of reducing air 
pollution far outweigh the costs of the program. We are very grateful 
for the President's support of our efforts and hope that Congress will 
appropriate the requested amount in recognition of the importance of 
protecting public health.
State and Local Air Quality Efforts are in Need of Significant 
        Increases
    State and local air quality agencies have struggled with 
insufficient resources for many years. Section 105 of the Clean Air Act 
authorizes the Federal Government to provide grants for up to 60 
percent of the cost of State and local air programs, while States and 
localities must provide a 40-percent match. In reality, however, State 
and local air agencies report that they provide 77 percent of their 
budgets (not including permit fees under the Federal title V program), 
while Federal grants constitute only 23 percent. Clearly State and 
local agencies are providing far more than their fair share of the 
funding. The chart below illustrates these funding trends.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Moreover, the continuing adverse impacts of the recession at the 
State and local levels strain already stressed budgets and cause States 
and localities to make painful decisions to reduce funding or cut air 
programs that are important for public health. As a result, States and 
localities must increasingly rely on Federal contributions. 
Unfortunately, Federal grants to these agencies (as the chart shows) 
have remained relatively stagnant and the purchasing power of State and 
local agency resources has actually decreased due to inflation. In 
fact, in terms of purchasing power, Federal grants have decreased by 
nearly 10 percent between fiscal year 2000 and fiscal year 2010. At the 
same time, the responsibilities these public health agencies face have 
increased dramatically.
    Last year, NACAA conducted a survey of State and local air 
pollution control agencies, requesting information about the additional 
resources they need to fulfill responsibilities that are fundamental to 
their programs.\3\ The results of this study show there is an annual 
shortfall of $550 million in Federal grant appropriations for State and 
local air programs. These agencies cannot carry out their programs 
effectively with such enormous deficits. Insufficient funds and 
increasing workloads have combined to undermine the ability of State 
and local agencies to adequately address air pollution and protect 
public health.
---------------------------------------------------------------------------
    \3\ Investing in Clean Air and Public Health: A Needs Survey of 
State and Local Air Pollution Control Agencies, NACAA (April 2009).
---------------------------------------------------------------------------
    While the President's request does not fully address all our 
funding needs, it will be very helpful as we continue our efforts to 
obtain and maintain healthful air quality for our Nation. Because State 
and local agencies already provide 77 percent of their budgets, meeting 
the 40-percent match associated with this increase nationally should 
not be a problem.
The President's Budget Request Will Provide Funds for Critical Programs
    The proposed budget calls for increases in three primary areas: 
Core Activities ($45 million), Increasing Capacity for Greenhouse Gas 
Permitting ($25 million); and Monitoring ($12.5 million). All of these 
efforts are extremely important and are in need of increased financial 
support. The following are a few words about each one.
    Core Activities.--We commend the President for recognizing the 
importance of State and local agencies' core programs, as illustrated 
by the request for an additional $45 million in grant funds to support 
those activities. While new and innovative efforts are important and 
necessary, we cannot forget how critical the ongoing core programs are, 
including the day-to-day activities that serve as the foundation of our 
programs. For example, the additional funds will supplement the 
existing resources used for continuing program responsibilities and 
support the increasing workload that State and local air agencies face 
as EPA updates its health-based National Ambient Air Quality Standards. 
Agencies will be required to update or prepare new State Implementation 
Plans (SIPs) for ozone, nitrogen dioxide, sulfur dioxide, lead and fine 
particulates. For example, SIPs for the 2006 PM<INF>2.5</INF> standard 
are due in November 2012, for the new lead standard in 2011 and 2012, 
and for the new ozone standard in 2013. State and local agencies must 
begin developing these plans, which will require increasingly complex 
tasks, such as addressing multi-pollutant and multi State transport 
issues, compiling emission inventories, carrying out sophisticated 
modeling exercises, significantly expanding and operating monitoring 
networks and adopting and enforcing regulations, among other 
responsibilities.
    Increasing Capacity for Greenhouse Gas Permitting.--State and local 
agencies need to expand their capacity with respect to greenhouse gases 
(GHGs) so that they are able to transition to whatever GHG program EPA 
develops. For example, once GHGs are a ``regulated pollutant'' under 
the Clean Air Act, States and localities will be required to issue New 
Source Review permits for new and modified sources under the 
``Prevention of Significant Deterioration'' (PSD) program and Title V 
operating permits for existing sources. The $25 million increase would 
be used to prepare for these additional tasks by supporting staff 
development and training, program planning and analysis, source 
identification, outreach to industry and responding to the public.
    Monitoring.--State and local agencies must increase monitoring 
activities to address the new and revised standards related to ozone, 
lead, nitrogen dioxide and sulfur dioxide. Additionally, the public is 
demanding more monitoring of hazardous air pollution in locations where 
the public lives, works, attends school and plays. These efforts will 
require the purchase of additional ambient air monitoring equipment 
that will provide much-needed information about the levels of 
pollutants in the air and, later, the success of control measures. The 
President's request calls for an additional $15 million for the 
acquisition of new monitoring equipment in fiscal year 2011 ($12.5 
million in new funding and $2.5 million reprogrammed from air toxics 
monitoring at schools). While this amount is not sufficient to address 
all the additional monitoring needs, it will be very helpful for State 
and local agencies as they expand their monitoring capabilities to 
address the new and revised standards, as well as hazardous air 
pollutants.
    We note that EPA is once again recommending that fine particulate 
monitoring funds be shifted from section 103 authority, where no match 
is needed, to section 105, which would require additional matching 
funds. We request that these funds remain under section 103 authority, 
as they have in the past. For individual agencies that have concerns 
about the matching requirements, this will ensure that they can 
continue receiving these monitoring funds.
Diesel Retrofit Funding Should Be Increased
    NACAA is a member of a broad coalition representing public-
interest, environmental, business and governmental organizations, among 
others. The coalition recommends that Congress provide $100 million in 
fiscal year 2011 for programs authorized by the Diesel Emissions 
Reduction Act (DERA), which is an increase of $40 million above the 
President's request. The DERA programs are intended to decrease the 
amount of harmful microscopic particles in the ambient air resulting 
from diesel exhaust. NACAA urges Congress to provide this funding to 
these important efforts.
Conclusion
    The President's budget request calls for a much-needed increase in 
grants to State and local air quality agencies at a time when these 
entities are required to continue their efforts and take on significant 
new responsibilities. While these increases would not fully address the 
enormous funding deficit that these programs face, they are a step in 
the right direction and would be vastly helpful to State and local air 
quality programs.
    NACAA recommends, therefore, that Congress appropriate the amount 
contained in the President's fiscal year 2011 request for Federal 
grants to State and local air quality agencies under sections 103 and 
105 of the Clean Air Act, which is $309.1 million. This represents an 
increase of $82.5 million above the fiscal year 2010 appropriated 
amount. Additionally, NACAA recommends that DERA programs be funded in 
the amount of $100 million, which is $40 million above the President's 
recommended amount.
    Thank you for this opportunity to testify on this important issue 
and for your consideration of the resource needs of State and local air 
quality programs as they work to improve and protect public health.
                                 ______
                                 
    Letter From the National Association of Forest Service Retirees
                                                     March 1, 2010.
Hon. Dianne Feinstein,
Chairman, Subcommittee on Interior, Environment, and Related Agencies,
Washington, DC.
Hon. Lamar Alexander,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies,
Washington, DC.

Re: Fiscal year 2011 appropriation for the U.S. Forest Service
    Dear Chairman Feinstein and Senator Alexander: This letter sets 
forth the recommendations of the National Association of Forest Service 
Retirees regarding the fiscal year 2011 budget for the U.S. Forest 
Service. Members of the Association are men and women who spent their 
professional careers involved with the protection and management of our 
Nation's forests and in research. Most members spent their careers 
working on the National Forests and Grasslands. We remain committed to 
the statutory management objectives for these lands that are vital to 
the well-being of the American people. We believe it is important, even 
in periods of tight budgets, to provide adequate protection and 
stewardship for these lands so they can serve the people and provide 
needed natural resources, such as water, over the long run.
    We want to acknowledge the efforts of this subcommittee to maintain 
the capability of the Forest Service to carry out its vital missions in 
the face of clearly inadequate budget requests in recent years. The 
President's proposed budget for fiscal year 2011 shows much better 
recognition of the importance of Forest Service programs. Nevertheless, 
we feel it falls short in several areas that are discussed below.
Research
    With the changed structure of the forest products industry, forest 
management research by major forest products firms has largely 
disappeared. Cutbacks in State budgets have reduced forest management 
research at universities. That leaves the Forest Service as the source 
of the science we need to properly manage our Nation's forests. We 
badly need more answers to questions about how to manage forests for 
various purposes in a period of climate change. We need to find 
economic uses for the smaller material that we need to remove from the 
forest to reduce the vulnerability to fire, insects, and disease.
    We recommend an increase in Forest and Rangeland Research of 5 
percent over fiscal year 2010 for research aimed at improving forest 
adaptability to changing climate, efficient resource use, and forest 
inventory and analysis. We limit our request to 5 percent given the 
current economic situation. Frankly an increase in research of about 
$90 million per year over the next 5 years is needed to provide a sound 
scientific foundation for the protection and management of our forests 
in the 21st century.
    We want the subcommittee to know of our concerns about the serious 
decline in the number of career, peer-reviewed scientists in the Forest 
Service. In spite of relatively stable appropriations for research, the 
number of career scientists in the agency has declined from about 900 
to just over 500. The agency has become increasingly dependant on 
short-term appointments and Post-Doc appointments. This decline affects 
the quality of the scientific work that is being done. It significantly 
reduces the ability of the agency to provide sound scientific advice to 
the agency, to the forest management community, and to the Congress. We 
urge the subcommittee to work with the agency to reverse this 
unfortunate trend.
State and Private Forestry
    We were disappointed to see the administration propose reductions 
in funding for Forest Heath Management. Given the catastrophic losses 
to bark beetles in the West and the threat of lethal invasive insect 
species throughout the country, we believe an increase in funding for 
this activity is warranted. We recommend an increase of 3 percent over 
the 2010 appropriation for Forest Health Management on both Federal and 
Cooperative lands.
    We are also concerned about the proposed reduction in State Fire 
Assistance. The threat of fire on all ownerships is increasing. The 
cooperative relationships among Federal land management agencies, State 
fire agencies, and local fire agencies are a model for emergency 
response. Reducing support for State and local agencies will adversely 
affect the Nation's overall capacity for wildfire and other emergency 
responses. The States are simply in no position to pick up these costs. 
We recommend no reduction in State Fire Assistance.
    The United Nations had designated 2011 as the Year of the Forests. 
Observances are planned throughout the world to call attention to the 
importance of forests to the quality of life. We recommend increasing 
the appropriation for International Forestry by $1 million to allow the 
Forest Service to participate with other Nation's in this recognition.
National Forest System
    The proposal to merge the Forest Products, Wildlife and Fisheries, 
and Vegetation and Watershed Management line items into a single line 
item will facilitate implementation of integrated management activities 
on the ground. When a Ranger receives funds in a number of discrete 
accounts, it is hard to match the money to the needs of a particular 
project. On the other hand, merging the line items will make it more 
difficult for people interested in particular activities to identify 
and track how their interests are being addressed. For example, the 
Budget Justification for 2011 shows only acres to be treated to restore 
watershed function or resilience. No data is shown that identify the 
nature of the work that will be done. There is no data for targets 
previously displayed such as the area of forest vegetation to be 
improved, the area of forest vegetation to be established, the area of 
rangeland vegetation to be improved, the area of stream improvements, 
or the area of noxious weeds and invasive plants to be treated. People 
and cooperators with interest in the various activities should be able 
to find out what the agency is proposing to do and then find out if 
they did it. If this proposal is accepted, it will be important for the 
agency and the Congress to fully display planned work and to carefully 
track and report on activities within the line item. A single broad 
description such as restoring watershed function provides no basis for 
judging the need, priority, cost, or otherwise assessing the validity 
of the proposal. For example, if the appropriation for the line item is 
based on preparing and selling a given volume of timber, the agency 
will need to track and report on accomplishments for this activity. If 
the line items are merged, we suggest the combination be named 
Integrated Resource Management rather than Integrated Resource 
Restoration. Restoration of forests and watersheds to healthy 
conditions is important, but a significant amount of the work that is 
needed on our National Forests and Grasslands involves activities to 
maintain vegetation, watersheds and wildlife habitat in a healthy, 
sustainable condition.
    We appreciate the emphasis the subcommittee has given to funding 
needed Hazardous Fuel Treatments. This work is critical to reducing the 
vulnerability of our forests to catastrophic fire losses, as well as 
the threat to lives and property in the wildland urban interface. We 
believe, however, that it will not be possible to get on top of the 
growing fuels problem by relying only on appropriated funds. If we are 
going to succeed, we must find ways to capture the economic value of 
the material that needs to be removed from the forest. Much of this 
material can be used for conventional wood products, for composite 
materials, and for energy production. Not all of the material will 
fully pay its way out of the woods today, but even if its removal must 
be subsidized, it will be cheaper to utilize it than to treat it in 
place. Importantly, utilization of this material will create jobs in 
local forest-dependent communities where unemployment rates are high. 
We recommend an increase in the volume of timber to be prepared and 
offered for sale of 700 million board feet over that provided for 
fiscal year 2010.
    The Forest Service reports a backlog of lands needing reforestation 
of about 1 million acres. This is based on the results of on the ground 
examinations and prescriptions. Based on the rate that the backlog has 
been reduced in recent years, it will take nearly 20 years to eliminate 
it. We are concerned that the actual area needing reforestation may be 
significantly larger than reported. For example, a rapid assessment of 
the 2007 fires showed that some 500,000 acres might need reforestation. 
The rapid assessment of the 2008 fires showed that potentially 227,000 
acres might need reforestation. On-the-ground stand examinations are 
needed to identify how much of this burned land should be added to the 
backlog. We recommend a $6 million increase in funding over that 
provided in 2010 for reforestation so that stand examinations can be 
completed and the agency and this subcommittee will have the data 
needed to develop a plan for increasing the reforestation program to a 
level that will eliminate the backlog within 5 years.
    The administration proposes a small decrease in funding for 
Inventory and Monitoring. Inventory and monitoring are essential to 
professional management of forest resources and to insuring that 
activities meet established standards. Good information on the results 
of forest management activities is important to gaining and maintaining 
public support. We urge that funding for Inventory and Monitoring be 
continued at not less than the 2010 level.
    The National Forests and Grasslands are neighbors to thousand of 
landowners and communities. Maintaining property lines, inspecting 
authorized uses, and responding to requests for land uses and rights-
of-way are essential to protecting the public property and to being a 
good neighbor. We recommend an increase of $5 million for Landownership 
Management.
Capital Improvements and Maintenance
    We deplore the proposed reductions in funding for Capital 
Improvements and Facilities. We recognize that substantial funding for 
these activities was provided in the economic stimulus package, but 
large backlogs remain. If regular funding is reduced because of the 
economic stimulus funding, the benefits of the economic stimulus are 
lost. We particularly object to the reduction in funding for 
maintaining passenger car roads. The American people have a right to 
visit their National Forests and Grasslands. These roads are essential 
to recreation use that is important to the economies of local forest-
dependant communities. They are important for the prompt initial attack 
on fires that is essential to controlling suppression costs. It has 
long been recognized that adequate access is essential to sustainable 
management and protection of forest lands. One of the premises of the 
reduction in the timber program in the 1990's was that some of the 
employment losses would be made up by increases in recreation use. 
Recreation use on the National Forests is dependent on access by roads 
and trails. We urge that funding for Capitol Improvements and 
Maintenance be continued at fiscal year 2010 levels.
Wildland Fire Management
    In response to Congressional direction, the budget proposes 
rebalancing funding for Preparedness and Suppression. This rebalancing 
is desirable. We were disappointed that the Administration failed to 
fully implement Congressional direction in the FLAME Act. Funding for 
fire suppression (Fire Operation-Suppression and the FLAME Fund) is 
based on the 10-year average cost of suppression. We recommend funding 
for fire suppression be based on the most recent 5-year average cost of 
suppression projected to 2011 as prescribed by the FLAME Act. 
Establishing a third fund for suppression has no merit.
    It is essential that the Forest Service has the capability to 
respond quickly with emergency watershed stabilization treatments 
following a wildfire. The flooding in Los Angeles following the Station 
Fire illustrates the importance of these funds. We urge that funding of 
NFP-Rehabilitation and Restoration be continued at 2010 levels.
    Earlier we expressed our concerns about the proposed reductions in 
Forest Health and State Fire Assistance under State and Private 
Forestry. We have the same concerns about the reductions in these 
programs under the National Fire Plan. We recommend an increase in 
funding for NFP-Forest Health of 3 percent. We recommend maintaining 
NFP-State Fire Assistance at the 2010 level;
    This subcommittee has been diligent in recognizing the special 
responsibility that the Congress has for the proper stewardship of our 
Nation's forest lands and, particularly, the National Forests and 
Grasslands. We believe the recommendations set forth above will help to 
insure that this natural heritage will serve the people now and in the 
future.
            Sincerely,
                                         George M. Leonard,
                                                Board of Directors.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Mr. Chairman and members of the subcommittee, I am Phil Giudice of 
Massachusetts, and Chair of the National Association of State Energy 
Officials (NASEO). NASEO represents the energy offices in the States, 
territories and the District of Columbia. NASEO is submitting this 
testimony in support of funding for the Energy Star program (within the 
Climate Protection Division of the Office of Air and Radiation) at the 
U.S. Environmental Protection Agency (EPA). NASEO supports funding of 
at least $75 million, including specific report language directing that 
the funds be utilized only for the Energy Star programs. The Energy 
Star programs are successful and cost-effective. They should be 
expanded, not reduced. With energy prices increasingly volatile, Energy 
Star can help consumers quickly.
    The Energy Star program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments, and business to achieve these 
goals in a cooperative manner. NASEO has worked very closely with EPA 
and more than 40 States are Energy Star Partners. In 2005, EPA and 
NASEO announced a Clean Energy and Environment State Partnership 
program, which has many State members. We are also working closely with 
EPA on Home Performance with Energy Star. With very limited funding, 
EPA's Energy Star program works closely with the State energy offices 
to give consumers and businesses the opportunity to make better energy 
decisions, without regulation or mandates.
    Energy Star focuses on energy efficient products as well as 
buildings. In 2008, 550,000,000 Energy Star products were purchased. 
The Energy Star label is recognized across the United States. It makes 
the work of the State energy offices much easier, by working with the 
public on easily recognized products, services, and targets. In order 
to obtain the Energy Star label a product has to meet established 
guidelines. Energy Star's voluntary partnership programs include Energy 
Star Buildings, Energy Star Homes, Energy Star Small Business and 
Energy Star Labeled Products. The program operates by encouraging 
consumers, working closely with State and local governments, to 
purchase these products and services. Marketplace barriers are also 
eradicated through education. State energy offices are working with EPA 
to promote Energy Star products, Energy Star for new construction, Home 
Performance with Energy Star (especially for existing homes), Energy 
Star for public housing, etc.
    In addition to the State partners, the program has more than 14,000 
voluntary partners including more than 2,000 manufacturers using the 
label, more than 1,000 retail partners, more than 5,000 builder 
partners, 4,500 businesses, 550 utilities and thousands of energy 
service providers. The Home Performance with Energy Star activity 
allows us to focus on whole-house improvements, not simply a single 
product or service. This is extremely beneficial to homeowners. 
Programs have already been undertaken in California, Massachusetts, New 
York, Illinois, Maryland, Oregon, Texas, and Wisconsin. We are also 
working closely with EPA in the implementation of the Energy Star 
Challenge, which is encouraging businesses and institutions to reduce 
energy use by 10 percent or more, usually through very simple actions. 
We are working with the building owners to identify the level of energy 
use and compare that to a national metric, establish goals and work 
with them to make the specified improvements. Again, this is being done 
without mandates.
    The State energy offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding Energy Star business partners 
program. This expansion will continue. EPA has been expanding the 
technical assistance work with the State energy offices in such areas 
as benchmark training (how to rate the performance of buildings), 
setting an energy target and training in such areas as financing 
options for building improvements and building upgrade strategies.
    The State energy offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
The level of cooperation from the agency has been extraordinary and we 
encourage these continued efforts.
Expansion of Energy Star
    The Energy Star program saves consumers billions of dollars every 
year. The payback is enormous. NASEO supports an increase of this 
program to $75 million in fiscal year 2011. The elements of the 
proposed expanded program are as follows:
  --$5 million in additional funding should be appropriated to expand 
        the program to upgrade energy-inefficient homes (Home 
        Performance with Energy Star and Qualified Installation with 
        Energy Star). Consumers could save $500 per year on their 
        energy expenditures, which is $10,000 more than 20 years 
        (nominal dollars). This is real money in the pockets of 
        consumers. It can help them stay in their homes and help the 
        economy. There are significant, off-the-shelf energy efficiency 
        measures that can be utilized. A large expansion of the Home 
        Performance with Energy Star is the critical element of this 
        initiative. Additional work to encourage quality installation 
        of heating and cooling equipment would also produce real 
        savings.
  --$5 million in additional funding should be appropriated for an 
        expansion of energy performance ratings systems for the 
        Nation's buildings. Information on energy use per square foot 
        is a key motivating tool. This can help commercial building 
        owners make the right decisions.
  --$5 million in additional funding should be appropriated for 
        expansion of Energy Star to medium and small manufacturers and 
        small businesses. The State energy offices are working hard to 
        preserve and expand jobs in this difficult economy. Energy Star 
        is a powerful tool to help reduce operating costs and maintain 
        profits and jobs.
  --$5 million in additional funding should be appropriated for an 
        expanded outreach program for energy efficiency to States, 
        utilities, local governments, schools, and other potential 
        program sponsors. Energy Star provides crucial technical 
        assistance to help work with these entities to expand energy 
        efficiency programs throughout the economy.
  --$5 million in additional funding should also be provided for the 
        Energy Star Industrial program, Energy Star New Commercial 
        Buildings, Energy Star New Home Construction and Energy Star 
        Product labeling.
    The funds delineated above should be added to the existing 
appropriation. It is especially critical for the Energy Star program to 
work with the States and local governments as they distribute stimulus 
funds for the State Energy Program ($3.1 billion), the Energy 
Efficiency and Conservation Block Grant (for local and State 
governments) ($3.2 billion), the Weatherization Assistance Program ($5 
billion) and the Appliance Rebates Program ($300 million). The funding 
provided in this bill will help spend this money more effectively.
Conclusion
    Increases in funding for the Energy Star programs are justified. 
NASEO endorses these activities and the State energy offices are 
working very closely with EPA to cooperatively implement a variety of 
critical national programs.
                                 ______
                                 
   Prepared Statement of the National Association of Forest Service 
                                Retirees
    Madam Chairman and members of the subcommittee: I appreciate the 
opportunity to present the recommendations of the National Association 
of Forest Service Retirees regarding the fiscal year 2011 budget for 
the U.S. Forest Service. Members of the Association are men and women 
who spent their professional careers involved with the protection and 
management of our Nation's forests and in research. Most members spent 
their careers working on the National Forests and Grasslands. We remain 
committed to the statutory management objectives for these lands that 
are vital to the well-being of the American people. We believe it is 
important, even in periods of tight budgets, to provide adequate 
protection and stewardship for these lands so they can serve the people 
and provide needed natural resources, such as water, over the long run.
    We want to acknowledge the efforts of this subcommittee to maintain 
the capability of the Forest Service to carry out its vital missions in 
the face of clearly inadequate budget requests in recent years. The 
President's proposed budget for fiscal year 2011 shows much better 
recognition of the importance of Forest Service programs. Nevertheless, 
we feel it falls short in several areas that are discussed below.
Research
    With the changed structure of the forest products industry, forest 
management research by major forest products firms has largely 
disappeared. Cutbacks in State budgets have reduced forest management 
research at universities. That leaves the Forest Service as the source 
of the science we need to properly manage our Nation's forests. We 
badly need more answers to questions about how to manage forests for 
various purposes in a period of climate change. We need to find 
economic uses for the smaller material that we need to remove from the 
forest to reduce the vulnerability to fire, insects, and disease.
    We recommend an increase in Forest and Rangeland Research of 5 
percent over fiscal year 2010 for research aimed at improving forest 
adaptability to changing climate, efficient resource use, and forest 
inventory and analysis. We limit our request to 5 percent given the 
current economic situation. Frankly an increase in research of about 
$90 million per year over the next 5 years is needed to provide a sound 
scientific foundation for the protection and management of our forests 
in the 21st century.
    We want the subcommittee to know of our concerns about the serious 
decline in the number of career, peer-reviewed scientists in the Forest 
Service. In spite of relatively stable appropriations for research, the 
number of career scientists in the agency has declined from about 900 
to just more than 500. The agency has become increasingly dependant on 
short-term appointments and Post-Doc appointments. This decline affects 
the quality of the scientific work that is being done. It significantly 
reduces the ability of Forest Service Research to provide sound 
scientific advice to the agency, to the forest management community, 
and to the Congress. We urge the subcommittee to work with the agency 
to reverse this unfortunate trend.
State and Private Forestry
    We were disappointed to see the administration propose reductions 
in funding for Forest Heath Management. Given the catastrophic losses 
to bark beetles in the West and the threat of lethal invasive insect 
species throughout the country, we believe an increase in funding for 
this activity is warranted. We recommend an increase of 3 percent more 
than the 2010 appropriation for Forest Health Management on both 
Federal and Cooperative lands.
    We are also concerned about the proposed reduction in State Fire 
Assistance. The threat of fire on all ownerships is increasing. The 
cooperative relationships among Federal land management agencies, State 
fire agencies, and local fire agencies are a model for emergency 
response. Reducing support for State and local agencies will adversely 
affect the Nation's overall capacity for wildfire and other emergency 
responses. The States are simply in no position to pick up these costs. 
We recommend no reduction in State Fire Assistance.
    The United Nations had designated 2011 as the Year of the Forests. 
Observances are planned throughout the world to call attention to the 
importance of forests to the quality of life. We recommend increasing 
the appropriation for International Forestry by $1 million to allow the 
Forest Service to participate with other Nation's in this recognition.
National Forest System
    The proposal to merge the Forest Products, Wildlife and Fisheries, 
and Vegetation and Watershed Management line items into a single line 
item will facilitate implementation of integrated management activities 
on the ground. When a Ranger receives funds in a number of discrete 
accounts, it is hard to match the money to the needs of a particular 
project. On the other hand, merging the line items will make it more 
difficult for people interested in particular activities to identify 
and track how their interests are being addressed. For example, the 
Budget Justification for 2011 shows only acres to be treated to restore 
watershed function or resilience. No data is shown that identify the 
nature of the work that will be done. There is no data for targets 
previously displayed such as the area of forest vegetation to be 
improved, the area of forest vegetation to be established, the area of 
rangeland vegetation to be improved, the area of stream improvements, 
or the area of noxious weeds and invasive plants to be treated. People 
and cooperators with interest in the various activities should be able 
to find out what the agency is proposing to do and then find out if 
they did it. If this proposal is accepted, it will be important for the 
agency and the Congress to fully display planned work and to carefully 
track and report on activities within the line item. A single broad 
description such as restoring watershed function provides no basis for 
judging the need, priority, cost, or otherwise assessing the validity 
of the proposal. For example, if the appropriation for the line item is 
based on preparing and selling a given volume of timber, the agency 
will need to track and report on accomplishments for this activity. If 
the line items are merged, we suggest the combination be named 
Integrated Resource Management rather than Integrated Resource 
Restoration. Restoration of forests and watersheds to healthy 
conditions is important, but a significant amount of the work that is 
needed on our National Forests and Grasslands involves activities to 
maintain vegetation, watersheds and wildlife habitat in a healthy, 
sustainable condition.
    We appreciate the emphasis the subcommittee has given to funding 
needed Hazardous Fuel Treatments. This work is critical to reducing the 
vulnerability of our forests to catastrophic fire losses, as well as 
the threat to lives and property in the wildland urban interface. We 
believe, however, that it will not be possible to get on top of the 
growing fuels problem by relying only on appropriated funds. If we are 
going to succeed, we must find ways to capture the economic value of 
the material that needs to be removed from the forest. Much of this 
material can be used for conventional wood products, for composite 
materials, and for energy production. Not all of the material will 
fully pay its way out of the woods today, but even if its removal must 
be subsidized, it will be cheaper to utilize it than to treat it in 
place. Importantly, utilization of this material will create jobs in 
local forest-dependent communities where unemployment rates are high. 
We recommend an increase in the volume of timber to be prepared and 
offered for sale of 700 million board feet over that provided for 
fiscal year 2010.
    The Forest Service reports a backlog of lands needing reforestation 
of about 1 million acres. This is based on the results of on the ground 
examinations and prescriptions. Based on the rate that the backlog has 
been reduced in recent years, it will take nearly 20 years to eliminate 
it. We are concerned that the actual area needing reforestation may be 
significantly larger than reported. For example, a rapid assessment of 
the 2007 fires showed that some 500,000 acres might need reforestation. 
The rapid assessment of the 2008 fires showed that potentially 227,000 
acres might need reforestation. On-the-ground stand examinations are 
needed to identify how much of this burned land should be added to the 
backlog. We recommend a $6 million increase in funding over that 
provided in 2010 for reforestation so that stand examinations can be 
completed and the agency and this subcommittee will have the data 
needed to develop a plan for increasing the reforestation program to a 
level that will eliminate the backlog within 5 years.
    The administration proposes a small decrease in funding for 
Inventory and Monitoring. Inventory and monitoring are essential to 
professional management of forest resources and to insuring that 
activities meet established standards. Good information on the results 
of forest management activities is important to gaining and maintaining 
public support. We urge that funding for Inventory and Monitoring be 
continued at not less than the 2010 level.
    The National Forests and Grasslands are neighbors to thousand of 
landowners and communities. Maintaining property lines, inspecting 
authorized uses, and responding promptly to requests for land uses and 
rights-of-way are essential to protecting the public property and to 
being a good neighbor. We recommend an increase of $5 million for 
Landownership Management.
Capital Improvements and Maintenance
    We deplore the proposed reductions in funding for Capital 
Improvements and Facilities. We recognize that substantial funding for 
these activities was provided in the economic stimulus package, but 
large backlogs remain. If regular funding is reduced because of the 
economic stimulus funding, the benefits of the economic stimulus are 
lost. We particularly object to the reduction in funding for 
maintaining passenger car roads. The American people have a right to 
visit their National Forests and Grasslands. These roads are essential 
to recreation use that is important to the economies of local forest-
dependant communities. They are important for the prompt initial attack 
on fires that is essential to controlling suppression costs. It has 
long been recognized that adequate access is essential to sustainable 
management and protection of forest lands. One of the premises of the 
reduction in the timber program in the 1990's was that some of the 
employment losses would be made up by increases in recreation use. 
Recreation use on the National Forests is dependent on access by roads 
and trails. We urge that funding for Capitol Improvements and 
Maintenance be continued at fiscal year 2010 levels.
Wildland Fire Management
    In response to Congressional direction, the budget proposes 
rebalancing funding for Preparedness and Suppression. This rebalancing 
is desirable. We were disappointed that the Administration failed to 
fully implement Congressional direction in the FLAME Act. Funding for 
fire suppression (Fire Operation-Suppression and the FLAME Fund) is 
based on the 10-year average cost of suppression. We recommend funding 
for fire suppression be based on the most recent 5-year average cost of 
suppression projected to 2011 as prescribed by the FLAME Act. 
Establishing a third fund for suppression has no merit.
    It is essential that the Forest Service has the capability to 
respond quickly with emergency watershed stabilization treatments 
following a wildfire. The flooding in Los Angeles following the Station 
Fire illustrates the importance of these funds. We urge that funding of 
NFP-Rehabilitation and Restoration be continued at 2010 levels.
    Earlier we expressed our concerns about the proposed reductions in 
Forest Health and State Fire Assistance under State and Private 
Forestry. We have the same concerns about the reductions in these 
programs under the National Fire Plan. We recommend an increase in 
funding for NFP-Forest Health of 3 percent. We recommend maintaining 
NFP-State Fire Assistance at the 2010 level;
    This subcommittee has been diligent in recognizing the special 
responsibility that the Congress has for the proper stewardship of our 
Nation's forest lands and, particularly, the National Forests and 
Grasslands. We believe the recommendations set forth above will help to 
insure that this natural heritage will serve the people now and in the 
future.
                                 ______
                                 
    Prepared Statement of the National Association of School Nurses
    On behalf of our members and supporters across the country, and 
tens of millions of children whose health, learning and behavior are 
daily impacted by dank, dark, dirty, and polluted conditions of our 
Pre-K-12 public schools, we urge you to fund the EPA's ``Clean Green 
Healthy Schools Initiative'' at $8.2 million, $2 million above the 
President's $6.2 million request in the fiscal year 2011 EPA request.
    The national ``Sick Schools 2009'' collaborative report assembled 
by more than 30 contributing public interest nonprofits, analyzed 
Federal data from EPA, Education, and CDC, as well as peer reviewed 
published sciences in healthy school environments. Result: at least 60 
percent of all 55 million school children endure lower test scores and 
poor attendance due solely to the environmental conditions of their 
schools. See http://www.healthyschools.org/SICK_SCHOOLS_2009.pdf
    The President's fiscal year 2011 EPA budget supports EPA's critical 
Office of Children's Health Protection and the agency's voluntary 
schools-focused programs that help local schools and districts to 
create healthier school environments for all children. EPA will co-lead 
a Federal interagency effort to integrate existing voluntary schools 
programs across the agencies, including asthma, indoor air quality, 
chemical clean outs, green practices (highly cost-effective as New York 
State has learned) and enhanced use of integrated pest management; 
promote safe handling and management of PCB-containing caulk in schools 
and build regional technical support and outreach; assesses the impacts 
of non-compliance with existing environmental laws on health risks in 
schools; and increase technical assistance on voluntary EPA guidelines 
under the Energy Independence Security Act (EISA of 2007) regarding 
school siting and other school environmental concerns.
    We also urge you to support increases for EPA's Healthier Indoor 
Air and for school and community air toxics monitoring, and for 
expanding EPA's asthma programs and pesticide-use reductions with 
schools. Children are 100 percent of our future and promoting healthy 
learning environments is a task that EPA is uniquely poised to tackle, 
in collaboration with Education and CDC.
    Thank you for your consideration of this request.
                                 ______
                                 
       Prepared Statement of the National Cooperators' Coalition
Summary
    The National Cooperators' Coalition (NCC) urges the Subcommittee on 
Interior, Environment, and Related Agencies to increase the funding of 
the U.S. Geological Survey's Cooperative Fish and Wildlife Research 
Units (CFWRUs) by $2.7 million above the amount appropriated for fiscal 
year 2010 to fill vacant scientist positions and complete restoration 
of the program's integrity. Contingent on full funding of the base 
program, the NCC seeks additional funding of $2 million to establish 
new capacity by adding units in Nevada and New Jersey, completing the 
wildlife mission at existing units in Hawaii and California, and 
ensuring that the entire CFWRU network is sufficiently robust to meet 
the Nation's pressing natural resource challenges. These increases 
above the fiscal year 2010 enacted level are essential to successfully 
address the natural resource management challenges posed by climate 
change, energy development needs, invasive species, wildfire, increased 
demand for limited water resources, and retirement and replacement of 
an unprecedented number of natural resource professionals over the next 
10 years.
    The National Cooperators' Coalition is an alliance of non-Federal 
CFWRU program cooperators and other supporters. Its members include 
State fish and wildlife agencies, universities, and non-governmental 
organizations. The mission of the NCC is to build a stronger and more 
coordinated base of support to serve research, education, and technical 
assistance needs of the non-Federal CFWRU program cooperators.
Continue to Build on This Subcommittee's Efforts
    This subcommittee was instrumental in providing the funding needed 
to fill all CFWRU scientist positions in fiscal year 2001, after years 
of work. Unfortunately, much of this effort was undone over the next 7 
years. Beginning in fiscal year 2008, however, the subcommittee once 
again began leading the effort to restore the integrity of the CFWRU 
program. We greatly appreciate your leadership in adding funding for 
the past three years for this important research and training 
partnership, which already brings together State fish and wildlife 
agencies, State universities, and Federal agencies around a local, 
applied research agenda. To provide the capacity in the CFWRU program 
that existed a decade ago, the fiscal year 2011 USGS appropriation now 
needs just $2.7 million more than the fiscal year 2010 enacted level.
    State and Federal natural resources agencies are facing 
unprecedented challenges posed by climate change, energy development 
needs, invasive species, infectious diseases, wildfire, and increased 
demand for limited water resources. These agencies also face the 
challenge of replacing an extraordinary number of natural resource 
professionals who will be retiring within this decade. Finding workable 
solutions to these challenges requires the kind of approaches to 
research emphasized by the CFWRUs, which rely on interdisciplinary 
efforts, collaborations and accountability to help resolve emerging 
issues at scales that transcend State boundaries.
    As you know, each of the CFWRUs in 38 States is a true Federal-
State-university-private partnership among the U.S. Geological Survey, 
a State natural resource agency, a host university, and the Wildlife 
Management Institute. The CFWRUs build on these partner contributions 
to leverage more than $3 for every $1 appropriated to the program by 
Congress. The CFWRUs have established a record of educating new natural 
resource professionals who are management-oriented, well-versed in 
science, grounded in State and Federal agency experience, and able to 
assist private landowners and other members of the public. Restoration 
of funding support would ensure that the Interior Department provides 
the Federal scientist staffing agreed to with partners so that the 
return on their continuing investment in the CFWRUs is realized and 
fully leveraged. The role of the CFWRU program in facilitating 
solutions to natural resources management challenges and training the 
fish and wildlife managers of tomorrow should be expanded rather than 
compromised by funding shortfalls that result in the absence of 
scientist leaders.
    With appropriation of $22 million for the CFWRUs for fiscal year 
2011, a sound foundation will exist on which new capacity should be 
built with appropriation of an additional $2 million to add CFWRUs in 
Nevada and New Jersey and complete the wildlife mission at existing 
CFWRUs in Hawaii and California. Rutgers University, University of 
Nevada--Reno, University of Hawaii--Hilo and Humboldt State University 
bring a wealth of research, education and innovative technology to 
address contemporary conservation issues at regional and national 
scales. The respective State agency partners bring an extensive history 
of successful fish and wildlife management skills and resources that 
complement those existing at the universities. The State agency and 
university partners are well-equipped to collaborate with CFWRUs to 
help resolve natural resources management challenges that transcend 
State boundaries. For example, New Jersey capacity can be brought to 
bear on the effects of climate change on anadromous fish, and new 
strategies for wildlife management in urban settings. California has 
been at the forefront of watershed restoration, forest management and 
disease ecology. Hawaii's problems and handling of invasive rodents, 
feral pigs, and feral cats that affect endangered species can serve as 
a model for other States. In Nevada, wildfire and invasive plants 
threaten mule deer habitat and invasive species threaten Lake Tahoe.
    Finally, the NCC would like to work with the subcommittee to 
develop a competitive, matching fund program within existing CFWRU 
legislative authority for fiscal year 2012 and beyond to address high 
priority research needs for natural resources managers.
    We urge you to make greater use of this important research and 
training partnership, which already brings together State fish and 
wildlife agencies, State universities, and Federal agencies around a 
local, applied research agenda. With your assistance, the Cooperative 
Fish and Wildlife Research Units can make the best use of Federal 
funds, becoming even more effective in using science and collaboration 
to address the natural resources challenges facing the Interior 
Department, other Federal, State, local agencies and this country's 
citizens.
    Thank you for consideration of our request.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers
    Request:
  --$50,000,000 for State Historic Preservation Offices \1\
---------------------------------------------------------------------------
    \1\ The NCSHPO supports the request of the House Preservation 
Caucus of $50 million for SHPOs, $5 million for survey/digitization 
grants, $20 million for tribes, $25 million for Save America's 
Treasures and $4.6 for Preserve America.
---------------------------------------------------------------------------
  --$5,000,000 for competitive grants to States for digitization of 
        documents and historic site survey fieldwork
    The programs are funded through withdrawals from the Historic 
Preservation Fund (16 U.S.C. 470h) U.S. Department of the Interior's 
National Park Service Historic Preservation Fund (HPF).
    Thank you Chairwoman Feinstein, Ranking Member Alexander, and 
members of the Senate Appropriations Subcommittee on Interior, 
Environment, and Related Agencies for the opportunity to provide 
testimony. First, on behalf of all 57 State Historic Preservation 
Officers, I extend heartfelt thanks to you and the subcommittee for 
providing an additional $4 million for SHPOs in fiscal year 2010, 
without which SHPOs could not have addressed the rising workload of 
American Recovery and Reinvestment Act (ARRA) projects and helped to 
keep the stimulus program on track. The additional HPF withdrawals are 
particularly essential in these times of State fiscal crises and 
reduced SHPO budgets that have resulted in up to 40 percent reductions 
in staffing.
    Our request has two components: a $50,000,000 withdrawal from the 
HPPF and a $5 million withdrawal to assist States in ``finishing'' the 
identification of America's historic places by the 50th anniversary of 
the National Historic Preservation Act (NHPA) in 2016.
SHPOs and ARRA
    SHPOs continue to need $50 million to weather ``the perfect storm'' 
created by the American Recovery and Reinvestment Act (ARRA) projects 
hitting the ground at the exact time that State governments are facing 
massive budget deficits, reduced funding and, in some cases, 
elimination of historic preservation programs. While the administration 
and Federal agencies can claim success in obligating ARRA funds, the 
real review work for SHPOs is just beginning.
    As seen from the following, increasing amounts of ARRA reviews with 
no additional funding for staffing means States are unable to fully 
implement all the requirements of the National Historic Preservation 
Act.
  --Wisconsin.--Has reallocated staffing from Federal Rehabilitation 
        Tax Credit project reviews ($4.7 billion program that created 
        70,000 jobs in 2008) and public education efforts, requested by 
        the citizens of Wisconsin, to Federal ARRA project reviews 
        because of the need to shift resources to compliance.
  --California.--Clearing out the ARRA projects backlog has resulted in 
        other projects (approximately 400), especially renewable energy 
        projects, being delayed. Not only is the workload increasing by 
        200 percent to 300 percent, but also staff must spend 
        considerable amounts of time teaching/training the section 106 
        process to Federal agencies. Federal agencies are also 
        delegating their section 106 consultation responsibilities to 
        local governments that have no idea of the Federal regulatory 
        requirements CA has developed Programmatic Agreements to 
        expedite the process wherever possible. The California budget 
        crisis mandated three furlough days per month which reduces the 
        person hours available to conduct the Federal reviews. 
        Productivity has decreased by 15 percent. California has been 
        successful in obtaining 10 additional positions, paid for by 
        Federal and renewable energy agencies to supplement OHP's staff 
        as limited term employees for the next 2 years. However, 
        additional resources and staff are still needed.
  --Maryland.--Staff has worked hard to ensure prioritized review of 
        ARRA assisted projects, but the increased volume of projects, 
        as well as the increased amount of staff time needed to provide 
        information and technical assistance to the grant recipients, 
        is depleting their existing staff resources. Thus, their 
        ability to complete non-ARRA funded project reviews within a 
        30-day time and provide essential customer service to 
        compliance clients is being substantially impaired.
  --South Dakota.--The combination of ARRA projects and being short 
        staffed as meant less time spent on National Register 
        nominations that South Dakotans want as recognition of their 
        heritage and the first step for rehab tax credit projects.
  --Texas.--To meet Federal section 106 review deadlines Texas 
        reallocated staff from processing National Register nominations 
        to handling ARRA funded compliance projects. The slowdown in 
        the National Register process has led to complaints from 
        Texans.
  --Oklahoma.--Has experienced a 40 percent increase in total section 
        106 project reviews. In order to meet the regulatory 30-day 
        deadline they have cut back significantly on providing needed 
        assistance to Oklahoma communities and conducting site visits. 
        They are also experiencing furloughs.
It's Not Just ARRA
    As SHPOs continue to review $787 billion in ARRA projects, Congress 
is considering a second Jobs Bill and future ``green and clean'' energy 
bills. These and all new Federal initiatives create additional SHPO 
review responsibilities. The Departments of Interior and Energy are 
also aggressively pursuing renewable energy projects. These massive, 
multi-state initiatives require extensive work hours for SHPO staff to 
fulfill the Federal regulatory requirements. Many SHPOs anticipate 
renewable energy projects will require much of their section 106 staff 
time during the next several years, likely causing delayed responses to 
non-energy related reviews primarily due to a lack of digitized records 
and complete historic surveys.
SHPOs Long-term Goal
    A major reason for the extensive SHPO involvement in Federal 
project reviews is the lack of a complete inventory of historic places. 
(In Washington where their historic site information is digitized, 
Federal agencies do project planning from their desk top.) To begin to 
address this, the NCSHPO is requesting $5 million in competitive grants 
to States to create a digital record of America's historic places. 
Historic site survey is the foundation of all historic preservation. As 
the 50th anniversary of the Preservation Act approaches in 2016, SHPOs 
need HPF support to find America's historic places and put the 
information in accessible, digital formats.
    Specifically, the grant funds would be used for two purposes: (1) 
to convert existing paper records to electronic formats (data bases, 
GIS) and (2) to conduct inventory fieldwork, filling in the current 
patchwork of identified sites, which is essential for Federal project 
review (section 106) and lays a foundation for every future 
preservation activity, e.g., National Register).
Funding Rationale
            SHPOs are the Nation's Preservation Program
    In 1966 Congress recognized the importance of preserving our past 
by passing the National Historic Preservation Act (NHPA 16 U.S.C. 470), 
which established historic preservation as a Federal Government 
priority. Instead of using Federal employees to carry out the Act, DOI 
and ACHP rely State Historic Preservation Offices to do the work: (1) 
locate and record historic resources (see section above); (2) nominate 
significant historic resources to the National Register of Historic 
Places; (3) foster historic preservation programs at the local 
government level and promote the creation of preservation ordinances; 
(4) provide funds for preservation activities; (5) comment on Federal 
preservation tax projects; (6) review all Federal projects for their 
impact on historic properties; and (7) provide technical assistance to 
Federal agencies, State, and local governments and the private sector.
            SHPOs generate Jobs and Economic Development
    The SHPOs conduct 90 percent of the work involved in the Federal 
Rehabilitation Tax Credit program. Starting with National Register 
nominations, SHPOs educate investors about the tax credit and work with 
owners on the rehabilitation plans before final NPS approval. In 2009, 
during the height of the recession, 1,000 plus rehabilitation projects 
created an average of 68 new and principally local jobs per project and 
leveraged $4.7 billion of private investment into the U.S. economy.
    SHPO pass through 10 percent of their HPF allocation to Certified 
Local Governments. Although the amounts are paltry (grants average less 
than $10,000/project), they pack a powerful punch. The Michigan SHPO 
grant to a Certified Local Government (CLG) created a historic wood 
windows restoration workshop. The workshop provided specialized 
training to the unemployed and in the process educated individuals 
about the energy efficiency benefits of rehabilitating rather than 
replacing historic wood windows. This workshop, free of charge to 
participants, resulted in 4 of the 14 students starting their own 
window repair small businesses, and the program was such a success that 
more workshops will be offered in 2010.
    Heritage tourism creates jobs, new businesses, builds community 
pride and can improve quality of life. SHPOs are essential, ground 
level partners in identifying historic places and providing research 
for tourist interpretation. According to a 2009 national research study 
on U.S. Cultural and Heritage travel by Mandela Research, 78 percent of 
all U.S. leisure travelers participate in cultural and/or heritage 
activities while traveling. Cultural and heritage travelers also spend 
on average $994 per trip compared to $611 for all U.S. travelers.
            SHPOS are good at their job
    2009 State Historic Preservation Offices' Accomplishments.--SHPOs 
used their HPF allocations well in 2009. While virtually every State 
experienced cut backs and reductions, SHPOs are still charged with 
implementing the requirements of the NHPA to their fullest extent. 
Highlights of 2009 historic preservation accomplishments include:
  --More than $4.7 billion of private investment in the rehabilitation 
        of commercial historic properties under the Federal 
        Rehabilitation Tax Credit (FRTC) program.
  --An estimated 70,000 jobs created by the FRTC program in 2008.
  --6,710 low and moderate-income housing units created through the 
        FRTC.
  --Approximately 9 million acres surveyed for cultural resources and 
        more than 146,600 properties evaluated for their historical 
        significance.
  --1,115 new listings in the National Register of Historic Places.
  --SHPOs reviewed 106,900 Federal undertakings, providing 104,100 
        National Register eligibility opinions.
  --55 new communities became Certified Local Governments (CLGs).
  --CLG's newly designated 53,700 properties, and 89,300 properties 
        took part in local preservation review, programs, and 
        incentives.
Conclusion
    Historic preservation recognizes that what was common and ordinary 
in the past is often rare and precious today, and what is common and 
ordinary today may be extraordinary, 50, 100, or 500 years from now. I 
would like to thank the subcommittee for their commitment to historic 
preservation. The Federal Government plays an invaluable role in 
preserving our Nation's history and through our partnership, SHPOs 
stand committed to identify, protect, and maintain our Nation's 
historic heritage.
    Thank you.
                                 ______
                                 
    Prepared Statement of the National Environmental Services Center
    Chairwoman Feinstein, Ranking Member Alexander, and members of the 
subcommittee: We request an appropriation of $3 million in fiscal year 
2011 to assist small communities in meeting their wastewater treatment 
needs through the National Small Flows Clearinghouse (NSFC) and the 
National Environmental Training Center for Small Communities (NETCSC). 
Both programs are administered by the U.S. Environmental Protection 
Agency (EPA) under the Environmental Programs and Management account.
Introduction
    My name is Gerald Iwan and I serve as executive director of the 
National Environmental Services Center. Our center is home to both EPA 
and U.S. Department of Agriculture (USDA) funded programs that provide 
comprehensive environmental services to small communities and rural 
areas. Our work is focused mainly on drinking water, wastewater, and 
community resiliency. Two of our major programs--the NSFC and the 
NETCSC--are the subjects of this testimony. The first two pages outline 
the need and justification for our request; the last two pages of our 
testimony provide background information about the NSFC and NETCSC 
programs.
Need
    In the 1977 Clean Water Act and its subsequent reauthorizations, 
Congress mandated the NSFC to collect, distribute information, and 
provide training about wastewater treatment to small and rural 
communities. With our expertise in decentralized wastewater treatment 
and management, the NSFC and its associate program, NETCSC, uniquely 
support the goals of EPA's Office of Water, protect public health, 
preserve valuable water resources, and contribute to community economic 
vitality and resiliency. Nearly 1 in 4 U.S. households depends on 
individual septic or other types of onsite system to treat wastewater. 
NSFC and NETCSC partner with a wide range of organizations and groups 
to collaborate in helping States and communities address the service 
needs for small and rural communities. These communities are most often 
characterized as being rural, having few financial resources, and as 
being overseen by elected officials who have limited time and support 
personnel to make decisions in these matters. The impact of the NSFC 
and NETCSC information, assistance, and training services includes 
pollution prevention, environmental protection and public health 
protection, cost saving to communities and homeowners, regulatory 
compliance and reform, economic development and resiliency. The 
congressionally directed funding requested in our testimony will enable 
us to help these communities with services they will not otherwise 
obtain.
    The Federal Water Pollution Control Act mandates that EPA provide 
funding through grants and loans for wastewater treatment 
infrastructure and for technical assistance and training resources to 
support local officials, wastewater treatment professionals and others 
in implementing infrastructure projects and in their management and 
maintenance. As such, the NSFC and NETCSC serve as the underpinning of 
EPA's cooperative effort with 15 national organizations to support 
appropriate decentralized wastewater treatment and management. EPA does 
not explicitly budget funding for small community programs since funds 
were allocated under the Clean Water Act. Formula funding for the NSFC 
under the Clean Water Act has expired. The NSFC program requires 
congressional appropriations to continue our programs while the Water 
Quality Investment Act of 2009 is being debated in Congress.
Request
    Congressional support to continue the work of the NSFC and NETCSC 
is imperative because the State agencies and communities these programs 
assist cannot pay on a fee-for-service basis. Neither can State 
allocations for water and wastewater infrastructures pay for these 
programs' services. By virtue of the congressional appropriation, we 
are able to offer most of our services free of charge.
    Without congressional support, the NSFC and NETCSC programs will be 
unable to attain sufficient funding to continue in the near term. In 
the longer term, the NSFC can be supported under the funding formula 
provided for this program through renewal of the State Revolving Loan 
Fund financing section of the Clean Water Act passed by the House in 
March 2009. While EPA has a mandate to protect drinking water and 
manage wastewater discharges, the administration budget request 
typically does not include funding for water programs that serve small 
and rural communities. Congress regularly adds funds each year to the 
EPA budget to continue service provider programs to meet the goals 
established by EPA. In the past, funding for the Clearinghouse and 
Training Center has been included among the congressional priorities 
for water-related programs such as the National Rural Water 
Association, Rural Community Assistance Partnership, Groundwater 
Protection Council, and similar organizations.
    We request reinstated funding support for fiscal year 2011 of $3 
million for the NSFC and NETCSC programs to support our work until the 
Clean Water SRF legislation is reauthorized and enacted. Thank you for 
considering our request.
Background Information About NSFC and NETCSC
            The National Small Flows Clearinghouse
    The NSFC provides information and technical assistance about small 
wastewater facilities serving the needs of residents located in rural 
areas and small communities. We assist agencies, organizations, and 
industries that advance decentralized wastewater treatment as part of 
the Nation's wastewater infrastructure. These technologies are referred 
to as ``decentralized'' because they do not require the large 
infrastructure investment common to centralized municipal collection 
and treatment systems. Decentralized systems, such as onsite septic 
systems and small cluster systems, serve 40 percent of the total U.S. 
population, especially in small communities and in newer residential 
developments.
    Through its congressionally mandated information collection and 
dissemination mission [1977 Clean Water Act section 104(q)(1)], the 
NSFC serves as the national archive for onsite and decentralized 
wastewater treatment technology information and research. The NSFC was 
created under the Clean Water Act legislation to provide information 
and assistance to small and rural communities on proper technology 
selection and management of onsite and small wastewater systems. As 
such, the Clearinghouse offers a comprehensive body of information and 
technical assistance services unique to the wastewater industry. Users 
of these services include individual homeowners, small town officials 
who do not have staff support to address regulatory requirements, 
developers, State regulators, and professionals who install and service 
alternative treatment systems.
    Since its inception and through subsequent Clean Water Act 
reauthorizations, the NSFC has provided small and rural communities 
contemporary, objective and comprehensive technical consulting, site-
specific technical assistance, information about wastewater systems, 
and a suite of regularly published and special topic publications 
targeted to small and rural community needs for wastewater. Now in its 
33d year, the NSFC is a long-standing national information resource on 
wastewater collection and treatment technologies that are appropriate 
for use in small communities, rural areas and in subdivisions where the 
cost to provide central sewage services is a significant portion of 
most municipal budgets.
    The NSFC is a highly regarded national source of information about 
onsite wastewater treatment and management. For example, as part of its 
holdings, it has the only comprehensive literature database in the 
nation on decentralized technologies, offering accurate, relevant 
operation, maintenance and management information to stakeholders. 
Additionally, the NSFC administers the annual State Onsite Regulators 
Alliance (SORA) and captains of industry (COI) conference. For the past 
11 years, SORA-COI has brought together State onsite wastewater 
regulators with associated equipment manufacturers and EPA regional 
managers. This conference has proven to be an extremely valuable 
resource to the parties and especially to EPA for providing them direct 
contact with their wastewater regulatory and private sector 
constituents. Most recently, SORA has become a recognized organization 
of regulators with bylaws, board of directors, and defined membership 
criteria under NSFC.
            About the National Environmental Training Center for Small 
                    Communities
    NETCSC was established by Congress in 1991 as an adjunct to the 
NSFC to meet the training needs of multiple constituent groups on a 
variety of environmental topics. NETCSC develops and delivers training 
for community officials, circuit riders, water and wastewater 
professionals, and other groups on wastewater, drinking water, and 
municipal solid waste disposal and security. In a unique approach, 
NETCSC develops, disseminates and delivers training customized for 
small community environmental management. Environmental trainers and 
technical assistance providers who attend our classes then in turn 
train environmental professionals who serve small communities. NETCSC 
has developed more than 40 training packages for drinking water and 
wastewater system design, operation, finance, management, emergency 
response, and system security. These training packages are delivered 
and available coast-to-coast to thousands of participants, often in co-
sponsorship with other training and/or service providing organizations.
    Since 1991, NETCSC has held more than 250 training events. Hundreds 
of environmental trainers across the Nation subsequently use our 
materials to train thousands of local officials, operators, installers, 
regulators, engineers, and homeowners. Training on environmental 
management and security and emergency response has been customized for 
and delivered to tribal audiences. More than 95 percent of the 
attendees recommend our courses to their colleagues; more than 75 
percent rate the instruction and course materials as being excellent or 
very good, and more than 95 percent plan to use what they have learned 
through the training courses to help small communities
Support for EPA National Priorities
    As part of a Memorandum of Understanding (MOU) initiated by EPA, 
the National Environmental Services Center, which houses both NSFC and 
NETCSC, joined with 15 other national organizations to assist the 
agency in meeting its strategic goals under its Decentralized 
Wastewater Treatment Program. Services provided by both programs are 
the underpinning for the activities of many of the MOU partners in 
achieving their respective goals in the MOU partnership. Continued 
support for the NSFC and NETCSC is important to EPA in meeting its 
national goals under its water programs.
Accomplishments
    Highlights of NSFC and NETCSC accomplishments, many of which are 
provided to the user community free of charge thanks to congressional 
support, include:
  --Toll-free phone service providing technical assistance;
  --Publications, including Small Flows and Pipeline, with a mailing 
        list of 70,000 of which 5,492 subscribers are located in high 
        poverty counties;
  --3,300 information products such as pamphlets, guides, handbooks, 
        design manuals, videos, checklists, catalogs, outreach resource 
        guide, directories, posters, and case studies;
  --Comprehensive Web site and searchable online databases, our Web 
        site averages 3.5 million page views and 1.6 million downloads 
        annually;
  --Demonstration projects at more than 100 sites in 27 States;
  --The intensive annual SORA conference;
  --An annual environmental training institute for small communities 
        and service providers;
  --The Nation's only Wastewater Vulnerability Assessment Guide for 
        small communities;
  --A ``Top Ten'' list of security and emergency preparedness actions; 
        and
  --Six listservs that have a total of 3,264 subscribers.
    With the support of Congress and in conjunction with EPA, both 
programs have expanded their capabilities and level of service over 
time to meet national needs and to address the ever-increasing 
complexity of infrastructure issues as they pertain to smaller systems.
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance
    Mr. Chairman and members of the subcommittee: On behalf of the 
National Humanities Alliance (NHA) and its 104 member organizations and 
institutions, we write to express strong support for the National 
Endowment for the Humanities (NEH). Our members, and the thousands of 
teachers, scholars, humanities organizations and institutions they 
represent, use NEH grants to maintain a strong system of academic 
research, education, and public programs in the humanities. We urge you 
to provide the NEH with funding of at least $232.5 million in fiscal 
year 2011, including:
  --$204 million for NEH program funds (a $64 million increase);
    --$144 million for national programs (a $44.4 million increase);
    --$60 million for the Federal/State partnership (a $19.6 million 
            increase); and
  --$28.5 million for administrative funds requested by the agency (a 
        $1 million increase).
Funding Overview
    Our request constitutes a significant, $65 million increase over 
the fiscal year 2010 enacted level, which we believe is a necessary and 
appropriate Federal expenditure given: the value of the humanities in 
supporting national interests, from a competitive workforce to homeland 
security; the severity of the current economic crisis, and the need for 
Federal intervention to mitigate long-term damage to the Nation's 
education infrastructure; the documented, unmet demand for NEH programs 
at both the Federal and State levels; NEH's present capacity to 
distribute requested funds efficiently through existing program 
structures noted for excellence; NEH's demonstrated historical capacity 
to operate effectively at higher funding levels.
    NEH is funded at $167.5 million for fiscal year 2010, including 
$140 million in total program funds and $27.5 million for 
administration. The agency did not receive funding under the American 
Recovery and Reinvestment Act (ARRA) of 2009. Historically, NEH has 
demonstrated the capacity to operate at much higher funding levels. 
Even with recent adjustments, NEH overall funding is still just more 
than one-third of its funding peak in 1979 ($429 million when adjusted 
for inflation). The agency has not yet recovered from a nearly 40 
percent cut imposed in the mid-90s, before which (in fiscal year 1994), 
NEH was funded at the equivalent of $256.9 million ($2009).
    Unfortunately, the Obama administration has requested decreased 
funding for NEH at a level of $161.3 million, which constitutes a 
reduction of $6.2 million in overall funding from the fiscal year 2010 
level approved by Congress. It is important to note that the 
President's budget represents a $7.2 million cut in NEH program funds, 
which would absorb a proposed $1 million increase in administrative 
funds to cover the agency's estimated operating costs for fiscal year 
2011. We strongly oppose the cuts proposed in the administration's 
fiscal year 2011 budget request for NEH.
NEH National Programs
    The NHA supports fiscal year 2011 funding of $144 million for 
national programs (an increase of $44.4). New funds requested include:
  --$36.9 million to increase the award rate for critically underfunded 
        grant competitions; and
  --$7.5 million for a new, competitively awarded graduate student-
        faculty program.
    NEH national programs represent the pool of funds that support 
peer-reviewed, competitive grant opportunities for a wide range of 
educational institutions, nonprofit organizations, and individual 
scholars around the country. These grants are at the center of the 
agency's mission to create, preserve, and disseminate knowledge in the 
humanities. Current national core programs and special initiatives 
include the Division of Research, Division of Preservation and Access, 
Office of Digital Humanities, Office of Challenge Grants, Division of 
Education Programs, Division of Public Programs, and the We the People 
initiative. A new initiative, Bridging Cultures, has been proposed by 
the administration for fiscal year 2011.
    Unmet Demand.--Demand for humanities project support, as 
demonstrated by NEH application rates (and confirmed by feedback from 
the field), far exceeds funding available. In fiscal year 2009, NEH 
received 4,366 competitive grant applications representing more than 
$402 million in requested funds, but was only able to fund 16.9 percent 
of these peer-reviewed project proposals. This is a low figure, when 
compared to the most recent rate of 32 percent reported by the National 
Science Foundation (NSF), a Federal agency closely parallel to NEH in 
its operations and mission to advance research and teaching for the 
academic fields under its umbrella. We estimate that at least $37 
million would be needed to increase the NEH award rate to 25 percent, 
if only the most critically underfunded of NEH's grant competitions 
were boosted. To achieve parity with the fiscal year 2009 NSF funding 
rate of 32 percent, an increase of at least $60 million would be 
required. Examples of underfunded NEH grant programs include:
  --fellowships and collaborative research;
  --digital humanities projects;
  --professional development for teachers and faculty;
  --preservation of historically significant collections;
  --public film, radio, television, and digital media projects; and
  --challenge grants to build institutional capacity and leverage non-
        Federal support.
    Graduate Student/Faculty Fellowships.--NHA supports the 
recommendation of the Association of American Universities and the 
Council of Graduate Students, among others, to create a new, 
competitive program promoting collaboration among graduate students and 
faculty in the humanities, similar to models in the sciences. For more 
than a decade, NEH has stood alone as the only Federal research agency 
that does not support graduate education. The proposed program would 
provide much-needed support to sustain the pipeline for the next 
generation of scholars and educators in the humanities. These young 
people are particularly vulnerable today because of the especially 
severe impact of the economic downturn on new faculty hires in 
humanities disciplines. Increased Federal attention to, and investment 
in, humanities graduate education is critical to attract and retain 
talented individuals to serve as the Nation's future experts and 
educators. We request $7.5 million in new funds for this program.
    Critical Priorities Addressed in the Fiscal Year 2011 Budget 
Request.--The NHA continues to urge expansion of NEH activity in a 
number of critical areas, including: international/global studies, 
humanities data, and graduate education. While we do not support the 
Obama administration's overall funding recommendations for NEH, we are 
very pleased to note interest signaled in the agency's fiscal year 2011 
budget request for the following:
  --Global Understanding.--For fiscal year 2011, NEH has proposed a new 
        special initiative--Bridging Cultures--to advance Americans' 
        understanding of their own rich cultural heritage, as well as 
        the cultural complexity of the world in which they live. As the 
        only Federal agency responsible for advancement of a broad 
        range of critical fields in this area (e.g., history, foreign 
        language, comparative literature, religious studies, cultural 
        anthropology), NEH is well-positioned to provide leadership in 
        support of increased U.S. global competency and competitiveness 
        abroad, as well as civil engagement and understanding at home.
  --Humanities Data.--NHA applauds the following statement in the 
        administration's budget request for NEH: ``In fiscal year 2011, 
        the NEH plans to enter into a partnership with the American 
        Academy of Arts and Sciences (AAAS) . . . to sustain and extend 
        AAAS's developmental work on the Humanities Indicators project. 
        This project, which is responsive to NEH's legislative mandate 
        to develop a ``system of national information and data 
        collection . . . on the humanities,'' is making a wide range of 
        humanities data available to researchers, educators, and the 
        general public. These data will equip policymakers and 
        institutional administrators with statistical tools to help 
        inform decisionmaking about primary and secondary education, 
        higher education, the humanities workforce, levels and sources 
        of humanities funding, public understanding of the humanities, 
        and other areas of concern to the humanities community.''
  --Graduate Education.--NEH has recently revised the eligibility 
        criteria for summer seminars and institutes to create 
        opportunities for humanities graduate students, beginning in 
        the summer of 2010. NHA strongly supports this policy change, 
        which is responsive to suggestions from the humanities 
        community.
NEH Federal/State Partnership
    The NHA supports fiscal year 2011 funding of $60 million for the 
NEH Federal/State Partnership (a $19.6 million increase). Our request 
would strengthen the capacity of State humanities councils to support 
local cultural and educational institutions, teaching and learning 
resources, family literacy programs, community discussion groups, and 
programs for new citizens. A recent survey of State council capacities 
and resources has identified $150 million in funds needed for programs 
and infrastructure support in their States. State councils seek to 
secure half this figure in Federal funding over the next 3 years.
Value of the Humanities
    The 1965 legislation that established the NEH states: ``An advanced 
civilization must not limit its efforts to science and technology 
alone, but must give full value and support to the other great branches 
of scholarly and cultural activity in order to achieve a better 
understanding of the past, a better analysis of the present, and a 
better view of the future.'' At a time of rapid globalization and 
technological development, the wisdom of this statement is as evident 
today--if not more so--than it was 45 years ago. The humanities 
represent critical modes of thought and fields of knowledge that 
support a globally competitive (and vocationally mobile) workforce, 
undergird our civic institutions, inform complex policy challenges, and 
enrich individual lives. They encompass a broad range of fields--
including the study of languages, linguistics, literature, history, 
law, government, philosophy, archaeology, comparative religion, ethics, 
and more--which support capacities especially relevant to the 21st 
century: knowledge of world cultures, religions, and languages; 
understanding of U.S. history and democratic traditions; and humanistic 
perspectives to evaluate the implications of scientific and 
technological advances.
Economic Crisis
    Additional funds are needed to help offset severe economic 
pressures on the academic workforce and humanities institutions and 
invest in the Nation's long-term economic recovery. As one of the 
largest sources of support (private or public) for the humanities in 
the United States, NEH funding is critical to the health of our 
Nation's education and research infrastructure. As the impact of the 
economic downturn deepens, many institutions and nonprofit associations 
around the country are struggling to maintain continued access to high-
quality programming and educational opportunities in the humanities--
from colleges and universities, to schools, museums, libraries, 
historical societies, and other nonprofit organizations.
    Our Nation's long tradition of fostering broad access to liberal 
arts education is increasingly looked to by nations around the world as 
a unique driver of U.S. economic leadership and innovation in the last 
century. Nevertheless, recent Federal policy places almost exclusive 
emphasis on fostering scientific and technological advancement, and 
widens still further the historic gap between Federal and institutional 
support for the humanities and investment in other academic 
disciplines. As a result, opportunities for humanities researchers, 
educators, and students, are failing to keep pace with those provided 
to their counterparts in the sciences. NSF, for example, received $3 
billion in Recovery Act funding that by October, 2009, had already 
enabled 4,599 competitive awards supporting more than 6,700 
investigators in all 50 States and Puerto Rico--many of them located at 
the same educational institutions served by NEH. While these are 
critical expenditures, we cannot allow this gap to continue to grow 
without damaging our Nation's capacity to foster the broad range of our 
citizens' talents, and train the next generation of scholars and 
educators in all fields of learning. Our long-term economic success 
depends on cultivating a broadly educated workforce ready to compete in 
the knowledge-based, global economy of the 21st century. It is a 
strategic mistake to turn away from a historic strength of the U.S. 
educational system at the very moment others are moving to embrace it.
Conclusion
    We recognize that Congress faces difficult choices this year, and 
ask the subcommittee to fund a significant increase for the NEH in 
fiscal year 2011 as an investment in the Nation's long-term economic 
recovery and competitiveness, the strength and vitality of our civic 
institutions, the preservation and understanding of our diverse 
cultural heritage, and the lives of our citizens. The NHA and its 
members are grateful for the subcommittee's vigorous and sustained 
support for the humanities, and would especially like to recognize its 
leadership for the increase received by NEH for fiscal year 2010. Thank 
you for your consideration of our request.
                                 ______
                                 
    Prepared Statement of the New Hampshire Fish and Game Department
    Madam Chairman and Honorable Members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of 
conserving land at the Umbagog National Wildlife Refuge (Refuge) in 
northern New Hampshire. This year presents an opportunity to begin the 
conservation of the 31,300 acre Androscoggin Headwaters property from a 
willing landowner with appropriations from the Land and Water 
Conservation Fund (LWCF) and the Forest Legacy Program (FLP).
    An appropriation of $4.5 million is needed in fiscal year 2011 from 
LWCF for the U.S. Fish and Wildlife Service to acquire 2,920 acres for 
inclusion at the Umbagog Refuge. An appropriation of $4.1 million from 
FLP is also needed in fiscal year 2011 to place a conservation easement 
held by the State of New Hampshire on an additional 11,146 acres. These 
initial acquisitions will conserve 45 percent of the land targeted in 
the Androscoggin Headwaters. I am thankful that these projects were 
recognized in the fiscal year 2011 President's Budget request. The 
request includes the full amount in FLP and $2 million in LWCF. 
However, an appropriation of $4.5 million is needed from LWCF this year 
to complete this phase.
    Supporting the Androscoggin Headwaters Conservation Project is a 
good fit for the NH Fish and Game Department. Our mission states that 
as guardian of New Hampshire's fish, wildlife and marine resources, we 
work in partnership with the public, nongovernmental organizations and 
other agencies to conserve, manage and protect these resources and 
their habitats, to inform the public about these resources, and to 
provide opportunities for the public to use and appreciate these 
resources. The project implements strategies identified in our NH 
Wildlife Action Plan that will conserve habitats and species of 
greatest conservation need. It also advances the objectives of NH's 
Forest Resource Plan, and its strategies promoting forest stewardship 
and sustainable forest economies. The project directly contributes to 
the priorities of the New England Governors, who at their September 
2009 conference passed a resolution establishing a New England Forest 
Initiative to ``Keep Forests as Forests''. The project is a signature 
effort of the Mahoosuc Initiative, a coalition of local, regional, and 
national nonprofits that have formed an alliance to promote land 
conservation; tourism and forestry-related economic development; and 
enhanced quality of life for residents in the region. The Eastern Brook 
Trout Joint Venture has also offered their support for the Androscoggin 
Headwaters Project.
    Covering 31,300 acres of remote forests, streams, and ponds, the 
Androscoggin Headwaters property is one of the largest unprotected 
ownerships remaining in the state of New Hampshire. The property is 
located at the headwaters of the Androscoggin River adjacent to Umbagog 
National Wildlife Refuge, and features a variety of wildlife and 
fisheries resources that are of regional and national significance. The 
property is an important source of forest products and jobs for the 
region's timber economy, and is a popular destination for hunting, 
fishing, snowmobiling, and other outdoor pursuits. The Trust for Public 
Land (TPL) is working with the landowner, New Hampshire Fish and Game, 
the New Hampshire Forest Legacy Program, and the Umbagog National 
Wildlife Refuge to bring the most critical wildlife habitat into public 
ownership while retaining the balance of the property in private 
ownership subject to a state-held Forest Legacy conservation easement.
    Situated at the southern range of the boreal forest zone and near 
the northern range of the deciduous zone, the region provides habitat 
for species of both forest types, many of which are identified as 
priority species in the New Hampshire State Wildlife Action Plan. The 
Umbagog Refuge encircles much of Lake Umbagog, with 8,700 acres of open 
water, many miles of shoreline, protected coves and backwaters, and 
extensive and diverse wetland complexes. The Refuge protects unique 
habitat for many wetland-dependent and migratory species, including 
bald eagle, Canada warbler, wood thrush, and American black duck; as 
well as many species of state concern, including common loon, northern 
harrier, American woodcock, and others. For the common loon and osprey, 
Lake Umbagog is considered the best breeding habitat in New Hampshire. 
Lake Umbagog and its associated wetlands have been listed by both Maine 
and New Hampshire as a priority site under the Atlantic Coast Joint 
Venture of the North American Waterfowl Management Plan. The Refuge 
includes a very large and exemplary native bog community that is 
designated as a National Natural Landmark.
    Located along the border of northern New Hampshire and western 
Maine in the Mahoosuc Mountains, Lake Umbagog is the westernmost link 
in the chain of Rangeley Lakes, famed for their excellent recreational 
opportunities. Kayakers, canoeists, and anglers explore numerous coves 
and bays on Lake Umbagog and dozens of rivers, streams, and smaller 
ponds around the Lake. Hunters, hikers, nature photographers, and 
wildlife watchers all find extensive opportunities in the Refuge and 
the Androscoggin Headwaters property's remote expanses. The region is a 
well-known and sought-after fishing area that offers anglers the 
opportunity to fish for warm water species such as small mouth bass, 
perch, and pickerel in Lake Umbagog and for cold water species, notably 
eastern brook trout, in the feeder streams and surrounding ponds.
Land and Water Conservation Fund Request
    Available for acquisition in fiscal year 2011 is the first phase 
(2,920 acres) of the larger, 31,300 acre five-phase Androscoggin 
Headwaters Conservation Project. At its successful conclusion, this 
project will conserve 15 undeveloped ponds and 38 miles of streams with 
some of the finest cold-water fisheries in the Northeast. This first 
phase and subsequent phases will add a total of 7,450 acres in fee 
ownership to the Umbagog Refuge, currently 21,650 acres. The target 
property lies entirely within the authorized 47,807 acre Refuge 
acquisition boundary. It is also part of a much larger 63,000 acre 
conserved working forest landscape that includes the existing Refuge, a 
community forest owned by the Town of Errol, and Forest Legacy 
conservation easements held by the State.
    The 2,920-acre property contains the first tributary to the 
Androscoggin River after it flows out of its source at Lake Umbagog. 
The property contains Round Pond, Long Pond, Bear Brook Pond and Little 
Bear Brook Pond--all undeveloped ponds that are popular for fishing, 
paddling, and wildlife watching. These water bodies are vulnerable to 
second home development that would severely compromise the wildlife 
habitat quality and the opportunity to continue remote wildlife-
compatible recreation.
    An appropriation of $4.5 million from LWCF will complete the first 
phase of the Androscoggin Headwaters project, allowing the Refuge to 
protect important habitat for Federal trust species and link it to 
other conserved lands. The appropriation will ensure shoreline 
protection, public access for recreation, and wetland habitat 
preservation.
Forest Legacy Program Request
    Available for acquisition in fiscal year 2011 through the Forest 
Legacy Program is an 11,146-acre phase of the Androscoggin Headwaters 
Conservation Project. At its successful conclusion, the project will 
conserve 23,000 acres as privately owned working forest through FLP 
conservation easements held by the State of New Hampshire.
    The Androscoggin Headwaters North parcel, the subject of the 
requested fiscal year 2011 FLP funding, is comprised of upland and 
lowland forest noted for its excellent soils and mix of hardwood and 
softwood stands. This parcel also includes over half a mile of frontage 
on Akers Pond and several popular snowmobile trails that connect Errol, 
New Hampshire to Rangeley, Maine. The required match for the 
appropriated funds will be met through the conservation of an 
additional 938-acre parcel that contains Greenough and Little Greenough 
Ponds, which are two of only three ponds in New Hampshire that sustain 
native, nonstocked eastern brook trout populations. It will be acquired 
in fee utilizing State and private funds, and conveyed to the NH Fish 
and Game Department.
    Northern New Hampshire has relied on forest products as the fuel 
for the region's economic engine for more than 200 years. Traditionally 
that has meant pulp and papermaking. As the northern New England paper 
industry has declined, jobs have been leaving the region. Our northern 
forest, however, is poised for a new source of economic activity. There 
are several proposals for utility-scale biomass energy plants that will 
take wood chips from the region's forests to produce renewable energy. 
In addition to jobs in logging, trucking, and value-added forest 
products, the conservation of this property will support good jobs in 
the tourism industry. Businesses catering to hunters, anglers, 
snowmobilers, kayakers, wildlife viewers, and other outdoor enthusiasts 
will benefit from the guarantee of public access for recreation that 
will be created through the conservation of this large block of 
forestland.
    The property is threatened with significant second home development 
along the waterfront parcels. The remote ponds are scenic, have 
tremendous recreational opportunities, and are highly valued for 
waterfront development of vacation homes. This kind of development 
would seriously undermine habitat for loons and other waterfowl, 
degrade water quality for the wild trout populations, and limit public 
recreational access. The Androscoggin Headwaters conservation strategy 
will protect the entire waterfront.
    The Androscoggin Headwaters Project also will help wildlife adapt 
to the impacts of climate change. At 31,300 acres, the project will 
conserve ecological systems from valley bottom to ridge top. The 
property is located in the northeast corner of New Hampshire close to 
the Mahoosuc Mountains and Rangeley Lakes, a region that is forecast to 
retain consistently cold winters and a deep snow pack under high carbon 
emission scenarios. Numerous species adapted to northern New England's 
long cold winters will find refuge here as suitable habitat to the 
south warms and fragments. Among these are snowshoe hare, American 
marten, three-toed woodpecker, and the Federal threatened/State 
endangered Canada Lynx.
    Protection of the Androscoggin Headwaters property will connect 
large blocks of conservation land, adding to more than 100,000 acres. 
The property's proximity to other conserved lands--including Umbagog 
National Wildlife Refuge, 13-Mile Woods Community Forest, and State 
owned and easement lands around Maine's Richardson Lake, Grafton Notch, 
and Rapid River--will significantly advance the creation of landscape-
scale habitat connectivity in this region.
    An appropriation of $4.1 million from the Forest Legacy Program 
will complete the first easement phase of the Androscoggin Headwaters 
Conservation Project and will ensure continued sustainable forestry, 
public access for recreation, and protect upland and wetland habitats 
recognized as some of the most important in the Eastern United States.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
conservation effort in New Hampshire, and I appreciate your 
consideration of this funding request.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    I am Billy Frank, Jr., chairman of the Northwest Indian Fisheries 
Commission (NWIFC). It is indeed a privilege for me to be among the 
distinguished cadre of Northwest tribal leaders who are also here to 
present the funding requests of their people. Their strong support and 
encouragement gives our organization focus and direction and helps make 
us successful in protecting and enhancing their treaty rights.
    Using the fiscal year 2010 enacted budget as a minimum level of 
need in fiscal year 2011 to maintain current services, I submit the 
following requests:
                     bureau of indian affairs (bia)
    Restore the western Washington fish management and Washington State 
timber-fish-wildlife project to fiscal year-2010 enacted levels of 
$8.532 and $2.736, respectively; increase western Washington fish 
management by $8.614 million beyond the fiscal year 2010 enacted level; 
increase salmon marking by $1.4 million beyond the fiscal year 2010 
enacted level; increase United States-Canada Pacific Salmon Treaty 
implementation by $680,000 beyond fiscal year 2010 enacted level; and 
increase fish hatchery maintenance by $2.142 million beyond the fiscal 
year 2010 enacted level.
                 environmental protection agency (epa)
    Support the Tribal General Assistance Program (GAP) at the $71.4 
million request in the President's budget; support the Multimedia 
Tribal Implementation Grants at the $30 million request in the 
President's budget; support the increase of $2.9 million in tribal 
capacity building which is requested in the President's budget; and 
restore the Puget Sound Geographic Program to the fiscal year 2010 
enacted level of $50 million.
                           regional requests
    We support the budget requests of the Affiliated Tribes of 
Northwest Indians.
                           national requests
    We support the budget requests for the National Congress of 
American Indians.
    On behalf of our 20 member tribes, I am here today to speak to our 
fiscal year 2011 natural resource management funding requests for the 
BIA and the EPA. But before I do that, I must first acknowledge the 
outstanding support this subcommittee has given to us this past year. 
You listened to our story and have helped us greatly with your actions 
that supported our needs. We are also pleased that the fiscal year 2011 
President's budget continues to be supportive of the northwest natural 
resources funding requests and includes many of the subcommittee's 
actions from last year.
 tribes, treaty rights, and trust obligations of the federal government
    Indian tribes have always inhabited the watersheds of western 
Washington, with cultures almost entirely based on harvesting fish, 
wildlife, and other natural resources in the region. In the mid-1850s, 
a series of treaties were negotiated between the Federal Government and 
the tribes in the region. Through the treaties, the tribes gave up most 
of their land, but in so doing reserved certain rights to fish, hunt, 
and gather to protect their way of life.
    The promises of the treaties were quickly broken in the decades 
that followed as the tribes were systematically denied their treaty-
protected rights by the State of Washington. In 1974, the tribes won a 
major victory in United States vs. Washington (Boldt Decision), which 
reaffirmed their treaty-protected fishing rights. The ruling--which has 
been upheld by the U.S. Supreme Court--established the tribes as co-
managers of the resource and determined they were entitled to 50 
percent of the harvestable number of salmon returning to Washington 
State waters. More recent Federal court rulings and solicitor opinions 
upholding treaty-reserved rights have further expanded the role and 
responsibilities of the tribes as natural resource managers. Those 
rulings, combined with the interconnectedness of all natural resources, 
mean that tribal participation is essential in nearly all aspects of 
natural resource management in the region.
    The tribes from the Pacific Northwest have stepped forward and have 
embraced co-management. Today, the tribes have developed sophisticated 
programs designed to protect and enhance their treaty rights. Tribal 
programs, based on deep cultural and philosophical underpinnings, have 
served as the backbone of salmon recovery, providing the technical, 
policy, and legal framework for this incredibly difficult task. Tribes 
perform complicated harvest, hatchery, and habitat management tasks 
that neither the State nor the Federal Government can effectively carry 
out. Tribal programs, largely funded by the BIA, serve as a de facto 
arm of the Federal Government as it labors to uphold its trust 
obligations to the tribal people. It is because of the role that tribes 
play in protecting their rights that they require adequate, long-term, 
and stable funding. This subcommittee has heard this plea and has been 
a valuable partner in this effort.
                    requests justification narrative
BIA
    Restore the western Washington fish management and Washington State 
timber-fish-wildlife project to fiscal year 2010 enacted levels
    Congress increased the rights protection implementation subactivity 
in fiscal year 2010 by $12 million. This increase was allocated to all 
line items within this program element, restoring the pacific salmon 
treaty implementation, Washington State timber-fish-wildlife project, 
and salmon marking to previously funded levels. Additional monies were 
added to the western Washington fish management program bringing this 
account to $8.532 million.
    However, the President's budget did not carry forward the entire 
fiscal year 2010 increase. The western Washington fish management and 
the timber-fish-wildlife project were reduced by $434,000 and $139,000, 
respectively. Thus, we request that these accounts be increased to 
maintain the fiscal year 2010 funding level.
            Increase Western Washington Fish Management to $8.614 
                    Million Beyond the Fiscal Year 2010 Enacted Level
    Over the past several years, the tribes and the NWIFC have 
requested an increase of $12 million in the base western Washington 
fisheries management program. Last year, Congress heard our plea and 
increased the National Rights Protection Implementation Fund by $12 
million with $3.386 million of this going to the western Washington 
program. This increase was very much appreciated and will go towards 
meeting many of our needs. However, we once again ask Congress to 
address the remaining identified needs at the NWIFC and our member 
tribes. We request an increase of $8.614 million which is consistent 
with our needs assessment presented last year to this subcommittee.
            Increase Salmon Marking by $1.4 Million Beyond the Fiscal 
                    Year 2010 Enacted Level
    The salmon marking line item was funded at $1 million by the fiscal 
year 2010 increase in rights protection implementation. These funds are 
used to mark salmon at tribal hatcheries and to use these marked fish 
to scientifically monitor salmon populations and watersheds in western 
Washington, pursuant to the Federal requirement to mass mark pacific 
salmon reared in facilities funded by Federal dollars. Plans to 
implement more extensive selective fisheries targeted at these marked 
fish require an additional $1.4 million to implement.
            Increase U.S.-Pacific Salmon Treaty Implementation By 
                    $680,000 Beyond the Fiscal Year 2010 Enacted Level
    The Pacific Salmon Treaty Act of 1985, Public Law 99-5, charges the 
United States section of the Pacific Salmon Commission with the 
responsibility for implementation of the Pacific Salmon Treaty, a 
bilateral treaty with Canada. Responsibility for funding Treaty related 
programs rests with the United States Government. We support the U.S. 
section's recommendation to fund the Department of the Interior, BIA at 
$4.8 million, an increase of $680,000 from the fiscal year 2010 enacted 
level.
            Increase Fish Hatchery Maintenance by $2.142 Million Beyond 
                    the Fiscal Year 2010 Enacted Level
    Tribal fish hatcheries in western Washington are part of the 
largest fish hatchery system in the world. Tribal hatcheries produce 50 
percent of the coho salmon and 33 percent of the Chinook salmon in 
Puget Sound and the coast of Washington. These hatcheries provide fish 
that significantly contribute to both non-Indian recreational and 
commercial harvest, as well as for tribal fisheries. Today, hatcheries 
also play a large role in recovering pacific salmon, many of whom are 
listed under the Endangered Species Act.
    A comprehensive needs assessment study was conducted in fiscal year 
2006 by the BIA at the request of Congress which identified a level of 
need more than $48 million in necessary hatchery maintenance and 
rehabilitation costs. Last year the BIA fish hatchery maintenance 
budget was increased to $2.852 million. We support this increase and 
ask that this account be increased a further $2.142 million to total $5 
million.
                                  epa
GAP
    We support full funding of the EPA GAP at the $71.4 million amount 
requested in the President's budget. This funding has built essential 
tribal capacities and remains critical to the tribes' ability to 
sustain their important water quality programs. We support the increase 
of $8.5 million which is included in the President's budget.
Multimedia Tribal Implementation Grants
    We support $30 million for the Multimedia Tribal Implementation 
Grant program funding, which is included in the President's budget. 
This program will allow the EPA to provide targeted multimedia (cross 
discipline) grants to tribes for implementation of Federal 
environmental programs. This program logically follows the capacity 
building function under the tribal GAP, as noted above.
    This program is a substantial investment from within the EPA and 
will continue to build a firm foundation for environmental protection. 
Tribes in western Washington are ready to partner with EPA to begin 
this implementation program.
Tribal Capacity Building
    Additional funds are needed within the agency to effectively manage 
the new Multimedia Tribal Implementation Grants Program. An additional 
$2.9 million will support new positions to oversee, provide guidance 
and ensure accountability to the grant program and ongoing tribal GAP 
work. This capacity will also provide direct technical assistance to 
tribes. We support this additional funding included in the President's 
budget.
Puget Sound Geographic Program
    Marine resources are very important to our member tribes. The Puget 
Sound Geographic Program provides essential funding that will help 
protect, restore and enhance Puget Sound. We support restoring this 
program to the $50 million amount enacted in fiscal year 2010. With 
this level of funding, collaborative work can continue on key marine 
issues, salmon recovery, land-use management, and regulatory changes.
    Tribes will seek funding from this EPA account, in coordination 
with the Puget Sound Partnership. Such funding will allow the tribes to 
participate in the necessary scientific work, implementation measures, 
and policy discussions on issues that affect our treaty rights.
                               conclusion
    Mr. Chairman, and members of the subcommittee, we know that it is 
difficult to allocate scarce Federal funds. However, we believe that 
the management work that we perform to protect our valuable resources 
and to help fulfill the trust obligation of the Federal Government 
continues to be worthy of your support. Thank you.
                                 ______
                                 
          Prepared Statement of the New Jersey Audubon Society
    Funding requests:
  --Cape May National Wildlife Refuge--Hanson Aggregates Property.--
        $2,000,000
  --Edwin B. Forsythe National Wildlife Refuge--Great Creek Road 
        Parcel.--$1,375,000, and West Creek Parcel: $350,000
  --Wallkill River National Wildlife Refuge--Kenely Property.--
        $1,750,000; and
  --Great Swamp National Wildlife Refuge--Great Brook.--$1,100,000.
    We, the 48 undersigned organizations, respectfully urge you to 
support funding for land acquisition projects at New Jersey's National 
Wildlife Refuges and to ask the Interior, Environment, and Related 
Agencies Appropriations Subcommittee to provide that funding under the 
Land and Water Conservation Fund program in fiscal year 2011. Please 
help us preserve our national heritage by strengthening the refuge 
system in our State.
    Fulfilling the following requests is critical to protecting our 
State's rich biodiversity, safeguarding our natural resources and 
increasing recreational opportunities for our citizens. These requests 
are listed as top priorities; as more funding becomes available, we 
support increased appropriations for the five National Wildlife 
Refuges.
    Cape May National Wildlife Refuge.--$2,000,000 for assistance in 
the acquisition of 620-acre Hanson Aggregates property, which contains 
rare plant communities and numerous endangered and threatened bird and 
amphibian species. Purchase of the property will also help protect area 
water supply.
    Edwin B. Forsythe National Wildlife Refuge.--$1,375,000 for the 
acquisition of the 139-acre Great Creek Road Parcel, and $350,000 for 
the acquisition of the 79-acre West Creek Parcel. These parcels provide 
critical habitat for bird species along the Atlantic Flyway, and help 
maintain the integrity of the watershed.
    Wallkill River National Wildlife Refuge.--$1,750,000 for 
acquisition of a 165-acre Kenely Property, a diverse mix of habitats 
for diverse wildlife including threatened and endangered species. 
Conservation of this property would also contribute to the water 
quality of the Wallkill River.
    Great Swamp National Wildlife Refuge.--$1,100,000 to complete the 
acquisition of an 18-acre parcel known as Great Brook, which provides 
critical habitat for endangered Indiana bats and numerous other rare 
species as well as office space for U.S. Fish and Wildlife Service 
employees.
    Investing in New Jersey's refuges provides significant economic and 
quality of life benefits to our citizens. These investments protect and 
enhance New Jersey's $4 billion wildlife-related recreation industry. 
Each year, fishing, hunting, and wildlife-watching activities create 
more than 37,000 jobs and generate more than $150 million in sales tax 
revenue. Our refuges also provide natural ecosystem services that help 
purify our State's air and water supply and protect human health.
    We must take action now to protect the remaining natural areas 
surrounding our refuges. New Jersey's open space and undeveloped land 
is disappearing at an alarming rate. For this reason, we respectfully 
ask you to encourage the Interior, Environment, and Related Agencies 
Appropriations Subcommittee to appropriate funding for these vital 
refuge land acquisition projects before it is too late. Thank you for 
your consideration.
                       undersigned organizations
    New Jersey Audubon Society; Appalachian Mountain Club; Association 
of New Jersey Environmental Commissions (ANJEC); Bergen County Audubon 
Society; Bergen SWAN (Save the Watershed Action Network); The 
Conservation Fund; Citizens United to Protect the Maurice River and Its 
Tributaries, Inc.; Conserve Wildlife Foundation of New Jersey; D & R 
Canal Watch; Delaware River Greenway Partnership.
    Delaware Riverkeeper; Edison Wetlands; Doug O'Malley, Field 
Director, Environment New Jersey; Food & Water Watch; Friends of Sparta 
Mountain; Friends of the Cape May National Wildlife Refuge; Friends of 
Edwin B. Forsythe National Wildlife Refuge; Friends of the Great Swamp 
National Wildlife Refuge; Friends of the Supawna Meadows National 
Wildlife Refuge; Friends of the Wallkill River National Wildlife 
Refuge.
    Fyke Nature Association; Great Egg Harbor Watershed Association; 
Great Swamp Watershed Association; Hackensack Riverkeeper; Hunterdon 
Land Trust Alliance; Kingston Greenways; The Land Conservancy of New 
Jersey; Michael Catania, President of Conservation Resources, Inc.; 
Monmouth Conservation Foundation; Musconetcong Mountain Conservancy.
    Musconetcong Watershed Association; New Jersey Conservation 
Foundation; New Jersey Environmental Lobby; New Jersey Highlands 
Coalition; New Jersey State Council--Trout Unlimited; New Jersey State 
Federation of Sportsmens Clubs; New York-New Jersey Trail Conference; 
Deborah Mans, Executive Director, NY/NY Baykeeper; Passaic River 
Coalition; Pinelands Preservation Alliance.
    Project HEAL at Camp Creek Run; Rancocas Conservancy; Save Barnegat 
Bay; Schiff Natural Lands Trust; South Branch Watershed Association; 
Anthony Cucchi, New Jersey State Director, The Trust for Public Land; 
Jennifer Coffey, Policy Director, Stony Brook-Millstone Watershed 
Association; Verona Park Conservancy.
                                 ______
                                 
         Prepared Statement of the National Mining Association
Department of the Interior (DOI)
    U.S. Geological Survey (USGS)--Mineral Resources Program (MRP).--
Fund the MRP at least $24 million and reject any proposed cuts to the 
Minerals Information Team.
    Bureau of Land Management (BLM)--Mining Law Administration.--
Increase funding for the mining law administration program to $38 
million.
    Office of Surface Mining.--Reverse the administration's 15 percent 
cut to state Surface Mining Control and SMCRA regulatory title V 
programs.
Environmental Protection Agency (EPA)
    NMA opposes EPA's use of the fiscal year 2011 budget to finalize 
greenhouse gas regulations for motor vehicles and proposing and 
finalizing specific sources standards for all sources of greenhouse gas 
emissions.
    Superfund Taxes.--NMA opposes reinstating the long-expired 
corporate environmental income tax and the revival of the excise tax on 
domestic crude oil, imported petroleum products and certain chemicals.
DOI
            Mineral Resources Program--Minerals Information Team
    The United States Geological Survey (USGS) is the source for the 
majority of the United States' statistical data on mining and mineral 
commodities. The collection, analysis and dissemination of this 
information is a Federal responsibility that cannot be duplicated in 
either the private sector or by other levels of government and is in 
fact mandated by the Defense Production Act of 1950, as amended in 1980 
and 1992. The Mineral Resource Program's Mineral Information Team (MIT) 
within the USGS is the leading source of unbiased research on the 
Nation's mineral resources. The guidance and research the program 
provides is vital in maintaining the growing value of processed 
materials from mineral resources that accounted for $454 billion in the 
U.S. economy in 2009, as well as assessing the environmental impacts of 
mining. The statistical and analytical information provided by the 
Mineral Resource Program MIT provides the basis for informed policy 
decisions and is extensively used by Government agencies, members of 
Congress, State and local governments, as well as industry, academia 
and nongovernmental organizations. Collection of this information 
provides a fundamental service to the Nation. Specifically, the U.S. 
Federal Reserve Board uses the data for calculating the Nation's 
leading economic indicators; the U.S. Department of Commerce's Bureau 
of Industry and Security uses the data and analysis to resolve trade 
disputes; the Federal Reserve Board uses global minerals information to 
prepare economic forecasts; and U.S. intelligence agencies use the data 
to understand the effect changes in natural resource markets have on 
economic and political stability of developing countries. Mineral 
resource supply and demand issues are global in nature, and our nation 
is becoming more dependent upon foreign sources to meet our metals and 
minerals requirements. For example, the United States has become more 
than 50 percent reliant on 38 of the 81 mineral commodities essential 
to the economy and 100 percent reliant on 19 of those commodities.
    In real terms, the MIT has been severely constrained by an ever 
decreasing budget (a more than 30 percent decline) since 1996 when the 
mineral assessment group was incorporated in to the USGS. In order to 
restore its budget to levels intended when the group was moved to the 
USGS more than a decade ago, the Mineral Resource Program's MIT would 
need to be funded at $24 million. NMA encourages full funding for this 
important program.
            Mining Law Administration Program
    The Bureau of Land Management's (BLM) Mining Law Administration 
Program (MLAP) is facing ever-growing responsibilities and obligations 
to process notices and plans of operations necessary for domestic 
exploration and mining projects. While NMA supports the 
administration's request for $36 million in funding, we feel that 
additional funding is imperative to lessen the backlog of notices and 
plans of operations. NMA recognizes and appreciates that the 
subcommittee increased MLAP funding in fiscal year 2010 and encourages 
them to further increase the MLAP by an additional $2 million in fiscal 
year 2011.
    The number of mining claims filed over the past several years has 
increased by more than 600 percent. In 2002, only 15,407 new mining 
claims were filed as compared to 92,284 in 2007. During the same 
timeframe, the number of full time equivalent (FTE) employees assigned 
to the program fell from 359 to 298. Additional staffing and other 
resources are necessary in order to process the notices and plans of 
operations required for expanding our domestic mineral supplies. Delays 
in obtaining permits and other authorizations remains a substantial 
impediment to the financing and development of mining projects in the 
United States. According to Behre Dolbear, the United States ranks 
among the lowest of the top 25 mining nations in terms of time and 
expense for obtaining required permits for mineral exploration and 
development. Permitting delays discourage companies from exploring in 
the United States and impair the ability to attract the capital 
investment required for mine development. In short, investment capital 
flows to where investors will experience a quicker return on their 
investment.
    In a 2005 report to Congress, BLM identified insufficient staffing 
as one cause of permitting delays, noting that many BLM offices were 
not backfilling positions as they were vacated. BLM recommended that a 
portion of the increased location and maintenance fees could be used to 
maintain adequate staffing levels needed to review, analyze and approve 
plans of operations. NMA agrees that the increased location and 
maintenance fees should be used to address MLAP budget needs.
    To address this regulatory bottleneck that impairs our Nation's 
economic growth and security, NMA provides the following 
recommendation: a portion of the location and maintenance fees 
collected that exceed the MLAP budget should be dedicated to the MLAP 
instead of being deposited to the General Fund. In 2007, the amount 
collected from such fees exceeded the budgeted amount by more than $24 
million. Such funds would allow the hiring by BLM state offices of 
approximately 100 FTEs to allow either backfilling of currently vacated 
positions or new hires. Additionally, allocation of funds to the state 
offices should be prioritized based on the number of notices and plans 
filed in each office and current unfilled openings in MLAP.
            Office of Surface Mining State regulation and abandoned 
                    mine land program
    NMA objects to the administration's proposed cuts in funding for 
state programs under title V of SMCRA to regulate, inspect and issue 
permits for surface coal mining operations in primacy states.
Environmental Protection Agency (EPA)
    NMA opposes the fiscal year 2011 budget request as it pertains to 
EPA's usurping the power of Congress to address Greenhouse Gas 
Emissions (GHGs) under the existing Clean Air Act (CAA). While we are 
committed to playing a constructive role in the development and 
adoption of policy measures and technologies to address global climate 
change concerns, we believe those policy decisions fall within the 
purview of our elected representatives in Congress and not EPA.
    EPA should not be able to utilize fiscal year 2011 funds to conduct 
rulemakings that stem from EPA's December 15, 2009 Endangerment and 
Cause or Contribute Findings for Greenhouse Gases Under section 202(a) 
of the Clean Air Act The finding automatically triggers requirements 
for all sectors of the economy under the CAA's Prevention of 
Significant Deterioration (PSD) permitting program. As such, the legal 
and regulatory implications of the endangerment finding and a final 
motor vehicle rule extend far beyond the motor vehicle sector. At the 
time the motor vehicle regulations become effective, PSD and title V 
permitting requirements will automatically be triggered for major 
stationary sources of GHG emissions. Also, entities contemplating 
construction of new sources or modifications to existing sources that 
will be required to analyze and install undefined Best Available 
Control Technology (BACT) to limit those emissions.
    EPA should not be able to use fiscal year 2011 for such rulemakings 
as: finalizing GHG regulations for motor vehicles; or proposing and 
finalizing specific sources standards for all sources of greenhouse gas 
emissions.
            Superfund Taxes
    NMA opposes reinstating the long-expired corporate environmental 
income tax and revival of the excise tax on domestic crude oil, 
imported petroleum products and certain chemicals.
    Superfund taxes were originally enacted under the ``polluter pays'' 
principle. However, companies that formerly paid the taxes continue to 
fund the cleanup of most of the sites on the National Priorities List 
(NPL). The only NPL cleanups that EPA actually pays for are those with 
no viable potentially responsible parties (i.e., orphan sites). 
Instead, the Superfund should run on appropriations from general 
revenues. Superfund taxes have never controlled or determined the 
amount of EPA spending for the Superfund program. The total amount of 
EPA spending for the Superfund program is determined by Congress each 
year through the appropriations process. The majority of funds 
appropriated for the Superfund cleanup program are not being spent on 
cleaning up NPL sites.
    The National Mining Association (NMA) is the voice of the American 
mining industry in Washington, D.C. membership includes more than 325 
corporations involved in all aspects of coal and solid minerals 
production including coal, metal and industrial mineral producers, 
mineral processors, equipment manufacturers, State mining associations, 
bulk transporters, engineering firms, consultants, financial 
institutions, and other companies that supply goods and services to the 
mining industry.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission
    This statement is submitted in support of fiscal year 2011 
appropriations for Colorado River Basin salinity control activities of 
the Bureau of Land Management. I urge that at least $5,200,000 be 
appropriated for the Bureau of Land Management within the Soil, Water, 
and Air Management Subactivity for activities that help control 
salinity in the Colorado River Basin, and of that amount, $1,500,000 be 
marked specifically for identified salinity control related projects 
and studies.
    The Colorado River Basin Salinity Control Forum (Forum) is 
comprised of representatives of the seven Colorado River Basin States 
appointed by the respective governors of the States. The Forum has 
examined the features needed to control the salinity of the Colorado 
River. These include activities by the States, the Bureau of 
Reclamation, the Department of Agriculture, and the Bureau of Land 
Management (BLM). The Salinity Control Program has been adopted by the 
seven Colorado River Basin States and approved by the Environmental 
Protection Agency as a part of each State's water quality standards. 
Also, Minute 242 of the International Boundary and Water Commission 
sets limits on the salinity of the water delivered to Mexico in the 
Colorado River.
    About 75 percent of the land in the Colorado River Basin is owned, 
administered or held in trust by the Federal Government. The BLM is the 
largest land manager in the Colorado River Basin, and manages public 
lands that are heavily laden with salt. When salt-laden soils erode, 
the salts dissolve and enter the river system, affecting the quality of 
water used from the Colorado River by the Lower Basin States and 
Mexico. The BLM needs to target the expenditure of at least $5.2 
million for activities in fiscal year 2011 that benefit salinity 
control in the Colorado River Basin. In addition, the BLM needs to 
target the expenditure of $1,500,000 of the $5.2 million specifically 
for identified salinity control projects and technical investigations. 
Experience in past years has shown that BLM projects are among the most 
cost-effective of the salinity control projects.
    As one of the five principal Soil, Water and Air Management program 
activities, BLM needs to specifically target $5.2 million to activities 
that benefit the control of salinity on lands of the Colorado River 
Basin. In the past, BLM has allocated $800,000 of the Soil Water and 
Air Management appropriation for funding specific project proposals 
submitted by BLM staff to the BLM salinity control coordinator. The 
recently released annual report of the Federal chartered Colorado River 
Basin Salinity Control Advisory Council reports that BLM has identified 
projects that could utilize funding in the amount of $1.5 million for 
fiscal year 2011. Consequently, I request that $1.5 million of the 
Soil, Water and Air Management Subactivity be marked specifically for 
these identified Colorado River Basin salinity control activities.
    I believe and support past Federal legislation that declared that 
the Federal Government has a major and important responsibility with 
respect to controlling salt discharge from public lands. Congress has 
charged the Federal agencies to proceed with programs to control the 
salinity of the Colorado River Basin with a strong mandate to seek out 
the most cost-effective solutions. The BLM's rangeland improvement 
programs can lead to some of the most cost-effective salinity control 
measures available. In addition, these programs are environmentally 
acceptable and control erosion, increase grazing opportunities, produce 
dependable stream run-off and enhance wildlife habitat.
    The water quality standards adopted by the Colorado River Basin 
States contain a plan of implementation that includes BLM participation 
to implement cost effective measures of salinity control. BLM 
participation in the salinity control program is critical and essential 
to actively pursue the identification, implementation and 
quantification of cost effective salinity control measures on public 
lands.
    Bureau of Reclamation studies show that quantified damages from 
Colorado River salinity to United States water users are about $350 
million per year. Unquantified damages increase the total damages 
significantly. For every increase of 30 milligrams per liter in 
salinity concentration in the waters of the Colorado River, an increase 
in damages of $75 million is experienced by the water users of the 
Colorado River Basin in the United States. Control of salinity is 
necessary for the Basin States, including New Mexico, to continue to 
develop their compact-apportioned waters of the Colorado River. The 
Basin States are proceeding with an independent program to control salt 
discharges to the Colorado River, in addition to up-front cost sharing 
with Bureau of Reclamation and Department of Agriculture salinity 
control programs. It is vitally important that the BLM pursue salinity 
control projects within its jurisdiction to maintain the cost 
effectiveness of the program and the timely implementation of salinity 
control projects that will help avoid unnecessary damages in the United 
States and Mexico.
    At the urging of the Basin States, the BLM has created a full time 
position to coordinate its activities among the BLM State offices and 
other Federal agencies involved in implementation of the salinity 
control program. The BLM's Budget Justification documents have stated 
that BLM continues to implement on-the-ground projects, evaluate 
progress in cooperation with the U.S. Bureau of Reclamation and the 
U.S. Department of Agriculture, and report salt retention measures to 
implement and maintain salinity control measures of the Federal 
salinity control program in the Colorado River Basin. The BLM is to be 
commended for its commitment to cooperate and coordinate with the Basin 
States and other Federal agencies. The Basin States and I are pleased 
with the BLM administration's responsiveness in addressing the need for 
renewed emphasis on its efforts to control salinity sources and to 
comply with BLM responsibilities pursuant to the Colorado River Basin 
Salinity Control Act, as amended.
    I request the appropriation of at least $5.2 million in fiscal year 
2011 for Colorado River salinity control activities of the BLM within 
the Soil, Water, and Air Management Subactivity, and that $1,500,000 of 
that amount be marked specifically for identified salinity control 
related projects and studies. I appreciate consideration of these 
requests. I fully support the statement of the Colorado River Basin 
Salinity Control Forum submitted by Jack Barnett, the Forum's Executive 
Director, in request of appropriations for BLM for Colorado River 
salinity control activities.
                                 ______
                                 
        Prepared Statement of the New Mexico Wildlife Federation
    Madam Chairman and honorable members of the subcommittee: My name 
is Alan Hamilton and I am the Conservation Director for the New Mexico 
Wildlife Federation. I appreciate the opportunity to present this 
testimony on behalf of our organization in support of two important 
land conservation projects in New Mexico. Founded in 1914 by Aldo 
Leopold and other conservation-minded sportsman, the New Mexico 
Wildlife Federation is New Mexico's oldest conservation organization 
dedicated to protecting New Mexico's wildlife, habitat and outdoor way 
of life. Presently the New Mexico Wildlife Federation is honored to 
represent about 8,000 sportsmen and women throughout the State.
    The first project is the Forest Service acquisition of the 1,500-
acre first phase of the nearly 5,000-acre Miranda Canyon property. An 
appropriation of $4 million is needed in fiscal year 2011 from the Land 
and Water Conservation Fund in order to protect this land in the Carson 
National Forest. The second project is the 6,250-acre second phase of 
the 11,699-acre Vallecitos High Country project. An Appropriation of 
$3.375 million is needed from the Forest Legacy Program to protect this 
extraordinary land.
Carson National Forest
    Some of the finest mountain scenery in the Southwest is found in 
the 1.5 million-acre Carson National Forest. Elevations rise from 6,000 
to 13,161 feet at Wheeler Peak in the Sangre de Cristo Mountains, the 
highest peak in New Mexico. The scenery varies from high desert scrub 
and red soil to spruce and fir filled mountainsides and wildflower 
meadows. In addition to the various landscapes, there are also many 
recreational opportunities in the forest. The magnificent mountain 
scenery and cool summer temperatures lure visitors to enjoy fishing, 
hunting, camping and hiking. Winter activities include skiing, 
snowshoeing and snowmobiling. There are 330 miles of trails for hiking, 
horseback riding, mountain biking, and 4-wheel drive exploring. For the 
backcountry enthusiast, there are 86,193 acres of wilderness in the 
forest that have been virtually undisturbed, where travel is restricted 
to foot or horseback.
    There are many species of animals in the Carson National Forest 
including mule deer, elk, antelope, black bear, and bighorn sheep along 
with many species of songbirds and a wonderful display of wildflowers. 
The forest has 400 miles of clean mountain streams and many lakes that 
offer outstanding trout fishing including rainbow, eastern brook, 
German brown and cutthroat trout. Available for acquisition as part of 
the Carson National Forest is the 4,990-acre Miranda Canyon Property 
located just 10 miles south of Taos. The property is adjacent to the 
Carson National Forest and ranges in elevation from 7,200 feet to 
10,801 feet. The property has various vegetative types from low 
elevation sagebrush and pinon juniper to high elevation mixed conifer 
forest containing large aspen stands. There are also numerous meadows 
and riparian vegetation that provide excellent habitat for wildlife.
    The landscape has numerous ridges and peaks that provide 
breathtaking views of the Rio Grande Gorge to the west and of Wheeler 
Peak, the highest peak in New Mexico, to the north. Picuris Peak is 
located on the property along a popular hiking route. The property also 
contains historical features such as the Old Spanish National Historic 
Trail, a route that dates back to the 1600s when the Spanish made their 
way to northern New Mexico and established the first capital city near 
San Juan Pueblo. Other geological features on the property include a 
unique small volcano and 1.7 billion-year-old rock outcrops that rival 
the age of rock found at the bottom of the Grand Canyon.
    The landowner of the Miranda Canyon property is currently reviewing 
various development options for this scenic property after a recent 
attempt to subdivide the property into 150 lots. If subdivided and 
developed, tremendous recreational, scenic, and ecological resources 
would be diminished or lost forever. However, there is an immediate 
opportunity to protect this land for conservation, which would provide 
additional recreational opportunities for hunting, sightseeing, 
camping, hiking, interpretation, and horseback riding for the public.
    In fiscal year 2011, the Miranda Canyon property is available for 
acquisition by the Carson National Forest through the Land and Water 
Conservation Fund. An appropriation of $4 million is needed this year 
to begin the acquisition of this property, which will conserve and 
enhance the area's scenic, recreation, historic, and natural resources.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds, improving wildfire management, and assisting the 
adaptation of wildlife and fisheries to climate change. For all these 
reasons, the President has included meaningful increases to the program 
in his fiscal year 2011 budget, and I support the administration's 
commitment to fully funding the program in the near future. Recognizing 
the many demands this committee faces, I also want to thank the 
committee for its recent effort to restore much-needed funding to this 
depleted program. This wise investment in the Land and Water 
Conservation Fund is one that will permanently pay dividends to the 
American people and to our great natural and historical heritage.
Vallecitos High County
    The New Mexico Forest Legacy Program is devoted to the protection 
and management of environmentally important forest areas that are 
threatened by conversion to non-forest uses. In addition, the program 
gives priority to private forested lands which protect and enhance 
watershed and water quality, maintain and restore riparian areas, 
protect important wildlife habitats, and contribute to the cultural and 
economic vitality of rural communities.
    In fiscal year 2011, the State of New Mexico's top priority for 
Forest Legacy Program funding is a phase II conservation easement on 
6,250 acres of the Vallecitos High Country property, continuing a 
protection effort that began in 2008. The property, located within the 
Rio Vallecitos watershed in Rio Arriba County, is an 11,699-acre parcel 
of mixed conifer, aspen, and spruce-fir forests interspersed with 
mountain meadows and creeks. It adjoins the Carson National Forest on 
three sides and is visible from the Continental Divide Trail. The Rio 
Vallecitos, an important cold-water fishery, is managed by the U.S. 
Forest Service as a Wild and Scenic River. It provides irrigation and 
municipal water to the downstream villages of Vallecitos and La Madera. 
The property boasts critical wildlife habitat that includes old growth 
forest, wet meadows, and clear creeks. The wide diversity of wildlife 
on the property includes several threatened and endangered species. In 
addition, several miles of riparian woodlands, considered relatively 
rare in New Mexico, are found along the Rio Vallecitos, Jarosa Creek, 
and North Creek. The Rio Vallecitos runs five miles across the property 
near the national forest boundary, and another 12 miles of tributary 
creeks on the property feed into this important riparian corridor.
    The old-growth mixed conifer and spruce-fir forests on the 
Vallecitos High Country property provide suitable habitat for the 
federal-threatened Mexican spotted owl and the State-threatened boreal 
owl and pine marten. The property also provides important habitat 
forperegrine falcon, bald eagle, northern goshawk, and king fisher. 
Since it is a large forested property, it is capable of supporting 
populations of territorial wildlife species with large home ranges such 
as black bear, mountain lion, bobcat, turkey, and birds of prey. The 
property is within an area classified as a major wildlife dispersal 
corridor by the Southern Rockies Ecosystem Project, which strives to 
maintain a network of undeveloped habitats and migratory pathways in 
the region. The wet meadows and beaver ponds on the property are 
suitable reintroduction sites for the extirpated boreal toad. This 
state endangered amphibian may still exist as an undiscovered remnant 
population on the property. Recognizing these critical habitat lands, 
the landowner has been working with the New Mexico Department Game and 
Fish to protect the boreal toad habitat.
    Due to its spectacular views and abundant fishing and hunting 
opportunities, the Vallecitos High Country property is highly 
threatened by the development of seasonal homes. Protection of this 
property will expand New Mexico's protection of high-quality watersheds 
and forests by complementing a completed Forest Legacy Program easement 
on the Vallecitos Mountain Refuge property along the Rio Vallecitos 
only 2 miles downstream. It will also protect the scenic integrity of 
the area, as the property is visible from a new segment of the 
Continental Divide Trail and is part of the viewshed from the Rio 
Vallecitos Canyon.
    In fiscal year 2008, a total of $1.195 million was secured from the 
Forest Legacy Program to help protect 2,213 acres of the forested 
11,699-acre Vallecitos High Country property. In fiscal year 2011, 
$3.375 million is needed for the second phase to place a conservation 
easement on another 6,250 acres. These Federal funds will be matched by 
a 25 percent land value donation from the landowner. Partners in this 
project are the New Mexico Department of Game and Fish, New Mexico 
Forestry Division, the Carson National Forest, Forest Trust, Rio Chama 
Watershed Group, Southern Rockies Ecosystem Project, and Vallecitos 
Mountain Refuge.
    Please do all that you can to ensure that this worthwhile program 
is funded adequately in fiscal year 2011 and that the Vallecitos High 
Country project receives $3.375 million in fiscal year 2011. I am 
thankful that the fiscal year 2011 President's budget request included 
$1.925 million for this project. However, the phase can be completed 
this year with an appropriation of $3.375 million.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of these nationally important 
protection efforts in New Mexico, and I appreciate your consideration 
of the funding requests.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association
    Thank you Chairman Feinstein, Ranking Member Alexander, and 
honorable members of the subcommittee for this opportunity to submit 
written testimony on the fiscal year 2011 Interior, Environment, and 
Related Agencies appropriations bill.
    The National Recreation and Park Association (NRPA) is a national, 
nonprofit organization with a mission of advancing parks, recreation, 
and environmental conservation efforts that enhance the quality of life 
for all people. There are more than 6,500 parks and recreation agencies 
throughout the country, a majority of which are members of NRPA. 
Through our network of more than 21,000 citizen and professional 
members we represent park and recreation departments in cities, 
counties, townships, special park districts, regional park authorities, 
and citizens concerned with ensuring close-to-home access to parks and 
recreation opportunities in their communities.
    As your subcommittee works to craft the fiscal year 2011 
Appropriations bill, we request that you include $175 million for the 
Land and Water Conservation Fund's (LWCF) State Assistance program.
    NRPA respectfully urges the subcommittee to invest in our local 
communities through park and community infrastructure as our Nation 
perseveres through the present economic challenges. The subcommittee 
has the opportunity to make a worthwhile contribution to the economy 
through not only capital investment infrastructure projects on Federal 
lands, but also investments in close-to-home parks and recreation 
infrastructure near population centers through LWCF State Assistance.
    With more than $12 billion in unmet needs for LWCF State Assistance 
reported by States to the National Park Service (NPS), there is 
undoubtedly need for robust investment. Funding provided through LWCF 
State Assistance not only provides necessary community resources for 
outdoor recreation opportunities, community health resources, and 
environmental stewardship, it also stimulates State and local 
economies, and job creation. In fact, Governor Joe Machin of West 
Virginia notes, ``The Land and Water Conservation Fund grant program is 
one of the best ways we can be involved in the enrichment of West 
Virginia's communities for the future.'' It is obvious that LWCF funds 
are vital to many States and literally determine whether a local, 
regional, or State park is acquired or recreation facilities are 
developed for public use. The need for recreational resources has 
exponentially increased, but agencies are unable to meet the rising 
need.
   lwcf state assistance stimulates jobs creation and local economies
    Close-to-home recreation has become increasingly important as a 
result of the current economic downturn. The National Association of 
State Park Directors reports that America's State park system 
contributes $20 billion to local and State economies. Additionally, The 
Outdoor Industry Association reports that recreation contributes $730 
billion annually to the U.S. economy, supporting 6.5 million jobs 
across the country. The uncertainty that is inherent to our current 
economic environment has resulted in increased use of State and local 
parks and recreational resources further enhancing the economic impact 
of park and recreation agencies.
    LWCF State Assistance projects stimulate local economies by 
creating local jobs, generating visitor tax dollars for local 
economies, and employing full-time and part-time workers. Studies have 
shown that for every $1 million invested in parks and recreation 
infrastructure, at least 20 jobs are created. To demonstrate the job 
creation ability of LWCF State Assistance State and local projects, the 
chart below was created from information received from the Virginia 
State Park Director, and the Arkansas State Outdoor Recreation Liaison 
Officer.

----------------------------------------------------------------------------------------------------------------
                                                                                                   LWCF State
  LWCF State assistance funding recipient              Award date             Jobs created/    assistance amount
                                                                                  saved              awarded
----------------------------------------------------------------------------------------------------------------
VA--Douthat State Park Cabin Project.......  December 3, 2008.............                 80           $163,026
VA--Douthat State Park Campgrounds.........  September 1, 2009............                100           $497,520
AR--Rose City ball field construction and    March 4, 2003................                 30            $75,000
 ADA ac-  cess.
AR--Maumelle ball park development.........  March 17, 2005...............                 75           $200,000
AR--Mena Five Clover-Leaf ball field         July 21, 2005................                 75           $125,000
 development.
----------------------------------------------------------------------------------------------------------------

           lwcf state assistance impact on local communities
    LWCF State Assistance is a matching grant program that requires 
State and local governments to provide 50 percent in non-Federal funds 
for the acquisition, development, and redevelopment of parks and 
recreation resources. As a result of LWCF State Assistance funding, 
more than 41,000 projects have been created in local communities. Since 
its inception in 1965, the program has provided almost $4 billion in 
matching funds to States and local communities in 98 percent of 
American counties. The States, cities, counties, and towns that apply 
for and accept Federal funding from the LWCF State assistance grant 
program agree to match the Federal investment on a dollar-for-dollar 
basis, and often match significantly more than the Federal share.
                             public health
    Congress created the LWCF State Assistance program ``to strengthen 
the health and vitality of the citizens of the United States,'' and 
undoubtedly these projects are playing a critical role in battling our 
Nation's obesity and Type 2 diabetes epidemics. Several medical studies 
have shown that there is a strong correlation between proximity to 
recreational facilities and parks and physical activity. According to 
the Centers of Disease Control and Prevention (CDC), which estimates 65 
percent of adults and 16 percent of children are overweight or obese, 
even small improvements in the lifestyles of Americans would yield 
marked health improvements. In fact, CDC notes that the creation of or 
enhanced access to places for physical activity led to a 25.6 percent 
increase in the percentage of people exercising on three or more days 
per week. Investing in programs such as the LWCF State Assistance 
program would provide a significant return on investment through the 
reduction in healthcare costs.
                         environmental benefits
    The LWCF State Assistance program not only meets important national 
goals and delivers tangible benefits to the American public by 
improving health, providing recreation opportunities to all Americans, 
and improving communities through economic development, it also 
significantly contributes to protecting our environment and promoting 
environmental stewardship. LWCF State Assistance projects have a 
historical record of contributing to reduced and delayed stormwater 
runoff volumes, enhanced groundwater recharge, stormwater pollutant 
reductions, reduced sewer overflow events, increased carbon 
sequestration, urban heat island mitigation and reduced energy demands, 
resulting in improved air quality, increased wildlife habitat, and 
increased land values on the local level.
  lwcf state assistance: addressing national issues on the local level
    The following examples, provided by the NPS, paint a picture of a 
Federal program, diverse in application and addressing national issues 
on the local level:
Focal Points of Close-to-Home Access to Health and the Outdoors in 
        Urban Areas
    In Coeur d'Alene, Idaho, Tubbs Hill Park received critical LWCF 
funding to help acquire and preserve a breathtaking urban forest. 
Today, this 135-acre forest in the middle of the city has a 2.2-mile 
loop trail, spectacular scenic vistas of Lake Coeur d'Alene and 
unparalleled access to close to home recreation in the heart of Coeur 
d'Alene. This park is a hub for community exercise and offered as an 
ideal healthy resource within the city. In this urban park, you 
commonly see osprey, common, and hooded mergansers, bald eagles, as 
well as pied-billed, eared, and western grebes.
Economic Development and Community Benefits of Parks and Access to 
        Recreation
    In Rapid City, South Dakota, a community park was built in a part 
of the community that did not have a public park. With the help of a 
LWCF grant and a matching grant from Rapid City, several developers 
donated money to build this community playground. Since the 
announcement of the park and playground project, three major housing 
developments have emerged in the surrounding neighborhood thereby 
generating additional tax revenue.
Environmental Stewardship and Conservation Projects Leverage Regional 
        Impacts
    In Ashburnham, Massachusetts, the Commonwealth of Massachusetts 
used $450,000 in LWCF funds to leverage an additional $675,000 to 
conserve 460 acres of forest lands along the New Hampshire border. The 
land provides public access for long-distance hiking, links 
conservation lands, protects the water quality of the Millers River, 
and preserves archaeologically sensitive sites once used by the 
``Harvard Shakers.''
    Unfortunately, in recent years funding for LWCF State Assistance 
has been severely diminished leaving communities with lists of unfunded 
projects. However, in the past year we are seeing encouraging signs by 
the Obama administration and Congress that LWCF State Assistance is 
becoming a priority within the Interior budget. With Secretary of the 
Interior Ken Salazar's vision to fully fund LWCF at $900 million by 
2014, it is going to require significant and bold increases between now 
and 2014. With the more than $12 billion in unmet need ready to be 
funded in our State and local communities, we believe our request for 
$175 million for LWCF State Assistance is entirely appropriate. 
Adjusting for inflation, the $144 million that was appropriated to LWCF 
State Assistance in fiscal year 2002 would today be $175 million.
    Madam Chairman and members of the subcommittee, parks and 
recreation agencies are not merely community amenities; they are 
essential services which are necessary for the economic and 
environmental vitality as well as physical wellness of communities 
throughout this country. By providing funding for LWCF which has proven 
itself invaluable to addressing national issues, Congress would be 
investing in the health and well-being of communities across this 
Nation from the standpoint of economic recovery, environmental 
protection, as well as providing safe and affordable places for 
recreation. Because this investment has a positive impact on the 
economy in the areas of job creation local economic stimulation, now is 
the ideal time to invest into this program that has been dismantled 
over the past 8 years. The lack of required Federal operations, 
maintenance, and staff funding of these state and local projects is yet 
another reason why investment is advantageous to American taxpayer.
                                 ______
                                 
        Prepared Statement of the North Shore Sanitary District
    Madame Chairman and members of the subcommittee, thank you for the 
opportunity to discuss a vital project the North Shore Sanitary 
District (NSSD) is attempting to complete--the repair of the Waukegan 
Sewage Treatment Plant's Final Effluent Forcemain. Senator Burris has 
lent his support to our effort by requesting an appropriation for 
fiscal year 2011 of $4,974,000 from the EPA's State and Tribal 
Assistance Grant program.
    Before discussing this project in detail, I would like to tell you 
about the mission of the NSSD. The NSSD works diligently to safeguard 
Lake Michigan and other local waterways, such as the Skokie and Des 
Plaines rivers, from pollutants while providing wastewater treatment 
service to approximately 315,000 residents in eastern Lake County, 
Illinois. The NSSD is the second largest wastewater agency in the State 
of Illinois, serving the communities of: Winthrop Harbor; Zion; Beach 
Park; Waukegan; Gurnee; Grayslake; Park City; North Chicago; Green 
Oaks; Lake Bluff, Lake Forest; Highwood; Highland Park; Bannockburn; 
and Deerfield. We also provide wastewater treatment services for one of 
the largest military installations in the United States--the Great 
Lakes Naval Training Station.
    The NSSD collects wastewater from local sewer systems in these 
communities and conveys it via 125 miles of interceptor sewers and 11 
pumping stations to its treatment plants in Waukegan, Highland Park, 
and Gurnee. These three facilities have been recognized by the National 
Association of Cleanwater Agencies for their excellence.
    Like many agencies charged with the responsibility of keeping our 
waterways clean, the NSSD has major infrastructure needs that must be 
met if we are to continue to be effective in our important mission.
    Among these challenges for the NSSD is repairing its 54 inch 
diameter Waukegan Sewage Treatment Plant Final Effluent Forcemain, a 
5.6 mile long forcemain constructed of pre-stressed concrete pipes that 
connect our Waukegan Treatment Plant with the Des Plaines River. The 
forcemain, which is nearly 35 years old, carries treated effluent 
through densely populated neighborhoods in Waukegan and Gurnee, 
Illinois. It has already experienced two significant failures, 
resulting in damage to both private property and public infrastructure. 
Based on an inspection in 2002, 60 pipes were repaired by lining the 
pipe with a carbon-fiber-reinforced polymer (CFRP) wrap. In April 2008, 
a second inspection determined there were an additional 31 pipes 
exhibiting various degrees of distress since the 2002 inspection and 
subsequent repair. The estimated overall cost to upgrade the forcemain 
is approximately $14.2 million.
    Due to the significant environmental benefits of this project, the 
NSSD is seeking this funding assistance. The Federal funding requested 
will be used directly in repairing the pipe. The NSSD has decided to 
adopt a proactive approach and repair all pipes that are in 16 general 
areas where the 31 pipes found to be in distress in 2008 are located. 
These 16 areas cover approximately 3,041 feet in length.
    These repairs would not only create approximately 160 jobs for the 
region but would also reduce the potential of another forcemain 
rupture, which in addition to the causing disruption for local property 
owners, would require the NSSD to discharge effluent directly into Lake 
Michigan.
    Thank you again for your consideration, and we would be glad to 
answer any question you might have.
                                 ______
                                 
    Prepared Statement of the National Tribal Environmental Council
    On behalf of the National Tribal Environmental Council (NTEC) and 
our 187 member tribes, we thank you for the opportunity to provide 
fiscal year 2011 funding recommendations for the Department of the 
Interior and other agencies under the purview of this subcommittee.
    Founded in 1991, NTEC works with federally recognized tribes to 
protect tribal environments. NTEC's mission is to support Indian tribes 
and Alaska Natives in protecting, regulating, and managing their 
environmental resources according to their own priorities and values.
    Despite having some of the most pristine habitat in the United 
States, tribes have been historically underfunded for wildlife and 
natural resource management and conservation. There are 564 federally 
recognized American Indian tribes and more than 300 reservations in the 
United States. Tribes manage 95 million acres of land, 11 million acres 
more than the National Park Service. Tribal lands contain more than 
997,000 acres of lakes, 13,000 miles of rivers, and 18 million acres of 
forested lands. Tribes operate approximately 114 fish hatcheries, with 
many producing threatened or endangered fish species. Tribal lands 
provide vital habitat for more than 525 federal listed plants and 
animals, many of which are both ecologically and culturally significant 
to tribes.
                     bureau of indian affairs (bia)
Department of the Interior Climate Change Adaptation Initiative
    Increase the BIA's allocation of the Interior Department's Climate 
Change Adaptation Initiative to $8.55 million.
    The Interior Department began a Climate Change Adaptation 
Initiative in September 2009, an undertaking that Indian tribes support 
in principle. The administration's fiscal 2011 budget request for the 
initiative is $171.3 million, an increase of $35.4 million more than 
2010. The $136 million for the initiative in 2010 did not include any 
funding for tribes. Despite a substantial increase in the overall 
funding request, the situation for tribes is nearly as bad in the 2011 
budget. Of the $171.3 million, only $200,000 goes to the BIA to involve 
and assist Indian tribes. This is highly inequitable, especially 
considering the disproportionate effect of climate change on tribes and 
their homelands. Sovereign Indian tribes deserve a broader seat at the 
table in the Climate Change Adaptation Initiative and a more equitable 
share of the funding.
    Tribal lands comprise 4 percent of the U.S. land base (tribal lands 
represent a higher percentage if compared to the Federal lands involved 
in this initiative; tribal lands equal 95 million acres divided by 593 
million acres of Federal land and tribal land equal 16 percent). Given 
that funding for tribal natural resources has been historically 
underfunded and there is no Federal program or funding that 
specifically supports tribal climate adaptation efforts, we request 
that the allocation to tribes via the BIA should be increased to $8.55 
million, or 5 percent of DOI's Climate Change Adaptation initiative, 
for tribes to address and adapt to the impacts of climate change.
    To achieve this equitable increase for tribes, the money provided 
to the various Interior agencies for the Initiative must be 
reallocated. In addition, the fiscal year 2011 BIA budget included $19 
million for FBI agents, but this does not belong in the BIA budget. 
While we support additional funding for tribal law enforcement needs, 
we know that many tribes feel it is inappropriate to allocate the 
funding in this manner. We suggest that the $19 million be re-directed 
specifically for tribal law enforcement programs and to increase 
funding for tribal climate change adaptation efforts.
Trust Natural Resources Program (TNR)
    Maintain fiscal year 2010 enacted amount of $175.62 million for BIA 
TNR Program.
    The BIA TNR Program represents the largest amount of base, Federal 
funding for tribal natural resource management. Tribes have more than 
$356 million of unmet annual needs for natural resource management and 
conservation.\1\ Because BIA spending on natural resources in the last 
2011 years has been relatively flat compared to inflation and BIA's 
budget has been historically inadequate to meet the natural resource 
needs of Indian tribes, their needs have multiplied. In addition, the 
U.S. Commission on Civil Rights notes, ``Native American population 
needs have increased at a rate faster than inflation, as problems are 
compounded by years of neglect.'' \2\ Even with the fiscal year 2010 
increase to the TNR Program, the annual unmet needs of tribes for 
natural resource management continue to exist and grow.
---------------------------------------------------------------------------
    \1\ U.S. Department of the Interior, Bureau of Indian Affairs, 
Report on Tribal Priority Allocations, July 1999, 52.
    \2\ U.S. Commission on Civil Rights, A Quiet Crisis: Federal 
Funding and Unmet Needs in Indian Country (Washington, D.C.: U.S. 
Commission on Civil Rights, July 2003), 11.
---------------------------------------------------------------------------
    The administration's fiscal year 2011 request is $17.2 million less 
than the fiscal year 2010 enacted level primarily due to an $18.6 
million transfer of minerals and mining funding, what has been termed 
``efficiency savings,'' and modest decreases and increases to a variety 
of tribal programs. Due to the significant unmet annual needs for 
tribal natural resource management and the historic underfunding of 
tribal natural resource programs, we request that the aforementioned 
$17.2 million be reinstated and provided to BIA TNR Programs including 
the Tribal Management and Development Program, Wildlife and Parks 
Tribal Priority Allocations, Natural Resource Tribal Priority 
Allocations, Water Management, Planning and Pre-Development Program, 
Endangered Species Program, and Rights Protection Implementation. As 
discussed in the previous section, it would also be possible to 
allocate some of the $19 million currently proposed for FBI agents to 
make up for the shortfall in TNR funding for tribes.
                  u.s. fish and wildlife service (fws)
Tribal Wildlife Grants Program
    Increase FWS Tribal Wildlife Grants Program funding to $8.4 
million.
    Unfortunately, tribes are not eligible for funding under Federal 
wildlife and fishery restoration programs such as the Federal Aid in 
Wildlife Restoration Act (Pittman-Robertson) or the Federal Aid in 
Sport Fish Restoration Act (Dingell-Johnson) that fund activities 
through an excise tax on hunting and fishing equipment. Although tribal 
members pay taxes that support this funding, they remain excluded from 
receiving the benefits and only States are allowed to access them.
    In 2002, Congress authorized FWS to provide funding to tribes under 
the Tribal Wildlife Grant (TWG) and Tribal Landowner Incentive Programs 
(TLIP). Tribal proposals for support often total more than $30 million 
annually. Yet these programs combined have only provided tribes an 
average of $7 million annually. With 564 federally recognized tribes, 
competition is severe and tribes rarely receive sufficient funds to 
fully support important conservation efforts.
    In fiscal year 2007, only 38 proposals out of 110 submitted 
received funding under the TWG Program. In fiscal year 2003, in the FWS 
Northeast Region, 9 tribes submitted TWG proposals requesting $1.4 
million, but only 4 were funded for $481,554 (34 percent of the 
requested amount). In fiscal year 2009, FWS only funded 41 TWG 
proposals out of 101 submitted, awarding $7 million to tribes with a 
meager average award of $170,000. In fiscal year 2010, States received 
more than $1 billion from the Federal Aid in Wildlife Restoration Act, 
the Federal Aid in Sport Fish Restoration Act, and State Wildlife 
Grants programs. Thus, the $7 million tribes received from the TWG 
program was less than .007 percent of the amount States received. From 
2002-2010, States received 86 times more FWS funding than tribes for 
fish and wildlife conservation, or $6.25 billion for States compared to 
$72.2 million for tribes (see chart).\3\
---------------------------------------------------------------------------
    \3\ State funding includes the FWS Wildlife and Sport Fish 
Restoration Programs and State Wildlife Grants. Tribal funding includes 
the FWS Tribal Wildlife Grants and Tribal Landowner Incentive Program.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since the inception of the TWG Program in 2002, no more than $7 
million per year has been made available on a competitive basis to the 
Nation's 564 federally recognized tribes. At this low level of funding, 
very few tribes receive any TWG Program funding; those receiving TWG 
Program funding typically get very little; and no tribe receives 
sufficient funding to sustain long-term tribal wildlife and natural 
resource management efforts. In fiscal year 2010, the State and Tribal 
Wildlife Grant Program received $90 million, a $15 million or 20 
percent increase from fiscal year 2009. Nonetheless, funding for tribes 
via the TWG Program remained at $7 million, and continues at that level 
in the administration's fiscal year 2011 budget request. Tribes deserve 
at least the same 20 percent increase; thus we request that TWG Program 
funding be increased to $8.4 million.
                 environmental protection agency (epa)
Multimedia Tribal Implementation Grants Program
    Preserve the administration's fiscal year 2011 request of $32.9 
million for the Multimedia Tribal Implementation Grants Program.
    The administration's fiscal year 2011 budget request for the 
Environmental Protection Agency (EPA) proposes a new Multimedia Tribal 
Implementation Grants program to support on-the-ground implementation 
of environmental protection on tribal lands. This program would provide 
$30 million for tribes to address their most pressing environmental 
needs. This program would advance negotiated environmental plans and 
activities on a cooperative basis between tribes and EPA, ensuring that 
tribal environmental priorities are adequately addressed. In addition, 
the administration's fiscal year 2011 budget request includes $2.9 
million for tribal capacity building and implementation of this new 
grant program. NTEC requests that these EPA programs be funded at the 
proposed $32.9 million level.
General Assistance Program
    Preserve the administration's fiscal year 2011 request of $71.4 
million for the EPA General Assistance Program.
    Since 1992, the EPA's Indian Environmental General Assistance 
Program (GAP) has served a critical need in providing funding to tribes 
to build capacity for environmental management. The administration's 
fiscal year 2011 budget request includes a much-needed $8.5 million 
increase for GAP. This requested increase will help tribal 
environmental programs to continue to build capacity as well as advance 
efforts to manage tribal environments. NTEC requests that the EPA GAP 
Program be funded at the proposed $71.4 million level.
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation
    Chairman Feinstein and members of the subcommittee, the National 
Trust for Historic Preservation asks that you support job creation, 
sustainability and smart growth by appropriating funding for the 
Nation's core historic preservation programs in the amounts of $55 
million for State Historic Preservation Officers (SHPOs); $10 million 
for Tribal Historic Preservation Officers (THPOs), $25 million for Save 
America's Treasures (SAT), and $4.6 million for Preserve America (PA) 
in fiscal year 2011.
    SAT, the Nation's only bricks-and-mortar preservation grant 
program, is proposed for elimination and the National Trust urges you 
to fund it at last year's level of $25 million. The proposed 
elimination of SAT would represent a nearly 30 percent reduction in the 
Historic Preservation Fund (HPF) overall, while some other programs in 
the Department of the Interior have seen as much as a 38 percent 
increase. The Trust urges you to help deliver greater equity between 
our cultural historic preservation programs and our natural resource 
programs, as they are both integral parts of preserving our Nation's 
rich heritage.
    Over the past 10 years, SAT has been a driver of economic 
development and the Federal Government's most successful tool to 
preserve the important places that tell our Nation's story. Due to 
broad, bipartisan congressional support, the program has provided 
nearly $300 million to save 1,132 of America's most significant places 
in all 50 States, creating over 16,000 jobs and fostering economic 
development in every single project it covers. The National Trust 
supports a rigorous evaluation of Federal programs to ensure taxpayer 
money is spent wisely. SAT's decade-long track record exhibits the 
efficient use of these funds.
    SAT stands out as a model of effective spending because every SAT 
grant recipient is required to raise a dollar-for-dollar, non-Federal 
match. It has leveraged more that $350 million in non-Federal and 
private funds. As a result, SAT has been enormously successful in 
attracting private-sector financing and creating productive and 
sustained partnerships with corporations, foundations, and individuals 
that provide matching contributions. Continued Federal funding of SAT 
is even more important due to currently distressed credit markets and 
high unemployment.
    Preserve America, a sister program to SAT for preservation 
education and outreach, funded out of the National Recreation account, 
would also be eliminated in the President's fiscal year 2011 budget. 
The Preserve America program complements SAT's bricks-and-mortar grant 
projects by helping local communities develop sustainable resource 
management strategies and sound business practices for the continued 
preservation and use of heritage assets. The National Trust urges you 
to fund it at last year's level of $4.6 million. A 2009 report to 
Congress by the Advisory Council on Historic Preservation found that 
Preserve America is addressing many State, local, and regional heritage 
tourism needs with a relatively small Federal investment and like SAT, 
the competitive grants require a dollar-for-dollar, non-Federal match.
    Tying our Nation's historic preservation activities together are 
the SHPOs. In addition to lying the groundwork for SAT and PA, SHPOs 
carry out the Federal historic preservation program that provides 
citizens the tools needed to revitalize, rehabilitate, and protect the 
places that give meaning to America. Funding for SHPOs leverages 
investments through local jobs, non-Federal contributions and long-term 
economic development. In 2009, the Rehabilitation Tax Credit, 
administered by SHPOs, leveraged nearly $5 billion in private 
investment and created more than 70,000 jobs. SHPOs also review Federal 
projects for their potential impact on historic sites. A recent 
February 2010 GAO report highlighted that SHPO staff shortages have 
delayed various American Recovery and Reinvestment Act (ARRA) projects. 
Providing $55 million for SHPOs would help fund additional staff vital 
to conducting ARRA reviews while still providing communities with the 
means necessary to revitalize and preserve their heritage.
    THPOs carry out many of the same functions as SHPOs in tribal 
areas. There are currently 96 THPOs and as the number continues to 
increases, the amount of HPF funds appropriated is not keeping pace. In 
fiscal year 1996, there were 12 tribes that received an average of 
$80,000. Fifteen years later, the number of THPOs will have grown to 
100, and at the President's proposed level of $8 million, each would 
receive an average amount of $72,500--about $7,500 less than when the 
program was first funded. Therefore the National Trust asks that THPOs 
be funded at $10 million for fiscal year 2011.
    Funding these essential historic preservation programs would 
represent a true investment in America's treasured legacy multiplied 
many times over through public-private economic partnerships and 
ventures. Most importantly, it would create much needed jobs and ensure 
the protection of historic resources nationwide that might otherwise be 
lost forever.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation
    On behalf of the National Wildlife Federation (NWF), the Nation's 
largest conservation advocacy and education organization, and our more 
than 4 million members and supporters, we thank you for the opportunity 
to provide fiscal year 2011 funding recommendations for the Department 
of the Interior and other agencies under the purview of this 
subcommittee.
    We understand the administration and the subcommittee face 
difficult choices in these challenging economic times, and we are 
pleased with several of the major initiatives in the President's fiscal 
year 2011 budget proposal. We commend the subcommittee for its efforts 
to strengthen the scientific and planning capacity to address climate 
change impacts on wildlife through landscape-level conservation and 
management, rapidly increasing the capacity for appropriately sited 
renewable energy and transmission on public lands, and facilitating 
essential acquisition of key habitat through a commitment to the Land 
and Water Conservation Fund.
Climate Change Adaptation and Landscape-scale Conservation
    The proposed budget includes a much-needed $35 million increase 
more than the enacted fiscal year 2010 budget to support on-the-ground 
adaptation at several agencies. NWF is strongly supportive of the $171 
million requested for the Department of the Interior budget to help 
agencies assess and respond to the impacts of climate change on 
wildlife. We are particularly pleased to see investments in Landscape 
Conservation Cooperatives designed to engage and integrate agencies 
from across the Department and with external partners.
Promote Renewable Energy and Limit Fossil Fuel Subsidies
    Transitioning to a clean energy economy is one of the great 
challenges facing the nation. NWF supports the New Energy Frontier 
initiative in the President's fiscal year 2011 budget, which invests in 
development of clean energy resources on public lands while 
acknowledging that not all lands with energy potential are appropriate 
for development. This initiative would invest $73.3 million in 
renewable energy programs, a $14.2 million increase more than fiscal 
year 2010. Because it is essential that applications are sited 
appropriately, we strongly support proposed investments in new studies 
of wildlife impacts, site-specific environmental studies, and regional 
analysis of wind energy zones. We remain concerned, however, that the 
Department lacks the necessary policy guidance to support the targeted 
build out on public lands without incurring significant impacts to 
wildlife and other natural resources.
    NWF also strongly supports the Department's common-sense budget 
proposals for reducing extravagant subsidies to the oil and gas 
industry, including a new fee for nonproducing leases. To confront 
climate change, promote cleaner sources of energy, and enhance our 
national security, we will need to phase out tax breaks and subsidies 
to the most carbon intensive fuels.
U.S. Fish and Wildlife Service
            State and Tribal Wildlife Grants
    The State and Tribal Wildlife Grants program is the Nation's core 
program for preventing wildlife from becoming endangered in every 
state. It provides state wildlife agencies and their partners with a 
broad suite of proactive conservation tools to allow for meaningful and 
cost-effective species conservation. At the heart of this program is 
implementation of federally approved wildlife action plans. We urge 
Congress to honor its commitment to this important effort and 
respectfully request that the subcommittee provide State Wildlife 
Grants funding of $100 million, an increase of $10 million more than 
fiscal year 2010 enacted levels.
            Endangered Species Program
    The Endangered Species Act (ESA) is a safety net for wildlife, 
plants, and fish that are on the brink of extinction. While the act has 
been extraordinarily successful in preventing the extinction of plants 
and animals, funding for its implementation has eroded significantly 
over the past few years. We are dismayed with the President's proposal 
to virtually flat-fund the program, and are particularly concerned 
about decreases in the listing and candidate conservation programs. We 
urge the Subcommittee to appropriate at least $217 million in fiscal 
year 2011 toward the Endangered Species Program ($38 million above 
fiscal year 2010 enacted) as follows: Listing ($32 million), Recovery 
($95 million), Consultation ($75 million), and Candidate Conservation 
($15 million).
            National Wildlife Refuge System Operations and Maintenance
    The National Wildlife Refuge System is a monumental part of the 
public lands systems in the United States. It is home to endangered 
species, migrating birds, rare flora and fauna, and retreat for hunters 
and anglers nationwide. The Refuge System will also play a crucial role 
for wildlife as the impacts of climate change continue to increase. 
Unfortunately the President's fiscal year 2011 budget reflects cuts to 
a system that must be able to lead the way in a warming climate. The 
National Wildlife Federation, in support of the Cooperative Alliance 
for Refuge Enhancement (CARE), recommends $578.3 million for Operations 
and Maintenance for the National Wildlife Refuge System.
            Conservation Planning Assistance
    The Conservation Planning Assistance (CPA) branch delivers on-the-
ground conservation of wetlands and other high-value habitats through 
environmental review and technical assistance. Base funding and staff 
levels for this program have significantly eroded over the past 15 
years, and that erosion continues, despite increased demands for CPA 
expertise. As a first step in restoring the agency's capacity to 
deliver on-the-ground habitat conservation, we urge the Subcommittee to 
appropriate $32.3 million in fiscal year 2011 toward the Conservation 
Assistance Program's ``General Program Activities'' account ($6 million 
above the fiscal year 2011 request).
            Youth in Natural Resources
    We greatly appreciate the subcommittee's strong support in fiscal 
year 2010 for Secretary Salazar's Youth in Natural Resources 
initiative, which will reach and educate youth from all backgrounds 
about our Nation's lands, waters and heritage, while providing 
employment opportunities to youth to protect our resources and restore 
our environment. We urge the subcommittee to continue to grow this 
program and recommend a funding level of $56.6 million (an increase of 
$20.5 million more than fiscal year 2010 enacted).
U.S. Geological Survey
            National Climate Change and Wildlife Science Center
    The National Climate Change and Wildlife Science Center is an 
important initiative for improving the scientific support required to 
successfully cope with the challenges of a changing climate. NWF is 
supportive of the proposed $8 million increase in funding for the 
center in fiscal year 2011. We would note, however, that following the 
issuance of the Secretarial Order on Climate Change and the 
establishment of several Landscape Conservation Cooperatives, there is 
a need to clarify and better communicate roles and responsibilities 
within the Department regarding climate change planning and science.
Bureau of Land Management
            National Landscape Conservation System
    The National Landscape Conservation System is our newest public 
lands system containing 26 million acres of some of the most beautiful 
and best places in the American West. It recently received permanent 
status through the Omnibus Public Lands Act of 2009; however it was 
created in 2000 and this year will be the 10th anniversary of the 
system. As its status continues to rise, the system continues to be 
plagued with inadequate funding and lack of budget clarity. It is 
becoming more difficult to meet its core responsibilities and manage 
the growing number of visitors. Therefore we recommend fiscal year 2011 
NLCS funding of $100 million for operations, maintenance and planning.
Bureau of Indian Affairs
            Trust--Natural Resources Program
    The primary function of the Trust--Natural Resources Management 
program is to assist tribes in the management, development, and 
protection of Indian trust land and natural resource assets. Due to 
significant unmet annual needs for tribal natural resource management, 
and the historic underfunding of tribal natural resource programs, NWF 
is concerned about the proposed $17.2 million decrease in this program 
for fiscal year 2011, and recommends maintaining the fiscal year 2010 
enacted level of $175.62 million. Of the funds requested for this 
program, just $0.2 million are a part of the Department's Climate 
Change Initiative. Given the disproportionate impact that climate 
change will have tribal lands in Alaska and elsewhere, we would 
encourage more robust BIA funding to engage the tribes in preparing for 
and adapting to the impacts of climate change.
U.S. Forest Service
            Integrated Resource Restoration
    The fiscal year 2011 budget proposal combines the Forest Products, 
Wildlife & Fisheries, and Vegetation & Watershed line items into a 
single $694 million budget item. The stated intent of this realignment 
is to shift away from traditional commercial forestry objectives and 
towards large-scale ecosystem restoration and stewardship. NWF is 
supportive of the intent to focus more on landscape-scale management 
and restoration, but has concerns about the potential for funding 
related to wildlife, rare plants, and habitat to be obscured through 
this realignment and possibly decreased during the course of program 
implementation. We would encourage the development of robust program 
monitoring and oversight to ensure continued commitment to delivery on 
wildlife and fisheries objectives.
Land and Water Conservation Fund
    The Federal acquisition portion of the Land and Water Conservation 
Fund is the primary tool for the Federal Government for acquisition of 
land for valuable wildlife habitat and open space. The stateside 
portion is vitally crucial to providing a place for children and 
families to connect with nature. However, in recent years LWCF has been 
severely underfunded, in direct contrast to the intention of the 
original program. NWF is pleased to see this administration increasing 
the funding levels of this program, and we strongly recommend a budget 
of $425 million for Federal land acquisition, and $175 million for the 
stateside program.
Environmental Protection Agency
            Greenhouse Gas Reductions and Inventory
    NWF applauds the President's call to reduce greenhouse gas (GHG) 
emissions in the range of 17 percent below 2005 levels by 2020 and more 
than 80 percent by 2050. NWF strongly supports the fiscal year 2011 
request of $43 million in new funding for EPA programs to help achieve 
these goals under existing Clean Air Act authority. This funding would 
cover regulatory development activities covering mobile and selected 
stationary sources, as well as technical assistance to support States' 
permitting activities. These efforts are critical to combat climate 
change, meet our emission reduction pledges under the Copenhagen 
Accord, and comply with the Supreme Court decision in Massachusetts v. 
EPA.
    NWF also supports the President's request of $21 million for 
continued implementation of the Greenhouse Gas Reporting Rule. These 
activities are essential for ensuring that the agency has sufficient 
quality data to guide climate policy development.
            Ecosystem Restoration Initiatives
    America's Great Waters are the lifeblood of our nation. Sustained, 
consistent restoration funding is crucial for the implementation of 
multi-year, complex ecosystem restoration plans. NWF is fully 
supportive of the proposed increase of $13 million for EPA's Chesapeake 
Bay Program Office (fiscal year 2011 request of $63 million). We are 
concerned, however, about significant proposed funding decreases for 
several other regional efforts, and urge Congress to maintain fiscal 
year 2010 funding levels for the following ecosystems: Great Lakes 
Restoration Initiative ($475 million vs. $300 million requested); Puget 
Sound geographic program ($50 million vs. $30 million requested); Long 
Island Sound geographic program ($7 million vs. $3.8 million 
requested); and Lake Champlain geographic program ($4 million vs. $1.4 
million requested).
            National Environmental Education Act Programs
    EPA's Office of Environmental Education implements highly 
successful, nationwide environmental education programs. Investment in 
these programs must ramp up quickly to prepare Americans for the clean 
energy economy, keep America competitive, and foster innovative 
thinking and solutions to global climate change. We are grateful for 
the subcommittee's support of environmental education in previous years 
and recommend a funding level of $14 million (an increase of $5 million 
more than fiscal year 2010 enacted).
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation
    Madam Chairman and members of the subcommittee: Thank you for the 
opportunity to submit testimony regarding fiscal year 2011 funding for 
the National Fish and Wildlife Foundation (Foundation). The 
Foundation's fiscal year 2011 funding request is fully authorized and 
each Federal dollar appropriated will be matched by a minimum of one 
non-Federal dollar. We appreciate the subcommittee's past support and 
respectfully request your approval of funding at the following levels:
  --$8.537 million through the U.S. Fish and Wildlife Service's 
        Resource Management General Administration appropriation;
  --$3 million through the U.S. Fish and Wildlife Service's Resource 
        Management Endangered Species appropriation to conserve and 
        restore endangered salmon;
  --$4 million through the Bureau of Land Management's Management of 
        Lands and Resources appropriation; and
  --$3 million through the Forest Service's National Forest System 
        appropriation.
    Since its inception, the Foundation has leveraged nearly $500 
million in Federal funds into more than $1.6 billion in on-the-ground 
and in-the-water conservation with less than 5 percent aggregate 
overhead to the Federal Government and fewer than 90 staff nationwide.
    The Foundation was established by Congress in 1984 to foster 
public-private partnerships to conserve fish, wildlife, and their 
habitats. The Foundation is required by law to match each federally 
appropriated dollar with a minimum of one non-Federal dollar. We 
consistently exceed this requirement by leveraging Federal funds at a 
3:1 average ratio while building consensus and emphasizing 
accountability, measurable results, and sustainable conservation 
outcomes.
    With your support, fiscal year 2011 funds will support our long-
standing grant programs and new partnership initiatives with the U.S. 
Fish and Wildlife Service (FWS), Bureau of Land Management (BLM), and 
Forest Service (FS). Several of our priority initiatives for fiscal 
year 2011 are described below.
Fish Habitat Restoration
    In cooperation with FWS, BLM, and FS, the Foundation provides 
community-based grants to assist rural communities, farmers, ranchers 
and other private landowners with restoring habitats that are essential 
for native fish species and their migration corridors. To the extent 
possible, the Foundation is also partnering with the National Oceanic 
and Atmospheric Administration and USDA's Natural Resources 
Conservation Service on these efforts, and successfully leveraging 
Federal support with corporate contributions for fish habitat 
conservation. Many of these in-stream and riparian habitat restoration 
projects are located on or adjacent to public lands. To complement 
these efforts, the Foundation has successfully implemented a water 
transactions program in the Columbia Basin in partnership with the 
Bonneville Power Administration, local water trusts, and willing 
landowners. All of these approaches for habitat restoration will be 
necessary to sustain or recover the 700 fish species in decline in 
North America.
    The Foundation is building on our long history in fish habitat 
restoration to strategically target our partnership efforts toward 
specific species of concern in fiscal year 2011 and the next few years. 
Specifically, we are working with Federal, State, and local partners to 
coordinate efforts to restore habitat for Eastern Brook Trout in the 
Mid-Atlantic region and Salmon in the Pacific Northwest.
Eastern Brook Trout Restoration
    Brook trout are the only trout native to much of the Eastern United 
States and because they persist in only the coldest and cleanest waters 
they are positive indicators of watershed health. The mid-Atlantic 
region has seen the greatest decline in brook trout populations, where 
they are now found only in scattered headwaters streams. Foundation 
grants are focusing on unique threats and opportunities in specific 
watersheds of Virginia, West Virginia and Pennsylvania. It is 
anticipated that restoration activities will meet or exceed the Eastern 
Brook Trout Joint Venture goals for the mid-Atlantic region.
Salmon Recovery
    The Foundation is successfully engaging landowners, community 
groups, tribes, and businesses in stimulating smaller-scale, community-
oriented habitat restoration and protection projects to aid in salmon 
recovery. In particular, for nearly a decade the Foundation has 
leveraged FWS appropriations with state and local funds to establish 
local grant partnerships in Washington State. We have partnered with 
the Washington State Salmon Recovery Funding Board to administer a 
statewide Community Salmon Fund program that is coordinated with the 
individual Lead Entity groups. In addition, the Foundation has ongoing 
partnerships with both King and Pierce Counties to administer county-
specific Community Salmon Fund programs in those counties.
    Other focal species for the Foundation's grants include: Apache 
trout, Colorado Cutthroat trout and native suckers and chubs in the 
Upper Colorado Basin, and Coho salmon and endangered suckers in Klamath 
Basin.
Chesapeake Bay, Great Lakes, Long Island Sound, and Puget Sound
    Watershed health plays an important role in fish and wildlife 
conservation and has been a feature of the Foundation's grantmaking 
since establishing our partnership with the Environmental Protection 
Agency (EPA) in 1998. In the last decade, the Foundation has formed 
strategic public-private partnerships to restore and protect fish and 
wildlife habitat while improving water quality in the Chesapeake Bay, 
Great Lakes, and Long Island Sound. Federal partners in the programs 
include EPA, Department of Interior agencies, Forest Service, USDA's 
Natural Resources Conservation Service, NOAA, and others. The 
Foundation leveraged various Federal funds for these partnerships but, 
more importantly, attracted private contributions from corporations and 
other private foundations. We are employing a similar model to develop 
a partnership and target financial resources in Puget Sound. The 
Foundation's watershed grant programs continued positive results in 
2009 with priority project requests far exceeding available funds.
Youth in Natural Resources
    The Department of the Interior's fiscal year 2011 budget request 
includes $2 million, split between FWS and BLM, for the Foundation to 
establish a competitive grant program for youth conservation job 
programs. With the movement of Americans to urban areas and more indoor 
recreational pursuits, America's youth are developing a gap in their 
knowledge of fish and wildlife and the need for natural resource 
conservation. This gap poses a serious threat to the future of the 
wildlife conservation. Through this unique initiative, local 
organizations will develop employment programs that foster a 
conservation ethic, expose youth to career opportunities in the 
conservation community, and ultimately cultivate future generations of 
wildlife professionals.
    The Foundation will work with FWS and BLM to develop a public-
private partnership by leveraging the Federal funding with at least an 
equal amount of privately financed contributions. Funds will be awarded 
to Refuges, Fish Hatcheries, Friends groups, BLM field offices, Youth 
Conservation Corps, nongovernmental organizations and others who seek 
to develop innovative conservation employment opportunities for youth. 
Wildlife habitat conservation education will be an integral aspect of 
this grant program and the Foundation will partner with the Department 
of the Interior's National Conservation Training Center to develop 
learning goals, curricula, and other training material that can be 
integrated into job programs.
    We request that this new $2 million initiative for Youth in Natural 
Resources be funded above and beyond the Foundation's fiscal year 2010 
enacted levels for FWS and BLM, which were $7.537 million and $3 
million, respectively.
Conclusion
    NFWF has a 25-year history with the Department of Interior and has 
been successful in bringing together public and private partners to 
build strategic partnerships to address the most significant threats to 
fish and wildlife populations and their habitats. The Foundation has 
partnerships with 14 Federal agencies and more than 50 corporations and 
private foundations. We have a successful model of coordinating and 
leveraging Federal funds and attracting support from the private sector 
to form public-private partnerships for fish and wildlife conservation.
    We are working directly with the Federal agencies and our other 
partners to maximize results and produce sustainable conservation 
outcomes. To that end, the Foundation is incorporating monitoring and 
evaluation into our programs to measure progress, promote adaptive 
management, demonstrate results, and continuously learn from project 
investments. We look forward to building on our partnerships with FWS, 
BLM and FS in fiscal year 2011 and appreciate the subcommittee's 
continued support of these collaborative efforts.
Background on National Fish and Wildlife Foundation
    As of fiscal year 2009, the Foundation has awarded nearly 10,500 
grants to more than 3,000 national and community-based organizations 
through successful partnerships with the Department of Interior 
Agencies, USDA's Forest Service and Natural Resources Conservation 
Service, the Environmental Protection Agency, the National Oceanic and 
Atmospheric Administration, and others. This collaborative model brings 
together multiple Federal agencies with State, tribal and local 
governments and private organizations to implement coordinated 
conservation strategies in all 50 States.
    The Foundation's grant-making involves a thorough internal and 
external review process. Peer reviews involve Federal and State 
agencies, affected industry, nonprofit organizations, and academics. 
Grants are also reviewed by the Foundation's issue experts, as well as 
evaluation staff, before being recommended to the Board of Directors 
for approval. In addition, according to our Congressional Charter, the 
Foundation provides a 30-day notification to the Members of Congress 
for the congressional district and state in which a grant will be 
funded, prior to making a funding decision.
    Madam Chairman, we greatly appreciate your continued support and 
hope the subcommittee will approve funding for the Foundation in fiscal 
year 2011.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association
    Mr. Chairwoman and Members of the subcommittee: On behalf of the 
National Wildlife Refuge Association (NWRA) and its membership 
comprised of current and former refuge professionals, Friends 
organization affiliates and concerned citizens, thank you for your 
strong support for the National Wildlife Refuge System (NWRS) including 
the meaningful funding increases over the past 3 years which allowed 
the NWRS to emerge from years of declining budgets following the 2003 
Refuge Centennial. Unfortunately, the President's budget request, a 
$3.3 million cut, is a step in the wrong direction and if enacted, 
could reinstate the downsizing plans that called for a 20 percent 
reduction of staff on refuges nationwide. Because NWRS needs at least 
$15 million annually to address management capabilities (rent, 
utilities, staff salaries, gas, etc.) the President's proposal is in 
actuality an $18.3 million reduction. The NWRA appreciates the 
opportunity to offer comments on the fiscal year 2011 Interior, 
Environment, Related Agencies Appropriations bill and we respectfully 
request the subcommittee support the following programmatic funding 
allocations for programs in the NWRS and the U.S. Fish and Wildlife 
Service (FWS):
  --$578 million for the operations and maintenance (O&M) accounts of 
        the NWRS;
  --$600 million for the Land and Water Conservation Fund (LWCF), 
        including $150 million for the NWRS;
  --$19 million for the Challenge Cost Share Program in the Department 
        of the Interior including $6 million for the NWRS;
  --$40 million for Landscape Conservation Cooperatives in the FWS;
  --$25 million for Climate Change Inventory and Monitoring for 
        refuges;
  --$100 million for the NWRS construction account for large-scale 
        restoration projects, visitors centers and energy efficiency 
        projects;
  --$5 million for Volunteer Community Partnerships for the NWRS;
  --$25 million for invasive species control and eradication projects 
        on and near refuge lands, including $5 million for large-scale 
        projects;
  --$35 million for the management of the new Pacific Marine Monuments;
  --$75 million for the FWS' Partners for Fish and Wildlife Program;
  --$115 million for the State and Tribal Wildlife Grants Program;
  --$52.6 million for the North American Wetlands Conservation Fund;
  --$6.5 million for the Neotropical Migratory Bird Fund;
  --$10 million for the National Fish and Wildlife Foundation (NFWF) in 
        the FWS' Resource Management General Administration 
        appropriation.
Gulf of Mexico Oil Spill Response
    NWRS needs strong and incremental increases to fulfill it's mission 
and purposes and with the tragedy unfolding before our eyes in the Gulf 
of Mexico with the Deep Horizon oil spill, potentially impacting up to 
60 national wildlife refuges should the oil reach the Gulf Loop, 
funding the System adequately is more important than ever. While refuge 
staff is feverishly working to protect refuges and wildlife from the 
oil itself, the pervasive lack of funding is noticeably apparent by the 
lack of baseline data at each of the 25 refuges expected to be first 
impacted. Not one of the refuges in the immediate path of the oil spill 
has baseline inventories for all the resources that could be impacted 
by the oil. Refuges in Louisiana, Mississippi, Alabama, and Florida are 
scrambling to do baseline inventories of wildlife and water quality. 
While we thank the subcommittee for funding NWRS's Inventory and 
Monitoring program in the fiscal year 2010 budget, NWRS's lack of this 
program due to years of funding shortages has put America's wildlife at 
a distinct disadvantage. Unless refuges get this information now, it 
will be too late to prove how the oil impacted refuge resources. This 
baseline inventory information is not a luxury item; it's an essential 
tool.
National Wildlife Refuge Funding--Operations and Maintenance (O&M) and 
        Construction
    The NWRA is the chair of the Cooperative Alliance for Refuge 
Enhancement (CARE), a diverse coalition of 22 sporting, conservation, 
and scientific organizations representing more than 15 million 
Americans. NWRS needs at least $900 million in annual operations and 
maintenance funding to properly administer its 150 million acres as 
mandated in the Refuge Improvement Act. To reach this reasonable goal, 
we respectfully request that you provide $578 million in fiscal year 
2011 for NWRS O&M.
    The increases in the past 3 years allowed for the suspension of 
workforce downsizing plans that outlined an eventual 20 percent 
reduction in overall staffing levels. But additional increases that 
build upon recent years are essential.
    Within the $578 request for refuge O&M, we recommend $15 million 
for inflationary costs. We know the NWRS needs at least $15 million 
annually to maintain management capabilities which includes rent, 
utilities, salaries, concrete, gas, and steel--everything a refuge 
needs to fully function. The President's requested $3.3 million 
decrease is an effective $18.3 million cut due to these annual needs. 
Without providing adequate funding for these fixed costs, refuges will 
simply be unable to maintain current programs and public services, and 
the backlog will grow.
    For example, at the Potomac River Refuges in northern Virginia, the 
past 3 years of funding increases allowed the complex to hire a 
temporary staffer to conduct public outreach and education and provide 
the only staff presence on the weekends deterring criminals from 
illegal dumping, poaching, and even prostitution. Should the 
President's budget cut be enacted, that staff person would likely be 
eliminated and conditions would return to those of only a few short 
years ago, when the complex was plagued with illegal squatters, turtle 
and fish poaching, dumping, and a prostitution ring. In many cases the 
simple presence of an official refuge vehicle is enough to deter would-
be criminals. We must ask ourselves, is a cut to the NWRS budget really 
worth the consequent costs?
    Within the allocation for refuge operations, we request $25 million 
for inventory and monitoring to help refuges cope with climate change; 
$25 million for invasive species removal projects including $5 million 
for large scale efforts; $5 million for volunteer and partnership 
programs and $35 million for the management of the new Pacific Marine 
Monuments.
    We also ask the subcommittee to expand funding for NWRS's 
construction budget to $100 million. The FWS has more than $1 billion 
worth of construction needs, including the replacement of quickly 
deteriorating structures that are not energy efficient and are becoming 
more expensive to maintain. Construction funds also support large-scale 
habitat restoration projects such as the Salt Pond restoration efforts 
at the Don Edwards San Francisco Bay NWR. Funds for new visitor/
administration centers will be a net benefit with regards to both 
efficiencies and economic impact to local communities. Refuges with a 
broad range of outdoor and indoor programs create more revenue, jobs in 
service industries, and income for local communities.
Climate Change--FWS and NWRS
    The FWS and NWRS are just beginning to develop strategies to 
address Climate Change and are still woefully behind what is truly 
needed--especially with species in extreme locations such as Alaska and 
Hawaii on the verge of collapse. We strongly support the FWS initiative 
to establish Landscape Conservation Cooperatives to bring the best 
science to bear to help all agencies make the most educated management 
decisions. We recommend an allocation of $40 million to fund these LCCs 
in fiscal year 2011, building upon the investments made this fiscal 
year. We recommend $25 million for inventory, monitoring, and planning 
for refuges.
Invasive Species--Control and Eradication
    The NWRS is succumbing to a relentless onslaught of invasive 
species with more than 2.3 million acres of refuge lands infested with 
invasive plants and 4,400 invasive animal infestations. Funding is 
needed to halt their progress and in some cases remove them entirely. 
Of the total 2.3 million plant-infested acres, the NWRS was able to 
treat only 14.6 percent in 2008--the same year a Government 
Accountability Office report found that the number one management 
action that had increased in cost was the management of invasive 
plants. We urge the subcommittee to allocate $25 million for invasives 
eradication efforts on refuges with $5 million for large-scale 
projects.
Strategic Growth and Partnerships
    While providing adequate funding to operate and maintain the NWRS 
is of vital importance, most refuges are too small in size to fully 
achieve their conservation objectives. Their integrity depends on the 
health of surrounding lands and waters; and in turn, the health of 
refuge lands and waters has an enormous impact on surrounding 
communities. Consequently, there is a growing need to provide funding 
to ensure that lands and waters outside refuge boundaries are 
conserved. NWRA encourages a Beyond the Boundaries approach, which 
identifies and prioritizes crucial additions to the Nation's 
conservation estate while improving connectivity between refuges and 
other conservation lands and encouraging partnerships to implement 
conservation strategies.
    One of the most effect tools for effective partnering for 
conservation is the Challenge Cost Share (CCS) program and we strongly 
urge the subcommittee to fund the program at $19 million. The program 
was zeroed out in the administration's budget due to inadequate 
reporting by DOI agencies; however, the lack of reporting was in many 
instances due to a lack of staff resources--not because the program was 
not receiving a match from partners or was being used inappropriately. 
The program leverages taxpayer dollars, turning a $19 million 
investment into at least $38 million in completed projects. We support 
DOI efforts already underway to strengthen reporting and we hope you 
will work with the administration to repair the program and not 
eliminate it. The CCS has provided important opportunities for tens of 
thousands of citizen volunteers to do thousands of stewardship projects 
on public lands by leveraging these Federal funds in a way that cannot 
be duplicated through other Federal funding programs.
    Another demonstrated conservation partnership is the FWS' Partners 
for Fish and Wildlife Program and we ask that the Subcommittee 
appropriate the authorized $75 million next year. Partners is a 
powerful tool to work with private land owners and leverage Federal 
dollars. A $75 million investment in the Partners program will 
conservatively net $300 million worth of additional conservation. On 
average, every $1 appropriated leverages between $4 and $10.
    To strategically grow NWRS, NWRA strongly supports President Obama 
in encouraging Congress to fully fund the Land and Water Conservation 
Fund (LWCF) to its authorized annual level of $900 million in the next 
four years. We urge the subcommittee to allocate $150 million for the 
FWS to secure high-priority water rights and high-priority lands and 
conservation easements. Inadequate water quantity and quality represent 
some of the biggest obstacles for refuges to overcome and 
unfortunately, many refuges do not own the water rights on the refuge 
or they are not guaranteed an allocation of water from a river or 
stream.
    Currently, there are roughly 8.3 million acres remaining to be 
acquired within approved refuge boundaries. $150 million for refuge 
land acquisition may seem high, but consider that if Congress 
appropriated the full $900 million annually only to refuges, it would 
still take almost 20 years before NWRS could acquire all the lands 
currently in acquisition boundaries.
    Within this request, the NWRA encourages the subcommittee to 
provide funding for the following projects, which have willing sellers, 
are immediately available for purchase and provide increased 
connectivity between important public and private lands that will 
ultimately increase species ability to adapt:
  --$4.9 million, Bear River Migratory Bird Refuge (Utah) to acquire 
        3,000 acres;
  --$2.5 million, Blackwater NWR (Maryland) to acquire 1,515 acres;
  --$4 million, Cache River NWR (Arkansas) to acquire 5,000 acres;
  --$2.5 million, Charles M. Russell NWR (Montana) to acquire 2,400 
        acres;
  --$500,000, Cokeville Meadows NWR (Wyoming) to acquire 2,200 acres;
  --$2 million, Lake Wales Ridge (Florida) to acquire 800 acres;
  --$2 million, Nestucca Bay NWR, Oregon to acquire 300 acres;
  --$6 million, Silvio O. Conte NFWR (Massachusetts, Connecticut, New 
        Hampshire, and Vermont) to acquire 2,050 acres;
  --$3.5 million, Sheldon--Hart NWR Complex (Nevada, Oregon) to acquire 
        2,500 acres;
  --$10 million, Stillwater NWR, Nevada to acquire 10,000 acres of 
        water rights.
    There are several additional extremely worthy refuge land 
acquisitions that are advocated for by refuge ``Friends'' organizations 
and refuge partners and we have provided the subcommittee with those 
requests in a separate document.
    The NWRA also urges the subcommittee to appropriate $115 million 
for the State and Tribal Wildlife Grants Program to implement State 
Wildlife Action Plans; $52.6 million for the North American Wetlands 
Conservation Fund; $6.5 million for the Neotropical Migratory Bird 
Conservation Fund and $10 million for the National Fish and Wildlife 
Foundation.
    In conclusion, the NWRA believes NWRS can meet its important 
conservation objectives only with strong and consistent funding 
leveraged by the valuable work of refuge volunteers. We extend our 
appreciation to the subcommittee for its ongoing commitment to our 
NWRS.
                                 ______
                                 
        Prepared Statement of the Orleans Audubon Society, Inc.
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of 
acquiring land at Jean Lafitte National Historical Park and Preserve in 
Louisiana. An appropriation of $2 million in fiscal year 2011 from the 
Land and Water Conservation Fund (LWCF) is needed towards National Park 
Service (NPS) acquisition of the Fleming Plantation property in 
Jefferson Parish.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. For all these reasons, the President has included 
meaningful increases to the program in his fiscal year 2011 budget, and 
I support the administration's commitment to fully funding the program 
in the near future. Recognizing the many demands this committee faces, 
I also want to thank the subcommittee for its recent effort to restore 
much-needed funding to this depleted program. This wise investment in 
the LWCF is one that will permanently pay dividends to the American 
people and to our great natural and historical heritage.
    The Orleans Audubon Society has had a long-term interest in the 
Jean Lafitte National Historical Park and Preserve and its unique 
wetlands. We testified before Congress urging the creation of the park. 
One of our members, Frank Ehret, Jr., is known as the ``Father of the 
Park'' for his tireless and relentless efforts to make the park a 
reality. We also successfully sued developers for violations of the 
Clean Water Act which occurred within the authorized boundary. Most 
recently, we lobbied to expand the boundary of the park, enlisting the 
help of National Audubon Society's Public Policy Office. The boundary 
was expanded with the passage of the 2009 Omnibus Public Lands Act.
    Encompassing six separate units in south Louisiana, Jean Lafitte 
National Park and Preserve boasts a wealth of historical, cultural, and 
environmental resources. In addition to a visitor center in the famed 
French Quarter of New Orleans, the park units include three Acadian 
cultural centers. These centers share the stories and customs of the 
Acadians who came to be called Cajuns following their migration from 
French Canada to Louisiana. The Cajuns today are renowned for their 
music, their food, and their ability to hold on to tradition while 
making the most of the present.
    Also located within the park is the Chalmette Battlefield, site of 
the January 8, 1815 Battle of New Orleans, commonly regarded as the 
last great battle of the War of 1812. On the battlefield grounds stands 
Chalmette Monument, which pays tribute to the troops who fought there. 
Along what remains of Rodriguez Canal is a re-creation of the rampart 
that protected American troops from the British army as well as cannons 
dating from the period and newer replicas.
    A flagship unit of the Jean Lafitte National Historic Park and 
Preserve is the Barataria Preserve: 20,000 acres of bayous and swamps 
located near Marrero, just south of New Orleans. The preserve offers a 
multitude of recreational opportunities, including kayaking, canoeing, 
bird watching, hunting, and fishing. Visitors there can enjoy an 
historic swampland environment within a very short drive of New 
Orleans. They also have the opportunity to learn more about the vital 
role wetlands play in protecting coastal areas.
    Within the recently expanded boundaries of the Barataria Preserve 
lies the Fleming Plantation: 4,000 acres of magnificent bayous, 
bottomland hardwood, and marsh. The landowner was willing to include 
the property in the recently passed expansion of the park and is now 
willing to sell it to the NPS. The Fleming Plantation was one of the 
region's largest and most productive 19th century sugar plantations. 
One of the property's most notable features is the Fleming Cemetery. 
Also known as the Berthoud Cemetery, it contains a large Indian shell 
mound hidden on the bank of Bayou Barataria near the plantation house. 
The Indian mound dates as far back as 500 B.C. Based on archeological 
research, the presumed function of this prehistoric site was that of a 
ceremonial center and village. In addition to the cemetery, the 
property has a large one-story Creole cottage that was likely one of 
the early plantation buildings. There are also remains of the 
plantation sugarhouse--a tall brick chimney, covered in vines, standing 
out amidst the large oak trees.
    This land acquisition project has unprecedented support from local 
communities, government, ecotourism groups, including bird watchers, 
and from environmental organizations. The following support the Fleming 
Plantation land acquisition project: Orleans Audubon Society, Baton 
Rouge Audubon Society, Jefferson Parish Council of Garden Clubs, Better 
Swamps and Gardens, Louisiana Ornithological Society, Gulf Restoration 
Network, Lake Pontchartrain Basin Foundation, Coalition to Restore 
Coastal Louisiana, Woodlands Trail and Park, The Nature Conservancy of 
Louisiana, Louisiana Wildlife Federation, Inc., League of Women Voters 
of Louisiana, Louisiana Audubon Council, National Audubon Society's 
Louisiana Important Bird Areas Program, Gulf Coast Initiative of the 
National Audubon Society, Baton Rouge Audubon Society, Delta Chapter of 
Sierra Club (Louisiana), and Mayor Tim Kerner, Town of Jean Lafitte.
    Acquisition of the Fleming Plantation would preserve an important 
historic and ecological site and would lead to the restoration of 
marshland on the property to absorb storm surges. Leaving the property 
in its current state would perpetuate the existing threats from 
hurricanes to natural areas as well as to developed areas of New 
Orleans. The property hosts an abundance of migratory waterfowl, and 
within its viewshed is Myrtle Grove, the site of the State's first 
intended diversion project. Consequently, acquiring this land would 
link the State's greater coastal protection and diversion building 
effort. This will help protect the Louisiana coast and create marsh 
habitat that would reduce potential damage from hurricane storm surges.
    An appropriation of $2,000,000 from the LWCF in fiscal year 2011 is 
needed towards the acquisition of the 4,000-acre Fleming Plantation. 
Adding this historic terrain to the Jean Lafitte National Historic Park 
would permanently protect this large environmentally and historically 
important property.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Louisiana, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
                  Prepared Statement of OPERA America
    Madame Chairman and distinguished members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of OPERA 
America, its Board of Directors, and its 114 American member companies. 
We strongly urge you to support an increased appropriation of $180 
million for the National Endowment for the Arts for fiscal year 2011. 
This testimony and the funding examples described below are intended to 
highlight the importance of Federal investment in the arts so critical 
to sustaining a vibrant cultural community throughout the country.
    Opera is a continuously growing art form that can address the 
diverse needs and backgrounds of our communities. New opera companies 
are being established in communities that have never before had access 
to live performances. Seventy percent of the opera companies in 
existence today have been established since 1960. The growth of the 
field corresponds to the establishment and growth of the NEA. Over the 
last 20 years, a rich repertoire of American operas has been created by 
composers who communicate the American experience in contemporary 
musical and dramatic terms. The growth in the number and quality of 
American operas corresponds directly to the investment of the NEA in 
the New American Works program of the former Opera-Music Theater 
Program.
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools, and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities; indeed, NEA funded projects cross all racial, geographic, and 
socioeconomic lines.
    The following are some examples of the impact of NEA funding on 
opera programs from the NEA's 2010 Access to Artistic Excellence 
Program:
American Opera Projects, Inc., Brooklyn, New York, $10,000
    To support the commission and developmental phase of Rosencrantz & 
Guildenstern Are Dead, by composer and librettist Herschel Garfein and 
stage direction by Mark Morris. Based on the 1966 play and 1990 film by 
Tom Stoppard, the work will be transformed into a two-act opera for six 
principal roles, three smaller roles, and 16 instrumentalists.
Atlanta Opera, Atlanta, Georgia, $20,000
    To support a new production of Mozart's Die Zauberfloete (The Magic 
Flute). The company will develop a program tailored for middle and high 
school students of area public schools and an educational touring 
production that will reach student and adult audiences in several 
Atlanta public schools.
Austin Lyric Opera, Austin, Texas, $20,000
    To support performances of L'Etoile (The Star), by Emmanuel 
Chabrier. Education and outreach activities will accompany the 
performances.
Boston Academy of Music (aka Opera Boston), Boston, Massachusetts, 
        $20,000
    To support Opera Boston's world premiere of Madame White Snake, by 
composer Zhou Long and librettist Cerise Lim Jacobs. The Chinese 
community specifically will be targeted through educational and 
outreach activities related to the production.
Boston Lyric Opera Company, Inc., Boston, Massachusetts, $25,000
    To support a new production of The Turn of the Screw, by Benjamin 
Britten. Performances will be accompanied by community events through 
partnerships with area Boston cultural institutions.
Cedar Rapids Opera Theatre, Cedar Rapids, Iowa, $15,000
    To support a production of Salome, by Richard Strauss. The 
production will be filmed in HD and broadcast statewide by Iowa Public 
Television.
Central City Opera House Association, Denver, Colorado, $20,000
    To support a new production of Three Decembers, by composer Jake 
Heggie and librettist Gene Scheer. Based on an original text by 
playwright Terrence McNally, the musical theater work combines spoken 
text, soloists, and ensembles accompanied by an onstage chamber 
orchestra.
Chicago Opera Theater, Chicago, Illinois, $20,000
    To support a new production of Three Decembers, by composer Jake 
Heggie and librettist Gene Scheer. Based on an original text by 
playwright Terrence McNally, the musical theater work combines spoken 
text, soloists, and ensembles with an onstage chamber orchestra.
Dallas Opera, Dallas, Texas, $25,000
    To support a new production of Donizetti's Anna Bolena. 
Accompanying outreach activities will include lectures, panel 
discussions with the artists, and a radio broadcast on Classical WRR-
FM.
Des Moines Metro Opera, Inc., Indianola, Indiana, $15,000
    To support the Opera Iowa Touring Educational Troupe. The program 
will engage artists to reach students in underserved rural Midwestern 
schools.
Florentine Opera Company, Inc., Milwaukee, Wisconsin, $20,000
    To support an audio recording and performances of Elmer Gantry, by 
composer Robert Aldridge and librettist Herschel Garfein. Naxos 
International will create a compact disc recording for release in 
November 2011 and digital tracks will be available for download.
Gotham Chamber Opera, Inc., New York, New York, $10,000
    To support the commission, development, and premiere of Dark 
Sisters, by composer Nico Muhly and librettist Stephen Karam. The opera 
will serve as the centerpiece of the company's 10th anniversary season.
Hawaii Opera Theatre, Honolulu, Hawaii, $22,000
    To support performances of Wagner's Die Walkuere (The Valkyrie). 
The production marks the first time that an opera from The Ring cycle 
will have been performed in the State, and it also will serve as a 
focal point for the company's 50th anniversary season.
Houston Grand Opera Association, Inc., Houston, Texas, $30,000
    To support performances of Puccini's Tosca. Educational components 
will include pre-performance lectures, teacher workshop events, and 
lecture presentations
Lyric Opera of Kansas City, Inc., Kansas City, Missouri, $15,000
    To support performances of Verdi's Rigoletto. Education and 
outreach activities will accompany the performances.
Madison Opera, Inc., Madison, Wisconsin, $15,000
    To support a production of The Turn of the Screw, by Benjamin 
Britten. The production continues the initiative recently established 
by the company to present chamber opera as an expansion of the 
mainstage performance series.
Opera for the Young, Inc., Madison, Wisconsin, $12,500
    To support artists' fees for a multi-state tour of a new production 
of Gilbert and Sullivan's The Pirates of Penzance. Diane Garton Edie 
has condensed and adapted the operetta into a child-friendly version 
without sacrificing essential story line, language, or representative 
musical score.
San Francisco Opera Association, San Francisco, California, $100,000
    To support Wagner's Der Ring des Nibelungen (The Nibelung's Ring). 
Educational outreach and enrichment activities will include an Insight 
panel discussion in San Francisco's Herbst Theater featuring members of 
the cast and production team and preview lectures that will be held at 
various venues throughout the Bay Area.
Tulsa Opera, Inc., Tulsa, Oklahoma, $16,500
    To support a production of Don Quichotte, by Jules Massenet. 
Various community outreach activities will coincide with the 
production, such as small-scale preview performances in bookstores and 
churches featuring Studio Artists, pre-curtain lectures, and school 
programs.
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties, and its programs are 
seriously underfunded. Therefore, we urge you to continue towards 
restoration and increase the NEA funding allocation to $180 million for 
fiscal year 2011.
    On behalf of OPERA America, thank you for considering this request.
                                 ______
                                 
               Prepared Statement of Preservation Action
    Madam Chairman and members of the subcommittee: thank you, Chairman 
Feinstein, Ranking Member Alexander, and other honorable members of the 
subcommittee, for the opportunity to submit written testimony on the 
fiscal year 2011 appropriations for Interior, Environment, and Related 
Agencies.
    We are writing to request adequate funding for our Nation's State 
and Tribal Historic Preservation Offices (SHPOs)($55 million and $12 
million respectively), the Save America's Treasures ($25 million) and 
Preserve America ($4.6 million) programs (permanently authorized by 
President Obama under Public Law 111-11 on March 30, 2009), as well as 
for National Heritage Areas ($14.8 million).
    We are very concerned about the proposed elimination of the Save 
America's Treasures (SAT) and Preserve America (PA) programs and the 
substantial reduction for National Heritage Areas in the 
administration's fiscal year 2011 budget. We also wish to comment on 
the termination language used by the administration for SAT and PA 
which justifies their elimination by stating that it will enable the 
NPS to ``. . . focus resources on managing national parks and other 
activities that most closely align with its core mission.'' In our 
opinion, these decisions that demonstrate a bias towards our natural 
resources, at the expense of our cultural resources are in error, 
particularly in the face of this administration's commitment to job 
creation, helping small businesses and the combating of climate change.
SHPOs and THPOs--The Backbone of our Historic Preservation Program 
        (Awarded $46.5 Million and $8 Million in Fiscal Year 2010 
        Respectively via the Historic Preservation Fund)
    SHPOs carry out the Federal historic preservation program that 
provides citizens the tools needed to revitalize, rehabilitate, and 
protect the places that give meaning to America. Funding for SHPOs 
leverages investments through local jobs, non-Federal contributions and 
long-term economic development. In 2009, the Rehabilitation Tax Credit, 
administered by SHPOs, leveraged nearly $5 billion in private 
investment and created more than 70,000 jobs. SHPOs also review Federal 
projects for their potential impact on historic sites. A recent 
February 2010 GAO report noted that SHPO staff shortages have delayed 
various American Recovery and Reinvestment Act (ARRA) projects. Even a 
modest increase for SHPOs would help fund additional staff vital to 
conducting ARRA reviews while still providing communities with the 
means necessary to revitalize and preserve their heritage.
    THPOs carry out many of the same functions as SHPOs in tribal 
areas. There are currently 100 THPOs, compared to only 12 in fiscal 
year 1996 when the program was first funded. Unfortunately, the amount 
of funds appropriated is not keeping pace with this expansion. The 
addition of new THPOs each year keeps the average level of support per 
THPO suppressed at around $75,000, barely enough to operate a program.
Save America's Treasures (Awarded $25 Million in Fiscal Year 2010 via 
        the Historic Preservation Fund)
    The SAT program was created in 1998 by Executive order to provide 
matching funds for the restoration of resources significant to our 
national heritage. With broad bipartisan support in Congress and the 
leadership of the two previous administrations, SAT funds have brought 
new life to irreplaceable historic treasures--including buildings, 
documents and works of art--in every State. SAT has also provided 
tremendous benefit to projects and sites such as Ellis Island, Valley 
Forge, Thomas Edison's Invention Factory, Mesa Verde, Eleanor 
Roosevelt's Val-Kill Cottage, Dr. Martin Luther King's Ebenezer Baptist 
Church, and the Star Spangled Banner.
    Since the program's creation, approximately $293.7 million has been 
allocated specifically for the restoration of 1,132 historic 
structures, many of them National Historic Landmarks. As a matching 
grant program, this allocation has resulted in the generation of an 
additional $377 million in private investment. Moreover, SAT projects 
resulted in the creation of more than 16,000 jobs (defined as one full-
time equivalent job for 1 year), at the reasonable investment of 
$13,780 per job.
    In addition to the obvious benefit of preserving our Nation's 
history, these jobs are most often created within small businesses in 
the construction industry, which have been hard-hit by the recession. 
Builders, plumbers, masons, and electricians are only a few of the 
trades involved in historic preservation generating local jobs and 
spending. In fact, dollar for dollar, building rehabilitation generates 
more jobs than new construction.
    Further, these are ``green jobs,'' as the restoration and 
rehabilitation of existing buildings prevents the disposal of already 
produced building materials and vastly improves energy efficiency. 
Approximately 48 percent of our Nation's carbon emissions come from the 
demolition, construction, and operation of buildings--almost twice as 
much as from transportation (27 percent.) Nearly half of all greenhouse 
gasses sent into the atmosphere come from buildings. If our Nation 
wants to pursue a climate change policy, then we must make every 
investment we can into the rehabilitation of existing buildings to 
reduce the flow of materials into the waste stream, increase their 
energy efficiency and revitalize and repopulate our cities.
Preserve America and National Heritage Areas (Awarded $4.6 Million and 
        $17.8 Million, Respectively, in Fiscal Year 2010 From the 
        National Recreation and Preservation Account)
    Preserve America grants, administered by the National Park Service 
(NPS), support projects in five categories: research and documentation, 
planning, interpretation and education, marketing, and training. The 
program helps local communities develop sustainable resource management 
strategies and sound business practices for the continued preservation 
and use of heritage assets. Successful projects feature public-private 
partnerships and serve as models to communities nationwide for job 
creation in heritage tourism, historic preservation and education, as 
well as spurring economic development in the Preserve America 
communities.
    Funded activities have included rural or downtown survey and 
documentation projects; way-finding, signage, and interpretive guides; 
regional tourism planning and development initiatives; marketing and 
promotion plans; and hospitality and docent training. Eligible 
applicants include designated Preserve America Communities (of which 
there are almost 800); SHPOs, Tribal Historic Preservation Offices, and 
Certified Local Governments that are in the process of applying for 
Preserve America Community designation.
    National Heritage Areas, of which there are 49, are designated by 
Congress because their natural, cultural, historic, and scenic 
resources are considered uniquely representative of the American 
experience. While the NPS provides technical assistance and funding, 85 
percent of the support for National Heritage Areas comes from the 
impacted regions through private, State, and local government sources. 
The Federal seed monies have spurred grassroots conservation efforts 
that are self-determining, self-defined and thereby reflective of their 
individual values in a national context. Each program is customized 
based upon the significance, threat, resources, and need of each 
community.
    Tourism is a major economic development and job creation tool. In 
2006, travel and tourism generated $740 billion to the U.S. economy and 
employed 8 million people. Approximately 55 percent of Preserve America 
Grants have gone directly for heritage tourism development in small to 
medium-size towns, 19 percent for rural heritage and preservation, and 
12 percent for heritage tourism projects in larger urban areas. In 
National Heritage Areas, as a result of direct and indirect sales, an 
estimated 152,324 jobs are supported that pay $3.2 billion in wages and 
salaries. Overall, cultural heritage travelers contribute $192 billion 
annually to the U.S. economy. They contribute by paying not only for 
plane tickets and hotel rooms; they support the small businesses 
wherever they go.
The ``Core Mission'' of the NPS
    The administration's justification of the elimination of SAT and PA 
is ``so the NPS can focus resources on managing national parks and 
other activities that most closely align with its core mission'' and 
``a need to focus resources on national parks and lack of management'' 
was the reason cited for the reduction for National Heritage Areas. 
There seems to be an assumption in this language that the NPS's primary 
role is to focus on managing parks and that historic preservation 
programs are a distraction. As such, this justification is troubling 
and, at best, inaccurate.
    The ``Organic Act of 1916'' created the NPS in the Department of 
the Interior ``. . . to conserve the scenery and the natural and 
historic objects and the wild life therein and to provide for the 
enjoyment of the same in such manner and by such means as will leave 
them unimpaired.'' Over the years, the NPS's role in historic 
preservation has naturally grown and expanded. Since 1933, the NPS has 
managed the Historical American Buildings Survey, the Federal 
Government's oldest historic preservation program responsible for the 
creation of more than 556,900 measured drawings, large-format 
photographs, and written histories for more than 38,600 historic 
structures and sites. The National Historic Preservation Act of 1966, 
which forms the basis of our Nation's Federal historic preservation 
program within the Department of the Interior, further expanded the 
role of the NPS in the designation and maintenance of historic 
resources. Coupled with the fact that the NPS is the steward of more 
than 27,000 significant structures, 66,000 archaeological sites and 115 
million objects in museum collections, one could argue that not only is 
historic preservation an integral part of the mission of the NPS, it 
helps define it.
The Historic Preservation Fund and the Land and Water Conservation Fund 
        (LWCF)
    As the sub prepares to debate appropriations for fiscal year 2011, 
it is important to consider the source of funding of our natural and 
historic resource programs--the Historic Preservation Fund (HPF) and 
the LWCF.
    The history of the HPF and the LWCF is interconnected. The LWCF was 
established in 1965 for the acquisition and development of public 
outdoor recreation areas and facilities. The source of funding is lease 
revenue generated from oil and natural gas drilling on the Outer 
Continental Shelf (OCS). Recognizing the need to protect our cultural 
resources in concert with our natural resources, in 1976, the LWCF Act 
was amended to include the Historic Preservation Fund to carry out the 
purposes of the National Historic Preservation Act of 1966. Like the 
LWCF, the HPF is funded from OCS lease revenue.
    The LWCF is authorized and receives $900 million in deposits each 
year, and the HPF $150 million. Subject to the annual appropriations 
process, however, neither has ever received full appropriations--
leaving substantial balances in both funds that have yet to be used for 
their intended purpose. In the fiscal year 2011 budget, the President 
took an important and admirable step to move towards full funding of 
the LWCF by proposing a 31 percent increase to $620 million and has 
expressed his intention to reach full appropriation by 2014. In 
contrast the HPF, which was funded at $79.5 million in fiscal year 
2010, with the elimination of the SAT program, will realize a 25 
percent decrease to $54.5 million--making it the lowest appropriation 
in more than 10 years.
Funding for Historic Preservation Programs is in Line With This 
        Administration's Priorities
    Our Nation's cultural resources and natural resources are both 
important. A preference for one over the other would not only be short-
sighted, but once again, it would be in conflict with our desire to 
create jobs, help small businesses and combat climate change.
    We urge you to correct this error and restore funding at the fiscal 
year 2010 levels of $25 million for the SAT program, $4.6 million for 
PA and $17.8 million for National Heritage Areas. Further, we ask for a 
commitment to move toward full and permanent appropriations from the 
Historic Preservation Fund simultaneous with the move toward full and 
permanent funding from the LWCF--acknowledging that both are of 
importance to our Nation.
    Preservation Action is a national nonprofit grassroots member 
organization founded in 1974 representing a broad constituency of 
community volunteers, Government officials and other professionals and 
organizations dedicated to historic preservation, smart-growth, 
community revitalization, and cultural resource management.
                                 ______
                                 
           Prepared Statement of the Performing Arts Alliance
    We urge the subcommittee to designate a total of $180 million to 
the National Endowment for the Arts (NEA) for fiscal year 2011. Mr. 
Chairman and distinguished members of the subcommittee, I am grateful 
for this opportunity to submit testimony on behalf of the Performing 
Arts Alliance and its member organizations--American Music Center, 
Association of Performing Arts Presenters, Chorus America, Dance/USA, 
Fractured Atlas, League of American Orchestras, National Alliance for 
Musical Theatre, National Performance Network, OPERA America, and 
Theatre Communications Group. The Performing Arts Alliance is a 
national network of more than 18,000 organizational and individual 
members comprising the professional, nonprofit performing arts and 
presenting fields. For more than 30 years, the Performing Arts Alliance 
had advocated for national policies that recognize, enhance, and foster 
the contributions the performing arts make to America.
    This testimony is intended to highlight the importance of the 
Federal investment in the arts in order to sustain a vibrant cultural 
community. With more funding, the NEA's core programs could more 
efficiently bring the best in the arts to all Americans:
  --Additional funds would allow the size of individual grants to 
        increase, after having steadily declined since the NEA's budget 
        was cut by 40 percent in fiscal year 1996.
  --Inadequate funding has caused many high-quality grant applications 
        to go unfunded.
    The NEA increases opportunities for the American public to enjoy 
and benefit from the performing arts. Since the establishment of the 
NEA in 1965, access to the performing arts has improved in communities 
large and small across the country. The NEA has helped foster the 
development of the many regional theatres, opera companies, dance 
companies, orchestras, and performing arts centers that Americans now 
enjoy. Despite diminished resources, the NEA awards more than 1,700 
grants annually to nonprofit arts organizations for projects that 
encourage artistic creativity, provide lifelong learning opportunities, 
and engage audiences in the finest the arts have to offer. This modest 
public investment in the Nation's cultural life has resulted in both 
new and classic works of art reaching all 50 States.
    With additional funding, the NEA could do more. The NEA has never 
recovered from a 40 percent budget cut in fiscal year 1996 and has 
resulted in the underfunding of its programs. We are appreciative of 
the increased support this Subcommittee provided for the NEA last year 
and are already seeing benefits of increased access to public 
performing art organizations and artists across the country. The live 
arts bring communities together, encourage dialogue, and provide 
innovation and education opportunities to generations of Americans.
                the nonprofit performing arts community
    The following member profiles of the Performing Arts Alliance, 
which include national service organizations representing new music, 
arts presenting, chorus, dance, musical theatre, opera, orchestras, and 
theatre fields, exemplify the economic, educational, and quality of 
life benefits that performing arts organizations bring to communities 
across the country.
                               new music
    American Music Center (AMC) is dedicated to building a national 
community of artists, organizations, and audiences, creating, 
performing, and enjoying new American music. Since its founding in 
1939, AMC has been a leader in providing field-wide advocacy, support, 
and connection. AMC supports the community by making grants to 
composers and ensembles each year and by offering professional 
development resources for new music professionals. AMC connects the 
community through an array of information services and through 
engagement with the broader performing arts field, providing benefits 
and services for nearly 2,400 members in all 50 States and 25 countries 
around the world.
                            arts presenters
    Performing arts presenters bring professional performing artists 
from all over the world into the communities they serve. They include 
organizations such as performing arts centers in major urban cities, 
academic institutions, artists, artist managers, agents, local arts 
agencies, touring artists and companies, and festivals and fairs. Arts 
presenters facilitate the interaction between artists and audiences, 
support the creation and touring of new works, and are civically 
engaged in their communities. The Association of Performing Arts 
Presenters (Arts Presenters), a national service and advocacy 
organization, represents an industry of more than 7,000 nonprofit and 
for-profit organizations, with members hailing from all 50 States and 
28 countries on 6 continents across the globe. Arts Presenters' members 
bring performances to more than 2 million audience-goers each week and 
spend in excess of $2.5 billion annually, and the field of presenters 
serves more than 6 million audience members every week. Their 
membership includes a range of organizations from very small presenting 
groups (under $50,000 budgets) to multi-million dollar budgets and 
individuals who are artists or performing arts professionals, 
representing a diversity of fields, which include all forms of dance, 
music, theatre, family programming, puppetry, circus, magic, 
attractions, and performance art.
                                 chorus
    Chorus America's mission is to build a dynamic and inclusive choral 
community so that more people are transformed by the beauty and power 
of choral singing. Chorus America strengthens choral organizations and 
provides their leaders with information, research, leadership 
development, professional training, and advocacy to help them deliver 
the best possible contributions to their communities and to the choral 
art. The more than 1,600 choruses, individuals, and businesses that are 
members of Chorus America speak with a strong and unified voice to 
increase recognition of choral singing as an essential part of society.
                                 dance
    There are now more than 600 fully professional dance companies in 
the United States. But only 15 percent of the United States' major 
professional dance companies are 45 years old or more. As an 
established art form with national identity and presence, dance has 
burst onto the scene almost entirely within living memory. And yet, the 
United States can boast some of the great dance companies in the world. 
The key to this spectacular achievement was the creation of a national 
marketplace for dance, especially in the 1970s and 1980s. When the NEA 
instituted its Dance Touring Program in the 1970s, great dance became 
accessible to every community in the United States NEA programs have 
continued to ensure that the best of American dance is for all of the 
United States and a showpiece for the rest of the world as well. In 
addition to the more than 600 professional dance companies, the United 
States has more than 1,000 pre-professional and semi-professional 
groups. Based on a 2008 survey conducted by Dance/USA of 145 companies 
with expense budgets of $500,000 or more, these 145 dance companies: 
employed more than 7,000 people in a mix of full-time and part-time 
positions, performed for total home audiences of nearly 4 million 
people, paid approximately $321.4 million in wages and benefits, and 
received $10.4 million from State, local, and government contributions, 
representing only 2 percent of total income.
                            fractured atlas
    Fractured Atlas is a nonprofit organization that serves a national 
community of artists and arts organizations. Their programs and 
services facilitate the creation of art by offering vital support to 
the artists who produce it, and they help artists and arts 
organizations function more effectively as businesses by providing 
access to funding, healthcare, education, and more, all in a context 
that honors their individuality and spirit. Their fiscal sponsorship 
program has grown from six local groups to more than 1,800 nationally, 
and in 2010 their membership topped 11,000 artists and arts 
organizations, with an expanded audience of 110,000 through their Open 
Arts Network. Fractured Atlas has been an arts industry leader in the 
use of technology to address challenges facing the arts community, 
share information and resources, and empower arts organizations with 
practical tools for managing their operations.
                            musical theatre
    National Alliance for Musical Theatre (NAMT) is the national 
service organization dedicated exclusively to musical theatre and 
serving some of the leading musical theatre producers in the world. 
Last season, NAMT members collectively staged more than 25,000 
performances attended by more than 13 million people, employed 13,000 
people, and provided education programs for more than 1 million 
students and teachers. NAMT has presented its Festival of New Musicals 
annually since 1989, bringing together theatre producers and writers, 
with the goal of furthering the development and production of new 
musicals. NAMT's Festival has showcased more than 300 writers and 200 
new musicals, which have had thousands of subsequent productions 
worldwide.
                      national performance network
    The National Performance Network (NPN) is a group of diverse 
cultural organizers, including artists, working to create meaningful 
partnerships and to provide leadership that enables the practice and 
public experience of the contemporary arts in the United States. As a 
nationwide network, NPN functions as an applied learning community. 
NPN's resources currently support and connect 61 performing arts 
organizations, called NPN Partners, in more than 36 cities across the 
country. The NPN constituency ranges from two-person operations to 
multi-million dollar arts centers. NPN Partners are ethnically, 
culturally, and stylistically diverse and reflect a cross-section of 
urban, suburban, and rural communities that are generally under-
represented. More than 425,000 audience members have attended NPN-
sponsored performances and more than 285,000 people have participated 
in NPN residency activities.
                                 opera
    OPERA America members are found in communities all across the 
country--a total of 117 companies in 43 States. In the United States, 
more than half of these companies were established after 1970, and one 
quarter of the total were established since 1980, making the growth of 
opera throughout North America a relatively new phenomenon. American 
opera companies are well-known for their innovative and exemplary 
education and outreach programs, many of which are funded in part with 
NEA grants. Virtually all U.S. opera companies run such programs in 
their communities. Opera companies help fill the void left by 
discontinued arts education in many public school systems and can help 
young people communicate the realities of their lives via disciplined 
artistic expression. The audience for education and community programs 
served by United States and Canadian companies during the 2007-08 
season totaled more than 2.2 million people. All together, the opera 
companies of America provide more than 55,000 jobs each year and had 
expense budgets more than $826 million for the 2007-08 season.
                               orchestras
    In its more than 40-year history, the NEA has provided invaluable 
leadership and support for musicians, orchestras, and the communities 
they serve through direct grants, support to state arts agencies, and 
national leadership initiatives. Supported by a network of musicians, 
volunteers, administrators, and community leaders, America's adult, 
youth, and college orchestras total more than 1,800, existing in every 
State and territory, in cities and rural areas alike. More than half a 
million individuals are involved in orchestras, including conductors, 
staff, board members, musicians, and volunteers. The NEA's fiscal year 
2009 grants to organizations included 119 grants to orchestras and the 
communities they serve, supporting arts education for children and 
adults, expanding public access to performances, preserving great 
classical works, and fostering the creative endeavors of contemporary 
classical musicians, composers, and conductors. In addition to 
concerts, orchestras offer more than 40 different kinds of programs for 
their communities, including pre-school programs, in-depth, multi-year 
community residencies, long-term partnerships with schools, 
instrumental instruction, educational classes for seniors, and programs 
in hospitals and libraries.
                                theatre
    In 1961, nonprofit theatre in America consisted of only 16 theatre 
companies. Today, thanks in large part to the pivotal role played by 
the NEA, the number of theatre companies is estimated to be more than 
1,900. Almost every Pulitzer Prize winning play since 1976 originated 
at an NEA-funded theatre. Theatre Communications Group (TCG), the 
national organization for the American nonprofit theatre, reports that 
the estimated 1,919 theatres in the United States employ more than 
131,000 workers--actors, directors, playwrights, designers, 
administrators, and technicians--and constitute a more than $1.9 
billion industry. Collectively, these theatres are estimated to have 
offered 202,000 performances that attracted 32 million patrons. TCG 
offers grants to theatres and theatre artists, conducts research on the 
health of the nonprofit theatre field, convenes various meetings around 
the country to bring theatre professionals together, serves as the U.S. 
Center of the International Theatre Institute to promote international 
cultural exchange, produces a wide array of publications about and for 
the theatre field, and serves as the primary national advocate for the 
nonprofit professional theatre field. Based on recent surveys of 196 
nonprofit theatres, TCG reports that more than 1,200 outreach and 
educational programs are in existence today, serving more than 2.7 
million people--including a large number of at-risk children.
                               conclusion
    Performing arts organizations are a vital component of community 
life, allowing citizens to appreciate our Nation's culture and heritage 
through excellent artistic programming. The arts illuminate the human 
condition, our history, contemporary issues, and our future. The NEA is 
an investment that realizes significant returns on the Federal dollars 
invested, both measurable and intangible. We urge you to designate no 
less than $180 million to the NEA. Thank you for your consideration of 
our request.
                                 ______
                                 
          Prepared Statement of the Pocono Heritage Land Trust
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of 
acquiring land at Delaware Water Gap National Recreation Area in 
Pennsylvania. An appropriation of $2.95 million is needed in fiscal 
year 2011 from the Land and Water Conservation Fund in order for the 
National Park Service to acquire the 167-acre Mosier's Knob property.
    I am president of Pocono Heritage Land Trust, a nonprofit 
conservation group based in Monroe County, Pennsylvania. The land trust 
was founded in 1984 to preserve environmentally sensitive lands in the 
Pocono region of northeastern Pennsylvania, and it plays an active role 
in open-space protection programs funded by Monroe County and the 
Pennsylvania Department of Conservation and Natural Resources. As of 
March 2010 Pocono Heritage Land Trust owns or holds conservation 
easements (protection agreements) on 11 separate properties totaling 
more than 3,000 acres of land in Monroe and Lackawanna counties, 
Pennsylvania. PHLT strongly supports the effort to purchase additional 
acreage for the Delaware Water Gap National Recreation Area in the 
vicinity of Shawnee-on-Delaware, Pennsylvania.
    The Delaware Water Gap National Recreation Area is a natural and 
recreational treasure in the mid-Atlantic section of the Appalachian 
Mountains. At roughly 70,000 acres, it is the largest national park 
unit between Maine and Virginia. The park's proximity to the 
metropolitan areas of northern New Jersey, New York City, and 
Philadelphia helps it attract more than 5 million visitors annually. 
Attractions include scenic viewpoints along major thoroughfares, 
hiking, biking, hunting, fishing, camping, and many opportunities to 
learn about the many historical and cultural sites in the park. The 
park also includes 27 miles of the Appalachian Trail.
    Within the park boundary, there are a number of privately owned 
properties that face potential development. Acquisition of these 
inholdings from willing sellers allows the National Park Service to 
consolidate ownership and improve management of forest, habitat, and 
recreational resources. In fiscal year 2011, the National Park Service 
has the opportunity to acquire the 167-acre Mosier's Knob property in 
Smithfield Township, Pennsylvania.
    The Mosier's Knob property is immediately adjacent to the boundary 
of the Delaware Water Gap National Recreation Area and situated along a 
ridge overlooking the Middle Delaware National Scenic and Recreational 
River, a designated unit of the National Wild and Scenic Rivers System. 
The property has abundant natural resources and wildlife habitat, which 
consists of forested lands that drain into Shawnee Creek to the north 
and the Delaware River to the south. The Shawnee Creek watershed 
supports wetlands, rare plants, and a wide variety of wildlife species, 
including amphibians, reptiles, and aquatic species that are identified 
by the State of Pennsylvania and nationally as species of special 
concern. All of these species would benefit from managing the property 
for conservation and open space. The property also intersects two sites 
identified in the Monroe County Natural Areas Inventory as important to 
conserving the biological diversity of the county and state. These 
natural area sites contain one or more species of special concern and 
are recognized as locations that should be managed as protected 
conservation lands.
    Nearby recreational opportunities include picnicking, swimming, and 
walking the McDade Trail. Fishing and boating on the Delaware River are 
major recreational activities that take place throughout much of the 
year. A few scenic roadways run parallel to the river along the ridge 
of the mountain and provide amazing viewsheds of the river and 
landscape vistas of the park. Purchase of the property would reduce the 
number of additional roadways and driveways associated with any 
development, thereby eliminating air and water quality impacts, noise 
pollution, and any intrusion upon the night sky.
    Residential development continues to be a concern in the area 
around Shawnee-on Delaware. The Mosier's Knob parcel, for example, is 
owned by a development company and is part of a larger development plan 
for the valley. Without Federal protection, it is likely the landowner 
will develop the property. Development on Mosier's Knob would 
dramatically impact one of the park's most important viewsheds. A 
viewshed analysis conducted by the park determined that development 
would be visible both day and night from the Appalachian National 
Scenic Trail. Residential or commercial development in the Mosier's 
Knob area has the potential to degrade the water and environmental 
resources within the national park. Stormwater runoff and an increase 
in potential flooding could have devastating effects on the fragile 
natural resources within the Delaware Water Gap National Recreation 
Area.
    An appropriation of $2.95 million to the National Park Service in 
fiscal year 2011 for the acquisition of the Mosier's Knob property 
would consolidate ownership and improve management of forested areas 
within the park, protect wildlife habitat, enhance local park and trail 
networks, and protect the watershed of the Delaware River within the 
national recreation area.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds, improving wildfire management, and assisting the 
adaptation of wildlife and fisheries to climate change. For all these 
reasons, the President has included meaningful increases to the program 
in his fiscal year 2011 budget, and I support the administration's 
commitment to fully funding the program in the near future. Recognizing 
the many demands this subcommittee faces, I also want to thank the 
committee for its recent effort to restore much-needed funding to this 
depleted program. This wise investment in the Land and Water 
Conservation Fund is one that will permanently pay dividends to the 
American people and to our great natural and historical heritage.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Pennsylvania, and I appreciate your consideration 
of this funding request.
                                 ______
                                 
     Prepared Statement of the Pelican Island Preservation Society
    The Pelican Island Preservation Society, an all-volunteer group 
with more than 350 members, mission is to support the Pelican Island 
National Wildlife Refuge. Our organization is greatly concerned about 
the major funding deficit for operations and maintenance (O&M) facing 
the National Wildlife Refuge System (NWRS) and the severe impact this 
is having on the Pelican Island National Wildlife Refuge and other 
refuges in the system. Our request is that O&M funding be increased to 
$578 million in fiscal year 2011.
    I wish to thank the subcommittee for your support over the past 3 
fiscal years in recommending meaningful increases in funding for the 
NWRS. Those increases have served to partially stabilize a critical 
funding deficit which resulted in major losses of personnel and a 
significant loss of capability to manage refuges. While the increases 
have provided some relief, major funding problems still exist and 
sizeable annual increases in O&M funding must be forthcoming if the 
system is ever to reach its full potential. In fact, the 
administration's budget request represents a cut in O&M funding 
compared to fiscal year 2010. Essentially, the funding level requested 
by the administration represents a $18.3million step backward in terms 
of spending power.
    Inadequate funding has historically severely hampered the ability 
of the Fish and Wildlife Service to effectively manage refuges. The 
current backlog of approximately $3.7 billion in operations and 
maintenance needs is a direct result of many decades of neglect in the 
budgetary arena. This backlog must be addressed in an aggressive 
manner.
    On our local level, inadequate funding has significantly affected 
refuge management programs. A central staff currently manages three 
refuges--Pelican Island, Archie Carr, and Lake Wales Ridge. In 2003 the 
staff reached its record high level of six permanent full-time 
employees plus temporaries. As a result of the funding crunch, the 
staff was reduced to two permanent positions. Recent funding increases 
have allowed increasing the staff to three permanent full-time 
employees and two term employees. Five employees to manage three 
refuges, two of which are urban in nature, simply doesn't provide the 
manpower needed to do an acceptable job of refuge management. No one on 
the staff has law enforcement authority which makes it very difficult 
to protect refuge resources. To complicate management problems, Lake 
Wales Ridge is located 100 miles (a 2-hour drive) from the refuge 
office in Vero Beach. No one is stationed at Lake Wales Ridge.
    The role that refuges can play in helping to alleviate current 
economic problems should not be overlooked. There are major economic 
factors associated with the management of refuges. The NWRS attracts 41 
million visitors annually who generate over $1.7 billion for local 
economies, including 27,000 jobs and approximately $543 million in 
employment income. Further, on the average refuges return $4 of 
economic activity for each $1 appropriated for their operation. 
Continued underfunding of refuges will result in negative impacts on 
local economies--something to consider during the tough economic times 
facing our country.
    Invasive species are a major problem facing refuge managers. 
Despite added emphasis on identification and control, valuable wildlife 
habitats continue to be lost. We urge the subcommittee to continue its 
strong support for the control of invasive species.
    I urge the subcommittee to support an allocation of $300 million to 
the Fish and Wildlife Service budget for land acquisition through the 
Land and Water Conservation Fund. The acquisition of important habitat 
for endangered species and other fish and wildlife has been severely 
reduced in recent years due to very low allocations. The increased 
funding level in fiscal year 2010 represents a turn in the right 
direction; however, we need to build on that and then maintain a 
sustained funding level in the area of $300 million into the future.
    In summary, the NWRS is facing a severe funding deficit which 
should be addressed in an aggressive manner. I ask that the 
subcommittee support increased O&M funding for the NWRS to $578 million 
in fiscal year 2011. Further, I ask that the subcommittee support an 
allocation of $300 million from the LWCF for refuge land acquisition in 
fiscal year 2011.
                                 ______
                                 
           Prepared Statement of the Public Lands Foundation
    Senator Feinstein: We thank you for this opportunity to present 
your subcommittee with our views regarding the Bureau of Land 
Management's (BLM) budget request for fiscal year 2011. As a national, 
non-profit organization comprised principally of retired, but still 
dedicated, BLM employees, the Public Lands Foundation (PLF) has a 
unique body of experience, expertise and knowledge of public land 
management. As retirees, we believe we offer an objective and 
nonbureaucratic view of what is currently happening on the National 
System of Public Lands (NSPL). The PLF supports the BLM and its 
programs, but we are independent in our views and requests. We strive 
to improve the effectiveness of BLM by encouraging (1) professionalism 
of its employees; (2) increasing public understanding; and (3) proper 
scientific management of lands administered by BLM.
Overview
    Some of the most significant management challenges for BLM stem 
from rapid population and urban growth in the West and accompanying 
increased demands for access and use of the NSPL. The BLM's customers 
are as diverse as the natural resources the Bureau manages.
    The public lands provide the Nation with opportunities for 
expanding the development of renewable energy as well as traditional 
needs for oil, natural gas, coal, non-energy minerals, grazing land and 
timber. Recreation, wildlife, wild horses, cultural resources and 
special places are significant attributes of those lands as well.
    Management activities contribute to the vitality of State and local 
economies, generating an expected $4.5 billion in revenues for 2011, 
mostly from energy development.
Budget Overview
    The PLF is pleased with several aspects of the overall budget 
request for the BLM. In particular we are pleased to see increases in 
two important areas, the National Landscape Conservation System (NLCS) 
and the inspection and enforcement processes associated with oil and 
gas development.
    The NLCS is unique and comprised of treasured landscapes, 
designated for their outstanding cultural, ecological and scientific 
values. These areas range from red-rock deserts, rocky coasts, and deep 
river canyons to high mountains and arctic tundra. Management of the 
NLCS has long been underfunded.
    We believe the Secretary's recently announced onshore oil and gas 
reforms will assist in restoring balance on the public lands, while 
ensuring continued production of critical energy resources. The shift 
toward greater funding of inspection and enforcement of oil and gas 
development has long been overdue. The fees proposed in the BLM's 
budget will help to offset the cost increasing oil and gas inspection 
and enforcement activities.
    We are also pleased to see increases for land acquisition, 
renewable energy permit processing, the Youth in Natural Resources 
Initiative, climate change adaptation strategies and the Secretary's 
proposal to eliminate the sunset date for the Federal Land Transaction 
Facilitation Act (FLTFA) and to allow lands identified in newer BLM 
land use plans as suitable for disposal to be sold using FLTFA 
authority.
    However, we have a number of concerns with other parts of this 
budget proposal.
Challenge Cost Share (CCS)
    Historically, the BLM has used CCS to fund small, locally based, 
partnership work. Most CCS grants from BLM have been less than $5,000 
each. Most of this money has been used to restore degraded habitats by 
purchasing needed materials and utilizing the labor of local 
communities and organizations to implement the restoration. These sorts 
of projects have been the backbone of efforts to restore sage grouse 
and other sensitive habitats.
    We understand the concerns of the Inspector General, but greater 
emphasis and requirements for improving accounting and reporting of 
expenditures and accomplishments would be superior to ending this 
critical program.
Absorption of Fixed Costs
    The absorption of $15.9 million of fixed costs will have 
significant impacts for all BLM programs. This type of absorption 
serves as a tax across all programs and significantly erodes capacity 
to accomplish much critical work in smaller programs.
Wild Horses and Burros
    We are supportive of the Secretary's proposal as an interim 
solution. The proposed increase of $12 million for the program will 
definitely help, but we are a bit skeptical of the $42.5 million 
request for land acquisition in the East and Mid-West as a long-term 
solution. We believe that the best solution can only come from 
gathering individual stakeholders together and coming up with a 
solution in the West where the horses belong.
Land Use Planning
    The reduction of $8.2 million for land use planning will have 
lasting impact on future decisions on public lands administered by the 
BLM. Designed to last for 15 to 20 years, new or revised land use plans 
will be few and far between. The primary tool the BLM has to affect 
long term change on public lands is land use planning, thus the 
Administration is giving up a significant opportunity to improve 
management direction and future decisions for units of the NLCS and 
other areas of the NSPL. The reduction of $1 million for travel 
management planning is troublesome, since this process is essential to 
improving management of off highway vehicles, a concern of everyone.
Alaska Conveyance
    The reduction of $13 million from the Alaska Conveyance Program 
will be devastating to the BLM in Alaska and the U.S. Government's 
commitment to the State of Alaska, the Native Corporations and 
individual native allottees to transfer lands that have been promised 
to them for decades. This would be roughly a 20 percent reduction in 
land transfer capability and will result in reductions in force and a 
loss of 638 Survey Contracts for many small villages in Alaska.
Hazardous Fuels Reduction
    The Department of the Interior maintains budget control for fire 
funding for BLM and other Bureaus. The Department's proposal to reduce 
funding for hazardous fuels reduction by $42.6 million and Burned Area 
Rehabilitation by $2 million is inconceivable to us. At a time when the 
Secretary proposes to focus the Department on climate change, the 
budget proposes to reduce the most significant tool the BLM and other 
Bureaus have to reduce the impacts of climate change. The spread of 
invasive species such as cheat grass will go unchecked. The budget also 
proposes to focus remaining funds on projects in the Wildland Urban 
Interface only. This will result in more catastrophic wild fires on the 
majority of public lands across the West. Fires will be larger, burn 
more quickly and frequently if this reduction stands.
    Mr. Chairman, we hope these comments and concerns assist you in 
budget deliberations for the fiscal year 2011 budget for the BLM. We 
remain sincere in our efforts to assure proper management of the 
National System of Public Lands.
                                 ______
                                 
Prepared Statement of the Public Trust Environmental Legal Institute of 
                             Florida, Inc.
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Thomas Creek--Northeast Florida Timberlands project in Florida. An 
appropriation of $3.5 million from the Forest Legacy Program is needed 
in order to protect the first 294 acres of a 588-acre property. I am 
thankful that this project was included in the President's budget 
request for fiscal year 2011 at a funding level of $3.5 million.
    It goes without saying that the State of Florida has experienced 
tremendous growth in recent decades, and one of the results of that 
growth has been the diminution of the State's forested lands. Among the 
goals of Florida's Forest Legacy Program (FLP) is the mitigation of the 
rapid loss of environmentally important forests through the 
conservation of these forested communities. Statewide this effort is 
focused specifically on lands threatened by permanent conversion to 
nonforest uses and where partnerships complement existing land 
conservation efforts. In North Florida, FLP goals are expanded to 
include the support of sustainable forestry practices, a focus on 
riverine systems, the conservation of critical fish and wildlife 
habitat, and outreach to private nonindustrial forest landowners. This 
year the State of Florida has submitted a Forest Legacy project, Thomas 
Creek--Northeast Florida Timberlands, which meets these important state 
and regional goals.
    Northeastern Florida is home to a diverse coastal ecosystem of 
marshes, wetlands, river corridors, forests, and uplands. The landscape 
has featured centuries of history through the Pre-Columbian, European 
colonization, and American periods. Given the presence of the large and 
growing population of Jacksonville in the center of the dynamic 
ecosystem, much of the conservation in the region is a cooperative 
effort among Federal, State, and local agencies, private landowners, 
and interested organizations. A centerpiece of this cooperative 
approach is the Timucuan Ecological and Historic Preserve (EHP), a 
unique preserve created by Congress in 1988 that extends more than 
46,000 acres at the mouths of the St. Johns and Nassau rivers.
    The City of Jacksonville is leading an initiative with the National 
Park Service, the State of Florida, and private partners to protect a 
1,780-acre forested property south of Thomas Creek and adjacent to 
Timucuan EHP. Within this larger effort, 588 acres have been proposed 
for acquisition by the City of Jacksonville as part of the Forest 
Legacy Program. In fiscal year 2011, the President's budget includes 
the first 294-acre phase of this Forest Legacy property, which has a 
one-half mile border with Jacksonville's Bear Branch Preserve on its 
western side. On its northern flank lies State-owned conservation land 
within Timucuan EHP along Thomas Creek. The property also includes a 
portion of the site of the 1777 Battle of Thomas Creek, known as the 
southernmost continental encounter between the Americans and British 
during the Revolutionary War.
    The City plans to manage the Forest Legacy property for recreation, 
wildlife habitat, water quality protection, and sustainable forestry 
purposes. Eight miles of existing logging trails would be available for 
hiking and other recreational uses such as camping and hunting. The 
project area includes hardwood marshes along one-half mile of Bear 
Branch, a tributary of Thomas Creek. The slash pine and loblolly pine 
found on much of the tract are currently managed as a working forest. 
The City will continue sustainable forestry on the tract, recognizing 
the importance of forestry in the economy of northern Florida.
    The landscape provides habitat for many notable species including 
bald eagle, wood duck, hooded merganser, deer, turkey, and quail. 
Bobcats have been sighted in the area. The watershed is also thought to 
have habitat suitable for wood storks, gopher tortoises, flatwoods 
salamanders, and eastern indigo snakes, all Federal or State-listed 
threatened or endangered species. West Indian manatees are known to 
frequent the waters of Thomas Creek and the preservation of this land 
would aid in protecting the water quality for this endangered species' 
habitat. Additionally, a number of Species of Greatest Conservation 
Need, as listed in the Florida Comprehensive Wildlife Conservation 
Strategy, have been identified on the property, including little blue 
heron, snowy egret, tricolored heron, and white ibis.
    Because of its links to the Nassau River watershed, the State of 
Florida has listed this area as a priority for acquisition and 
conservation through the Florida Forever Program. The project area, 
known as the Northeast Florida Timberlands and Watershed Reserve, 
covers forested watershed land in Nassau, Duval, and Clay counties. The 
reserve was categorized in September 2008 by the state as an ``A'' list 
priority acquisition area and as 1 of 21 projects listed as highest 
priority. The goal of the reserve is to provide a wildlife and 
recreation corridor and a growth boundary for the rapidly growing 
Jacksonville area.
    In addition to Timucuan EHP and Bear Branch Preserve, the larger 
1,780-acre property is within the vicinity of several other public 
facilities and sites. About a mile to the west is the 526-acre 
Jacksonville National Cemetery. Authorized by Congress in 2003, the 
cemetery opened in January 2009. Jacksonville International Airport and 
facilities of the Florida Air National Guard are about 1.5 miles to the 
south.
    This key location also poses significant development threats to the 
area. The airport is a large economic generator in the region, and 
lands around it are expected to see high rates of growth in upcoming 
years. The property also has proximity to Interstate 95, allowing for 
easy access to the rest of the Jacksonville metropolitan area. In fact, 
zoning is in place to convert the property into a golf course and 
residential community of 800 homes. But for the current downturn in the 
economy, this land would be well on its way to being developed within 
the next five years. These threats to the property will only increase 
in the future given its accessibility and population and economic 
growth trends.
    An appropriation of $3.5 million from the Forest Legacy Program in 
fiscal year 2011 is needed to begin the protection of the recreational, 
historical, and natural resources of the Thomas Creek--Northeast 
Florida Timberlands property. The City of Jacksonville will provide $2 
million to match the funds provided by the Forest Legacy Program for 
the first phase of this project.
    I urge you to do all you can to ensure that this worthwhile program 
is funded adequately in fiscal year 2011 and that the Thomas Creek--
Northeast Florida Timberlands project receives $4 million in fiscal 
year 2011.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Florida, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians
    Mr. Chairman, my name is Herman Dillon, Sr., Tribal Chairman of the 
Puyallup Tribe of Indians. We thank the subcommittee for past support 
of many tribal issues and in your interest today. We share our concerns 
and request assistance in reaching objectives of significance to the 
Congress, the tribe, and to 25,000+ Indians (constituents) in our urban 
service area.
    U.S. Department of Interior--Bureau of Indian Affairs (BIA).--The 
Puyallup Tribe submits the following detailed written testimony to the 
U.S. Senate Subcommittee on Interior, Environment, and Related 
Agencies. We look forward to working with Congress to insure that 
funding levels for programs necessary for the Puyallup Tribe to carry-
out our sovereign responsibility of self-determination and self-
governance for the benefit of the 4,004 Puyallup tribal members and the 
members from approximately 355 federally recognized tribes who utilize 
our services are included in the fiscal year 2011 budget.
    Puyallup Nation Law Enforcement.--The Puyallup Reservation is 
located in the urbanized Seattle-Tacoma area of the State of 
Washington. The 18,061 acre reservation encompasses most of the City of 
Tacoma, but the area is a ``checkerboard'' of tribal lands, Indian-
owned fee land and non-Indian owned fee land. Our reservation land 
includes parts of six different municipalities (Tacoma, Fife, Milton, 
Puyallup, Edgewood, and Federal Way). The Puyallup Tribe also provides 
services for the 4,004 tribal members and 25,000+ Native Americans from 
more than 355 tribes and Alaskan Villages. The Puyallup Nation Law 
Enforcement Division currently has a Chief of Police, 26 commissioned 
officers and 2 reserve officers to cover 40 square miles of reservation 
in addition to the usual and accustomed areas. Due to limited Federal 
funding for law enforcement in Indian Country, only 2 officers are 
funded with Public Law 93-638 funds. The remaining Patrol Officers (26) 
and Detention Officers (9) positions are funded by the tribe. The total 
cost of law enforcement services, including facilities operations and 
maintenance, exceeds $5.7 million per year. These costs are paid for 
with tribal earned income. With the continuing increase in population, 
increase in gang related activities on the Puyallup Reservation and the 
impact of the manufacturing of methamphetamines in the region, the 
services of the Puyallup Nation Law Enforcement Division are exceeding 
maximum levels.
    A major area of concern has been the status of the tribe's 
detention facility. Due to damages from the February 2001 Nisqually 
earthquake, we have had to relocate to modular/temporary facilities. 
Operated as a ``regional detention facility'' the Puyallup Tribe was 
able to provide detention service to surrounding tribes. Since the 
relocation to modular facilities the tribe's ability to effectively and 
safely incarcerate detainee's has been compromised due to the condition 
of the temporary detention facilities. These conditions have been 
verified by a recent inspection by the BIA. with a recommendation that 
no further funds be allocated to try and bring the facility up to any 
standard. In an effort to protect the safety and welfare of the native 
community the Puyallup Tribe has initiated the design and construction 
of a 46,697 square foot ``Justice Center'' to be located on the 
Puyallup Indian Reservation. The total construction cost of the Justice 
Center is estimated at $23.8 million, is being designed for a 
``phased'' implementation and will provide necessary facilities for the 
delivery of judiciary services including a tribal court, court clerk, 
prosecution, probation, public defender and law enforcement services 
including Police Headquarters and a 17,465 square foot, 28-bed ``Adult 
Detention facility'' (phase I). The tribe was successful in securing 
fiscal year 2009 Department of Justice ARRA Correctional Facilities on 
Tribal Lands Program: Construction of Detention Facilities for Adult 
and Juvenile Offenders funding in the amount of $7,936,648 for the 
construction of the 28-bed Adult Detention facility. An additional $1.1 
million necessary for the completion of phase (I) is being provided 
with Tribal Revenues. It is anticipated that this facility will come 
on-line at the beginning of fiscal year 2012 with an estimated 
operations and maintenance cost of $1.3 million. The Puyallup Tribe has 
commenced the process of submitting a Public Law 93-638 contract 
request to the BIA for O&M funding for the facility. In order to 
complete the tribe's ``Justice Center'' approximately $14.8 million is 
necessary for the construction of the Law Enforcement facility (Phase 
II) and the Judicial/Tribal Court Center (Phase III).
  --Request subcommittee support to increase funding to the BIA Public 
        Safety and Justice Law Enforcement at the fiscal year 2010 
        enacted budget level of $52 million and further request that 
        the BIA transfer law enforcement back into tribal priority 
        allocations (TPA);
  --Support from the subcommittee on the tribe's Public Law 93-638 
        contract request to the BIA for operations and maintenance 
        funding for the tribe's adult detention facility, estimated at 
        an annual cost of $1.3 million;
  --Support from the subcommittee to fund the Tribal Courts budget in 
        the fiscal year 2011 budget at no less than $25 million and 
        request that the subcommittee issue directive language to BIA 
        to include increased funding for the tribal courts fiscal year 
        2012 budget to allow for construction/renovation of tribal 
        court facilities.
    Fisheries, Wildlife and Natural Resources Management.--The Puyallup 
Tribe as steward for land and marine waters in the Usual and Accustomed 
fish, shellfish, and wildlife areas has treaty and Governmental 
obligations and responsibilities to manage natural resources for uses 
beneficial to the regional community. Despite our diligent program 
efforts, the fisheries resource is degrading and economic losses are 
incurred by Indian and non-Indian fisherman, and surrounding 
communities. Our resource management responsibilities cover thousands 
of square miles in the Puget Sound region of the State of Washington 
with an obligation to manage production of anadromous, non-anadromous 
fish, shellfish and wildlife resources. Existing levels of support are 
inadequate to reverse the trend of resource/habitat degradation. 
Resource management is constrained due to funding shortfalls. We seek 
Committee support and endorsement in the following areas:
  --Tribal fisheries resource management, hatchery operation and 
        maintenance funding via Public Law 93-638 contracts have not 
        increased substantially since establishment of base budgets in 
        1984. The demand on Puyallup Tribal Fisheries Program has grown 
        exponential since the eighties and is currently faced by 
        Endangered Species Act listings on numerous species. We request 
        and concur with the Northwest Indian Fisheries Commission that 
        increases in fiscal year 2010 rights protection implementation 
        funding be used to establish new base management funding for 
        fiscal year 2011. We further support the existing BIA hatchery 
        maintenance and rehabilitation and the hatchery reform 
        implementation be funded at the proposed fiscal year 2011 
        budget level;
  --Steelhead numbers throughout the south Puget Sound region have 
        diminished markedly over the past 20 years. Generally, harvest 
        management restrictions in the form of fishing closures, wild 
        fish release regulations and curtailed seasons and/or bag 
        limits have been enacted to protect wild stock. To avoid 
        possible extinction the Puyallup Tribe proposes to construct a 
        steelhead enhancement facility to be located on a 13-acre 
        property owned by the tribe on Wilkeson Creek in eastern Pierce 
        County. The program will be capped at rearing 150,000 smolts on 
        a combination of surface and pumped well water. The steelhead 
        will be reared for approximately 15 months. This project will 
        facilitate the Puyallup Tribe and other resource agencies 
        involved to help stave of extinction of wild winter steelhead 
        in the Puyallup Watershed. We request subcommittee support to 
        appropriate $1.426 million for the Wilkeson Creek Property 
        Steelhead Hatchery Project;
  --Washington Timber-Fish-Wildlife Program--United States/Canada 
        Pacific Salmon Treaty.--The TFW and the United States/Canada 
        Pacific Salmon Treaty programs has allowed for the expansion of 
        tribal participation in the State forest practice rules and 
        regulations and participate in inter-tribal organizations to 
        address specific treaties and/or legal cases which relate to 
        fishing rights, harvest and management. We request subcommittee 
        support to provide funding for the TFW and United States/Canada 
        Pacific Salmon Treaty at the fiscal year 2010 enacted budget 
        level;
  --Unresolved Hunting and Fishing Rights Program.--Tribal Wildlife 
        Management has been the lead agency in management activities to 
        benefit the South Rainier elk herd since 2004. The South 
        Rainier elk herd is the primary stock of elk harvested by the 
        Puyallup Tribe. The Tribe has not only established more 
        reliable methods for population monitoring, but has also been 
        proactive in initiating habitat enhancement projects, research, 
        and land acquisition to ensure sustainable populations of elk 
        for generations. Funds that have been made available to the 
        tribe have been on a very competitive basis with a limited 
        amount per program via USFWS Tribal Wildlife Grants and BIA 
        Unresolved Hunting and Fishing Rights Grants. We request 
        subcommittee support to provide fiscal year 2011 base funding 
        in the amount of $100,000 for the wildlife management program 
        budget.
    Operation of Indian Programs and Contract Support Costs.--The 
President's fiscal year 2011 budget needs increased funding for the 
BIA--Operation of Indian Programs. Within the Operations of Indian 
Programs is the TPA. The TPA budget functions include the majority of 
funding used to support on-going services at the ``local tribal'' 
level, including; law enforcement, natural resources management, child 
welfare, housing, tribal courts, and other tribal governmental 
services. These functions have not received adequate funding to allow 
tribes the resources to fully exercise self-determination and self-
governance. Further, the small increases ``TPA'' has received over the 
past few years have not been adequate to keep pace with inflation. At a 
minimum, we request your support and endorsement in the following:
  --Support by the subcommittee to fund operation of Indian programs 
        fiscal year 2011 request of $2.4 billion and fund Contract 
        Support costs at 100 percent level;
  --Tribal communities have some of the greatest needs in the areas of 
        child abuse and neglect and mental health services. Addressing 
        the current unmet needs in providing services to our most 
        vulnerable and victims of abuse should be a priority of all 
        people. The Puyallup Tribe proposes the development of a Child 
        Advocacy Center and Domestic Abuse Center designed to provide 
        services for children, youth and families in need of child 
        welfare, mental health and juvenile justice services. We 
        request Committee support to increase funding for Indian Child 
        Welfare (TPA) by $45 million; Increase Urban Indian Child 
        Welfare Programs by $15 million; and Increase Child Welfare 
        Assistance, BIA by $55 million.
    Education.--Under DOI, BIA's budget has historically been 
inadequate to meet the needs of Native Americans, resulting in unmet 
educational needs that have multiplied over the past decade. The 
Puyallup Tribe operates the pre-K to 12 Chief Leschi Schools which 
includes a verified 2008-2009 School student enrollment of 910+ 
students, including ECEAP and the FACE program. The enrollment figures 
represents near capacity with all classrooms being utilized on a daily 
basis. With an increasing number of ``pre-kindergarten'' enrollment, 
Chief Leschi Schools will exceed design capacity in the near future. We 
request subcommittee support in the following:
  --We concur with the subcommittee's strong opposition to the 
        President's proposed cut to Indian school construction and 
        request that Indian school construction funding be restored to 
        the level of $293 million;
  --The proposed fiscal year 2011 budget level of $804 million for 
        education programs is an increase of $5 million from the fiscal 
        year 2010 level. However, this amount is inadequate, does not 
        include any across-the-board increases for tribal and BIA 
        schools and no inflationary adjustments. We concur with the 
        NIEA recommendations to increase education programs in fiscal 
        year 2011 and 2012;
    DHHS Indian Health Service.--Funding for the Indian Health Service 
fails to meet the needs of health services for Native Americans. The 
Puyallup Tribe has been operating their healthcare programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) operates a comprehensive 
ambulatory care program to an expanding population in Tacoma and Pierce 
County, Washington.
    There are no IHS hospitals in the Portland area so all specialties 
and hospital care have been paid for out of our contract care 
allocation. The Contract Care allocation to PTHA has been significantly 
inadequate to meet the needs since 2004 when the Puyallup Tribe 
subsidized Contract Health with a $2.8 million contribution; in 2005 
PTHA shifted to a priority one status. By 2009 the tribal subsidy 
reached a staggering $6 million. Given that the PTHA service population 
is only comprised of 17 percent Puyallup Tribal members tribal budget 
priorities in 2009 indicate the tribe will no longer be able to make 
subsidies to the PTHA. Contract Health dollars are expected to run out 
by mid 2010. We request the following subcommittee support for the 
fiscal year 2011 budget;
  --Fund Puyallup Tribal Health Authority Contract Health Care Fund an 
        additional $6 million to match fiscal year 2010 tribal 
        expenditures. Fund the Indian Health Service Contract Health 
        Services budget at $864 million for fiscal year 2011, an 
        increase of $84 million;
  --Fund IHS at the $428 million increase required to maintain current 
        service levels including medical inflation, payroll increase 
        and population growth;
  --Fund Contract Support Costs at $444 million for fiscal year 2011, 
        an increase of $46 million over the fiscal year 2010 level;
  --Exempt IHS budget from rescissions. IHS health programs are subject 
        to the same rates of medical inflation as the Veterans 
        Administration and are deserving of the same consideration;
  --The Indian Health Care Improvement Act (Public Law94- 437) provides 
        funding for the Indian Health Services and has been pending re-
        authorization since fiscal year 2000. The Puyallup Tribe of 
        Indians supports all efforts by Congress and the administration 
        to pass the Indian Health Care Improvement Act.
                                 ______
                                 
            Prepared Statement of the Quinault Indian Nation
        ``The Great Spirit bestowed life to all of us . . . including 
        the animals, birds, fish, insects and plants. Our collective 
        Native warnings and predictions were ignored in the rush to 
        capitalize and exploit the bountiful resources of the land. 
        Countless irreplaceable species are preserved now in museums or 
        documents in textbooks. As the consequences of unmanaged 
        exploitation and pollution reach irreversible proportions, the 
        United States heeded our centuries old appeals for 
        environmental protection. We only hope it's not too late and 
        that Mother Nature's wounds can still be healed. We will 
        continue to serve as the environmental conscience to the nation 
        and the world.''
                                Joseph B. DeLaCruz,
                                                 President,
                                 Quinault Indian Nation, 1972-1993.
    Thank you Senator Feinstein for the opportunity to submit written 
testimony on the fiscal year 2011 budgets for the Bureau of Indian 
Affairs (BIA) and the Indian Health Service (IHS). On behalf of the 
Quinault Indian Nation (QIN), we ask that this subcommittee not access 
unfair/disproportionate rescissions on fiscal year 2011 funding for the 
BIA and IHS and other Indian program funds. Our requests and 
recommendations are as follows:
                   tribal-specific priority requests
    $7 million a year for Blueback Restoration--BIA (for 2011-2019); 
$480,000 for Resource Protection and Enforcement--BIA; and $500,000 for 
Substance Abuse Strategy--IHS.
              local/regional requests and recommendations
    Affiliated Tribes of Northwest Indians; Northwest Portland Area 
Indian Health Board; and the Northwest Indian Fisheries Commission.
national and self-governance requests and recommendations--bia requests
    Provide $82.9 million general increase to BIA Tribal Priority 
Allocation (TPA) for inflationary and fixed costs; provide $64 million 
increase for BIA Contract Support Cost (CSC), including Direct CSC; 
provide $5 million increase in the Indian Self-Determination (ISD) 
Fund; provide 100 percent of fixed costs (uncontrollable), including 
Tribal Pay Costs; and increase funding to the Office of Self-Governance 
to fully staff the office for the increase of tribes entering Self-
Governance
national and self-governance requests and recommendations--ihs requests
    Provide $474 million for IHS mandatory inflation and population 
growth increase to maintain existing healthcare services; $330 million 
increase for Contract Health Services (CHS); $122 million increase for 
IHS to fully fund Contract Support Cost (CSC), including Direct CSC; 
and a $5 million increaseto the Indian Health Service (IHS) Office of 
Tribal Self-Governance.
                 tribal specific requests justification
$61 Million Blueback Restoration ($7 Million Annually From 2011-2019)
    The Blueback Restoration Program is designed to halt the current 
habitat loss and deterioration and to repair and restore natural 
habitat forming processes and sockeye production on the QIN floodplain. 
Conditions that will result from implementation of this program will 
benefit other salmon stocks in the system and will serve to protect 
private property and public infrastructure. The program plan calls for 
formation of public and private coalitions and partnerships to 
implement restoration actions.
    The QIN River Blueback (Sockeye Salmon) Restoration Program will 
help to restore the natural beauty and productivity of the QIN river 
basin to historic levels, thus making it a more attractive tourism 
destination. In addition, the program will provide local construction 
jobs during its implementation phase, and the restoration program will 
result in conditions that will improve and sustain commercial and sport 
fishing on the Quinault River. The program will also benefit local 
residents and businesses by reducing the likelihood of flooding and 
property loss and increasing local economies both in the near and long 
term future. Implementation of the restoration program will help avoid 
the burdensome and restrictive consequences of having the Quinault 
sockeye listed as threatened or endangered under provisions of the 
Endangered Species Act.
    This unique and valuable stock of salmon is near collapse due 
mostly to degraded habitats in the upper Quinault River basin and in 
Lake Quinault. This habitat loss has occurred over the past century due 
to historic timber harvesting, property development, and infrastructure 
construction. Natural processes on the floodplain began unraveling in 
the late 1800s and the deterioration is continuing in the present time.
    This is a long-term project expected to take up to 20 years to 
complete structure placement and enhancement, including the engineering 
and material procurement, with full implementation occurring in the 
decades following as natural processes rebuild the habitat to historic 
conditions. Through successful efforts of this program, it will protect 
and restore the livelihoods of 100 commercial fishermen and 25 sport 
fishing guides in Grays Harbor and Jefferson Counties and the Quinault 
Indian Reservation.
    The program will also contribute partial support for approximately 
20 jobs in the fish processing industry in western Washington, thus 
improve the economic status of the families living in the communities 
within the Quinault Indian Reservation. The program will provide 
employment for 10-30 laborers and equipment operators in Grays Harbor 
and Jefferson counties during the construction phases of individual 
projects.
    This project will reverse adverse environmental impacts by 
restoring habitats and ecosystems of the Quinault River and Lake 
Quinault while at the same time stabilizing the river channel in 
efforts to protect infrastructure and property loss.
    The construction phase of this plan was implemented in the fall of 
2008 with the construction of 12 engineered log jams. With full funding 
as needed on an annual basis, the basic construction phase of this 
project is expected to be completed at the end of fiscal year 2019. 
Fertilization, data acquisition, and monitoring will continue for many 
years.
$480,000 for Resource Protection and Enforcement (Six Enforcement 
        Officers)
    The QIN operates many natural resource programs that are not funded 
to sufficient levels. We particularly are in need of funds to protect 
QIN and Indian resources through enforcement of regulations, infraction 
and trespass detection, and investigation. With a reservation area in 
excess of 200,000 acres coupled with the larger usual and accustomed 
area outside the reservation where we exercise fishing, hunting and 
gathering treaty rights under our self-regulatory status, we cannot 
possibly accomplish the needed level of detection and enforcement with 
current funding.
    In 2010 dollars, we estimate the cost to support one enforcement 
officer at $80,000 per annum. This covers compensation, benefits, 
equipment, vehicle, supplies, and training. We are in need of reliable, 
continued funding to support an additional six enforcement officers to 
provide better protection of our fish, wildlife, and forest resources.
                 $500,000 substance abuse strategy plan
    The Quinault Indian Nation Substance Abuse Strategy seeks to 
improve, integrate, and strengthen the overall health and services to 
protect the communities on the reservation from the significant risks 
related to methamphetamine productions and use by targeting 
enforcement, outreach, prevention, stabilization, and harm reduction 
services to high risk-populations.
    Methamphetamine use within the Quinault Indian Nation is a serious 
concern and a significant public health and social challenge. Since its 
introduction to the community, the government of the Quinault Indian 
Nation has taken a proactive approach to dealing with crystal meth. It 
affects a number of different groups; however, it is most prevalent 
among youth and young adults.
    Some of the major problems contributing to the spread of meth 
trafficking is the size and isolation of our communities, and 
jurisdictional issues related to law enforcement on tribal lands. 
Tribal and local agencies are discovering that cooperation and 
collaboration represent a way to leverage resources to attack the 
threat of methamphetamine. Cooperative, inter-jurisdictional law 
enforcement efforts are the only way that Federal, tribal, and State 
law enforcement agencies will be able to effectively combat 
methamphetamine.
    The Quinault Indian Nation's Substance Abuse Strategic Plan is part 
of a broader more comprehensive alcohol and drug strategy being 
developed that recognizes the need to plan for the future. The Nation 
has encouraged collaborative relationships among government 
departments, health authorities, professionals, community members, and 
families to create conditions that prevent drug use, treat drug users, 
educate the public and hold offenders accountable and control access to 
ingredients and supply while helping to ensure safer communities.
    Most importantly, we have actively sought the guidance and wisdom 
of our elders and with the participation of our youth, community, 
churches and school districts we have undertaken a multidisciplinary 
approach and strategy, emphasizing prevention, enforcement, treatment 
and aftercare. Unfortunately, the best plans prove valuable only when 
the funding is available to execute and implement the strategy. We have 
found that at every level and in every discipline, funding to support 
our strategy is appallingly inadequate.
    We stress the urgent need to reclaim our communities to protect our 
families, our elders and our next seven generations from this menacing 
and deteriorating drug on the Quinault Indian Nation Reservation.
    We support all requests and recommendations of the Intertribal 
Timber Council, the National Congress of American Indians and the 
National Indian Health Board.
    Again, thank you for this opportunity on behalf of the people of 
the Quinault Indian Nation.
                                 ______
                                 
       Prepared Statement of the Rocky Mountain Bird Observatory
    Honorable Senators on the Interior, Environment, and Related 
Agencies Appropriations Subcommittee, I am writing on behalf of the 
Rocky Mountain Bird Observatory (RMBO) concerning the need to increase 
funding to conserve our Nation's migratory birds. RMBO is a 501(c)3 
nonprofit organization incorporated in the State of Colorado with a 
mission to conserve native birds and their habitats. Our migratory 
birds are a shared biological treasure that benefits all U.S. citizens, 
directly or indirectly, in myriad ways. From the cheerful songs that 
greet us in our backyards, to the economic engine that birds provide 
for outdoor recreation and tourism, birds are an integral part of our 
economy and quality of life. Unfortunately, this renewable resource is 
in jeopardy and requires increased attention and commitment on behalf 
of our society to ensure its sustainability.
    We respectfully request that you increase funding for the 
Neotropical Migratory Bird Conservation Act (NMBCA) to $6.5 million in 
fiscal year 2011. While this level of funding still falls far short of 
what is needed to effectively conserve our Nations' bird populations, 
it will help slow the decline of some of our most vulnerable species by 
providing critical resources to ongoing conservation projects in these 
difficult economic times. This relatively modest investment will help 
reduce future costs that would likely be incurred if species were to 
become federally listed as Threatened or Endangered in the future. 
Although we would like to see appropriations for this fund increased to 
at least $20 million annually, we respectfully ask that at a minimum, 
you do not reduce funding for this important and cost-effective program 
that leverages three non-Federal dollars for every Federal dollar 
granted.
    Birds are an incredibly important part of our environment that 
provide invaluable ecosystem services and support our economy both 
directly and indirectly. In 2006, more than 48 million Americans 
engaged in bird watching and bird feeding, contributing more than $82 
billion to the U.S. economy and supporting 671,000 jobs. Birds keep our 
ecosystems healthy by controlling pests and disease vectors, 
pollinating important agricultural crops, trees and other plants, 
dispersing seeds of wide variety of plants, and facilitating nutrient 
cycling and decomposition through the consumption of carrion. Birds 
also excavate cavities and burrows that are essential to other 
wildlife. As birds migrate across the continent, they carry these 
ecosystem services with them. In Canada's boreal forest alone, birds 
provide an estimated $5.4 billion in pest control services.
    Birds are our society's most accessible and sensitive indicator of 
environmental health and ecological change. They are ambassadors for 
entire ecosystems and our best means for conserving all biodiversity. 
NMBCA funding has thus benefited countless other species in addition to 
birds, although much more needs to be done. Recent reports, including 
the 2009 and 2010 State of the Birds, the Partners in Flight Landbird 
Conservation Plan, the Partners in Flight Tri-national Vision, the 
Waterbirds for the America's Plan, and the U.S. Shorebird Conservation 
Plan, highlight the continuing decline of our Nations' birdlife and the 
increasing threats they face. These reports also highlight the critical 
need to increase funding for programs such as the NMBCA.
    Since its creation in 2002, the NMBCA has provided funding for 
programs that protect migratory birds in the places where they most 
need our help, whether it is on their breeding or wintering grounds, or 
places in between. The NMBCA recognizes that a multi-pronged approach 
is needed to effectively conserve birds, including habitat protection 
and management, education and outreach, research and monitoring, and 
law enforcement. By investing in these conservation activities across 
the hemisphere, the NMBCA protects our collective investments in 
natural resource conservation in the United States. by helping to 
ensure that our migratory bird populations return to our backyards, 
forests, wetlands, and grasslands each spring.
    The RMBO acknowledges all the important work being accomplished in 
the U.S. Senate, and recognizes the many competing needs for funding. 
We respectfully ask that you consider our request to modestly increase 
funding for the NMBCA, a unique, innovative and collaborative program 
for migratory bird conservation. Increased support for the NMBCA will 
demonstrate the ongoing leadership and commitment by the United States 
to biodiversity conservation at this critical point in our history.
                                 ______
                                 
     Prepared Statement of the Rocky Mountain Climate Organization
    This statement is being submitted on behalf of the following 
representatives of Government agencies, water providers, and 
organizations with a stake in Colorado's water future: Nolan Doesken, 
Colorado State Climatologist; Eric Kuhn, General Manager, Colorado 
River Water Conservation District; David Little, Director of Planning, 
Denver Water; Brett Gracely, Water Resource Planning Supervisor, 
Colorado Springs Utilities; Brad Udall, Director, CU-NOAA Western Water 
Assessment; Stephen Saunders, President, Rocky Mountain Climate 
Organization; Joel Smith, Principal, Stratus Consulting; Drew Beckwith, 
Water Policy Analyst, Western Resource Advocates; Drew Peternell, 
Director, Trout Unlimited's Colorado Water Project.
    We respectfully request your consideration of inclusion of 
additional fiscal year 2011 funding above the budget request for the 
following critical funding needs for climate data monitoring programs:
  --Department of the Interior, U.S. Geological Survey (USGS), Water 
        Data Program.--$1,440,000 for the stream gage network, and for 
        fiscal year 2012 and years beyond, $1,264,000 per year for 
        recurring operations and maintenance costs;
  --Department of the Interior, USGS, Water Data Program.--$272,000 for 
        reservoir storage monitoring, and for fiscal year 2012 and 
        years beyond, $95,200 per year for operations and maintenance 
        costs;
  --Department of the Interior, BLM, Remote Automated Weather Stations 
        (RAWS) Program.--$162,000;
  --Department of Agriculture, U.S. Forest Service (USFS), RAWS 
        Program.--$258,000.
    Since 2007 our organizations, and others in Colorado, have been 
collaborating on strategies to prepare for the changes that scientists 
have identified as the likely impacts of climate change on the most 
critical natural resource in the West--the water resources that enable 
our people, commerce, and natural systems to thrive. Key to our ability 
in this region to understand and adapt to the effects of climate change 
on water supplies will be good information on what changes are 
occurring with respect to such key elements as temperatures, 
precipitation, snowpack, the timing of snowmelt, streamflows, and soil 
moisture. The data collection systems that currently exist to gather 
this information were not designed to track changes in climate, and so 
are incomplete to meet today's needs. Many of the programs for 
collecting and disseminating these data have deteriorated or have been 
diverted over the last quarter-century, with the result that many long-
term climate and streamflow records have been interrupted.
    The additional climate/water monitoring needs we identify are for 
systems in Colorado and the Upper Colorado River Basin, but they are 
needed for national reasons. The State of Colorado supplies 70 to 75 
percent of the water in the Colorado River. About 30 million Americans, 
or about one-tenth of all Americans, living in seven States--Arizona, 
California, Colorado, Nevada, New Mexico, Utah, and Wyoming--depend on 
Colorado River water. The largest city in each of those seven States 
depends on Colorado River water. Twenty-two of the 32 largest cities in 
those seven States depend on Colorado River water. Fifteen percent of 
the Nation's crops and 13 percent of the Nation's livestock depend on 
Colorado River water. Some of the Nation's most spectacular natural 
resources, including our largest concentration of national parks, 
depend on Colorado River water.
    Yet scientists consistently tell us that a changed climate is 
likely to reduce the flow of the Colorado River. As this is already the 
most over-allocated river in the Nation, this presents a challenge of 
great national significance.
    No less important to those who depend on them are the other rivers 
that originate in Colorado, including the Rio Grande, Arkansas, and 
North and South Platte rivers, which supply additional millions of 
Americans not just in our State but in downstream States. These rivers, 
too, may be substantially affected by the hotter and drier conditions 
projected to result in the interior West from a changed climate.
    To be able to address these challenges, we have a pressing, 
critical need to know more than we now do about our water resources and 
how they may be affected over time. That is the purpose of our proposal 
for relatively modest increases in these key budget accounts:
Department of the Interior, USGS Water Data Program--Stream Gage 
        Network
    Drought information users in the Upper Colorado River Basin (UCRB) 
would like increased opportunity to compare current stream flow with 
historical conditions. They call for the re-establishment of long-term 
gaging stations, presently inactive, having at least 20 years of 
record. The USGS has identified more than 80 stations meeting these 
criteria just in the portion of the basin in the State of Colorado. 
This effort would help address the strong desire of UCRB drought 
information users to have and maintain gaging stations on ``indicator'' 
or ``sentinel'' watersheds without storage or diversions, and many 
years of long-term native flow. Near real-time reporting of observed 
flows, presented in historical context would give users the needed 
understanding of present natural conditions and how they compare with 
the past.
    Our Funding Request.--Costs to establish new gages are on the order 
of $18,000 each, while annual O&M costs are $15,800. Our funding 
request is for full re-establishment of these 80 stations, totaling 
$1.44 million in capital investments. For fiscal year 2012 and beyond, 
$1.264 million per year is needed for recurring annual costs for 
operations and maintenance of these stations.
Department of the Interior, USGS Water Data Program--Reservoir Storage 
        Monitoring Network
    Knowledge of current reservoir levels and storage volumes is a 
vital component of drought monitoring in the UCRB. Only 27 of the 44 
reservoirs in the basin that are systematically tracked for their 
levels and volumes by USGS and the U.S. Bureau of Reclamation have 
automated monitoring systems. For the remaining 17 reservoirs, a very 
labor intensive process of telephone reporting by the Department of 
Agriculture's Natural Resources Conservation Service is required, which 
can only be accomplished once a month. A major monitoring gap could be 
filled by adding automated reservoir level recording to these 17 
reservoirs.
    Our Funding Request.--The cost will be $16,000 per reservoir 
monitoring station, for a total capital investment funding request of 
$272,000 for fiscal year 2011. For fiscal year 2012 and beyond, $95,200 
per year is needed for recurring annual operations and maintenance 
costs for these 17 stations.
Department of the Interior, BLM--RAWS Network
    There are about 70 sites of the RAWS network operated by the BLM 
(27 stations) and USFS (43 stations). The principal purpose of the 
network is to monitor fire danger, though it could provide valuable 
drought information at low elevations as well. A shortcoming of the 
stations is their measurement of precipitation with tipping bucket 
instruments, which unfortunately do not provide useful observations in 
the cold season.
    Our Funding Request.--Upgrading these stations to provide useful, 
year-round precipitation data would cost on the order of $6,000 per 
station. Our fiscal year 2011 funding request is for $162,000 to 
upgrade the 27 BLM RAWS stations in the Upper Colorado River Basin. For 
fiscal year 2012 and beyond, there will be a small increase in annual 
maintenance costs.
Department of Agriculture, USFS--RAWS Network
    There are about 70 sites of the RAWS network operated by the BLM 
(27 stations) and USFS (43 stations). The principal purpose of the 
network is to monitor fire danger, though it could provide valuable 
drought information at low elevations as well. A shortcoming of the 
stations is their measurement of precipitation with tipping bucket 
instruments, which unfortunately do not provide useful observations in 
the cold season.
    Our Funding Request.--The fiscal year 2011 funding request is for 
$258,000 to upgrade the 43 USFS RAWS stations in the Upper Colorado 
River Basin. For fiscal year 2012 and beyond, there will be a small 
increase in annual maintenance costs.
    We would welcome the opportunity to discuss these requests further, 
and stand ready to supply additional information as needed.
                                 ______
                                 
       Prepared Statement of the Ramah Navajo School Board, Inc.
    Mr. Chairman and members of the subcommittee: My name is Nancy 
Martine-Alonzo, and I am the president of the Board of Trustees of the 
Ramah Navajo School Board, Inc. (RNSB), which governs the more than 
community programs on the Ramah Navajo Reservation in Cibola County, 
New Mexico, at Pine Hill, New Mexico.
    RNSB and the Ramah Navajo community people are extremely grateful 
for the continuing support and Federal funding we have received for the 
past 40 years, which has impacted the 4,000-plus members of the Ramah 
Band of Navajo Indians. Without the congressional funding commitment in 
a pioneering effort in 1970, the dreams, hopes, and reality of the 
RNSB's legacy for taking control of its educational responsibilities, 
and thus, our presence here would not have been possible.
    My testimony today is on the need for Congress to appropriate 
funding to address the infrastructure needs of our Bureau of Indian 
Education (BIE) funded school and other Federal community programs in 
two categories. Requests ``1 through 4'' are for the operational 
funding needs of all BIE Grant Schools throughout the country, 
including our own Pine Hill School, and request number ``5'' is for our 
increased telemedicine capacity for our own tribal health clinic:
    Increase Tribal Grant School Support Costs by $23.2 Million Above 
the Budget Request.--This is the account that funds administrative 
costs incurred by tribes that have elected to take over operation of 
BlE schools on their reservations. But funding for these costs has not 
only failed to meet the requirements of the law, it has fallen to such 
a low level--only 61 percent of what the law requires--that the 
viability of tribally operated schools is in jeopardy. The amount 
supplied in the fiscal year 2010 budget--$43.37 million--was even less 
than the amount supplied in fiscal year 2003. For the K-12 Pine Hill 
School, we have had to subsidize this massive underfunding of school 
administrative costs. We should not have to do this, but we have no 
choice. Our indirect costs pool presumes that we receive 100 percent of 
the administrative costs the law requires. When we do not, which has 
been the case for 19 of the last 20 years, RNSB, must make up the 
difference. It is clear that the Obama administration recognizes the 
importance to Indian self-determination of supplying needed funding for 
a tribe's indirect costs--called ``contract support costs.'' For fiscal 
year 2010, the President and Congress joined to provide an enormous 
$116 million increase for the contract support costs of tribes 
performing Indian Health Service (IHS) Contracts. But why has not this 
desire to meet its commitment to tribes extended to tribally operated 
school programs. There is no justification for this disparate 
treatment. The President seeks $46.37 million for Tribal Grant Support 
Costs, an increase of $3 million. While we appreciate a request for a 
meaningful increase for the first time in 9 years, it is grossly 
insufficient to meet our costs and will not even enable BIE to pay 65 
percent of the statutorily required amount. We calculate that full 
funding for Tribal Grant Support Costs will require $69.6 million. 
Thus, we ask the subcommittee to recommend an increase of $23.2 million 
above the budget request for Tribal Grant Support Costs.
    Increase Indian School Equalization Funds (ISEF) Budget by $39.8 
Million to a Total of $431 Million in Order To Fulfill the Federal 
Government's Obligation to Indian Children in the BIE School System.--
These funds support our education program, which is, of course, the 
core function of our school. In order to pay competitive teacher 
salaries and maintain student-teacher ratios required by New Mexico 
law, our School Board has annually contributed its ISEF funds to cover 
support and auxiliary cost for the past several years. Without an 
increase to ISEF, our school could not recruit and retain high-quality 
personnel needed for our educational program to succeed. Key support 
services also require additional subsidies. For example, our food 
service budget, transportation, facilities and maintenance falls short 
of the amount needed, and we must also subsidize school security, a 
school nursing staff, and after-school programs. All of these costs 
should be the responsibility of the BIE. But the agency's budget for 
the ISEF chronically fails to supply the level of support needed, and 
does not take into account the enhanced costs of operating a small 
school such as ours in a sparsely populated reservation community. Over 
the past 7 years, the ISEF budget has increased by only 13 percent--
less than 2 percent per year. For fiscal year 2011, the administration 
seeks to decrease the ISEF budget by more than $500,000. Instead, we 
urge that the ISEF budget be increased by $39.8 million to a total of 
$431 million in order to fulfill the Federal Government's obligation to 
the 42,000 Indian children in its BIE school system.
    Student Transportation for Fiscal Year 2009 (President's Request: 
$46,912,000).--Student transportation has a long history of being 
underfunded. Since 1975 until now, on the average, 90 percent of 
students attending the Pine Hill School travel by school buses on 450 
miles of mainly unimproved roads of gravel or dirt. These road 
conditions result in much wear and tear on our bus fleet and are 
compounded during inclement weather. When fiscal year 2008 
transportation funding resulted in only $2.61 per mile, this was only 
enough to cover 70 percent of our transportation needs, so we are 
forced to reprogram ISEP funds to offset this shortage for our 
transportation needs since students must first get to school and back 
home before any education can happen. Since the cost of fuel is rising, 
as is repair and maintenance, we request an increase in student 
transportation to reflect the $3.10 per mile for funding of 
$55,256,000. This would be getting us closer to the national average 
rate of $3.58 per mile. Until we receive adequate school bus funding, 
we will continue to have to reprogram funds from instructional programs 
to pay the costs of getting students to school. Also, we do not receive 
any funding for extracurricular and cocurricular activities that 
augment our school improvement efforts, such as school field trips and 
athletic events.
    College Scholarships.--Any reduction in appropriations for college 
scholarships for American Indian students is an open invitation for 
increasing unemployment among our Indian youth. During the past several 
budget cycles, scholarship funding has steadily been reduced while the 
number of applicants increases. There is absolutely no logical reason 
to put programs such as ``No Child Left Behind'' in place with a 
Federal mandate when the opportunities for attaining postsecondary 
education is being reduced at the same time. If our country is to 
sustain benefits from our youth by becoming our future leaders, it 
needs to provide scholarship funding that parallels the ever increasing 
need for college educated Indians in education, business, health, 
natural resources, and all other professions needed by tribes 
throughout the country.
    RNSB is also requesting $1 million for:
  --Telemedicine Capability ($1 million).--The Pine Hill Health Center, 
        a tribal clinic that is part of the IHS system, has a great 
        need for telemedicine and associated 21st century capabilities. 
        Our current computer system was installed when there were only 
        35 staff members and 1,000 sq. ft. of space. Our health 
        programs have grown over the past 35 years to meet the needs of 
        the Navajo people in this rural area to more than 70 employees 
        and 10,000 sq. ft. to provide medical, emergency ambulance 
        services, pharmacy, dental, wellness, and behavioral health 
        services. Recruitment and retention of highly qualified medical 
        staff and proper maintenance and replacement of equipment are 
        extremely hard to sustain in our rural isolated community.
    The telemedicine needs include replacing and enlarging the computer 
system that handles the patient database and financial systems. Such an 
overhaul will include such things as installation of equipment for 
federally mandated electronic health record requirements, telehealth 
(video conferencing for specialist consultation on urgent patient 
questions, as well as psychiatric and mental health emergency 
consults), installation of a digital dental system, upgrading of 
radiology equipment to handle digital radiology and teleradiology 
capability, and the associated costs, i.e., routers, servers, 
uninterrupted power supplies, replacement of our financial management 
system, cabling and installation, and replacement and additional PCs.
    Presently, providers rely on a ``wet'' film and no radiologist 
interpretation due to remoteness of area. The medical and dental 
providers currently have no electronic links to the patient records and 
information at other IHS facilities or to the non-IHS hospitals and 
doctors' offices where referrals are made to either send or receive 
important diagnostic information. We currently rely on telephone, fax 
and postal mail communications, which cause delays in making 
appropriate medical decisions and delaying patient care. Another 
example is a referral of one of our patients for CT exam. Because we 
have no connectivity to these institutions we had to rely on the CT 
report coming by mail. Our physicians received the report 3 weeks later 
with a definitive cancer diagnosis which delayed cancer treatment by 
approximately 1 month. Lab information is often not available until the 
next day, whereas electronic linkages would give results within 30-60 
minutes. Having immediate access to patient care information would 
increase the quality of care given as well as the efficiency of 
services.
    Our request is certainly consistent with the mission and activities 
of the IHS, which is expanding its efforts in the area of telemedicine. 
IHS has requested a $40 million increase (for a total of $135 million) 
in the area of health information technology for fiscal year 2011 in 
the Hospitals and Clinics program. We also note that the IHS medical 
equipment account, for which the administration requested $23.7 million 
(a $1 million increase), could be a source of funding for telemedicine 
equipment. We ask Congress to specify that the IHS provide increased 
funding to help meet the urgent telemedicine needs of the Ramah Navajo 
community.
    The Ramah Navajo Community.--The main Navajo Nation Reservation is 
spread out over Arizona, New Mexico and Utah, but the Ramah Navajo 
reservation area: (1) Is geographically separated from the main 
reservation lying 175 miles southeast in Cibola County, New Mexico; (2) 
Covers approximately 300 square miles in a rural, isolated high desert 
area; (3) Has few paved roads, no business center, and the nearest 
towns are more than 60 miles away; (4) Was ignored for most of its 
history by Federal, State, and tribal governments; and (5) Began to 
realize that it must start exercising more self reliance in the late 
1960s when the local public school was condemned, closed, and the State 
declined to rebuild it.
    Efforts begun in the 1960s by Ramah Navajo grass roots leaders to 
obtain funding for their own school by traveling to Washington, DC, to 
make direct appeals to congressional leaders. These efforts were 
successful and the construction of the community-controlled K-12 Pine 
Hill School was soon begun. The new RNSB then acquired other much 
needed programs for the community, such as an IHS clinic, a radio 
station funded by the Corporation for Public Broadcasting, and other 
services. All of these efforts by the Ramah Navajo people--as well as a 
similar effort by another Navajo community--led to the passage of the 
``Indian Self-Determination and Education Assistance Act'' of 1975 
(Public Law 93-638), the most important congressional law in modern 
American Indian history.
    RNSB is celebrating its 40th Anniversary in 2010 in community self-
determination since its founding in 1970. RNSB and the Ramah Navajo 
Chapter have established and continue to maintain: (1) Authority from 
the Navajo Nation to directly contract programs from Federal and State 
governments; (2) Recognition by the Bureau of Indian Affairs to 
contract on a government-to-government relationship; and (3) Our own 
BIA Ramah Navajo Agency.
    Today, RNSB not only operates a K-12 BIA grant school, but also 
more than 30 other programs for the Ramah Navajo community, including, 
among others, a Health Clinic, Social Services, four preschool programs 
(Head Start, FACE, Early Intervention, and Day Care), Behavioral Health 
Services, Wellness Center, a Workforce Investment Act program, Adult 
Education, GED program, School Farm, Fair Grounds, and a Radio Station. 
RNSB, therefore, provides most major services for the community. We 
have an annual operating budget of about $17,500,000, of which roughly 
80 percent is used for personnel costs.
                                 ______
                                 
       Prepared Statement of the Sierra Foothills Audubon Society
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony on behalf of the 
Sierra Foothills Audubon Society in support of acquiring land at Tahoe 
and Eldorado National Forests in California. An appropriation of $5.5 
million is needed in fiscal year 2011 from the Land and Water 
Conservation Fund in order for the Forest Service (USFS) to acquire an 
assemblage of properties totaling 3,187 acres.
    The Sierra Foothills Audubon Society is located next to the Tahoe 
National Forest and is very concerned about the birds and other 
wildlife of the forest. The irrational checkerboard ownership pattern 
in the central Sierra Nevada is one of the most significant challenges 
facing USFS land management. Incompatible uses on private parcels 
interspersed with public lands degrade wildlife habitat, water quality, 
recreational access, and scenic views on the public lands and 
complicate forest management and fire control. Disruption of north-
south habitat connectivity, essential to wildlife migration in the 
Sierra Nevada, will have much more serious effects as climate change 
significantly shifts wildlife habitats. For these reasons, the USFS has 
made consolidation of public ownership in checkerboard areas an 
acquisition priority in California. Acquiring all the private lands in 
the checkerboard region with significant wildlife, watershed, scenic, 
and recreational values will be a very long-term effort; consistent 
progress is essential.
    We are asking you to support funding for parcels in six areas, all 
but one of which are in the region of checkerboard ownership. These 
parcels are the Tahoe and Eldorado National Forests' highest 
acquisition priorities in fiscal year 2011. The merits of the parcels 
in each area are briefly described below.
Castle Peak Area (Tahoe National Forest, Checkerboard Region)
    Our highest priorities for acquisition are parcels in the Castle 
Peak area on the Sierra Crest in Tahoe National Forest. Most of the 
Castle Peak area is included in the Castle Peak Proposed Wilderness. 
The Castle Peak area is highly scenic and is a very popular year-round 
recreation area for the large populations of northern California and 
western Nevada. Thousands of acres in the Castle Peak area have been 
purchased in recent years, thanks in part to your support, but the 
acquisitions are not yet complete.
    The White Rock Lake parcel, most of which is roadless, is on the 
northern edge of the proposed wilderness. Including the roadless 
portion of the parcel in the proposed wilderness would make its 
boundary more logical and defensible. Acquisition of the parcel would 
consolidate public ownership of the White Rock Lake watershed, better 
protecting the Lake and its population of Federal endangered mountain 
yellow-legged frogs.
    Two parcels southwest of Castle Peak and close to the proposed 
wilderness have significant recreational values. Acquisition of these 
parcels would make possible an improved routing of the popular Hole in 
Ground bicycle trail onto public lands. These parcels, which are near 
already subdivided lands, are potential locations for second-home 
development, which makes their acquisition more urgent.
Sagehen Creek Watershed (Tahoe National Forest, Checkerboard Region)
    The University of California's Sagehen Creek Field Station has used 
the Sagehen Creek watershed as an outdoor classroom and site for 
wildlife, forestry, and hydrology research since 1951. Recognizing this 
use, the USFS has designated the public lands in the watershed as the 
Sagehen Creek experimental forest.
    Consolidated public ownership of the experimental forest would 
ensure that incompatible activities on private land in the watershed do 
not confound research data and restrict educational activities. 
Acquisition of sections 13 and 15 on the southern and western 
boundaries of the experimental forest would significantly decrease the 
private lands in the Sagehen Creek watershed. Acquisition would also 
add to the public lands in the north-south wildlife corridor on and 
near the Sierra Crest, in which ownership is significantly fragmented.
Lacey Valley Meadows and Webber Lake (Tahoe National Forest, 
        Checkerboard Region)
    The 1,500 acres of beautiful subalpine meadow in Lacey Valley south 
of Webber Lake are an outstanding feature of a 3,000-acre property in 
the vicinity of the Lake that will be available for acquisition. Two 
sections in the upper end of the Valley are available in fiscal year 
2011.
    The meadow and riparian areas of Lacey Valley are habitat for 
waterfowl and for the willow flycatcher, which is on the State 
endangered list. The meadow and the surrounding uplands provide habitat 
for deer and numerous species of raptors and predators.
    Though meadows are only a small percentage of the lands within 
Tahoe National Forest, they contribute disproportionately to the 
forest's scenic, wildlife, and recreation values. A large proportion of 
meadows within the forest are privately owned; early settlers valued 
the resources of meadows and their suitability for settlement. Now 
meadows are attractive locations for second-home and resort development 
which seriously degrades their ecosystems and denies the general public 
access. Promptly responding to opportunities to acquire meadows is 
essential because meadows are so attractive to residential and resort 
developers. Acquisition of the forested ridges surrounding the Lacey 
Valley meadows ensures protection of the meadows and creeks.
English Mountain (Tahoe National Forest, Checkerboard Region)
    Purchase of this parcel would help consolidate very fragmented 
public ownership immediately northeast of English Mountain by acquiring 
the remainder of a checkerboard section. The parcel contains most of 
the northeastern slopes of English Mountain and also Secret Lake, a 
small alpine tarn, and its outlet stream. Purchase of the section is 
the beginning of the highly desirable eventual consolidation of public 
ownership of beautiful English Meadow and other meadows along the 
Middle Yuba River. The Grouse Lakes Potential Wilderness, which 
includes the summit of English Mountain, is immediately to the south of 
the parcel. Though part of the section has been logged, some mature 
mixed conifer forest remains.
Big Avalanche Cave (Tahoe National Forest, Checkerboard Region)
    Public ownership of the parcel would protect and guarantee public 
access to this regionally significant limestone cave system with 1,500 
to 2,000 feet of passages. In the opinion of northern California 
speleologists, Big Avalanche Cave, where extensive exploration of easy 
passages with minimal resource impacts is possible, is the most 
important recreational cave in the northern Sierra Nevada. A colony of 
Townsend's Big-eared Bats, a species of concern in California, occupies 
a summer roost a few miles away. The cave is a suitable and likely 
winter hibernation site for this colony. Both the Western Cave 
Conservancy and the National Speleological Society support this 
acquisition.
Martin Meadow (Eldorado National Forest)
    The volcanic ridge east of Silver Lake, between Silver Lake and the 
Kirkwood Ski Area, is a striking scenic backdrop for Silver Lake. This 
parcel is on the west slope of the ridge, within a potential addition 
to the Mokelumne Wilderness, surrounded on three sides by Forest 
Service land. Public ownership of the parcel will preserve its 
wilderness character and the wilderness character of surrounding 
national forest lands.
Conclusion
    Your past support of appropriations to purchase private lands with 
significant wildlife and recreational values in Tahoe and Eldorado 
National Forests has been invaluable. Sierra Foothills Audubon Society 
urges you to continue your past support by supporting this $5.5 million 
appropriation for fiscal year 2011.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    On behalf of the tribal leadership and members of the Squaxin 
Island Tribe, I am submitting our funding requests and recommendations 
for the fiscal year 2011 budgets for the Bureau of Indian Affairs (BIA) 
and the Indian Health Service (IHS). The Squaxin Island Tribe requests 
that if a mandatory rescission is applied to all Federal programs, we 
ask that Indian programs not be required to absorb a disproportionate 
loss of funds with a double rescission on these funds.
                        tribal-specific requests
    $750,000 for Northwest Indian Treatment Center Residential Program 
in IHS; $850,000 for public health and safety of the Squaxin Island 
Community in the BIA; increase Tribal Historic Preservation Program 
funding; $100,000 Squaxin Shellfish Expansion and $750,000 for 
Shellfish Enhancement Program; and $5 million to fulfill the final 
payment to the Puget Sound Regional Shellfish Settlement.
                 regional requests and recommendations
    Northwest Portland Area Indian Health Board; Affiliated Tribes of 
Northwest Indians; and the Northwest Indian Fisheries Commission.
     self-governance (sg) and national requests and recommendations
BIA
    Provide $82.9 million general increase to BIA TPA for inflationary 
and fixed costs; provide $64 million increase for BIA CSC, including 
Direct CSC; provide $5 million increase in the ISD Fund; increase 
Office of Self-Governance (OTSG) budget to fully staff to meet the 
needs of the increase in tribes entering SG; and provide 100 percent of 
fixed costs (uncontrollable), including tribal pay costs.
IHS
    Provide $474 million for IHS mandatory inflation and population 
growth increase to maintain existing healthcare services; $330 million 
increase for Contract Health Services; $122 million increase for IHS to 
fully fund Contract Support Cost (CSC), including Direct CSC; and 
increase $5 million to the IHS OTSG.
    We support the requests of the National Indian Health Board and the 
National Congress of American Indians.
                    squaxin island tribe background
    The Squaxin Island Tribe, a signatory of the 1854 Medicine Creek 
Treaty, is located in Kamilche, Washington in SE Mason County. The 2009 
year-end tribal member enrollment was of 1,015. Squaxin has an 
estimated service area population of 2,767, a growth rate of about 10 
percent, and an unemployment rate of about 30 percent, according to the 
BIA Labor Force Report. According to the Mason County Economic 
Development Council, Squaxin is the largest employer in Mason County.
                tribal-specific requests justifications
    $750,000--``D3WXbi Palil'' meaning ``Returning from the Dark, Deep 
Waters to the Light'' Northwest Indian Treatment Center (NWITC) has not 
received an adequate increase in its base IHS budget since the original 
congressional set-aside in 1993. An increase of $750,000 would restore 
lost purchasing power and the need to add mental health and psychiatric 
components to treatment. This increase would allow NWITC to continue 
its effective treatment of Native Americans.
    The Squaxin Island Tribe operates the NWITC located in Elma, 
Washington (6th Congressional District). NWITC is a residential 
chemical dependency treatment facility nationally recognized as a 
``Center of Excellence'' and was developed to serve unmet needs of 
rural populations that were not being provided by other urban 
residential treatment centers in the Northwest. The facility is 
clinically designed to serve American Indians who have chronic relapse 
patterns related to unresolved grief and trauma 75 percent of whom have 
co-occurring mental health and substance abuse disorders. Addiction 
treatment is supplemented with mental health assessments and treatment, 
mental health groups, post-treatment planning, medication management, 
resource coordination and cultural and spiritual activities to help 
patients re-anchor in their traditions and reclaim their identity.
    NWITC is accredited by the Commission on Accreditation of 
Rehabilitation Facilities, an international accrediting organization 
for behavioral health programs. It is also certified and licensed by 
the Washington State Department of Health. The NWITC residential 
program serves the tribes of Washington, Oregon, and Idaho and 
sometimes tribes from the Southwest.
    The residential portion of the facility houses 24 patients in a 
circa 1900 single-family residence which was converted in the 1930s 
into a retirement home. In 2006, a new Counseling and Cultural Center 
building was constructed using both the Department of Housing and Urban 
Development Indian Community Development Block Grant and tribal funds 
that replaced two rented modular buildings that were in extremely poor 
condition. In 2009, we received $140,418 in American Recovery and 
Reinvestment Act (ARRA) funding from the IHS for maintenance and 
improvement to address urgently needed deficiencies. The project 
included design, construction and installation for the Center's life 
safety, general safety, ADA compliance, mechanical, roof, structural, 
and architectural needs.
    Treatment has changed over the years in response to meth addiction 
and its effects on the brain and the individual's capacity to recover. 
Now NWITC provides evaluations for psychotropic medication, mental 
health counseling and treatment oriented to unresolved trauma in 
addition to other traditional forms of treatment. There has also been 
an expansion of cultural components of treatment. These elements have 
been required to maintain effectiveness, but they also increase the 
cost of treatment.
    $850,000 for the Squaxin Island Department of Public Health and 
Safety to hire six additional FTE officers for 24-hour coverage in 
order to ensure the safety of the community and a public defender: 
public safety is a high priority for the Squaxin Island Tribe. The 
Squaxin Island Tribal Public Safety and Justice Department is dedicated 
to protecting lives, maintaining peace, and ensuring that the property 
and resources of the Squaxin Island Tribe are protected through the 
enforcement of the laws and regulations set forth by the Squaxin Island 
Tribal Council. Law enforcement officers patrol the reservation, South 
Puget waterways and usual and accustomed hunting areas, protecting 
human life and natural resources upon which tribal members rely on for 
cultural and economic sustenance.
    The Squaxin Island Public Safety and Justice Department has 
continued to operate on funding levels insufficient to meet the needs 
of this Department and our community. This has resulted in operating a 
program at minimum capacity, which has placed a negative impact on the 
service level provided to the Squaxin Island Community. The process of 
protecting the public is hampered by the lack of officers to provide 
the 24-hour coverage, which is very critical in life and death 
situations.
    The Public Safety Department successfully manages the Squaxin 
Island Tribal Court, which consists of three divisions: a tribal court, 
an appeals court, and an employment court. The Department also manages 
a shellfish and geoduck harvesting monitoring program. Officers are 
trained in scuba diving and assist with compliance and safety issues.
    A public defender is needed for the justice program. Currently the 
tribe is under contract to provide legal representation to the 
community members. The court caseload and number of police calls 
continue to grow at an increasing rate. Current funding is inadequate 
to meet the needs of the growing community, protect natural resources, 
and to fully participate in regional and homeland security programs and 
initiatives.
    The tribe is enhancing the shellfish habitat and production 
programs, which has increased the demand on the water enforcement 
program to address issues of illegal harvesting. With current funding 
and staffing levels, it will be almost impossible to adequately protect 
the tribe's investment in enhancing natural resources. The Squaxin 
Island Tribe is seeking both long-term and immediate assistance.
    Increase Tribal Historic Preservation Program Funding.--$12 Million 
for Tribal Historic Preservation Officers (THPO). In 1992, Congress 
adopted amendments to the National Historic Preservation Act (Public 
Law 102-575) that allow federally recognized Indian tribes to take on 
more formal responsibility for the preservation of significant historic 
properties on tribal lands. Specifically, section 101(d)(2) allows 
tribes to assume any or all of the functions of a State Historic 
Preservation Officer with respect to tribal land. In 2002, funding was 
decreased by approximately 50 percent because of insufficient monies in 
the Historic Preservation Fund (HPF) to support current and additional 
THPOs at the earlier funded levels. In 2010, there are 100 THPOs and 
the HPF funding is not keeping pace with the expansion.
    In 2009, we received approximately 150 requests from agencies 
preparing to do land projects that required our THPO to perform 
research of the land with only a 30-day window. Funding does not 
support a full-time archeologist, as required by the statute or 
assistants to perform the paperwork. Tribal resources supplement this 
office because it is critical to the Squaxin Island people to protect 
our sites and our lands.
    The President's proposed level of $8 million in fiscal year 2011 
will continue to increase the shortfall that THPOs are experiencing, 
yet the program continues to expand. There were 21 new programs in 
fiscal year 2009 which keeps the average level of support per THPO 
suppressed and underfunded. We support the request of the NTHPO for $12 
million in fiscal year 2011. We further recommend that future program 
expansion be funded with increased appropriations for the program in 
order not to impact the funding of existing THPO programs.
      $850,000 squaxin shellfish expansion and enhancement program
    The Squaxin Island Tribe fully supports the funding of the 
Shellfish Grower's Settlement Agreement Account. These funds will help 
assure that, over the long run, the tribes maintain their access to 
shellfish resources consistent with the rights they reserved by treaty.
    In order to implement the shellfish decisions in the U.S. v. 
Washington litigation, the tribe offers the following perspectives and 
funding requests for the highest-priority activities needing funding 
now. The tribe is committed to working cooperatively with noncommercial 
tideland owners in order to access the tribal share of naturally 
occurring shellfish on their lands. These are shellfish beds that are 
not included in the provisions for the settlement lands. Our program 
would identify and locate tidelands, contact their owners, survey 
shellfish populations consistent with the Federal court defined 
process, and manage harvests of the treaty share by tribal members. The 
costs to improve our coverage of this activity will be about $100,000, 
primarily for personnel.
    Consistent with the implementation of the Shellfish Grower's 
Settlement Agreement fund, the tribe needs to improve our 
infrastructure for enhancement of shellfish on tidelands acquired with 
the settlement funds. As we purchase available tideland properties with 
the Shellfish Grower's Settlement Agreement funds, these beaches will 
need to be restored and enhanced into full productivity to provide 
clams and oysters for tribal harvest. Funding would include beach 
substrate restoration, seeding beaches with juvenile shellfish, 
maintaining predator protection gear, surveying shellfish age class and 
population structure, and coordinating harvest. Funding of $250,000 
annually would provide for personnel, purchased clam seed, predator 
protection gear and equipment to improve 7 acres of tidelands per year.
    The Squaxin Island Tribe also foresees the necessity of initiating 
enhancement of geoduck, a large shellfish bivalve found in the waters 
of the northwest. This species is long-lived--more than 50 years in 
some cases--and regularly grows to between 1 and 2 pounds per 
individual. Due to the long recovery time for harvested beds of this 
species, enhancement techniques have been developed to replant geoducks 
in substrate where they will grow to maturity sooner than through 
natural recovery. We propose to enhance 5 acres annually at an expense 
of $500,000, which covers personnel, geoduck seed (immature geoduck), 
predator protection devices and other equipment. We believe this 
expenditure is necessary to supplement the existing harvest of 
naturally occurring geoduck and reduce pressure on natural stocks.
    On behalf of the Squaxin Island Tribal Council and tribal members 
thank you for this opportunity.
                                 ______
                                 
        Prepared Statement of St. Marks Refuge Association, Inc.
    Madam Chair and members of the subcommittee: On behalf of the St. 
Marks Refuge Association, Inc. and its 300+ members, we thank you for 
supporting the National Wildlife Refuge System (NWRS). We urge you to 
continue carrying the flag for America's wildlife, wild lands, and for 
the people who work on the Nation's refuges because every refuge 
matters.
    We are asking for your positive vote on these four matters that 
desperately need funding:
  --Fund $578 million for operations and maintenance accounts. The NWRS 
        needs $900 million annually to adequately manage its 150 
        million acres; a funding allocation of $578 million in fiscal 
        year 2011 will put the NWRS on the road towards full funding. 
        This money will go along way toward making buildings and roads 
        safe for visitors and refuge employees.
  --Fully fund the Land and Water Conservation Fund (LWCF) at $900 
        million, including $300 million for strategic land and easement 
        acquisitions by the NWRS. NWRA urges Congress to pass S. 2747, 
        legislation to permanently fund the LWCF. There is no better 
        time than right now, with sinking real estate prices, to make 
        sure that acreage from willing sellers can be added to refuges.
  --Fund the Department of the Interior's Challenge-Cost Share 
        Program.--The program was created to leverage funding through 
        strategic partnerships to obtain greater conservation 
        objectives that would not be achieved by the Federal Government 
        on its own.
  --Restore the $4 Million cut to the Visitor's Services Program.--As a 
        longtime (26 years and counting) volunteer for St. Marks 
        National Wildlife Refuge, I know how much refuges depend on 
        volunteers on a variety of fronts. Our environmental education 
        program would not reach as many children (more than 7,000). We 
        would not be able to serve our visitors so well (after a recent 
        lighthouse challenge event for four lighthouses in our area, we 
        were cited as the best organized and most knowledgeable of 
        all). St. Marks, like many refuges, is located in a rural 
        county. Visitors and volunteers contribute mightily to the 
        local economy, a boost that is sorely needed at this time.
    We know you have a tough job in Washington, and we know you have a 
lot of difficult decisions to make. We assure you that increased 
funding for refuges is a sure bet investment in America's future.
    We appreciate you and thank you for your time.
                                 ______
                                 
 Prepared Statement of the States of Colorado, New Mexico, and Wyoming
    I am requesting your support for fiscal year 2011 appropriations to 
the Fish and Wildlife Service (FWS) for the Upper Colorado River 
endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program. The President's recommended budget for fiscal 
year 2011 included FWS funding at the levels I am requesting for these 
programs. The State of Wyoming supports action by the subcommittee to:
  --Appropriate $709,000 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery Element; with the $85,611,000 item 
        entitled ``Recovery'') to the U.S. Fish and Wildlife Service 
        (FWS) for fiscal year 2011 to allow FWS to continue its 
        essential participation in the Upper Colorado River Endangered 
        Fish Recovery Program. The same level of funding was included 
        in the President's recommended budget for fiscal years 2008 
        through 2010.
  --Appropriate $485,000 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $50,307,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery for endangered fish propagation and hatchery 
        activities at the FWS' Ouray National Fish Hatchery. Operations 
        at this facility are integral to the Upper Colorado Recovery 
        Program's stocking program.
  --Allocate $200,000 in ``Recovery'' funds for the San Juan River 
        Basin Recovery Implementation Program for fiscal year 2011 to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
    The Upper Colorado and San Juan recovery programs are highly 
successful collaborative conservation partnerships working to recover 
the four species of endemic Colorado River fish on the Federal 
endangered species list; while at the same time water use and 
development has been able to continue in our growing Western 
communities. These programs are unique efforts involving the States of 
New Mexico, Colorado, Utah and Wyoming, Indian tribes, Federal agencies 
and water, power and environmental interests. They are achieving 
Endangered Species Act (ESA) compliance for water projects and fully 
complying with interstate river compacts and the participating States' 
water law.
    Since 1988, the two programs, collectively, have provided ESA 
section 7 compliance (without litigation) for more than 1,850 Federal, 
tribal, State and privately managed water projects depleting more than 
3.7 million acre-feet of water per year. The Department of the Interior 
recognized these programs with its nationwide Cooperative Conservation 
Award in April 2008 as outstanding collaborative partnerships 
accomplishing substantial on-the-ground conservation results. 
Substantial non-Federal cost-sharing funding exceeding 50 percent is 
embodied in both programs.
    We once again request the subcommittee's assistance in assuring 
fiscal year 2011 funding to allow the FWS to continue its vitally 
important participation and financial support of these two multi-state, 
cooperative, recovery programs. We recognize and appreciate that the 
past support and assistance of your subcommittee has greatly 
facilitated the success of these ongoing efforts.
                                 ______
                                 
                   Prepared Statement of Suzanne Roy
    Dear members of the Interior, Environment, and Related Agencies 
Appropriations Subcommittee: As a taxpayer, I urge you to critically 
evaluate Secretary Salazar's request for an increase in the budget for 
the Bureau of Land Management's (BLM) highly controversial and troubled 
Wild Horse and Burro Program.
    Currently, the BLM program relies on mass roundups and removals of 
wild horses in numbers that far exceed adoption demand. As a result, 
the BLM has now stockpiled more wild horses in Government holding 
facilities (33,000+) than are left on the Western range. This 
inefficient and inhumane policy costs taxpayers $44 million a year, and 
the price tag continues to grow as more and more horses are captured 
and removed from their natural habitats. (12,000 wild horses are 
targeted for capture and removal in fiscal year 2010 alone.)
    Allocating even more funds to this poorly managed program without 
serious requirements for reform would be fiscally irresponsible. Please 
ensure that any appropriations for BLM's Wild Horse and Burro program 
include these requirements:
  --A suspension of roundups in all but truly emergency situations;
  --A prohibition on the use of any funds to euthanize healthy horses 
        or sell horses directly or indirectly to slaughter;
  --Phasing out long-term holding and shifting BLM resources toward 
        managing horses on the range in a humane and minimally 
        intrusive manner as Congress intended; and
  --Suspension of any plan for the relocation of wild and free roaming 
        horses and burros until Congress has a chance to review the 
        program.
    Thank you for your attention to this issue.
                                 ______
                                 
          Prepared Statement of the Standing Rock Sioux Tribe
    On behalf of the Standing Rock Sioux Tribe, I am pleased to submit 
testimony concerning the President's fiscal year 2011 budget for the 
Bureau of Indian Affairs (BIA) and Indian Health Service (IHS). I want 
to express my appreciation to this subcommittee, its Chairman and 
members for their strong support of Indian tribes.
    The Standing Rock Sioux Tribe is situated in North and South 
Dakota. The reservation comprises 2.3 million acres, of which 1.4 
million acres is tribally owned and tribally owned allotted lands. 
About 10,000 tribal members and nonmembers reside on the reservation in 
eight communities and in smaller towns. The tribe's primary industry is 
cattle ranching and farming.
    The tribe is working steadily to expand opportunities for economic 
development to provide jobs for our members and improve the standard of 
living on our reservation. We operate the Standing Rock Farms, a Parts 
on Demand operation, two tribal casinos, and a sand and gravel 
operation which help us supplement services and programs for our more 
than 14,000 enrolled members. Despite the measures we are undertaking 
locally to improve living conditions on our reservation, we have 
persistent unemployment above 50 percent, a high drop out rate among 
our high school students, and more than 40 percent of Indian families 
on our reservation live in poverty.
    Living conditions on Standing Rock are difficult. According to 
statistics of the Department of Housing and Urban Development (HUD), in 
2009, more than 1,113 member households on Standing Rock had family 
incomes between 30-80 percent of median family income in the area. Of 
this figure, 464 households, 4 in every 10 homes, earned less than 30 
percent median income. Four in every 10 homes are overcrowded. The 
majority of our tribal elders suffer from diabetes, heart disease, and 
hypertension. Only one-half of 1 percent (0.5 percent) of our members 
are above the age of 65. Accidents are the leading cause of death among 
our members. We must reverse these harmful trends. All Americans, 
including the Nation's first Americans, deserve an opportunity to 
compete successfully in today's global economy.
    On January 27, 2010, I declared a State of Emergency on the 
Standing Rock Sioux Reservation. Our reservation was still recovering 
from storm and flood damage to our communities and roadways that 
occurred in 2008-2009 when our reservation was hit with severe winter 
storms beginning on December 23, 2009, January 4, 2010, and January 22, 
2010. These storms brought blizzard conditions and strong winds that 
knocked down thousands of electrical poles and power lines and brought 
heavy snows that stranded our members in their homes without heat and 
electricity for days. We have expended nearly 75 percent of our annual 
allocation of BIA Road Maintenance Program funds to cover heavy 
equipment rentals, fuel, repair costs and overtime labor expenses to 
keep our roadways open.
    In order to move our community forward, I urge the Congress provide 
increased funding for infrastructure and economic development, 
healthcare, public safety, and education.
    Economic Development and Infrastructure Needs.--More than 20 years 
ago, another committee of Congress dedicated to improving the living 
conditions on Indian reservations made the following observation:

    ``The conditions for successful economic development on Indian 
lands are essentially the same as for any other predominantly rural 
community. There must be community stability, including adequate law 
enforcement and judicial systems and basic human services. There must 
be adequate infrastructure including roads, safe water and waste 
disposal systems, and power and communications utilities. When these 
systems and services are in place, tribes are in the best position to 
implement economic development plans, taking into account the available 
natural resources, labor force, financial resources and markets.''

    The Senate Committee on Indian Affairs made this statement in 1988 
in their report that accompanied sweeping legislative to the Indian 
Self-Determination and Education Assistance Act. Public safety and an 
efficient judicial system are pre-conditions to building strong, stable 
governments. For several years, we have sought funds to plan a 
comprehensive police, tribal courts, and detention facility, but the 
BIA has inadequate funds for planning, design, NEPA environmental 
studies and construction. We should not have to be waitlisted for years 
to secure planning and construction funding for such important 
governmental programs. Our existing facilities are outdated and 
inadequate to modern public safety and criminal justice needs. Our 
tribal courts operate with 24 staff working in 17 offices spread out 
over 3 buildings.
    We are very appreciative of the Recovery Act funding that Congress 
made available for Indian tribes. This level of investment in 
infrastructure, however, must be continued by Congress for Indian 
country. Construction projects create jobs locally and put our members 
to work. We object to the inadequate annual funding of $26 million for 
the BIA Road Maintenance Program. This program has remained at roughly 
the same level for more than 20 years. Road maintenance is a public 
safety program. Poor road conditions contribute to the unacceptably 
high levels of serious injury and death on Indian reservation roads 
each year.
    We urge Congress to fund this program at $150 million as 
recommended by NCAI. Many tribes and BIA regions need millions of 
dollars just to replace outdated and obsolete maintenance equipment, 
purchase and store fuel, buy replacement parts for serviceable 
equipment, and stockpile maintenance supplies. We are still paying off 
a 2004-2006 $26 million community streets project that paved streets, 
installed curbs, gutters, sidewalks and street lights throughout our 
reservation. In order to protect this multi-million investment, we need 
funds to carry out routine road maintenance (crack sealing, pot hole 
repairs, etc.) to ensure that we realize the full useful life of these 
routes. Maintaining these routes saves us millions.
    Congress should also increase appropriations for Office of Indian 
Energy and Economic Development programs within the Interior Department 
and for the construction budgets of the BIA and the IHS to help tribes 
build, rehabilitate and maintain schools, police departments, courts, 
hospitals and clinics, and wellness centers. We also urge Congress to 
appropriate fiscal year 2011 funding for the Tribal Work Experience 
Program to help our members obtain the job skills they require to 
compete in a competitive labor market.
    Public Safety Needs.--We have far too few public safety officers 
patrolling our 8 districts and small communities on our 2.3 million-
acre reservation. In the spring and summer of 2008, following the 
deaths of several of our members, the BIA began ``Operation Dakota 
Peacekeeper'' as part of the Interior Department's Safe Indian 
Communities initiative to reduce crime, target illegal drug activities 
and provide much needed investigative support to prosecute domestic 
violence and crimes against children. A total of 56 BIA officers were 
detailed from their reservations to Standing Rock over a 7-month 
period. This more than quadrupled our normal BIA Police force. Before 
the surge, we had only ten BIA public safety officer positions filled. 
This was enough for only 2 officers per 24-hour shift to patrol a 2.3 
million acre reservation encompassing 4 towns, 8 separate communities, 
2,500 miles of roads, and a population of 10,000 residents. In the 
month of June, police made a total of 541 arrests. Of these, 341 
arrests, about two-thirds of all arrests, were made by surge officers.
    The public safety surge was a big success. Our members, especially 
our tribal elders, felt safe in their homes and began leaving doors 
unlocked and windows open at night. It also highlighted the glaring 
need for greater numbers of patrol and other public safety personnel on 
our reservation. Recently, the tribe volunteered to be one of four 
tribes participating in the Interior Department's 24-month Reduction in 
Crime Initiative.
    We support the President's increases in the fiscal year 2011 budget 
to add $19 million above the fiscal year 2010 enacted level for the BIA 
to reimburse the Justice Department so that agency may hire 45 FBI 
agents to investigate crimes but more public safety officers are 
needed.
    The Standing Rock Sioux Reservation lies in BIA District 1 which 
encompasses the eight State region of the Dakotas, Nebraska, Minnesota, 
Iowa, Wisconsin, Illinois, and Michigan. A 2006 Gap Analysis performed 
for the BIA identified that District 1 had 108 law enforcement 
officers, but needed 483 officers, a gap of 375 officers or 78 percent 
unmet staffing need. District 1 had 30 detention staff, yet needed 177 
corrections officers, a gap of 147 or 83 percent unmet staffing need. A 
1997 Justice Department study found that Indian Country had 1.3 
officers for every 1,000 inhabitants, versus 2.9 officers in non-Indian 
jurisdictions. BIA District 1 is among the areas with the greatest 
need. While the BIA has made some improvements in the number of law 
enforcement and detention officers, the gap has not been closed. This 
places our communities at risk.
    BIA equipment and technology is outdated, including police 
cruisers, radios and communications infrastructure. We do not even have 
access to computerized law enforcement statistics. We have no 9-1-1 
service on the Reservation. In emergencies, tribal members residing on 
the South Dakota portion of the reservation who dial 9-1-1 reach the 
McLaughlin or Mobridge police departments.
    To address these shortfalls, we recommend that BIA Criminal 
Investigations and Police Services should be funded $25 million above 
the fiscal year 2010 enacted level. BIA Detention/Corrections should be 
increased by $10 million. We recommend the BIA Public Safety and 
Justice Facilities Improvement and Repair program be funded above the 
fiscal year 2010 enacted level, and we request an additional increase 
of $20 million for the Tribal Justice Support Program to improve tribal 
courts. Congress must also provide funds for BIA facilities and 
construction for short-term and long-term housing for public safety 
officers as a recruitment and retention tool. These increases should 
continue incrementally each year until the recommendations of the Gap 
report are met.
    We strongly support the administration's efforts to work with the 
United Tribes Technical College in Bismarck, North Dakota to provide a 
``bridge program'' to State-certified public safety officers to meet 
mandatory minimum training requirements for Federal law enforcement 
service. There is still a need, however, for a Northern Plains BIA Law 
Enforcement Academy so that more officers can be trained and tribes in 
the Great Plains, Rocky Mountain, Midwest and other proximate BIA 
Regions can send members to a training academy closer to their home 
reservations.
    Education Needs.--According to NCAI, Native Americans attain 
bachelor and higher education degrees at half the rate of their non-
Indian counterparts. At Standing Rock, our tribe has provided $3 
million over 3 years to support a scholarship program to provide more 
than 300 students with grants of between $3,000-$3,500/semester which 
allow them to pursue degrees from accredited colleges, universities and 
vocational schools. BIA financed scholarships total about $500,000 per 
year (meeting 25 percent of need). By providing scholarships to our 
students, they are able to remain in school and obtain a degree and 
education that can open doors to life-time careers. Education is so 
critical to the future of our members and can lift them out of poverty. 
We cannot do this alone and require increased funding for this vital 
program. We are pleased to report that in a joint venture with the BIA 
and IHS, the tribe built a new elementary school and our children are 
excited to move into the new structure next month.
    Healthcare.--According to the Senate Committee on Indian Affairs' 
Views and Estimates letter concerning the fiscal year 2010 budget, the 
need for Contract Health Services (CHS) for Native Americans exceeded 
$1 billion. The President's fiscal year 2011 budget proposes an $84 
million increase in CHS from $780 million to $864 million. This would 
still represent at least a 15 percent shortfall in CHS needs. By any 
objective measure, healthcare funding for Native Americans is far too 
low. This deprives so many of our members a healthy and long life.
    Throughout Indian country and certainly here on Standing Rock, many 
members go without needed healthcare services each year because of 
inadequate CHS dollars. As Congress enacts sweeping healthcare reforms, 
we urge Congress to increase CHS appropriations and increase the IHS' 
hospitals and clinics funding generally, so that tribes and the IHS may 
more comprehensively address the healthcare needs of our members.
    We also supports increased funding to cover the BIA and IHS 
contract support cost (CSC) obligations that exist under self-
determination contracts, including our tribe's contracts. Although we 
support the President's impressive proposed increase of $45 million for 
IHS contracts, that sum will only cover the CSC obligations associated 
with the proposed fiscal year 2011 program increases. The increase 
therefore will not begin to touch the recurring $105 million shortfall 
that currently exists. To the extent budgetary concerns foreclose 
tackling this entire shortfall in 1 year, we support added increments 
of $35 million for each of the next 3 years to finally get these 
contracts paid in full. For similar reasons, we support the President's 
proposed increase in CSC funding for the BIA, and hope that by adding 
$23 million more in fiscal year 2012 and fiscal year 2013 the BIA's 
shortfall will at long last similarly be resolved.
    Thank you for providing our tribe the opportunity to present 
testimony.
                                 ______
                                 
               Prepared Statement of the Sawtooth Society
    Madam Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of 
protecting land in the Sawtooth National Recreation Area in Central 
Idaho. An appropriation of $2 million is needed in fiscal year 2011 
from the Land and Water Conservation Fund toward the acquisition by the 
Forest Service of a negotiated conservation easement on the 160-acre 
Rodeo Grounds Ranch property.
    The conservation of the abundant natural resources of the Sawtooth 
Mountains in Central Idaho has been a national goal for over a century. 
In May 1905, President Theodore Roosevelt designated a nearly 2 million 
acre forest reserve that was eventually named the Sawtooth National 
Forest. Seven decades later in 1972, Congress passed Public Law 92-400 
to prevent subdivision development in the heart of the Sawtooths, ``to 
assure the preservation and protection of the natural, scenic, 
historic, pastoral, and fish and wildlife values,'' and to enhance 
public recreation in a new Sawtooth National Recreation Area (NRA). The 
Sawtooth NRA encompasses approximately 775,000 acres that include some 
of the most iconic and beautiful high-mountain forests and valleys in 
the American West.
    These mountains form the headwaters of six important rivers--the 
Middle Fork Boise, the North Fork Boise, the South Fork Payette, the 
Big Wood, the East Fork Salmon, and the Salmon--that ultimately feed 
the Snake River and offer vital habitat for four threatened and 
endangered salmonid species. More than 1,000 lakes and glacial tarns 
are also found inside the recreation area. The area's clear waters and 
the lands that surround them offer some of the finest and most renowned 
outdoor recreation in the world including fishing, white-water sports, 
hiking, Nordic skiing, rock climbing and backcountry camping. With a 
proud ranching tradition stretching back for over a century, 
traditional land uses have long been interwoven with the public values 
here, and the stewardship of these natural and recreational assets has 
been outstanding.
    Recognizing the conjoined needs to maintain these historic uses and 
to protect this remarkable landscape for public recreation, the 
legislation creating the recreation area placed limits on outright 
Federal land purchases in the Sawtooth NRA while explicitly encouraging 
the use of conservation easements to retain the area's outstanding 
rural character, working ranches, and recreation opportunities. The 
resulting easement-oriented acquisition program is thereby critical and 
has been fueled by congressional appropriations from the Land and Water 
Conservation Fund since 1972. To date, this investment has brought 
easement protections to some 17,000 acres of private land within the 
Sawtooth NRA. However, vitally important parcels remain to be 
protected.
    Available for acquisition at the Sawtooth NRA in fiscal year 2011 
is a conservation easement on the 160-acre Rodeo Grounds Ranch. This 
easement is one of the very top priorities for Region 4 of the Forest 
Service and is located just 5 miles from the historic town of Stanley. 
The property is a key component of the viewshed along Idaho Route 21--
the Ponderosa Pine Scenic Byway--that connects Sawtooth NRA to Boise. 
The ranch also has substantial frontage on Valley Creek, a major Salmon 
River tributary, which is vital to critical fisheries. Valley Creek 
provides habitat for all four fish species listed as threatened or 
endangered in Sawtooth NRA: Chinook salmon, sockeye salmon, bull trout, 
and steelhead. The Forest Service has identified Valley Creek as one of 
the most important tributaries in the Upper Salmon River watershed for 
the recovery of Chinook salmon, especially for rearing and spawning 
habitat.
    The conservation easement on Rodeo Grounds Ranch will allow for 
recreational access by anglers to Valley Creek. This access would 
likely be lost if the property were to be developed, converted from 
existing use, or fragmented into smaller holdings. The easement will 
protect the historic ranch structures on the property and the scenic 
landscape of the valley. Several surrounding tracts have already been 
protected through similar conservation easements.
    An appropriation of $2 million from the Land and Water Conservation 
is needed in fiscal year 2011 toward this conservation easement 
purchase to protect the fisheries, recreational, and scenic resources 
of the ranch and enhance the public enjoyment of the Sawtooth National 
Recreation Area.
    The Land and Water Conservation Fund is our Nation's premier 
Federal programs to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds and improving wildfire management. Recognizing the 
many demands this subcommittee faces, I want to thank the committee for 
impartially considering these requests and your important work to 
ensure these limited and much-needed funds are allocated to those 
projects which will most leverage Land and Water Conservation Fund 
principles. I fully believe an investment in the Rodeo Grounds Ranch 
conservation easement is such an investment and one that will 
permanently pay dividends to the American people and to our great 
natural and historical heritage.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Idaho, and I appreciate your consideration of this 
funding request.
    The Sawtooth Society, formed in 1997, is a nonprofit and 
nonpartisan organization dedicated exclusively to: serving as an 
advocate for the SNRA; preserving open space in the SNRA; and enhancing 
recreation facilities and services in the SNRA.
                                 ______
                                 
     Prepared Statement of the Skokomish Tribe of Washington State
    My name is Joseph Pavel, I am Vice-Chairman of the Skokomish Tribe 
of Washington State. I would like to thank the subcommittee for the 
opportunity to testify and would like to welcome Chairman Moran to 
Indian country. I know that Congressman Dicks would very much welcome a 
visit to my reservation and the 6th Congressional District of 
Washington State.
    The Skokomish Indian Reservation is a rural community located at 
the base of the Olympic Peninsula with a population of more than 1,000 
people. The 5,300-acre Reservation is a fraction of the 2.2 million 
acre of the tribe's Treaty area. The Skokomish Tribe appreciates the 
work of the subcommittee and asks that you provide increased funding in 
areas that are key to the continuing development of tribal communities.
                bureau of indian affairs (bia) programs
    Law Enforcement.--The Skokomish Tribe respectfully requests 
increased funding for our law enforcement programs within the BIA.
    Since 1997, the Skokomish Department of Public Safety has grown 
from one untrained officer, to six Washington State certified/
Washington State equivalency trained or BIA-certified law enforcement 
officers (this includes our two conservation law enforcement officers). 
Our officers provide day-to-day law enforcement services on the 
reservation. They are also responsible for patrolling the 2.2 million 
acres that make up our treaty protected fishing and hunting areas. To 
be fully staffed at a baseline minimum for the area and scope of 
service that the Skokomish Department of Public Safety is tasked with, 
we need a total of 18 officers. Thus, we are almost 80 percent below 
what is needed to safely serve our community.
    In a recent report, the Skokomish Reservation was reported as 
having a violent crime rate that is five times higher than the national 
average. Between 2006-2010, there were 501 ``Part One'' offenses--
manslaughter, rape, domestic violence, child abuse, assault with a 
weapon, burglary, and arson. For the same period, there were an 
additional 2,210 offenses for lesser crimes, like assault with no 
weapon, drug selling or manufacture, and vandalism. This means that at 
least 50 percent of the people who live on the Skokomish Reservation 
are likely to have been a victim of a crime and in many instances the 
victim of a violent crime. As result of this, the Skokomish Tribal 
Council has made addressing public safety needs a priority and have 
directed staff to find the resources and programs necessary to respond 
to this overwhelming law enforcement need.
    In light of this significant tribal need, we are deeply concerned 
that the BIA has not sought an increase in funding for tribal law 
enforcement personnel funding. Instead, the BIA has requested $19 
million to fund 45 FBI agents in Indian country. We recognize that 
there is a deficit of FBI agents serving Indian country, but we doubt 
that using the BIA's limited resources to fund what is a Department of 
Justice function is a wise use of these resources. Crime in Indian 
country is going to be addressed by having trained law enforcement 
personnel living and working in our communities. It will not be 
addressed by staffing FBI agents in Seattle, Minneapolis, or Denver.
    Moreover, we remain deeply concerned that the BIA continues to 
ignore the needs of tribally operated law enforcement agencies and has 
directed the increases of the last 2 years to its BIA operated law 
enforcement agencies. Specifically, in the 13 years that the tribe has 
operated its law enforcement program, we have not received a BIA 
programmatic increase in our law enforcement funding. While we do not 
doubt that the BIA has serious needs, so do the tribal law enforcement 
departments, which make up 78 percent of the law enforcement agencies 
in Indian country. We urge that any increase in law enforcement funding 
be allocated proportionately among the BIA and tribally operated law 
enforcement agencies.
    Tribal Courts.--Increased law enforcement creates a commensurate 
need for increased funding for tribal courts. Having a fair and 
qualified judiciary is the bedrock of any government's justice system. 
Skokomish has long understood this. In 1963, the Skokomish Tribe was 
the first tribe in the Northwest (and one of the first in the country) 
to institute a tribal court to address fishing violations on the 
Skokomish River. The first tribal judge was my mother, a 33-year-old 
nurse and mother of five (at that time), Anne Pavel. My mother was not 
law trained nor had she received any judicial training. She was, 
however, a dedicated tribal member, who understood the importance of 
regulating fishing on the Skokomish River. She held her first hearing 
in a building heated by a coal stove, with her brother as her court 
reporter.
    While the responsibility and scope of tribal courts have greatly 
increased in the nearly 50 years since my mother's first hearing, the 
BIA has not provided these important institutions with the commensurate 
level of funding. Today, tribal courts handle huge criminal, civil and 
juvenile dockets, which could not be handled by the already 
overburdened State and Federal courts. At Skokomish alone we have 458 
open criminal cases. Unfortunately, even though we participate in the 
Northwest Intertribal Court System--an inter-tribal organization that 
my mother started, which allows tribes to work cooperatively and a cost 
effective manner address our justice systems needs--we can still only 
afford for our tribal judge and our prosecutor to work 3 days a month. 
Most of our courts cannot afford to provide public defenders and many 
do not have law trained prosecutors. Fortunately, through the dedicated 
work our tribal leaders most of our judges are now law trained.
    While the Department did not propose any cuts in tribal courts, it 
did not propose any increases. Moreover, for the tribes in the 
Northwest Region, last year's $10 million increase in tribal court 
funding did not translate into any increased funding for our tribal 
courts systems. We urge the subcommittee to direct the Department to 
allocate tribal court funding in a way that is fair and ensures that 
all tribal court systems receive an appropriate share of the funding.
                 environmental protection agency (epa)
    The Skokomish Tribe would like to thank the subcommittee for your 
commitment to maintaining funding for key environmental programs. In 
particular, the subcommittee's funding in fiscal year 2010 of $50 
million for Puget Sound Restoration efforts, we urge the subcommittee 
to reject the EPA's proposed $30 million cut to this program for fiscal 
year 2011. This funding is critical to the collaborative efforts to the 
restore the health of the Puget Sound, and in particular the Hood 
Canal--the Jewel of the Puget Sound--and to the tribe's efforts to 
manage and protect our treaty protected resources in the Hood Canal.
    The Hood Canal is threatened by the Low Dissolved Oxygen levels 
(LDOL), which means this vital ecosystem is essentially suffocating. 
LDOL is caused by many things, but the primary cause is the sewage that 
is discharged directly into the Hood Canal. LDOL has caused a number of 
fish kills in the Hood Canal and the Hood Canal to be closed to other 
seafood harvesting throughout the year. Last summer, the Tribe had to 
close our shellfish harvest on one of our beaches, because of fecal 
contamination. Through the tribe's work it was learned that this 
contamination was primarily the result of the conduct of sports 
fishermen, who elected to use our sacred resources as their lavatories.
    The impact of this closure on the economy of the Skokomish Tribe 
and our members was severe. More than 90 percent of the families on the 
Skokomish Reservation are supported by Treaty harvesters, men and women 
who exercise their treaty rights to gather resources to provide for 
their families. When our beaches are closed, it means that 90 percent 
of the families on the reservation do not get a paycheck until they are 
open.
    Beyond the impacts on the tribe's and the region's economy, the 
health of these water resources is at the very heart of the Skokomish 
tribe's culture. The Hood Canal is the place where we have for 
centuries gathered and prayed. In recent times this has not always been 
possible due to necessary closures. This is unconscionable and the 
dedicated effort to address this issue must continue.
                      indian health service (ihs)
    The Skokomish Tribe strongly supports the $354 million increase 
requested for the IHS. In particular, the Tribe appreciates the $84 
million increase for contract health care. However, at Skokomish, like 
Indian people throughout the Nation, we face disproportionately higher 
rates of diabetes and the complications associated with diabetes. Heart 
disease, cancer, obesity, chemical dependency, and mental health 
problems are also prevalent among our people. While we have a tribally 
operated ambulatory clinic staffed with dedicated professionals, we do 
not have access to an IHS hospital. Consequently, anyone needing in-
patient treatment, physical therapy, or diagnostic services must be 
referred out. This means that our contract health program is always 
taxed and frequently we do not have the resources to refer people out. 
The reported shortfall for contact healthcare is $1 billion. Thus, 
while we appreciate the $84 million increase it is woefully inadequate.
    We commend the IHS for the requested $9 million increase for dental 
healthcare. Studies have shown that poor dental care and chronic tooth 
decay is related to heart disease, and other serious chronic health 
conditions. The IHS reports that only 25 percent of Alaska Native and 
Indian people have access to dental care, the lack of access results in 
preventable tooth extractions, poor juvenile care, and in some 
instances death.
    We also commend the IHS for its focus on alcohol and substance 
abuse. However, the targeted $4 million increase is not enough. I 
suspect every reservation in the country has substance abuse treatment 
needs that are not being addressed. In particular, we are experiencing 
an increasing dependency on ``prescription drugs.'' Our data shows that 
prescription drug use has nearly doubled in the last 2 years; and at 
the same time our data is showing that methamphetamine use, which was 
on a decline, is now back on the rise. It is important to note that 
this data is from individuals who have contact with the tribe. It does 
not reflect the many people who are using but with whom the tribe has 
no contact.
    While the statistics demonstrate the problem in very stark terms, 
we are experiencing the problem of substance abuse in heart breaking 
losses. In the last two weeks in December, we buried two young men who 
lost their lives due to addiction. These young men were sons, brothers, 
nephews and cousins, but as a tribal leader these losses represent the 
potential loss of my tribe's future. We will not survive as a people if 
our young men and women continue to leave this earth sooner than they 
should. I implore the subcommittee to provide at least a $19 million 
increase for alcohol and substance abuse programs nation wide.
                 tribal historic preservation programs
    In 1995, Congress began encouraging tribes to assume historic 
preservation responsibilities as part of self-determination. These 
programs conserve fragile places, objects and traditions crucial to 
tribal culture, history, and sovereignty. As was envisioned by 
Congress, more tribes qualify for funding every year. Paradoxically, 
the more successful the program becomes, the less each tribe receives 
to maintain professional services, ultimately crippling the programs. 
In fiscal year 2001, there were 27 THPOs with an average award of 
$154,000. In fiscal year 2011 it is estimated that there will be 95 
tribes operating the program, receiving less $50,000. We join the 
National Congress of American Indians in seeking a $4 million increase 
in funding for this program.
                               conclusion
    I want to thank the subcommittee for the opportunity to present 
testimony on these important issues.
                                 ______
                                 
     Prepared Statement of the St. Vincent National Wildlife Refuge
    Madam chairman and honorable members of the subcommittee: I, Landy 
Luther, am the current president of the supporters of St. Vincent 
National Wildlife Refuge (NWR). Our organization was established to 
promote better understanding, appreciation, and conservation of the 
natural history and environment of St. Vincent National Wildlife Refuge 
(NWR). Our goals are: Increase public awareness of the refuge, provide 
financial support to the refuge, and to support refuge projects. We 
feel that our mission and goals are consistent with the acquisition of 
the property that is the subject of this testimony.
    I appreciate the opportunity to present this testimony in support 
of acquiring land at St. Vincent NWR in Florida. An appropriation of 
$1.25 million is needed in fiscal year 2011 from the Land and Water 
Conservation Fund (LWCF) in order for the U.S. Fish and Wildlife 
Service (FWS) to acquire the 3.21-acre property to provide the agency 
permanent access to the barrier island refuge.
    The St. Vincent NWR encompasses a 12,500-acre undeveloped barrier 
island lying opposite the mouth of the Apalachicola River, in the Gulf 
of Mexico. Located just off the Florida panhandle in western Franklin 
and Gulf counties, the island is 4 miles across at its widest point and 
9 miles long. This triangular island is larger and wider than most of 
the northern Gulf Coast barrier islands. Prior to becoming a refuge, 
St. Vincent was used primarily as a private hunting and fishing 
preserve. Established in 1968, the refuge was originally intended as a 
sanctuary for waterfowl, the majority of which are resident wood ducks 
and migrating blue winged teal. Since then, however, the refuge mission 
has been broadened to include the protection of habitat for endangered 
species and to provide a variety of recreational activities.
    St. Vincent NWR provides a sanctuary for a number of threatened, 
endangered, and recovering species. Loggerhead sea turtles come ashore 
to nest on the island's pristine beaches. Indigo snakes inhabit gopher 
tortoise burrows in the dunes. Wood stork and peregrine falcons stop on 
the island during their seasonal migrations, and bald eagles nest in 
the pines near the island's freshwater lakes and marshes. In 1990, St. 
Vincent became one of several Southeastern coastal islands where 
endangered red wolves are being bred. Once weaned, the wild pups raised 
here are taken to reintroduction sites such as Alligator River NWR in 
North Carolina. These solitary animals once roamed the Southeast, but 
predator control programs and habitat loss have decimated their 
populations.
    St. Vincent serves as an important stop-off point in the Gulf of 
Mexico region for neotropical migratory bird species. Seaside sparrows 
nest in huge numbers and various other neotropical birds stop for food 
and shelter during spring and fall migrations. More than 260 bird 
species have been logged on the refuge and Christmas bird counts by the 
Audubon Society typically include more than 100 species. Wildlife is 
attracted to the island's diversity of habitat types. Ten separate 
habitat types ranging from tidal marsh to scrub oak and pure stands of 
cabbage palm have been identified on the island. Plants on the island 
include 15 that are listed as threatened by the State of Florida.
    Currently, the refuge staff travels to and from the undeveloped and 
uninhabited island using a boat that is docked on a mainland marina at 
Indian Pass. The dockage rights are subject to a month-to-month lease 
from a private landowner who has recently indicated an intent to sell 
and/or develop the property. Faced with the loss of this facility, the 
refuge staff must find another location to dock the boat, as it is 
critical for the management of the refuge to secure appropriate access 
to the island. Available for acquisition in fiscal year 2011 is the 
3.21-acres Schoelles tract. Located close to the refuge's 
administrative offices in the City of Apalachicola, the site includes a 
boat ramp and marina to accommodate the refuge boat. Properties 
available for purchase with pre-existing facilities are rare in this 
area. It is very difficult to obtain permitting for new marinas and 
ramps in Florida, making this property prime for development if it is 
not obtained by the refuge. Not only will the property's existing wet-
slip marina and boat ramp provide immediate access for the refuge 
staff's motorized boat, it will also allow access to nonmotorized boats 
such as canoes and kayaks.
    Conserving this property will prevent its development into a 
coastal residential subdivision. Limiting coastal development is 
critical to reducing the costs associated with storm and hurricane 
damage as well as to protecting the quality of adjacent waters. Bounded 
to the north by Highway 30A and to the south by St. Vincent Sound, the 
inclusion of the parcel within refuge boundaries would provide a small 
buffer zone along the sound, designated a Class II Florida Outstanding 
Waterway. St. Vincent Sound supports endangered species communities, 
important recreational and commercial fisheries, and sea grass beds 
that provide significant waterfowl habitat. The significance of these 
waters is underscored by the fact that they are protected as part of 
the Apalachicola National Estuarine Reserve.
    A $1.25 million appropriation from the LWCF in fiscal year 2011 
will maintain necessary access to St. Vincent Island for FWS staff; 
improve access to St. Vincent Sound for fishermen, oystermen, and 
recreational boaters; and protect additional natural resources along 
the mainland shore.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. For all these reasons, the President has included 
meaningful increases to the program in his fiscal year 2011 budget, and 
I support the administration's commitment to fully funding the program 
in the near future. Recognizing the many demands this committee faces, 
I also want to thank the committee for its recent effort to restore 
much-needed funding to this depleted program. This wise investment in 
the LWCF is one that will permanently pay dividends to the American 
people and to our great natural and historical heritage.
    I want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Florida, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
                    Letter From by The Mountaineers
                                                    March 24, 2010.
Hon. Dianne Feinstein,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Feinstein: The Mountaineers is one of the oldest and 
largest conservation organizations in the Pacific Northwest. We have a 
long history of involvement with the Endangered Species Act (ESA) and 
the protection of both fish and wildlife species and their habitat, 
stretching back to the act's inception. Our involvement has entailed 
written comments, oral testimony, lobbying and where necessary, 
litigation, at State, regional, and Federal levels. The Mountaineers 
would like to thank you for consenting to consider our comments on ESA 
funding for fiscal year 2011 after the deadline of Friday March 19, 
2010. We respectfully submit the following suggestions.
    We are very concerned that this landmark legislation have adequate 
funding to realize its objectives, especially as it pertains to the 
listing of species. For decades Congress has inadequately funded the 
implementation of the ESA. We urge you to move aggressively to redress 
this historical shortfall by taking the following measures in the 
designated listing-related contexts.
    Candidate Conservation.--We recommend a doubling of staff in this 
program, which provides interim protection for species while they await 
listing. Since the ESA wait list was enacted, 64 species have gone 
extinct, seven times the number that have done so under the ESA's full 
protection. A candidate species must await listing for almost two full 
decades. We consider this prima facie evidence that the act, as 
envisioned, is failing, badly and that a funding shortfall is a factor, 
if not the major reason why. Today a staggering 249 domestic and 20 
species await listing, vulnerably exposed to extirpation.
    Recovery.--The primary purpose of the ESA is to recover listed 
species, not merely to preclude them from going extinct. Current 
estimates of funding levels to recover species approximate $100 
million. We urge that the Congress fund recovery of species at a level 
of no less than $95 million for fiscal year 2011.
    Consultation.--Current estimates of the shortfall for funding in 
this context range as high as $122 million. The number of consultations 
has increased markedly in recent years simultaneous with a shortfall in 
personnel. We urge that funding be provided in amounts adequate to 
address these problems. We also request that consultation-dedicated 
funding be granted for use in the context of Habitat Conservation Plans 
(HCP) only to the extent it advances recovery and facilitates HCP 
implementation and the critical monitoring of that implementation over 
time. We specifically urge that Congress not permit this consultation 
funding to be used for expansion of the use of HCP's and Incidental 
Take Permits, as it has been, previously.
               additional endangered species protections
    Cooperative Endangered Species Fund.--Given that 65 percent of 
federally listed species are found on non-Federal lands, it is critical 
that State endangered species conservation activities be adequately 
funded. A total of at least $160 million is needed. We request a total 
appropriation of $100 million in fiscal year 2011 including 20 million 
for conservation grants to States, an increment of $15 million more 
than prior levels.
    Landowner Incentive and Private Stewardship Grants.--We request 
that these programs be restored to their fiscal year 2007 levels of 
$23.7 million for the private landowner and tribal lands grants and 
$7.3 million for the stewardship grants. Recovery of our Nation's 
imperiled species is not likely, perhaps even impossible without the 
cooperation of private landowners and tribes. These critical programs 
should be resurrected, fully, but not at the expense of those items 
designated above.
    Bureau of Land Management (BLM) Wildlife and Fisheries Management 
and Threatened and Endangered Species Management.--We request an 
increase of $25 million more than fiscal year 2010 levels to begin 
meeting this program's needs, for a total appropriation of $65.4 
million in fiscal year 2011 for wildlife and fisheries management and 
$32.6 million for threatened and endangered species management. The 
role of the BLM in species recovery is critical. In the past, large 
sums of money intended for this purpose have been diverted to other BLM 
objectives. We urge Congress also to exert much stronger oversight in 
the way its funds are expended by BLM. The agency is understaffed in 
this context, and woefully underfunded. It is estimated that BLM only 
gets ten percent of what they actually need for threatened and 
endangered species.
    In making these requests The Mountaineers would observe the broad 
and deep support the ESA continues to receive among the public at 
large. Huge revenues are derived from the enjoyment of watching 
wildlife species, that eclipse revenues derived from consumptive uses 
like hunting and fishing. The ESA can operate as a powerful tool to 
protect species and preserve a priceless heritage--but only if it is 
adequately and consistently funded by the Congress.
    We again, would like to thank the subcommittee for consideration of 
these remarks after the deadline.
            Sincerely,
                                          Martinique Grigg,
                                                Executive Director.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Madam Chairman and members of the subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2011 appropriations. My name is Thomas J. Cassidy, Jr. and 
I am Director of Federal Land Programs.
    The Nature Conservancy is an international, nonprofit conservation 
organization working around the world to protect ecologically important 
lands and waters for nature and people. Our mission is to preserve the 
plants, animals, and natural communities that represent the diversity 
of life on Earth by protecting the lands and waters they need to 
survive. We are best known for our science-based, collaborative 
approach to developing creative solutions to conservation challenges. 
Our on-the-ground conservation work is carried out in all 50 States and 
more than 30 foreign countries and is supported by approximately 1 
million individual members. We have helped conserve nearly 15 million 
acres of land in the United States and Canada and more than 102 million 
acres with local partner organizations globally.
    Land and Water Conservation Fund (LWCF).--Thank you for your 
leadership in restoring critically important funding for LWCF in recent 
years. We are gratified by the President's commitment to fully fund 
LWCF and look forward to working to implement and secure funding to 
support the President's America Great Outdoors Initiative.
    We support the President's funding level of $384 million for 
Federal LWCF and $50 million for the stateside. This year, the 
Conservancy is specifically recommending 32 biologically rich land 
acquisition projects totaling $88.7 million. Priorities include 
Oregon's Hells Canyon NRA, California's Smith River NRA (Six Rivers 
National Forest), Wisconsin's Chequamegon-Nicolet National Forest and 
Pennsylvania's Cherry Valley NWR, the Nation's newest refuge. We also 
support continued investments in large landscape-scale projects in New 
England's Silvio O. Conte NFWR, and Montana's Rocky Mountain Front 
Conservation Area and the Montana Legacy Project.
    Forest Legacy.--We support the President's request of $100 million 
for this program, and are specifically proposing 6 projects totaling 
$20.4 million. We hope this year to complete the phased acquisition of 
the 127,000-acre Northern Cumberlands project, Tennessee's largest 
conservation project since the creation of Great Smoky Mountains 
National Park. Other priority projects include Kentucky's Big Rivers 
Corridor, Montana's Clearwater Lands and the second phases of both New 
York's Follensby Pond and Texas' Longleaf Ridge.
    Climate Change.--The Conservancy welcomes the President's 
commitment to address the global climate challenge and supports the 
administration's fiscal year 2011 proposed increases for climate-
specific programs and activities. We also appreciate this 
subcommittee's leadership in highlighting climate change adaptation and 
science funding, including the USGS National Climate Change and 
Wildlife Science Center. We particularly look forward to working with 
the FWS and other Department of the Interior bureaus to support and 
implement the work of the Landscape Conservation Cooperatives. The 
Conservancy is committed to advancing landscape scale conservation 
projects, and protect large, interconnected, and ecologically 
significant habitat. Coupled with robust funding to complementary 
conservation programs, the administration's science-based investments 
will help address the critical challenges to people and nature in a 
world whose climate is changing.
    Wildland Fire Management.--We appreciate the subcommittee's 
continued attention to high-cost wildfire and proactive management to 
reduce fuels and protect communities from damaging fire. We have three 
recommendations for wildland fire. First, increase hazardous fuels 
reduction funding by 10 percent more than enacted to $395.3 million for 
the Forest Service (USFS) and $208.2 million for DOI as a necessary 
investment to reduce threats to communities and abate costs of future 
wildlife. Second, increase to $78.2 million funding for National Fire 
Plan State Fire Assistance and increase to $7.7 million funds for 
Department of the Interior Rural Fire Assistance. These investments are 
needed to improve community safety and build local capacity for 
controlled burning as fuels reduction treatment. Finally, we support 
full funding of fire suppression needs for 2011 through the fire 
suppression budget, Federal Land Assistance, Management, and 
Enhancement (FLAME) Fund and Contingent Reserve Fund as necessary to 
safeguard critical conservation programs from ``fire borrowing.''
    Integrated Resource Restoration.--The Conservancy strongly supports 
the President's fiscal year 2011 proposal for the U.S. USFS's 
integrated resource restoration budget. First, we recommend full 
funding of $40 million for the Collaborative Forest Landscape 
Restoration Program, which with the support of the Chairman and many 
members of the subcommittee, was authorized last year and funded by 
this subcommittee at $10 million. Second, we support creation of the 
Priority Watershed and Job Stabilization Initiative to provide $50 
million on a competitive basis for projects that improve watershed 
conditions and provide employment in restoration, wood energy and 
value-added processing. Third, we support creation of the integrated 
resource restoration budget with $694 million by combining programs 
that were formerly separate functions of wildlife and fisheries habitat 
management, vegetation and watershed management, and forest products. 
Separate funding for these activities has led to disparate, 
uncoordinated activities in wildlife, fisheries, timber, and watershed 
improvement that did not necessarily contribute to restoration goals. 
The new budget structure will break new ground by measuring activity 
accomplishment by ecological outcomes and effects on watershed 
condition, rather than acres of habitat or miles of stream restored, 
and by promoting increased use of stewardship contracts and timber 
sales where they make fiscal sense. We trust that this new budget will 
better enable the USFS to provide important ecosystem services such as 
clean and abundant water, renewable energy from biomass, restored 
wildlife and fish habitat, carbon sequestration and healthy forests and 
grasslands.
    Forest Health Management.--America's forests are threatened by 
existing and a growing number of non-native pests and diseases. The 
Conservancy appreciates the subcommittee's leadership in consistently 
providing funding above the President's request. The Forest Health 
Management program should receive an increase to $145 million to 
effectively address economically and ecologically damaging pests, 
including the Asian Longhorned Beetle, Emerald Ash Borer, Hemlock 
Woolly Adelgid, Sudden Oak Death, thousand-canker disease (threatening 
walnut trees), and the gold-spotted oak borer.
    USFS Research Program.--We recommend an increase of $3 million 
above enacted for the ``Invasives R&D'' line item within the USFS 
Research Program. This would permit maintaining at current levels 
research to improve detection and control methods for the Emerald Ash 
Borer, Hemlock Woolly Adelgid and other non-native forest pests and 
diseases.
    Endangered Species.--The Conservancy supports an increase for the 
FWS's Cooperative Endangered Species Conservation Fund (CESCF) to $100 
million. The Conservancy and its partners, including multiple State and 
county governments, have used the Habitat Conservation Plan (HCP) and 
Recovery Land Acquisition Programs to secure key habitat for numerous 
threatened, endangered and at-risk species. In recent years, CESCF 
funds have been used to provide permanent habitat protection throughout 
California, including recent grants for the San Diego MSCP and the East 
Contra Costa County HCP/NCCP. The recent MT Clearwater Lands Project 
grant leverages other investments in the Forest Legacy Clearwater Lands 
Project and the USFS Montana Legacy Project. The recent planning grant 
for an HCP in Tennessee's Cumberlands Region complements the Forest 
Legacy North Cumberlands project. Last year's recovery land grant for a 
conservation easement on private lands in Northern Idaho's Kootenai 
Valley protected a critical link between higher elevation public lands 
of the Selkirk Mountains and low-elevation State and private lands. We 
also support continued funding for the Upper Colorado River Endangered 
Fish Recovery Program, the San Juan River Basin Recovery Implementation 
Program, and fish hatchery needs associated with the recovery plans in 
this region.
    State Wildlife Grants.--The Conservancy endorses the Teaming with 
Wildlife Coalition's funding recommendation of $100 million. Strong 
Federal investments are essential to ensure strategic actions are 
undertaken by State and Federal agencies and the conservation community 
to conserve wildlife populations and their habitats. We also support a 
$5 million competitive grant program as a subset of the State Wildlife 
Grant Program.
    National Wildlife Refuge System.--The Conservancy applauds the 
subcommittees' significant increases in recent years for operations and 
maintenance of the National Wildlife Refuge System, a cornerstone of 
our commitment to fish and wildlife resources throughout the Nation. As 
a member of the Cooperative Alliance for Refuge Enhancement (CARE) 
coalition we are supporting a request for $578 million in fiscal year 
2011 for the operations and maintenance of the system.
    Migratory Bird Programs.--The subcommittee has consistently 
provided vitally important investments for a number of migratory bird 
programs. Such investments are essential to reverse declines in bird 
populations through direct conservation action, monitoring and science. 
We urge the subcommittee to increase funding over the President's 
request and fiscal year 2010 enacted for such established and 
successful programs as NAWCA and the Joint Ventures, and the Migratory 
Bird Management Program.
    Partnership Programs.--We recommend funding levels of the 
President's request or fiscal year 2010 enacted for the FWS Coastal 
Program and Partners for Fish and Wildlife Program and request $10 
million for the National Fish Habitat Initiative.
    International Programs.--The Conservancy, as part of an alliance of 
major international conservation groups, supports $15 million to the 
FWS' Multinational Species Conservation Funds. We and the alliance also 
strongly support $21 million for the FWS office of international 
affairs which includes Wildlife Without Borders; $6.5 million for the 
FWS' Neotropical Migratory Bird Conservation Fund; and $16 million for 
the USFS's International Programs.
    Bureau of Land Management Climate Change, Ecoregional Assessments & 
Resource Management.--The Conservancy supports the administration's 
recommended funding for BLM's Climate Change Adaptation Initiative. 
This will enable focus upon completing ecoregional assessments, a key 
information tool for the agency to respond to the growing challenges of 
climate change and energy development. Evaluation of ecoregions and 
comparison of assessments across multi-State regions will provide 
information to guide future planning and management decisions. 
Ecoregional assessments are a critical contribution to the Landscape 
Conservation Cooperatives which link science with conservation planning 
to address broad-scale challenges of a changing climate to species and 
habitats. We also recommend robust funding for BLM resource management 
and transportation planning activities. These funds are needed to 
complete a significant number of ongoing planning efforts and to 
initiate new planning efforts in key places, without which the agency 
cannot make informed mitigation and siting decisions for traditional 
and renewable energy proposals and take the management actions 
necessary to improve priority wildlife and aquatic habitats, ensure 
water quality, control invasive species and manage off-road vehicle 
use. BLM should also be encouraged to use existing data sets when 
available so that funding can be focused on critical data needs instead 
of creating duplicitous data sets.
    USGS--Water Resources.--We support increased funding levels for the 
National Streamflow Information Program and the Cooperative Water 
Program. These programs provide scientific data needed by multiple 
public and private water managers and their partners. As climate 
change, drought and population growth increase the demands on water 
resources, it is critical to invest in the integration of State and 
Federal water resource data and to better understand water needs of 
human communities and the environment.
    Environmental Protection Agency.--The EPA Geographic programs 
provide critical leadership, technical support and funding for on-the-
ground actions to improve water quality and restore aquatic ecosystems. 
We support $300 million for the Great Lakes Restoration Initiative. We 
also support $103 million for the implementation of the various 
programs and activities defined in the President's Chesapeake Bay 
Executive order, including funding EPA's Chesapeake Bay program. We 
support $50 million to support implementation of the Puget Sound 
Partnership's Action Agenda and $20 million for implementation of the 
Long Island Sound program.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the fiscal year 2011 Interior, Environment, and 
Related Agencies appropriations bill.
                                 ______
                                 
           Prepared Statement of the Town of Ophir, Colorado
    Madam Chairman and honorable members of the subcommittee: We 
appreciate the opportunity to present this testimony in support of 
acquiring land at Uncompahgre National Forest in Colorado. An 
appropriation of $4.3 million is needed in fiscal year 2011 from the 
Land and Water Conservation Fund (LWCF) in order for the Forest Service 
(USFS) to complete the acquisition of the 445 acres in Ophir Valley. We 
are pleased that the fiscal year 2011 President's budget included $1 
million for this project; however, it can be completed this year with 
an appropriation of $4.3 million.
    Located in the heart of southwestern Colorado's San Juan Mountains, 
the Ophir Valley project area in the Uncompahgre National Forest is one 
of the San Juans' hidden gems. A short detour of only a mile off of 
Highway 145--part of the nationally acclaimed 236-mile San Juan Skyway 
Scenic Byway--brings visitors into a compact valley ringed by 13,000 
foot peaks and serrated ridge lines.
    Against a backdrop of unsurpassed alpine scenery, the Ophir Valley 
offers an abundance of recreational opportunities for residents and 
visitors. Hiking, camping, mountain biking, cross-country skiing, four-
wheeling, and fishing are all popular pastimes. In addition, the valley 
supports habitat for the Canada lynx, a federally listed threatened 
species, and provides important habitat for the endangered Uncompahgre 
fritillary butterfly and other sensitive species. It also contains the 
headwaters of Howard Fork, a key tributary to the San Miguel River, 
which The Nature Conservancy has called ``one of the last naturally 
functioning rivers in the West.'' The San Miguel sustains a globally 
rare narrowleaf cottonwood-Colorado blue spruce/black twinberry plant 
community.
    While much of the Ophir Valley is in public ownership, the region's 
mining heritage also created hundreds of privately owned patented 
mining claims scattered across the landscape like matchsticks. These 
private inholdings once were vital to sustaining 19th-century efforts 
to find and extract mineral wealth. Now, however, at a time when hard 
rock mining in southwestern Colorado appears increasingly less viable 
economically, many former mining districts, such as Ophir, are seeing 
these private inholdings develop into sites for second homes. As a 
result, more and more of the Ophir Valley's subalpine and alpine 
environments are at risk of being developed, potentially creating 
significant management issues for the USFS, fragmenting wildlife 
habitat, and spoiling the scenic splendor and recreational 
opportunities so important to residents and visitors.
    Currently, the USFS has the opportunity to acquire all of the 
remaining acres out of a total 1,145 acres of patented mining claims 
that had been under one ownership in the Ophir Valley. Prior to this 
acquisition effort, these claims represented approximately 90 percent 
of the valley's privately owned inholdings. Federal appropriations 
provided in previous years have allowed the USFS to begin acquiring 
these mining claims, and the requested $4.3 million in fiscal year 2011 
will allow the agency to purchase the final 445 acres. This project 
resolves many land use and access conflicts that stem from the 
development of private inholdings within public lands, while promoting 
effective land management practices by the USFS. In particular, the 
ongoing acquisition protects critical habitat, maintains high-quality 
recreational opportunities on public lands, protects water quality, and 
helps maintain the quality of life of the region's residents.
    This protection effort is a natural extension of the successful Red 
Mountain project, located just to the north and east of the Ophir 
Valley along a different portion of the San Juan Skyway. It will also 
complement other land protection and recreation enhancement efforts 
along and adjacent to the San Juan Skyway, one of only 27 All-American 
Roads in the National Scenic Byway program. In recent years, for 
example, Great Outdoors Colorado Trust Fund has pledged $5.7 million 
for land protection in the area. In fiscal year 2011, an appropriation 
of $4.3 million is needed to enable the USFS to complete the protection 
of these critical inholdings.
    The LWCF is our Nation's premier Federal program to acquire and 
protect lands at national parks, forests, refuges, and public lands and 
at State parks, trails, and recreational facilities. These sites across 
the country provide the public with substantial social and economic 
benefits including promoting healthier lifestyles through recreation, 
protecting drinking water and watersheds, improving wildfire management 
and assisting the adaptation of wildlife and fisheries to climate 
change. For all these reasons, the President has included meaningful 
increases to the program in his fiscal year 2011 budget and we support 
the administration's commitment to fully funding the program in the 
near future. Recognizing the many demands this subcommittee faces, we 
also want to thank the subcommittee for its recent effort to restore 
much-needed funding to this depleted program. This wise investment in 
the LWCF is one that will permanently pay dividends to the American 
people and to our great natural and historical heritage.
    We want to thank the chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Colorado, and we appreciate your consideration of 
this funding request.
                                 ______
                                 
            Prepared Statement of 10 Tanker Air Carrier, LLC
    10 Tanker Air Carrier (10 Tanker), a privately owned aerial 
firefighting company, respectfully requests that this written statement 
be added to the record of the hearing before the Senate Committee on 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies Concerning Oversight of Fire Policy that was held on May 26, 
2010.
    We commend the outstanding leadership and public service of 
Chairman Feinstein, Ranking Member Alexander, and the members of this 
subcommittee in holding this hearing. We also commend our professional 
fire fighter colleagues at the U.S. Forest Service (USFS), Bureau of 
Land Management, and the many State and local fire fighters who work 
tirelessly and with significant personal risk to prevent and to 
suppress wildfires.
    We have reviewed the written testimony and the video of this 
hearing. Significant portions of the hearing focused on the Station 
Fire of 2009 in southern California. We are surprised that there was no 
mention of the use of the two DC-10 aircraft operated by 10 Tanker in 
containing that very large fire.
    The fire started on August 26, 2009, and, as has been well 
documented in other testimony, it grew rapidly for a variety of 
reasons. 10 Tanker was dispatched through the California Department of 
Forestry and Fire Protection (Cal Fire) contracts (not USFS) from 
August 29 through September 7, 2009. 10 Tanker flew a total of 31 
missions dispensing approximately 350,000 gallons of line-building 
retardant that had a significant impact on fire containment, property 
protection, and personnel safety.
    The hearing emphasized the necessity for rapid initial attack to 
prevent the wide-spread damage caused by the Station Fire. We note 
that, while the fire started on August 26, 10 Tanker assets were not 
dispatched until August 29. While the majority of 10 Tanker missions on 
the Station Fire were to build extended lines to permit ground 
personnel to access those areas necessary to contain the fire, through 
our experience with more than 340 missions flown over more than 45 
named fires, we have proven to ground commanders that we also have 
significant potential in direct suppression applications. We have also 
proven that the DC-10 tanker can be fully integrated into a suppression 
effort without impeding the activities of the other aerial and ground 
members of the team. We are over the drop zone for less than 2 minutes; 
our gravity feed system is no hazard to ground crews at our 200-300 
feet drop altitude; our aircraft performance permits turn radii 
commensurate with that of any other fixed-wing aircraft; we can provide 
one or more drops in a single mission; we can operate from most of the 
airports that the USFS has in its strategic plan plus any other airport 
that has 8,000 feet of runway; and we can apply in one air mission the 
same amount of suppressant as five or more of the other aircraft 
available to any agency's ground commander. 10 Tanker's niche is in any 
wildfire contingency where the ground commander determines he needs to 
accomplish in one mission at jet speed what might otherwise take six 
other aircraft and significantly more time. Due to its capacity, jet 
speed, and rapid turn-around capability, there is no other aerial fire-
fighting asset in existence that can provide such massive deliveries in 
time-critical situations.
    There was also a discussion in the hearing about replacement of 
aging firefighting tankers. While the discussions in the hearing 
centered on future ``large tankers'' such as the C-130 MAFFS, the DC-10 
is classified by the USFS as a ``very large tanker.'' 10 Tanker has 
invested tens of millions of dollars in private capital to create a 
modern firefighting tanker to address the urgent needs of State and 
Federal agencies for innovation, modernization, and availability of air 
tankers. We have partnered with the Federal Aviation Administration, 
the USFS and the other Federal agencies to demonstrate our safety and 
our significant increase in capacity, speed of delivery, and cost 
effectiveness in aerial firefighting. They, in turn, have taken all the 
prudent steps to assure public safety and utility of our tanker, and 
have formally approved its use on wildfires on public lands.
    While we recognize the need for a variety of fixed and rotary wing 
assets in effective wildfire management, we would urge responsible 
legislators and agency personnel to reinforce the need for this proven, 
cost-effective asset at the Federal level. Only Cal Fire, not USFS, has 
made the commitment with an exclusive use contract with 10 Tanker. With 
Federal commitment to traditional exclusive-use contracts in the 
future, this world-class firefighting asset can be immediately 
available to any ground commander throughout the United States. 
Furthermore, there is sufficient private capital to fund additional DC-
10 assets with as little as 6 months' notice. Then the citizens of all 
States would be protected by this modern firefighting tanker.
                                 ______
                                 
                 Prepared Statement of Trout Unlimited
    Madam Chairman and honorable members of the subcommittee: On behalf 
of Trout Unlimited's more than 140,000 members nationwide and more than 
1,100 members in the great State of Vermont, I appreciate the 
opportunity to present this testimony in support of acquiring land at 
Green Mountain National Forest in Vermont. An appropriation of $800,000 
is needed in fiscal year 2011 from the Land and Water Conservation Fund 
in order for the Forest Service to complete the acquisition of the 660-
acre Deerfield River property. This project is part of a larger request 
of funds for the national forest.
    The Green Mountains of Vermont are one of the northeast region's 
most popular and heavily visited areas, which each year draw millions 
of tourists attracted to its scenic beauty. The forest is within a 
day's drive for Vermont residents and visitors from the surrounding 
states of New York, New Hampshire, Massachusetts and Connecticut, and 
provides easy access to an outstanding recreational area. The Green 
Mountains region contains outstanding natural resources such as 
wildlife habitat for black bear, deer, and neotropical songbirds, as 
well as extensive timber resources. The area boasts excellent trout 
streams and encompasses the watersheds that provide drinking water for 
many Vermont communities. The acquisition of properties in the Green 
Mountain National Forest protects recreational opportunities that have 
long been important to residents and visitors alike, such as camping, 
hiking, hunting, and cross-country skiing. Federal appropriations in 
recent years have allowed the Forest Service to acquire and protect 
critical watershed properties in the northern section of the forest as 
well as excellent recreation and habitat lands in the Taconics region.
    Two properties totaling 660 acres that lie along the Deerfield 
River in Readsboro offer substantial aquatic resources and intact 
forest contiguous to existing Green Mountain National Forest (GMNF) 
lands. The properties' northern hardwood and conifer forest, 95 acres 
of wetlands and 1.4 miles of frontage on the Deerfield River provide 
excellent opportunities for continued forest management, recreation, 
wildlife habitat protection, and watershed conservation--all of which 
are U.S. Forest Service strategic goals for land conservation. Due to 
the quality of the habitat, ecological and aquatic features, and 
connectivity with existing GMNF ownership, the properties are a 
conservation priority of the GMNF. These parcels would complement 
existing U.S. Forest Service lands and improve access for management 
and public recreation, and are part of a larger land acquisition 
program underway at the GMNF in fiscal year 2011.
    Trout Unlimited's mission is to conserve, protect and restore North 
America's coldwater fisheries and their watersheds. Our vision is, by 
the next generation, to ensure that robust populations of native and 
wild coldwater fish once again thrive within their North American 
range, so that our children can enjoy healthy fisheries in their home 
waters. Due to cool temperatures, excellent water quality, consistent 
food supply, and high oxygen content, the West Branch of the Deerfield 
River and its tributaries located within the boundaries of these 
parcels serve as refugia for wild and native Brook Trout, and have 
served as a site for Atlantic salmon restoration efforts. Protecting 
the larger ecological context in which the existing populations of 
these fish survive is one of the four pillars of the Trout Unlimited 
conservation framework. Both Trout Unlimited and the Eastern Brook 
Trout Joint Venture have identified the West Branch subwatershed for 
highest conservation priority. Against a backdrop of climate change and 
increased development pressure in Vermont, the Vermont Council of Trout 
Unlimited views the conservation of these parcels as mission critical.
    Additional benefits would accrue to the citizens of and visitors to 
Vermont. The clean and scenic Deerfield River is a popular recreation 
destination, used by kayakers, fishermen, and wildlife watchers. By 
connecting previously unconnected tracts of GMNF, there is an 
opportunity to link existing hiking and snowmobiling trails and create 
new trailheads to provide easier public access. The GMNF plans to 
encourage hunting, hiking, skiing, and other nonmotorized recreation, 
with snowmobiling on designated trails. Home to moose, deer, turkey, 
and other game species, the property will be a valuable resource to 
local hunters who have seen access to land decreasing in recent years, 
as new owners subdivide and post properties that have traditionally 
been open for hunting. Conservation of this forest will encourage and 
strengthen the region's forest industries and growing tourism economy 
by preserving the rural character of Readsboro and providing increased 
public recreational opportunities.
    The forested plateaus, ridges, swales, and drainages provide for 
diverse ecological assemblages as well as forest structure and 
function. Black bear, deer, and moose use the properties as forage 
habitat as well as for their connectivity to existing protected forest. 
In addition to the dominant birch-beech-maple stands are several 
conifer stands which offer wintering areas for deer and moose. The 95 
acres of wetlands and two miles of headwater streams located on the 
properties provide habitat for beaver, migratory waterfowl, and other 
aquatic species.
    A Wildlife Habitat Suitability Analysis by Vermont Fish & Wildlife 
Department showed these properties as highly valuable for black bear 
and rated this section of Route 100 as an important wildlife corridor. 
These critically located Deerfield River properties are at risk of 
development and fragmentation due to their frontage on Route 100 and 
proximity to conserved land. A recent USFS publication (A Sensitivity 
Analysis of Forests On The Edge, 2009) shows the Deerfield River 
watershed to be among the top 10 percent in the country with the 
highest projected rates of change in housing density between 2000 and 
2030.
    In fiscal year 2011, an appropriation of $800,000 from the Land and 
Water Conservation Fund for the Green Mountain National Forest would 
allow for the protection of these important natural resource 
properties, ensuring wildlife habitat connectivity, water quality 
protection, and public recreation opportunities in a threatened 
landscape.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds, improving wildfire management, and assisting the 
adaptation of wildlife and fisheries to climate change. For all these 
reasons, the President has included meaningful increases to the program 
in his fiscal year 2011 budget, and I support the administration's 
commitment to fully funding the program in the near future. Recognizing 
the many demands this committee faces, I also want to thank the 
committee for its recent effort to restore much-needed funding to this 
depleted program. This wise investment in the Land and Water 
Conservation Fund is one that will permanently pay dividends to the 
American people and to our great natural and historical heritage.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Vermont, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
              Prepared Statement of The Wilderness Society
    The Wilderness Society (TWS) represents more than 500,000 members 
and supporters who share our mission to protect wilderness and inspire 
Americans to care for our wild places. We thank the subcommittee for 
the opportunity to submit comments on the fiscal year 2011 Department 
of the Interior, Environment, and Related Agencies appropriations bill.
    We applaud the leadership and members of this subcommittee for 
increasing appropriations in fiscal year 2009 and 2010 for essential 
public land conservation programs and reversing the near decade-long 
pattern of severe funding cuts to numerous conservation programs. 
Despite this progress, conservation programs continue to suffer from 
underfunding. Additionally, the effects of climate change are impacting 
public lands nationwide and have only begun to be addressed by land 
management agencies.
    Protection and proper stewardship of these lands buffer the effects 
of flooding and wildfire, conserve water, support healthy fisheries and 
wildlife populations, and sequester carbon. Our forests currently 
sequester an estimated 14 percent of all U.S. greenhouse gas emissions 
and mitigate the impacts of climate change. Additional protections for 
these important carbon stores should be considered.
    Conservation programs are also pivotal to the success of the 
outdoor recreation industry, which contributes $730 billion annually to 
the economy while supporting nearly 6.5 million jobs across the 
country. According to a recent Department of the Interior study, 
conservation activities are a driving force to create jobs, as every $1 
million taxpayers invest in ecosystem restoration projects creates 30 
jobs, and every $1 million invested in recreation projects produces 22 
jobs.
    We urge bold, immediate action in making additional investments for 
fiscal year 2011. TWS recommends:
Land and Water Conservation Fund
    Our 682 million acres of Federal land and waterways provide a 
critical opportunity to address the unprecedented challenges that 
climate change poses to our forests, fish and wildlife, and riparian 
resources. The strategic acquisition of key inholdings, buffer areas, 
and wildlife migration corridors within and adjacent to existing public 
lands enhances adaptation efforts and fosters intact landscapes. These 
natural areas also store carbon, buffer flooding, conserve water, and 
support healthy fisheries and wildlife populations. Hand-in-hand with 
mitigating the deleterious impacts of our environment from burning 
fossil fuels is the need to respond to climate change with a 
foresighted investment in land protection and natural resource 
adaptation across the Federal public lands. President Obama has 
indicated that LWCF should be fully funded by 2014, and we support a 
significant funding increase that will lead to his goal. TWS' fiscal 
year 2011 recommendation for the LWCF is $600 million ($425 million for 
Federal and $175 million for State grants).
Bureau of Land Management (BLM) Onshore Oil and Gas Policy
    The administration proposes the following laudable reforms of the 
BLM's oil and gas program:
  --A proposed fee on onshore Federal operators designed to bring in 
        $10 million per year for the I&E program.
  --Continuation of the $6,500 APD fee in fiscal year 2011 which was 
        approved by Congress for fiscal year 2010 (estimated revenues--
        $45.5 million).
  --A $4 per-acre fee on nonproducing onshore leases (needs authorizing 
        legislation).
  --Repeal of section 365 of EPACT which diverted lease rental revenues 
        to fund the ``Permit Streamlining Pilot Offices'', and 
        prohibits the BLM from charging APD fees (the latter provision 
        in effect overridden by Congress in the fiscal year 2010 
        appropriations bill).
  --Initiation of a new rule to raise royalty rates for Federal onshore 
        oil and gas leases, with a goal of raising oil and gas revenues 
        by $1 billion over 10 years (royalty rates under consideration 
        are not discussed in the budget proposal, however).
    TWS supports all of these proposals. The BLM is moving forward with 
important management reforms of the onshore program that should, when 
fully implemented, lead to a better balance between oil and gas 
developed on western public lands, and the protection of the many 
natural resource values that have been impaired by the previous 
administration's oil and gas policies.
BLM's National Landscape Conservation System (NCLS)
    The BLM's NCLS comprises some 26 million acres of congressionally 
and presidentially designated lands and waters, such as National 
Monuments and National Conservation Areas. Stewardship of the NCLS's 
many units provides jobs for thousands of Americans while supporting 
vibrant and sustainable economies in surrounding communities. The NCLS 
provides immeasurable public values in return for modest investments: 
outstanding recreational opportunities, wildlife habitat, clean water, 
wilderness, and open space near fast-growing cities. The NCLS also 
provides a living laboratory where the challenges of climate change can 
be studied and landscape level habitat restoration can take place. 
Recent changes have improved clarity in the NCLS's budget, but the NCLS 
still suffers from a lack of prominence in the BLM's budget structure 
and there is a real need for subaccounts that reflect the diversity of 
the NCLS's many units.
  --TWS' fiscal year 2011 recommendation is full budget clarity for the 
        NCLS--two new subactivities and funding of $100 million, a 
        modest increase of approximately $25 million more than the 
        fiscal year 2010 enacted level.
  --Restore the Challenge Cost Share Program at full funding of $19 
        million. This is a cross-cutting program within Department of 
        the Interior, which provides a 1:1 match for volunteer 
        activities.
Renewable Energy
    TWS is a strong proponent of transitioning our country to a 
sustainable energy economy by developing our renewable energy resources 
quickly and responsibly. We believe renewable energy is an appropriate 
use of the public lands when sited in areas screened for habitat, 
resource, or cultural conflicts. As such, we are supportive of the 
request for a $14.2 million increase for renewable energy programs 
across Department of the Interior, bringing the fiscal year 2011 
request to $73.3 million. TWS is pleased that Department of the 
Interior's request is consistent with the principle of both protecting 
lands and installing energy facilities, as seen in the proposed $3 
million increase over the $16.1 million enacted in fiscal year 2010, 
for project-level environmental review. With these expanded resources, 
TWS hopes the Department of the Interior will see fit to clearly 
document policies for thorough and expedient environmental review, 
suitability screening, energy zone identification, and fair return for 
taxpayers.
National Wildlife Refuge System (NWRS) Funding
    An analysis compiled by the Cooperative Alliance for Refuge 
Enhancement shows that the NWRS needs at least $900 million in annual 
operations and maintenance funding to properly administer its 150 
million acres, educational nature programs, habitat restoration 
projects, and much more. We appreciate the subcommittee's vision and 
leadership while providing funding increases in fiscal year 2008-fiscal 
year 2010. We urge the Congress to build upon these important steps 
toward restoring the NWRS by considering our request in the fiscal year 
2011 budget. To reach this goal, TWS recommends providing $578 million 
in fiscal year 2011 for the operations and maintenance of America's 
NWRS.
National Forest Funding
    TWS supports the overall funding levels in the proposed Forest 
Service (USFS) budget; however, we recommend adjusting the funding 
levels of several programs. For example, important and fundamental 
programs like inventory and monitoring and land management and planning 
should have funding levels of $180.5 million and $80 million, 
respectively, in fiscal year 2011. This is especially important in a 
year when the administration is undergoing a national forest planning 
rulemaking and when climate change requires that we perform more 
research. TWS additionally recommends that the Forest Inventory and 
Analysis Program receive $76 million, the Wildlife and Fisheries 
Habitat Program be restored and receive $163 million, and Recreation, 
Heritage and Wilderness Program receive $408 million.
    TWS is pleased that the administration is working on shifting 
forest management from timber-based to more restoration-based. However, 
we do have concerns about a proposal that would eliminate three 
important programs, and thus important measurements of the health of 
our national forests. Additionally, the USFS must be provided with 
direction from Congress to ``right-size'' its massive and decaying road 
system, which is a major threat to the drinking water of more than 
3,400 communities and has resulted in ecosystem degradation and a more 
than $8 billion road maintenance backlog. The Western Governors' 
Association, the U.S. Conference of Mayors, major sportsmen groups, and 
others have also urged the USFS to bring its roads system down to a 
sustainable size. To achieve forest restoration goals in fiscal year 
2011, TWS recommends:
  --The USFS receive congressional direction to develop a restoration 
        plan that is rooted in the latest science and includes input 
        from the public;
  --The Collaborative Forest Landscape Restoration Program is fully 
        funded and moved into the National Forest System budget;
  --Congress continues its commitment to reduce fire risk to 
        communities by funding the two State Fire Assistance programs 
        at $150 million, collectively; and
  --Congress funds the Legacy Roads and Trails program at $120 million, 
        $30 million of which for the minimum roads system analysis 
        (pursuant to 36 CFR 212.5(b)).
    Acquiring land for conservation purposes is a critical duty for the 
USFS. The Forest Legacy Program (FLP) helps to preserve working 
forestlands threatened by conversion and development. To date, this 
program has protected more than 1.9 million acres in 42 States and 
territories. A total of $444 million of Federal funds have been matched 
by $484 million in non-Federal funds and donations, making the Federal 
share only 44 percent of overall project costs. TWS' fiscal year 2011 
recommendation for the FLP is $150 million, an increase of $70.5 
million more than the fiscal year 2010 enacted level of $79.5 million.
    The Community Forest and Open Space Conservation Program, 
established in the 2008 Farm Bill, will give communities, tribes and 
nonprofits 50/50 matching funds to help purchase economically, 
ecologically and culturally important forestlands to create community 
forests. The program also ensures technical assistance through state 
forestry agencies to help implement outstanding forest management. TWS' 
fiscal year 2011 recommendation for Community Forest and Open Space 
Program is $10 million, an increase of $9.5 million more than the 
fiscal year 2010 enacted level.
    The Federal Land Assistance, Management, and Enhancement (FLAME) 
Act of 2009 requires the USFS to complete a Cohesive Wildfire 
Management Strategy by the end of fiscal year 2010 to identify the most 
cost-effective means for allocating fire management budget resources, 
employ the appropriate management response to wildfires, and assess the 
level of risk to communities and the impacts of climate change on 
wildfire, among several other factors. While the agency has recently 
begun this process, we believe they will be able to produce a better 
product if given additional time. TWS recommends for fiscal year 2011:
  --Congress provide the USFS with an additional year to ensure a more 
        comprehensive strategy;
  --TWS recommends allocating $2 million for the agency to convene a 
        panel of scientists to inform the development and allow for a 
        public review process.
Fire Funding--USFS and Department of the Interior
    TWS is pleased that the administration proposes funding the USFS 
and Department of the Interior FLAME funds. However, it is unclear that 
the USFS and the Department of the Interior require four emergency 
funds through the additional proposed contingency reserve budgets for 
each department. The FLAME fund is intended to fund suppressing high-
cost fires during the fire season and be accessible when annual 
suppression funds are nearly exhausted. The FLAME fund also requires 
the administration to report to Congress quarterly on the status of the 
fund, which would provide appropriators the opportunity to replenish 
the fund as needed. The purpose of the fund is to eliminate the need 
for the USFS to transfer funds from non-fire programs--a practice that 
has too often led to disruptions in program implementation. TWS 
recommends that the proposed funding in the USFS and Department of the 
Interior contingency reserve accounts be transferred to their 
respective FLAME funds. Additionally, Congress must continue to stress 
to the USFS the need to replace the 10-year rolling average estimate 
with a more predictive statistical modeling approach for calculating 
emergency and annual suppression estimates.
Council on Environmental Quality
    CEQ serves as the principal environmental policy advisor to the 
President. CEQ has broad statutory responsibilities for advising the 
President in the development of environmental policies and legislation; 
assessing and reporting trends in environmental quality and 
recommending appropriate response strategies; and overseeing 
implementation of NEPA. CEQ is severely understaffed. CEQ's staff 
ranged from 50-70 in the 1970s and 1980s in both Republican and 
Democratic Administrations, but it is currently staffed by only 24 
FTEs. Additional resources are critical and TWS recommends an increase 
to $4,694,093, which would allow for approximately 30 staff.
                                 ______
                                 
               Prepared Statement of The Wildlife Society
    The Wildlife Society (TWS) appreciates the opportunity to provide 
comments on the fiscal year 2011 budget for the Department of Interior, 
Environment, and Related Agencies Subcommittee. TWS was founded in 1937 
and is a nonprofit scientific and educational association representing 
more than 9,000 professional wildlife biologists and managers, 
dedicated to excellence in wildlife stewardship through science and 
education. Our mission is to represent and serve wildlife 
professionals--the scientists, technicians, and practitioners actively 
working to study, manage, and conserve native and desired non-native 
wildlife and their habitats worldwide.
U.S. Fish and Wildlife Service
    The State and Tribal Wildlife Grants Program is the primary program 
supporting implementation of comprehensive wildlife conservation 
strategies, known as State Wildlife Action Plans, and it is the only 
Federal program that supports States in preventing wildlife from 
becoming endangered. Each State creates plans which detail conservation 
actions including land protection, invasive species management, 
research and survey work, and more; these actions create or sustain 
thousands of jobs that preserve lands important to all sorts of 
wildlife enthusiasts. Funding assistance for these State wildlife 
agencies is therefore one of the highest-priority needs for wildlife in 
order to prevent further declines in at-risk wildlife populations in 
every State. We recommend that $100 million be appropriated for State 
Wildlife Grants in fiscal year 2011. We also ask that Congress support 
a reduction in the non-Federal match requirement from 50 percent to 30 
percent, relieving some of the onus of providing adequate matching 
funding from severely cashed-strapped States.
    The Cooperative Alliance for Refuge Enhancement (CARE) is a diverse 
coalition of 22 wildlife, sporting, conservation, and scientific 
organizations representing more than 14 million members and supporters. 
A comprehensive analysis by CARE determined that our National Wildlife 
Refuge System (NWRS) needs $900 million in annual operations to 
properly administer its nearly 150 million acres, educational programs, 
habitat restoration projects, and much more. Many years of stagnant 
budgets have increased the operations and maintenance backlog, and 
forced plans for a dramatic 20 percent downsizing of the workforce. 
NWRS visitors often show up to find visitor centers closed, hiking 
trails in disrepair, and habitat restoration programs eliminated. 
Invasive plant species are taking over, requiring $25 million per year 
to treat just one-third of its acreage, and illegal activities such as 
poaching are on the rise, requiring an additional 209 officers ($31.4 
million) to meet law enforcement needs. We request that you provide 
$578 million in fiscal year 2011 for the operations and maintenance of 
the NWRS.
    The North American Wetlands Conservation Act is a cooperative, 
nonregulatory, incentive-based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. This program has remained drastically underfunded, despite 
its great demonstrated effectiveness. We recommend a $10 million 
increase, to $52.6 million in fiscal year 2011 so that act may reach 
the goal of full funding of $75 million by fiscal year 2012.
    The Neotropical Migratory Bird Conservation Act (NMBCA) provides a 
broad-spectrum approach to bird conservation. TWS recommends that 
Congress fund the NMBCA at its full authorization of $6.5 million in 
fiscal year 2011.
    TWS supports adequate funding levels for all subactivities within 
the Endangered Species Program. Endangered species recovery efforts can 
ultimately lead to delisting actions that result in significant 
benefits to species through State management efforts. Currently, all 
subactivities are understaffed while the costs for management of listed 
species continue to rapidly escalate. We recommend that Congress match 
the President's request for the Endangered Species Program and provide 
$181.33 million in funding in fiscal year 2011.
    The voluntary Partners for Fish and Wildlife Programs provides 
financial and technical assistance to landowners to restore degraded 
habitat on their property. With more than two-thirds of our Nation's 
lands held as private property, and up to 90 percent of some habitats 
lost, private lands play a key role in preserving our ecosystem. We 
urge Congress to provide $60 million in support of the Partners for 
Fish and Wildlife Program in order to allow landowners to help 
contribute to land and wildlife preservation.
    Through its international programs, FWS works multilaterally with 
many partners and countries in the implementation of international 
treaties, conventions, and projects for the conservation of wildlife 
species and their habitats. International trade, import, and 
transportation of wildlife species can have a huge impact on America's 
security, economy, and environment and careful regulation and 
implementation of international policies is an important task. We ask 
Congress to support FWS in protecting our economy, our environment, and 
our national security by providing a necessary $22 million in support 
of FWS International Affairs.
    Finally, we ask Congress to provide additional funding to fight 
White Nose Syndrome (WNS) in bats. The current loss of bats from WNS is 
one of the most precipitous wildlife declines in the past century in 
North America, and will likely have significant ecological and economic 
consequences throughout the United States. Expert scientists have 
recommended that $45 million will be needed over the next 5 years to 
study and combat WNS, however last year Congress only appropriated $1.9 
million for WNS in the Recovery of Listed Species Program. In order to 
meet the growing urgency to fight this disease, TWS asks you to provide 
an additional $5 million for fighting WNS in fiscal year 2011.
Bureau of Land Management (BLM)
    The diverse habitats managed by BLM support more than 3,000 species 
of wildlife, more than 300 federally proposed or listed species, and 
more than 1,300 sensitive plant species. However, the BLM has only 1 
biologist per 591,000 acres of land and estimated costs for recovery of 
threatened and endangered species on BLM lands are $300 million 
annually over the next 5 years. In addition, the Wildlife and Fisheries 
Management (WFM) and the Threatened and Endangered Species Management 
(TESM) programs have been forced to pay for the compliance activities 
of BLM's energy, grazing, and other nonwildlife related programs, 
eroding their ability to conduct proactive species and habitat 
conservation activities and efforts to recover listed species. This 
diversion of funding must be stopped, or additional funding provided to 
both programs to make up for the deficiency. Therefore, given the 
significant underfunding of the BLM's wildlife programs, combined with 
the tremendous expansion of energy development across the BLM 
landscape, an increase to $65.4 million for the BLM Wildlife and 
Fisheries Management Program is warranted. This will allow BLM to 
maintain and restore wildlife and habitat by monitoring habitat 
conditions, conducting inventories of wildlife resources, and 
developing cooperative management plans.
    Increased funding is also needed for the Threatened and Endangered 
Species Management Program to meet its responsibilities in endangered 
species recovery plans. BLM's March 2001 Report to Congress called for 
a doubling of the current Threatened and Endangered Species budget to 
$48 million and an additional 70 staff positions over 5 years, however, 
this goal has yet to be met. In view of this, we strongly encourage 
Congress to increase overall funding for the BLM Endangered Species 
Program to $33 million in fiscal year 2011.
    Finally, TWS applauds the positive action that is being taken to 
solve the problems associated with wild horse and burro management, and 
supports Secretary Salazar's $75.9 million request for this issue. 
However, given that horses and burros have been maintained above the 
appropriate level for many years, we believe that additional funding 
should be requested to correct the habitat damage that has occurred due 
to overpopulation of these animals. We recommend that an additional $3 
million be provided ($78.9 million total) in fiscal year 2011 to 
remediate habitat degradation from wild horses and burros.
U.S. Geological Survey (USGS)
    The basic, objective, interdisciplinary scientific research that is 
supported by the USGS is necessary for understanding the complex 
environmental issues facing our Nation today. This science will play an 
essential role in the decisionmaking processes of wildlife, land, and 
other natural resource managers as we adapt to climate change, and it 
will help protect our water supply, preserve endangered species, and 
strengthen our national defense. More investment is needed to 
strengthen USGS partnerships, improve monitoring, produce high-quality 
geospatial data, and deliver the best science to address critical 
environmental and societal challenges. TWS supports funding of at least 
$1.334 billion for USGS in fiscal year 2011.
    The Cooperative Fish and Wildlife Research Units (CFWRUs) are a 
jointly funded Federal/State partnership that provides the funding for 
personnel and establishment of the units at a university. In fiscal 
year 2001, Congress fully funded the CFWRUs, allowing unit productivity 
to rise to record levels. Since then, budgetary shortfalls have caused 
an erosion of available fiscal resources, resulting in a current 
staffing vacancy of nearly one quarter of the professional workforce. 
In order to fill current scientist vacancies, restore seriously eroded 
operational funds for each CFWRU, and enhance national program 
coordination, the fiscal year 2011 budget for the CFWRUs should be 
increased to $22.5 million. This would restore necessary capacity in 
the CFWRU Program and allow it to meet the Nation's research and 
training needs. Also, the CFWRUs are crucial to successfully addressing 
the natural resource management challenges posed by climate change, 
energy development, invasive species, infectious diseases, and fire. We 
also ask that you establish a competitive matching fund program within 
existing CFWRU legislative authority that would make available $20 
million annually in new funds beyond base operational costs, starting 
with a $5 million appropriation in fiscal year 2011.
    TWS appreciates the funding for the National Climate Change and 
Wildlife Science Center in last year's omnibus, and the fiscal year 
2010 increase to $11 million for the Center. This center will play a 
pivotal role in addressing the impacts of climate change on fish and 
wildlife. In order for this role to be fully realized, funding must 
increase. TWS recommends that Congress fully fund the President's 
request of $23 million in fiscal year 2011.
U.S. Forest Service (USFS)
    Our national forests and grasslands are essential to the 
conservation of our Nation's wildlife and habitat, and are home to 
about 425 threatened and endangered, and another 3,250 at-risk species. 
Many programs within the USFS are essential to protecting these species 
and require careful consideration during the appropriations process. In 
fiscal year 2011, the USFS is proposing to combine several programs and 
their budgets, including vegetation and watershed management, wildlife 
and fisheries habitat management, and forest products into a single 
integrated resource restoration activity budget. we are concerned with 
this merging of resources because it makes accountability to 
stakeholders and Congress difficult. However, with these reservations 
noted, we urge Congress to support the request of $693.722 million for 
the Integrated Resource Restoration Program in fiscal year 2011.
    Integral to management of our natural resources is a deep 
understanding of the biological and geological forces that shape the 
land and its wildlife and plant communities. The research being done by 
the USFS works at the forefront of science to improve the health of our 
Nation's forests and grasslands and will play a key role in developing 
strategies for mitigating the effects of climate change. Research is 
the basis for sound policy decisions and sustained and increasing 
funding is needed. We urge Congress to fund the President's request of 
$312 million for forest and rangelands so we can continue to support 
this high-quality research.
    Last August, Secretary Vilsack announced his desire to develop 
national forest planning regulations that are new, meaningful, and 
climate-smart. Along with this need for new regulations, there is also 
a tremendous backlog of forest plans that require revision; therefore, 
an increase in funding for land management within the USFS is urgently 
needed. Based upon funding estimates for sustaining current plans, as 
well as additional funds for planning new regulations, we ask Congress 
to provide $80 million for land management in fiscal year 2011.
                                 ______
                                 
   Prepared Statement of the Upper Peninsula Public Access Coalition
    Dear Chairman Feinstein and Senator Alexander: On behalf of the 
Upper Peninsula Public Access Coalition (UPPAC), I appreciate the 
opportunity to present this testimony in support of acquiring land at 
the Ottawa and Hiawatha National Forests in Michigan. Over the past 4 
years we have worked towards protecting these properties and now, our 
dream can become a reality. An appropriation of $4.8 million is needed 
in fiscal year 2011 from the Land and Water Conservation Fund in order 
for the Forest Service to acquire three tracts totaling 3,454 acres. 
This project was recognized in the President's Budget as a Forest 
Service priority at an amount of $1.3 million. However, the full $4.8 
million is needed to acquire these critical properties.
    UPPAC is a totally volunteer organization comprised of concerned 
citizens dedicated to the protection and preservation of the region's 
environmental quality and way of life. The common thread that connects 
us all is our appreciation for the aesthetic beauty of undisturbed 
shorelines as well as our use, enjoyment and deep concern for the 
lakes, streams, rivers, and woodlands of Michigan's Upper Peninsula.
    With its pristine rivers, winding streams, and vast wilderness 
areas, Michigan's Upper Peninsula shapes the rugged character of the 
upper Great Lakes region. Ensuring the lasting protection of this 
region's diverse ecosystems, preserving sensitive wildlife habitat, and 
securing lasting recreational opportunities are important conservation 
objectives identified by the U.S. Forest Service that help address the 
goals of the Great Lakes Restoration Initiative, established by 
Presidential Executive order in February 2009.
    The Great Lakes, Great Lands--Upper Peninsula conservation project 
proposed for funding in fiscal year 2011 would greatly advance these 
objectives by incorporating more than 3,500 acres of private land in 
the Upper Peninsula into the Ottawa and Hiawatha national forests. In 
collaboration with regional landowners and nonprofit partners, the 
forests are working to protect wetland ecosystems, conserve open space, 
and expand public access in the Upper Peninsula--all while promoting 
sustainable forest management of the region's timber resources.
    Acquisition of these properties will keep a significant portion of 
the Upper Peninsula's pristine landscape intact, which in turn supports 
efforts to address the threat of global warming, as forested landscapes 
play an increasingly important role in sequestering carbon. Successful 
implementation of this landscape-scale project will help ensure the 
integrity of the wilderness experience and the protection of a truly 
unique natural resource area in the Upper Peninsula.
Ottawa National Forest--Prickett Lake Phase II
    Prickett Lake, located within the Kenton Ranger District of the 
Ottawa National Forest, was the highest-ranked fiscal year 2010 
acquisition priority for the Eastern Region of the Forest Service and 
received partial funding through the Land and Water Conservation Fund 
in the fiscal year 2010 appropriations cycle that will allow for a 
portion of the property to be protected.
    Upstream and downstream of Prickett Lake are designated sections of 
the Wild and Scenic Sturgeon River, which flows directly into Lake 
Superior. The Prickett Lake property is immediately adjacent to the 
iconic Sturgeon River Gorge Wilderness and includes a portion of the 
remarkable North County National Scenic Trail, which stretches more 
than 4,600 miles from New York to North Dakota and is the Nation's 
longest national scenic trail.
    The wilderness areas surrounding Prickett Lake host a diverse range 
of wildlife habitat for gray wolves, Canada lynx, ruffed grouse, bald 
eagles, minks, woodcocks, foxes, black bears, white-tailed deer, and a 
variety of fish. Prickett Lake is upstream to one of the last remaining 
productive spawning areas for lake sturgeon in the entire Lake Superior 
watershed. This area's pristine water quality helps protect the overall 
health of the Sturgeon River watershed. In fiscal year 2011, $1.3 
million is needed from the Land and Water Conservation Fund to complete 
this key priority of the Great Lakes, Great Lands--Upper Peninsula 
initiative.
Ottawa National Forest--Victoria Lake
    Available for acquisition in the Ottawa NF are the 370-acre 
Victoria Lake tracts, which lie along the south and eastern shores of 
Victoria Reservoir and the West Branch of the Ontonagon River. These 
tracts are part of an intact forested landscape that stretches for 
miles both north and south of the reservoir. Acquiring the Victoria 
Lake properties would advance the Great Lakes Restoration Initiative by 
protecting the water quality of the West Branch Ontonagon Wild and 
Scenic River--a Congressionally designated recreational wild and scenic 
river for nearly a third of a mile within the project area. Like the 
Prickett Lake property, the Victoria Lake tracts are also traversed by 
a portion of the North County National Scenic Trail.
    The Victoria Lake properties also provide significant opportunities 
for the conservation, restoration, and improved management of a number 
of quality wildlife resource values, including bald eagle and wetland 
habitat. These parcels would add to the connectivity of wildlife 
habitat already managed as public land in the area. The steep, north-
facing slopes above the reservoir and river are uncommon in the area 
and provide ideal surroundings for boreal species to persist in the 
face of changing climatic conditions. Should vulnerable species begin 
to disappear across much of this landscape as a result of increasing 
heat and drought conditions, surviving populations are expected to 
endure in the moist north-facing coves of these parcels. Acquisition of 
the Victoria Lake parcels will help the Forest Service maintain intact 
forest landscapes that are resilient to climate changes and contribute 
to ongoing carbon-sequestration efforts. In fiscal year 2011, $1 
million is needed to permanently protect the lands around Victoria 
Lake.
Hiawatha National Forest--Hiawatha Watershed Health Project Phase I
    The Hiawatha Watershed Health Project is a landscape-scale 
conservation project focusing on the restoration and maintenance of 
watersheds that serve the central and eastern portions of the Upper 
Peninsula. As part of the Hiawatha Watershed Health project, the 
Hiawatha National Forest proposes to begin the acquisition of important 
resource lands from Plum Creek Timber Company, an effort that when 
completed will significantly consolidate Federal ownership and help 
ensure the protection and conservation of three separate watersheds 
that drain into the northern Great Lakes. The conservation of these 
watersheds and extensive wetland areas would help support the 
objectives of the Great Lakes Restoration Initiative.
    Consolidation of Federal lands associated with the Hiawatha 
Watershed Health Project would also enhance recreational opportunities 
and protect habitat for a number of species facing extinction. 
Acquisition of several parcels near the Bay de Noc to Grand Island 
Trail would improve management and protection of the visual and scenic 
qualities of this popular hiking trail, which is listed on the State 
Register of Historic Places. The tracts offer secluded older forest 
habitat that favors the recovery of the endangered Eastern gray wolf, 
the threatened Canadian lynx, and other sensitive species, including 
the northern goshawk and the red-shouldered hawk. Acquisition of these 
parcels would preclude further subdivision of the land and the 
conversion to alternative uses, such as rural residential development. 
The impact of conversion on natural resources and public access would 
likely be significant if these lands are subdivided and sold to 
multiple landowners. An appropriation of $2,500,000 from the Land and 
Water Conservation Fund in fiscal year 2011 for the purchase of 2,500 
acres of these important resource lands will protect critical watershed 
areas in the Upper Peninsula and support the objectives of the Great 
Lakes Restoration Initiative.
    The Great Lakes, Great Lands--Upper Peninsula project represents a 
substantial step toward achieving landscape-scale conservation that 
will provide significant watershed protection, safeguard substantial 
wildlife habitat, and address the threat of climate change. A total 
appropriation of $4,800,000 from the Land and Water Conservation Fund 
is needed in fiscal year 2011 to achieve this extraordinary 
conservation goal.
    In closing, the Land and Water Conservation Fund is our Nation's 
premier Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds, improving wildfire management, and assisting the 
adaptation of wildlife and fisheries to climate change. For all these 
reasons, the President has included meaningful increases to the program 
in his fiscal year 2011 budget, and I support the administration's 
commitment to fully funding the program in the near future. Recognizing 
the many demands this committee faces, I also want to thank the 
committee for its recent effort to restore much-needed funding to this 
depleted program. This wise investment in the Land and Water 
Conservation Fund is one that will permanently pay dividends to the 
American people and to our great natural and historical heritage.
    I want to thank the Chairman and the members of the subcommittee 
for this opportunity to testify on behalf of this nationally important 
protection effort in Michigan, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    For 41 years, United Tribes Technical College (UTTC) has provided 
postsecondary career and technical education, job training, and family 
services to some of the most impoverished Indian students from 
throughout the Nation. Unemployment among the Great Plains tribes, 
where 75 percent of our students are from, typically run at about 75 
percent. Nearly half who are employed are living under the poverty line 
(2005 BIA Labor Force Report). We are governed by the five tribes 
located wholly or in part in North Dakota; we are not part of the North 
Dakota State college system and do not have a tax base or State-
appropriated funds on which to rely. We have consistently had excellent 
retention and placement rates and are a fully accredited institution. 
Bureau of Indian Education (BIE) funds represent about half of our 
operating budget and provide for our core instructional programs. These 
funds are authorized under title V of the Tribally Controlled Colleges 
and Universities Act.
    The requests of the UTTC Board for the fiscal year 2011 BIE/BIA 
budget are:
  --$6.4 million in BIE funding for UTTC for our Indian Self-
        Determination Act contract, which is $2 million more than the 
        fiscal year 2010 enacted level. This is our base funding.
  --$4.375 million toward phase I of a planned Northern Plains Indian 
        Police Academy located at UTTC.
  --$3 million for phase II of our Science and Technology Building.
  --$3 million for student housing on our south campus to accommodate 
        an increasing student population and also for anticipated needs 
        related to a law enforcement academy.
  --$23 million increase over the budget request for Administrative 
        Cost Grants for BIE-funded elementary and secondary schools for 
        a total of $69 million; this is not funding for our college, 
        but rather for tribally operated elementary and secondary 
        schools.
    Base Funding.--UTTC administers its BIE funding under an Indian 
Self-Determination Act agreement, and has done so 33 years. Funds 
requested above the fiscal year 2010 level are needed to: (1) maintain 
100-year-old education buildings and 50-year-old housing stock for 
students; (2) upgrade technology capabilities; (3) provide adequate 
salaries for faculty and staff (who have not received a cost of living 
increase this year and who are in the bottom quartile of salary for 
comparable positions elsewhere); and (4) fund program and curriculum 
improvements, including at least three 4-year degree programs.
    Acquisition of additional base funding is critical as UTTC has more 
than tripled its number of students within the past 6 years, but actual 
base funding for educational services, including Carl Perkins Act funds 
has increased only 25 percent in that period (from approximately $6 
million to $8 million). Our BIE funding provides a base level of 
support allowing the college to compete for discretionary contracts and 
grants leading to additional resources annually for the college's 
programs and support services.
    Indian Police Academy.--We have been working toward the 
establishment of a police training academy on our campus. We have done 
this with the encouragement of our congressional delegation and tribes, 
especially those in the Northern Plains. To that end we signed a 
Memorandum of Understanding in 2008 with the BIA and the American 
Indian Higher Education Consortium to provide supplemental in-service 
training to BIA and tribal police officers as maybe agreed upon by the 
BIA. In fiscal year 2010, $250,000 was appropriated to the BIA and 
designated as special initiative of the Indian Police Academy in New 
Mexico to work with UTTC on law enforcement training matters. That is a 
good first step but we need to move to establishment of a full-fledged 
police training academy for BIA and tribal police in the Northern 
Plains. The only Indian police academy now is in Artesia, New Mexico 
which, while doing excellent work, can train only 3 classes of 50 
persons annually. There is an attrition rate of 47 percent, thus 
graduating on average 80 officers each year. Of those graduates, one-
half will leave law enforcement as a career or move to an agency 
outside of Indian Country. The BIA estimates that tribal police 
officers are staffed at only 58 percent of need.
    Our specific request for $4.375 million is for phase I of the 
police academy facility, which will include the basic building for 
instruction of 35,000 sq. ft., enough to train up to 165 law 
enforcement officers per year. We have entered into discussions with 
Federal, local, and State officials to ensure the facility and the 
training we offer will meet all requisite standards, and to coordinate 
what part of the facility should be placed at UTTC and which parts may 
be placed elsewhere, in order to share the cost.
    UTTC testified before the Senate Committee on Indian Affairs on 
March 18, 2010, regarding law enforcement training, recruitment, and 
retention needs in Indian country. We will make available to you our 
testimony from that hearing.
    Math and Technology Building.--UTTC provides education for more 
than 1,000 students in 100-year-old former military buildings (Fort 
Abraham Lincoln), along with one 33-year old ``skills center'' which is 
inadequate for modern technology and science instruction. We have 
completed phase I of the building and now look to complete phase 2. We 
have raised $5 million, including $1 million in private funding, $3 
million from the Department of Education and $1 million in borrowed 
funds, and anticipate an additional $1 million from the Department of 
Education title III funds. The total project cost is expected to be 
around $12 million. Our current facility lacks laboratories with proper 
ventilation and other technologies which are standard in science 
education. We lack a modern auditorium/lecture hall with features such 
as computer Internet access and electrical outlets and a library with 
appropriate computer stations. Our present library has been cited by 
the accrediting agency as being inadequate.
    Student Housing.--We are constantly in need of more student 
housing, including family housing. We want to educate more students but 
lack of housing has at times limited the admission of new students. 
With the expected completion of a new science and math building on our 
South Campus on land acquired with a private grant, we urgently need 
housing for up to 150 students, many of whom have families. New housing 
on the south campus could also accommodate those persons being trained 
in our Northern Plains Police Academy.
    While UTTC has constructed three housing facilities using a variety 
of sources in the past 20 years, approximately 50 percent of students 
are housed in the 100-year-old buildings of the old Fort Abraham 
Lincoln, as well as in duplexes and single family dwellings that were 
donated to UTTC by the Federal Government along with the land and Fort 
buildings in 1973. These buildings require major rehabilitation. New 
buildings for housing are actually cheaper than trying to rehabilitate 
the old buildings that now house students.
    Administrative Costs Grants for Elementary/Secondary Schools.--As 
noted above, we recommend a $23 million increase over the 
administration's request for ACGs for BIE-funded, tribally operated 
elementary and secondary schools. We have such a school on our campus--
the Theodore Jamerson Elementary School. While Congress has, 
thankfully, recently increased funding for BIA and IHS Contract Support 
Costs for tribal governments, it has not done so for the tribally 
controlled BIE-funded elementary and secondary schools. The equivalent 
to CSC for these schools is ACGs.
    Below are some important things we would like you to know about our 
UTTC:
    UTTC Performance Indicators.--UTTC has:
  --An annual 80-90 percent retention rate.
  --A placement rate of 94 percent (job placement and going on to 4-
        year institutions).
  --A projected return on Federal investment of 20-to-1 (2005 study 
        comparing the projected earnings generated more than a 28-year 
        period of UTTC Associate of Applied Science and Bachelor degree 
        graduates of June 2005 with the cost of educating them).
  --The Highest Level of Accreditation.--The North Central Association 
        of Colleges and Schools has accredited UTTC again in 2001 for 
        the longest period of time allowable--10 years or until 2011--
        and with no stipulations. We are also 1 of only 2 tribal 
        colleges accredited to offer accredited on-line (Internet 
        based) associate degrees.
  --More than 20 percent of graduates go on to 4-year or advanced 
        degree institutions.
    Our Students.--Our students are from Indian reservations from 
throughout the Nation, with a significant portion of them being from 
the Great Plains area. Our students have had to make a real effort to 
attend college; they come from impoverished backgrounds or broken 
families. They may be overcoming extremely difficult personal 
circumstances as single parents. They often lack the resources, both 
culturally and financially, to go to other mainstream institutions. 
Through a variety of sources, including funds from the BIE, UTTC 
provides a set of family and culturally based campus services, 
including: an elementary school for the children of students, housing, 
day care, a health clinic, a wellness center, several on-campus job 
programs, student government, counseling, services relating to drug and 
alcohol abuse and job placement programs. We are currently serving 168 
students in our elementary school and 169 youngsters in our child 
development centers.
    UTTC course offerings and partnerships with other educational 
institutions. We offer accredited vocational/technical programs that 
lead to 17 2-year degrees (Associate of Applied Science and 11 1-year 
certificates, as well as a 4-year degree in elementary education in 
cooperation with Sinte Gleska University in South Dakota. We intend to 
expand our 4-year degree programs. While full information may be found 
on our Web site (www.uttc.edu), among our course offerings are:
    Licensed Practical Nursing.--This program results in great demand 
for our graduates; students are able to transfer their UTTC credits to 
the North Dakota higher educational system to pursue a 4-year nursing 
degree.
    Medical Transcription and Coding Certificate Program.--This program 
provides training in transcribing medical records into properly coded 
digital documents. It is offered through the UTTC's Exact Med Training 
program and is supported by Department of Labor funds.
    Tribal Environmental Science.--This program is supported by a 
National Science Foundation Tribal College and Universities Program 
grant. This 5-year project allows students to obtain a 2-year AAS 
degree in Tribal Environmental Science.
    Community Health/Injury Prevention/Public Health.--Through our 
Community Health/Injury Prevention Program we are addressing the injury 
death rate among Indians, which is 2.8 times that of the U.S. 
population. This program has in the past been supported by the IHS, and 
is the only degree-granting Injury Prevention program in the nation. 
Given the overwhelming health needs of Native Americans, we continue to 
seek resources for training of public health professionals.
    Online Education.--Our online education courses provide increased 
opportunities for education by providing Web-based courses to American 
Indians at remote sites as well as to students on our campus. These 
courses provide needed scheduling flexibility, especially for students 
with young children. They allow students to access quality, tribally 
focused education without leaving home or present employment. We offer 
online fully accredited degree programs in the areas of Early Childhood 
Education, Community Health/Injury Prevention, Health Information 
Technology, Nutrition and Food Service and Elementary Education.
    Criminal Justice.--Our criminal justice program leads many students 
to a career in law enforcement, and as noted elsewhere in this 
testimony, we are working toward establishment of a police training 
academy at UTTC.
    Computer Information Technology.--This program is at maximum 
student capacity because of limitations on resources for computer 
instruction. In order to keep up with student demand and the latest 
technology, we need more classrooms, equipment and instructors. We 
provide all of the Microsoft Systems certifications that translate into 
higher income earning potential for graduates.
    Nutrition and Food Services.--We help meet the challenge of 
fighting diabetes and other health problems in Indian country through 
education and research. As a 1994 Tribal Land Grant institution, we 
offer a Nutrition and Food Services AAS degree in order to increase the 
number of Indians with expertise in nutrition and dietetics. There are 
few Indian professionals in the country with training in these areas. 
We have also established a Diabetes Education Center that assists local 
tribal communities, our students and staff to decrease the prevalence 
of diabetes by providing food guides, educational programs, training 
and materials.
    Our BIE and Perkins funds provide for nearly all of our core 
postsecondary educational programs. Very little of the other funds we 
receive may be used for core career and technical educational programs; 
they are competitive, often one-time supplemental funds which help us 
provide the services our students need to be successful. We cannot 
continue operating without BIE funds. Thank you for your consideration 
of our requests.
                                 ______
                                 
               Prepared Statement of Wellington, Florida
    Madam Chairman and members of the subcommittee: On behalf of The 
Village of Wellington, Florida, I am pleased to submit this statement 
for the record in support of our fiscal year 2011 request of $1.5 
million for Wellington's Water and Wastewater Utilities Systems 
Expansion and Improvement Project. This vital project is a major 
component of the Village's overall environmental infrastructure program 
that also includes a Best Management Practices (BMPs) and Mitigation 
Program.
                       project executive summary
    Since its incorporation, Wellington has been a leader in 
environmental initiatives. Following in the footsteps of its landmark 
approach for compliance with the 1994 Everglades Forever Act (EFA), 
which established water quality goals for the restoration and 
preservation of the Everglades Protection Area, Wellington forged a 
partnership with Federal, State, and regional agencies in its effort to 
restore and preserve the environment while providing responsive, high-
quality services to its residents. To that end, we are seeking funding 
to supplement our current funding commitments for construction and 
improvements of 4.75 MGD, $23 million wastewater treatment plant 
providing treatment capacity to support our economic development 
efforts, 100 percent reuse minimizing water resource impacts/energy use 
and 100 percent environmentally friendly Class AA bio-solids as well as 
construction of 3.6 MGD, $9 million water treatment plant providing 
treatment capacity to support job growth, ultra-efficient treatment 
processes to minimize energy use and ensure compliance with water 
quality standards.
    Specifically, Wellington is seeking $1.5 million in Federal funding 
to help support its flagship project to improve and repair the aging 
water and wastewater systems to meet Federal regulatory requirements 
and public safety levels of service. Two hundred twenty-five new jobs 
will be created as a result. The four key projects undertaken by the 
Village of Wellington, almost totally at local taxpayers' expense, is 
$35.8 million. They include:
  --Wastewater Treatment Plant Expansion Project.--This is a $22 
        million project to install new technology for treatment of 
        waste effluent for wastewater utility operations. Additional 
        treatment and reuse capacity and provisions for future bio-
        solids processing are required to meet increases in population 
        and regulatory requirements.
  --Water Treatment Plant.--This is a $9.6 million project to replace 
        out-of-date and inefficient water systems and expand the 
        reverse osmosis system to provide more effective systems. 
        Currently this project has been deferred due to lack of 
        funding. This is a critical component in our overall 
        responsible environmental stewardship as it provides us the 
        ability to utilize the Floridian Aquifer as a water supply 
        source in lieu of the surficial aquifer system currently 
        utilized.
  --Reuse Transmission Lines.--This is a $2.8 million project to 
        install reuse transmission and distribution piping throughout 
        major corridors of Wellington.
  --Storage and Re-pump Renewal and Replacement.--This is a $1.4 
        million project to repair, replace, and renew existing storage 
        and re-pump facilities throughout Wellington. Repairs are 
        needed to provide a reliable source of potable water service 
        and fire protection service.
    Prior to embarking on our ambitious infrastructure project, we have 
invested $20 million public funds in conjunction with the Acme Basin B 
Discharge project as part of 1 of 55 projects that comprise the 
Comprehensive Everglades Restoration Plan (CERP). The Basin B drainage 
area is part of the Acme Improvement District, which was created by the 
state of Florida in 1953 to provide drainage for agricultural land in 
central Palm Beach County. During the 50 years since its inception, 
land uses within the improvement district have changed dramatically. 
The Acme Improvement District now serves the Village of Wellington and 
more than 60,000 residents. Basin B consists of 8,680 acres of low-
density development located in the southern half of the Improvement 
District. The western boundary of Basin B abuts the Loxahatchee Refuge.
    Wellington, Florida has 60,000 residents and is a unique mixture of 
urban, rural, equine, and agricultural land uses each having varying 
impacts on our storm water quality. Through regulations controlling 
animal waste, fertilizer use and application and specialized 
development standards, Wellington has demonstrated its commitment to 
protecting and improving our water resources.
    Since 1999, Wellington has played a leadership role in the 
development and implementation of storm water quality improvements. To 
date, Wellington has invested more than $20 million and has partnered 
with regional, State and Federal agencies toward the mutual goal of 
improving water quality in south Florida and, ultimately, in the 
Everglades. Some of the projects include a complete re-plumbing of its 
storm water canal system which eliminated discharges to portions of the 
Everglades. In addition, a 320-acre preserve was designed and 
constructed to store and treat stormwater runoffs prior to leaving 
Wellington. Wellington is also the first community in south Florida to 
adopt and enforce comprehensive Best Managements Practices (BMPs) to 
reduce nutrient concentrations. By 2006, Wellington met the south 
Florida mandate of phosphorus discharge of 50 ppb into the Everglades.
    While Wellington has labored for more than a decade developing and 
implementing its comprehensive stormwater projects and programs, others 
have stood by and watched with great interest. As we now look to the 
new rules being promulgated by the Environmental Protection Agency 
(EPA) designed to create ``numeric water quality standards'' applicable 
throughout Florida, Wellington has proactively and independently 
proposed new BMP regulations and operational protocols designed to 
further reduce nutrients in our storm water systems.
    For Wellington to maintain its leadership role, we are also 
undertaking a $2.2 million program to refine further our Best 
Management Program and continue Wellington's commitment to 
environmental protection, including preservation of our water 
resources.
    The Best Management Practices and Mitigation Program is a $2.2 
million project that will develop new Best Management Practices (BMP 
Phase II) designed to further enhance flood attenuation, improve water 
quality and provide additional storage of surface water. The project's 
goal is to further reduce nutrient concentrations and other pollutants 
that potentially may enter the regional storm water systems. This goal 
is consistent with and complimentary to, other State and Federal 
efforts to improve water quality in south Florida and the Florida 
Everglades.
    Wellington's efforts have been recognized as innovative and 
effective. Our experience can serve as a benchmark for others.
                             funding needs
    For fiscal year 2011, Wellington, Florida is seeking $1.5 million 
from the EPA through the Appropriations Subcommittee on the Interior, 
Environment, and Related Agencies for its Water and Wastewater 
Utilities System Expansion and Improvement Project.
    On behalf of the Village Council and the citizens of Wellington, 
Florida, thank you for your consideration of our request.
                                 ______
                                 
           Letter From by the Western Interstate Energy Board
                                                    March 17, 2010.
Hon. Dianne Feinstein,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lamar Alexander,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
    Dear Chairman Feinstein and Senator Alexander: On behalf of the 
coal mine reclamation agencies in the States of Colorado, Montana, New 
Mexico, Utah, and Wyoming, we are writing to convey our concerns with 
the administration's proposed 15 percent ($11 million) reduction in 
State regulatory grants in fiscal year 2011 authorized under the 
Surface Mining Control and Reclamation Act (issued by the Office of 
Surface Mining Reclamation and Enforcement). More than one-half of the 
Nation's coal is mined in our States.
    In fiscal year 2010, Congress approved an additional $5.8 million 
increase for State title V grants over the fiscal year 2009 enacted 
level, for a total of $71.3 million. Congressional action helped avert 
serious problems in the funding of Western State regulatory programs as 
outlined in a report we prepared in November 2006, ``An Impending 
Crisis for Coal Supplies'' (http://www.westgov.org/wieb/reclamation/
2006/12-01-06finalrpt.pdf). Congressional action was essential to 
restoring the Federal share of State regulatory programs and reversing 
a 12-year period during which OSM costs were adjusted for inflation but 
State regulatory grants were not.
    The administration's proposed fiscal year 2011 budget threatens to 
undo the progress made by Congress. The administration's proposal to 
cut State regulatory grants--a proposal that is based on the 
unsupported assumption that State permit fees can be quickly raised to 
fill the budget hole--is completely unrealistic. The most likely 
outcome of the administration's proposal is serious erosion of State 
program capabilities as positions go unfilled, personnel are laid off, 
and needed equipment purchases are deferred. As State program 
capabilities erode, so do our abilities to orderly review and enforce 
coal mine permits and to protect the public from any potential health 
and environmental impacts of coal mining.
    We appreciate the support Congress has provided State regulatory 
programs through title V grants and the funding of critical OSM 
training and technical assistance programs. We urge you to block the 
administration's proposals that would undercut effective regulatory of 
coal mining by the States and maintain the constructive course Congress 
has been on in the last several years.
            Sincerely,
                                         Douglas C. Larson,
                                                Executive Director.
                                 ______
                                 
            Letter From the Wyoming State Engineer's Office
                                                    March 15, 2010.
Hon. Dianne Feinstein,
Chairman, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.
Hon. Lamar Alexander,
Ranking Member, Subcommittee on the Interior, Environment, and Related 
        Agencies, Washington, DC.

Re: Support for Funding of $5,900,000 in fiscal year 2011 within the 
        Bureau of Land Management's (BLM) Soil, Water and Air Account 
        Management Program for implementing Colorado River Salinity 
        Control Program measures; Requesting the Specific Designation 
        of $1,500,000 be spent on identified salinity control and 
        salinity control-related projects and studies.
    Dear Chairman Feinstein and Ranking Member Alexander: This letter 
is sent in support of fiscal year 2011 funding for the BLM for 
activities directly benefiting the Colorado River Salinity Control 
Program. The activities needed to control salts reaching the Colorado 
River system from lands managed by the BLM fall within that agency's 
Land Resources Subactivity--Soil Water and Air Management Program. We 
request $5,900,000 be directed to enhancing Colorado River water 
quality and to engage in land management activities that will 
accomplish salt loading reduction in the Colorado River Basin.
    Wyoming is a member State of the seven State Colorado River Basin 
Salinity Control Forum, established in 1973 to coordinate with the 
Federal Government to assure maintenance of basin-wide Water Quality 
Standards for Salinity that have been in place for more than three 
decades. The Forum is composed of gubernatorial representatives who 
interact with the involved Federal agencies on the joint Federal/State 
efforts to control the salinity of the Colorado River. The Forum 
annually makes funding recommendations, including the amount believed 
necessary to be expended by the Bureau of Land Management for its 
Colorado River Basin Salinity Control Program. Overall, the combined 
efforts of the Basin States, the Bureau of Reclamation, the Bureau of 
Land Management and the Department of Agriculture have resulted in one 
of the Nation's most successful nonpoint source control programs.
    The basin-wide water quality standards for salinity consist of 
numeric water quality criteria established and maintained at three 
Lower Colorado River points (Below Hoover Dam, Below Parker Dam and At 
Imperial Dam) and a plan of implementation describing the Program's 
components, including specific salinity control projects to remove salt 
from the River system. Pursuant to the Clean Water Act, the water 
quality standards for salinity are reviewed at least once each three 
years. At those intervals, the plan of implementation is jointly 
revised by the States and involved Federal agencies, including 
representatives of the Bureau of Land Management, to ensure that the 
planned actions are sufficient to maintain continuing compliance with 
the basin-wide Water Quality Standards for Salinity's numeric criteria.
    Successful implementation of land management practices by the 
Bureau of Land Management to control soil erosion and the resultant 
salt contributions to the Colorado River system is essential to the 
continued success of the Colorado River Basin Salinity Control Program. 
The BLM's fiscal year 2010 Budget Justification document reports that 
the agency continues to implement on-the-ground projects, evaluate 
progress in cooperation with the Bureau of Reclamation and the 
Department of Agriculture and report salt-retaining measures in 
furtherance of implementing the plan of implementation. As noted in the 
testimony of the Colorado River Basin Salinity Control Forum (as 
submitted by Jack A. Barnett, the Forum's Executive Director), the 
Forum's member States, including the State of Wyoming, believe that 
fiscal year 2011 Soil, Water and Air Management Program funds should be 
used, in part, to continue efforts that will directly reduce salt 
contributions from BLM-managed lands within the Colorado River Basin, 
consistent with BLM's fiscal year 2011 Budget Justification document. 
At its recent October 2009 meeting, the Forum, in consultation with BLM 
officials, recommended that the U.S. Bureau of Land Management should 
expend $5,900,000 in fiscal year 2011 for salinity control. 
Accordingly, we request that the BLM be directed to expend from Soil, 
Water and Air Management Program funds not less than $5,900,000 for 
activities to reduce salt loading from BLM-managed lands in the 
Colorado River Basin in fiscal year 2011.
    As one of the five principal Soil, Water and Air Program priorities 
identified by the BLM, projects directly accomplishing Colorado River 
salinity loading reductions should be funded. In the past, the BLM has 
used Soil, Water and Air Program funding for specific salinity control 
project proposals submitted to BLM's salinity control coordinator by 
BLM staff in the seven Colorado River Basin States. Through this 
competitive proposal consideration process, funds have been awarded to 
those projects having the greatest merit (as measured by their salt 
loading reduction and ability to quantify the salinity reduction that 
would be accomplished). The Colorado River Basin Salinity Control 
Forum's testimony to this subcommittee requests designation of 
$1,500,000 for this purpose. As Wyoming's Forum members, we wish to 
advise that the State of Wyoming concurs in that request.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado and Wyoming, the collaborative efforts of the collective 
State/Federal agencies and organizations working through the auspices 
of the Colorado River Basin Salinity Control Forum have selected 
several watersheds where very cost-effective salinity control efforts 
can be implemented without additional delay or study. In keeping with 
the Congressional mandate to maximize the cost-effectiveness of 
salinity control, the State of Wyoming joins with the Forum in 
requesting that the Congress appropriate and the administration 
allocate adequate funds to support the BLM's portion of the Colorado 
River Salinity Control Program as described in the adopted Plan of 
Implementation.
    The State of Wyoming appreciates the subcommittee's funding support 
of the Bureau of Land Management's statutorial responsibility to 
participate in the basin wide Colorado River Salinity Control Program 
in past years. We continue to believe this important basin-wide water 
quality improvement program merits funding and support by your 
subcommittee.
            Respectfully submitted,
                                   Patrick T. Tyrrell,
                                           Wyoming State Engineer, 
                                               Member, Colorado River 
                                               Basin Salinity Control 
                                               Forum.
                                   Dan S. Budd,
                                           Commissioner, Interstate 
                                               Stream Member, Colorado 
                                               River Basin Salinity 
                                               Control Forum.

</pre></body></html>
